<html>
<title> - MISSING WHITE HOUSE E-MAILS: MISMANAGEMENT OF SUBPOENAED RECORDS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
    MISSING WHITE HOUSE E-MAILS: MISMANAGEMENT OF SUBPOENAED RECORDS

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

               MARCH 23, MARCH 30, MAY 3, AND MAY 4, 2000

                               __________

                           Serial No. 106-179

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
69-621 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    March 23, 2000...............................................     1
    March 30, 2000...............................................   219
    May 3, 2000..................................................   485
    May 4, 2000..................................................   659
Statement of:
    Heissner, Karl, branch chief for systems integration and 
      development, Executive Office of the President, Office of 
      Administration.............................................   511
    Lindsay, Mark, assistant to the President and director of 
      White House Management and Administration; and Laura 
      (Crabtree) Callahan, Chief Information Officer, Department 
      of Labor...................................................   137
    Lyle, Michael, director, Executive Office of the President, 
      Office of Administration...................................   514
    Mills, Cheryl................................................   665
    Nolan, Beth, chief counsel to the President; and Dimitri 
      Nionakis, associate counsel to the President...............   769
    Nolan, Beth, counsel to the President; and Robert Raben, 
      Assistant Attorney General for Legislative Affairs.........   262
    Rabin, Robert, Assistant Attorney General for Legislative 
      Affairs....................................................   627
    Ruff, Charles................................................   664
    Salim, Yiman, Northrop Grumman Software developer, Lotus 
      Notes Group; Betty Lambuth, Northrop Grumman manager, 
      former member of the Lotus Notes Group, accompanied by 
      Larry Klayman, counsel, and Tom Fitton, counsel; Robert 
      Haas, Northrop Grumman systems administrator, Lotus Notes 
      Group; Daniel ``Tony'' Barry, computer specialist, 
      Executive Office of the President/Office of Administration, 
      accompanied by John Harden Young, counsel; Steve Hawkins, 
      Northrop Grumman program manager; John Spriggs, Northrop 
      Grumman senior engineer for electronic mail; and Sandra 
      Golas, Northrop Grumman senior software engineer, Lotus 
      Notes Group................................................    22
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia:
        Article dated March 24, 2000.............................   453
        Cheryl Mills subpoena....................................   706
        Exhibit 6................................................   560
        Exhibit 7................................................   108
        Exhibit 60...............................................   465
        Exhibits 3 and 4.........................................   114
        Letter dated December 8, 1998............................   407
        New York Times article...................................   456
        Statement dated January 30, 1998.........................   106
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Exchange of letters......................................     6
        Exhibit 48...............................................   672
        Exhibit 81...............................................   490
        Exhibit 82...............................................   518
        Exhibit 92...............................................   500
        Prepared statement of................................. 225, 505
    Chenoweth-Hage, Hon. Helen, a Representative in Congress from 
      the State of Idaho:........................................
        Exhibit 19...............................................    77
        Exhibit 23...............................................    80
        Exhibit 47...............................................    82
        Exhibit 140..............................................   728
        Exhibit 141..............................................   735
        Exhibit 142..............................................   737
        Exhibit 143..............................................   739
    Ford, Hon. Harold E., Jr., a Representative in Congress from 
      the State of Tennessee:
        Letter dated May 6, 1999.................................   691
        The Hill newspaper article...............................   669
    Haas, Robert, Northrop Grumman systems administrator, Lotus 
      Notes Group, prepared statement of.........................    36
    Heissner, Karl, branch chief for systems integration and 
      development, Executive Office of the President, Office of 
      Administration, prepared statement of......................   512
    Lambuth, Betty, Northrop Grumman manager, former member of 
      the Lotus Notes Group, prepared statement of...............    32
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio:
        Exhibit 56...............................................    52
        Exhibit 80...............................................   431
    Lindsay, Mark, assistant to the President and director of 
      White House Management and Administration, prepared 
      statement of...............................................   142
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Exhibit GR-2.............................................   123
        Letter dated October 6, 2000.............................   397
    Nolan, Beth, counsel to the President, prepared statement of.   265
    Rabin, Robert, Assistant Attorney General for Legislative 
      Affairs, prepared statement of.............................   631
    Salim, Yiman, Northrop Grumman Software developer, Lotus 
      Notes Group, prepared statement of.........................    25
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Exhibit 1................................................   601
        Exhibit 61...............................................   419
        Exhibit 62...............................................   282
        Exhibit 63...............................................   603
        Exhibit 139..............................................   788
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Exhibits 132 and 133.....................................   588
        Letter dated May 3, 2000.................................   782
        Minority Staff Report....................................   363
        Prepared statement of Paulette Cichon....................   258
    Wilson, James C., chief counsel, Committee on Government 
      Reform:
        Exhibit 84...............................................   570
        Exhibit 94...............................................   574
        Exhibit 134..............................................   576
        Letter dated May 19, 2000................................   639


 MISSING WHITE HOUSE E-MAILS: MISMANAGEMENT OF SUBPOENAED RECORDS--DAY 
                                  ONE

                              ----------                              


                        THURSDAY, MARCH 23, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Horn, Mica, Davis 
of Virginia, Souder, Scarborough, LaTourette, Barr, Hutchinson, 
Biggert, Ose, Chenoweth-Hage, Waxman, Mink, Maloney, Norton, 
Cummings, Kucinich, and Davis of Illinois.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; 
Pablo E. Carrillo and M. Scott Billingsley, counsels; Jason 
Foster and Kimberly A. Reed, investigative counsels; Kristi 
Remington, senior counsel; Robert Briggs, deputy chief clerk; 
Robin Butler, office manager; Leneal Scott, computer systems 
manager; Lisa Smith Arafune, chief clerk; Maria Tamburri, 
assistant to chief counsel; Corinne Zaccagnini, systems 
administrator; Caroline Katzin, professional staff member; Phil 
Schiliro, minority staff director; Phil Barnett, minority chief 
counsel; Kenneth Ballen, minority chief investigative counsel; 
Kristin Amerling, minority deputy chief counsel; Cherri 
Branson, Jon Bouker, Paul Weinberger, and Michael Yang, 
minority counsels; Ellen Rayner, minority chief clerk; and Jean 
Gosa and Earley Green, minority assistant clerk.
    Mr. Burton. A quorum being present, the Committee on 
Government Reform will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record, and 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record, and without objection, so ordered.
    I also ask unanimous consent that a set of documents which 
may be used as exhibits in today's hearings, which have been 
shared with the minority staff, be included in the record.
    Mr. Waxman. Reserving the right to object.
    Mr. Burton. The gentleman will state his reservation.
    Mr. Waxman. Mr. Chairman, we're not going to object to 
this, but I understand that the staffs are still going through 
these documents to be sure that there are redactions that are 
going to be important for privacy reasons, so, if the gentleman 
would permit, I'd like to ask if he would amend his unanimous 
consent request to have these documents released after the 
staffs have had an opportunity to review them for redaction 
purposes.
    Mr. Burton. I think that that is in order, and without 
objection we will do that. In fact, I think we have ``after 
being reviewed for redactions'' in the statement, so I guess 
there is no--without objection, so ordered.
    I also ask unanimous consent that questioning in this 
matter proceed under clause 2(j)(2) of House rule 11 and 
committee rule 14 in which the chairmen and ranking minority 
members allocate time to members of the committee as they deem 
appropriate for extended questioning, not to exceed 60 minutes, 
equally divided between the majority and the minority, and 
without objection, so ordered.
    Today we are meeting to hear testimony about the White 
House's failure to produce documents to the committee. As I'm 
sure everyone understands by now, there was a computer glitch, 
an error. As a result, incoming e-mails at the White House 
weren't recorded for a 2\1/2\ year period. They weren't 
searched in response to our subpoenas. They weren't searched in 
response to Justice Department's subpoenas. They weren't 
searched in response to the independent counsel's subpoenas.
    Now, some might say, ``So what? An error was made. What's 
the big deal?'' That's the question I want to address in my 
opening statement.
    The big deal is not that a computer technician made a 
mistake. Mistakes happen. They happen in my office and they 
happen in every office. The big deal is how the White House 
reacted to it.
    They basically had two choices. They could face up to the 
problem, tell the Justice Department and Congress what 
happened, and get it fixed, or they could throw a blanket over 
the whole problem, ignore it, and hope nobody would find out.
    From the interviews we've conducted and the correspondence 
we have received, it looks like they chose to cover it up. I 
hope that by the end of this hearing we will be able to make a 
better judgment.
    Before I go any further into this e-mail problem, I want to 
put this issue into perspective. This isn't the first time that 
this committee has had problems with cooperation from the White 
House. When we began our investigation into illegal fundraising 
in January 1997, we sent the White House a document request. 
They ignored it.
    In March 1997, we sent them a subpoena. They refused to 
honor it.
    In May 1997, we came within days of holding the White House 
counsel, Charles Ruff, in contempt of Congress for not 
producing documents. Only then did they comply.
    In June, Mr. Ruff sent us a letter certifying that they had 
complied with our subpoena. Then, in October 1997, somebody 
found out about the White House videotapes. Ten months after 
our original request, a bunch of red-faced White House lawyers 
had to turn over several hundred tapes of the President at 
controversial fundraising events.
    Their game plan was very clear: stall, delay, run out the 
clock. And it wasn't just the White House.
    The day after we approved our interim report, 2 years after 
we started our investigation, 10 boxes of Democrat National 
Committee documents magically appeared on our doorstep.
    So, as you can see, there is a history here. And, by the 
way, it didn't start with me. Before me, Chairman Clinger had 
exactly the same experience.
    Two-and-a-half years of e-mails--let's turn our focus back 
to the e-mails. A group of Northrop Grumman employees runs the 
White House e-mail system. In May or June 1998, they realized 
that they had a problem. A server was mislabeled. Two-and-a-
half years worth of incoming e-mails were not properly 
preserved. They weren't searched when subpoenas came in.
    White House staff was informed. On Monday, June 15th, two 
White House staffers called them into a meeting. We have 
interviewed the Northrop Grumman employees who were at that 
meeting. It was 21 months ago. They don't remember every 
detail, as you might expect. Some remember one part of the 
conversation, some remembered the other parts of the 
conversation, but their accounts are basically consistent.
    When the interviews were finished, two important things 
emerged about that meeting: first, they were all told to keep 
this problem secret; second, some felt intimidated. One 
Northrop Grumman contractor recalls being told that there was a 
``jail cell with his name on it'' if he told anyone. One woman 
was afraid that her security clearance would be yanked and she 
would never be able to work again. Another woman refused to 
tell her boss what she was working on. She was almost fired. 
She told her boss, ``I'd rather be insubordinate than go to 
jail.''
    They held secret meetings about the problem at a park and 
at a Starbuck's Coffee place so they would not be detected.
    These Northrop Grumman contractors are here today, and I 
appreciate their being here today. They are going to testify on 
the first panel. Obviously, this is going to be uncomfortable 
for them. They are here under subpoena. They are not here 
because they want to be. They are here because they have to be.
    To each of you, I'm very sorry you are put in this 
position, but it is important that we get your views and what 
happened on the record.
    I also want to thank the Northrop Grumman Corp. and their 
attorneys. They have been very cooperative. They have given us 
documents, they have made employees available for interviews, 
and they have been very helpful.
    Why the secrecy by the White House? Why was it so important 
to keep this under wraps?
    There were two White House officials involved in the 
meeting. Laura Crabtree is one, Mark Lindsay is the other. We 
tried to interview them. They declined to talk to us. We have 
some pretty basic questions to ask.
    Why was it so important that this information be kept 
secret? What are their accounts with the meeting with the 
Northrop Grumman employees? Who did they talk to when they 
found out about the problem?
    They have both been subpoenaed, and they are scheduled to 
testify on the second panel. I'm sorry they refused to talk to 
us, but we have questions and we'll ask them today.
    Beth Nolan, the White House counsel, will testify on the 
third panel. She wasn't the White House counsel in 1998, when 
this problem came to light. She took the job last summer. 
Regardless of who was the White House counsel, we have a 
serious issue to deal with. The White House counsel's office 
has known since some time in 1998 that they were not in 
compliance with subpoenas from us, the Justice Department, and 
the independent counsel.
    They were not in compliance with our subpoena in the 
illegal fundraising investigation. This computer problem began 
in the summer of 1996. The second half of 1996 was a critical 
time period during this scandal. We were never informed.
    They were not in compliance with our subpoena and the 
investigation of why the President freed 16 Puerto Rican 
terrorists. We were never informed.
    Let me read a passage of a letter we received from the 
White House counsel's office on October 27, 1999. This was over 
a year after the e-mail problem was discovered.
    ``We have been in the process of searching archived e-mails 
for materials responsive to the committee's subpoena. Enclosed, 
please find responsive documents.''
    Now, how could they give us all the responsive documents if 
they knew the e-mails were there but they hadn't gone through 
them?
    They were not in compliance with our subpoena in the Waco 
investigation. We were never informed. Let me read a passage 
from a December 3, 1999, letter.
    ``Due to the number of requests for information from 
investigative bodies, the search of archived e-mail messages 
has taken longer than expected. I anticipate that we should 
complete the search by the end of next week. If we locate any 
additional responsive materials, we will promptly provide them 
to the committee.''
    And yet, all of these e-mails that they knew about, 
hundreds of thousands, possibly, were not reviewed.
    It is pretty clear that if we didn't find out about this 
problem independently, we were never going to be told by the 
White House, nor was the independent counsel or people at the 
Justice Department. Now, that's a big deal. Complying with 
subpoenas is not optional; it's mandatory. The White House 
counsel's office has an obligation to comply. If they can't, 
they have an obligation to tell us why.
    And it's not like we inundated the White House with 
subpoenas. Not too long ago, a White House spokesman told a 
bunch of reporters that we had sent them something like 700 
subpoenas. Last year, I sent the White House a grand total of 
two subpoenas, two.
    And it's not just us. The White House received subpoenas 
from the Senate, they received subpoenas from the independent 
counsels, they received subpoenas from the Justice Department. 
Were other people informed that hundreds of thousands of e-
mails were not reviewed?
    These are the issues that we want to raise today with Ms. 
Nolan.
    Finally, we have a Justice Department witness appearing 
with Ms. Nolan, Robert Raben, the Assistant Attorney General 
for Legislative Affairs. As everyone knows, we have been 
following the Justice Department very closely. We have been 
watching every step of the way since the Attorney General 
refused to appoint an independent counsel in the campaign 
fundraising investigation.
    What we have seen from the Justice Department has been very 
discouraging. A search warrant for Charlie Trie's home was 
quashed. The FBI wanted to go search his home and go through 
its files because they thought some were being destroyed; yet, 
that search warrant was quashed by the leaders of the Justice 
Department, including Janet Reno.
    The President was not questioned about foreign money 
connections. The Vice President was not questioned about the 
Hsi Lai Temple or foreign money connections. Democrats get 
lighter sentences when Republicans get the book thrown at them.
    When we interviewed the Northrop Grumman employees, we 
realized that no one had been questioned by the Justice 
Department about the missing e-mails. That was March the 7th. 
This whole issue had been on the front page of the newspaper. 
So I wrote a letter to the Attorney General. I asked them why 
they weren't doing anything. It wasn't until after they got my 
letter that the Justice Department and the Attorney General 
contacted the first witness. Is that the way the Justice 
Department works? Do they wait until we are on to them and then 
they do something about it?
    One thing that is of great concern to us is that the 
Justice Department was on both sides of this issue. Justice 
Department lawyers are representing the White House in civil 
suits over the matter. They appear to be working with the White 
House to delay production of these e-mails. At the same time, 
the Campaign Finance Task Force should be trying to get them.
    At this point, I don't think anyone has any idea what is in 
these e-mails, but I get the impression that the Justice 
Department really isn't all that interested.
    When the Attorney General found out about the missing Waco 
tapes, she sent U.S. Marshals to seize them from the FBI and 
Louis Freeh. Now it looks like the White House hasn't complied 
with the Justice Department's subpoenas, and nobody even asks 
about them until I sent them a letter. I wonder why they didn't 
send the U.S. Marshals over there like they did with the FBI?
    That concludes my remarks, and I ask unanimous consent that 
my two letters to the Attorney General be entered into the 
record. Without objection, so ordered.
    I've also exchanged letters with the White House counsel, 
Ms. Nolan, and I ask unanimous consent to enter those in the 
record, and without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.001
    
    [GRAPHIC] [TIFF OMITTED] T9621.002
    
    [GRAPHIC] [TIFF OMITTED] T9621.003
    
    [GRAPHIC] [TIFF OMITTED] T9621.004
    
    [GRAPHIC] [TIFF OMITTED] T9621.005
    
    [GRAPHIC] [TIFF OMITTED] T9621.006
    
    [GRAPHIC] [TIFF OMITTED] T9621.007
    
    [GRAPHIC] [TIFF OMITTED] T9621.008
    
    [GRAPHIC] [TIFF OMITTED] T9621.009
    
    [GRAPHIC] [TIFF OMITTED] T9621.010
    
    [GRAPHIC] [TIFF OMITTED] T9621.011
    
    [GRAPHIC] [TIFF OMITTED] T9621.012
    
    [GRAPHIC] [TIFF OMITTED] T9621.013
    
    [GRAPHIC] [TIFF OMITTED] T9621.014
    
    Mr. Burton. I will now yield to Mr. Waxman for his opening 
statements, then we will move forward with the first panel.
    Mr. Waxman. Mr. Chairman, I am pleased you are holding 
today's hearing. It will provide us an opportunity to explore 
whether there was any wrongdoing in the attempt to coordinate 
the automated records management system, known as the ARMS 
system, with the Lotus e-mail network.
    We are all aware that during the past few years many false 
and reckless accusations have been made about this 
administration and officials that work within this 
administration. We should not repeat those mistakes today. 
Instead, in evaluating the ARMS-Lotus interface, we must 
investigate whether certain acts were the result of sinister 
motives or simply routine mistakes.
    Serious accusations, some involving potential criminal 
conduct, have already been made about the ARMS-Lotus interface, 
so it is essential that we do our best to clarify the record 
and understand the facts, and then let the facts lead us to 
conclusions, rather than start with conclusions and then find 
out if the facts support those conclusions.
    We have already learned, for instance, that no one in the 
Clinton administration ever suggested that specific e-mails or 
categories of e-mails be excluded from the ARMS system. That's 
a fact.
    We have also learned that no one in the Clinton 
administration designed the system or had any role in creating 
the ARMS-Lotus interface or the interface defect, and that's a 
fact.
    Moreover, we know that no one in the Clinton White House 
even knew before June 1998, that some e-mails were being 
excluded from the ARMS-Lotus interface, and consequently not 
being submitted to Congress or the Department of Justice.
    What else do we know?
    We also have learned that the White House has provided 
Congress with over 7,000 e-mails pursuant to congressional 
requests. They have given us 7,000 e-mails, and some of those 
e-mails were embarrassing to the White House, yet they 
submitted those e-mails.
    Some of these e-mails have been repeatedly used by the 
chairman and other Republican leaders as evidence of White 
House wrongdoing. The production of those e-mails would 
seemingly put to rest the question that the White House was 
trying to keep damaging information from the Congress. If they 
were trying to do that, you wonder why they submitted e-mails 
among the 7,000 e-mails that have been used against them.
    Well, by the end of today--and this may be a long day's 
hearing, but it is an important one--we will be in a better 
position to answer three remaining questions.
    First, did any White House employee make any improper 
threat to any of the contract or subcontract employees of 
Northrop Grumman?
    Second, did anyone at the White House try to impede the 
efforts to fix the problem created by a contract employee?
    And, finally, why didn't the White House notify this 
committee and other investigators when the ARMS-Lotus interface 
problem was discovered?
    These are important questions, and I hope we will get 
answers to them.
    We will likely receive conflicting testimony on whether 
threats were made, so we will have to evaluate the credibility 
of the witnesses on this point. We will also have to evaluate 
what involvement, if any, the President, the Vice President, 
and other senior White House officials may have had with this 
issue.
    From what we know now, however, it appears unlikely that 
anyone at the White House tried to obstruct efforts to repair 
the ARMS-Lotus interface, and I believe that Beth Nolan, who 
will testify at the end of today's hearing, may have a 
reasonable explanation for the delay in the White House's 
notification of Congress about the ARMS-Lotus interface 
problem.
    I look forward to listening to today's witnesses. If it 
appears that any wrongdoing has occurred regarding the ARMS-
Lotus interface, we should take appropriate action.
    By the same token, however, if we should also be sure, in 
finding the facts, that there is a reason to correct the record 
if there is no evidence of wrongdoing, I hope that action will 
be taken, as well.
    Let's let the facts speak for themselves. Let's try to find 
the facts as best we can. Where conflicting testimony may be 
leading us in different directions, let us try to keep to this 
issue of the ARMS-Lotus interface to understand what, if 
anything, justifies a congressional hearing and leads us to 
facts that will be useful in our ongoing investigation.
    I yield back the balance of my time.
    Mr. Burton. Thank you, Mr. Waxman.
    I understand a vote has been called on the floor. I want to 
apologize to our first panel, but, in order to have consistency 
in the hearing, I think probably we ought to break real quickly 
for a vote and ask all the Members to get back as quickly as 
possible so we can get on with this, so we will stand in recess 
and call the gavel.
    [Recess.]
    Mr. Burton. We will now welcome our first panel to the 
witness table: Steve Hawkins, Robert Haas, Betty Lambuth, 
Sandra Golas, Yiman Salim, John Spriggs, and Daniel Barry.
    Would you please stand and raise your right hands, please?
    [Witnesses sworn.]
    Mr. Burton. First of all, I want to restate that I know 
that you would probably be rather playing golf or working or 
doing something else today. This is a very important hearing, 
and we do appreciate your cooperation and in your being as 
factual as is humanly possible.
    Do any of you have opening statements you would like to 
make? Ms. Salim, did you have an opening statement?
    Ms. Salim. Yes, sir.
    Mr. Burton. OK. You are recognized. Please pull the 
microphone as close to you as possible. Thank you very much.

STATEMENTS OF YIMAN SALIM, NORTHROP GRUMMAN SOFTWARE DEVELOPER, 
  LOTUS NOTES GROUP; BETTY LAMBUTH, NORTHROP GRUMMAN MANAGER, 
 FORMER MEMBER OF THE LOTUS NOTES GROUP, ACCOMPANIED BY LARRY 
KLAYMAN, COUNSEL, AND TOM FITTON; ROBERT HAAS, NORTHROP GRUMMAN 
   SYSTEMS ADMINISTRATOR, LOTUS NOTES GROUP; DANIEL ``TONY'' 
 BARRY, COMPUTER SPECIALIST, EXECUTIVE OFFICE OF THE PRESIDENT/
  OFFICE OF ADMINISTRATION, ACCOMPANIED BY JOHN HARDEN YOUNG, 
COUNSEL; STEVE HAWKINS, NORTHROP GRUMMAN PROGRAM MANAGER; JOHN 
SPRIGGS, NORTHROP GRUMMAN SENIOR ENGINEER FOR ELECTRONIC MAIL; 
 AND SANDRA GOLAS, NORTHROP GRUMMAN SENIOR SOFTWARE ENGINEER, 
                       LOTUS NOTES GROUP

    Ms. Salim. Good morning.
    My name is Yiman Salim. I am a subcontractor working as a 
Lotus Notes developer in the Executive Office of the President, 
main contractor Northrop Grumman. I have held this position 
since May 1998. I am a member of the Lotus Notes team, 
basically responsible for the analysis, development, and 
support of Lotus Notes applications.
    I understand that the committee would like me to describe 
the events surrounding the Mail2 problem, and I am appearing 
here voluntarily at the committee's request to do so.
    One of my first tasks at the EOP was to work on the upgrade 
of Lotus Notes. During my work on this project in June 1998, 
Bob Haas and I stumbled upon what we thought at the time was a 
flaw in the records management, the scanner process. It was a 
very technical typographical-type error committed by a prior 
contractor before Northrop Grumman was retained.
    We found, quite by chance, that inbound e-mail messages 
were somehow not being picked up by the scanning process of the 
records management system, called ARMS. The scanning portion of 
ARMS is responsible for looking at the e-mail file and sending 
inbound e-mail messages through several processes, ultimately 
ending up on the VAX computer, where searches of those e-mails 
by Government employees occurs.
    Immediately after the discovery of this problem, we 
reported our findings to our immediate supervisor, Betty 
Lambuth, who directed us to put our findings in writing.
    In the days that followed, it was determined that the 
problem was specific only to the Mail2 server. The Mail2 
problem, therefore, affected approximately 500 users, most of 
whom worked for the White House. The problem affected only 
those e-mails inbound to the White House from outside by way of 
the Internet to Mail2 server users.
    Outgoing e-mails sent from Mail2 users at the White House 
were not affected and were records managed according to 
established procedures.
    The Mail2 server problem had originated some time during 
October 1996, when the contractors prior to Northrop Grumman 
built a new e-mail server called ``Mail2.'' When the 
contractors personnel named the Mail2 server, they used an 
upper-case ``M'' and lower-case letters for the rest of the 
name. Following its creation, however, the individual mail 
accounts on the Mail2 server were assigned the name ``MAIL2'' 
using all capital letters.
    When the case-sensitive ARMS scanner process ran on the 
Mail2 server to perform its comparison of the names, the 
comparison failed, since the names did not appear in the exact 
same case; therefore, none of those accounts from Mail2 were 
scanned. Inbound e-mails were not sent to the VAX, and, as a 
result, inbound e-mails were not records managed.
    Outbound e-mails were automatically records managed without 
the need for such scanning. That is why outbound White House e-
mails were not affected by this error.
    A few days after the discovery of the problem, some time 
between June 15 and June 18, 1998, Betty Lambuth, John Spriggs, 
Sandy Golas, Bob Haas, and I were called into Laura Crabtree's 
office for a private meeting.
    My recollection is that in this meeting Laura Crabtree told 
us that Mark Lindsay had instructed that we were not to discuss 
the problem with anyone, including our spouses or our family. 
We were told that the incident was considered sensitive, and 
that we should take it very seriously.
    I do not remember hearing the word ``jail,'' and I never 
felt threatened. In my mind, this was simply a technical issue 
that needed a technical solution.
    My understanding was that this issue would remain with this 
small group only temporarily until the Office of Administration 
had a chance to manage the situation.
    On June 19, 1998, 1 week after the Mail2 problem was 
discovered, I left the country for 2 weeks on a pre-planned 
vacation. After my return, I had little contact with the Mail2 
issue except for attendance at some technical meetings 
regarding the problem.
    In the beginning of November 1998, the group met to discuss 
a technical solution to the Mail2 problem. We focused on how to 
stop the bleeding, which meant that we wanted to find a way to 
properly manage inbound e-mails that entered Mail2 from that 
point forward.
    On November 22, 1998, John Spriggs and I executed a program 
which artificially marked all unmanaged e-mails as record 
managed on the 394 active users who were located on Mail2 at 
that time.
    After that was completed, inbound e-mails on the Mail2 
server were, therefore, properly scanned by ARMS and were 
records managed. All unmanaged e-mails that entered Mail2 
between the inception of the problem in November 1998 became 
part of a separate e-mail reconstruction project.
    Several months later, in April 1999, I discovered another 
problem in the records management system. I found that all 
users with a first name that started with a ``D,'' such as 
``Doug'' or ``David,'' were not being properly scanned by ARMS. 
This problem affected not just Mail2 but all the Lotus mail 
servers.
    The problem was corrected on June 1, 1999, and after this 
correction I created an audit agent that monitors all e-mail 
accounts and reports in a timely basis if there are any records 
management issues. This was done so that any future problems 
would be detected and solved in a timely manner.
    Mr. Chairman, that is my recollection of the events 
concerning discovery of the Mail2 system error.
    Thank you.
    Mr. Burton. Thank you, Ms. Salim.
    [The prepared statement of Ms. Salim follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.015
    
    [GRAPHIC] [TIFF OMITTED] T9621.016
    
    [GRAPHIC] [TIFF OMITTED] T9621.017
    
    [GRAPHIC] [TIFF OMITTED] T9621.018
    
    Mr. Burton. Mr. Haas, did you have an opening statement?
    Mr Barr. Mr. Chairman, may Ms. Lambuth give her statement 
now?
    Mr. Burton. If Mr. Haas has no objection, we'll go with Ms. 
Lambuth.
    Ms. Lambuth.
    Ms. Lambuth. Thank you.
    First of all, Mr. Chairman, I'd like to thank you and your 
committee to have this opportunity to testify on the lost and 
hidden e-mails that occurred in the Clinton-Gore White House.
    When Ms. Salim and Bob Haas informed me, I did take this 
information to my immediate supervisor in the White House, 
which was Laura Crabtree.
    Laura did understand the legal technicalities and severity 
of these lost e-mails, and said that she would like to go talk 
to Mark Lindsay.
    Laura did come back to me and say that Mr. Lindsay had told 
her to tell me and my staff that if any of us spoke about these 
issues, about this particular project which we now named 
``Project X,'' we would not only lose our jobs, we would be 
arrested and we would be put in jail.
    Ms. Crabtree then relayed those messages on to my staff, 
which had been relayed to her by Mr. Lindsay.
    I had also asked Ms. Crabtree, and basically said that, you 
know, ``It's not that I dispute what you're saying. I would 
like to hear this directly from Mr. Lindsay,'' and she agreed 
that this was appropriate.
    I later that day met with Paulette Cichon, who was also 
aware of the situation. Paulette and I went upstairs and I met 
with Mark Lindsay that afternoon quite late. Mr. Lindsay did, 
in fact, reiterate everything that Ms. Crabtree had told me 
that he had instructed her to tell, and that was if I or any of 
my staff relayed this information to anyone--spouses; they 
specifically named Steve Hawkins, who was the program manager 
for Northrop Grumman; Jim Wright, who was the COTR for EOP--
that if we spoke to anyone that we--not just me, whoever 
relayed the information, but that we would all lose our jobs, 
we would be arrested, and we would be put in jail.
    And this is quite significant, because if you are arrested 
or you are removed from any agency--and we've gone through a 
15-year security clearance--that our security clearances are 
stripped from us. This is one of our fears, also, is our 
security clearances are stripped. In this town, as you can 
appreciate, that makes us unmarketable.
    But basically, then, I do want you to understand that I was 
a subcontractor to Northrop Grumman. I was the manager. I was 
in on the proposal that Northrop Grumman did to EOP from the 
very beginning. I was one of the key people in that proposal. I 
did the orals and I had a great staff under me that was all 
Northrop Grumman, except for Ms. Salim, who was with another 
contractor. And we went forward to try to do our very, very 
best on this particular project.
    When I was informed later about some of the e-mails that 
were included in the findings, it did come up that there were 
e-mails from Lewinsky, from Filegate, had to deal with Vice 
President Gore's campaign contributions, the trade seats, etc., 
so there were some very significant issues that were before the 
Government at that time that were quite evident in the lost e-
mails.
    We did meet, as was stated. We felt some pressure from 
various people around. We did meet privately. We did go to the 
park. We did sometimes go across the street to Starbuck's and 
speak in generalities.
    Somehow along the way, when we came out of one of the 
meetings, Sandy was basically asked to do work on a project by 
the COTR, and the COTR----
    Mr. Burton. Excuse me. Would you identify Sandy? We don't--
--
    Ms. Lambuth. Sandy Golas, Ms. Golas, who is also on the 
panel. Sorry.
    And he asked her to work on a particular problem. She 
informed him that she could not at that time because we had a 
special project. He asked her what it was. Going along with 
what we had been told, she did not tell him.
    It is my understanding that at that time she was taken down 
to Steve Hawkins, who also asked her the same question. She 
refused to tell and was threatened at that time by Mr. Hawkins 
with loss of job and being fired also.
    I was called at that time. I was in the doctor's office. I 
was called by Mr. Haas. I talked to Sandy, who was extremely 
upset. I've never seen Sandy that upset. She's a very level-
headed person. I spoke with Sandy. She told me what had gone 
on. I told her just to hang tough, I would be back.
    I at that time called Steve, talked to Steve, asked him 
some questions, basically told him that if he had some issues 
with this whole thing, he needed to address me, but I did not 
want him interrogating my staff or putting them under undue 
pressure.
    I then left the doctor's office in Vienna, went back 
downtown to EOP, addressed Steve. I found Steve. He basically 
said he had nothing else to say to me, that I was 
insubordinate, and that I could not refuse to tell him, and 
things--that he would get me off the contract, which did take 
place in July 1998.
    Along with it having become apparent that the White House 
was not going to proceed and let anyone know that these--that 
this issue had occurred, there was definitely a stalling delay. 
And the reason that I say that is that I kept asking for 
meetings. I couldn't get meetings. I was asked to come up with 
how much time was required for an individual to search these 
records, what equipment would be needed. I gave all of these 
facts, turned all of this over. And every time I asked what was 
to happen on this, where we were going, I could get no answers.
    Also, when it became very evident that I was going to be 
removed from the contract, there was--Northrop Grumman had done 
a reorganization. All my people were put out under different 
managers, so, therefore, they could no longer work as a group 
on this particular issue. They were approached by some of the 
Government people to--that I needed to remain there because of 
the knowledge, etc. That was turned down, which was their 
privilege to do that.
    However, in doing so, it has another significant 
consequence, and that was the fact that, with no manager there, 
they basically had no one to get direction from. By being 
spread out amongst other managers now, they had no one person 
to go to with these issues or that was aware of all of the 
tasks that they had to do, so it made it a little bit more 
difficult.
    They had brought in another person, Jim Webster, from the 
same company that Yiman works for, to take my place. I think 
that there was, from what I had heard, that there was some 
resistance to opening up to him, and I wasn't told until the 
last day that I was there that I could even talk to him about 
the project.
    And Mr. Webster, to my knowledge, only stayed a few weeks 
and then left the project, so they basically were with no 
supervision, as far as having a manager.
    Mr. Burton. I think, Ms. Lambuth, that we have pretty much 
covered the basic problem, and we'll get back to you in just a 
few minutes with some questions.
    Ms. Lambuth. OK.
    [The prepared statement of Ms. Lambuth follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.019
    
    [GRAPHIC] [TIFF OMITTED] T9621.020
    
    [GRAPHIC] [TIFF OMITTED] T9621.021
    
    Mr. Burton. Mr. Haas, did you have some comments that you'd 
like to make?
    Mr. Haas. Yes, sir.
    Mr. Haas. Good morning. My name is Robert Haas. I was asked 
to come before you today to talk about what has been called the 
``Mail2 problem'' at the White House. I do so voluntarily.
    I have worked at the Executive Office of the President for 
the past 9 years. I have worked for Northrop Grumman since 
November 1997, when they were awarded the contract to provide 
computer information services at the White House complex.
    I am a Lotus Notes administrator. Lotus Notes is the e-mail 
system that is currently in use at the White House today.
    Northrop Grumman administers the records management system 
for certain agencies in the EOP.
    On June 15, 1998, I was called to a meeting in the office 
of Laura Crabtree, a civil servant for IS&T of the Office of 
Administration. During the first part of the meeting, Mark 
Lindsay was on a speaker phone addressing the group, which 
included, in addition to myself, Ms. Crabtree, John Spriggs, 
Sandy Golas, Yiman Salim, and Betty Lambuth.
    Mr. Lindsay told us that the discovery of the Mail2 problem 
was to be treated as top secret and that only Ms. Crabtree, Ada 
Posey, and Mr. Lindsay, himself, could authorize the group to 
talk to anyone else.
    Mr. Lindsay specifically told us not to talk to Steve 
Hawkins, the project manager for Northrop Grumman and our 
ultimate supervisor on the site.
    Mr. Lindsay hung up after about 5 minutes, and Ms. Crabtree 
told me that I could not tell even Ms. Virginia Apuzzo anything 
if she asked.
    In a somewhat flippant way, I asked what would happen if I 
did tell her or my wife, and Ms. Crabtree responded that there 
would be a jail cell with my name on it.
    Overall, my impression of the meeting with Ms. Crabtree and 
Mr. Lindsay was very serious about their warnings. I'm not a 
lawyer and did not know one way or the other whether there was 
any basis for their threats, but I did take to heart their 
instructions and tried to obey them carefully.
    This is a brief summary of my recollections of the 
discovery and the report of the Mail2 problem.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Haas.
    [The prepared statement of Mr. Haas follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.022
    
    [GRAPHIC] [TIFF OMITTED] T9621.023
    
    [GRAPHIC] [TIFF OMITTED] T9621.024
    
    [GRAPHIC] [TIFF OMITTED] T9621.025
    
    Mr. Burton. Mr. Barry, did you have comments you'd like to 
make?
    Mr. Barry. Yes, sir. I have a brief statement.
    Mr. Barry. Mr. Chairman, I want the committee's record to 
show that I am Daniel A. Barry and I have been employed by the 
Executive Office of the President/Office of Administration 
since June 1992. My current title is deputy data center 
manager/electronics records manager, and I have responsibility 
for the records that are received by the automated records 
management system [ARMS], and for the overall system 
administration of ARMS.
    I am here today at the request of the chairman and would be 
pleased to answer any questions that you may have about the 
ARMS system.
    Thank you.
    Mr. Burton. Thank you, Mr. Barry.
    Any others like to--yes, sir, Mr. Hawkins.
    Mr. Hawkins. Good morning, sir.
    My name is Steven Hawkins, former program manager for 
Northrop Grumman at EOP.
    I am here voluntarily before this committee to provide 
facts pertaining to this matter today.
    I wasn't going to give an opening statement; however, I 
have to contradict several statements made.
    As a manager under the Government contract, we have strict 
rules of business etiquette to work by. Ms. Lambuth said she 
worked directly for Ms. Crabtree. That is incorrect. Her 
manager was Bob Whiteman. At no time was the records management 
group unmanaged during the tenure of Northrop Grumman.
    I would also like to say that Northrop Grumman employees 
were called to unauthorized meetings because of Ms. Lambuth. 
Repeatedly during the time of employment at EOP, Ms. Lambuth 
was counseled by her manager, by me, and by her CEXEC 
management for failure to comply with management directives, 
and I find it appalling that she is trying to make allegations 
that Northrop Grumman failed to manage the Notes group at any 
given time. They had strict supervision. Mr. Bob Whiteman was 
that manager. And throughout the contract, Mr. Whiteman and Ms. 
Lambuth were both counseled to make sure that they followed the 
terms and conditions of the Northrop Grumman contract with EOP.
    I had a lot of difficulty in that area, especially with Ms. 
Lambuth wanting to work very closely with Government employees 
and failing to follow the Northrop Grumman program management's 
directions and the term and conditions of the contract.
    Thank you.
    Mr. Burton. Any other opening comments?
    [No response.]
    Mr. Burton. Well, then, I will start--I'm sorry, Mr. 
Spriggs, go ahead. You are welcome to make an opening comment.
    Mr. Spriggs. Mr. Chairman and members of the committee, my 
name is John E. Spriggs, Jr. Since September 1996, I have 
worked on various contracts for the information systems and 
technology division of the Office of Administration within the 
Executive Office of the President of the United States. Since 
December 1997, I have been employed by Logicon, a Northrop 
Grumman company, and have served as a senior systems 
integration engineer on their Executive Office of the President 
contract.
    The systems I helped maintain include but are not limited 
to a dozen or so EOP electronic mail gateways and mail servers, 
the EOP access verification systems, Internet e-mail servers 
for both the President and the First Lady. I maintained certain 
mail servers and gateways also for the Office of the Vice 
President, news wire servers for the White House Press Office 
and the EOP community, as well as three Lotus Notes records 
management servers. I appear voluntarily and have voluntarily 
testified before the Senate Governmental Affairs Committee on 
these topics.
    I do not have firsthand knowledge of all the facts in these 
matters, and many aspects are technically complex and clouded 
by the passage of time and the intervention of other events.
    To the best of my knowledge, my actions and those of my 
colleagues were properly supervised and directed. They were 
law-abiding and within the scope of the existing Logicon 
contract.
    The Executive Office of the President of the United States 
is, indeed, a challenging place to work. I appreciate more than 
I can express in my remarks the dedicated service that is 
rendered daily by the men and women who labor there, whether 
they are volunteers, contractors, Civil Service employees, or 
Presidential appointees.
    Thank you, Mr. Chairman, and members of the committee.
    Mr. Burton. Any other comments from any of the members of 
the----
    Mr. Klayman. Yes, Your Honor. May I make a statement, 
insofar as my client was attacked, a brief statement of order?
    Mr. Burton. I understand. Legal counsel can only confer 
with their clients. We do appreciate your being here----
    Mr. Klayman. But the point is that Northrop Grumman----
    Mr. Burton. I understand, but she can speak for herself.
    Mr. Klayman. All right. I'll let her speak for herself.
    Mr. Burton. You can make the comment.
    But let me, before we get into a discussion or a debate 
about that--we could get to that when I ask you questions, Ms. 
Lambuth, because I think we need to start the questioning now.
    Do you have a comment you'd like to make, Ms. Golas?
    Ms. Golas. My name is Sandra Golas. I am appearing here 
voluntarily.
    I manage the VAX systems at EOP. I handle all the records 
management applications on the back side. I don't deal directly 
with Lotus Notes applications; however, I have been involved 
with the Mail2 issue, and I will answer any questions you have 
for me.
    Thank you.
    Mr. Burton. Thank you very much.
    Any other comments?
    [No response.]
    Mr. Burton. If not, we'll start the questioning. First of 
all, let me make a comment. I understand there may be some 
personality conflicts and some personnel conflicts and some 
disagreements on management, and that is not a major concern 
that I have as chairman and I think as most Members have, and 
I'll let them express themselves when they get to questions.
    My big concern is we subpoenaed documents from the White 
House. The Justice Department subpoenaed documents from the 
White House, as did the independent counsel. These documents 
were important for a number of investigations--the so-called 
``Filegate'' investigation, the travel office investigation, 
Waco, the campaign finance investigation.
    Now, this started, as I understand it, in September 1996, 
when there was a glitch in the computer operation. The big 
problem about the campaign finance investigation was going on 
at that time, because there were questions about campaign 
contributions coming in from China, Macau, Indonesia, Taiwan, 
Egypt, South America, and elsewhere, and so these e-mails could 
be very relevant to that investigation, as well as the other 
investigations.
    So I hope, during this conversation we're going to have--
and I hope it is more conversational and not acrimonious, 
because, obviously, when you have a lot of people working in an 
office you do have these problems, even in my office, you know. 
I'm always right, the employees are always wrong, but that's 
the way it goes.
    But the facts we want are these: when did you find out that 
there was a glitch? As I understand it, it was in 1998. There 
was a meeting called. And what I want to ask you--and my first 
question, and I would like to go right down the line, is: what 
happened at that meeting with Ms. Crabtree and Mr. Lindsay on 
the phone?
    So those who were at that meeting, the first question I 
want to ask you is--and I want your answer to be as succinct as 
possible--what do you recall happening.
    Mr. Haas, I think you have been pretty clear. We understand 
that you said that Mr. Lindsay was on the phone, he said this 
was top secret, and to keep your mouth shut about it.
    Now, during that time that he was on the phone, there was 
no threat made other than this was top secret and to be kept 
quiet; is that correct?
    Mr. Haas. That's correct, by Mr. Lindsay.
    Mr. Burton. To your recollection.
    Mr. Haas. That is correct.
    Mr. Burton. Now, Ms. Crabtree, when you hung up the phone--
when he hung up the phone, you said, ``Well, what would happen 
if I told my wife or somebody else,'' and she said?
    Mr. Haas. That there could possibly be a jail cell with my 
name on it.
    Mr. Burton. And you recall that vividly?
    Mr. Haas. Yes.
    Mr. Burton. OK. Now, who else was in that meeting? Ms. 
Golas, what do you recall about the meeting?
    Ms. Golas. Most of what Bob remembers. I remember the 
conversation. Mr. Lindsay was called and put on the speaker 
phone, and I remember him talking to us and telling us it was 
very important that we didn't take the information out of the 
room, that we shouldn't discuss it with anyone.
    After the conversation, I don't remember who said it, I do 
remember the word ``jail'' being used, because I later relayed 
that same statement to Steve.
    Mr. Burton. When you relayed that to Steve, Mr. Hawkins, 
tell me how you relayed it.
    Ms. Golas. Well, he was trying to get me to tell him what I 
was working on, and I was standing behind the table, and he 
said, ``You're bordering on being insubordinate,'' and I said, 
``If it's a choice of being insubordinate or going to jail, I 
guess I'll have to be insubordinate.''
    Mr. Burton. So you did feel a threat?
    Ms. Golas. Somewhat, yes.
    Mr. Burton. OK. Who else was in the meeting? Ms. Salim, 
what do you recall?
    Ms. Salim. I recall going into Laura Crabtree's office and 
being told--Laura basically told us that she had reported this 
problem to Mr. Mark Lindsay and to the director of OE at the 
time, Ada Posey, and she told us that so far only them three 
and us knew about this problem, and she asked us--I remember 
very clearly and vividly her telling us not to discuss this 
problem with anyone, to include our families and spouses, which 
at that point that's what I found a little bit strange, which 
being, you know, being told not to discuss this issue with 
anyone.
    I remember it being very serious. They told us it was a 
sensitive matter.
    Basically, my understanding was that we weren't to discuss 
this problem with anyone, but my real understanding was that 
they would--until they could manage the situation--this was my 
understanding--that they would appreciate from us not to 
discuss this with anyone, and my feeling was that, until they 
could--until this could be managed or they could manage the 
situation.
    Mr. Burton. But they did ask you to--they indicated it was 
top secret. And did you feel threatened?
    Ms. Salim. I did not feel threatened. I did not feel 
personally threatened by this. And I didn't----
    Mr. Burton. Did they tell you it was top secret and to keep 
it quite?
    Ms. Salim. I don't remember the word ``top secret.'' I 
don't recall the word ``top secret.'' What I do recall is being 
told that this is a sensitive matter, and to keep it 
confidential, basically not to discuss it with anyone.
    Mr. Burton. Including your husband or anybody?
    Ms. Salim. Correct.
    Mr. Burton. So they did ask you not to even tell your 
spouse or anyone?
    Ms. Salim. Correct.
    Mr. Burton. OK. So they did want you to keep a lid on it?
    Ms. Salim. Correct.
    Mr. Burton. OK.
    Ms. Lambuth. Or Mr. Spriggs. We'll just go right down the 
line.
    Mr. Spriggs.
    Mr. Spriggs. Yes, I was there. Similar to Yiman, I did not 
hear the word ``jail.'' In the reference to not telling your 
family, your wife, your spouse, my attention picked up more on 
that, more of a concern about not talking about that with my 
wife.
    Another reference to--we typically have a lot of hallway 
conversations. There are always people that are around that 
come through our office. So, again, Ms. Crabtree was specific 
about hallway conversations, keeping those under control, don't 
talk about this, as well.
    But, again, no--I don't specifically remember a reference 
to jail, either.
    Mr. Burton. Well, but you do recall--and I don't want to 
put words in your mouth, but you do recall that they said this 
is something that is very sensitive, should be kept secret, and 
don't even talk to your spouse about it?
    Mr. Spriggs. That's correct. Again, I--not the word ``top 
secret,'' which you characterized or someone characterized. 
Much more like what Yiman was saying, and my remembrance was 
extremely sensitive. It was, ``Keep a lid on it until we find 
out more about this.''
    The major thrust, from my point of view, was that there was 
a point of contact or points of contact that were specifically 
mentioned to us. Any information that we were to get or give to 
the Government was to be done through Betty Lambuth and Laura 
Crabtree; that any instructions that we were to receive would 
come through Laura and Betty to us. So that was our clear, if 
you would, line of authority, as far as we knew. And again, the 
specific reference to Steve Hawkins and also to Jim Wright were 
made, so there was no----
    Mr. Burton. They didn't want Mr. Hawkins or Mr. Wright to 
know about it?
    Mr. Spriggs. That's correct. Specifically, those people 
they did not want us to talk to about it, so the names were 
specifically mentioned.
    Mr. Burton. OK. Well, from those of you who answered so 
far, you are pretty consistent. They wanted you to keep this 
very quiet. There's some difference as to whether or not there 
was a threat of jail. Some of you remember it, some of you 
don't. There is also some question about the word ``secret.'' 
But I think all of you had the same impression: this was very 
sensitive and you were supposed to keep it quiet; is that 
correct?
    [Witnesses respond in the affirmative.]
    Mr. Burton. OK. They've all answered in the affirmative.
    Ms. Lambuth.
    Ms. Lambuth. Yes.
    Mr. Burton. Pull the microphone close to you, please.
    Ms. Lambuth. Well, I obviously had more meetings on this 
whole issue than the rest of my staff did in informing, and I 
apologize if I said that Laura was my direct supervisor. What I 
meant to say was she was my direct Government supervisor.
    Mr. Burton. What we're really interested in, Ms. Lambuth, 
is what went on in that meeting, what went on in the 
conversations between you and Ms. Crabtree and Mr. Lindsay. 
Those are the things that are so relevant to what we want to 
find out, because those documents had been subpoenaed by 
several agencies of the Government. They were obligated to give 
them to us, and keeping them quiet is very serious, so we need 
to know what was said by Ms. Crabtree and Mr. Lindsay.
    Ms. Lambuth. Right. OK. I apologize, but what I was trying 
to say was I had more than the one conversation that my staff 
was in, so some of this is going to mold in together.
    Mr. Burton. Sure.
    Ms. Lambuth. But I was told by a couple of different people 
that we were not to talk to anyone. The names of Steve, the 
COTR, Jim Wright, were mentioned. We were not to talk to our 
spouses, anyone other than those of us that already knew about 
this particular project, and then anyone else that they gave us 
permission to talk to.
    They did tell me that if any of us did talk about this, 
they basically threatened us that my staff would be fired, 
would go to jail, would be arrested and go to jail, and that 
was made very clear more than one time.
    Mr. Burton. By whom?
    Ms. Lambuth. Laura Crabtree relayed it first as being said 
by Mark Lindsay. That afternoon when I went up, or evening, 
when I went up and talked to Mark Lindsay, Paulette Cichon was 
there. Mr. Lindsay reiterated the same thing that I had been 
told by Laura Crabtree, so I was told by Laura for Mr. Lindsay 
and then by Mr. Lindsay, himself.
    Mr. Burton. Let me ask you this, now. As I understand it, a 
number of you--maybe all of you--met at a park and talked about 
these issues, or met at--what was that, Starbuck's?
    Ms. Lambuth. Starbuck's.
    Mr. Burton. Is this a commercial for Starbuck's? 
[Laughter.]
    Met at Starbuck's and talked about this. How many of you 
met at those different meetings? Can you hold your hands up?
    [Show of hands.]
    Mr. Burton. So all of you that were involved in the 
meeting. Why did you feel--and any one of you can answer. We'll 
let each one of you answer--why did you feel it was important 
to meet outside the White House to discuss these things at 
either the park or Starbuck's? And you can just go right down 
the line. Make your comments as brief as possible.
    Mr. Spriggs. Again, we're talking in the June timeframe, so 
there were basically--there's a lot going on at the Executive 
Office of the President. There are--with the office arrangement 
that we have, it is quite easy for people to be overhearing 
conversations. My office is very much of a central place, if 
you would, for people to come to. As I said in my opening 
statements, I'm responsible for a lot of different things, so 
people are always coming around me and my colleagues.
    So if we're going to talk about this stuff and keep it 
under wraps, then we have to be careful as to where we are. Ms. 
Lambuth's office was quite small. Even closing the door, we get 
into rather animated discussions at times, and so it became 
obvious that we needed to get to a place where we could talk 
about this.
    Given that it was nice outside, there were opportunities 
for us to go out to the park--only once, I believe it was, 
maybe twice.
    The question of Starbuck's, my colleagues, particularly Ms. 
Lambuth at the time, drank Starbuck's coffee and she liked to 
go over there and get it. I'm a McDonald's person, if I'm going 
to get my plug in here. [Laughter.]
    So I would go over to McDonald's and get my soda. And so we 
would talk about this, again trying to keep some level head 
about all of this getting away from the hubbub of activity that 
we have within the office.
    Mr. Burton. But the point is that you felt it was necessary 
to go to some place private because of the level of concern 
that was expressed to you by Ms. Crabtree and Mr. Lindsay?
    Mr. Spriggs. That's correct. To amplify it just a little 
bit more, there were actually meetings where we would go to the 
second floor of the new Executive Office Building. That room 
is--it's a very large room for divisional parties or 
presentations by the divisional chief, or whatever. We would 
actually go to that room. We would know basically who was 
there. We would be able to talk openly. It was a large enough 
room that, again, just the team of people being there. So we 
felt fairly comfortable that we were keeping to the assignment, 
which was to keep it under wraps and like that.
    Mr. Burton. I think that--is that pretty much what all of 
you recollect? Ms. Crabtree, do you recollect any more--or Ms. 
Lambuth, I'm sorry, do you recollect any more?
    Ms. Lambuth. No.
    Mr. Burton. That's pretty much it?
    Ms. Lambuth. That's basically it. When we would meet on the 
second floor, sometimes, because the smoking area was on the 
balcony outside, we had a lot of people staring in, and Jim 
Wright happened to be one of those people that would look at us 
with questioning eyes at some times, so we felt a little bit 
better going off premise.
    Mr. Burton. OK. Mr. Hawkins, I understand that you're one 
of the most senior Northrop Grumman employees that were onsite. 
When did you first become aware of this situation?
    Mr. Hawkins. It was the--in June/July timeframe.
    Mr. Burton. Of? June or July of?
    Mr. Hawkins. 1998.
    Mr. Burton. 1998.
    Mr. Hawkins. Mr. Jim Wright, the COTR--contracting 
officer's technical representative--the person who could 
authorize Northrop Grumman to work on EOP. He came to my office 
extremely displeased, and after 2 or 3 minutes of peeling him 
off the ceiling, because he said that Northrop Grumman 
employees were working out of the scope of the contract, I got 
him to calm down, and then he gave me the fact that he walked 
in Ms. Golas' office, and she basically said that she couldn't 
tell Mr. Wright what she was working on, and he felt that that 
was inappropriate, and he also felt that it was a violation of 
our contract. Therefore, he asked me to investigate, and I told 
him I would.
    That was the first time.
    Mr. Burton. Did--I'm going to yield to my colleague here in 
just a minute, but did--when did you find out that they felt 
like this was something--some felt that they were threatened 
and some felt like that they had to keep a lid on this because 
there might be repercussions?
    Mr. Hawkins. Well, once I asked Ms. Golas to come to my 
office, she was very nervous, to say the least, very fidgety. 
And when I asked her what she was working on, she just totally 
came unglued and told me that it was basically none of my 
concern. I said, ``Well, you've told that to Jim, now you've 
told that to me, and that's pretty serious in the government 
contracting world, that--being cited for working outside the 
scope of the contract. I needed to have that information.''
    Well, I gave Ms. Golas 30 minutes to go back to her office, 
think about her position. I did tell her the consequences would 
be insubordination.
    Within a short period after she left my office, the three 
individuals being Sandy, Bob Haas, and John Spriggs, came to my 
office. And that's when I first knew that there was a problem. 
They felt very uncomfortable talking about it, Bob more so, 
saying that he was threatened.
    Mr. Burton. Could you use their last names, because----
    Mr. Hawkins. Excuse me. Bob Haas.
    Mr. Burton. Bob Haas? OK.
    Mr. Hawkins. Felt that he was very threatened with what had 
gone on. Mr. Spriggs, being very calm, he said he was 
concerned.
    All three employees I would characterize as being extremely 
nervous in the situation.
    At that time, they requested that they seek legal counsel 
from Northrop Grumman, which we did, and----
    Mr. Burton. OK. I think that pretty much answers where we 
are.
    Mr. LaTourette, I'll yield you the balance of my time.
    Mr. LaTourette. Thank you very much, Mr. Chairman.
    I want to reiterate, first of all, the chairman's remarks 
that how pleased I think everyone on the committee is that so 
many of you came voluntarily to this hearing.
    I was at a meeting yesterday with Senator John McCain, who 
until recently was running for President, and he was making 
some observations. As you know, he is a champion of campaign 
finance reform, and he was making some observations that he was 
glad that the Vice President of the United States, Mr. Gore, 
was now a discipline of campaign financing reform and has 
learned his lessons from experiences that occurred out of the 
Buddhist Temple fundraiser in California.
    But he went on to say--and something that struck me--was 
that in order to prove that reformation, perhaps the Vice 
President should call for a complete independent review of the 
campaign fundraising abuses of the 1996 election season.
    The word ``independent'' struck me, because in this case 
the subject of this hearing--as the chairman said, you had the 
Justice Department on both sides of the issue. They should be 
interested in these e-mails on the basis of all of the 
subpoenas that went to the White House, but they are also 
defending in civil litigation against the production of these 
e-mails.
    So, since that request hasn't been forthcoming, this 
committee and other committees of the Congress, we sort of slog 
along, and we don't always get the best reputation, and the 
reason for that is that people come before the committee and 
they supply information to the committee about what they've 
seen or what they've heard or what they've experienced. We 
schedule a hearing. The chairman usually lays out in his 
opening remarks what the hearing is going to be about, and then 
the hearings don't always live up to their expectations because 
people leave the country, some people die, records disappear, 
and a couple years later they show up on coffee tables in 
people's houses and we can't figure out how that happens.
    And then that invariably leads the members of the minority, 
particularly our distinguished ranking member, to say something 
like, ``Here we go again.'' And my favorite in the last couple 
of areas was something along the line that the chairman was 
wrong that Mr. Wang said about Mr. Huang, just because of its 
alliterative quality, if nothing else.
    And so I'm glad you are all here, but there are some 
discrepancies in what it is you've presented to us. I would 
like to start with those, and, Ms. Lambuth, I'd like to start 
with you.
    I have been supplied with a--I believe, an affidavit that 
you've executed, and I want to read you a couple of paragraphs 
and see if you still affirm to that today, and then it involves 
a couple of your cohorts here, Mr. Haas and Mr. Barry, in 
particular.
    I'd like to read you this paragraph. ``A contractor from 
Northrop Grumman, whom I supervised and who examined this group 
of e-mails, told me the e-mails contained information relating 
to Filegate, concerning Monica Lewinsky, the sale of Clinton 
Commerce Department trade mission seats in exchange for 
campaign contribution, and Vice President Al Gore's involvement 
in campaign fundraising controversies.''
    Did you attest to that under oath somewhere?
    Ms. Lambuth. Yes.
    Mr. LaTourette. And do you still stand by that today?
    Ms. Lambuth. Yes, I do.
    Mr. LaTourette. OK. And the contractor for NG that you 
supervised, is that Mr. Haas?
    Ms. Lambuth. Yes.
    Mr. LaTourette. Mr. Haas, after this Mail2 problem was 
determined--and, basically, as I understand it, a server was 
off-line and not being subject to capture in the ARMS system; 
is that--so e-mails coming into the White House weren't being 
captured by the ARMS system on this mislabeled, or you had 
small type mailed to as opposed to----
    Ms. Lambuth. That's a simplistic----
    Mr. LaTourette. Well, I'm a simplistic kind of guy, and so 
you're going to have to bear with me.
    So was Mr. Haas tasked with the responsibility, after this 
problem was discovered, of performing a manual search of these 
tapes?
    Ms. Lambuth. Yes. He was actually tasked with a couple of 
different things. One thing was we were trying to determine the 
number of messages that were involved and how much time was 
going to be required to do that.
    The other thing that we had to try to figure out was, since 
we were being--in this contract we were supposed to support all 
messaging, all of the ARMS, etc., plus some other duties that 
Bob had, that how much time this would take so that taking him 
away from some of the other duties--who we could transfer those 
to, amount of time, etc. But yes, he did do some searches.
    Mr. LaTourette. OK. But my specific question has to do 
with: is it your recollection that you were informed by Mr. 
Haas that the e-mails contained in these misdirected Mail2 
servers contained information or e-mails or documents relating 
to all of these----
    Ms. Lambuth. Yes.
    Mr. LaTourette [continuing]. Ongoing investigations of the 
U.S. Congress.
    Mr. Haas, I turn to you now, sir. Did you have a 
responsibility to go through and search the backup tapes that 
have become the subject of this hearing?
    Mr. Haas. First of all, let me make it clear I have nothing 
to do with the backup tapes.
    Mr. LaTourette. OK.
    Mr. Haas. I believe what Ms. Lambuth is referring to me 
searching was the mail servers and the current mail files that 
existed on those servers at that time.
    I was charged with one task of finding all the iterations 
of people that had not been managed during that period of time, 
once we figured out what the failure was.
    And, upon doing that, I was to open every mail file, go to 
a particular view which held those documents in a single view, 
write down account, and try to find the date of the oldest 
document in each person's and present that list. It was a list 
of some 525 mail files that were involved at that time.
    Shortly after I got in the middle of this--it was taking 
several weeks to go through, because I was manually doing it 
with my eyes and my fingers--I was asked to look in a couple of 
specific mail files for particularly Monica Lewinsky was the 
sender. And upon finding----
    Mr. LaTourette. Who gave you that instruction?
    Mr. Haas. Every instruction I ever received was from Betty 
Lambuth.
    Mr. LaTourette. OK.
    Mr. Haas. That was the agreement.
    Mr. LaTourette. OK.
    Mr. Haas. Anyway, I found a large cache of documents in one 
mail file, and I think four documents in another mail file. I 
then notified her of that.
    At no time, other than I was asked to test two documents 
from the Monica Lewinsky cache to verify that the anomaly Mr. 
Barry had reported during the original Monica search--he stated 
he saw incoming--it appeared to be a conversation, but they 
only had the one half of it. So we took a trial time. They 
could tell me exact time of day on a particular day, and I 
looked in that cache and found the corresponding replies 
outbound--I mean, sorry, we had the outbounds but not the 
inbound. And I found the corresponding.
    So I looked at two documents of the Monica Lewinsky, just 
to verify there was a conversation going on and here was the 
other half.
    At no time did I look at any other documents in any other 
mail files, nor have I ever mentioned that there was any 
involvement with Filegate or any other document. It is my 
practice, as a systems administrator there, to never read the 
mail from other people because it is detrimental to my job, my 
sanity, if you will, to do that type of activity, and it's not 
within the guidelines of my job to do. I don't need to read 
your mail to fix your mail file.
    Mr. LaTourette. I would hope not.
    And so, Ms. Lambuth, that conflicts with your recollection 
of the events? Is that a fair observation?
    Ms. Lambuth. Yes, that does conflict.
    Mr. LaTourette. OK.
    Going back to you, Ms. Lambuth----
    Mr. Burton. Can I followup just 1 second.
    Ms. Lambuth.
    Ms. Lambuth. Yes, sir?
    Mr. Burton. Can you elaborate for Mr. LaTourette and the 
committee exactly what made you believe that there were sale of 
trade mission seats that the Vice President was involved in, 
campaign fundraising, and so forth? Can you get into that in 
some detail, as quickly as you can? Because if there is a 
conflict here, we need to resolve it. We need to find out, you 
know, if somebody is either misinformed or has forgotten.
    Ms. Lambuth. Right.
    First of all, Bob is right. We do not read anybody's e-mail 
message. I want that on the record. But we do find certain 
information when we do searches. And there are other people 
that basically were also told that there were records with 
Filegate, the trade mission seats, Vice President Gore's, etc., 
but--and Monica Lewinsky. And Bob was asked to search at one 
time specifically for Monica Lewinsky.
    To the best of my knowledge, as I reported before, I was 
told that there were e-mails in there that was not only from 
Monica Lewinsky, but the trade, the campaign contributions, and 
various other things. And we--this can also be verified by Ms. 
Hall, and Ms. Hall is here in the room--that she was also told 
this.
    Mr. Burton. I'll let Mr. LaTourette----
    Mr. LaTourette. If I can. I mean, we talked to Mr. Haas. 
He's here. So where else did this information come to you that 
you're now describing for us? How do you know this to be so? In 
other words, what you're telling us and what you've sworn to in 
an affidavit under oath, how do you know this to be so?
    Ms. Lambuth. To the best of my recollection, this is what I 
was told.
    Mr. LaTourette. By?
    Ms. Lambuth. By Mr. Haas.
    Mr. LaTourette. OK. I then want to go to another paragraph 
in your affidavit, and that is that, ``The Clinton White House 
considered but did not call Daniel A. Barry--'' and that's the 
gentleman almost at the end of the table.
    Ms. Lambuth. Correct. Yes.
    Mr. LaTourette [continuing]. ``Back from vacation to talk 
to him about Project X.''
    This was called ``Project X,'' I guess, at some time?
    Ms. Lambuth. Yes, It was.
    Mr. LaTourette. And then the Mail2 server reconstruction 
project was called ``Project X?'' Is that a fair statement?
    Ms. Lambuth. This whole mail issue was Project X.
    Mr. LaTourette. All right. And, specifically, there was a 
discussion to maybe call him back from vacation, because he was 
anticipated to be giving testimony or deposition for somebody--
Congress or somebody else----
    Ms. Lambuth. Right.
    Mr. LaTourette [continuing]. But they decided against that?
    Ms. Lambuth. Yes. We were--it did come up in the 
conversation. The Government----
    Mr. LaTourette. With who, if you could, just so we know 
who--what conversation did it come up with? Who was doing the 
talking? Were you there?
    Ms. Lambuth. I was there.
    Mr. LaTourette. And who was talking?
    Ms. Lambuth. And Ms. Crabtree.
    Mr. LaTourette. OK.
    Ms. Lambuth. I do not remember whether Mr. Lindsay was 
there or not on this particular one, but there was another 
Government official there. And there was some discussion about 
whether they should get Mr. Barry back off of vacation, because 
he was going forth to do testimony--and what I was told or what 
I heard was congressional testimony--relating to ARMS. And they 
didn't know whether to get him back, inform him of what had 
been discovered or not, and they would come up with a decision 
on that.
    It was later told to me that they, in fact, chose not to 
tell Mr. Barry.
    Mr. LaTourette. OK. And you go on to say that, ``As a 
result, Mr. Barry did not have relevant information about the 
missing e-mails whenever he presented testimony to whomever he 
was----''
    Ms. Lambuth. That's correct.
    Mr. LaTourette. That's your belief?
    Ms. Lambuth. Yes.
    Mr. LaTourette. Mr. Barry, let me turn now to you.
    I have a declaration that you gave, apparently in a civil 
action called ``Alexander v. the FBI, et al.,'' and that 
declaration is dated and signed by you on July 9, 1999. Do you 
recall giving such testimony or such a declaration?
    Mr. Barry. Yes, I do.
    Mr. LaTourette. And, specifically, you were being asked to 
give information because you are the computer specialist in the 
EOP that has--are you the supervisor of the automated retrieval 
system or the ARMS program?
    Mr. Barry. I'm the program manager of the ARMS system.
    Mr. LaTourette. And, specifically, in paragraph four--and 
it's marked exhibit 56. I don't know if you have that with you, 
but would you like a copy of it?
    [Exhibit 56 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.034
    
    [GRAPHIC] [TIFF OMITTED] T9621.035
    
    [GRAPHIC] [TIFF OMITTED] T9621.036
    
    [GRAPHIC] [TIFF OMITTED] T9621.037
    
    Mr. Barry. Yes, please.
    Mr. LaTourette. I don't want to trick you.
    Could somebody give him exhibit 56?
    Let me read you paragraph four, and then, if you need to 
see the thing, we'll just take a minute and you can answer the 
question. But in paragraph four, as I reviewed it, it looks 
like you were giving testimony in a U.S. district court for the 
District of Columbia relative to the ARMS system and the 
retrieval of and reconstruction of e-mails, but nowhere in 
there, at least on July 9, 1999, do you talk about the fact 
that there is this whole body on the Mail2 server that is out 
there.
    I suppose, in this lawsuit, you are being asked--I think 
this is the Filegate lawsuit, if I remember correctly----
    Mr. Barry. I believe that's correct.
    Mr. LaTourette. OK. But let me--can somebody take him my 
copy, maybe, so we don't waste so much time? Thank you.
    I was referring to paragraph four, which is a specific 
reference to the ARMS system and the reconstruction of e-mails. 
Were you aware in July 1999 of this file--or this Project X or 
the fact that we had a problem with the Mail2 server? I assume 
you were, since you found that----
    Mr. Barry. Yes, I was.
    Mr. LaTourette. OK. Why is it, then, that, in response to--
were you subpoenaed in this proceeding to give a declaration?
    Mr. Barry. Actually, I'm not sure. I don't know if I was or 
not.
    Mr. LaTourette. But, regardless, you gave testimony under 
oath----
    Mr. Barry. Right.
    Mr. LaTourette [continuing]. In lieu of showing up, I 
guess. And I would assume that the inquiry was whether or not--
well, it has to do with the Filegate, that whole business about 
were FBI files from former Bush White House employees were 
ordered up by a bar bouncer from Pittsburgh, but nobody ever 
looked at them because they were kept in the refrigerator, or 
whatever--there was testimony.
    But I assume that the question was whether or not there 
were any missing e-mails in the ARMS system or any records of 
the EOP that could be retrieved relative to that issue. Isn't 
that what they were asking you about?
    Mr. Barry. No. I don't think so. My whole involvement with 
the Alexander case, which is what I had known it as--where I 
had given--actually, this is the third declaration that I had 
given in this case, and I gave a deposition in this case, as 
well.
    To me, the questions that I was being asked and the 
declarations that I was giving have all got to do with 
searching of e-mail, what was searchable, how it could be 
searched, how long it would take to search it, that type of 
thing, and particularly ARMS system. It all focused on the ARMS 
system, because that's what I do.
    Mr. LaTourette. OK.
    Mr. Barry. And it also--it focused around the 
reconstruction project, which had to do with reconstructing e-
mail from the system that we had prior to the ARMS system going 
on line, which was the all-in-one system, and I was the project 
manager on that reconstruction project, as well.
    And so, to me, my involvement, like I said, was, you know, 
how difficult it is to search, how searches can be conducted, 
how long it takes, what kind of searches we can do, and a 
status report on the reconstruction effort. That was all it had 
to do with, my involvement.
    Mr. Burton. My time is expired. We'll get you some more 
time later.
    Mr. LaTourette. Thank you very much.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    The origin of this hearing seems to have been a February 
15, 2000, story in the Washington Times. The headline in the 
story is, ``White House accused of cover-up.'' The first 
paragraph reads as follows: ``The White House hid thousands of 
e-mails containing information on Filegate, Chinagate, campaign 
finance abuses, and Monica Lewinsky, all of which were under 
subpoena by a Federal Grand Jury and three Congressional 
committees, a former White House computer manager says.''
    That's the opening paragraph. It's a powerful accusation. 
And I want to begin my questioning by asking some questions 
about this accusation.
    The issue we are examining today involves what happened to 
a subset of White House e-mails. As I understand it, during a 
2-year period, from 1996 to 1998, e-mails that were sent to the 
White House or about 500 White House employees from individuals 
outside the White House were not captured by the White House 
data retrieval system, called ARMS. Apparently, this was caused 
by a technical defect in the ARMS-Lotus interface in the White 
House computer system.
    So my first question is whether anyone on this panel thinks 
that the White House deliberately designed the ARMS-Lotus 
interface so that incoming e-mails would not be captured.
    Mr. Barry, let's start with you. Let's hear from everybody 
in answer to this question.
    Mr. Barry. I'm not sure what the question is.
    Mr. Waxman. My question is, do you think the White House 
deliberately caused the computer problem? And did the White 
House deliberately design the ARMS-Lotus interface so that 
incoming e-mails wouldn't be captured?
    Mr. Barry. No. No to both. My opinion is no.
    Mr. Waxman. Mr. Hawkins.
    Mr. Hawkins. I have no comment on that.
    Mr. Waxman. OK. Ms. Golas.
    Ms. Golas. I don't believe so, sir.
    Mr. Waxman. OK. Mr. Haas.
    Mr. Haas. No. I don't believe so, either.
    Mr. Waxman. Ms. Salim.
    Ms. Salim. No, sir. I don't believe so. And I would like to 
add something to the fact. The root of the problem was on the 
ARMS scanner scanning process.
    Mr. Waxman. Let me interrupt you, because I'm going to get 
to those things, but I just want to get certain points 
responded to.
    Do you think the White House caused this problem, and did 
they design the system so that they wouldn't be able to 
retrieve some of these e-mails?
    Ms. Salim. No, sir.
    Mr. Waxman. OK. Mr. Spriggs.
    Mr. Spriggs. No, sir.
    Mr. Waxman. Ms. Lambuth.
    Ms. Lambuth. I don't think there's any way to really know 
that.
    Mr. Waxman. Well, do you know whether the White House 
designed the ARMS-Lotus interface?
    Ms. Lambuth. That was before I was there. I don't know.
    Mr. Waxman. So you don't know one way or the other?
    Ms. Lambuth. Right.
    Mr. Waxman. OK. I'd like to know your understanding about 
this computer problem, whether it was caused by private 
contractors or the White House.
    Mr. Barry.
    Mr. Barry. Well, I don't think it was deliberately caused 
by anybody. It was----
    Mr. Waxman. Nobody seems to say that it was deliberately 
caused by--well, I asked about the White House, and nobody on 
this panel said they thought the White House deliberately 
caused it.
    Now, there was a computer problem. It was caused by 
something--an error, or maybe something intentional. If it 
wasn't caused by the White House, was it caused by private 
contractors?
    Mr. Barry. Well, the Notes-ARMS interface was developed by 
a Government contractor. It was not developed by Government 
staff, to the best of my knowledge.
    Mr. Waxman. Well, in a cover-up, people usually try to 
destroy incriminating evidence.
    Mr. Barry, were you ever directed to destroy any of the 
missing e-mails by anyone at the White House?
    Mr. Barry. No.
    Mr. Waxman. Ms. Salim, were you ever directed to destroy 
any of the e-mails?
    Ms. Salim. No, sir.
    Mr. Waxman. What about--did anybody on the panel want to 
tell us that they were instructed to destroy the e-mails?
    [No response.]
    Mr. Waxman. The panel seems to all be shaking their head in 
the negative.
    In fact, I understand the----
    Mr. Klayman. Mr. Waxman, please listen to my client.
    Mr. Waxman. Ms. Lambuth, do you have some--were you ever 
directed to destroy any e-mails?
    Ms. Lambuth. No, I was never directed to destroy e-mails, 
but I know that there were 6 months of the e-mails--backup on 
the e-mails that were overwritten.
    Mr. Waxman. OK. Now, in fact, I understand that not only 
were none of you directed to destroy e-mails, but in 1998 
Northrop Grumman was directed to make backup copies of all the 
e-mails so that they would be preserved.
    Mr. Barry, can you describe how this occurred?
    Mr. Barry. Well, I'm not really sure what incident you're 
referring to, but there are backup tapes of all of the mail 
servers for some period of time. Nobody is really sure what the 
period of time is or what exactly the tape situation is because 
an inventory has to be done of the tapes.
    Mr. Waxman. But is it accurate to say that Northrop Grumman 
was directed to make backup copies of all the e-mails so that 
they would be preserved?
    Mr. Barry. I don't know that.
    Mr. Waxman. Does anybody know the answer to that? Mr. Haas?
    Mr. Haas. The only backup that I--that was directed to 
Northrop Grumman that I'm aware of outside of the normal daily 
backup that's run in an automatic format was prior to us, as we 
refer to ``stopping the bleeding,'' when we set the switches 
back on e-mail so we could start capturing e-mail properly 
again. We made a specific backup of all the mail servers for 
the purpose of preserving the way it was before we set the 
switches so we could get back into the ARMS business, if you 
will, 5 minutes after that was done. That was the only 
specifically backups that were ordered to be done, and they're 
done by a server group, none of which are present today.
    Mr. Waxman. So once somebody found out there was a problem, 
you were told to see if you could do a backup system to correct 
the problem?
    Mr. Haas. It's not a backup of the mails, it's a computer-
based backup where you just back up the whole disk drive in 
case of catastrophic events you can restore. We did not back up 
mail in the sense of mail messages. We backed up the computer 
disk drives that the mail is on.
    But, again, that was a specific incident that was done as a 
preservative to the information so that we could go on and 
reset and start doing ARMS properly after we had--so we're 
preserving that. That's two specific sets of tapes that were 
set aside as part of that inventory they refer to. Any other 
backups are on a normally, daily basis, and whether they passed 
or failed successfully, I have no idea.
    Mr. Waxman. Although it appears evident from all your 
testimony that the White House didn't cause the e-mail problem, 
and no one has said that the White House sought to destroy any 
e-mails, there was a problem with the ARMS-Lotus interface that 
may have resulted in e-mails not being provided to 
congressional and Federal investigators, so I want to find out 
about the extent of that problem.
    When people read articles like those in the Washington 
Times, they may get the impression the White House has withheld 
all e-mails from Congress and Federal investigators. In fact, 
the members of this committee know this simply isn't true. The 
White House has, in fact, turned over thousands of e-mails to 
Congress. Some of them have been seized on by Chairman Burton 
and others as serious evidence of wrongdoing.
    So I'd like to get a sense of what e-mails we're talking 
about when we say that certain e-mails were not captured by 
this ARMS-Lotus interface. Are we talking about most White 
House e-mails, or are we talking about only a small subset of 
the e-mails?
    Mr. Barry, I'd like to draw upon your expertise with 
computer systems in the Executive Office of the President and 
to ask you to explain the scope of the problem to me.
    To start with, let me ask you about timeframes. The ARMS-
Lotus interface problem was in existence from roughly August 
1996 to November 1998; isn't that right?
    Mr. Barry. That's my understanding. Yes.
    Mr. Waxman. And during that roughly 29-month period, how 
many people were affected by Mail2 problems?
    Mr. Barry. I'm not exactly sure, because I don't work on 
the Notes side of things, but, from what I've heard, it's 
somewhere between 400 and 500 users.
    Mr. Waxman. Now, with respect to those people, the Mail2 
problem just prevented incoming e-mail correspondence from 
being stored in the ARMS; isn't that right?
    Mr. Barry. That's correct, incoming external mail. I think 
there's a key difference there. Any internal mail going to 
those people would have been captured in ARMS.
    Mr. Waxman. So we're talking about incoming e-mails, and 
those are only e-mails from outside of what, the White House?
    Mr. Barry. Outside of the White House e-mail system, 
correct.
    Mr. Waxman. And that means that an e-mail that was written 
by someone else at the White House or the National Security 
Council, all that would have been saved by the ARMS system; 
isn't that right?
    Mr. Barry. Yes. Any mail going to these 400 or 500 users 
from the Notes system within the EOP--actually, it's not the 
White House, it's the Executive Office of the President's 
system--would be captured in ARMS.
    Mr. Waxman. So all the internal e-mails would have been 
searched in responses to subpoenas and other document requests 
and provided to this committee and the other investigators?
    Mr. Barry. That's correct. And also I'd like to point out 
that external mail going to one of these particular 400 or 500 
users that was CC'd or BCC'd to a non-affected 400 or 500 users 
would also have gone to ARMS.
    Mr. Waxman. OK. I understand that you regularly track the 
number of documents that get put into ARMS and that you went 
back and looked at what happened after the Mail2 problem was 
fixed prospectively. Now, if the Mail2 problem was preventing 
lots of e-mails from getting into ARMS, you would expect to see 
a significant increase in the documents being put into ARMS 
after the problem was fixed, so let me ask you, Mr. Barry, did 
you see any increase after the November 1998, fix?
    Mr. Barry. Well, there's a couple of points that need to be 
made, I think. I had been tracking all of the records that go 
into ARMS, the numbers of records, by month and by agency since 
1993. I have all the information all the way back to 1993. And 
I keep a spreadsheet by month by agency on all of that 
information, and I remember--I wasn't involved in any of the 
meetings that the rest of the panel were talking about until 
July 6, 1998, and I remember at--I was involved in a series of 
technical meetings for about a week-and-a-half after July 6th, 
and I remember--I believe it was Mr. Haas--I had asked the 
question----
    Mr. Waxman. Let me ask you to respond to my question.
    Mr. Barry. OK. Sorry.
    Mr. Waxman. When you looked at all these e-mails and kept 
track of them, the system was fixed prospectively. If there 
were a lot of e-mails not going into the system before it was 
fixed, you would expect to see a big jump in the number of e-
mails after it was fixed. Was there a big jump in the number of 
e-mails after it was fixed?
    Mr. Barry. Well, there was a jump, because we have a normal 
increase in--there's a growth series in e-mail. But, from what 
the analysis that I have done, there was an increase from 
November to December, which is what you would expect, but it 
wasn't as big as I had expected, given what I had been hearing.
    Mr. Waxman. Did you reach any conclusion about that?
    Mr. Barry. I reached the conclusion that was in my gut to 
begin with, that yes, we had a problem, and it obviously 
affected some number of e-mails, but it wasn't as big as the 10 
percent number that I had been given or that I had been led to 
believe.
    Mr. Waxman. Let me just again review what we're talking 
about. If it's an e-mail that was sent from anybody within the 
White House or Executive Office Building or White House agency, 
those agencies covered by the system--if it was anything sent 
by anybody there, that would have been picked up. If it was an 
e-mail internally from one person to another within the system, 
that would have been picked up.
    What we're talking about were e-mails from outside of the 
system to somebody in the system, but even if that were the 
case, and one of those e-mails were sent to somebody inside, 
and there was a carbon copy or copy directed to somebody else, 
then that would have been picked up, as well, in the ARMS 
system, wouldn't it?
    Mr. Barry. That's correct.
    Mr. Waxman. OK. And if the recipient replied to this e-mail 
that was received, wouldn't that whole reply and the original 
e-mail get picked up in the ARMS system?
    Mr. Barry. If the user had done a reply with history, yes, 
it would.
    Mr. Waxman. So there are several ways that e-mails that 
were not put into the ARMS initially ended up in the system 
eventually. What's more, even if the e-mail wasn't put into 
ARMS, it may still have been provided to our committee or 
whoever else was asking for documents.
    Now, when White House counsel Beth Nolan testifies this 
afternoon about how the White House responds to subpoenas, 
she'll tell us that, in addition to searching ARMS, they asked 
people in the White House or the EOP, the Executive Office of 
the President, to search their own computers for responsive 
material. So any e-mails that were saved by the individual 
recipients should have been provided, even if they were not in 
the ARMS. Any e-mails from sources that had been subpoenaed--
like if somebody is looking for an e-mail from the Democratic 
National Committee to somebody in the White House, well, the 
Democratic National Committee had been subpoenaed for all their 
e-mails, so that would have gotten into the submissions to the 
independent counsel, all the investigating committees and 
agencies.
    It appears that we're talking about, in terms of missing e-
mails, only a narrow sliver of the total number of White House 
e-mails.
    Mr. Barry, do you agree with that?
    Mr. Barry. I'm not sure anybody can really tell for sure, 
without going back and actually looking at the stuff. But, from 
the numbers that I have in front of me, it wasn't as big a 
problem as I had been led to believe in the early days.
    Mr. Waxman. Now, the Washington Times article says that the 
e-mails that were not provided to congressional and Federal 
investigators involved Monica Lewinsky, campaign finance 
issues, other alleged White House scandals, so I want to ask 
this panel what you know about the content of the missing e-
mails. And, as I ask you these questions, there is an important 
distinction to keep in mind. One issue is whether the e-mails 
were captured by the ARMS system, and I believe this is called 
being records managed. But a second and distinct issue is 
whether the e-mails were turned over to investigators.
    It is possible that some e-mails may not have been in the 
ARMS but could have been turned over to investigators as a 
result of other types of e-mail searches.
    Mr. Haas, I understand that you conducted a search to 
determine what kind of e-mails were not being records managed. 
By this, I mean you conducted a search to see what kind of e-
mails were not being captured by ARMS.
    My understanding is that your search involved e-mails 
related to Monica Lewinsky. Specifically, I understand that you 
went into the e-mail accounts of Betty Currie and three people 
to determine what incoming e-mails they had related to Monica 
Lewinsky; is that right?
    Mr. Haas. Partially. I went in to several accounts--four, I 
believe, or five accounts, of which one was Betty Currie and 
Ashley Raines--and found the cache of Monica Lewinsky 
documents. I did, however, not search the entire affected group 
of 525 people for Monica Lewinsky. I was doing this in a manual 
process, just as you would search your mail file. I went, 
opened it, and said, ``Show me everything with `M.L. Lewinsky' 
on it,'' and just happened to stumble over those and the four.
    Beyond that, I was not given any direction, nor do I have 
the ability to do a massive search of all the mail files on a 
system. It would take a programmer to write a program to search 
across mail files, although I kind of expected I might be 
asked, you know, to have that done later on, it never came 
forward as a request. But I was never instructed to search for 
anything but that Monica Lewinsky.
    It was in the middle of me going through each mail file and 
counting the number of documents, so it was an interruption to 
the process, and then I went right back to the process of 
counting documents.
    Mr. Waxman. So you were able to find e-mails that weren't 
in the ARMS system when you looked at the individuals whose----
    Mr. Haas. They were listed in the particular mail file as 
not being sent through to ARMS because they still existed in 
this view. Whether they had another means to arrive there 
through the processes that Mr. Barry has described of a BCC to 
another agency or re-transmitted out by the original recipient, 
I have no way of knowing that.
    Mr. Klayman. Mr. Waxman, perhaps we can be helpful here. 
Our other client, Sheryl Hall, is prepared to testify here 
today that Mr. Haas browsed through other files.
    Mr. Waxman. Mr. Chairman, point of order. I know the 
attorney is actively involved and----
    Mr. Burton. And I do appreciate----
    Mr. Waxman [continuing]. Has his own point of view, but I 
thought----
    Mr. Burton. Stop the clock just a minute.
    Mr. Klayman. I thought you were here for the truth.
    Mr. Waxman. We want to hear the truth. Let me pursue my 
question so I can----
    Mr. Burton. We stopped the clock just for 1 second. Point 
of order. We do appreciate your help very much in bringing all 
this to our attention, but the counsel--if Ms. Lambuth wants to 
make a comment, she should direct her question or comment, or 
anybody, to Mr. Waxman and not the legal counsel. Legal counsel 
is to just confer with the client. That's the standard drill.
    Mr. Klayman. Mr. Burton, let me address this to you, 
because we brought Ms. Hall. We offered to make her available, 
and I don't understand why your committee won't let her testify 
here today.
    Mr. Burton. We'll confer about that and--but please confer 
with your client.
    Mr. Waxman.
    Mr. Waxman. Well, maybe we'll want to hear from her, but, 
meanwhile, we've heard from all of these people and I want to 
ask some questions, just so we can understand more about what 
was going on.
    So, Mr. Haas, you found a bunch of e-mails about Monica 
Lewinsky that weren't on the ARMS system; is that right?
    Mr. Haas. I can only tell you that the mail file I found 
them in said they were not on the ARMS system. Whether they 
arrived there through a secondary process, I have no way of 
knowing.
    Mr. Waxman. So they could have arrived there from a 
secondary process, meaning what, they responded to or copied to 
somebody? They might have also been----
    Mr. Haas. Anything is possible.
    Mr. Waxman. OK. Now, the fact that these e-mails were not 
in the ARMS system doesn't necessarily mean they weren't turned 
over to the independent counsel, Ken Starr. When the White 
House responds to a document request, they do more than simply 
search the ARMS. They also ask the relevant individuals to 
search their own e-mail accounts. These individual searches 
could have turned up the same e-mails that Mr. Haas found.
    Mr. Haas, do you know whether the Monica Lewinsky e-mails 
that you found were new e-mails that had not been previously 
turned over to the independent counsel?
    Mr. Haas. I do not know that, but I can state that, with 
having worked at the agency for 9 years and having received 
those requests for documents over many years, we were 
instructed we did not have to search our own mail files. Be 
advised, the mail files are not on your local hard drive. You 
are reaching across the network and looking into the server. 
That's why the ARMS process had to be created to take care of 
the things that you really couldn't do.
    The search criteria ability within Lotus Notes at our 
current site is minimal for finding a group of documents. If 
you were to search your own mail file and look for Monica 
Lewinsky using the standard search methodology, you would not 
find what I found. But, because of my expertise in the area, I 
was able to find a way to locate them in the three files that 
I--I mean, the five files that I opened and find those messages 
and then collect them together and present them to my 
management, as they requested.
    Mr. Waxman. So you found that there were e-mails that were 
not on the Lotus system or may not have been on the Lotus 
system, but do you know, yourself, whether these e-mails might 
have been turned over to the independent counsel independently 
of what was turned over from the Lotus system?
    Mr. Haas. The only thing I know is I was asked to print 
them all out and put them onto paper, put them in an expandable 
folder. I presented them to Betty Lambuth and she informed me 
that she delivered them to what I think is White House counsel 
in the old building, handed them off to an unknown person. 
That's second-hand hearsay.
    Ms. Lambuth. The person I handed it off to was Mark 
Lindsay. The request was that they were printed off. ``Bob, 
print these e-mails off,'' and I hand-delivered them over to 
the old Executive Office Building to Mark Lindsay, who was over 
there in a meeting.
    Mr. Waxman. Thank you.
    Well, I think I know the answer to the question, because my 
staff asked Beth Nolan, who we are going to hear from later, 
about this issue, and she told us--and I understand she'll 
testify to this point later--that all of the Monica Lewinsky e-
mails you found were duplicative. They were copies of e-mails 
that the counsel's office had already turned over to the 
independent counsel. The e-mails were not in the ARMS--I'm 
going to stop for a minute while those bells are ringing. These 
e-mails were not in the ARMS system, but they were in Betty 
Currie's and some of these other people's accounts I'm not 
technical enough to explain exactly, but it was in their 
computer. And you made copies of them, they were turned over to 
the White House, and those e-mails were turned over--and we'll 
hear later from the White House counsel--to the independent 
counsel.
    So the e-mails were not in ARMS, but they had been captured 
by the independent searches of e-mail accounts of Betty Currie 
and other individuals.
    I think this is an important point, because the Washington 
Times reported that these e-mails had been withheld, but, in 
fact, that's not true. They had already been turned over.
    Now, Mr. Haas, do you have any knowledge about the content 
of any of the individual e-mails that were not turned over to 
investigators?
    Mr. Haas. I, again, don't know of documents that weren't 
turned over. That is not my knowledge. I did read the two 
Monica Lewinsky e-mails to validate the incoming and outgoing 
event that I was asked to check into, so yes, I read two of 
those referenced documents. Whether they were turned over, I 
don't know.
    Mr. Waxman. I wouldn't expect you to.
    Well, the individual who has been making the most 
vociferous allegations against the White House is Sheryl Hall, 
who was a former White House employee. She's the source for the 
Washington Times article, and I was quoting that article. She 
gave a deposition about the content of the e-mails on February 
19, 2000. In the deposition she says that she was told by a 
Northrop Grumman contractor that the missing e-mails contained 
information relating to Filegate, Monica Lewinsky, and Vice 
President Gore's fundraising. She then said under oath, ``I was 
told by this contractor that if the contents of the e-mails 
became known, then there would be different outcomes to these 
scandals, as the e-mails were incriminating and could cause 
people to go jail.''
    You are the Northrop Grumman employees who knew the most 
about these e-mails.
    Ms. Salim, let me ask you first. Are you aware of any 
information that would substantiate Ms. Hall's accusations?
    Ms. Salim. No, sir.
    Mr. Waxman. Mr. Spriggs.
    Mr. Spriggs. The only thing that I can think of that may 
even come close to doing that is that early on we speculated 
about possible information but had no direct knowledge of what 
was in it and, you know, so we had no information to give her 
or Ms. Lambuth or anyone else.
    Mr. Waxman. Mr. Barry, do you know?
    Mr. Barry. No, I don't.
    Mr. Waxman. Mr. Hawkins.
    Mr. Hawkins. No, sir.
    Mr. Waxman. Ms. Golas.
    [No audible response.]
    Mr. Waxman. Mr. Haas.
    Mr. Haas. No, sir.
    Mr. Waxman. Ms. Lambuth.
    Ms. Lambuth. I still stand behind what I said before, that 
I was told that there was other important information, 
Filegate, etc.
    Mr. Waxman. You were told by Mr. Haas.
    Ms. Lambuth. Right.
    Mr. Waxman. And Mr. Haas testified that he didn't tell you 
that.
    Ms. Lambuth. I understand, sir. I am saying I still stand 
behind what I was--what I stated, that I was told.
    Mr. Klayman. I object. That's not what he testified to, Mr. 
Waxman. That's false.
    Mr. Burton. Only the witnesses can testify, and she----
    Mr. Klayman. I'm not testifying. I'm objecting.
    Mr. Burton. Well, you're not allowed to object.
    Mr. Klayman. Mr. Chairman, then you should admonish your 
colleague there, because that was not the testimony.
    Mr. Burton. Mr. Klayman, your witness is perfectly capable 
of refuting any remarks that are made.
    Mr. Waxman.
    Mr. Waxman. Mr. Haas, she said you told her. Did you tell 
her that you knew the contents?
    Mr. Haas. I never, evidence intimated in any way, shape, or 
form that I knew any content of any e-mails other than the two 
Monica Lewinsky documents. To that point, there was lots of 
conversation within our group as to if there was ever found to 
be a large content of anything involving these five or six 
different events it would be a different story, but if--she may 
have misunderstood that to say I saw something in there. But I 
have never, ever seen anything in those documents except for 
the two Monica Lewinsky documents.
    Mr. Waxman. Before my time is completely up, I want to go 
into this whole question of the so-called ``threats,'' the jail 
threat, particularly. The Washington Times reported you were 
told that there was a jail cell with your name on it if you 
discussed the missing e-mails with anybody. This threat is 
supposed to have occurred at the meeting with Laura Crabtree on 
June 15, 1998. Mark Lindsay also reportedly participated in at 
least a part of this meeting by telephone.
    Ms. Salim, you were the first person to discover the e-mail 
problem, and you were at that June 1998, meeting. Do you recall 
being threatened with jail if you discussed the problems with 
others?
    Ms. Salim. No, sir. I do not remember hearing the word 
``jail'' from anyone in that meeting.
    Mr. Waxman. Well, Mr. Haas, my understanding is you have a 
different recollection.
    Mr. Haas. Yes, sir, but I posed the question to her and she 
was answering me directly, so I would remember.
    Mr. Waxman. In your statement, you said the question was 
sort of flippantly asked. Do you think that the response might 
have been a flippant response?
    Mr. Haas. I did not take it that way, sir. I didn't want to 
read any more or less into it. I had sealed my mind that I had 
been instructed to treat it in the manner that she instructed, 
``Don't talk to anyone, or else.'' I took it at face value and 
I lived up to that face value until I couldn't do it any more.
    Mr. Waxman. At the time you were all finding out about this 
computer problem, the President was being investigated by Ken 
Starr for impeachable offenses. There was a media frenzy going 
on outside the White House. It seems clear that Mr. Lindsay and 
Ms. Crabtree did not want any of you to talk to the press or to 
people who might talk to the press about the problem until the 
nature and scope of the problem was understood.
    I'd like to ask whether you think this was an unreasonable 
request. Anybody think it was an unreasonable request?
    Ms. Lambuth. I think in the beginning that's the way we all 
felt, but it also became very obvious that they weren't going 
to do--make any moves to release this information--to release 
the information that there were e-mails found.
    Mr. Waxman. OK. But did any of the rest of you think that 
maybe there was--it was reasonable not to want to have this 
information that the system wasn't working available to the 
press when they're on a media frenzy and people were out to 
impeach the President?
    Ms. Salim, what do you think?
    Ms. Salim. I believe that that was a reasonable request for 
them to ask us to keep a lid on this until they could manage 
the situation.
    Mr. Waxman. Mr. Spriggs, what is your opinion?
    Mr. Spriggs. From my point of view, the fact that we didn't 
know how many messages actually were involved, we didn't know 
the content of it--while we may have speculated about its 
implications and what was going on, the reality was we needed 
to figure out what the problem was and how were we going to 
deal with getting these in the records management system.
    When Betty, through whomever directed her to do so, told 
Bob to get information, he proceeded to do that in a deliberate 
manner, and it took him several weeks to accomplish it.
    There was no, from my point of view, any kind of question 
that we were not going to proceed forward with this and resolve 
this question. We were trying to get all of the information so 
that whomever--OA counsel or White House counsel--would have 
sufficient information to be able to judge the import of the 
information that they had.
    As far as I knew personally--and my colleagues can speak to 
what they knew--I had no knowledge of anyone trying to stop us 
from doing any of that or trying to keep any information away 
from the Starr or anyone else at that point.
    Mr. Waxman. I know if my office were being investigated, if 
I was being investigated, and we thought we gave all the 
materials to the White House counsel and all the people that 
were investigating me, and then I found out the system wasn't 
working the way it was intended, I'd tell everybody, ``Let's 
hold off and see what's going on here and let's correct the 
system.''
    I just have one last question. Mr. Hawkins, people didn't 
want them to talk to you. Was that because they might have had 
a fear that you might have come back and said, ``This is 
outside the scope of the Northrop Grumman contract,'' and you 
might not go out and fix it?
    Mr. Hawkins. I believe their intent, because they had a 
computer failure, they should have at least acknowledged within 
their own Civil Service and follow contractual guidelines. I 
believe, in my own opinion, that they did try to cover up the 
fact that they had a computer glitch and there were e-mails 
involved and it did include the President and Monica Lewinsky.
    I had--at no time did I ever feel that they were trying to 
be up-front and open and honest because of my discussions with 
Mr. Lindsay.
    Mr. Waxman. So you got that opinion from--your impression 
was from Mr. Lindsay?
    Mr. Hawkins. From Mr. Lindsay.
    Mr. Waxman. Well, I guess we're going to hear from him and 
we'll find out more about it.
    Ms. Lambuth. Mr. Waxman, I'd like to say that I agree with 
what John says. As I said a few minutes ago, I think in the 
beginning we all felt that they just wanted to get their act 
together, basically, how they were going to let the public know 
about this. But as time went on and we couldn't get any 
decisions of how they wanted us to handle it, what the next 
step was going to be, etc., it became very obvious to us, and 
we had some discussions on this that they did not want this to 
come forth.
    I think one of the critical things that we----
    Mr. Waxman. You had some discussions among----
    Ms. Lambuth. Amongst our--within the team.
    Mr. Waxman. And so you're talking to the team and trying to 
figure out what was going on. You first thought that they were 
trying to make sure you correct the problem, but then you 
reached the conclusion that they were really trying to cover it 
up. But that doesn't sound to me like the testimony of the 
others on this panel who were part of the team.
    Am I wrong? May I hear from others on the team?
    Mr. Barr. Mr. Chairman, if we could have regular order, I 
think the time has expired and we have some votes.
    Mr. Burton. We do have votes.
    Mr. Waxman. Well, let's just get an answer to this and then 
we can----
    Mr. Barr. I think the time has expired, and I would call 
for regular order.
    Mr. Burton. It has expired. I will let these people answer 
this question and then we'll come back as soon as we vote. And 
those who want to go ahead and hit the floor, come right back.
    Proceed, because we have to take off here real quick.
    Mr. Spriggs. To the extent that there was--from my 
conversations with her and with the team, the question arose as 
to whether----
    Mr. Barr. Mr. Chairman, can we have regular order? We have 
a vote on the floor and there are Members that don't want to 
miss the questioning and the answers.
    Mr. Burton. All right. We'll withhold answers to the 
question until we return. We stand in recess.
    [Recess.]
    Mr. Burton. OK. We will recall the last question. We're 
going to allow Mr. Waxman to end that questioning with that 
question, because we were interrupted by the vote, and then 
we'll go to Mr. Barr.
    Mr. Waxman. Ms. Lambuth testified, as I understood it, a 
minute ago that at first she thought that the White House was 
trying to correct the computer problem, but then she came to a 
different conclusion, and I asked her why, and she said, 
``Well, in talking to the rest of the team.''
    Now, some of you were part of the team. Was this conclusion 
one you had reached? And was it just one that you all 
speculated about, or do you agree with her conclusion? And do 
you have reasons to agree with that conclusion or not agree?
    Mr. Spriggs. When Betty left the--when Ms. Lambuth left the 
contract, right before she had left there was a lot of 
discussion about what had happened and, you know, about what 
was going on around us. And, again, we didn't have her access 
to Laura and higher-ups, so a lot of the stuff we would hear 
would come through her, and we were, as far as I was concerned, 
you know, trying to be responsive and supportive of her. We 
also, I think, because of the things that had happened between 
Mr. Hawkins and Ms. Lambuth, we were all very, you know, aware 
of that situation.
    The question of whether or not we had arrived at a 
conclusion that the White House was obstructing anything.
    There were so many technical issues and problems associated 
with this, and her having left in July, it turned out many 
other technical issues were of importance to us.
    At that point, whether or not Betty leaving felt like that, 
you know, a consensus was that we were supporting her and that 
we believed that, I don't--I did not have that position, 
although I do feel that at times that Betty, you know, again, 
had superior--other information that I didn't have, so I 
couldn't really say whether or not anyone was doing anything to 
stop it.
    Again, from my point of view, we didn't know enough about 
what was going on to say that the White House had stopped 
anything. It was more of a technical problem that we were 
worried about, and that that's what we were really after was 
the technical solution.
    Mr. Burton. Before we proceed with Mr. Barr, let me just 
say that it has been well established early on that all of the 
people that were in the meeting felt either threatened or felt 
concerned if they gave any information out about that.
    Now, let me just say one other thing----
    Mr. Waxman. I don't think that was established.
    Mr. Burton. Yes, it was established.
    Mr. Waxman. You may have reached that conclusion, but I 
don't think that's the testimony.
    Mr. Burton. OK. Well, I'll ask Mr. Barr, when he questions, 
to reestablish that they all felt concerned or threatened by 
the comments made by Ms. Crabtree or Mr. Lindsay. We'll let him 
do that.
    But I just want to admonish all the witnesses of this one 
fact. We're going to find some additional information, I 
believe, before the day is out, or, if not today, later, about 
these e-mails, because we're not going to let this thing drop. 
And if anybody perjures themselves before this committee, I 
will send a criminal referral to the Justice Department and 
they will be prosecuted or we will pursue that, so I don't want 
anybody that's--I mean, there are some differences of opinion 
here, and if somebody is not telling the truth I want you to 
know that's very, very disconcerting and you need to think 
about that and get this--and be as square and honest with this 
committee as possible, because if we find out you are lying 
there will be a problem.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    I believe that when Mr. Waxman was asking that last round 
of questions, before we broke for the vote, he was indicating 
that, in his view--and I presume he was talking as a manager, a 
Congressman with regard to his staff--he finds nothing wrong 
with calling people into his office and telling them that 
they're going to go to jail if they even tell their spouse or 
their supervisor----
    Mr. Waxman. Point of order, Mr. Chairman. I just think he 
ought to ask his questions, instead of trying to attribute to 
me anything----
    Mr. Barr. Now, whether or not----
    Mr. Waxman [continuing]. One way or the other. Let him ask 
his own questions. I'll speak for myself. Let him speak for 
himself.
    Mr. Burton. That is not a legitimate point of order. The 
gentleman has the time.
    Mr. Barr. Thank you.
    Before we broke for the last vote, Mr. Waxman was going on, 
in an effort to try and trivialize the intimidation that a 
number of you felt when you were admonished by Ms. Crabtree, 
for instance, not to speak to anybody under threat of going to 
jail if you exercised your rights to inform your supervisor of 
a problem, if you told anybody about it.
    Now, while that may be standard operating procedure for 
certain members of this committee, it is not for this Member, 
and I think I can speak for the chairman that it is not for 
him, either.
    When somebody calls you, for example, Ms. Lambuth, into 
their office and threatens you with going to jail if you tell 
your supervisor about a problem that you believe needs to be 
corrected, do you find that intimidating?
    Ms. Lambuth. Most definitely.
    Mr. Barr. Is there anybody else on the panel that would not 
find that intimidating?
    Mr. Spriggs. Maybe I don't understand the word 
``intimidating,'' but I am somewhat intimidated by Mr. Burton's 
comments here. I think that Mr. Burton, I think, did the 
rightful job to express----
    Mr. Barr. That's fine, Mr. Spriggs. I'm not----
    Mr. Spriggs. Am I intimidated----
    Mr. Barr. I'm not asking you how you feel about Mr. 
Burton's testimony. I appreciate the fact that you want to say 
that and you've said it. Now let's move on.
    My question had nothing to do with Mr. Burton. OK?
    Mr. Spriggs. Yes, sir.
    Mr. Barr. OK. So don't interject something that is not 
asked for. If Mr. Waxman would like you to go on in support of 
what he's saying, I'm sure he will--he is very adept at doing 
that.
    My question was simply: are there any other members of the 
panel that are here today that, if they are called into 
somebody's office and threatened with going to jail if they 
tell anybody about a problem that they have identified, and 
that includes even going to their supervisor to try to get it 
rectified, is that not intimidating.
    Mr. Spriggs. When I was called into that office and Ms. 
Crabtree and Mr. Lindsay were giving me instructions, I 
perceived that those instructions were reasonable instructions.
    Mr. Barr. OK. That's not what I'm asking you, Mr. Spriggs.
    Mr. Spriggs. Were they threatening--I know, sir. I'm trying 
to get at your question. Were they threatening to me?
    Mr. Barr. Get at it quickly.
    Mr. Spriggs. Were they threatening to me? Yes, they were 
threatening to me, in----
    Mr. Barr. That's my only question.
    Mr. Spriggs [continuing]. In narrow context.
    Mr. Barr. I have other questions here, and I appreciate 
your candor, and if you have other things to say, I'm sure you 
can work it out with Mr. Waxman to say them. I'm not interested 
in that and I'm not interested in how you feel about Mr. 
Burton.
    Is there anybody else who would not feel somewhat 
intimidated if they were threatened with going to jail if they 
told their supervisor about a problem that they had discovered?
    [No response.]
    Mr. Barr. Now, Mr. Barry, I understand that you were asked 
in January or February 1998 to locate an e-mail from Monica 
Lewinsky to Ashley Raines. That is correct, isn't it?
    Mr. Barry. Not exactly.
    Mr. Barr. OK. Were you asked at some other time to find an 
e-mail from Monica Lewinsky to Ashley Raines other than January 
or February 1998?
    Mr. Barry. No. I was asked by White House counsel to 
perform an ARMS search, a search of the ARMS system.
    Mr. Barr. When you say White House counsel, specifically 
who?
    Mr. Barry. I can't remember.
    Mr. Barr. OK. By the Office of White House Counsel?
    Mr. Barry. Correct.
    Mr. Barr. OK. Who was it that called you up? There's no 
such person as White House counsel there, particular people. 
Who was it that called you from the White House counsel's 
office?
    Mr. Barry. I can't remember, sir. I get three, four search 
requests every month, so I can't remember back in 1998 exactly 
who it was, but it would be in the record, though. I have e-
mails of all that stuff.
    Mr. Barr. OK. So if, in fact, we subpoena those documents 
from the White House or you are served with a subpoena for the 
production of them, that would be reflected in those documents?
    Mr. Barry. That's correct.
    Mr. Barr. And you could refresh your recollection?
    Mr. Barry. That's correct.
    Mr. Barr. OK. So that's what prompted you to look for that 
particular e-mail?
    Mr. Barry. No. I was never asked to look for a particular 
e-mail. I was asked to perform an e-mail search--not an e-mail 
search, an ARMS search, a search of the ARMS system.
    Mr. Barr. Right.
    Mr. Barry. In January 1998.
    Mr. Barr. For what?
    Mr. Barry. For--I can't remember the specifics of it, but 
it had to do with the Lewinsky matter.
    Mr. Barr. OK. And that's when you went to Mr. Spriggs to 
help locate that material?
    Mr. Barry. No.
    Mr. Barr. At what time did you go to Mr. Spriggs?
    Mr. Barry. If I could, let me just give you a little bit of 
the history, if I can. I was asked to perform the search, as 
normally happens. I do the ARMS searches. And during the 
production of those documents----
    Mr. Barr. You discovered a problem?
    Mr. Barry [continuing]. I discovered what--I didn't know it 
was a problem. I discovered what looked like conversational e-
mail between two people and I only saw one side of the 
conversation.
    Mr. Barr. Right. So there appeared to be a gap?
    Mr. Barry. Yes.
    Mr. Barr. OK. Now, you wrote an incident report on that, 
did you not?
    Mr. Barry. That's correct.
    Mr. Barr. OK. Where is that incident report?
    Mr. Barry. I believe it was produced.
    Mr. Barr. Do you have that with you?
    Mr. Barry. Yes, I do.
    Mr. Barr. OK. Could I see a copy of that, please?
    Mrs. Chenoweth-Hage [presiding]. Mr. Barr, you'll need to 
wrap your questions up.
    Mr. Barr. OK. Forget it, then. We don't have time.
    Mrs. Chenoweth-Hage. Thank you.
    The Chair recognizes Mr. Souder for questions.
    Mr. Souder. I thank the Chair.
    I had a few questions. First, I wanted to establish, 
because I thought it was kind of confusing, but, as I 
understood--and correct me if any of these are incorrect--that 
the number of e-mails, whether they were a small subset or a 
large subset, there were 525 people. I think that's what Mr. 
Haas said.
    Mr. Haas. Yes, that's correct.
    Mr. Souder. Those 525 people that are in doubt here are the 
525 people that are at the higher echelons of the White House, 
not Civil Service but political appointees?
    Mr. Haas. It is the whole White House organization and some 
of their lesser organizations, but to my knowledge it is the 
White House.
    Mr. Souder. In other words, to say it is a small subset is 
a little misleading, since this subset happens to be who we 
were investigating during the period of 1996 to 1998 and whose 
testimony we were seeking. So if there were 525 people in the 
Government who we most needed, it was these 525, most likely.
    Second, my technical understanding of this is that the part 
that we're--the only thing in dispute here, from Mr. Barry, I 
think, was whether he expected to see 10 percent and he saw 5 
percent. Based on the number of e-mails just for 1997, if, 
indeed, it was 5 percent, it would have been roughly 205,000 
for 1997 and would have been 400,000 if it was 10 percent, so 
it's not a small number that we're talking about. The only 
question you were really disputing is whether it is 5 percent 
or 10 percent; is that right?
    Mr. Barry. No. I don't think that's what I said. All I said 
was that----
    Mr. Souder. You said that you expected to see 10 percent.
    Mr. Barry. The numbers that had been thrown out when I 
first asked about it when I was involved in the technical 
meetings in July 1998, my concern was, if there were these 
missing e-mails, what impact was it going to have on the ARMS 
system when they became unmissing.
    Mr. Souder. And you said that there----
    Mr. Barry. And----
    Mr. Souder [continuing]. Was 5 percent, roughly. You said 
there was an increase, but it wasn't 10 percent.
    Mr. Barry. No, no. I said----
    Mr. Souder. You said when you went back in to check----
    Mr. Barry. I think I need to clarify this, because when I 
went back and looked at the growth numbers between November 
1998 and December 1998, which would be the significant ones in 
this case, I saw nothing other than what I would normally 
expect in the growth between 1 month and the other, given the 
trend line that we have in place.
    Mr. Souder. OK. So that's a different number than what I 
was looking for, so my understanding is there has been a 
dispute between whether it is--what the number is. But we're 
talking about hundreds of thousands of e-mails.
    Mr. Barry. I don't know that anyone--I certainly don't know 
what the actual numbers are of these e-mails. I have no idea.
    Mr. Souder. And it was also my understanding, from the 
earlier testimony of Mr. Hawkins, that, if I understood you 
correctly, you said that you believed that there was a--that 
they were trying to cover up, and that there was concern about 
the Civil Service contract. Could you elaborate on what you 
meant by that?
    Mr. Hawkins. When I first was contacted, of course, about 
the e-mail--and we didn't know it was e-mail--it was through 
Jim Wright, the contracting officer's technical representative, 
COTR.
    Subsequent to that, I was called to Mr. Lindsay's office, 
and at that time I was confronted by Mr. Lindsay, Mark Lindsay, 
why I got involved, and I basically told him because of the 
contract. It was very specific in the contract that the COTR 
gave directions to the program manager and no one else. And, 
therefore, I took the position that I could not support this 
project and would not do it without an internal work order, 
which was compliant with our contract.
    At two or three points in the conversation, it got very 
tense. Matter of fact, Mr. Lindsay said over and over, ``I hope 
you appreciate my position here.'' And I repeated back to him, 
``I hope you appreciate my position here.''
    Mr. Souder. What do you think he meant by, ``I hope you 
appreciate my position?''
    Mr. Hawkins. I took it straight as a strong arm. I took it 
as a direct assertion that my employees should go do this work 
and I should not be involved.
    To the contrary, the contracting officer, which was Dale 
Helms, Mr. Jim Wright, gave me explicit instructions when we 
talked, ``Don't `crater in,' '' and I never did at any time. 
And I did feel threatened the whole meeting with Mr. Lindsay.
    Mr. Souder. When you--do contract employees have any of the 
protections that Civil Service employees have? In other words, 
if patronage employees come wandering in and intimidate on a 
contract, you don't have any protection?
    Mr. Hawkins. No, sir. As a matter of fact, in my 
conversation with Mr. Lindsay, I told him that the Northrop 
Grumman employees would be the ones directly in the line of 
fire. I also told him that I was not going to put Northrop 
Grumman as a company or Steve Hawkins in direct harm's way. I 
also made a statement that I did not want my company's name in 
the newspaper nor mine or any of my employees.
    I was very, very direct with Mr. Lindsay, and he did ask me 
or he did make a statement that he was extremely upset--and he 
used the word, and I can give you the exact phrase if you want 
it----
    Mr. Souder. Probably not. Can you summarize it?
    Mr. Hawkins. OK. And I said that was my position, and we 
ended the conversation, at which time I left his office, and 
immediately, when I went back to my office, Jim Wright was in 
the office, Dale Helms came in shortly thereafter. Jim Wright 
asked me if I cratered in, and I said, ``No, sir, I did not,'' 
and he said, ``That's why we hired you to work here at EOP, 
because we knew you would stand up.''
    Mr. Burton [presiding]. The gentleman's time has expired.
    We'll go to a second round, so we'll get back to you in 
just a minute.
    Let me clarify one thing before we go to Ms. Chenoweth.
    Mr. Spriggs, you said you felt intimidated. I have made 
this comment to almost--to a number. If somebody perjures 
themselves before my committee, we will send a criminal 
referral to the Justice Department. Now, if that's intimidation 
that you feel, so be it. But I want people to be truthful, and 
that's why we always make that statement.
    Ms. Chenoweth.
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    I wanted to direct my questions to Mr. Barry.
    Just to clarify some of the facts that have been 
established in the record, isn't it true that you noticed two 
ongoing--outgoing e-mails from Ashley Raines to Monica Lewinsky 
and that is what first triggered your concern that there may be 
an anomaly in this system? Is that not correct?
    Mr. Barry. That's correct. And actually that's what I was--
what I referred to in the document that I had written up in 
January 1998.
    Mrs. Chenoweth-Hage. And so then you went ahead and went on 
vacation right after that.
    Mr. Barry. No, that's not correct. January 1998 was when I 
first--I was asked to do the search, and I saw this 
conversational e-mail during the production of the search 
documents, of which there was just one side of the 
conversation.
    I then, as it says in my document, I went and I--the 
document I wrote in January 1998--I talked to John Spriggs, 
first of all, to have him look at the logs for incoming and 
outgoing e-mail, and to--because I didn't know what was--I 
don't know what the problem was, if there even was a problem. I 
mean, it is a possibility that the mail never got to the EOP. 
That was the first thing that came into my mind.
    All I knew was that these pieces of e-mail that I thought 
should be there were not in ARMS.
    Mrs. Chenoweth-Hage. So what you saw that was out of order 
was you noticed e-mails from Ashley Raines to Monica Lewinsky, 
but that Monica Lewinsky's e-mails were not present?
    Mr. Barry. Some of--at least one of them or two of them. I 
can't remember exactly. I think it might have been at least two 
of them, because it is like a telephone conversation. You could 
see, you know, an outbound e-mail saying, ``Can you pick me up 
after work,'' an incoming one saying, you know, that should 
have said, ``Yes, I will,'' and then an outbound one saying, 
``Oh, great. I'll meet you at five.'' That type of thing. And I 
didn't see the incoming, but it was clear that there should 
have been something.
    Mrs. Chenoweth-Hage. Now, who did you give this incident 
report to? You made up an incident report about this?
    Mr. Barry. I documented the problem. Yes.
    Mrs. Chenoweth-Hage. And who did you give the report to?
    Mr. Barry. I gave it to my supervisor.
    Mrs. Chenoweth-Hage. And your supervisor was Jim Wright?
    Mr. Barry. Jim Wright. That's correct.
    Mrs. Chenoweth-Hage. That has been established. Now, is 
that who you would ordinarily refer these problems to?
    Mr. Barry. I'm not sure that--this is a kind of one-of-a-
kind problem, as far as I am concerned. I mean, there have been 
problems in the past with the Notes-ARMS interface, and I 
documented them and passed them on to the appropriate person, 
who would have been the branch chief.
    Mrs. Chenoweth-Hage. The branch chief of----
    Mr. Barry. Of the--either the systems integration and 
development or the desktop branch chief.
    Mrs. Chenoweth-Hage. OK. And once you gave this report to 
Mr. Wright, what happened to the report?
    Mr. Barry. We--I can't speak for exactly what happened to 
it. All I know is that I kept it and----
    Mrs. Chenoweth-Hage. Well, let me ask this: did you 
followup and ask any questions about the report, and did the 
White House office seem interested in the problem?
    Mr. Barry. Well, like I said, I reported the problem to my 
supervisor, and I remember, although not vividly, that my 
supervisor and myself went and briefed the IS&T associate 
director at the time, Kathy Gallant, of the problem, but I 
can't remember exactly when that was in the sequence of things, 
but it was some time in the January-February timeframe.
    Mrs. Chenoweth-Hage. Did anyone instruct you to keep the 
problem silent?
    Mr. Barry. No.
    Mrs. Chenoweth-Hage. No?
    Mr. Barry. Well----
    Mrs. Chenoweth-Hage. When you first went to Ms. Lambuth's 
office, was there a discussion there?
    Mr. Barry. That was subsequent to that. This document was 
written in January 1998, and I didn't hear anything more about 
this whole situation until the actual problem that caused what 
I had seen back in January to occur was discovered some time in 
June. I was brought into the loop of July 1998.
    So it wasn't clear to me--my point is it wasn't clear to me 
at all. In fact, it said--if you read the document, it says in 
there you can't tell if this is a systemic problem, if it's a 
one-of-a-kind problem, etc., I mean, it says it all right in 
there, because I didn't know at that time.
    Mrs. Chenoweth-Hage. May I ask, for the record, did you 
give your weekly reports during this time to Mr. Wright?
    Mr. Barry. I believe so. Yes.
    Mrs. Chenoweth-Hage. Do you know what he did with those 
reports?
    Mr. Barry. I have no way of telling what he did with them.
    Mrs. Chenoweth-Hage. Do you know who else saw those 
reports?
    Mr. Barry. I have no way of knowing.
    Mrs. Chenoweth-Hage. Mr. Barry, the documents that I 
reviewed show that you were very, very frustrated about the 
lack of instruction or direction that you were getting in this 
manner. And I'm going to briefly point out a few of those 
documents and ask for your brief comment on them.
    I would like for you to turn to the White House exhibit No. 
19, dated January 24, more than 2 months after the problem 
became known.
    [Exhibit 19 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.038
    
    [GRAPHIC] [TIFF OMITTED] T9621.039
    
    Mr. Barry. Excuse me, ma'am? Exhibit----
    Mrs. Chenoweth-Hage. White House exhibit No. 19. Do you 
have the exhibit?
    Mr. Barry. Yes, I do.
    Mrs. Chenoweth-Hage. Now, look at the entry under the 
section entitled, ``Additional activities.'' And it reads, ``I 
continue to be involved in discussions regarding the Mail2 
problem, but there has been no movement thus far on correcting 
the problems or getting the data over to ARMS.'' Correct?
    Mr. Barry. That's--well, yes, that's what I said.
    Mrs. Chenoweth-Hage. OK. Now, look at exhibit----
    Mr. Burton. The gentlelady's time has expired, but we will 
yield to Mr. LaTourette.
    Mr. LaTourette. I thank the Chair. I would like to yield 
such time as she might take for Mrs. Chenoweth to complete this 
line of questions, if that's all right.
    Mrs. Chenoweth-Hage. I thank the gentleman.
    Mr. Burton. We'll get the gentleman more time later.
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    I would direct your attention to White House exhibit No. 
23, an e-mail from you to your boss dated 8/13/98.
    [Exhibit 23 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.040
    
    Mr. Barry. Yes.
    Mrs. Chenoweth-Hage. OK. In pertinent part, the second 
paragraph reads as follows: ``I am very concerned about several 
aspects of this problem. As far as I can tell, there is no 
movement underway to fix the problem and recover the lost 
records from the backup tapes. When I talk to Sandy Golas and 
John Spriggs or Bob Haas, they tell me that there is no 
movement on this project from their side and the last activity 
was the meeting that we had with Betty before she left on 7/
28.'' Correct?
    Mr. Barry. That's what I said. Yes.
    Mrs. Chenoweth-Hage. All right. Later, the document says 
that, ``The only people I have been in contact with on this 
project are you--'' that's your boss--``Kathy, Betty, Sandy, 
Bob, and John. I have not spoken to any other Government person 
on this, and I am not at all clear what my role should be. I 
feel the records must be recreated, and any searches need to be 
re-performed if the requestors feel it is necessary. This seems 
like a daunting proposition, but I do not see any other 
alternative.'' Correct?
    Mr. Barry. That's what I said. Yes.
    Mrs. Chenoweth-Hage. The e-mail concludes--and this is the 
same document, in the second-to-the-last paragraph--``I 
apologize for the rambling nature of this memo, but I hope it 
captures my concerns and frustration level.''
    Mr. Barry, you sound like a real voice in the wilderness. 
Can you state for the committee you were frustrated when you 
wrote those e-mails?
    Mr. Barry. Yes. I was definitely frustrated.
    Mrs. Chenoweth-Hage. Would you please turn to White House 
exhibit No. 47, an e-mail from Kathy Gallant to you dated 
September 25, 1998?
    [Exhibit 47 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.041
    
    Mr. Barry. Yes.
    Mrs. Chenoweth-Hage. Mr. Barry, in this letter, Ms. Gallant 
notes that in her meeting with Joe Vasta, Mr. Hawkins' 
replacement, Logicon PM, a subcontractor, and John Spriggs and 
Jim Webster, a two-phase strategy was discussed at that time to 
respond to the problem. But in the second-to-the-last 
paragraph, Kathy Gallant observed that ``contracts is aware of 
this whole mess and supports the creation of an IWO to clarify 
what is to be done and when.''
    And then she concludes, ``Please, no jumping out the 
window. It is not necessary.''
    Now, I appreciate the humor here, but why would Ms. Gallant 
feel the need to say something like that in a memo?
    Mr. Barry. I'm not sure. Probably in response to my level 
of frustration.
    Mrs. Chenoweth-Hage. All right. I yield back the balance of 
my time to Mr. LaTourette. Thank you.
    Mr. LaTourette. I thank you. I don't know how much time 
remains on the clock, so just a couple of quick observations.
    Mr. Spriggs, I wouldn't be intimidated by the referral by 
this committee to the Department of Justice. Their performance 
on other referrals we've made should leave you anything but 
intimidated. [Laughter.]
    And I just want to make a couple of observations, and that 
is I want to talk about the two phases of this, sort of for the 
record's sake.
    One is we're not talking about some--an exercise that is 
not important. And there were two steps. One is you had to fix 
the problem. I believe it was called ``stop the bleeding,'' is 
that right, Mr. Barry? You had to figure out why incoming e-
mails to the White House were not being captured, and that was 
done in a fairly speedy fashion, was it not? You stopped the 
bleeding, or you believed you stopped the bleeding; is that 
right?
    Mr. Barry. Well, I was involved only, again, from the ARMS 
perspective, and I was only involved in the first 2 weeks of 
technical meetings starting in July 1996.
    The best of my knowledge, the ``bleeding'' was stopped in 
November 1998.
    Mr. LaTourette. OK. But the second problem is that you had 
a period of time where e-mails that were not captured by the 
ARMS system are still some place out there, and I think that 
when Mrs. Chenoweth was talking to you, that was some of the 
frustration, that no effort--OK, maybe we stopped the bleeding, 
and maybe we haven't, but no effort is being made to retrieve 
what we recognize is a whole body of stuff that didn't make it 
in the ARMS system; is that right?
    Mr. Barry. Well, I think the source of my frustration was 
that I had been involved for the first 2 weeks starting in June 
or July 1998 and then had heard nothing after that until 
November.
    Mr. LaTourette. Could I just ask one more question?
    Mr. Waxman. May I ask unanimous consent the gentleman be 
given 2 additional minutes and yield at this time.
    Mr. Burton. Thank you. Without objection, so ordered.
    Mr. LaTourette. I appreciate the courtesy.
    I just wanted to point out--and anybody on the panel can 
answer this--the reason that this is important--and there has 
been some criticism from the White House that, you know, you 
goofy Republicans want us to spend a lot of money and recreate 
stuff from files that are locked up, and it's going to cost us 
a lot of dough to do this.
    You have to, under the law, not only the Armstrong decision 
but the Federal public records law, take these e-mails that 
have not been captured by ARMS, put them in the ARMS system, so 
that they may be responsive to those who may seek these public 
documents in the future. Isn't that the law?
    Mr. Barry. I'm not really a legal person, but----
    Ms. Lambuth. Well, let me ask somebody else. Any of you 
aware of the public records law? Mr. Haas, how about you?
    Mr. Haas. I have just recently been told that. I did not 
know that, but it makes sense.
    Ms. Lambuth. Well, I think it does make sense, and I would 
tell you that I'm not a legal expert, either, but I believe 
that there's a case called Armstrong v. the Executive Office of 
the President that extends Federal recordkeeping mandate to 
electronic mail. And the reason that you have the ARMS system 
is so that the electronic e-mails can be captured, and when 
somebody like a court or a committee of Congress wants them, 
you can search by, you know, Lewinsky or Filegate or whatever 
the case may be and pull them up and you don't have to go 
through the laborious process that Mr. Haas apparently went 
through.
    And so somebody has to do this, anyway, or else the White 
House is out of compliance with Federal law and the Armstrong 
decision.
    Does anybody disagree with me? Is that a fair observation?
    [No response.]
    Mr. LaTourette. OK. I'm going to take silence as assent, 
which is always a dangerous thing.
    In the next round of questioning I want to come back--I 
hope we're going to have another round, Mr. Chairman--and, Mr. 
Hawkins, I want to talk to you specifically about--where did 
Mr. Hawkins go?
    OK, Mr. Hawkins will be back shortly.
    Mr. LaTourette. Well, maybe Mr. Hawkins doesn't want to 
talk to me, but I want to talk to Mr. Hawkins about the meeting 
that took place with Mr. Lindsay and Ms. Crabtree.
    Ms. Golas, you've sort of been ignored here for the last 3 
hours, and I want to talk to you about your experiences and 
your specific recollections.
    I thank you, Mr. Waxman, for the courtesy, and yield back.
    Mr. Burton. We will go to a second round.
    I want to tell the panel and the Members we would like to 
finish with this panel and then break for lunch. I hope we will 
be concluding more quickly, but there seems to be additional 
questions that are coming up that have to be addressed, so if 
somebody has to go to the bathroom or something--if you all do, 
we can take a 5-minute recess, but we'll break for lunch as 
soon as we finish this panel.
    Mr. Barr.
    Mr. Barr. Thank you.
    Mr. Barry, during the break I consulted with our counsel 
here. We don't have a copy of your incident report. That 
apparently has not been furnished to us. Could we have a copy 
of that, please?
    Mr. Barry. Yes, sir.
    Mr. Barr. Was a copy of your incident report provided to--
--
    Mr. Young. It was produced, Congressman.
    Mr. Barr. Pardon?
    Mr. Young. It was produced.
    Mr. Barr. And who are you?
    Mr. Young. I'm counsel to the Office of Administration, 
Congressman.
    Mr. Barr. OK. And what is your name?
    Mr. Young. John Hardin Young.
    Mr. Barr. OK. And you are employed by the White House?
    Mr. Young. No, I'm not.
    Mr. Barr. Who employs you and who are you retained by?
    Mr. Young. Director of the Office of Administration.
    Mr. Barr. The what?
    Mr. Young. Director of the Office of Administration.
    Mr. Barr. The Office of Administration.
    Mr. Young. Executive Office of the President.
    Mr. Barr. OK. And you are employed by----
    Mr. Young. The Office of Administration, the Executive 
Office of the President.
    Mr. Barr. White House?
    Mr. Young. No. The Office of Administration of the 
Executive Office of the President.
    Mr. Barr. Is that an agency of another government? I mean, 
I don't know. I appreciate the fact that you are an attorney 
and so forth. I'm just trying to find out--are you employed by 
the administration, by an agency of the administration of the 
White House?
    Mr. Young. The Office of Administration was created by the 
Reorganization Act of 1977. It is an agency within the 
Executive Office of the President.
    Mr. Barr. Which is the White House, the administration.
    Mr. Young. I'll leave that for your conclusion, sir.
    Mr. Barr. Thank you. That is my conclusion.
    Was a copy of the incident report that is being copied now 
provided to you--by you, Mr. Barry, to the White House 
counsel's office?
    Mr. Barry. It wasn't provided by me to them. No.
    Mr. Barr. It was not? OK. Did they receive a copy of it at 
some point? Do you know?
    Mr. Barry. I don't know, sir.
    Mr. Barr. OK. Do you know even today whether they received 
a copy of it or whether they have a copy of it?
    Mr. Barry. I don't know.
    Mr. Barr. Did you provide them a copy of the Lewinsky e-
mail or e-mails that were in question?
    Mr. Barry. I provided to them back in 1998 all of the e-
mails that hit on the search that I was running against the 
ARMS system.
    Mr. Barr. Including the ones that we're talking about here 
today that sort of triggered this whole thing?
    Mr. Barry. Yes. The outbound ones, yes. That's all I had 
access to.
    Mr. Barr. At that time, were there pending proceedings in 
the Congress with regard to these matters?
    Mr. Barry. I have no idea. I don't know.
    Mr. Barr. OK. And when was this?
    Mr. Barry. It was January 1998.
    Mr. Barr. 1998. OK. I think the record will reflect that 
there were at that time. And certainly subsequent you are aware 
of the fact that there were matters before the Congress which 
at least two different committees of the Congress--the 
Judiciary Committee in impeachment proceedings and the 
Government Reform and Oversight Committee--were investigating 
regarding Ms. Lewinsky and the other types of matters that 
we're talking about here today?
    Mr. Barry. I was aware that the impeachment was proceeding, 
yes, or the impeachment process.
    Mr. Barr. And you were aware that, at various points in 
time during the period 1988 [sic] and 1999, this committee of 
the Congress also was investigating various matters regarding 
the President?
    Mr. Barry. I wasn't aware of that. I mean, I don't know. I 
don't----
    Mr. Barr. OK. Is it your testimony that, even as you sit 
here today, you're not aware of that?
    Mr. Barry. I'm not exactly sure what the question is. I 
mean, I don't know what's going on in Congress all the time.
    Mr. Barr. A lot of us up here don't, either. I certainly 
wouldn't hold you to that standard.
    My concern is--and I think both counsels know what our 
concern here is, and that is with regard to obstruction of 
justice, which includes intimidation of witnesses, although 
some of the Federal statutes don't require that a pending 
proceeding actually be--or that a proceeding actually be 
pending. Various other provisions of Title 18 do, with regard 
to obstruction.
    I think the record will reflect that those that caused the 
intimidation or the feelings of intimidation--the pressure, the 
threats, however you all want to characterize them, or however 
a prosecutor might want to characterize them--in fact took 
place in the context of pending proceedings.
    These are all matters--and I know Ms. Hall is here in the 
audience, although has not been called as a witness, but I 
believe she also would testify that these matters were those 
under consideration, and very likely were the--perhaps the 
reason behind the pressure, the intimidation, or the tactics 
used by Mr. Lindsay and others, and that it was not simply to 
protect all of us from the media.
    I suppose we'll get into this later. I know Mr. Lindsay 
will be here, but I appreciate--although Ms. Hall is not a 
witness, I appreciate her taking the time to be here so that 
she can benefit from the testimony also.
    Thank you.
    Mr. Burton. The gentleman's time has expired.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    I want to thank the witnesses. Let me just say, before I 
start some questions, that we appreciate your coming forward 
and also cooperating with us, the committee. Unfortunately, 
we've had a history, as you've heard some of the other Members 
refer to, of trying to conduct investigations and oversight, 
which is our responsibility, and I think one that goes to the 
heart of really our structure and system of government being so 
successful that there is continually oversight by Congress 
looking at what the executive branch is doing.
    As you've also heard, we've had a lot of difficulty. 
Sometimes we get pieces of the puzzle. We've had over 120 
witnesses either flee the country or take the fifth amendment. 
We've gone down different paths, as you've read in the paper, 
only to find that documents disappear, and suddenly sometimes 
reappear and never appear, so we don't get the whole picture. 
And it does give us great concern when we hear of missing e-
mails, and there may be some legitimate technical explanations 
for those documents not being produced, but it does raise us 
questions.
    The major question I have is--and some of this has been 
alluded to--all of you that were involved in this process were 
aware that there was an independent counsel, there were 
congressional investigations seeking materials. Is that 
correct?
    Ms. Lambuth, maybe we could start with you. You were aware 
of that?
    Ms. Lambuth. Yes, I was.
    Mr. Mica. And you were aware of that, Mr. Spriggs?
    Mr. Spriggs. Yes, I was aware of it.
    Mr. Mica. And the rest?
    Mr. Haas. Yes.
    Ms. Golas. Yes.
    Mr. Hawkins. Absolutely.
    Mr. Burton. My next question would be: was there any--were 
you under the belief that there was any intent to stop any of 
this information from being revealed or being provided, either 
to this committee or to the independent counsel or anyone else 
who was seeking it? Do you think there was any attempt?
    Ms. Lambuth. Well, as I had mentioned a little earlier, 
yes, I do believe. Initially we felt that they just wanted to 
figure out how they were going to let the public know that 
additional mail messages were found. I later, for sure--and I 
thought the rest of the team had, but I definitely felt, 
through the stalling and, as was pointed out a few minutes ago, 
Mr. Barry even felt that there was some stalling going on in 
revealing these other documents, and that nothing was being 
done on this particular project as far as where do we go now, 
what the next direction should be, getting the equipment in, 
and I do--I definitely do feel that there was some stalling.
    Mr. Mica. Well, do you feel this was sort of an 
evolutionary sort of getting to a stall? Was it--Mr. Spriggs, 
you are shaking your head yes and no.
    Mr. Spriggs. The question of a stall, we were all 
frustrated by the complexity of the technical problems that are 
required to fix this. The----
    Mr. Mica. But once you--OK, there's the first part of being 
technically able to provide this. And at what point was that 
reached? Was that a few months afterwards, or is this still----
    Mr. Spriggs. From my point of view, it hasn't stopped yet, 
sir.
    Mr. Mica. It hasn't stopped yet?
    Mr. Spriggs. Yes. I mean, there continues to be technical 
issues. When we have meetings, and when we--when the White 
House was informed that there was going to be this newspaper 
article that came out, we gathered to talk about what we were 
going to do to solve this problem. Let's get the technical 
heads together and let's talk about, you know, what's going on. 
And we began again to talk about the technical issues.
    Obviously, we got sidetracked because of the article that 
came out and the discussions of time lines, but the technical 
issues, themselves, continue to be knotty, difficult problems.
    We had----
    Mr. Mica. So you're saying before the committee today that 
you still aren't able to produce these e-mails as of today?
    Mr. Spriggs. As of today we cannot.
    Mr. Mica. You cannot. And we had Mr. Haas testify that he 
did search for certain e-mails and found--you said you had 500 
of one and a bunch of another on a matter; is that correct?
    Mr. Haas. That's correct. That was a manual search, just as 
you would look through your own mail file. That's not 
acceptable to ARMS. The return is literally you see a screen 
full of documents. Of course, you can print them, but even 
that----
    Mr. Mica. When you got that information, you gave it to 
who--that you had some of this information?
    Mr. Haas. The Monica Lewinsky printouts? That went to----
    Mr. Mica. Whatever you found.
    Mr. Haas. Yes. That went to Betty Lambuth.
    Mr. Mica. And then you----
    Ms. Lambuth. I gave the Monica Lewinsky printouts to Mark 
Lindsay.
    Mr. Mica. And you don't know what happened to them 
afterwards?
    Ms. Lambuth. No. And any of those e-mails can just be 
printed out.
    Mr. Mica. But somehow you had the feeling that this went 
beyond just not being technically able to acquire the 
information to a different phase; is that correct?
    Ms. Lambuth. Yes, I did. Again, because I could never get 
my questions answered as being a supervisor so I could give 
direction to my team, I couldn't get answers to questions that 
I had. As I had mentioned previously, I was removed from the 
contract. I was one of the people that had history on this 
particular Project X, and nothing was done by the Government 
people that knew I had this information and to continue to do 
the continuity of guidance----
    Mr. Mica. At what point were you removed?
    Mr. Burton. I'm sorry. The gentleman's time has expired. 
We'll come back for a second round, Mr. Mica. We'll come back 
in just a little bit.
    Mr. Hutchinson.
    Mr. Mica. Can she answer at what point she was removed, 
just so we have a complete record?
    Mr. Burton. What's that again?
    Mr. Mica. At what point she was removed was the question.
    Mr. Burton. At what point were you removed?
    Ms. Lambuth. I was removed in July.
    Mr. Burton. Of?
    Ms. Lambuth. 1998.
    Mr. Burton. 1998.
    Mr. Mica. Thank you.
    Mr. Burton. Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I want to look back and sort of put this in context, or 
examine it in that sense, all that was happening in 1998 
whenever you were concerned about the searches and the 
technical problems.
    In January 1998--you all read the newspapers? I mean, it 
was an explosive atmosphere. You had the public stories about 
the independent counsel, about Monica Lewinsky, as to what was 
going to be leading up to August 1998, and during that time you 
were told to conduct these searches based upon certain 
subpoenas.
    Now, did anyone see the subpoenas, or were you all just 
told this is what you need to search for?
    Mr. Haas. When we get subpoenas--if these are subpoenas 
that we're getting, an e-mail is circulated through to all of 
the EOP, and it just basically states the fact that they're 
looking for documents related to, in the case of Monica 
Lewinsky, Monica Lewinsky, and please produce them. We don't 
see the physical subpoena in its true written format.
    Mr. Hutchinson. Do they explain to you in that directive as 
to who issued the subpoena, whether it be the independent 
counsel or grand jury or a committee of Congress?
    Mr. Haas. I don't recall reading any information pertaining 
to that. It may state that in the beginning, but I cut to the 
chase and try to find the information.
    Mr. Hutchinson. But you knew that you were trying to comply 
with subpoenaed information, either from the independent 
counsel or for some other body?
    Mr. Haas. When I personally receive one, yes, but again I 
state we don't search our mail files, ourselves. That is 
theoretically done automatically, and in this case it was 
missed because of the glitch.
    Mr. Hutchinson. But you felt concerned about it at some 
point when you understood the glitch, that you went through 
manually to see what you could find in some files.
    Mr. Haas. I was requested to specifically look for Monica 
Lewinsky in these specific mail files. I was directed to do 
that.
    Mr. Hutchinson. Who directed you to do that?
    Mr. Haas. Betty Lambuth presented me with a note with some 
names on it that was given to her by someone, and I proceeded 
to follow that note. And then, at a later point, they suggested 
I look in Ashley Raines and Betty Currie's mail file, and 
that's when I found the documents, within minutes of being 
handed the note.
    Mr. Hutchinson. And you provided those documents to Ms. 
Lambuth?
    Mr. Haas. Well, initially I just reported the findings, and 
then after that I was--she took that information and went 
wherever she goes with it. They came back later and asked me to 
please set up a work station that I could print those on paper 
and present them to her. Yes.
    Mr. Hutchinson. Ms. Lambuth, you received this information. 
What did you do with it?
    Ms. Lambuth. When I received this information, I either 
gave it to Ms. Crabtree or Mr. Lindsay.
    Mr. Hutchinson. And you----
    Ms. Lambuth. And I don't remember in which case I gave what 
information to whom, except I know I took Monica Lewinsky's 
over to Mr. Lindsay at the old Executive Office Building.
    Mr. Hutchinson. And did you believe that these searches 
were important?
    Ms. Lambuth. I'm sorry?
    Mr. Hutchinson. Did you believe that these searches that 
you were doing were important?
    Ms. Lambuth. Yes.
    Mr. Hutchinson. You knew that they had some legal impact 
because you were complying with a subpoena?
    Ms. Lambuth. Correct.
    Mr. Hutchinson. And there are two issues here. I mean, one, 
you've got to fix the technical problem. You've got to comply 
with the law in terms of the public records, and then you also 
have subpoenaed information in an investigation that is going 
on by the independent counsel.
    Was this part of the reason that you were going to 
Starbuck's to meet? I mean, this was not simply an ordinary 
technical problem; am I correct?
    Ms. Lambuth. That is correct.
    Mr. Hutchinson. Now, did you ever consider a broader 
responsibility? I mean, you were told and basically threatened 
by the--Mr. Lindsay that--``Don't talk about this.'' Did you 
believe that you might have a broader responsibility to the 
public to mention this to someone?
    Ms. Lambuth. Yes, I did. As I said, though, I was only on 
this project for a short period of time. I had some knowledge, 
because I guess it was basically 6 weeks that they left me on 
the project before they removed me. They removed me from that 
project. But----
    Mr. Hutchinson. Was this the nature of some of the 
discussions at Starbuck's? And I'll go to someone else, if you 
want to comment on this.
    Ms. Lambuth. Most--yes, most of our discussions were over 
in the park. We went to Starbuck's a couple of times. But it 
was basically how are we going to handle these issues. When we 
found out other bits of information, what was our next approach 
going to be? How was the best way to handle it? What kind of 
information did we need to turn over and ask the Government 
for?
    Mr. Hutchinson. Let me interrupt you there--and anyone else 
can comment on this. The people who participated in these 
meetings in the park where you had discussions about, one, you 
had a technical problem. And I'm interested also just as to 
what the thinking was at that time. Was there concern about the 
public interest, about the independent counsel and whether this 
is a cover-up? Was there any discussions about that as to the 
seriousness of this matter and the importance of it?
    Mr. Haas. That was not typically the purpose of our meeting 
out there. We would go offsite to the park, as she mentioned, 
to have technical discussions. And I don't believe at any time 
during any of the offsite meetings we discussed the fact that 
the public wasn't going to be made aware of this. We were 
really working the technical detail of the problem. We weren't 
out there having offsite discussions about the global problem. 
We were fixing specific details.
    Mr. Hutchinson. Does everybody agree with that?
    Ms. Golas. Yes. We weren't provided any place that we could 
go to work, and so this was our place where we would go to have 
discussions. We didn't have any equipment, so we really 
couldn't do a whole lot of testing, so it was really difficult 
for us to come away with any conclusions in any one period of 
time, so we had a number of meetings.
    Mr. Hutchinson. I yield to Mr. Souder for----
    Mr. Burton. The gentleman's----
    Mr. Souder. But it is important, because earlier on the 
record they all said that they privately had speculated about 
the things that Mr. Hutchinson is asking.
    You said you had private discussions speculating about what 
was in these documents, whether these documents might be 
called, and you all pretty much said that earlier.
    Mr. Spriggs. Just to clarify, we were not ignorant of the 
things that were going on around us, but the focus of our 
attention--I mean, we are there to solve a technical problem, 
but we are not ignorant of or ignoring the broader implications 
of these things. It is that, from our point of view, we are--we 
have a certain function to provide here, and I don't give 
counsel to the President and I don't--you know, those broader 
issues are Government issues. It's Government's responsibility 
to do certain things. And they tasked me to do specific 
technical things for them. They don't ask me, they don't hire 
me to be a consultant in a broader context, as you seem to be 
expressing.
    Mr. Burton. We'll have another round in just a moment.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    Mr. Burton. Yes. We'll come back in just a few minutes.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    I want to make several observations about the testimony so 
far.
    There are times when members of this panel are hoping for 
specific testimony to be delivered, but we can't reach 
conclusions based on what we hope you'll say. We're limited, or 
we should be limited, by the facts. The facts are some things 
we know and some things we are hearing from you to illustrate 
for us what the facts are.
    I think one objective fact is that there is a disagreement 
among members of this panel as to whether jail was threatened. 
It is clear to me that Mr. Haas honestly believes that it was 
said to him that he could go to jail if the information were 
made public. Others don't recall it, but----
    Ms. Lambuth. I recall it. I stated for----
    Mr. Waxman. Excuse me. I didn't say that you didn't. I said 
some people recall it, others do not recall it. Let me just put 
it this way: some of you think that you were threatened with 
jail if you told the information, others don't. Ms. Lambuth 
certainly does. Mr. Haas sincerely believes it. As I 
understand, Ms. Salim doesn't recall it.
    Ms. Golas, what was your testimony?
    Ms. Golas. I believe that they used the word ``jail'' in 
reference to not complying.
    Mr. Waxman. Is it fair to say that what all of you do 
understand is that Mr. Lindsay wanted to keep this matter 
quiet? Is that a fair statement? Does anybody disagree with 
that?
    [Heads nodding affirmatively.]
    Mr. Waxman. OK. You're all shaking your head.
    Mr. Hawkins. That's correct.
    Mr. Waxman. OK. Now, Ms. Lambuth has said that she thinks 
the e-mails involved Filegate, campaign finance abuse, sale of 
Commerce Department trade secrets, improper activities by the 
President. Is that right, Ms. Lambuth?
    Ms. Lambuth. That's correct.
    Mr. Waxman. And she also said her source for that 
information was Mr. Haas. Now, Mr. Haas has denied ever telling 
her that the e-mails involved Filegate, campaign finance 
abuses, sale of Commerce Department trade secrets, etc. Is that 
right, Mr. Haas?
    Mr. Haas. That's correct.
    Mr. Waxman. OK. So we have a conflict of testimony as to 
that whole issue.
    Now, on the question of the White House response, Ms. 
Lambuth seems to disagree with everyone else on the panel about 
whether Mr. Lindsay was dragging his feet.
    Ms. Lambuth, you were terminated by Mr. Hawkins in July 
1998.
    Mr. Hawkins. That's not correct.
    Mr. Waxman. She was not terminated in 1998?
    Mr. Hawkins. No, sir, she was not. Northrop Grumman does 
not terminate our subcontract employees. I removed her from the 
contract for several reasons, not just this one reason.
    Mr. Waxman. What were the reasons?
    Mr. Hawkins. Failure to follow management directives, 
failure to stay within compliance of the contract, failure to 
be able to work cohesively with her direct manager.
    Mr. Waxman. And that was July 1998?
    Mr. Hawkins. Yes, sir, it was.
    Ms. Lambuth. I was threatened not only by the Government--I 
mean, I was threatened two different ways. I was threatened 
that if I did talk I would end up in jail and be fired--be 
fired and end up in jail, and I was also threatened by Mr. 
Hawkins that if I didn't talk to him that I would be removed 
from the contract and he would try to get me removed from 
CEXEC.
    Mr. Hawkins. Can I respond to that? That is absolutely 
untrue, absolutely, positively untrue. She was never threatened 
with her job. I cannot do that. That was not within my roles 
and responsibility. Her manager and I had several conversations 
prior to this event about removing her from the contract, and 
that is for the record--several discussions. So this was just 
the straw that broke the camel's back.
    When Ms. Lambuth was called back to EOP the evening that I 
found out, she did not want to come back. I asked her to come 
back.
    Ms. Lambuth. That is not correct.
    Mr. Hawkins. Let me finish, please.
    Ms. Lambuth. Sorry.
    Mr. Hawkins. I then very specifically asked her what was 
going on. She told me she could not do that. I reminded her of 
our responsibilities as contractors to the U.S. Government that 
the COTR and only the COTR could direct our work force, and 
that had to come through the program manager.
    Under no circumstances was she told that she was going to 
be fired or terminated. That was never said.
    Ms. Lambuth. I disagree with that, obviously.
    First of all, I talked to Sandy before I ever talked to 
Steve, and I told Sandy just to hang tough, I was on my way 
back. Then I talked to Mr. Hawkins and told him I was on my way 
back.
    Mr. Waxman. Let me ask----
    Ms. Lambuth. When----
    Mr. Waxman. Excuse me, because my time is just about over 
and the chairman said he's going to indulge me because we've 
indulged other Members with a few extra minutes, but what I 
don't understand, Ms. Lambuth, is you thought you were being 
told you were going to go to jail if you made any information 
public, but you also said you thought that the White House was 
trying just to correct the problem and then later you reached a 
different conclusion.
    That sounds to me somewhat inconsistent. Can you clarify 
that?
    Ms. Lambuth. No. What I said was that we were threatened 
that if any of us talked we would lose our jobs, we would be 
arrested, and we would go to jail, and I truly believed that.
    Mr. Waxman. But you thought the White House----
    Ms. Lambuth. In the beginning--may I finish?
    Mr. Waxman. Yes, but you thought the White House----
    Ms. Lambuth. In the beginning----
    Mr. Waxman. But you thought the White House was----
    Ms. Lambuth [continuing]. When I started working with Mr. 
Lindsay on this project, we and I, myself, but the team really 
felt that they were trying to come up with a method of 
introducing this to the public. I did state--and I still 
believe it to this day--that they started dragging their feet 
for any of this to take place, to reveal to the public that 
this was--in fact, that these e-mails had been found and to 
allow us to come up with a way to produce these e-mails.
    Mr. Waxman. Just for the record, if you left in July 1998, 
you weren't there when presumably you think the White House was 
dragging their feet----
    Ms. Lambuth. No. They were dragging their----
    Mr. Waxman [continuing]. Because that was afterwards.
    Ms. Lambuth [continuing]. Feet before I left, because I 
couldn't get any answers on this particular project.
    Mr. Waxman. Thank you.
    Mr. Hawkins. Mr. Waxman, could I elaborate one point? To 
collaborate the truth of any statements, Ms. Kathy Gallant can 
substantiate our conversations between Ms. Gallant and myself 
about the reasons Betty was removed from EOP.
    Mr. Burton. OK. Thank you.
    Mr. LaTourette, I have not used my first round after the 
initial 30 minutes. I will yield to you because you have to go 
manage the floor. You're going to be managing the floor on the 
House?
    Mr. LaTourette. Thank you. I----
    Mr. Burton. So we'll yield to you for your second round, 
then I'll come back and do my first.
    Mr. LaTourette. I thank everyone for the courtesy. I have 
to go preside over the budget proceedings at 2.
    We sort of diverted into a discussion about why Ms. 
Lambuth--I don't care, to be honest with you.
    I would like to go to Ms. Golas for a minute. You don't 
appear to be--having watched you here--the insubordinate type, 
and so I'm curious about how it is you reached the conclusion 
to be in a position where your supervisor, Mr. Hawkins, 
considered you to be insubordinate. Could you describe that? 
How did that happen?
    Ms. Golas. Well, I came out of a meeting. I was in my 
office working on a problem. The COTR came in and--with another 
one of the Government workers. We had a problem that I had been 
working on simultaneously, and he started to ask me what was 
going on, and I said, ``I'm working on a couple problems.'' And 
he said, ``Well, I need you to stop and fix this.'' And I said, 
you know, ``I'm working on these other things, too.'' And he 
said, ``Well, what are you working on?'' So I explained to him 
that I was working on another something else, and something I 
couldn't go into any details with him.
    And then he got really abrupt and said, ``Tell me what 
you're working on.'' I said, ``I'm not at liberty to say 
anything.''
    So he said, ``I want you to go down--come right down with 
me to Steve's office.'' So he followed me down--so I followed 
him down to Mr. Hawkins' office, at which point he tried to 
explain to Mr. Hawkins what was going on, and then he--of 
course, Steve didn't have any idea. Nobody had any chance to 
really say anything.
    And the next thing you know, Steve was yelling at me 
because the COTR was trying to give me orders to do something 
and I'm confused and perplexed. I was doing, I felt, what was, 
I believed, investigative work for a problem. I didn't believe 
it was out of scope. I felt uncomfortable that the COTR was in 
my office trying to give me direction.
    And so now I've got the COTR, who I'm not supposed to tell 
what I'm doing, and I have Steve standing in front of me 
yelling at me, and I just finally--he said, you know, ``You're 
bordering on being insubordinate.'' And I just said, ``Well, if 
it's a choice of being insubordinate or going to jail, I guess 
I'll be insubordinate.''
    Mr. LaTourette. OK. And that's what I want to get to, that 
you felt compelled, as a result of this set of circumstances, 
to say, ``Look, I don't want to be insubordinate, but if I've 
got to choose between being insubordinate to you or going to 
jail, I am going to take being insubordinate to you.''
    And how did you--you came to that conclusion as a result of 
the conversations that you would have had with Ms. Crabtree and 
Mr. Lindsay?
    Ms. Golas. Yes.
    Mr. LaTourette. You were concerned and fearful that if you 
discussed with----
    Ms. Golas. I was very concerned. I've worked in 
environments before where things were classified.
    Mr. LaTourette. Right.
    Ms. Golas. It's not necessarily all for your manager if he 
doesn't have the same classification to know everything that 
you were doing all the time.
    Mr. LaTourette. Right.
    Ms. Golas. So I didn't find it unnatural to be in this kind 
of a situation.
    Mr. LaTourette. OK. And I--have I misread you? I don't--
you're not the insubordinate type, are you? This was a tough 
spot for you to be in, wasn't it?
    Ms. Golas. No. I'm not usually, I don't believe.
    Mr. LaTourette. OK. Well, Mr. Hawkins is shaking his head, 
too, so I guess we'll take that that you're not.
    Mr. Hawkins, that takes me to you. Obviously, you then 
became concerned as a result of this, and maybe some other 
things that occurred, and concerned enough to go see Mr. 
Lindsay and Ms. Crabtree?
    Mr. Hawkins. I was summonsed to Mr. Lindsay's office by 
Mark Lindsay.
    Mr. LaTourette. OK. And was this the subject of the 
conversation--that is that, you know, ``Hey, what, in fact, is 
going on? The people that are under my supervision are saying 
they can't talk to me?''
    Mr. Hawkins. I'll characterize it as they wanted to know 
why I interfered. Ms. Laura Crabtree was in the room at first, 
and she basically accused me of interfering.
    Mr. LaTourette. And let me stop you there. When you talked 
to the majority staff, I believe, you recall a comment being 
made to you by Ms. Crabtree that everything was fine before you 
stepped in.
    Mr. Hawkins. Absolutely.
    Mr. LaTourette. Is that a direct quote from Ms. Crabtree to 
you?
    Mr. Hawkins. That was a direct quote.
    Mr. LaTourette. OK. And at this time were you aware what 
the problem was, that there was this e-mail e-server problem?
    Mr. Hawkins. No, sir. I didn't have any idea, other than I 
had a COTR breathing down my neck, I had a CO--the contracting 
officer--telling me to stay in bounds of my contract. And, 
first of all, as I told Mr. Lindsay, my contract was with the 
U.S. Government and it was not with Mr. Lindsay nor was it with 
Ms. Posey.
    Mr. LaTourette. Did you ask either of these folks if they 
had threatened these employees with jail, and, if so, why?
    Mr. Hawkins. I did not go into that at that time. No.
    Mr. LaTourette. OK. I thank you very much.
    Mr. Hawkins. Right.
    Mr. Burton. Did you go into it at any time with them?
    Mr. Hawkins. No. After I stood my ground with Mr. Lindsay, 
we didn't talk.
    Mr. Burton. You never said anything to them about the 
threats?
    Mr. Hawkins. I did say it to Jim Wright, the COTR.
    Mr. Burton. And what did you say to him?
    Mr. Hawkins. I told him I didn't like the employees being 
threatened. I also mentioned it to----
    Mr. Burton. How was your understanding that they were being 
threatened?
    Mr. Hawkins. Well, Mr. Bob Haas, when he came down to the 
office with Sandy--and I'll go on the record, Sandy would never 
have been cited for insubordination. She was put in a very 
difficult situation. But Mr. Haas was the person who told me 
that these e-mails were very important to the political and the 
subpoena issues going on at the time, and I personally had the 
discussions with Dale Helms, the contracting officer, and Jim 
Wright in telling them that I felt, because of the importance 
of the subpoenas that we had been requested to turn over all 
our documents pertaining to the President and Monica Lewinsky, 
that this could lead to further problems for Northrop and our 
employees. And I stood my ground.
    Mr. Burton. So you told him, ``I don't want you threatening 
my employees?''
    Mr. Hawkins. Absolutely.
    Mr. Burton. OK. But you knew that there had been a threat 
of jail?
    Mr. Hawkins. That came from Mr. Bob Haas. I did not--I have 
no personal knowledge of the threats being given to them by 
either of the parties.
    Mr. Burton. But you heard that from Mr. Haas?
    Mr. Hawkins. Yes, sir.
    Mr. Burton. Mr. Haas, did you ever go to the office of 
Sheryl Hall to discuss Project X?
    Mr. Haas. Yes, sir.
    Mr. Burton. Did you ever tell Sheryl Hall that you were 
afraid for your life?
    Mr. Haas. Afraid for my life? No. Afraid of going to jail, 
yes.
    Mr. Burton. You never told her you were afraid or feared 
for your life?
    Mr. Haas. No, sir.
    Mr. Burton. OK. Did you ever provide her with any documents 
relating to Project X?
    Mr. Haas. Yes, sir.
    Mr. Burton. And why did you----
    Mr. Haas. She had requested.
    Mr. Burton. She requested the documents?
    Mr. Haas. Yes. I--in a working relationship such as we've 
had around the EOP, this was after the disclosure of--with 
Northrop Grumman's lawyers and more or less pulled us out of 
the point where we didn't have to believe we were under threat 
of jail, and Laura Crabtree had departed. Sheryl had asked me 
some questions and called me to her office and was asking about 
this because it seemed to be falling back under her purview, if 
you will.
    At that point in time, she asked me for copies of the list, 
which is the 525 typed list, and I gave her what I had.
    Mr. Burton. So you gave her, what, 525----
    Mr. Haas. This list that is here----
    Mr. Burton. But she asked for the list and you gave it to 
her?
    Mr. Haas. Yes.
    Mr. Burton. OK. Did you ever save any search responses or 
records on another electronic media, such as a zip drive?
    Mr. Haas. Just the stuff I saved for the people with the 
subpoena right now last week. I've never saved it on a zip 
drive for anybody.
    Mr. Burton. Never saved it on a zip drive or any kind of 
electronic device that you might have had at home or something?
    Mr. Haas. No, sir. I don't have a zip drive--I have a zip 
drive at home that is currently broke, but I don't have any--I 
just recently got a zip drive at work to record these documents 
last week, but I don't----
    Mr. Burton. The one at home, though, doesn't have any 
information on it?
    Mr. Haas. No, sir.
    Mr. Burton. And you never took any information home with 
you or anything and kept it?
    Mr. Haas. No, sir.
    Mr. Burton. Did you ever offer to Sheryl Hall----
    Mr. Haas. I did not have that computer at the time this 
happened, by the way.
    Mr. Burton. OK. Did you ever offer to Sheryl Hall that she 
could view any of the search results from searches that you 
performed?
    Mr. Haas. No, sir.
    Mr. Burton. You never did?
    Mr. Haas. No, sir. The documents in which I searched--as I 
related to you, I read those two documents. The rest of it was 
turned over in paper format and went to wherever it went.
    Mr. Burton. So you never offered Sheryl Hall that she could 
read any of the search results from the searches you performed?
    Mr. Haas. No, sir.
    Mr. Burton. Did you ever tell Sheryl Hall anything to the 
effect that if the results of the e-mail searches became known, 
the results of the investigations would be different and other 
people would go to jail?
    Mr. Haas. No, sir. If anything related to that, we may have 
had conversation, as we commonly did in her office, that if any 
of the stuff that was subpoenaed, like Filegate and that, were 
to show up in the search after all the documents were unloaded 
into the ARMS system, that it would be a real boondoggle, or 
something like that, but it was conjecture. It was not matter 
of fact. I know of no documents that exist in that format.
    Mr. Burton. Does any e-mail actually reside on the PCs of 
the White House users, or does it all actually reside on the 
servers?
    Mr. Haas. There was at one point, right prior to finding 
the problem--we were running out of disk space on Mail2. There 
was an active project to replace Mail2 for improved disk space. 
And at that point in time, a group of programmers that worked 
with me would put together a methodology for archiving these 
huge files that were on the server to their local C drive and 
then deleting some of the mail off of the server copies so that 
they could still have their more-or-less referential copy 
available to them.
    Mr. Burton. But the vast majority was on the outside 
server, not on the PCs, right?
    Mr. Haas. That's correct. One of the very first things that 
happened when we discovered this issue about the non-records 
management was I suggested that they stop immediately allowing 
people to archive to their hard drive, because that followed 
with deleting the documents off the server, and I didn't want 
that to happen, either.
    Mr. Burton. Therefore, if someone searched their PC in 
response to a subpoena, they wouldn't capture any of the e-mail 
that was on the Mail2 server; is that correct?
    Mr. Haas. Other than those people that had made archived 
copies on their machine, which there were a few, that should 
have searched it, as well as part of the requirement, they 
would not normally search their server.
    Mr. Burton. So the fact of the matter is, then, that there 
is a lot of this that was not on the personal PCs that these 
people have; it's all on that outside server.
    Mr. Haas. Yes. I would say 98 percent of it is on the 
server.
    Mr. Burton. OK. I thank the gentleman.
    Who is next? I think Mr. Souder.
    Mr. Souder. Thank you.
    I have a couple of followups that I have been trying to 
keep track of.
    Mr. Haas, you said early on that, when you had done the 
Monica requests on downloading her PC, that it would require 
special programming to cross-reference, that that was a very 
complicated thing and that it would require special 
programming?
    Mr. Haas. To search more than one file at a time would take 
programming. Yes, sir.
    Mr. Souder. And, as I understood, you said you were 
surprised that that request never came?
    Mr. Haas. Well, considered--the timeliness of the Monica 
Lewinsky search that I did manually coincided with just a few 
days before, I believe, she testified. I'm not sure, but it was 
coming up that somebody was testifying in the Monica Lewinsky 
case. And I thought it was pertinent that somebody would ask us 
to go in-depth. Once we found one, let's find them all and come 
up with some method, but it never came.
    Mr. Souder. Because you suspected that there might be 
things there that wouldn't be backed up elsewhere in the 
system?
    Mr. Haas. Yes, sir.
    Mr. Souder. Could you explain why something--how that 
works? Why something would have been that you might have come 
up with something in that programming that wouldn't be backed 
up anywhere else?
    Mr. Haas. If they were willing to accept the type of 
printouts like we had done when Betty was requested to print it 
out, that's not an ARMS search.
    If you can imagine--if we searched that one file and found 
400 or 500 documents, let's say we found 25 people, that's a 
lot of paper somebody has to read, and I don't know--I assume 
that you have the resources to hire people to read it, but it 
is not the kind of format you want. But I suspected if they 
went through and looked for it and they found a huge amount of 
it, it would be pertinent to the testimony.
    Mr. Souder. Because it wouldn't be anywhere else?
    Mr. Haas. I have no way of knowing that it is not anywhere 
else. All I can refer to is the fact that in all of these mail 
files I looked through, I found significant numbers of 
documents showing in a view that said they never made it to 
ARMS. If they made it through secondary and third-level 
processes, I have no way of knowing that.
    Mr. Souder. We are going to hear, apparently, in the second 
panel that all this stuff was available elsewhere. How would 
they know if they--if your search on that limited number of 
Monica documents is the only thing that they checked?
    Mr. Haas. I would have no knowledge of how they would sit 
here and testify to that.
    Mr. Souder. Is it plausible that everything--in other 
words, what you describe as a programming method, they could 
have checked Monica and campaign financing or trace different 
names--John Huang, Charlie Trie, anything we wanted to? Is it 
plausible that everything--that this missing gap, which I 
understand that's small, that is incoming e-mails that aren't 
CC'd to anybody else, is it plausible that every one of those 
incoming e-mails is backed up somewhere else in the system?
    Mr. Haas. No, sir. They are on that server, and, unless 
there is a process to search them, they won't be recovered, you 
know, taken all the criteria you gave me, and there's no other 
system that will reach in and pull them out.
    Mr. Souder. Mr. Barry.
    Mr. Barry. I think, Bob, you're missing something about the 
fact that if the e-mail is in Betty Currie's, for instance, e-
mail file, and she gets the memo on her desk to search relative 
to the subpoena, we--I know I always go through my e-mail file 
and search relative to a subpoena apart from an ARMS search. So 
she would--I'm assuming maybe Bob is overlooking that. I'm not 
sure.
    Mr. Souder. We are getting to a crux of a real difficult 
question, but I want to ask another thing here, and that is: is 
it possible, based on the fact that, instead of following the 
normal kind of chain of command inside a civil--a contracted-
out service that previously had been Civil Service, and 
Schedule C appointees--that is, political appointees of the 
White House have now interjected themselves in a contract 
process, and clearly now, in retrospect, certainly stonewalled 
during a very critical time of 1996 to 1998, is it plausible, 
because of the way I understand the backup system, is it that 
instead of the system scooping up these e-mails every few 
minutes, they were being duplicated at night in individual 
computers many hours later. Is it plausible that, given the 
fact that political appointees had come in and now were 
knowledgeable of this, that other political appointees in the 
White House realized there wasn't a backup system for a number 
of hours and, in fact, could hit a delete button?
    In other words, if there was an e-mail you did not want to 
get and you didn't want to keep it in your personal file that 
Mr. Barry was talking about, and you had knowledge that all of 
a sudden the system was down and you weren't going to be backed 
up if you deleted it in a short period, is it plausible that 
that information could have gotten out?
    Mr. Haas. The plausibility of that is, first of all, the 
general knowledge of being able to delete it before it was 
backed up, I don't know that that information was disseminated 
outside of our floor of the building.
    Mr. Souder. But what about that Mark Lindsay knew?
    Mr. Haas. OK. That's--it wasn't disseminated by any of us.
    Mr. Souder. I'm not accusing you. I'm saying political 
appointees----
    Mr. Haas. Is it--it's plausible that a person could receive 
a document and hit the delete key and it not--if we just even 
talk about one single document, absolutely it's possible.
    Mr. Souder. Because a fundamental question that the 
American people are having, and we in this panel, is, as I had 
read the Government's documents that came over here, and what 
we're going to hear later today is, ``Trust us.'' I tell you 
what, the problem we have is the trust is gone, because it 
doesn't prove anything, the fact that somebody could have 
deleted something, but, in fact, based on the history of what 
we are frustrated with, we are no longer willing to accept the 
trust that if, in fact, there was the ability to delete 
documents, then it is, to me, very disturbing, because the 
political appointees, in fact, all of a sudden have a potential 
motive for what happened in 1996, 1998.
    That's different than proof, but the fact is that we don't 
know.
    Mr. Barr [presiding]. I thank the gentleman.
    The gentleman from Florida is----
    Ms. Lambuth. Could I say something?
    Mr. Barr. Very briefly.
    Ms. Lambuth. Yes. I was just going to say, if I remember 
correctly, I think that there is, like, up to a 13-minute 
period in here that mail can actually be deleted before it is 
ARMS managed.
    Mr. Souder. That's the normal.
    Ms. Lambuth. Yes.
    Mr. Souder. But when the system is down, wasn't it going to 
be a whole day, roughly, until that evening?
    Mr. Spriggs. To the extent that there actually were 
instances where we received e-mail messages from a postmaster 
account saying, ``Because of disk space limitations, please 
delete mail messages, please delete files.'' We knew we had a 
disk space problem on Mail2 and others. I mean, I'm on Mail5. 
In our situation, we were actually given instructions, ``Please 
delete these things because we're running into disk space 
problems.''
    Well, if you are on Mail2 and you received that instruction 
and you delete it, whether you are a political appointee or 
what, you just complied with a directive to delete mail 
messages. You thought they were records managed, but, in fact, 
they weren't.
    Mr. Barr. The gentleman from Florida is recognized for 5 
minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    Well, it appears to me that you all had two basic missions. 
One was to fix the problem that had been uncovered; that's 
correct? And some of you are technical and were trying to fix 
that problem; is that correct?
    Mr. Haas. We have never--we've stopped the bleeding. We 
have never fixed the problem.
    Mr. Mica. OK. But there was a problem. It wasn't reporting 
these.
    Mr. Haas. That problem we fixed.
    Mr. Mica. That problem was fixed. OK. Then it appears that 
you had another role, which was to find--we're pumping out 
subpoenas or requests for information, independent counsel, the 
Senate, and others, so some of you were involved in the find 
mission, and Mr. Haas has testified that you--and, Ms. Lambuth, 
you said you had given him specific requests to find documents; 
is that correct?
    Ms. Lambuth. That is correct.
    Mr. Mica. And so far the only thing--now, and then we 
were--we have been requesting different documents, like 
Filegate. You've said the Vice President's campaign finance 
problems that we had asked--Waco, I guess, is another one, the 
sale of Commerce seats. Did you--and you have testified that 
you only were involved, Mr. Haas, in retrieving data on one 
that you are aware of.
    Mr. Haas. That's correct. I have never received a request 
to look for anything but Monica Lewinsky.
    Mr. Mica. Did you, Ms. Lambuth, ask anyone else to look for 
any of these, or were they all on the fix mission and only Mr. 
Haas on the find mission?
    Ms. Lambuth. Mr. Haas was on the find mission, but Bob had 
stated a few minutes ago--and if I recall directly--there were 
four other names that were given that we were supposed to find 
some information on, including go into their mailboxes to find 
some information on Monica, and one of those was Betty Currie.
    Mr. Mica. OK. That's agreed on. But here we have the 
different folks asking for information. Were you just involved 
in fixing and nobody else beside Mr. Haas in finding anything?
    Ms. Lambuth. Mr. Haas--on this technical team that was 
involved with this, Mr. Haas was the correct person to do the 
find. He is--he was the Notes.
    Mr. Mica. So the only thing that you were doing, Mr. Haas, 
then--these requests were coming from us, and you only----
    Mr. Haas. No, sir. No, sir. You're misunderstanding this. 
During the beginning of the event, when we discovered an error, 
short on, they asked us--someone asked Betty to ask me to look 
in this specific place for these specific files, which was the 
Monica Lewinsky. I found that and I've done no other searches. 
I've received no other request to do any searches, even to this 
day.
    Mr. Mica. For anything else--Filegate----
    Mr. Haas. Other than my own, personal searches of my mail 
file that we do receive through the mail. But I've never been 
asked to go back through anything else other than my file as 
part of this project.
    Mr. Mica. What happened to the request?
    Ms. Lambuth. I don't remember it that way. I definitely 
remember the Monica Lewinsky request for searches, but I still 
believe that there were other requests for searches not too 
long after that period.
    You know, we get about 20,000 mail messages, approximately 
20,000 mail messages a day. That's a lot of mail messages.
    Mr. Mica. So there may be--now, the body from 1996, from 
August 1996 to November 1998, there could be a huge body then 
of e-mails that we've never seen or been requested or gone 
after?
    Ms. Lambuth. That's correct.
    Mr. Mica. Is that correct?
    Mr. Haas. That's correct.
    Ms. Lambuth. Yes, that is correct.
    Mr. Mica. Are we talking about thousands?
    Ms. Lambuth. Hundreds of thousands.
    Mr. Haas. Nobody has ever counted them. We don't know.
    Mr. Mica. But you were able to go by hand and get some 
things that were specifically requested, so there is a 
capability of going back to those records. Are those records 
still some place where somebody could go get them?
    Mr. Haas. We don't know that, sir. They're on--we suspect 
they are on tapes. The tapes have not been loaded and verified 
to see that those files still exist. But understand what you're 
going to get in a given tape is the data that existed that 
moment.
    Mr. Mica. But again, that body, that huge body, there's 
only a small number of requests that were complied with that 
you are testifying to. There could be this huge volume in that 
timeframe, right, August 1996, to 1998.
    Now, after 1998, we're--well, after 1998, I guess, November 
1998, it didn't matter.
    And I think Ms. Nolan has testified that there are 3,400 
tapes or something in here. Is that where that information 
would be?
    Mr. Haas. I would suspect so.
    Mr. Mica. And we think that that would have all the backup 
information. But it is possible to go back and get some of the 
things we requested, even if it had to be done, say, by hand?
    Mr. Haas. Yes.
    Mr. Mica. But you could also take these tapes and key them 
for certain words and pull that information out, like we do on 
our computers now?
    Mr. Haas. One by one, by hand, yes. Sure.
    Mr. Mica. Ms. Golas.
    Ms. Golas. Yes. I think the thing that hasn't really been 
brought out is that the mail messages aren't individual files. 
OK? They are managed by Lotus Notes and they are in a data 
base, and each user has a data base of their own. So it's not 
as easy as just go executing a search.
    Mr. Mica. So do we have two bodies? We have all of these 
tapes, and then we have on individuals, too, or are they 
combined?
    Ms. Golas. Each individual's mail file, mail data base, is 
on the tape as a file.
    Mr. Mica. Yes. And you would think that would be complete? 
They didn't have the ability to delete them, or they did have--
--
    Mr. Haas. They did before it was backed up.
    Mr. Mica. So there may be a huge body, and then there may 
be a body of sort of missing----
    Mr. Barr [presiding]. The gentleman's time has expired.
    Mr. Mica. Thank you.
    Mr. Barr. Thank you.
    The Chair recognizes the Congressman from California for 5 
minutes.
    Mr. Horn. I thank the gentleman.
    I think I am on the same task that Mr. Mica has been asking 
you. Let me get it in another way.
    Are the 500 people in the White House, OMB, etc., are they 
all connected with your particular servers and all; is that 
correct? Mr. Haas, let me ask you that.
    Mr. Haas. Yes, sir. It is not OMB, first of all, it is--OMB 
is on a second server.
    Mr. Horn. Executive Office of the President, then.
    Mr. Haas. Well, we have five servers, and different 
organizations are spread across those five servers. We're 
mainly talking about the Mail2 server at this point.
    Mr. Horn. Now, let's just take one person that is in the e-
mail thing. Now, how much of a memory do they have in their 
particular computer, or do you have the memory storage 
capacity?
    Mr. Haas. We have the grand total memory storage, which is 
shared among all users on the server, and it is totally 
uncontrolled. We have recently had people that exceeded a 1 
gigabyte mail file just for their personal mail file, and it 
has caused us great problem. The White House has decided not to 
restrict the mail space.
    Mr. Horn. So you're telling me that a person that has the 
e-mail capacity through your program, they have how much 
memory, if any?
    Mr. Haas. They get it--everything they want. At the time 
that this server was put up, I think we had 14 gigabytes total, 
and now we're somewhere in the neighborhood of 100 gigabytes of 
total disk space on Mail2, and it is up in the high end of the 
80 percent full range.
    Mr. Horn. Well, do we know and do you have a general idea 
as to how much memory each person has and how much memory do 
they have in a file under your control?
    Mr. Haas. I have no clue what they have, themselves, on 
their personal machine, but on the computer--on the printout 
that I submitted from that that they have in here as testimony, 
there is basically a report that tells you how many messages 
they have in there, but it doesn't tell you in disk space size 
how big it is.
    Mr. Horn. Now, do we know on your system, the way it is 
constructed, the degree to which you need a backup tape every 
night? I'm from California. I'm used to earthquakes shaking 
computers.
    Mr. Haas. The Lotus Notes system and the backup tape system 
that is used on it aren't totally compatible, so in that extent 
every time you run a backup on the mail system you get a 
complete backup. There is no such thing as--if you are familiar 
with the term ``incremental backup,'' an incremental nightly 
backup of a mail system is everything on that mail system.
    Mr. Horn. Right.
    Mr. Haas. And they were scheduled to be run every day, from 
what I understand from the server group that does that. 
Problems came about with tape drives being bad and all that, so 
there are gaps in there, but I don't have direct knowledge of 
that.
    Mr. Horn. Now, if they had a file in your system, would 
that be backed up in the evening before they go home?
    Mr. Haas. Yes, sir. No. Before they go home? No, sir. 
They're backed up--it usually takes almost a 24-hour cycle to 
back the whole server up, so they're going on during the day, 
during the night. Depends on what time of day the backup system 
got to your particular mail file.
    Mr. Horn. OK. But that is basically your process, to have a 
backup system and to run it, what, every 24 hours?
    Mr. Haas. It's not my process, but it is an established 
process at the EOP to back up the mail servers every night, and 
my understanding is if they can be done in a 24-hour cycle, 
they will be done.
    Mr. Horn. Now, Presidents usually like to build a 
Presidential library. To your knowledge, has the President 
said, ``Hey, I want all of these things maintained?'' This 
could be way before any of Travelgate, what not. But wouldn't 
they be saying, ``I'd like to see documents save, whether they 
be electronic or written?'' Do you have that capacity?
    Mr. Haas. My understanding is that backup tapes are not 
used for that purpose at the White House; that the ARMS records 
are the record for the Presidential library, and that these 
tape backups--the whole tape backup scenario is only there for 
catastrophic failure of hardware. It has nothing to do with 
NARA and Presidential libraries or anything else. It is there 
for recovery of a disaster.
    Mr. Horn. Well, OK. Say you had real problems in the 
electrical system in Washington, DC. Is the only thing you have 
those tapes that you run systematically, or do you have them in 
a cave somewhere, which is what a lot of corporations do?
    Mr. Haas. I don't know. We don't take--none of us at this 
table administer that system. It's done by what we call the 
``server group'' at the EOP, but they're not in a cave, to my 
understanding. I believe they are either in the basement of our 
building or that they are stored at an offsite site that is 
considered safe by standards.
    Mr. Horn. Could a White House member scrub all of their 
files if they had the key of access to the file in your 
particular contract?
    Mr. Haas. Any mail user on our system can go in and delete 
their entire mail file at will any time, day or night.
    Mr. Horn. Now, what happens to that file? Say they delete 
it and they go and they have retired and they want to do 
something else. Can a new party take in a specified file, or is 
that too massive to identify?
    Mr. Haas. Are you talking about where a person replaces 
another person in their job?
    Mr. Horn. I'm saying one person decides to get out of 
there. They don't want to see that system again, and they can 
take their file with them, and----
    Mr. Haas. No, sir. We don't allow that. We have no way to 
transport it.
    Mr. Horn. Well, they could, you know, run a paper printout 
on their files.
    Mr. Haas. Yes, they're entitled to.
    Mr. Horn. But I'm wondering, in the space of your computer 
operation, the next morning somebody is hired could they take 
that amount of space at all?
    Mr. Haas. No, sir. Typically, there is a departure slip 
filled out by the person leaving the agency, for whatever 
reason. It goes through the normal processes and it is 
submitted to the security group to delete the account when they 
get to it. Sometimes they delete the account in a day, 
sometimes it sits out there for 6 months before it gets 
deleted, and only then--it takes 24 hours after that before 
that space becomes available again.
    Ms. Lambuth. Could I point----
    Mr. Horn. Could that--as I understand it, the----
    Mr. Burton [presiding]. Mr. Horn, your time has expired. 
We'll have one more round here.
    Ms. Lambuth. Could I add something to some known missing 
backup tapes?
    Mr. Burton. Sure.
    Ms. Lambuth. Shortly after Project X was made known as far 
as we discovered the problem, we were told--I was told--and I 
did confirm by going back and looking at tapes--that there were 
6 months of backup tapes that had been overwritten by some 
previous backup processes.
    Mr. Burton. Explain why that was done real quickly.
    Ms. Lambuth. I don't know why it was done, but there was a 
6-month period of time in 1997 of backup tapes that were 
overwritten, and I believe that those dates were from June or 
July 1997 to November 1997. Those backup tapes were 
overwritten.
    The other thing that the committee might want to be aware 
of is that there is a very short shelf life. When I'm saying 
``short shelf life'' on tapes, I'm talking a couple of years--
2, 2\1/2\ years of shelf life on tapes before they start to 
disintegrate. So that needs to be known, also.
    Mr. Horn. Mr. Chairman, I think that dialog shows that the 
FBI does--and I know it has the capability to find out what was 
on the previous tape, and it seems to me if you can find some 
of the tapes there they could be gone through.
    Mr. Burton. We will pursue that. We'll see if those tapes 
can be looked at, even though they have been overwritten.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Going back, Mr. Barry, to the incident report dated January 
30, 1998--and I would ask unanimous consent to have that made a 
part of the record, Mr. Chairman.
    Mr. Burton. What?
    Mr. Barr. I'd ask unanimous consent to have the document 
handwritten at the bottom, which was delivered to me by Mr. 
Barry just a little bit ago, dated January 30, 1998, 2:59 p.m., 
be made a part of the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.026
    
    Mr. Barr. Now, I believe you testified, Mr. Barry, that 
this report you sent to Mr. Wright?
    Mr. Barry. Yes, sir.
    Mr. Barr. And OA?
    Mr. Barry. Yes, sir.
    Mr. Barr. OK. And that was in late January 1998?
    Mr. Barry. Actually, the date that is on the document is 
what's called a ``modified date.'' I'm not sure exactly when it 
was created.
    Mr. Barr. Approximately that time, though?
    Mr. Barry. Approximately, yes.
    Mr. Barr. OK. In early 1998?
    Mr. Barry. Yes.
    Mr. Barr. There is another document here that was sent 
over--and maybe, Mr. Young, you can tell us what this document 
is. White House--W3, exhibit No. 7, talking points. Who 
prepared those talking points dated March 7, 2000?
    [Exhibit 7 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.042
    
    [GRAPHIC] [TIFF OMITTED] T9621.043
    
    [GRAPHIC] [TIFF OMITTED] T9621.044
    
    [GRAPHIC] [TIFF OMITTED] T9621.045
    
    [GRAPHIC] [TIFF OMITTED] T9621.046
    
    Mr. Young. Are you asking me to testify, Congressman?
    Mr. Barr. Yes, sir.
    Mr. Young. I have no idea.
    Mr. Barr. You have no idea?
    Mr. Young. No idea, sir.
    Mr. Barr. According, Mr. Barry, to White House exhibit No. 
7, on page 5, by this apparently unknown author, there is a 
question posed to an unnamed recipient: ``Were people within 
the White House office ever notified about this problem?'' 
Answer: ``Yes, within a couple of days after OA became aware of 
the error, Virginia Apuzzo, head of OA, sent a memo to Chief of 
Staff John Podesta.''
    Obviously, at least some people in OA--we don't know who--
were aware of it before then, because the memo that is referred 
to by this unknown author to an unknown recipient, for which 
Mr. Young professes no knowledge whatsoever, even though he is 
from OA, is dated June 19, 1998, White House exhibits 3 and 4.
    [Exhibits 3 and 4 follow:]
    [GRAPHIC] [TIFF OMITTED] T9621.047
    
    [GRAPHIC] [TIFF OMITTED] T9621.048
    
    [GRAPHIC] [TIFF OMITTED] T9621.049
    
    [GRAPHIC] [TIFF OMITTED] T9621.050
    
    Mr. Young. I am familiar with that document.
    Mr. Barr. Pardon?
    Mr. Young. That document I am familiar with, your question.
    Mr. Barr. Hallelujah.
    The White House did address this issue, at least to some 
extent, in June, some 5 months later.
    What is also interesting is my information that just a few 
days before this memo on the record dated June 19th, which 
purports to address the problem, just a few days before that, 
on June 11th, there was, in fact, a message that instructed 
people to delete old, unneeded e-mails.
    This, I think, if I might speak for some of the other 
Members here, is why one--highlights one aspect of this that is 
so disturbing to us. Even though OA was aware of this problem 
early in the year, very early in 1998, apparently, for some 
reason--and it might have to do with subpoenas that were being 
issued or the Office of Independent Counsel's work with regard 
to Ms. Lewinsky--and I think Mr. Souder was getting to this, 
also--the problem with deleting information and e-mails during 
this particular window in time where there is no backup.
    On June 11th, White House people are directed to delete 
old, unneeded e-mails. Now, under certain circumstances, that 
might just be a coincidence, but it is very suspicious, because 
then, just a few days later, despite the fact that OA knew 
about this problem for many months, then they put something on 
the record purporting to say, ``Hey, we have a problem and we 
ought to do something about it.''
    Does this strike you as odd, Ms. Lambuth, the timing of all 
of this?
    Ms. Lambuth. Well, I think it is odd, but we were 
definitely running out of disk space, and I, personally, had 
gone to OA and, after talking with Bob and some other people, 
the fact that we were in critical way as far as space.
    One thing that you've got to realize about a server is if 
it runs out of space you can't turn it off and bring it back 
up, because it is still out of space, so everything on that 
server is lost.
    It did take some doing to get permission to send out the e-
mail, and it was worked before Virginia would even allow the e-
mail to be sent out.
    If I remember correctly--I'm not sure it is on this one, 
but there were several that there were--when we would go in and 
finally were allowed to delete some mail messages for the 
people, would could only do it if it was prior to a particular 
date--I don't remember what any of those dates were--but we 
were in a critical situation.
    If anything, I would say is, knowing what the situation for 
storage space was on the mail servers and knowing that there 
are no rules about people can only have a certain volume for 
storage for e-mail, that they can only keep so many e-mail 
messages, etc., that there should have probably been a little 
bit more done to secure additional servers or for storage 
space, because, again, if you run out of space you've lost 
everything and you won't be able to get it back.
    Mr. Barr. Right. And, Mr. Haas, when did you do your search 
of the user names for e-mails from Monica Lewinsky?
    Mr. Haas. For the documents? That was--we started this 
project on, I guess, the 15th--12th to 15th, that timeframe, 
when we actually started working.
    Mr. Barr. Of?
    Mr. Haas. June 1998. I'm sorry.
    Mr. Barr. June.
    Mr. Haas. June 1998. I'm sorry.
    Mr. Barr. June 1998, also?
    Mr. Haas. Yes. And I would guess it was probably 2 or 3 
weeks into my work that they asked me to do it, so it was, 
what, somewhere around June 30th that I was asked----
    Mr. Barr. Somebody wanted to find out what was there?
    Mr. Haas. Specifically, I guess. I mean, why--they came 
down with a request to look for these and look here, so----
    Mr. Barr. Was it around the same time files were being told 
to be deleted.
    Mr. Waxman. Regular order, Mr. Chairman. It seems like 
Members have 5 minutes and they ought to stay within it so we 
can give this panel a break and get on to the other two.
    Mr. Barr. I think the record will reflect those dates that 
they're approximately the same time period.
    Mr. Burton. The gentleman's time has expired.
    I have some time. If we need, I'll yield you my time.
    Mr. Souder.
    Mr. Souder. Mr. Chairman, I've had two rounds.
    Mr. Burton. All right. Do you have further questions? This 
is the third round. Do you have any further questions? If not, 
we'll----
    Mr. Souder. Yes, I do have a couple of----
    Mr. Burton. OK. This is going to be the last round for this 
panel.
    Mr. Souder.
    Mr. Souder. I wanted to repeat just for the record, on the 
525--I was going through the names--this includes Bruce [sic] 
Lindsay, Cheryl Mills, Betty Currie, Erskine Bowles, Doug 
Sosnik, Rahm Emanuel, Nancy Hernreich, John Podesta, Bruce 
Reid, Marsha Scott, Lanny Breuer, Sidney Blumenthal, Paul 
Begala, as well as the Presidential files. The 525 are not 
insignificant. We've dealt with these for the last number of 
years. In particular, we have been seeking information in 1996 
to 1998.
    I also was particularly disturbed about this backup system 
and trying to understand it. I'm sure we're going to debate 
that in the next couple of panels.
    I also wanted to followup on one thing that was said 
earlier today that I didn't fully understand, and that is it 
seemed that the panel seemed to feel that the request by the 
White House counsel to let you look at the--to give him some 
time--maybe Mr. Hawkins could--well, you weren't directly 
involved. Let me ask Ms. Lambuth, and I think several of the 
others of you said that you felt the request was not 
unreasonable that they wanted some time. I know Mr. Spriggs 
said that.
    Given the fact that--why would that not be unreasonable? In 
other words, why wouldn't that be immediately reported that 
there was a problem with the system? Why would you have felt 
that you had to go to a park across the street or to Starbuck's 
anyway? I mean, if there's a problem with the system, who would 
you be hiding from?
    Ms. Lambuth. I didn't feel that it was unusual, knowing the 
circumstances of all the subpoenas, for them to say, ``OK, we 
acknowledge that there's a problem.'' As I said a few minutes 
ago, ``Let's--give us some time to see how we want to approach 
telling the public that we have found these additional e-
mails.''
    I've also reiterated several times throughout the day that 
to me, especially, it became very apparent that that was not 
what the intent was. The intent was to basically stall this 
whole process, to keep it from happening, because I couldn't 
get various things done, I couldn't get meetings when I 
requested meetings with the people that were supposed to be the 
only ones that could even give me direction on that.
    Mr. Souder. So, as this time period drew out, you had 
doubts, but let me go back to the beginning. I still don't 
fully understand why you felt you couldn't discuss this on 
White House or in your work ground, why you had to go across 
the street.
    Ms. Lambuth. Well, Sandy said it, Ms. Golas said it a 
little bit earlier. We really had no space in which to work. We 
had none of the equipment that we really needed to do this, 
even though we had given them specs.
    Mr. Souder. Wait a second. I'm sorry. I need to followup. 
You're saying that there was more space at a Starbuck's and 
across the street in LaFayette Park than in the White House? I 
mean, this isn't plausible. I mean, people are watching on TV. 
They're going to watch the C-SPAN of this, and you're saying 
that in the entire White House and Executive Office Building 
they don't have a room that you could go to, but that you could 
get a table at Starbuck's or a space in a public park out there 
that you couldn't get in the White House? That's just not 
plausible.
    Ms. Lambuth. It had been stated before that we often went 
to a very large room on the second floor and had meetings, but 
it was also stated that that was inside of the smoking area and 
people would stand outside the windows and watch.
    Most of you--if you've ever been to the new Executive 
Office Building where our offices were, the walls are very 
thin, and anybody can be standing outside the door and hear 
what's going on, and we were specifically told that nobody else 
was supposed to know about this information, and so we thought, 
for confidentiality, that we couldn't go into my office. People 
stood--could stand outside the door. It was also a very small 
office. John and Sandy's office was a thoroughfare for people 
cutting from one hall to the other hall, even when the doors 
were closed.
    Mr. Souder. I mean, it wasn't that you couldn't find space 
somewhere in these big Federal buildings?
    Ms. Lambuth. It was for security more than not finding 
space.
    Mr. Souder. And so that you were afraid of who seeing you 
in the White House? See, that's what is hard----
    Ms. Lambuth. It wasn't who seeing us, it was who was going 
to hear this. We had been----
    Mr. Souder. Who were you afraid in the White House would 
hear you? In other words, if what you're doing is just trying 
to fix the system, what White House personnel or Executive 
Office personnel would you be afraid of hearing you?
    Ms. Lambuth. If we were talking about specific mail records 
that were lost, and somebody says something to a friend of 
theirs over a beer that night, ``Oh, I heard today that there 
are other additional--'' and that leaks to the paper, then that 
comes back to us that we leaked this information. We had been 
threatened. If we leaked any information, we would lose our 
jobs, we would be arrested, and we would go to jail. It was a 
very legitimate concern on our part.
    Mr. Burton. The gentleman's time has expired.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    When I ended my questioning, it appeared that we have 
basically hundreds of thousands of e-mails that are somewhere 
and have never been seen. We have the possibility of individual 
user files that could have information or could have had 
information deleted. Is that correct?
    Ms. Lambuth. Again, I mentioned we get in excess of 20,000 
e-mails a day, so over that period of time, even calculating 
roughly, it is over 100,000 e-mail messages.
    Mr. Mica. My concern also is that, of course, some of these 
records were under subpoena, and you're saying you felt that 
this was being stalled to provide the information. You all sort 
of were told in secret to--I mean, to be secretive about this, 
not discuss what's going on.
    You have Mr. Hawkins, who is the contractor responsible for 
the billing and all, wondering if these folks are off the 
reservation. It could be embarrassing to--it could have been 
very embarrassing to your company to have--well, you were 
trying to make certain that they were on the reservation and 
complying with the contract, right?
    Mr. Hawkins. Yes, sir.
    Mr. Mica. OK. It could have been very embarrassing to 
Northrop Grumman if the public knew what they might have been 
involved in. But you did--at some point, you did seem to find 
out what they were involved in, didn't you?
    Mr. Hawkins. Yes, I did.
    Mr. Mica. You did. Even though it was secret?
    Mr. Hawkins. Well, I made that point when I met with Mr. 
Lindsay. He told me he wanted to keep this a secret, and I 
said, ``Some secret we've got here, with about 10 people I knew 
had it.''
    Mr. Mica. But you were also sort of cutoff by Mr. Lindsay 
when he told--you didn't go back to Mr. Lindsay after your 
conversations; is that correct?
    Mr. Hawkins. No, sir. I had the proper counsel working it.
    Mr. Mica. Well, we may never know what we didn't get in 
this. Some of it was to fix the problem, some of it was to 
find, but it appears that we only found a limited amount.
    Last Friday, the committee received a letter from the White 
House counsel, Beth Nolan, in which she wrote, ``There was a 
new, unexplained problem with the e-mail in the Office of the 
Vice President,'' and that's exhibit GR-2, page 6, second 
paragraph.
    It just says that, ``In the course of gathering these 
preliminary facts--'' I'll read it--``concerning the 
configuration error, we were informed this week that the e-
mails on the server of the Office of the Vice President have 
not been fully managed by ARMS. We are still in the process of 
determining the scope and time period involved. The Office of 
Vice President does maintain backup tapes of its server.''
    So now it appears that there is also a problem in the Vice 
President's office. Are you aware of this?
    [Exhibit GR-2 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.051
    
    [GRAPHIC] [TIFF OMITTED] T9621.052
    
    [GRAPHIC] [TIFF OMITTED] T9621.053
    
    [GRAPHIC] [TIFF OMITTED] T9621.054
    
    [GRAPHIC] [TIFF OMITTED] T9621.055
    
    [GRAPHIC] [TIFF OMITTED] T9621.056
    
    [GRAPHIC] [TIFF OMITTED] T9621.057
    
    [GRAPHIC] [TIFF OMITTED] T9621.058
    
    Ms. Lambuth. Yes.
    Mr. Mica. You are?
    Ms. Lambuth. Yes, I am.
    Mr. Mica. Everyone else is aware of this?
    Mr. Haas. We're aware that they are doing something 
different with records management. We don't--aren't directly 
charged with records management of the OVP.
    Mr. Mica. Now, if we wanted information from the Vice 
President's office, is there a possibility some of this could 
be missing? It says, ``The Office of Vice President does 
maintain backup tapes of its server,'' so that's--everything is 
going to be there? would that be the case?
    Mr. Haas. You would have to contact the Vice President's 
office for that information.
    Mr. Mica. You wouldn't know?
    Mr. Haas. I don't know.
    Mr. Mica. Would anyone know if he has a similar system, or 
are we going to find another case in which there are documents 
not available?
    Do you know anything about this, Mr. Spriggs?
    Mr. Spriggs. Yes, sir, I do somewhat.
    Mr. Mica. Could you explain?
    Mr. Spriggs. The Office of the Vice President, when they 
deployed their Lotus Notes server, decided to employ a non-
standard, if you would, non-EOP records management system using 
tape backups, and----
    Mr. Mica. When was that?
    Mr. Spriggs. That was as early as--my understanding, the 
server was created in 1994.
    Mr. Mica. OK.
    Mr. Spriggs. So their server predated the EOP OA servers. 
But at that point the records management system that they chose 
was, again, this tape backup methodology. Again, what they have 
on their side, on the OVP side, was not our concern for a 
number of years, up until--in March 1998, I was put on a 
project by Betty Lambuth specifically to move the Office of the 
Vice President's server, called OVP-underscore-1 into OA IS&T 
control facilities.
    I worked with Ms. Crabtree and others to put together a 
plan to move that equipment into this OA space, and at that 
point, when we executed it at the end of March 1998, the server 
was turned on, the users were up and running on it. The 
question of records management apparently had not been resolved 
at that point.
    We, OA, began to do the backup systems for the OVP-
underscore-1 server, but at that point I'm not aware of any 
instructions to do records management by that same method for 
the OVP.
    My understanding is that by July 1999, we were given 
instructions--Jim Wright gave instructions to actually start 
doing a 3-week cycle on the backups for all of our servers, 
which included the OVP-underscore-1 server, so that now we are 
on a 3-week cycle. Every 3 weeks they overwrite the existing 
tapes. And so if OVP is doing records management with tape 
backups, then they have a problem.
    Mr. Mica. Thank you.
    Mr. Burton. The gentleman's time has expired.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman.
    I'd like to ask you, Ms. Lambuth, you said there were 
20,000 e-mails a day. Now, was that limited strictly to the 
Executive Office of the President, or could outside parties 
within the Government or outside send e-mails into that system?
    Ms. Lambuth. There were approximately--if I remember 
correctly, there were 20,000 or so e-mail messages that came in 
through e-mail each day. That was not limited to just within.
    Mr. Horn. OK. You're saying that 20,000 could come from 
people, or was that put into a different e-mail system?
    Ms. Lambuth. There were different e-mail systems that, for, 
like the President, people sending through the Internet, their 
Internet mail, what we called--well, the President, the Vice 
President, and the First Lady got e-mails from outside. That 
basically was--came through. The file was then sent over to 
their various offices, and then the files ran through, if I 
remember correctly, a WordPerfect process that allowed them to 
view and search those files.
    Mr. Horn. In other words, those three categories--the 
President, the Vice President, the First Lady--had an e-mail 
system that didn't necessarily go through your system; is that 
correct?
    Ms. Lambuth. The Internet mail did not go through that 
system.
    Mr. Horn. Well, if they had----
    Ms. Lambuth. If I remember correctly.
    Mr. Horn [continuing]. Personal friends, I assume they gave 
a code to their personal friends as to how to reach them.
    Ms. Lambuth. I can't answer to that.
    Mr. Horn. OK. Well----
    Ms. Lambuth. I don't know.
    Mr. Horn. Let me ask you, on firewalls within the system, 
obviously, with hackers all over the world and the country and 
foreign governments, also, did you have protection to keep 
hackers from getting into the system?
    Ms. Lambuth. Well, we had--yes, we did have a firewall. And 
I'm having to really think back about the structure of this. We 
had STORM, which basically helped keep certain types of e-mail 
messages from coming through, or numbers of e-mail messages 
coming through to shut the system down.
    Sandy and John basically were the ones that handled this 
particular area and kept a close watch on it and were notified 
if there were problems with this.
    Mr. Horn. I yield the rest of my time to the chairman.
    Mr. Burton. Thank you.
    I just have one real quick question for Mr. Haas.
    Ms. Hall did not have anything to do with Project X, as I 
understand it, so----
    Mr. Haas. Not at the beginning.
    Mr. Burton. So why did you go to Ms. Hall's office and talk 
to her about that?
    Mr. Haas. She was asking questions about it, and the direct 
line of--the 10 years I've worked there, the period of time she 
has been there, she has been, more or less, the top of my 
working food chain, if you will, and she was asking me about 
it, as I said, after we made disclosure to the Northrop Grumman 
and were told we could now work on the project and talk to 
whoever we needed to talk to.
    When she asked the questions, I assumed it was in an 
official capacity and I answered my questions to the best of my 
ability.
    Mr. Burton. So she asked you to come to her office and you 
answered the questions?
    Mr. Haas. Yes. I commonly stopped by there many times a 
day. It is right in line with what I normally do.
    Mr. Burton. OK. I'll yield to my counsel.
    Mr. Wilson. You've been here a long day, so I'll be very, 
very brief. Thank you. I've spoken with most of you. You have 
been very cooperative. I greatly appreciate it. It has been a 
long day, so I'll try to get to resolve three things.
    Mr. Barry, when we spoke--and you were very forthcoming. We 
appreciate that--you mentioned to us in January or February 
1998 you had identified this anomaly in the Lewinsky e-mail 
traffic, and you suggested that you wrote a report, and we have 
just been furnished this.
    Now, I wanted to ask you, do you know whether this document 
has been produced to the committee?
    Mr. Barry. All I know is I turned it over to counsel's 
office.
    Mr. Wilson. OK. Now, I only ask this--we'll go back and 
check. We've checked three times now. And we're having a 
hearing today about failure to produce documents, and we sent a 
subpoena out last week. It was very, very clear. It wasn't 
broad. It said specifically, because you told us that you had 
this document, and you now knew where it was, we asked 
specifically for the incident report that you prepared that is 
this document, and it appears to us that, although documents 
have been produced to us by the White House, we have not 
received this copy.
    I notice you were able to turn to your counsel and get a 
copy from him immediately, so if there's anything you can help 
us with this issue, to tell us whether you know anything about 
why this document wasn't produced to us----
    Mr. Barry. Like I said, I turned the document over to OA 
counsel. That's all I know. I don't know where it went from 
there.
    Mr. Wilson. OK. We'll followup on that on our own time and 
just double check to----
    Mr. Barr. Excuse me. Would counsel--I'd like to just note 
for the record that, contrary to all of the other documents 
that counsel has reviewed and we have had available, this 
document which I introduced into the record, because we just 
received it today, does not bear any of the identifying marks 
such as would indicate that we had received it.
    Mr. Young. None of my documents would, Congressman.
    Mr. Burton. Without objection, so ordered.
    Mr. Wilson. The second thing I wanted to followup on was 
something that you said, Mr. Haas, and it relates to a letter 
we received from the White House at the end of last week. They 
explained to us--White House counsel explained to us in great 
depth that many of the e-mails from outside of the White House 
complex would have been reviewed or searched in other ways, and 
basically indicated that there probably wasn't much of a 
problem because many of the e-mails that we're talking about 
today, these hundreds of thousands of e-mails, have actually 
been scrutinized.
    One thing you said struck me as very important. You 
indicated that the e-mails that are on the personal computers 
of users in the White House don't stay there for a very long 
time. You said, I believe, 98 percent of the e-mails would not 
be reviewed if somebody were going back to----
    Mr. Haas. I think you've got--I think you misunderstood. 
There--98 percent of all the e-mails are on the mail server and 
were subject to the error of the glitch of not being recovered. 
Any person that had made a personal copy of their mail file, 
not--they don't move--there is never, ever any mail, ``active 
mail,'' as I call it, on your computer. You are looking through 
a window using your computer at our server at all times.
    If you choose to make a copy subsequent to looking at it, 
it is always delivered to the server. If you choose to make a 
copy down to your C drive and that is your local file and you 
choose not to search it under subpoena, that's your thing.
    Mr. Wilson. That point I understand, but that takes the 
affirmative step of actually copying----
    Mr. Haas. Yes.
    Mr. Wilson [continuing]. The e-mail to preserve it.
    Mr. Haas. Absolutely. It's----
    Mr. Wilson. If you haven't taken that affirmative step, it 
is not going to stay forever on your computer, it will go away. 
So if somebody comes back 6 months later and asks you to search 
for a particular type of information----
    Mr. Haas. Not there.
    Mr. Wilson [continuing]. It's not going to be there. So any 
representation given to us that all of these documents would 
have been searched in another way would only be correct if 
people were able to--had affirmatively copied all of the 
information and gone back and done the searches; is that 
correct?
    Mr. Haas. Or if they had actually done a mail search 
manually on the server of their mail file and then printed them 
off. Many other people I've talked to over the 10-years I've 
been there said, ``We don't have to search our mail files. 
That's done for us. We search everything else.
    Mr. Wilson. And just one last question.
    Mr. Hawkins, if I could followup on something you said, we 
heard the story about how Ms. Lambuth and you have locked horns 
on a number of issues, and it became clear that she would not 
tell you what the scope of the problem was that people were 
working on, and you were dissatisfied with that; is that 
correct?
    Mr. Hawkins. Yes, I was.
    Mr. Wilson. OK. Now, you said--and I'll read back the 
direct quote that you said--``that was the straw that broke the 
camel's back''; is that right?
    Mr. Hawkins. Absolutely.
    Mr. Wilson. So I just wanted to establish one thing, and 
that is that Ms. Lambuth did have a personnel action taken vis-
a-vis her remaining on the contract that you supervised; is 
that correct? She was removed?
    Mr. Hawkins. She was removed.
    Mr. Wilson. Right. And so it seems that the position that 
she was put in, being sort of made not to tell people and her 
supervisors what was going on, actually had a relationship to 
what happened to her in her employment; is that correct?
    Mr. Hawkins. Let me characterize. I would suspect anyone 
that has got any experience in a management role on a 
Government contract, they understand compliance with that 
contract.
    Numerous times during the employment history at EOP, Betty 
had to be counseled of stepping out of bounds, taking direction 
from the Government employee.
    It is very, very clear in the EOP contract that they take 
directions from the COTR, which is given to the program 
manager. These were--many, many times in my staff meetings I 
had to continue to remind the employees there, because they 
lose sight from day to day. They get alliances with some of the 
Government employees.
    Mr. Wilson. Right. I understand that, and I think you made 
that very clear. But in this case it does seem that it is clear 
Ms. Lambuth didn't inform you of the full scope of the problem 
and that did have a bearing on how you reacted to her, and it 
seems justifiably; is that correct?
    Mr. Hawkins. Had we not had any prior problems, that would 
not have been enough to have her removed from the contract, 
period. Plain and simple.
    Mr. Young. Mr. Wilson, I do believe that the document you 
referred to is--and I understand in documents you can lose 
sight of where they are--is ``E'' as in Edward, 2496. But thank 
you very much.
    Mr. Wilson. OK. Thank you.
    Ms. Lambuth. Could I say something?
    Mr. Wilson. Mr. Chairman, I did want to make that very same 
point. So, if I might ask, E-2496 is identification of 
documents that were submitted to this committee?
    Mr. Young. I am told that that is the document to which 
Congressman Barr was referring. That is correct. That's my 
understanding.
    Mr. Burton. We'll let the record so show.
    Mr. Wilson. Ms. Lambuth, do you want to conclude?
    Ms. Lambuth. Yes. In my defense I would like to say this: I 
was often accused of aligning myself with one of the Government 
supervisors. In reality, that particular Government supervisor, 
Laura Crabtree, was the branch chief who I got--who had most of 
my projects. About 95 percent of the work that I did for EOP 
fell under her direction, and I basically was keeping her 
informed of processes that were being done, trying to allow her 
to know about issues so that she did not get broadsided, and 
she was giving me other direction as far as other things that 
they needed done or a particular project or why a project might 
slip. And it was only in the course of my work that I was, as 
was stated, so far--such as taking direction from a supervisor.
    Mr. Souder. Mr. Chairman.
    Mr. Burton. Mr. Souder.
    Mr. Souder. May I have unanimous consent to ask a brief 
questioning to Ms. Golas? It's something directly related that 
I may have misunderstood----
    Mr. Burton. Yes, briefly.
    Mr. Souder [continuing]. To ask Mr. Lindsay.
    You stated under questioning, I think, from Mr. LaTourette, 
that you had dealt with classified material before; therefore, 
you didn't--weren't surprised necessarily by the request. Did 
they imply to you that this material was in any way classified?
    Ms. Golas. No. Just really sensitive.
    Mr. Souder. By ``really sensitive''--in other words, one of 
the problems we've dealt with in this committee is that things 
that were more ``really sensitive'' in political terms were 
treated as if they were classified. So you just--you made your 
own personal conclusion that this could be more like classified 
material than anybody suggesting that to you?
    Ms. Golas. Yes. No one ever used the word ``classified to 
me.''
    Mr. Souder. Thank you.
    Mr. Burton. Let me just conclude by--this has been a long, 
arduous task for all of you. We appreciate your coming, and 
hopefully we won't have to bother you again, but we do 
appreciate your being here today.
    Mr. Fitton. Do you plan to call Ms. Hall, Chairman Burton?
    Mr. Burton. We will take that under advisement. We have 
another panel that is due right now.
    Do any Members want to take a break here? If not, we'll go 
ahead with the next panel, and if there is any need for any 
break for anybody, we'll allow that, but if not let's go ahead 
with the next panel.
    We'll wait 5 minutes. We have a couple of people that need 
to take a quick break, so we'll be no more than 5 minutes so we 
can move ahead. No more than 5 minutes.
    [Break.]
    Mr. Burton. Raise your right hands, please.
    Ms. Crabtree-Callahan. Mr. Chairman, may I ask a question, 
please?
    Mr. Burton. Yes.
    Mrs. Callahan. May I be sworn in my correct name? It's 
Laura Callahan, and it has been since September 1998 when I was 
married.
    Mr. Burton. Would you like it to be Laura Callahan or Laura 
Crabtree-Callahan?
    Mrs. Callahan. It's Laura Callahan.
    Mr. Burton. Laura Callahan. OK. As Laura Callahan.
    Mrs. Callahan. Thank you.
    Mr. Burton. Raise your right hands.
    [Witnesses sworn.]
    Mr. Burton. Before I ask any questions, I'd like to make 
one real quick comment, and that is that the committee has 
conducted a lengthy investigation of campaign finance scandals. 
Over 120 people have fled the country or hid behind the fifth 
amendment when we wanted to talk to them. When we found out 
about the e-mail problem, we asked people to come in for 
interviews, and both of you agreed to come in. Then you 
suddenly changed your mind and backed out.
    I was very disappointed that you decided to do that. People 
who work for the White House, Mr. Lindsay and others, we 
believe should cooperate voluntarily with the Congress and they 
should----
    Mr. Kadzik. Mr. Chairman, if I could interrupt for a 
moment.
    Mr. Burton. No, you may----
    Mr. Kadzik. It is incorrect----
    Mr. Burton. Counsel, you may not speak before the 
committee. You can speak through your client. You cannot speak 
before the committee, and I'm making an opening statement. Your 
client can respond when we get into questions.
    Mr. Kadzik. Just so you don't state----
    Mr. Burton. Mr.--what is your name, sir?
    Mr. Kadzik. Kadzik.
    Mr. Burton. You're not allowed to speak as counsel to the 
witnesses before any congressional committee. You can confer 
with your client, you can ask--tell your client what to say, 
but he is the one that is supposed to respond.
    We believe that the people at the White House should try to 
cooperate and not keep information from the Congress or try to 
stonewall us.
    At any rate, we sent you a subpoena, and we're happy that 
you're here, and I look forward to the answers to your 
questions.
    Ms. Crabtree, first of all, let me address you. When did 
you have your first conversation with Betty Lambuth about the 
problem with some incoming White House e-mails not being 
properly managed?
    Mrs. Callahan. Mr. Chairman, if I may please set the record 
straight, first of all, to the best of my----
    Mr. Burton. Would you pull the microphone closer to you, 
ma'am?
    Mrs. Callahan. Yes. First of all, to the best of my 
knowledge, no one has ever approached me to ask me any 
information up until this time, so I just want to make that 
very clear that I have not declined any previous request for 
information because no one has ever approached me prior to this 
time for information.
    Mr. Burton. OK. Do either one of you have opening 
statements you'd like to make?
    Mr. Lindsay. Yes, Mr. Chairman.
    Mr. Burton. OK. Well, Mr. Lindsay, we'll let you go first, 
then we'll get back to questions.

  STATEMENTS OF MARK LINDSAY, ASSISTANT TO THE PRESIDENT AND 
  DIRECTOR OF WHITE HOUSE MANAGEMENT AND ADMINISTRATION; AND 
     LAURA (CRABTREE) CALLAHAN, CHIEF INFORMATION OFFICER, 
                      DEPARTMENT OF LABOR

    Mr. Lindsay. I would like, sir, just to first address your 
first comment, and that is the refusal to provide or to 
cooperate or come in for an interview. I was more than willing 
and have been and was very surprised when I received a 
subpoena, because there was a statement or belief on my part 
that I was going to have an appointment to come in for an 
interview. I would have had no objection whatsoever to coming 
in to an interview, and it was my understanding that my counsel 
talked to--when I acquired counsel, they talked to the 
committee's counsel, and then the next communication was that 
we were going to be--where should service be provided for the 
submission of a subpoena.
    I would have been more than willing to come in and engage 
in an interview and looked forward to it.
    Mr. Burton. There must have been some miscommunication, 
because the way our counsel understood it was that you said you 
would come in and an appointment had been set, and then the 
White House informed us that you had retained counsel.
    Mr. Lindsay. That wasn't my understanding at all, and I 
would have--I had no objection to coming in and talking, 
whatsoever.
    Mr. Burton. Well, then, if that's the case and you have no 
objection, then we'll retract what we said and we're glad 
you're here.
    Mr. Lindsay. Thank you very much, Mr. Chairman.
    Mr. Burton. OK.
    Mr. Lindsay. Mr. Chairman, members of the committee, my 
name is Mark Lindsay. I'm the assistant to the President for 
management and administration.
    I have been with the White House since June 1997. Before 
working at the White House, I worked as a staff member and 
counsel to Congressman Lewis Stokes, a Member for whom I have 
had an enormous amount of respect, and one of the last projects 
I worked on was the Ethics Reform Task Force. Because of that 
experience, I was brought on board to help the White House deal 
with and developing a relationship with the Congress and 
improving how we were dealing with matters as it relates to our 
information technology infrastructure.
    When I came to the White House, one of the major issues 
that I had to deal with is that we had major information 
problems in terms of our status of our technology. As a result 
of engaging in that investigation and looking into how those 
things were being done, we actually were able to develop what I 
would consider a good relationship with our subcommittee in 
Treasury, Postal that was able to work out our appropriations 
issues so the White House could help move forward, past having 
our funds fenced and moving toward getting the kind of 
relationship that the Presidency and the kind of support the 
Presidency should receive from the Congress, and I'm very proud 
of that interaction.
    As far as the matters that are related in this committee 
hearing today, I first became aware of the computer glitch in 
June 1998. It is the best of my recollection that Ms. Crabtree, 
a very trusted and valuable employee for the Executive Office 
of the President, brought that matter to my attention.
    When I became aware of that particular issue, my first 
instruction and my first belief was to do whatever was 
necessary to fix the computer problem. Please keep in mind, Mr. 
Chairman, we had been faced with numerous and countless 
problems with system failures and systems that were being lost.
    One of the things that we were constantly concerned about 
was making sure that we maintained the integrity of our 
computer systems and made sure they continued to operate.
    On the point of providing any kind of instruction and 
intimidation, I did say to Ms. Crabtree that this was a matter 
that I believed that needed to be kept in bounds with those 
people who needed the information to perform repairs to the 
system. I believed that very, very much. I knew that in many 
cases there were investigations being conducted about 
individuals who were at the White House. I preferred very much 
that those individuals not hear about the way they were being 
treated by people who were talking around at the water cooler, 
but they learned in official processes and procedures. I felt 
very, very strongly about that.
    But on the point of whether or not I issued any kind of 
threat to employees, I can state to you quite emphatically and 
quite clearly it's not something that I did, it's not something 
that I would condone, and it's not something that I would ever 
permit to happen if it came to my knowledge. As a matter of 
fact, Mr. Chairman, it is something that I find very, very 
troubling, and I would have done something about it right then.
    I was also the ethics officer for my agency, as general 
counsel at that time, and following those kinds of rules were 
very important to me.
    And I think that my record will show that in my 
interactions with Congress, the time that I spent here, the 
people that I worked with, the one thing that they would say 
about me is that that kind of behavior is out of the lexicon 
for Mark Lindsay.
    Let me go on to state that once we did find out about this 
particular computer glitch problem we then moved forward, or I 
believe we were moving forward toward fixing this particular 
issue.
    The very first instance, that very first day when I was 
informed, the first thing I did is place a call to my boss, Ada 
Posey, the director of Office of Administration, her boss, 
Virginia Apuzzo, the assistant to the President for management 
and administration, who then directed me to communicate 
directly with the counsel to the President and to let them know 
that this computer glitch had been discovered.
    Once we conveyed that information, I directed my staff to 
prepare a memorandum which prepared that information in writing 
to the counsel expressing the concern about what was included 
in that e-mail or what wasn't included in the e-mail.
    One other thing I would say is that at that particular time 
I was particularly, when I first heard about it, at least best 
of my recollection, it was my understanding that e-mails 
weren't being put into the ARMS service system. I was relieved 
to learn that it was just e-mails that were coming to the 
inside, as opposed to all e-mails not going to that system in 
the relevant time period. It was very important to me to make 
sure that that information was conveyed to the appropriate 
authorities.
    It is important to also understand that the Office of 
Administration is a custodian of the records for the White 
House office. We maintain that information for the White House 
office. We did not and never during the time that I was there 
did I direct any particular search of e-mails, nor would I have 
without the direction of White House counsel. I would not have 
directed the reconstruction of any kinds of e-mails without the 
direction and cooperation of my colleagues in the White House. 
It just would not have happened.
    It was very, very important to me to follow and conduct 
ourselves in a way which was fitting with the circumstances 
that I tried to establish with our Treasury, Postal 
Subcommittee, and that is one basic principle: I believe very 
strongly that open and clear communication on what was going on 
was the only way that we could move from the position where we 
were, where in fiscal year 1998 we had all of our information 
technology funds fenced, and during that time period, we were 
unable to make a lot of the improvements, address the--you've 
heard people talk about in the last panel about server space 
problems and what not. That was because we didn't have the 
proper resource.
    And, Mr. Chairman, some of that was our fault, in terms of 
how we went about doing our information planning. We developed 
a strategy, working with a partnership with Congress, for how 
we were going to move forward and how we were going to build a 
much more robust system.
    And I'm very happy to report that in November 1998 we were 
able to develop a solution for this computer glitch, and then 
we got our funding for our Y2K money in that particular year.
    Unfortunately, we were very much behind schedule. We were 
faced with--my computer experts came to me and said, 
essentially, ``You will fail to meet your Y2K deadlines. You 
are not going to make it. You are starting too late, and you 
don't have the appropriate resources in place to be able to 
achieve the goals you need to achieve. What you need to do is 
focus on your mission-critical systems and on those systems 
which are mission support and critical to taking care of those 
needs.''
    Because of that requirement to address the Y2K glitch and 
to address those issues, the reconstruction of the e-mail was a 
matter which had to be placed in the context of maintaining the 
total e-mail situation.
    What we did after we were able to address the Y2K problem, 
at the end of February 29, 2000, is we were able to then 
continue the efforts.
    Please keep in mind that during this relevant time period, 
in October 1998, we had received information from Northrop 
Grumman stating that it would cost us $600,000 just to assess 
what the scope of the problem was, just to assess what the 
scope of the problem was.
    I can report to you today that that $600,000 worth of work 
has been completed by the White House staff or the Office of 
Administration staff that were tasked with working with this, 
and they are moving forward with taking steps to address the 
reconstruction issue, which is moving forward and would have 
moved forward, even given the circumstances that we have here.
    With all of that, I say it to emphasize the fact that, No. 
1, there was no particular point in providing any kind of 
``coverup'' of this particular information. From my 
perspective, because I didn't review the document requests that 
were provided to this particular committee or to other 
investigative bodies, I would have no knowledge and did not 
have any knowledge of what information would have been produced 
and what wouldn't have been produced. We responded to subpoenas 
and document requests that were passed through to counsel's 
office and passed those documents forward. I never reviewed 
those document requests and reviewed them for responsiveness, 
reviewed them for privilege, or other kinds of assertions which 
one could assert at one particular time. We presented it and 
provided that information to those authorities.
    Mr. Burton. You've created a number of questions we'll get 
to in just a few moments.
    [The prepared statement of Mr. Lindsay follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.027
    
    [GRAPHIC] [TIFF OMITTED] T9621.028
    
    [GRAPHIC] [TIFF OMITTED] T9621.029
    
    [GRAPHIC] [TIFF OMITTED] T9621.030
    
    [GRAPHIC] [TIFF OMITTED] T9621.031
    
    [GRAPHIC] [TIFF OMITTED] T9621.032
    
    [GRAPHIC] [TIFF OMITTED] T9621.033
    
    Mr. Burton. Ms. Crabtree, how do you want me to address 
you? Ms. Crabtree, or how?
    Mrs. Callahan. My correct name is Mrs. Callahan.
    Mr. Burton. Mrs. Callahan. OK. We will address you as Mrs. 
Callahan.
    Mrs. Callahan, do you have an opening statement?
    Mrs. Callahan. Yes, Mr. Chairman.
    Mrs. Callahan. Yes, Mr. Chairman.
    First of all, again, I'd just like to re-articulate the 
fact that, up until this event today, no one has made any 
attempt to reach me, unless my attorney has had such requests 
given to him, but to my knowledge there has been no attempt to 
get a hold of me, so, as a result, I would like to be able to 
start out, first of all, by introducing myself to you. I'm 
pleased by the reaction to correct the name.
    So I would like you to get to know who I am, because, 
again, we've never had an opportunity to talk, so I don't think 
anyone here really knows who Laura Callahan truly is.
    Just real briefly, I'd like to let you know that I am a 
career civil servant. I have almost 16 years of Federal 
service. I started my career of Civil Service back in 1984, and 
I have been working in various different capacities.
    I came to Executive Office of the President on September 
30, 1996 as the Lotus Notes Windows/NT project manager. At the 
time that I arrived at the Executive Office of the President 
back in that September 30th date, the position of the desktop 
systems branch chief was vacant. The position was empty. Mr. 
Paul Myers was acting in the capacity of the branch chief at 
the time when I arrived back in 1996.
    In March 1997, the position of the desktop systems branch 
chief was announced and I competed for the position, in which I 
was then selected as the desktop systems branch chief.
    As the desktop systems branch chief, I was responsible for 
the customer service support activities, the help desk, as well 
as the developmental activities for the desktop systems and the 
Windows/NT file servers.
    Prior to my coming to the EOP, I worked at the Pittsburgh 
Research Center for the Centers of Disease Control, National 
Institute of Occupational Safety and Health. That particular 
research center was previously known as the Bureau of Mines 
Pittsburgh Research Center, an agency that was abolished and 
the functions assumed under the responsibility of the Centers 
for Disease Control.
    For the time that I was at the Pittsburgh Research Center, 
I spent 3 years there as the director of the information 
systems and technology group responsible for the computing and 
networking needs there at the research center.
    I am a graduate of Thomas Edison State College in Trenton, 
NJ, and I have numerous certificates and a series of awards and 
recognitions that I have basically been able to achieve over my 
almost 16 years of Federal service.
    I do have available for you, if you would like, a list of 
those accomplishments, because I think it helps you understand 
who I am, because those accomplishments number over 40, and 
they include recognition from not only commands and agencies 
for which I worked for, but they also include recognition from 
outside entities.
    What I mean by that, to give you an idea of who I am, the 
outside awards include the 1995 Supervisor of the Year Award--
--
    Mr. Burton. Excuse me, Mrs. Callahan. I don't mean to be 
impolite, but your entire record of accomplishments is not 
necessary at this time. We really want to get on with the 
questions pertinent to the hearing.
    If you would like to summarize, we'll be happy to have you 
summarize. And we're impressed, obviously, with your 
credentials, but we'd like to get on with the questioning.
    Do you have anything else you'd like to say?
    Mrs. Callahan. I would just like to know, sir, if you'd 
like them for the record so you understand who I am.
    Mr. Burton. Sure. We'll be happy to put those in the record 
for you.
    Mrs. Callahan. Thank you.
    And then I would also like to say that, at the Executive 
Office of the President, both in my capacity as the Lotus 
Notes, Windows/NT program manager and also in my duties as the 
desktop systems branch chief, from what I've heard today, being 
my first exposure to these activities, I have to say that I'm 
rather ambivalent at the moment. I am here voluntarily and 
willingly to help you with any information that you need and 
provide any data that you so desire. I'm just, quite frankly, a 
little perplexed as to why it took today's event and a 
subpoena. I would have been more than willing to be here at any 
previous time or help you with any information prior to this.
    Mr. Burton. Thank you. I think we've covered that.
    My counsel contacted the White House. An agreement was 
reached that you and Mr. Lindsay would come down voluntarily, 
and then we understood that that was withdrawn and you hired 
counsel, and that's why the subpoenas were issued. 
Nevertheless, we're glad you're here----
    Mrs. Callahan. Excuse me, Mr. Chairman. I just want to make 
sure that people understand, this is all very foreign to me. I 
hired counsel because I need someone that understands the 
process, and being that my counsel, himself, was the chief 
counsel for the Ethics Committee, I have been following his 
guidance just to help me get through the process, and that was 
the reason for securing counsel.
    Mr. Burton. That's fine. We appreciate that.
    Now, let's get back to the questions.
    Mrs. Callahan, when did you have your first conversation 
with Betty Lambuth about the problem with some incoming White 
House e-mails not being properly managed?
    Mrs. Callahan. Mr. Chairman, it's Mrs. Callahan.
    Mr. Burton. Mrs. Callahan.
    Mrs. Callahan. I know that's a hard habit to break.
    Mr. Burton. Mrs. Callahan.
    Mrs. Callahan. Thank you.
    Mr. Burton. When did you have your first conversation with 
Ms. Lambuth about this?
    Mrs. Callahan. My first conversation is when Betty Lambuth 
approached me in June 1998 to advise me that we had yet another 
problem with e-mail.
    Mr. Burton. OK. During that conversation, did she show you 
an e-mail from Robert Haas or Yiman Salim describing the 
problem?
    Mrs. Callahan. No, sir. It was a very brief interaction for 
her to advise me that they had yet another problem with the e-
mail system----
    Mr. Burton. OK. Well, she did not----
    Mrs. Callahan [continuing]. Which was not unusual.
    Mr. Burton [continuing]. Show you the memo?
    Mrs. Callahan. No, sir.
    Mr. Burton. OK. How significant did you understand the 
problem to be when you heard about it? Did you understand it to 
be pretty significant?
    Mrs. Callahan. The initial report from Betty Lambuth was to 
the effect that there had been some kind of a discrepancy 
noticed with the e-mail system. This was something that had 
been noticed and there was no data as of this time to tell us 
to what degree and depth the problem really occurred.
    Mr. Burton. Did you tell Ms. Lambuth at that time not to 
tell anyone about the problem?
    Mrs. Callahan. Not at that time, sir.
    Mr. Burton. But you did later?
    Mrs. Callahan. Later on, sir, there was a different series 
of events that occurred.
    Mr. Burton. OK. Well, we'll get to those in just a minute.
    Did you instruct her at that time to tell her subordinates 
working on the problem that they were not to tell anyone about 
it?
    Mrs. Callahan. No, sir. Not at that time.
    Mr. Burton. Did you specifically say that they couldn't 
talk to their bosses at Northrop Grumman?
    Mrs. Callahan. No, sir. Not at that time.
    Mr. Burton. Not at that time. Well, when did you tell them 
that, and what did you tell them?
    Mrs. Callahan. Perhaps it would help, sir, for yourself and 
the committee to understand the series of events. Ms. Lambuth 
first reported that there had been a detected problem with the 
e-mail system----
    Mr. Burton. We can't hear you. Can you pull the microphone 
a little closer, please.
    Mrs. Callahan. We had learned about the problem through 
Betty Lambuth advising me that we had an anomaly with the e-
mail system. My first reaction to her was what it has always 
been while I was employed at the Executive Office of the 
President, and that was the fact that, OK, this is not new. 
We've had numerous problems with the e-mail system. It was very 
poorly designed and very poorly constructed by a contractor 
prior to Northrop Grumman. So, as a result, anomalies were 
fairly common, and, as our normal process, when an anomaly 
occurs our first order of business is to figure out what we're 
dealing with--what is the situation, what is affected, what is 
the size and scope of the problem and the depth--so that we can 
figure out what the situation is and figure out the appropriate 
corrective measures. So that was the focus of the first 
discussion with Ms. Lambuth was to figure out, indeed, what was 
this anomaly, and I instructed her to do some diagnostic 
research activities to find out the scope and depth of the 
situation.
    Mr. Burton. Yes. OK. So, when the meeting took place with 
all the people who were at the first table here today, what did 
you say to them during that conversation about the 
confidentiality of the records?
    Mrs. Callahan. Mr. Chairman, prior to that, there are a 
couple key events I think would help the committee----
    Mr. Burton. Well, I'm concerned about that meeting at this 
point.
    Mrs. Callahan. I can't answer, sir, without giving you the 
appropriate context, because then you won't be able to 
understand the reason for the meeting.
    Mr. Burton. OK. Give me the context.
    Mrs. Callahan. Thank you, Mr. Chairman. I appreciate that.
    I had notified Mr. Lindsay immediately that we had an 
anomaly situation and that we had begun the research efforts. 
Very shortly, within a period of--and I'm working off of 
memory, bear with me--approximately a day or two of time 
passing, Betty Lambuth returned back to me very anxious, very 
nervous and concerned. She brought it to my attention the fact 
that Mr. Bob Haas had found e-mail messages pertaining to 
Monica Lewinsky and Ashley Raines.
    The reasoning for this activity was unclear to me and it 
was rather perplexing, because I had not instructed the 
contractors to do any type of subject matter search at this 
point in time, nor had I--would I have any role to do any of 
those type of searches during my employment at the EOP other 
than functioning as a normal employee responding to normal 
document searches and requests.
    So I was very concerned why all of a sudden we had specific 
e-mail being brought to my attention in a very, very short 
period of time when we did not even fully understand the size 
and the scope of the situation.
    So I had talked to Ms. Lambuth and asked her very 
specifically what was the situation, why did Bob take it upon 
himself, Mr. Haas, to do these searches.
    She was unable to answer that question for me and re-
articulated something that was a regular pattern at the EOP, 
and that regular pattern was the fact that Mr. Haas was a very 
talkative individual and very inquisitive individual, similar 
to, like, a child on the first, you know, on the day of 
Christmas, waking up first, running down, and opening up all 
the presents to see what is inside before anyone else had a 
chance.
    So, as a result of her concern and her repeated issues 
working with Mr. Haas in the past, and the fact that he had 
somehow taken it upon himself--through whatever means I am not 
sure--to do a search and had already found these documents 
dealing with Ashley Raines and Monica Lewinsky was a concern of 
both Betty Lambuth and myself.
    So we had discussed options on how to approach this, in 
which case we decided that we would get a meeting together with 
all of the team members, including Mr. Haas and Betty Lambuth, 
and basically walk them through the standard procedures of how 
we handle these type of events at the EOP.
    And what I mean by that, as far as the ``standard 
procedures'' and what they were advised at the meeting was the 
fact that the normal procedures are, if you are receiving any 
inquiries from folks such as the press, to please refer them to 
the Office of Public Affairs, and if anyone else had any 
particular questions or had a need to know, to please refer 
them to either myself or Mr. Lindsay.
    So Betty and I had made the decision jointly to have that 
meeting, and I, in turn, left and went and advised Mr. Lindsay 
of the situation--that Mr. Haas had found this information. We 
did not know what his motivation was behind that. And there was 
already people in the hallway starting to discuss this. And 
obviously, as we are all aware from the newspapers and the 
media, the other events going on, when I advised Mr. Lindsay of 
this he concurred that this was a situation that we needed to 
be careful of because it was sensitive. And, as such, Mr. 
Lindsay participated in the team conference call meeting in 
which all of the members of the team were present and Mr. 
Lindsay was there via conference call, and re-articulated the 
standard operating procedure. And in absolutely no way did I 
ever make any personal threats to any individuals during that 
timeframe.
    Mr. Burton. We had, I think, five people there. Three of 
them indicated that they had been told to be quiet, to keep a 
lid on this, that there was a threat that they might even go to 
jail if they said something. There were three of them that 
recalled that. One of them even told her supervisor that she 
couldn't tell him anything, even though he threatened her with 
reprisals, because she said she didn't want to go to jail.
    Now, how did they get that idea, do you think?
    Mrs. Callahan. Mr. Chairman, first of all, from what I have 
heard today, there's very different recollections of those 
individuals, and----
    Mr. Burton. Well, excuse me for interrupting, three of them 
have referred to the jail comment, two of them said they don't 
recall that, but they didn't refute it. So no one has refuted 
it, but three have said that they felt that there was a 
possibility they would face jail. Now, how do you suppose they 
got that feeling?
    Mrs. Callahan. Mr. Chairman, I could tell you and the other 
members of this committee I did not threaten them with any 
sense of jail for several reasons, and first----
    Mr. Burton. Did you threaten them with dismissal or any 
kind of reprisals?
    Mrs. Callahan. No, sir, because there--they would be idle 
threats. I have no authority, first of all, to carry out these 
type of threats.
    Mr. Burton. Yes.
    Mrs. Callahan. And, No. 2, it is not anywhere in my 
demeanor and my past practice or my character to do those type 
of threats.
    Mr. Burton. OK. Well, let me ask Mr. Lindsay a couple of 
questions.
    Mr. Lindsay, do you recall the phone call in question?
    Mr. Lindsay. No, I don't.
    Mr. Burton. You don't recall the phone call with them in 
Mrs. Callahan's office?
    Mr. Lindsay. No, I don't, sir.
    Mr. Burton. You don't recall? Well, during that--the 
selective memory loss of people that come to us from the White 
House just mystifies me.
    Mr. Lindsay. I assure you, sir, it's not selective.
    Mr. Burton. This was a pretty significant conversation. 
They were talking about e-mails that had been lost, which had 
been subpoenaed by myself, the independent counsel, and the 
Justice Department, and there are all these people from 
Northrop Grumman in then Ms. Crabtree or Mrs. Callahan's 
office, and you don't recall talking to them about that?
    Mr. Lindsay. No, sir. And I think that one of the things, 
to place this into context, is that at that present time I was 
handling two other investigations directed by Congress over the 
handling of classified materials, which I considered very, very 
serious.
    Mr. Burton. Yes.
    Mr. Lindsay. And I had numerous conference calls over those 
materials, where I worked with Chairman Solomon's committee and 
the House Permanent Select Committee on Intelligence.
    Mr. Burton. Yes.
    Mr. Lindsay. I also had investigations that were going on 
dealing with those things. Those were investigations that I was 
tasked with dealing with Members and dealing with other 
individuals in resolving those issues.
    Mr. Burton. Were you aware of the subpoenas that had been 
issued by the House, this committee, and the independent 
counsel asking for documents pertaining to a whole series of 
investigations involving the FBI files, the Travel Office 
investigation, the----
    Mr. Lindsay. Absolutely, sir.
    Mr. Burton. Then, if you were aware of those and you knew 
the e-mails were relevant to our investigations, why wouldn't 
this click on in your brain?
    Mr. Lindsay. Because, as Mrs. Callahan stated, my 
instruction from the very first instance was to fix whatever 
problem was there, but to also identify the scope and breadth 
of what the problem was.
    Mr. Burton. Yes.
    Mr. Lindsay. This was very early in the situation in terms 
of what was going on.
    I didn't know for sure that information had not been 
provided to you or any other committee. I knew that document 
productions had been made. Of course, that was very obvious and 
common knowledge.
    Mr. Burton. OK. Well, let----
    Mr. Lindsay. What I didn't know was that the information 
contained in these e-mails was e-mails that was responsive to 
the document request that you are referring to.
    Mr. Burton. Let me--you had e-mails that had been lost 
since September 1996. The campaign finance investigation dealt 
with that timeframe. Money came in from all over the world into 
campaigns. There was a serious investigation going on. And the 
e-mails that were lost during that timeframe, you didn't even--
that didn't click into your mind that they might have been 
relevant to that investigation?
    Mr. Lindsay. Well, first off, Mr. Chairman, I would say 
that whether e-mails were lost or not is a conclusion that 
was--a technical conclusion that had not been reached yet. What 
I asked be done is that there be an investigation to find out 
what the nature of the problem was.
    Mr. Burton. OK.
    Mr. Lindsay. So I think it would be premature for me to say 
that. And, as Mrs. Callahan stated----
    Mr. Burton. Let me just ask one more question here, and 
then we'll yield to my colleagues.
    Mr. Lindsay. Yes, sir.
    Mr. Burton. You do not remember saying anything about this 
in a telephone conversation to the people that were at that 
meeting? All five of them remember, but you don't?
    Mr. Lindsay. No. Like I said, Mr. Chairman----
    Mr. Burton. You don't remember?
    Mr. Lindsay. I don't remember.
    Mr. Burton. OK. You don't remember.
    And, Mrs. Callahan, you don't remember making any kind of a 
threat to any of these people, even though they all remember 
being concerned about what was said at that meeting, and so 
concerned that they went to Starbuck's and across the street to 
a park to talk about these things? You don't remember making 
any kind of a threat of any type to them?
    Mrs. Callahan. Mr. Chairman, I did not threaten anyone. I 
advised them of the standard practice and the procedures to 
handle sensitive situations.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Mrs. Callahan, you've said you worked for the 
Federal Government since 1984; is that right?
    Mrs. Callahan. Yes, sir.
    Mr. Waxman. And are you a career civil servant or a 
political appointee?
    Mrs. Callahan. I'm a career civil servant, sir, with 
absolutely no desires or aspirations for the politics.
    Mr. Waxman. In fact, I understand you are a registered 
Republican, or at least you were at the time all of this 
happened; is that right?
    Mrs. Callahan. Yes, sir, I was, and I still am.
    Mr. Waxman. What is your area of expertise?
    Mrs. Callahan. My area of expertise is in the computer 
science arena. I have been working in that capacity since my 
entrance into the Federal civil service back in 1984.
    Mr. Waxman. Have you received any Federal awards for 
Federal service?
    Mrs. Callahan. Yes, sir. In fact, I've submitted for the 
record here, I have over 40 different awards. Most recently are 
two from last week for exemplary achievement. I also have 
awards from independent parties, such as being named one of the 
Nation's top webmasters in 1996, I believe was the year, and in 
1995 I received the award from the Federal Executive Board, the 
Bronze Award, for being supervisor of the year. And I have a 
litany of other accomplishments and achievements for which I 
have been recognized for my work.
    Mr. Waxman. How long were you employed at the Executive 
Office of the President [EOP]?
    Mrs. Callahan. I was employed from September 30, 1996 until 
about October 10th or 11th, 1998.
    Mr. Waxman. And what were your duties at the EOP?
    Mrs. Callahan. My initial duties, I was hired to be the 
Windows/NT and Lotus Notes program manager. That's what I 
started out as. And then I competed for and was selected into 
the position of the desktop systems branch chief in March 1997, 
where I then took on the responsibilities of customer service, 
support, help desk, as well as the development activities for 
the desktop systems, which included the desktop, themselves, 
the computers on the people's desks and what they saw, as well 
as the Windows/NT servers.
    Mr. Waxman. Where do you work now?
    Mrs. Callahan. I currently work at the Department of Labor. 
I am--just to give you a little bit about myself there, I am in 
the senior executive service at the Department of Labor----
    Mr. Waxman. Briefly, because I have questions I want to ask 
about the issue under investigation today.
    Mrs. Callahan. Certainly. And I'm the special----
    Mr. Waxman. Aside from investigating your background.
    Mrs. Callahan. Thank you. And I'm the Special Assistant for 
Information Technology, where I perform the duties of the 
Deputy CIO, and I am the Director of the Information and 
Technology Center.
    Mr. Waxman. I believe you learned about the Mail2 problem 
in June 1998. How did you find out?
    Mrs. Callahan. Ms. Betty Lambuth brought it to my 
attention.
    Mr. Waxman. And what were you told about the nature of the 
problem?
    Mrs. Callahan. This was very much unknown. We just knew we 
had some type of an anomaly. We didn't even know the size and 
scope of the situation, and we didn't know at that time if it 
was strictly one of the mail servers or all of the mail 
servers. We just knew we had a problem.
    Mr. Waxman. And what was your reaction to the problem?
    Mrs. Callahan. I go into my normal diagnostic behavior. I 
instructed her that we have a situation, that we need to figure 
out what it is, and asked her to go back and look at the 
situation and research it to find out the scope of the 
situation, how large it was, did it affect all of the e-mail 
servers, some of the e-mail servers, all of user accounts, some 
of the user accounts, certain types of e-mail--basically 
diagnostic type discussion.
    He was very concerned that we go and do some research to 
find out whose e-mail this affected, how many people, and basic 
diagnostic information. He re-articulated the fact to find out.
    Mr. Waxman. I understand one of the first things that you 
did was to call a meeting in your office on June 15, 1998, with 
the Northrop Grumman employees who were responsible for the 
ARMS-Lotus interface. These were the same individuals that 
testified on the first panel.
    There have been allegations that you threatened them with 
jail. Mr. Burton has already asked you about that, but they 
told us--some of them, anyway, said that they thought you were 
threatening them with jail if they talked about the e-mail 
problem. Mr. Haas claims that you told him there would be ``a 
jail cell with his name on it'' if he mentioned the problem to 
his wife. Others who were present for this meeting, like Ms. 
Salim and Mr. Spriggs, have said that they don't remember you 
making any threats.
    I want to ask you about this meeting and what you said.
    At that meeting, did you tell anybody to destroy any e-
mails or cover up the problem?
    Mrs. Callahan. On the issue of destruction of e-mail, I 
have never given any instruction to destroy any e-mail 
messages. I want to make sure that that's very perfectly clear 
to everybody.
    In regards to the meeting, what prompted the meeting was 
the fact that a Northrop Grumman employee, Mr. Robert Haas, had 
brought to Betty Lambuth's attention that he had found e-mail 
pertaining to Ashley Raines and Monica Lewinsky, when there had 
been on direction, to my knowledge, given to him to conduct 
such a search, and why--quite frankly, it perplexes me. I don't 
understand his motivation at this point in time, because we 
were in a diagnostic mode, trying to understand, first of all, 
what servers were involved and then which e-mail users on which 
server were impacted, and then, when we could figure out that, 
we had to figure out how many e-mails for each of those users 
were, indeed, affected. We did not know that at this time.
    I'm also a little perplexed, quite frankly, if I may. I've 
heard allegations that have been made and I've read them in the 
Washington Times, and it makes me, quite frankly, a little 
angry--well, it makes me a lot angry for several reasons, 
because they are strictly allegations. But, in addition to 
that, I find it rather mystifying that someone like Betty 
Lambuth can make a statement today about being threatened by 
myself and feeling so concerned that she's going to jail by 
this alleged threat that she felt it to make the decision 
herself to have these meetings offsite, but yet this is the 
same individual who, after leaving the EOP in July, accepted an 
invitation to my wedding and attended my wedding in September 
of that very same year, in September 1998, bringing me a gift 
and wishing me well. I'm just, quite frankly, perplexed by all 
of the different behaviors.
    Mr. Waxman. Let me ask you this about Mr. Haas, because he 
made the accusation, and I thought he was pretty sincere. He 
did tell us he made a flippant comment to you, and your 
response might have been a flippant response, because sometimes 
when people say something flippant they get a similar response, 
but he didn't take it to be flippant. He said you responded--I 
think he asked, ``What will happen if I tell my wife or tell 
people?'' And you said, ``There will be a jail cell with your 
name on it.'' Could that have been the way this whole thing 
took place and you just don't recall it?
    Mrs. Callahan. I do not ever remember, nor would I have 
ever said anything about a jail cell. And, quite frankly, I 
think Mr. Haas characterized himself with his flippant 
comments. I would suggest that he may be either having bad 
recollection or may have an overactive imagination with regards 
to the threat being made to him.
    Mr. Waxman. Well, you could have said that, ``If this 
information gets out, it would be in violation of the contract, 
the law,'' something like that?
    Mrs. Callahan. Mr. Waxman, first of all, we didn't know 
what the information was. We were still trying to----
    Mr. Waxman. Well, you knew that the President was being 
investigated and the Congress and the independent counsel and 
everybody was trying to get documents and e-mail, that there 
were a lot of things that weren't on that whole system that was 
supposed to enable people to get all the documents. You knew 
that right away, didn't you?
    Mrs. Callahan. At that point in time, we did not know. The 
only knowledge that I had was the fact that Mr. Haas had found 
some e-mail messages, four, that dealt with Ashley Raines and 
Monica Lewinsky, and, as a result of that, I had the meeting in 
order to advise them not to have any open discussions about 
this because I had Betty Lambuth approach me and tell me she 
was concerned that Mr. Haas was unable to control himself and 
was talking about this openly, and she wanted some reassurance, 
you know, given to her team about the standard practice and 
procedure for this, and that was the focus of the meeting.
    And, also, so you can understand, I was only involved in 
this process for a period of maybe 1 to 2 weeks. My memory 
doesn't recall the exact number of days, but as soon as my 
boss, Kathy Gallant, returned, the project was handed over to 
her and she saw it through from that point on, so my 
involvement is very limited at the very early stages of this.
    Mr. Waxman. But you did ask them at that meeting not to 
talk about it publicly; is that right?
    Mrs. Callahan. I advised them of the standard procedures, 
and the fact that if they were approached by the press to talk 
to the Office of Public Affairs, and if anyone had any specific 
questions, to please address them to myself and Mr. Lindsay.
    Mr. Waxman. Did you think that was a reasonable request of 
them, given the circumstances?
    Mrs. Callahan. Yes, sir.
    Mr. Waxman. And was Mr. Lindsay present at that meeting?
    Mrs. Callahan. Mr. Lindsay was conference called in. It was 
a--it was during a time where it was extremely busy and there 
was a lot of activity going on, and his availability was very, 
very limited, so we conference called him in.
    Mr. Waxman. Did he threaten anybody in that conference 
call?
    Mrs. Callahan. Absolutely not. I never heard Mr. Lindsay 
make any threats.
    Mr. Waxman. I see my time has expired.
    Mr. Burton. We have a vote on. We'll stand in recess until 
the call of the gavel.
    [Recess.]
    Mr. Burton. The problem is we had the Speaker of the House 
making a point of order on the floor dealing with the chaplain, 
and, unfortunately, that had to be attended by a lot of the 
Members.
    I now yield to Mr. Souder.
    Mr. Souder.
    Mr. Souder. I thank the chairman. And I want to make it 
clear, Mrs. Callahan, if I mistakenly say ``Crabtree,'' please 
forgive me. I know Mr. Lindsay made that mistake twice in his 
opening statement, as well. Nobody is deliberately trying to 
make any mistakes. When you get mentally on one track, it's 
very easy to do that.
    I want to start over and go--you laid out kind of how you 
saw the perspective of the meetings, but I want to go back 
through some specifics with that.
    Did you--I understand you informed Mr. Lindsay immediately 
after the first meeting with Ms. Lambuth. Was Paulette Cichon, 
then Deputy Director of White House Office of Administration, 
present when you informed Mr. Lindsay of the problem?
    Mrs. Callahan. No, sir. Paulette Cichon was not available 
at the time. I remember stopping by her office and she wasn't 
there, and that's when I was able to find Mr. Lindsay.
    Mr. Souder. Was anyone else there when you talked to Mr. 
Lindsay?
    Mr. Burton. Excuse me. Would you pull the microphone close. 
Your voice is very soft, and it is very difficult to hear you. 
Thank you.
    Mrs. Callahan. I'm sorry?
    Mr. Souder. Was anyone else present when you gave the 
message to Mr. Lindsay?
    Mrs. Callahan. Not that I recall, sir.
    Mr. Souder. Did he give you a message to convey back to Ms. 
Lambuth or anybody else who was working there? Did he say, 
``Please communicate this to them?''
    Mrs. Callahan. Not at that time, sir. No.
    Mr. Souder. When you say ``not at that time,'' you're 
saying he didn't give you a message to convey to them at any 
point? What time would he have told you? You've said that a 
number of times.
    Mrs. Callahan. Well, the first time I advised Mr. Lindsay 
of the problem was the fact that we had yet another e-mail 
problem. That was the first notification, which, again, is not 
unusual, given the fact that e-mail problems were frequent at 
the Executive Office of the President because of the very poor 
design of this system and the severe constraints of the 
hardware. So I had given him the first notification that we had 
an anomaly, and he basically told me, ``Well, we need to find 
out what's going on,'' and went through the discussion I've 
mentioned earlier about diagnostics, and at that point I left 
his office.
    Mr. Souder. At any point in future meetings did--you've 
maintained that he--that you didn't use--did he use the word 
``jail,'' ``arrested,'' or anything like that?
    Mrs. Callahan. I've never heard Mr. Lindsay use those 
words.
    Mr. Souder. In this code that you said you told the 
employees about, is that what you referred to it, as a code?
    Mrs. Callahan. It's standard operating procedures.
    Mr. Souder. In standard operating procedures, what is that 
if somebody disobeys you?
    Mrs. Callahan. We didn't talk about disobeying. I just gave 
instructions to the staff on what the procedures were and 
articulated to them that if anyone is inquiring from outside 
the EOP, such as the press, they were to talk with the Office 
of Public Affairs and refer them to that office.
    Mr. Souder. So neither you--to your knowledge, nothing came 
from Mr. Lindsay or yourself that said if they didn't follow 
the standard operating procedures they would have any problems?
    Mrs. Callahan. No, sir.
    Mr. Souder. So it was just kind of, like, being friendly to 
them, and just saying, ``Look, this is the way we do 
business?''
    Mrs. Callahan. Just--we articulated the standard operating 
procedures, and none of the individuals involved ever came back 
to me, up until what I heard today, to even express a concern 
that they had even felt threatened to begin with.
    Mr. Souder. Mr. Lindsay----
    Mr. Lindsay. Yes, sir?
    Mr. Souder [continuing]. I assume that's your testimony, as 
well, that you did not tell Mrs. Callahan that there would be 
any punishment?
    Mr. Lindsay. Absolutely. There was--I had no power to 
punish. The statement I'm very perplexed about----
    Mr. Souder. Can I interrupt you just a second?
    Mr. Lindsay. Sure.
    Mr. Souder. None of us are alleging that you or Mrs. 
Callahan had any power to punish.
    Mr. Lindsay. Yes.
    Mr. Souder. You can make a threat or an implied threat that 
someone else can have the power to punish, whether or not you 
do. So I'm not accusing you of saying you had the power to 
punish. The question is: did you imply back that if any of them 
leaked this information or let anybody outside or didn't follow 
standard operating procedures that they could be disciplined?
    Mr. Lindsay. No, I did not.
    Mr. Souder. Mrs. Callahan, again, did you convey a message 
from--any kind of message from Mr. Lindsay to Ms. Lambuth?
    Mrs. Callahan. The only thing I conveyed was the fact that 
we needed to go through our diagnostic process.
    Mr. Souder. And how do you think they interpreted that? In 
other words, given the fact that you had talked with Mr. 
Lindsay, clearly were going up the chain of command, and then 
coming back, how do you think they interpreted that? And could 
they have, in fact, felt intimidated by the way it was 
delivered? Or do you think they just behaved irrationally in 
their concern?
    Mrs. Callahan. First of all, sir, the first interaction was 
between myself and Ms. Lambuth. The other staff members weren't 
involved. In that regard, I just communicated back to her the 
need to do the diagnostic activities. It wasn't until after it 
was brought to my attention that we had an individual on the 
team, Mr. Haas, talking about this and there was hallway 
chatter going on that the second meeting was prompted.
    Mr. Souder. Did Ms. Lambuth request to meet with Mr. 
Lindsay? Did she request a meeting when she talked to you?
    Mrs. Callahan. I'm not aware of that.
    Mr. Souder. Did she indicate that she wanted a meeting to 
hear the message directly, any kind of message from Mr. 
Lindsay?
    Mrs. Callahan. I don't recall that at all.
    Mr. Souder. And I do want to correct one thing that you had 
said in the record. You said that you were confused that--
because she had given you a present, I think, for your wedding 
after the period of time where supposedly she felt threatened. 
Mr. Hawkins communicated to us that she felt she was in your 
pocket. In other words, in the first panel, he was accusing her 
of being too close to the contracting officer. She said on the 
record that she wasn't so close to you that it would be 
dependent. But, just to make the record clear, she was hardly 
viewed by this panel or the Members of Congress here or anyone 
else as hostile to you, and she was relaying the facts as she 
heard them, but, in fact, she was accused by another witness on 
the panel as being too close to you and listening to you rather 
than to her direct supervisor, which is a little bit different 
implication of that.
    Mr. Lindsay, did you ever meet Ms. Lambuth to hear her 
message or to give any messages to her face-to-face?
    Mr. Lindsay. I don't have any recollection of a specific 
meeting with her at all, nor, in the normal course of things--
the thing to keep in mind is we had over 200 folks who work for 
the agency. As I mentioned before, we had numerous 
investigations, we had other matters. I was the general 
counsel. And, frankly, this whole genre was a little bit out of 
my bailiwick. So, frankly, my information, I used the conduits 
that I had and the people that we'd been able to work with and 
had a trusted relationship, Laura being one of those people, to 
act as a conduit, and the associate director for information 
systems.
    So it would be--it was impractical for me to go and have 
individual discussions with every single person in a particular 
matter.
    In addition to that, the--because when I talked with Mr. 
Hawkins at a later date, when he raised an issue of whether or 
not we were properly acting within the scope of the particular 
contract, I believed very much that it was within scope, and 
their attempts to acquire additional funds to perform this work 
was inappropriate, so we did have those kinds of discussions 
about those matters and no discussions of intimidation or 
anything else came up.
    Mr. Souder. I want to repeat something I said earlier. One 
of the difficult things, as a Member of Congress, as we get 
into this, is both of you seem to be very skilled public 
servants. You both seem very nice and very pleasant. The truth 
is that so have most people who have been in front of us. This 
isn't anything personal with anybody, but over time, over 5 
years, we've lost a tremendous degree of confidence in the 
ability to get truth, and that isn't a reflection on any 
individual, but we're trying to do our job of getting to the 
bottom of this.
    Mr. Lindsay. I have a very significant degree of respect 
for the congressional process and what happens based on my 
experience and the time that I worked here, so I very much 
respect that process.
    Mr. Souder. And we've had a big conflict over the period of 
time at hand, 1996 to 1998. We've had a very difficult time 
with witnesses fleeing the country, with trying to pursue that. 
And both of you have talked about how busy you were, and I 
understand trying to recall conversations when you have 
multiple investigations going, you don't remember necessarily 
particular meetings or what was said at something, but--
particularly early on. However, we have a memo that was sent to 
John Podesta, assistant to the President at that time, the 
deputy chief of staff, from a Virginia Apuzzo that appears--
there's a handwritten note to Chuck, who we believe is Charles 
Ruff, that is warning them about this, and clearly--I mean, I 
don't know how often this kind of memo would go up to this high 
a level in the White House, as well as to the legal counsel of 
the White House saying, ``Look, this could be a super big 
problem.''
    To me, the impression I'm getting is that you had two more-
important investigations than this one, but is that unusual to 
have a memorandum go to John Podesta saying that ARMS is an 
information system designed to provide comprehensive archives; 
that, in fact, a lot of these archives aren't there--describes 
a description of it? Why would something like this go to the 
very top echelons of the White House and to the top of his 
legal team?
    Mr. Lindsay. Well, I can't answer the specific reason as to 
why the assistant to the President for management and 
administration transmitted that memorandum to the chief of 
staff. What I can--to the deputy chief of staff. What I can say 
is that I conveyed this information.
    You have to understand, I mean, I've practiced law and I 
understood the circumstances that the folks in the counsel's 
office were in, and I knew, too, that for me to try and act on 
their behalf in these types of matters was inappropriate. I 
knew what we needed to do was to convey--try to collect the 
information as soberly and deliberately as we could and then 
present that information.
    And I'll be perfectly frank with you. As soon as we 
provided this information that I provided to my superiors, I 
could put a bit of a sigh of relief, because, frankly, we had 
conveyed it, and then it was up to them to provide the--
particularly the legal folks--to provide the legal analysis 
based on the information, the evidence, and the materials that 
they had which I didn't have access to at that particular time.
    Mr. Souder. You're also used to working with politicians, 
and I think we can all understand that what we heard today is 
it is not even plausible that there was a backup for most of 
these incoming e-mails, which is a limited universe, but 
critical incoming e-mails that could have been coming from John 
Huang or Charlie Trie or the Democratic Committee and taken 
out.
    Obvious politicians and the legal attorneys at the White 
House realized this was a potential nuclear bomb. This isn't 
just kind of, ``Oh, this is a little glitch in the computers.'' 
This is potentially hundreds of thousands of relevant--not all 
of them relevant, but buried in that that may have been, in 
fact, deleted because there was no longer a backup system to 
catch it.
    Mr. Lindsay. I have no information to support that 
supposition.
    Mr. Souder. Other than it went to the top echelons of the 
White House immediately after you had had a meeting.
    Mr. Lindsay. I know that there was a transmission of that 
information, but that was in the normal course of things. I met 
with Chuck Ruff at the counsels' meeting twice a week.
    Mr. Souder. Yes.
    Mr. Lindsay. And we would discuss computer types of issues. 
And this was the proper forum to do it and to convey that to 
him so that they could make the appropriate determination.
    Mr. Burton. The gentleman's time has expired.
    Mr. Waxman.
    Mr. Waxman. Mr. Chairman, I am surprised and very 
disappointed to have learned, just walking into the meeting a 
few minutes ago, that you have unilaterally disinvited Beth 
Nolan, the White House counsel, to testify today. She was on 
the agenda to testify.
    Mr. Burton. If the gentleman will yield----
    Mr. Waxman. I won't yield at this point, but I will when I 
have completed.
    Mr. Burton. OK.
    Mr. Waxman. I'm disappointed because, as basic fairness, 
both in treating the minority and in this hearing, we should 
have Beth Nolan here today to testify. She can give us 
information about Monica Lewinsky and the e-mails, and clarify 
all the innuendo that has been raised.
    Mr. Burton. Will the gentleman yield?
    Mr. Waxman. Not yet.
    Mr. Burton. OK.
    Mr. Waxman. And for us not to even have been consulted 
about taking her off the schedule, even if she is going to be 
invited next week, there's this huge gap where you have out 
there statements that were made, a lot of confused statements 
that were made, with all sorts of accusations, which I think 
could have been cleared up and should have been cleared up in 
the same day at the same hearing.
    I'll yield to the chairman.
    Mr. Burton. Let me just say that we have information that 
we have received at e-mails involving the Vice President, and 
we had some other information that was conveyed to us today. 
The staff and I talked about it, and we agreed that, rather 
than have Ms. Nolan come up twice, once today and again next 
week after we reviewed the Vice President issue and the other 
things that we received today, we thought it would be better 
for her and for the committee for us to do it all at once.
    Mr. Waxman. Well, reclaiming my time, I think what has 
happened, Mr. Chairman, is that you haven't been able to 
establish your case with any clarity that anybody did anything 
wrong, and therefore you are trying to find another set of 
arguments to come in with so you can make some other 
accusations and then have her answer those accusations.
    Today, we have had testimony from people who said they were 
threatened, they were told to keep quiet. We had a witness who 
said she heard from somebody else about what was in these e-
mails and how damaging they were. Of course, that was 
contradicted by other testimony. But the person who could give 
us information that would clarify whether the e-mails were 
actually given to this committee and to the independent counsel 
was Ms. Nolan, the White House counsel.
    You may have consulted your counsel, but you didn't consult 
the minority, and I think it was an improper way to treat the 
minority on this committee, and certainly an improper way to 
conduct a hearing that should be fair. And I think by this 
action it is clear that it is not fair.
    But I want to pursue some questions with the witnesses that 
are here today, so maybe we can get to some of the facts.
    Mr. Lindsay----
    Mr. Lindsay. Yes, sir.
    Mr. Waxman [continuing]. Just by way of background, just 
summarize your career very quickly in the Executive Office of 
the President prior to your current job.
    Mr. Lindsay. I've had several posts within the Executive 
Office of the President. I started when I left as working for 
Congressman Louis Stokes. I joined the Executive Office of the 
President as the general counsel for the Office of 
Administration. In that position, I worked on many legislative 
matters and legal matters within the Office of Administration, 
which primarily comprised most of the business functions that 
went on and providing administrative support to the White 
House.
    After a period of time, I was promoted to be chief of staff 
and general counsel within the Office of Administration and 
performed that position for a while, and then was moved to be 
counselor to--senior counselor for management and 
administration within the White House office, where I worked 
directly for Ms. Virginia Apuzzo, the assistant to the 
President for management and administration.
    At some point after that, the director of the Office of 
Administration left and I was requested by my superior to 
rejoin the Office of the Administration as its director because 
we had pending testimony date before Congress that was coming 
up. I was familiar with some of the issues and I was tasked 
with rejoining the Office of the Administration and testifying 
before Congress, which I believe went quite successfully.
    Mr. Waxman. Is the Office of Administration part of the 
White House?
    Mr. Lindsay. It is not, sir. It is--the White House office 
is a separate agency which receives its own appropriation.
    Mr. Waxman. Does it play a political role? Does the Office 
of Administration play a political role?
    Mr. Lindsay. No. The objective of the Office of 
Administration is to provide common administrative support for 
the Executive Office of the President. Most of the people, the 
vast majority of the people, all but at that time probably six 
individuals who worked for the Office of Administration, were 
career individuals who had worked for the administration, 
administration after administration, and served the Presidency 
and not a particular President.
    Mr. Waxman. At the time of the discovery of this Mail2 
problem, what was your position at the Office of 
Administration?
    Mr. Lindsay. I was the chief of staff and general counsel.
    Mr. Waxman. And how did you learn about this problem?
    Mr. Lindsay. Mrs. Callahan came to me and let me know about 
it.
    Mr. Waxman. And what did you do after you learned about the 
problem?
    Mr. Lindsay. Well, the first thing was to gather more 
information as to what was going on, and I remember asking her 
to do--to look into it a little bit further, and providing her 
with instructions that we needed to fix it. We want to get this 
stuff squared away, whatever it was. I didn't know or have any 
real detailed understanding of what was necessary to do that, 
but I saw, as a administrative manager there, that one of the 
things that was important for me to do and I saw as part of my 
duty is to, at least, from the very beginning, push toward 
resolution of the problem, whatever its scope.
    Mr. Waxman. There have been allegations that you or Mrs. 
Callahan threatened Northrop Grumman employees, telling them 
that they could face jail if they discussed the mail problem 
with anyone. Did you threaten any of these employees?
    Mr. Lindsay. Mr. Waxman, absolutely not. I didn't and I'm 
not aware of any threats being made by any Government employee 
to any Northrop Grumman employee.
    Mr. Waxman. What did you tell the Northrop Grumman 
contractors?
    Mr. Lindsay. I'll be perfectly honest with you: I don't 
have a recollection of having specific direction and 
conversations with them. My conduit for dealing with the 
contractors were Government employees. The contractors did not 
report to me, they did not provide work reports, none of those 
things. They all went to the technical staff that was there, 
and then those technical staff people would then, where 
appropriate, bring matters to my attention.
    Mr. Waxman. Did you want to limit the discussion of the 
problem to the people involved in making the repairs?
    Mr. Lindsay. Absolutely.
    Mr. Waxman. And was that an attempt to cover up the 
problem?
    Mr. Lindsay. Absolutely not.
    Mr. Waxman. Did you instruct them not to tell their 
managers about the problem?
    Mr. Lindsay. No, I did not.
    Mr. Waxman. Did you, yourself, brief Northrop contract 
manager Steve Hawkins about the problem?
    Mr. Lindsay. Yes, I did.
    Mr. Waxman. Now, after hearing about the e-mail problem, 
you also specifically instructed that backup tapes containing 
the non-archived e-mails be saved; isn't that right?
    Mr. Lindsay. That is correct, sir.
    Mr. Waxman. And why did you do that?
    Mr. Lindsay. I did that because my state of knowledge as to 
the volatility associated with the systems that we had, I 
wanted to make sure that we took--whatever steps necessary were 
there to preserve the information. That's one thing that I saw 
as a primary responsibility of mine is to preserve information, 
to make sure that their records were kept at least in one of 
those three places where they could reside on someone's 
computer or on the server, on the ARMS system, or on backup 
tapes.
    Mr. Waxman. I understand you informed senior officials at 
the White House about the e-mail problem. In fact, I have a 
June 19th memo to John Podesta, then the deputy chief of staff, 
that you helped draft that describes the problem. I want to ask 
you about this.
    Who did you inform at the White House about this problem?
    Mr. Lindsay. My immediate superior, the director of the 
Office of Administration, and also Virginia Apuzzo, who is my 
boss also, and the assistant to the President for management 
and administration.
    Mr. Waxman. Did you inform the White House counsel's 
office?
    Mr. Lindsay. I was directed by my boss to contact the 
counsel to the President immediately.
    Mr. Waxman. And what did you tell them?
    Mr. Lindsay. Told him essentially the material or the 
information that is contained in the memorandum--that there was 
a glitch with the computer system where incoming e-mails may 
not have been collected by the ARMS records management system.
    Mr. Waxman. And what was the response of Mr. Podesta and 
Mr. Ruff, then the White House counsel?
    Mr. Lindsay. Mr. Podesta's response was just to ask if I 
had had any conversation with Mr. Ruff, and, frankly, I didn't 
provide any other briefings or other information for him. I 
talked with Mr.--the counsel to the President at that point 
afterwards.
    Mr. Waxman. Did anyone at the White House tell you to hide 
the problem?
    Mr. Lindsay. Absolutely not.
    Mr. Waxman. Did anyone at the White House tell you to 
destroy any e-mails?
    Mr. Lindsay. Absolutely not.
    Mr. Waxman. My understanding is that you were requested to 
perform a test of the system to figure out the extent of the e-
mail problem; is that right?
    Mr. Lindsay. I didn't understand it--I didn't take it as a 
test at that particular time, but I did receive a set of names 
that were provided to me by folks in the White House counsel's 
office, which I conveyed to our technical folks, and they did 
perform an analysis of those names, and the results were then 
provided back to the counsel's office for comparison with other 
documents that have been produced.
    Mr. Waxman. And tell me more about this test. How was it 
conducted? And what were the results of that test search? And 
did you think the problem had been fixed as a result?
    Mr. Lindsay. I couldn't tell you, based on that 
information. I made it a habit as to not to look and review 
documentary productions from e-mail searches, myself. What I 
did--because we were the custodian of the records, it was not 
my job to review those records for responsiveness, or whatever. 
We received the search language. In this particular case, it 
was provided directly to me. I conveyed that to my technical 
staff, and then they performed the search of the information.
    It was my belief at the time that they conducted this 
search of the data base or the information, a manual search, as 
I remember it, outside of the ARMS records management system.
    Subsequent to that, I've learned that that may not have 
taken place, but my understanding at that time was that that 
was the information that was being provided back to me, and I 
conveyed that to the counsel's office, and then they and only 
they could actually perform the review and the comparison with 
what other documents had been produced and what came up with 
that particular search to check and see if there was a problem.
    My recollection is that, after that was done, some time 
went by and the word that I got back was that, ``Hey, these are 
duplicates. It probably isn't that big of a problem because 
this information has already been produced.''
    Mr. Waxman. It was produced by a separate search of 
individual e-mail systems?
    Mr. Lindsay. That's what I would surmise.
    Mr. Burton. The gentleman's time has expired.
    Was the President or the Vice President told about the 
problem, to your knowledge?
    Mr. Lindsay. I would have no knowledge of that.
    Mr. Burton. Ms. Apuzzo is, I guess, one of your superiors?
    Mr. Lindsay. That is correct.
    Mr. Burton. And you don't recall the phone conversation 
that you had with Mrs. Callahan and the people that were in her 
office? You say you don't recall that phone call?
    Mr. Lindsay. No. I mean, it was over--almost 2 years ago.
    Mr. Burton. I know. You don't recall the phone call. And 
yet, just a matter of a couple days later, you assisted in 
writing a memo to Mr. Podesta from Ms. Apuzzo about--and it's a 
pretty complex memo, going into some detail about the problem. 
But you don't remember the phone call?
    Mr. Lindsay. As I said, the conversation on the phone call 
took place over 2 years--about 2 years ago, and it was a very 
short duration. At that time----
    Mr. Burton. But you remember the memo, though?
    Mr. Lindsay. Yes, because I've seen the memo. But I'll be 
perfectly honest with you: when this matter was brought to my 
attention for the first time, I didn't remember the memo.
    Mr. Burton. OK. Now, I want to make sure I've got all this 
straight.
    You don't remember the phone call, and yet five people from 
Northrop Grumman all sat at that table just a while ago and 
they all remember the phone call.
    Mr. Lindsay. Mr. Chairman----
    Mr. Burton. Let me just finish.
    Mr. Lindsay. Yes.
    Mr. Burton. They all remember the phone call. Three of them 
felt that they were threatened with possible jail. All five of 
them said they felt some kind of threat or intimidation from 
Ms. Crabtree--then Ms. Crabtree, now Mrs. Callahan--but she 
said that never happened and doesn't remember anything like 
that. That just didn't happen.
    I just can't believe that five people would all come here 
and lie because I can't figure out why they would do that. Can 
you tell me why you think they'd lie to us?
    Mr. Lindsay. Mr. Chairman, I can only speak under oath to 
those matters for which I have knowledge.
    Mr. Burton. I understand. Yes.
    Mr. Lindsay. I cannot speak to what was in the content of 
other people's intent or what their thoughts were at any 
particular time.
    Mr. Burton. Sure. How about you, Mrs.----
    Mr. Lindsay. All I do know is what my own conduct was and 
what I did.
    Mr. Burton. And you don't recall the phone call?
    Mr. Lindsay. No, I don't.
    Mr. Burton. Mrs. Callahan, can you--you worked with these 
people. In fact, you said the one lady came to your wedding, 
and you said that--and she indicated that you were fairly 
close. In fact, I think the supervisor there said that one of 
the problems he had was that she confided in you too much. So 
evidently she was fairly close to you at some time. Can you 
figure out why she and all these other four people would lie 
about that meeting?
    Mrs. Callahan. Mr. Chairman, after listening to the 
discussions earlier this morning, first of all, I don't recall 
all five of them saying----
    Mr. Burton. Three of them did.
    Mrs. Callahan [continuing]. That there was a threat.
    Mr. Burton. Three said that they recall either being 
threatened or referred to being threatened with jail, because 
the one lady--and I don't recall her name right now, but we can 
look it up--she said that when she was asked by her supervisor 
to tell him what was going on, she says, ``I can't tell you.'' 
And he says, ``Well, if you don't, you're insubordinate.'' And 
she said, ``Well, I'd rather be insubordinate than go to 
jail.'' So she felt like there was some threat there. Ms. 
Lambuth said the same thing. And the--what was the gentleman's 
name--Mr. Haas said the same thing. So three out of the five 
alluded to a threat of jail. The other two said that they felt 
like they had better keep their mouths shut because it was 
pretty clearly stated to them that there might be some--their 
jobs might be in jeopardy.
    If you didn't hear that, then you weren't listening to the 
same five people I was listening to.
    So the thing I can't understand is they all don't recall 
the jail threat. Three of them pretty much do. Two remember 
being--feeling intimidated and threatened. But you're saying 
that none of that happened?
    Mrs. Callahan. Mr. Chairman, what I am saying is what I 
heard this morning. I heard two people say that they had heard 
the threat and make that allegation. I heard one person start 
by saying no, and then evolved as the day went on into saying 
yes. And the other two had no feeling of there being a threat 
of jail. I also heard Mr. Haas and Ms. Lambuth contradict each 
other as far as what their roles and responsibilities were.
    Mr. Burton. That had nothing to do with that phone 
conversation in that meeting.
    What we will do, for your edification, is we will get a 
transcript of the testimony that took place and I will be happy 
to send it to you so you'll recall very vividly what they did 
say.
    I'm just disappointed that five people--either five people 
lied or you are. It's one of the two. I just don't understand 
this.
    Mr. Souder.
    Mr. Souder. I thank the chairman. Unfortunately, many 
people will--are probably going to watch this on C-SPAN and 
will also be able to see.
    What I'm confused about here also is that I want to 
reconcile something. Mrs. Callahan, what did you--did you tell 
the contract employees present that they couldn't talk to their 
supervisors?
    Mrs. Callahan. I instructed the contract employees at the 
meeting that this was an extremely sensitive situation. All of 
us were aware of the activities going on in the press at the 
time; and the fact that there had already been discussions of 
this brought to my attention, that it was going on in the 
hallways, was not acceptable; and that our current procedures 
and our practices at that time were to deal with the issue in a 
purely technical sense, since it was a technical problem that 
needed to be resolved, and that's where we needed to put our 
energy and time and focus and deal with the issue.
    Mr. Souder. So the answer is yes, you told them not to talk 
to their superiors?
    Mrs. Callahan. I told them if they had any questions they 
were to--if anyone approached----
    Mr. Souder. The answer is yes; is that not correct? Did you 
tell them they shouldn't talk to their superiors?
    Mrs. Callahan. Well, their superior was in the room, so 
that----
    Mr. Souder. You wanted it limited to just those in the 
room?
    Mrs. Callahan. Those in the room. Yes, sir.
    Mr. Souder. Was Mr. Hawkins in the room at the time?
    Mrs. Callahan. No, sir.
    Mr. Souder. Is not he their superior?
    Mr. Hawkins. He was Betty Lambuth's superior.
    Mr. Souder. So you told Betty not to talk to her superior?
    Mrs. Callahan. I don't recall that, sir.
    Mr. Souder. You just said you did.
    Mrs. Callahan. I told Betty----
    Mr. Souder. You said you wanted it limited to that room 
only.
    Mrs. Callahan. To that room only, but I did not single out 
Mr. Hawkins.
    Mr. Souder. I hope people can realize that one of our 
frustrations here is that you are making us ask the questions 
so precisely, rather than the intent of the question. The 
intent of the question is: could people have walked out of that 
meeting assuming they weren't supposed to talk to their 
superiors? And the obvious answer is yes, because Mr. Hawkins 
wasn't in the room. Then you say, well, I didn't ask you 
precisely. Whether I said, ``Did Betty Lambuth get asked,'' my 
intention was, would they have gone out of that room thinking 
that you told them not to talk to anybody outside of that room, 
including their superiors who weren't present in the room? And 
if some of them had their superiors present, that certainly 
answers my basic question.
    Let me ask Mr. Lindsay the same question. Did you tell 
them--and I know you at this point don't recall a lot of the 
phone conversation, but, from you, did you ever imply to any of 
them that they weren't supposed to talk to their superiors?
    Mr. Lindsay. Did I ever?
    Mr. Souder. Yes.
    Mr. Lindsay. Is that the question?
    Mr. Souder. Yes. Not at a particular phone call.
    Mr. Lindsay. No.
    Mr. Souder. In other words, would they have gotten the 
feeling from you at any point that they weren't supposed to 
talk to their superiors or anybody beyond their group?
    Mr. Lindsay. My recollection of any conversations that I 
had with people at this time was that my No. 1 objective was to 
make sure that this problem was resolved, that I got the 
information so that I could report that information to my 
superiors so that we understood what was going on.
    I had no particular interest in having this matter--I think 
Laura's characterization is correct. This was another problem. 
The problem was to be solved. That's what I wanted to have it 
done.
    The technical niceties in terms of how they went about 
doing it and whether or not Hawkins was involved with it or 
whether or not 20 other people were involved with it didn't 
matter to me.
    As a matter of fact, under the contract I would have been 
perfectly happy for the contractor to bring in an expert team 
of people from the outside who were familiar with the system to 
solve the problem if they were going to perform that under the 
contract. I would have been ecstatic to have that happen.
    Mr. Souder. Let me ask you a question. Just a minute ago, 
in answer to Mr. Waxman's question, you said you absolutely 
wanted to limit it to that group.
    Mr. Lindsay. What's that?
    Mr. Souder. You just said a few minutes ago you absolutely 
wanted to limit it to that group. When Mr. Waxman asked you a 
question, you said you didn't want the information going 
beyond--I wrote it down. ``I absolutely wanted to limit it to 
that group.''
    Mr. Lindsay. I wanted the information to be limited, but 
the definition of ``group'' is the group of people necessary to 
solve the problem. That means if Northrop Grumman chose to 
bring in 20 people who were going to actually solve the 
problem, that was fine with me.
    Mr. Souder. So you----
    Mr. Lindsay. I would want that group of 20 people to not 
tell other staff what was going on with that problem.
    Mr. Souder. So Mrs. Callahan was incorrect to communicate 
to them that they shouldn't tell anybody outside that room?
    Mr. Lindsay. I don't know what she said.
    Mr. Souder. But if she told them that, she was incorrect?
    Mr. Lindsay. To not to tell anybody outside that room?
    Mr. Souder. Yes. That's what she said just a minute ago.
    Mr. Lindsay. I don't know what she understood from me at 
that particular time. That would be inconsistent with my 
philosophy, and I think I corrected that at a later date when I 
talked to Mr. Hawkins and made the point very clear to him that 
I was perfectly willing to entertain or to have people talk 
about or bring this matter into the question. I asked him to 
ask me any questions that he wanted to ask me about it. It just 
wasn't--that portion of it wasn't important. The concern was 
the conveyance of the information to individuals, as Mrs. 
Callahan stated in her testimony, to people who are extraneous 
to resolving the particular matter.
    Mr. Souder. OK. Back to Mrs. Callahan, then, since you told 
me that, for example, you told the group that it was supposed 
to stay limited to that group, and to Ms. Lambuth that she 
wasn't supposed to talk to Mr. Hawkins. Didn't you consider, 
because certainly, if it was supposed to be just to that room, 
that this could present a big problem to anybody in that room 
in their relationship to their superiors outside that room, or 
if, for example, as happened with one of the witnesses, they 
were called in by Mr. Hawkins and taken over the coals, that 
you could be putting them in danger of losing their jobs?
    Mrs. Callahan. Well, Mr. Souder, first of all, I 
communicated to the group the standard practice, and at that 
point in time I had known that Mr. Lindsay was going to talk 
with Mr. Hawkins, and that's where the briefing to Mr. Hawkins 
occurred.
    Also, too, you understand--and I think Mr. Hawkins 
addressed it earlier--that there had been numerous conflicts 
between Ms. Lambuth and Mr. Hawkins on a regular and routine 
basis.
    Mr. Souder. Because of her closeness to you.
    Mrs. Callahan. Excuse me?
    Mr. Souder. He said because of her closeness to you he had 
had conflicts with her.
    Mr. Burton. The gentleman's time has expired. We'll get 
back to you.
    Mr. Waxman.
    Mr. Waxman. Thank you.
    To go back to where I left off, Mr. Lindsay, you found out 
you had a problem----
    Mr. Lindsay. Yes, sir.
    Mr. Waxman. Yet it might have been fixed when you heard 
that they were going to do some test on the individual e-mails 
of the computers, as opposed to this--what do you call it?
    Mr. Lindsay. My analysis at the time was that----
    Mr. Waxman. ARMS.
    Mr. Lindsay [continuing]. There may not have been a legal 
problem in terms of whether or not documents were produced or 
whether or not that was completed, but I still had a problem, 
and that was I still had a technical staff that reported to me 
that there was a glitch. Even if that test came back in a 
positive way, I may not have had a production problem, but I 
had a technical problem with my e-mail system and my ARMS 
system and how they worked together. If that--that was the 
issue that I needed to resolve.
    Mr. Waxman. So at first some people thought maybe the 
problem was corrected, but you came to the realization that the 
ARMS issue wasn't corrected?
    Mr. Lindsay. Well, my technical staff didn't report to me 
that it was corrected until November 1998.
    Mr. Waxman. When did you learn there was a continuing 
problem with the production of the e-mail?
    Mr. Lindsay. With the production, probably--I mean, I don't 
know of a problem with the production of e-mails to this day, 
other than the information that I have received from this 
particular committee and the concerns that are expressed by the 
chairman and the members of this committee. I'm not aware--
because I'm not aware of and I haven't seen a technical report 
from my staff which has defined what e-mails were not included 
in the Armstrong--the ARMS collection system. Until I have that 
information, I could not make a conclusion as to whether or not 
information was provided or not provided.
    Mr. Waxman. One of the questions that many of us on this 
committee have is why it took so long for the White House to 
notify the committee that some e-mails may not have been 
produced. What is your explanation for this delay?
    Mr. Lindsay. I couldn't provide an explanation for that 
situation other than the fact that I knew that this was a 
problem that was very complicated. It is one that, frankly, I 
didn't completely understand at the time. And it is one where, 
frankly, Northrop Grumman had sent me a proposal for $600,000 
to assess just what the nature of the problem was. So it was 
fairly complex.
    The transmission or the responsibility for transmitting 
that information to the committee would be for the counsel's 
office or other individuals to do, and not for my office and 
the Office of Administration to do.
    Mr. Waxman. Now, Mr. Hawkins testified that you and he had 
what sounded like a heated exchange. What was that all about?
    Mr. Lindsay. Well, I worked very closely with Chairman 
Kolbe on the Treasury, Postal Appropriations Committee. They 
had made comments to me about the requirements to making sure 
that appropriated money we got dollar for value. One of the 
things that we had done in our attempt to retrieve our money 
from the fenced funding is I was very, very open with them in 
exposing our weaknesses and explaining to them the fact that we 
had--one of the major problems that we had was administering 
and making sure we got dollar for value from contractors. And 
the Appropriations Committee essentially said to me, you know, 
``You need to make sure that you get that kind of value out of 
the agreements.''
    So, frankly, from my perspective, when I had a valid 
contract with a contractor that I had contracted specifically 
to manage our e-mail system, and I had a problem with that e-
mail system, I believed that the work to correct any problem 
associated with that system was within the scope of the 
contract and their responsibility to correct without additional 
remuneration.
    Mr. Waxman. And what was his position?
    Mr. Lindsay. His position was that they required additional 
resources.
    Mr. Waxman. So this is a different picture than what we 
were presented earlier.
    Mr. Lindsay. Absolutely.
    Mr. Waxman. Mr. Hawkins acted like you were telling him to 
keep it quiet, but what he was really saying to you is, ``If 
you want this system fixed, you have to pay me more money to 
fix it.''
    Mr. Lindsay. Yes.
    Mr. Waxman. Because the problem that you now found yourself 
in was outside the scope of the contract.
    Mr. Lindsay. Absolutely. And I believed it was well within 
the scope of the contract. And I----
    Mr. Waxman. So you were telling him to fix it so you can be 
sure to have all those e-mails in this ARMS setup so that those 
e-mails would be available to any committee or anybody who had 
the right to get those e-mails?
    Mr. Lindsay. Absolutely.
    Mr. Waxman. And he was saying to you, ``Well, that's your 
problem, buddy. We've done what we can do, but it's not within 
the scope of the contract for us to go back and fix it?''
    Mr. Lindsay. Absolutely. And if he had communicated his 
frustration with me with his superior, the president of the 
company, to say that they believe that, I would have no 
objection to that, because I was very much dead set and 
believed and had been advised by my counsel's office in the 
Office of Administration that this work was within the scope of 
the contract and taxpayers should not have to pay more money to 
have this problem corrected.
    Mr. Waxman. I don't know enough about the fight between Mr. 
Hawkins and Ms. Lambuth, but it sounds like he was angry at her 
for not telling him that there was going to be more work to do, 
and he wanted her to tell him there might be more work to do so 
that he could say that that wasn't part of the contract and 
they would have to renegotiate the contract. Do you know 
anything about that?
    Mr. Lindsay. I really don't. I do remember that there 
were--there was friction between the two, but I don't have any 
other recollection about what specifically was the basis 
between the differences between those two individuals.
    Mr. Waxman. Mrs. Callahan, you don't look very menacing to 
me. If I said to you, ``Can I tell my wife about this problem 
on the e-mails,'' say back to me, as fiercely as you possibly 
can, ``If you do, you're going to have a jail cell with your 
name on it.''
    Mrs. Callahan. I can't even say that, sir. I don't behave 
that way. I guess I----
    Mr. Waxman. Well, even if you said it, I must tell you I 
don't think I'd be too afraid of you, but that's my own 
subjective sense of you as a witness and these other people 
seemed to in their testimony say they were terrified that they 
may go to jail.
    They also said, not only were they terrified they were 
going to go to jail, but they understood you wanted the problem 
fixed, so they were trying to work with you to fix it. Was that 
your understanding of what was happening when the problem was 
discovered?
    Mrs. Callahan. Yes, sir. That's my understanding. It was 
very imperative to us that we find out what the size and the 
scope of the problem was, and it was critical that we figure 
out what we needed to do to fix it.
    Mr. Waxman. Let me just give you an opportunity. Is there 
anything you want to say, anything you think we need to know 
about this hearing and all the things that have been talked 
about today? Any points you think that you should bring out to 
us?
    Mrs. Callahan. There are a couple things I would like to 
address. It pertains----
    Mr. Waxman. Let me extend that to both witnesses.
    Mr. Lindsay. Thank you.
    Mrs. Callahan. Thank you.
    In regards to Mr. Souder's concerns, there was a tremendous 
amount of friction between Ms. Lambuth and Mr. Hawkins, and it 
was--it may have been perceived by Mr. Hawkins as a 
relationship with myself and with Ms. Lambuth; however, I 
believe, if you talk with him specifically and look at the 
record, there was numerous and different occurrences that 
prompted their friction.
    Ms. Lambuth had confided in me that she was pursuing EEO 
action against Mr. Hawkins, and this was all happening prior to 
the anomaly being discovered.
    In addition to that, as far as being in--I think you might 
have referred to it as being in ``somebody's pocket,'' I am, 
quite frankly, a career civil servant, and I am not in 
anybody's pocket, never have been, and I never plan to be, nor 
will I ever put myself in that position.
    And as far as Ms. Lambuth attending my wedding, I was very 
happy to see her, and there had never been any acknowledgement 
of her being threatened or fearful of me prior to when I read 
it in the Washington Times.
    And also, just for fairness, too, Mr. Hawkins attended my 
wedding shower on September 3rd, as well.
    Mr. Lindsay. The only thing that----
    Mr. Waxman. Is there anything you want to add?
    Mr. Lindsay. Most certainly.
    The only thing that I would like to add is that I worked 
very, very hard as general counsel to try and create the 
institutions within the Executive Office of the President and 
the Office of Administration so you'd have safety valves for 
people if they did feel uncomfortable, through our EEO office. 
One of the things that we did is we elevated the EEO office 
from within human resources to its own division so that it 
would have its own ability to be able to stand on its own, so 
individuals would be able to go and communicate any kind of 
concerns that they had with them quite freely.
    The EOP security office was also there, where individuals 
could have raised issues or concerns about any kind of threats 
or intimidations or fear.
    Both of those offices are run by career staff who, frankly, 
spent more time working in other administrations than working 
in this particular administration.
    I did everything I could to create that kind of environment 
where they could feel free to do it. There was no information, 
absolutely nothing that came to me, my boss, or anyone else who 
was around me who reported to me that Mrs. Callahan's conduct 
was inappropriate or that I had done something that was 
inappropriate, because the first thing that I would have done 
at that particular time, if it would pertain to me, is I would 
have handed it over to the EOP security office and asked them 
to do an investigation as to what was going on.
    And the reason why I would have done that so readily is not 
only do I believe, as a matter of principle, it's the correct 
thing to do, but I didn't fear what was happening because I 
knew that I didn't say or do anything wrong in that respect.
    That time period is one where there were lots of 
difficulties in addressing the Y2K issue and working out our 
relationship, the bad relationship that we had with Congress. I 
believe that that was completed within the spirit of what I 
truly believe, in terms of the respect that I have for this 
institution and for the institution in which I worked over 
there, and I was very proud of the fact. And I think if you 
were to go and talk to folks--the Republicans on that 
committee, I think that they would say--and if you look at the 
transcript of my testimony, that they believe that I was very 
forthright and direct with them.
    And so one of the things that pains me the most in this 
process is the fact that my reputation, which I worked very 
hard for, is being sullied by these kinds of charges. I can't 
provide you with an explanation for what would motivate people 
to say those kinds of things about me, but all I can tell you 
is what I do know, and that they are, indeed, false.
    Mr. Burton. The gentleman's time has expired.
    Mr. Souder. Mr. Chairman, point of personal privilege.
    Mr. Burton. The gentleman will state his point of personal 
privilege.
    Mr. Souder. Mrs. Callahan made a reference to something I 
said, and I wanted to make sure the record was clear. I never 
accused her, nor did anybody else, of being in anyone's pocket. 
The charge was that someone else was in your pocket. I keep 
forgetting the witness' names. I'm sorry. And that if she was, 
in fact, confiding in you that she was going to possibly sue 
her superior, I think that kind of proves, to some degree to 
him today, why he thought that.
    But nobody was accusing you of being in anybody's pocket in 
that sense, and if that was misunderstood, I apologize.
    Mrs. Callahan. Thank you. I appreciate that.
    Mr. Burton. Mr. Barr, would the gentleman yield to me 
briefly?
    Mr. Barr. Briefly. Certainly.
    Mr. Burton. Thank you.
    I have just a couple of questions.
    Mr. Hawkins said that he went to a meeting and they were 
talking about this issue, and--shut the clock off until this 
is--would you like to comment, Mr. Waxman?
    Mr. Waxman. Mr. Chairman, just so we have a clarification 
and you should start again, I thought we were doing three 10-
minute rounds and then 5-minute rounds each. Are we doing 
something else? Are we giving everybody 10 minutes? If so, we 
ought to have what the rules are, but this is what we were told 
on our side was the agreement.
    Mr. Burton. We'll give you 10 minutes, Mr. Waxman.
    Mr. Waxman. What is your understanding of how you are going 
to conduct the hearing?
    Mr. Burton. The understanding was that we were going to 
have 10-minute rounds.
    Mr. Waxman. Every side? Each side or each Member?
    Mr. Burton. That was my understanding.
    Mr. Waxman. And that is unlimited rounds?
    Mr. Burton. I don't think we have too many more rounds to 
go.
    Mr. Waxman. Well, if that's what you want to do, go ahead 
and do it, but that wasn't what we were told.
    Mr. Burton. OK.
    Mr. Waxman. But we also were told that Beth Nolan would 
testify, and then that was yanked from the agenda without our 
approval or even being advised of it.
    Mr. Burton. I thank the gentleman for yielding.
    Mr. Waxman, I explained the issue of Beth Nolan. You can 
continue to beat on that horse if you want to, but we have 
explained it.
    Now, Mr. Hawkins said at a meeting that you told him, Mrs. 
Callahan, that everything was fine before you stepped in. Did 
you say that?
    Mrs. Callahan. No, sir.
    Mr. Burton. So----
    Mrs. Callahan. I worked with Betty Lambuth on the 
situation.
    Mr. Burton. But you said everything was fine. He said that 
you said, ``Everything was fine until you stepped in,'' 
referring to--you didn't say that?
    Mrs. Callahan. No, sir. I don't understand the----
    Mr. Burton. So not only are the five people lying that 
testified earlier about what was said at that meeting, but also 
when Mr. Hawkins talked to you separately at a meeting, you 
didn't say that, so he's lying, as well?
    Mrs. Callahan. I did not have a meeting separate with Mr. 
Hawkins.
    Mr. Burton. Did you ever meet with Mr. Hawkins?
    Mrs. Callahan. I worked with Betty Lambuth.
    Mr. Burton. So you never met with Mr. Hawkins?
    Mrs. Callahan. Mr. Hawkins worked with Mark Lindsay and 
Paulette Cichon.
    Mr. Burton. Did you ever meet with Mr. Hawkins?
    Mrs. Callahan. Not on this issue.
    Mr. Burton. Did you ever meet with Mr. Hawkins?
    Mrs. Callahan. There may have been a few occasions during 
my year there.
    Mr. Burton. Did you ever say to him, ``Everything was fine 
until you stepped in?''
    Mrs. Callahan. No, sir. I don't recall that.
    Mr. Burton. So Mr. Hawkins is lying and the other five 
people are lying and you're telling the truth? All five of them 
and Mr. Hawkins are now lying?
    Mrs. Callahan. Yes.
    Mr. Burton. Now, let me ask you a question, Mr. Lindsay.
    Mr. Lindsay. Yes, sir.
    Mr. Burton. You said everybody wanted the problem fixed. 
That was 2 years ago.
    Mr. Lindsay. Yes, sir.
    Mr. Burton. Two years ago.
    Mr. Lindsay. Yes, sir.
    Mr. Burton. We had a subpoena out in 1997, 1998, and 1999, 
all pertaining to various investigations that these e-mails 
would be relevant to or could be relevant to. You said you 
want--everyone wanted the problem fixed, and here we are today 
still at ground zero. Nothing is being done. Why is that?
    Mr. Lindsay. First off, I would beg to differ, Mr. 
Chairman, with the characterization that nothing is being done. 
A lot was done.
    One of the first steps in the reconstruction process was to 
fix the glitch in the first place. And I will tell you this: I 
was not happy or glad that it took from June until November to 
fix the glitch. I would have liked for that glitch to have been 
fixed a lot sooner.
    Mr. Burton. Yes.
    Mr. Lindsay. The reason why that date in November is very 
significant is that in November, that very same month, we 
received the money that we needed to engage in our activities 
on Y2K.
    Mr. Burton. We are now at March, middle of March, late 
March of the year 2000. The documents that we have requested or 
demanded in our subpoenas, as well as the independent counsel 
and the Justice Department, have not been given to us, so the 
problem has not been solved. We don't have those documents.
    Mr. Lindsay. I think we're talking about two different 
problems.
    Mr. Burton. I don't think so.
    Mr. Lindsay. The legal problem of producing the documents 
that you are looking for, I have no knowledge of what 
information was provided to you, so I could not testify or 
provide information to you as to whether the information that 
is in question was provided or not provided.
    Mr. Burton. You said that everyone wanted the problem 
fixed, and yet Mr. Barry, in his e-mails that we quoted from 
today, said he was frustrated. He testified today he was 
frustrated because he had contacted, I guess, you and others 
saying, ``Hey, this thing has got to be fixed. It's a mess.''
    Mr. Lindsay. I don't have any recollection of Mr. Barry 
communicating with me about that, but I shared and share his 
frustration with the fact that it wasn't fixed at a more 
expedited fashion. I would--I had every desire that that would 
happen. I had every desire and would have welcomed the 
contractor bringing in whatever the best and the brightest was 
in their company to address this problem. But we handed the 
resolution of this issue to our contractor.
    Mr. Burton. You said the best and the brightest, whoever 
they were, you would be happy to have them brought in, and yet 
Ms. Crabtree, now Mrs. Callahan, told them not to tell anybody, 
especially their superiors, about the problem.
    Mr. Lindsay. It is my understanding of Mrs. Callahan's 
testimony is that she believed that I would communicate with 
their superiors, and I did.
    Mr. Burton. And you did?
    Mr. Lindsay. Absolutely.
    Mr. Burton. And that's why she said, ``Don't tell anybody 
about this. I don't want you telling anybody about this, 
especially your superiors?''
    Mr. Lindsay. Like I said, her understanding, as I recollect 
her testimony, was that I would communicate with their 
superiors, which I did. I not only had communications with 
those particular individuals, but I had communications and 
received a letter--a September 16th letter, I believe--which 
made reference to this particular matter, which showed that 
they had knowledge and information about the whole thing, 
essentially raising the same issue again about payment.
    Mr. Burton. The bottom line is we subpoenaed documents 
three--over 3 years ago. Relevant documents are probably and 
possibly in those--possibly in those e-mails. You've known 
about this, and Mrs. Callahan has known about this now for 
almost 2 years, and nothing has been done or delivered to the 
Congress of the United States.
    And when the people who are charged with the responsibility 
of dealing with this problem testified, they testified that 
they were threatened about keeping their mouths shut, and yet 
you folks don't remember anything about it, you don't remember 
the phone call, she says the five people are lying, plus Mr. 
Hawkins is lying.
    I just tell you----
    Mr. Lindsay. Mr. Chairman----
    Mr. Burton [continuing]. It just boggles my mind that you 
can't remember a phone call, she says the other six people are 
lying, and this was two separate incidents. You know, it just--
it stretches credulity.
    Mr. Lindsay. Mr. Chairman, my recollection is extremely 
vivid on the fact that I wanted to have the problem resolved. 
My recollection is very vivid with the fact that I did convey 
this information to the appropriate individual.
    Mr. Burton. Yes, you did. You did.
    Mr. Lindsay. My information----
    Mr. Burton. You did. You don't remember the phone call, but 
within just 2 days after that you sent a memo or participated 
in writing a memo to Mr. Podesta giving him all the details. I 
can't--that's why it just boggles my mind you can't remember 
that phone call.
    Mr. Lindsay. Well, I remember conversations, and I 
certainly remember, from the time that I worked on the Hill, 
when Congressman Stokes had a conversation with me, he was my 
superior, I remembered it. There were plenty of other people 
who may have come through the office that I may not have had a 
specific recollection of, and if you were to ask me of the many 
hundreds or thousands of conversations that I had with 
individuals during that particular time period, I would not be 
able to necessarily provide you with the details of those 
conversations.
    There were numerous and there are plenty that were very, 
very important.
    Mr. Burton. We understand.
    Mr. Barr.
    Mr. Barr. Thank you.
    Both of you went on at some length telling us about awards 
and background and so forth, and I might have missed this. Do 
either of you have a law degree or a legal background?
    Mr. Lindsay. I do.
    Mr. Barr. OK. Mrs. Callahan.
    Mrs. Callahan. I do not.
    Mr. Barr. Are these lawyers with you? They haven't been 
identified, and they have been rather quiet. Are they lawyers 
with you?
    Mr. Lindsay. Yes.
    Mrs. Callahan. Yes, sir.
    Mr. Barr. Who are they and who has retained them to be here 
today?
    Mr. Lindsay.
    Mr. Lindsay. Peter Kadzik. And I retained him to be with me 
today.
    Mr. Barr. Personally?
    Mr. Lindsay. Yes, sir.
    Mr. Barr. And, Mrs. Callahan, who is this gentleman?
    Mrs. Callahan. This is Mr. Ralph Lotkin, and I retained him 
personally.
    Mr. Barr. OK. Thank you.
    You may, Mr. Lindsay, be familiar with sort of a common 
misperception--you may not, Mrs. Callahan, but, for example, 
one of the statutes in Title 18, which is the U.S. Criminal 
Code on obstruction of justice, is entitled, ``Tampering with a 
Witness, Victim, or an Informant,'' and there is a common 
misperception that there has to be a specific legal proceeding 
pending so that when a person who might be charged with 
obstruction tells a person not to tell somebody something, or 
intimidates them in some way not to disclose information or a 
document, or to alter or destroy or mutilate or conceal any 
documents, that there has to be, in order for obstruction to 
occur, a specific legal proceeding within the context of which 
that tampering takes place.
    That's not the case. So if anybody has advised you that 
there has been no obstruction here simply because there may not 
have been a specific request pending for these particular 
documents at the time, that's not true.
    And we do have evidence that you all indicated to persons 
not to share information, not to disclose information, to 
withhold information. Now we're arguing, as your administration 
is very, very adept at parsing words. Was a person in the room? 
Did a specific representation or admonition be directed to a 
particular person at a particular time or to a group of people?
    But the fact of the matter is that there is evidence that 
both of you told individuals, some of whom were here earlier 
today, to say nothing to anybody else without your explicit 
authorization; that you were prohibited from disclosing 
information to other people; that you were to write down as 
little as possible relating to this matter, not to work on 
networked computers or to send further e-mails.
    And one question that came to my mind, in reading the 
background of this case and listening to the testimony today, 
the independent counsel is certainly not an employee, an 
employer, or a supervisor of these people, neither was or is 
Mr. Burton, the chairman of this committee, neither is Mr. 
Hyde, who chaired the impeachment proceedings. All of those 
things were ongoing. There were consideration of impeachment 
proceedings; there was this committee conducting a series of 
investigations; the Office of Independent Counsel, Judge Starr, 
was conducting a well-known investigation of these very matters 
about which brings us here today.
    I'm not----
    Mr. Burton. The time of the gentleman from Indiana that was 
yielded to you has expired, and I'll recognize you now for 10 
minutes.
    Mr. Barr. Thank you, Mr. Chairman.
    The fact of the matter is that it does appear that steps 
were taken to limit very severely information surrounding a 
very serious glitch in the White House computer system that 
related specifically the matters well known to be under 
investigation by at least three different bodies--namely, the 
Office of Independent Counsel, this committee, and the 
Judiciary Committee.
    And, notwithstanding the fact that any one of those 
particular proceedings might not have been pending at the time, 
although the work of the independent counsel certainly was 
pending at that time, that you all took steps, according to 
testimony--which you dispute. I understand that you are 
disputing the testimony of other witnesses just as much under 
oath as you are today. And this is disturbing to us.
    Frankly, to say that all of this is simply to be sloughed 
off as a--I think that one of you all's quote was a ``major 
infrastructure problem,'' or because there were just too many 
hearings up here that occupied your time and it might have been 
a little confusing to deal with this or to remember something 
relating to this, or--and this is the granddaddy of them--Mr. 
Lindsay apparently saying that Hawkins was trying to extort 
money from you or something?
    Mr. Lindsay. It was far from extortion. He was exercising 
his rights, which were perfectly legitimate, and I did not have 
an objection to him making the claim that this was outside the 
scope of the contract. That was 100 percent of his rights to 
exercise. No argument with him as to that.
    Mr. Barr. So you all agree famously.
    Mr. Lindsay. We didn't agree on the conclusion. He had a 
perfect and 100 percent right to make the assertion that he did 
and to communicate and to get whatever support from his counsel 
at Northrop Grumman or whatever superior he wanted to make that 
particular assertion, and I do not argue with him on that point 
one iota.
    Mr. Barr. OK. Let me go back to the earlier testimony--and 
I know we've gone over this, but it bears going over again.
    Both of you instructed the employees that we've heard from 
today to say nothing about this matter without your explicit 
authorization; is that correct?
    Mr. Lindsay. That's not correct.
    Mr. Barr. You dispute that.
    Mr. Lindsay. I gave him permission----
    Mr. Barr. Do you dispute that, Mrs. Callahan?
    Mr. Lindsay [continuing]. To----
    Mr. Barr. No, I'm just--you dispute that?
    Mr. Lindsay. Yes.
    Mr. Barr. OK. The others are lying and you're telling the 
truth is your testimony today?
    Mr. Lindsay. I can only testify about information which I 
know about. I cannot testify about what the state of mind or 
what their intentions are in saying whatever they are saying.
    Mr. Barr. You do have a legal background.
    Mr. Lindsay. I know the truthfulness of what I say.
    Mr. Barr. Very clever.
    Mr. Lindsay. Thank you.
    Mr. Barr. Mrs. Callahan, did you instruct these individuals 
not to say anything to anybody without your explicit 
authorization?
    Mrs. Callahan. I instructed the individuals to follow the 
current practice that was in place at the time, which was to 
focus on the issue at hand and get to the----
    Mr. Barr. Did you instruct these individuals not to say 
anything without your explicit authorization?
    Mrs. Callahan. I instructed them to refer questions----
    Mr. Barr. Yes or no?
    Mrs. Callahan [continuing]. To me.
    Mr. Barr. You can answer no. I want a yes or a no. That's 
all. Did you instruct these individuals to say nothing about 
this matter without your explicit authorization?
    Mrs. Callahan. No, I did not.
    Mr. Barr. OK. Very nice.
    Did you, both of you or either of you, specifically 
prohibit them from disclosing these matters or any information 
relating thereto to coworkers or spouses?
    Mrs. Callahan, yes or no? Did you so instruct them?
    Mrs. Callahan. No, sir. I just instructed them on the 
procedures.
    Mr. Barr. Did you, Mr. Lindsay.
    Mr. Lindsay. No, I did not, sir.
    Mr. Barr. OK. Did either of you instruct these individuals 
or any of these individuals, collectively or individually, to 
not write any information down or as little information down on 
a record about these matters?
    Did you instruct anybody along those lines, Mrs. Callahan?
    Mrs. Callahan. No, sir.
    Mr. Barr. OK. And Mr. Lindsay.
    Mr. Lindsay. No.
    Mr. Barr. OK. Did either of you indicate to anybody not to 
work on any networked computers or send any further e-mails 
relating to this project?
    Mr. Lindsay. No, sir.
    Mr. Barr. Mrs. Callahan.
    Mrs. Callahan. No, sir.
    Mr. Barr. OK. Neither of you, though, I presume, instructed 
these individuals to be as forthcoming and truthful as possible 
if anybody asked them about any of these questions? Or are you 
going to go so far as to say you encouraged them to talk about 
these things?
    Mr. Lindsay. Your statement is ``anybody.''
    Mr. Barr. Any of these individuals, not anybody. I'm 
talking about any of these individuals that we're talking about 
here today, Mr. Lindsay.
    Mr. Lindsay. What I wanted them--the information that I 
conveyed to Mr. Hawkins or the Northrop Grumman leadership and 
to Laura was that the individuals who needed to have 
information about this matter to solve the problem, I had no 
problems with them communicating with it.
    Mr. Barr. What about if the independent counsel had asked 
about it or a congressional committee?
    Mr. Lindsay. I've got no objection whatsoever. They were 
perfectly free, and there was nothing at all that I could do or 
would do to stop them from communicating that.
    Mr. Barr. If we believe you.
    Mr. Lindsay. Excuse me?
    Mr. Barr. If we believe you----
    Mr. Lindsay. Absolutely.
    Mr. Barr [continuing]. That you did not do any of these 
other things, which the witnesses have said that you did.
    Mr. Lindsay. The truth is that I would not have had within 
my power or stop them or had any means to stop them from 
communicating with whomever they wanted to communicate about 
the work that they had. It was my desire that they communicate 
this information to those individuals who were necessary to 
solve the problem. It was my hope that they would respect that 
in the interest of the individuals who could possibly be harmed 
by sharing of this information in idle gossip.
    Mr. Barr. What idle gossip are we talking about? I didn't 
know we were talking about idle gossip.
    Mr. Lindsay. If someone were to say or to convey that, 
``Hey, your name showed up on this particular list and this is 
what e-mails--this is what information is contained in those e-
mails.''
    Mr. Barr. I really don't think that that's what we're 
talking about here at all. We're talking about something a 
little bit more systematic than idle gossip here. What we're 
talking about here is a serious problem with a computer system 
that appeared, to technical individuals charged with 
responsibility for it, was missing perhaps a great deal of 
information. I don't think we're talking about idle gossip, and 
I really don't think that that's what these individuals came 
away from, that you simply told them not to engage in idle 
gossip.
    Mr. Lindsay. My testimony was and continues to be that I 
have no, had no, will have no objection to them communicating 
to any individuals that were necessary to resolve the problem.
    Mr. Barr. And that's--forgive me if I say that's all fine 
to talk about that today, but there is testimony under oath on 
the record that is quite contrary to that. And the fact is--I 
mean, I know you all keep saying this, that simply because you 
had no legal authority to fire somebody or to terminate a 
contract, therefore, of course, you couldn't have even made 
such a statement. I mean, that's just bogus.
    Mr. Lindsay. That's not the only reason, sir.
    Mr. Barr. I didn't say that that was the only reason. What 
I'm saying is both of you all have made those statements, and 
they're absolutely meaningless. People make threats all the 
time, even though they may not be in a legal position to carry 
out those threats or have the legal authority or power to do 
it. But, thankfully for Federal prosecutors, that is not 
required under the obstruction statute. You don't have to 
actually have the power to follow through on your threats or 
the legal authority to do so to be guilty of obstruction.
    Mr. Lindsay. Sir, the obstruction statutes wouldn't be the 
reason why I wouldn't do it. The--my moral code would be the 
reason why I wouldn't do it.
    Mr. Barr. Just like you can't get in the minds of the other 
witnesses, I can't get into your mind, so, I mean, certainly 
that's--I hear what you're saying, and they're very self-
serving statements, and they're delivered very eloquently and 
repetitively and I understand that. But my concern, as--perhaps 
as a former prosecutor and somebody that, unfortunately, had to 
spend a great deal of time over the last 2 years looking at 
these obstruction statutes, that we're faced with a situation 
very similar to some of the considerations we looked at in 
the--fact situations that we looked at in the Judiciary 
Committee, where there is pressure brought to bear on people 
with information that is or might be relevant to an 
investigation or an official proceeding.
    And it's not idle gossip, Mr. Lindsay. What we're talking 
about here are matters involving people of interest to the 
Office of Independent Counsel, to an impeachment proceeding of 
this House, and to the oversight responsibilities of this 
committee. These are very serious matters.
    Mr. Lindsay. Absolutely, sir.
    Mr. Barr. And when we are faced with several witnesses who 
state under oath, both in court proceedings and before this 
body, that there was pressure, that there were threats made, 
and we hear that from several different people, we're not going 
to disregard it just because you all come in here with very 
long pedigrees that you tell us about and expect us to think 
that, just because you have all these degrees and have all 
these awards and some people came to your weddings, that none 
of this ever happened. We are going to look at it a little more 
carefully than that.
    Mr. Lindsay. I would hope. I mean, I believe that there is 
more than that that supports what I'm saying and what Mrs. 
Callahan is saying. I believe that the record is replete with 
examples of why the story that I am saying is supported.
    First, these people and people at Northrop Grumman made the 
argument to me as to why this should be something that was 
arguing within the scope of the contract. What was within the 
scope of the contract? How would they know it wasn't within the 
scope of the contract if they didn't know what work was to be 
performed? They knew about it. I made----
    Mr. Barr. My main concern is----
    Mr. Lindsay [continuing]. No objection.
    Mr. Barr. My concern with obstruction of justice does not 
hinge on whether something was technically within the scope of 
the contract or not.
    Mr. Lindsay. I understand that.
    Mr. Barr. We're looking at the underlying data base, the 
underlying information that, by every appearance, was relevant 
to ongoing investigations of this Congress and the independent 
counsel.
    Mr. Burton. The time of the gentleman from Georgia has 
expired.
    Mr. Waxman, the ranking member, would like us to clarify 
for the record--and let me just say this--we originally agreed 
to three 10-minute rounds and then go to 5-minute rule. The 
minority has agreed to go to 10-minute rounds instead of the 5-
minute rounds. Just a clarification for the record.
    With that, for 10 minutes I recognize the gentleman from 
California, Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman.
    Mrs. Callahan----
    Mrs. Callahan. Yes, sir?
    Mr. Horn [continuing]. Tell me, you were in the Office of 
Administration at the White House; is that correct?
    Mrs. Callahan. That's correct. The Office of Administration 
for the Executive Office of the President.
    Mr. Horn. Right. And when did you join that office?
    Mrs. Callahan. September 30, 1996.
    Mr. Horn. 1996?
    Mrs. Callahan. Yes, sir.
    Mr. Horn. And what were you paid?
    Mrs. Callahan. Excuse me?
    Mr. Horn. What was your pay scale?
    Mrs. Callahan. I was a GS-14.
    Mr. Horn. GS-14?
    Mrs. Callahan. Yes, sir.
    Mr. Horn. Were you on loan from an agency?
    Mrs. Callahan. No, sir. There was a vacancy announcement 
that I competed for and was selected for.
    Mr. Horn. Did you have people that reported to you in that 
Office of Administration?
    Mrs. Callahan. Initially, sir, when I was the program 
manager for the Lotus Notes and Windows/NT environment, the 
folks that I worked with were mainly contractors, because that 
function was contracted out.
    Mr. Horn. Well, are these one or two people you had 
reporting to you? I'm trying to get the line. And did you have 
a staff working for you?
    Mrs. Callahan. It was a mixed staff between Federal and 
contractors, and the contractors--when I was initially hired on 
as the Lotus Notes-Windows/NT program manager, the after 6 p.m. 
bulk of the people were all contractors, and I worked through 
the contract supervisors.
    Mr. Horn. Now, these are different contracts than the one 
we've been talking about today?
    Mrs. Callahan. Yes, sir. The contract changed in 1997. In 
October 1997, the previous contractor left and Northrop Grumman 
came on board in a very tenuous and tumultuous contract 
turnover. It was very stressful.
    Mr. Horn. Well, I'm sure it was. I'm amazed sometimes what 
happens to them, and it doesn't matter whether they're 
Democrats, Republicans, Conservatives, Liberals--doesn't 
matter. But they change, and they get into the White House 
atmosphere. First thing they do is pick up the phone and call 
their mother, usually, and they start writing on White House 
stationery and all that. And some who have been on the Hill 
suddenly, or for the President as dictator down there, we're 
all idiots. So I have been used to that. And I'm just curious 
if it could be possible that someone on your staff used the 
word ``jail'' and whatever, if you sent them over there to 
scare the people or just make sure there wouldn't be any leaks. 
I can understand that, if you don't want any leaks, and 
somebody might have blurted out ``jail'' or whatever.
    Is that possible? Would anybody on your staff have done 
that?
    Mrs. Callahan. I can't attest to what staff members would 
say, sir. All I can do is tell you what I know and what I said 
as an individual, and I did not use the term ``jail.''
    Mr. Horn. Well, did you ever send any of your staff over to 
talk to the people that have been before us on panel one this 
year?
    Mrs. Callahan. No, sir. I worked directly with Betty 
Lambuth.
    Mr. Horn. I can't hear you. It's very difficult. Would you 
put that closer?
    Mrs. Callahan. All right. No, sir. I said I worked with 
Betty Lambuth directly. She was the leadership individual on 
the contractor's side that was responsible for supporting the 
day-to-day activities for the contract in order to keep the e-
mail systems running.
    Mr. Horn. Was there anything, when you talked to her, that 
could have led her to say, ``They threatened us with jail if we 
spilled the beans on anything here?''
    Mrs. Callahan. Nothing that I would have said to her, sir. 
No.
    Mr. Horn. OK. So you can't think of any words--it's not 
unreasonable, if you have been charged by the Office of 
Administration, to say, ``Get that contract moving, and why 
don't you go over there and tell them something,'' I can see 
that happening in any White House, so I'm just curious if that 
happened and you went over there because the heat was on you to 
get that contract moving.
    Mrs. Callahan. No, sir. The only heat that was on me was to 
find the scope and depth and breath of the problem, and that 
was the heat that I reiterated to Betty Lambuth. It's a fact 
that we needed to find out, technically speaking, what was the 
problem and how to approach it and what did we need to do to 
fix it. And then, after that, I left with my involvement on 
this particular project.
    Mr. Horn. Did anybody else act in your name in the next few 
weeks?
    Mrs. Callahan. It would be up to my immediate supervisor, 
who was Kathy Gallant, to address that issue.
    Mr. Horn. And did she ever meet with any of the people in 
the contract that Northrop Grumman had?
    Mrs. Callahan. I don't have first-hand knowledge, but what 
I heard today was some references to Kathy Gallant, so I would 
assume there had been some discussion.
    Mr. Horn. Well, I just--you obviously have a lot of talent 
or you wouldn't be down there in the Department of Labor, 
presumably, in charge of a technology center, but I have seen 
strange behavior by Democrats and Republicans when they get in 
the aura of the White House, and I just wonder. Sometimes 
people are going to blow their stack at people and don't even 
think about it. They go back to the office and say, ``I guess I 
told them, and maybe they'll do it,'' or not do it, as the case 
may be.
    And that couldn't have happened to you when you were just 
sort of fed up with the contract administration?
    Mrs. Callahan. No, sir. I don't blow my stack. In fact, 
folks that know me and have worked with me, they have a joke on 
the back side of things in that they are waiting for the day 
when I do lose my temper because they've never seen that happen 
yet, and so they joke about that with me.
    Mr. Horn. Well, I think I'd probably agree with them that I 
wouldn't want to be around you when you had one of those 
explosions, but just wondering how you're feeling.
    So let me move on, Mrs. Callahan.
    Did you report the problem that would come up with this 
computer contract at any time to any other White House 
employee?
    Mrs. Callahan. I reported the problem with the e-mail 
anomaly to Mr. Lindsay. I didn't deal with any issues involving 
the contract. That wasn't within the scope of my 
responsibilities, nor do I have that expertise.
    Mr. Horn. So it was--you initially reported to Mr. Lindsay 
then?
    Mrs. Callahan. Yes, sir.
    Mr. Horn. On that.
    Mrs. Callahan. My immediate supervisor, Kathleen Gallant, 
was not there, and I do not recall why. Paulette Cichon would 
have been the next in the chain of command, and she was out of 
the office at the time when I went to look for someone to 
notify, and in which case I saw Mr. Lindsay in his office, and, 
as the chief of staff, I notified him that we had another 
anomaly.
    Mr. Horn. How about, did you report it to Ada Posey?
    Mrs. Callahan. No, sir.
    Mr. Horn. You did not. What was Ms. Posey's position?
    Mrs. Callahan. She was the director of the Office of 
Administration.
    Mr. Horn. And you didn't report to her?
    Mrs. Callahan. No, sir.
    Mr. Horn. Well, who in the hierarchy of the Office of 
Administration did you report to?
    Mrs. Callahan. I reported to Kathleen Gallant.
    Mr. Horn. And what was her title?
    Mrs. Callahan. She was the associate director for 
information systems and technology in the Office of 
Administration.
    Mr. Horn. Now, did she report to Ada Posey?
    Mrs. Callahan. She reported to Paulette Cichon.
    Mr. Horn. And what was her title?
    Mrs. Callahan. I'm not sure of her exact title, sir. I 
wouldn't want to misrepresent it.
    Mr. Horn. How about Virginia Apuzzo? What was her position?
    Mrs. Callahan. Virginia Apuzzo, to my understanding, was 
the special assistant to the President for management and 
administration, and the chain of command, sir, would be, the 
way I understood it, was Ms. Virginia Apuzzo, Ms. Ada Posey, 
and then Paulette Cichon, then Kathleen Gallant, and, of 
course, Mr. Lindsay, working with Ms. Posey as the chief of 
staff.
    Mr. Horn. Now, could it be possible that when you gave him 
a report that, ``Hey, this thing isn't working,'' that they 
sailed over there and said something to the staff?
    Mrs. Callahan. You would have to ask them, sir. I can't 
speak for them.
    Mr. Horn. Well, you're saying you don't have any knowledge 
that anybody above you in the hierarchy went saying, ``Look, 
I'm tired of all this mess--'' and I can believe that. I've had 
a few computer things where they just don't tell you the truth, 
and so you get really wound up. So did any people above you 
say, ``Look, we've had it with them. Let's go and tell them a 
few things?''
    Mrs. Callahan. In my brief interaction with this 
situation--again, I was only involved for about the first week 
or two with the problem--I don't recall any of the occurring, 
but I can't say what happened after I was off of the project.
    Mr. Horn. When was the White House counsel's office first 
informed?
    Mrs. Callahan. I'm not sure, sir. That wasn't in my job or 
my duty to inform them of anything.
    Mr. Horn. And was the informant in the counsel's office Mr. 
Lindsay? Is that the one people reported to, generally, with 
this problem?
    Mrs. Callahan. I reported the problem to Mr. Lindsay, and 
then after that I understand that Kathleen Gallant and Paulette 
Cichon took over the management of the project, and I'm not 
sure what the reporting chain was that they established.
    Mr. Horn. Well, can you tell us about everyone who was told 
about the problem? I mean, how many people were in on what was 
going on over there?
    Mrs. Callahan. The Lotus Notes team, which were all the 
contractors, Mr. Lindsay, myself, Paulette Cichon, and I 
understand Kathy Gallant, too, as well, because when she came 
back from her absence she notified me that she was taking over 
the project, so someone had briefed her by then.
    Mr. Horn. Did you report the problem to Michelle Peterson 
on the White House counsel's staff?
    Mrs. Callahan. No, sir. I don't know Michelle Peterson. I 
just know of the name.
    Mr. Horn. So you didn't--you're saying that Mr. Lindsay was 
the only person in the Office of White House Counsel that had 
knowledge, at least from you?
    Mr. Lindsay. I wasn't in the Office of--I was general 
counsel for the Office of Administration, not in the Office of 
White House Counsel.
    Mr. Horn. I see. So you were in the Office of 
Administration?
    Mr. Lindsay. Correct, sir.
    Mr. Horn. OK. Now, did you report to anybody, either one of 
you, in the counsel to the President's Office?
    Mr. Lindsay. Did I tell them about the problem?
    Mr. Horn. Right.
    Mr. Lindsay. Absolutely.
    Mr. Horn. OK. Did you ever do that, Mrs. Callahan?
    Mrs. Callahan. No, sir. I informed Mr. Lindsay.
    Mr. Horn. Did anyone else, to your knowledge, in the White 
House counsel's office--who did you brief there?
    Mr. Lindsay. I was directed by the assistant to the 
President for management and administration to talk to Charles 
Ruff, and I did.
    Mr. Horn. The counsel?
    Mr. Lindsay. The counsel.
    Mr. Horn. Yes.
    Mr. Burton. The gentleman's time has expired. If you have 
further questions, we'll get back to you.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Lindsay, you said----
    Mr. Lindsay. Yes, sir?
    Mr. Mica [continuing]. It was your job to see that searches 
requested by the White House counsel were conducted; is that 
correct?
    Mr. Lindsay. No. The searches by the White House counsel 
were--the language and the definitions went directly from the 
White House counsel's office to a member of White House staff 
who performed the search. It did not go through me.
    Mr. Mica. So what did you do? You said you were primarily a 
conduit? You never conducted any searches? What were you--what 
was your role?
    Mr. Lindsay. I was the general counsel. We had--we 
performed services which ranged from procurement, the----
    Mr. Mica. But you're saying you never conducted any 
searches?
    Mr. Lindsay. I was only involved in one search, only one in 
the entire time.
    Mr. Mica. Which was that one?
    Mr. Lindsay. That was the one where folks from the 
counsel's office gave me four names, which I conveyed to folks 
in--my technical folks, who performed the search. That is the 
only search.
    Mr. Mica. But you--other than that, you were not interested 
in any information that had been obtained, right? You were 
just--your job was to see that things were executed in an 
administrative fashion?
    Mr. Lindsay. This----
    Mr. Mica. Making sure the systems worked, etc. Otherwise, 
why would Mrs. Callahan tell you that things weren't working?
    Mr. Lindsay. Right. I mean, it was----
    Mr. Mica. That was your role.
    Mr. Lindsay. Right. Exactly--to maintain the systems and to 
provide advice and guidance.
    Mr. Mica. Now, Mrs. Callahan testified earlier that she 
came and told you that there was a technical problem, right?
    Mr. Lindsay. Yes, sir.
    Mr. Mica. Did she also tell you that people were--that 
someone had uncovered some information regarding--relating to 
Ms. Lewinsky or some matters?
    Mr. Lindsay. I have a recollection of that.
    Mr. Mica. She did tell you. When you conveyed your 
information to Mr. Ruff, did you tell him that there was just a 
technical problem, or did you tell him that there was also 
information relating to this matter or any other matter under 
investigation being disclosed that it was uncovered and 
discussed, being discussed?
    Mr. Lindsay. I was not in the position to tell the counsel 
to the President what matters were under investigation and 
which ones were----
    Mr. Mica. I'm not asking you that. What she told us 
earlier, she told us earlier that Mr. Haas is out in the hall 
and there were people out in the halls discussing some of this, 
and Mr. Haas was like a little--I think she used an analogy of 
a child getting a Christmas present. He found information and 
there were things being disclosed.
    Now, you told me you were primarily technical and 
administrative and she was telling you that the system was 
broken, there was something wrong.
    Mr. Lindsay. Not technical. I wasn't a--I'm not a technical 
person.
    Mr. Mica. She told you that there was something wrong, 
right?
    Mr. Lindsay. Correct, sir.
    Mr. Mica. OK. And she also told you that they were talking 
about some of the information they found?
    Mr. Lindsay. That is correct, sir.
    Mr. Mica. OK. And I asked you: did you tell Mr. Ruff there 
was a technical problem, or did you convey some of the 
information that she gave you on up?
    Mr. Lindsay. I know that I conveyed to Ruff that there was 
a technical problem.
    Mr. Mica. And beyond that tell me, because I'll ask Mr. 
Ruff this question under oath. You told him some of the other 
information, too?
    Mr. Lindsay. I may have or may not have. I don't have a 
recollection.
    Mr. Mica. You don't recall?
    Mr. Lindsay. I don't recall.
    Mr. Mica. OK. And you don't recall--let me get to Mrs. 
Callahan a second here.
    Tell me how you conveyed to those folks--you said you 
advised employees of the need to maintain confidentiality. I 
could go back and get the exact record. Was that what you did?
    Mrs. Callahan. Sir, I advised them that they needed to 
focus on the technical problem, because there was----
    Mr. Mica. Did you say anything about confidentiality?
    Mrs. Callahan. I told them we had a sensitive situation and 
we needed to work on figuring out the problem and that we 
shouldn't be just----
    Mr. Mica. But three of them thought they were threatened or 
that you mentioned going to jail, in some degrees. All of them 
who testified said that they were told not to tell their 
spouses or talk about it outside.
    Tell me how--tell the committee what you told those people.
    Mrs. Callahan. OK. To the best of my recollection and 
understanding, I told them that there had been some discussion 
going on in the hallways--again, the fact that Mr. Haas had 
raised the issue about e-mail dealing with Monica Lewinsky and 
Ashley Raines was unusual, because we had not asked for that 
information at this point in time.
    Being that there was some information being discussed in 
the hallways very loosely, knowing the situation that was going 
on, we obviously were not putting our attention on the 
technical issues to figure out what the problem was.
    So, with that understanding, I advised them that they 
needed to focus on the technical issues----
    Mr. Mica. That they shouldn't even tell their spouses about 
this?
    Mrs. Callahan. Well, I told them if anyone had any 
questions, refer them to myself or Mr. Lindsay.
    Mr. Mica. The thing about their spouses, they're all five 
of them not telling us--telling us that that--they all heard 
part of this. You don't recall that?
    Mrs. Callahan. I don't recall addressing their spouses, 
sir.
    Mr. Mica. You recall the conversation, though, passing on 
the information about Mr. Haas to Mr. Lindsay, what was going 
on in the hallways?
    Mrs. Callahan. Yes, sir.
    Mr. Mica. Do you remember getting Mr. Lindsay on the 
telephone to reiterate what you had said as far as your need to 
maintain confidentiality? Did that occur or did that not occur?
    Mrs. Callahan. No, sir. I do recall getting Mr. Lindsay on 
the phone and he was----
    Mr. Mica. Mr. Lindsay, you don't recall that conversation 
at all?
    Mr. Lindsay. No, I don't. It very well might have happened, 
if Laura said----
    Mr. Mica. They all remember the conversation, and they 
remember it as a reinforcement to the warning they'd had from 
you about confidentiality. Why did you institute that need to 
bring Mr. Lindsay into this?
    Mrs. Callahan. Well, sir, first of all, it was brought to 
my attention by Betty Lambuth that she was having difficulty 
with her own employee being able to focus on the effort because 
he was in the hallway talking about it.
    Mr. Mica. And you had told him about this, and he knew that 
there were people talking about what they'd found, and then you 
got him on the phone to help keep them quiet; is that correct?
    Mrs. Callahan. I got Mr. Lindsay--Mr. Lindsay actually 
wanted to be on the phone call to reiterate the standard 
practice and focus on the technical issues.
    Mr. Mica. Oh, so he volunteered to you to be on the phone 
after you told him what was going on?
    Mrs. Callahan. Yes, the----
    Mr. Mica. You didn't ask him?
    Mrs. Callahan. No, sir.
    Mr. Mica. You don't--do you recall, Mr. Lindsay, asking to 
be on the phone so you could tell----
    Mr. Lindsay. My previous testimony is I didn't remember the 
conversation.
    Mr. Mica. They all--everyone testified today that they were 
told to keep a lid on this, and they remembered the 
conversation with you very well. And now she's telling us that 
you asked for that conversation. But you don't recall that 
conversation?
    Mr. Lindsay. I may have asked for that conversation. I have 
no recollection of asking for the conversation. And if I did, I 
don't--you have to understand, sir, I didn't know these people, 
particularly at this particular time. The concept of me 
discussing with these people or making threats to people----
    Mr. Mica. You've already told us you were only interested--
--
    Mr. Lindsay [continuing]. Who I did not know----
    Mr. Mica [continuing]. In getting the technical things 
correction, but now we find out that, in fact, you knew--and we 
heard this Mrs. Callahan tell us today that they had--that they 
were talking about information relating to--did you say Raines 
and Monica? What did you say? Who did you say?
    Mrs. Callahan. The two individuals were Monica Lewinsky and 
Ashley Raines.
    Mr. Mica. OK.
    Mrs. Callahan. That was brought to my attention by Betty 
Lambuth.
    Mr. Mica. And you don't remember how specific you were with 
conveying this information to those above you, like Mr. Ruff; 
is that right, Mr. Lindsay?
    Mr. Lindsay. I remember being very specific about the 
technical problem and the fact that incoming e-mail was 
probably not being ARMS managed. I remember being very specific 
about that.
    The record shows that that was the emphasis of any 
conversation I may have had.
    Mr. Mica. Mrs. Callahan, it appears this morning they 
testified that there may be tens of thousands of e-mails that 
we've never seen. Is that a good estimate?
    Mrs. Callahan. I don't know, sir. I did not see that 
quantity.
    Mr. Mica. You did not? The system was broken. It wasn't 
fixed. We weren't able to retrieve that information.
    It also sounds like Ms. Lambuth was removed from her 
position, and she claims that there was a slow-down and 
basically a trying--an effort to try to stop all of this. Did 
you see any of that?
    Mrs. Callahan. I was only involved in the very, very 
beginning for a short period of time. I didn't see that during 
my brief involvement, and I cannot say what happened after I 
was off the project.
    Mr. Mica. Do I still have time, Mr. Chairman?
    Mr. Burton. You have 25 seconds.
    Mr. Mica. So it appears, Mrs. Callahan, that you were 
concerned about more than just the technical problem; you were 
concerned about leaks of information, people talking in the 
hall and people conversing about what they had found; is that 
correct?
    Mrs. Callahan. No, sir. I was concerned about them putting 
their time and effort and energy into fixing the problem and 
not talking about what if and would have, could have, should 
have type discussions in the hallway, and that's why I----
    Mr. Mica. But you did mention both the technical problem 
and the leaks to Mr. Lindsay; is that correct?
    Mrs. Callahan. I advised Mr. Lindsay of the technical 
problem and the two names that were involved in what Mr. Haas 
disclosed to Ms. Lambuth.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Burton. Mr. LaTourette, it is nice to have you back.
    Mr. LaTourette. Thank you, Mr. Chairman.
    I want to apologize to the panel. I was up doing something 
else and I didn't hear your testimony, but I have had the 
chance to review it with my staff.
    I want to begin by saying something nice about you, Mr. 
Lindsay, and disclose to my colleagues that Mr. Lindsay this 
week called me and offered to come into my office and did come 
into my office and spent an hour with me and answered any 
question that I might have, and I appreciate that, and I think 
that that occurred as a result of his former association with 
Congressman Louis Stokes, for whom I have the greatest 
admiration and was proud to serve with Congressman Stokes 
before his retirement.
    That being said--and so I thank you for that courtesy, but, 
that being said, when I practiced law, we used to have an 
expression that you could have five people see the same 
accident and nobody would remember it exactly the same, but, 
likewise, you would be hard-pressed to find somebody that said 
that there wasn't an accident. You know, someone may say the 
car was blue and one may say--you know.
    And I did sit through the first panel, and I have to tell 
you that we had that kind of situation with the first panel, 
where everybody's recollection might have been slightly 
different, but everybody saw an accident.
    And if we go in degrees of things, Ms. Lambuth was pretty 
strident in her observations and her recollections, Mr. Haas 
even made the comment--and I think when Mr. Waxman was 
questioning him--he said in your presence--and congratulations 
on your marriage. I understand you married a Secret Service 
agent, and I congratulate you on that, because I would have 
called you Ms. Crabtree if I hadn't known that--but that he was 
flippant, and that's how this ``there's a jail cell with your 
name on it'' thing came about. He sort of made a joke about it. 
And so it wasn't just, you know, people coming in hammering, 
saying, ``jail cell, jail cell,'' we felt threatened.
    And then Ms. Golas, I mean, she didn't look like a trouble-
maker to me, so I hope you realize--and I'm not going to beat 
this drum again, but the testimony that you present, the two of 
you, is in stark and direct contrast with five or six people 
that we had in here earlier, and it is troubling to me, and I 
know, from the questions you've received from my colleagues, it 
is at least troubling to them. So I'm not going to focus on 
that.
    I do want to talk about a couple of things that came up in 
our conversation, Mr. Lindsay, and maybe you can sort of 
expound on them and tell us what it is that you think.
    My understanding is that you still have not entered into a 
contract to reconstruct the data from the mail server two. 
You're taking bids on that now; is that right?
    Mr. Lindsay. That's correct, sir.
    Mr. LaTourette. And, again--and I made notes, but you can 
correct me if I'm wrong--that one estimate that you received 
was that this would cost between $2 and $3 million and it would 
take about 211 days to fix, do the reconstruction of these e-
mails that we still have--nobody has seen.
    Mr. Lindsay. That's correct, sir.
    Mr. LaTourette. OK. And I think I mentioned to you at the 
time that the suspicious among us--and there are some 
suspicious people in Congress. I try not to be one, but I get 
more suspicious as time goes by----
    Mr. Lindsay. Yes, sir.
    Mr. LaTourette [continuing]. That if I pulled out a 
calendar and added up 211 days, 211 days from letting a 
contract would coincide rather nicely with the election wherein 
we elect either Vice President Gore or Governor Bush to be the 
next President of the United States.
    Are you troubled by that at all? In other words, 2\1/2\ 
years has gone by, and now you may be entering into a contract 
that's going to take us past the election, so these things will 
remain sealed more?
    Mr. Lindsay. Yes, sir. I would like to have those e-mails. 
If I could have the e-mails reconstructed within a shorter 
period of time--and take my word for it, that those estimates 
that we have are not the end of the story. We are continuing 
and will continue the try and find something that can put 
this--resolve this issue quicker. And I believe that there 
are--I've certainly gone back, and, after our conversation, I 
went back and talked to our folks and said, ``Isn't there any 
way we can do any better?'' And I think our folks are going to 
apply their best analysis or best methodologies trying to find 
somebody who can do this work faster, because I think that's 
the quickest way to get this issue resolved.
    Mr. LaTourette. I hope so. And I think that also--I want to 
talk about the decision to not reconstruct this Mail2 server. 
You know, the other panel said you stopped the bleeding and no 
longer are e-mails coming into the White House not captured on 
the ARMS system, but we still have this body of stuff while 
there was a problem.
    Mr. Lindsay. Yes, sir.
    Mr. LaTourette. And, obviously, somebody made a decision to 
not reconstruct this Mail2 server. And, again, relying on my 
memory of our conversation, you indicated that you attended a 
Cabinet meeting where in the President and the Vice President 
were there, and there was a discussion about Y2K compliance. 
And, if I remember your exact words to me, is the Vice 
President very clearly said that the White House is not going 
to be the poster child for Y2K noncompliance. Do you remember 
that meeting and indicating that to me?
    Mr. Lindsay. That actually was information that was 
provided to me by the assistant to the President for management 
and administration in a Cabinet meeting, I believe, that she 
attended.
    Mr. LaTourette. OK.
    Mr. Lindsay. And that the importance of making sure and her 
looking to me to make sure that we weren't the ones that failed 
in our Y2K effort.
    Mr. LaTourette. Gotcha.
    Mr. Lindsay. Correct, sir.
    Mr. LaTourette. And so, as a result--and, again, if you've 
been asked this already, a decision was made to concentrate on 
Y2K and things like reconstructing the Mail2 server were--sort 
of fell by the wayside; is that right?
    Mr. Lindsay. That, amongst many, many other projects.
    Mr. LaTourette. But was that decision yours in your 
position at the OA? Did you make the decision to not 
reconstruct the Mail2 server until you became Y2K compliant and 
these other things were taken care of?
    Mr. Lindsay. In November 1998, I was the chief of staff and 
general counsel. I wasn't the director and I wasn't the 
assistant to the President for management and administration at 
that time, so I couldn't make that decision unilaterally.
    Mr. LaTourette. Did you discuss the fact that you had five 
or six projects out there pending, and one of them was the 
reconstruction of the Mail2 server----
    Mr. Lindsay. Yes.
    Mr. LaTourette [continuing]. With a superior?
    Mr. Lindsay. Absolutely. And I will say this: that it was 
my recommendation, based on the technical review that my staff 
provided to me, that the mission-critical systems for which our 
e-mail system was one was our No. 1 priority for Y2K 
reconstruction, so that certainly was something I conveyed to 
the director of the Office of Administration and to the 
assistant to the President for management and administration, 
so that was my recommendation.
    Mr. LaTourette. Who was the director?
    Mr. Lindsay. Ada Posey.
    Mr. LaTourette. OK. And there was an acquiescence by Ms. 
Posey that the reconstruction of this server could wait until 
you did other things?
    Mr. Lindsay. I don't remember it being necessarily an 
acquiescence. I think that there--and I don't remember--keep in 
mind, it wasn't a discussion about this particular matter. It 
was a discussion about a whole list of mission-critical 
projects, which we were--we had to provide to Congress and to 
other people as to what our priorities were, and in our budget 
discussions. So it was a matter of looking at this stack of 
information, and then the other stack of information, and 
placing the priority on the mission-critical systems and those 
mission support systems which were more critical than others.
    Mr. LaTourette. Gotcha. Now, the fact that this body of e-
mails is not loaded into the ARMS system makes the Executive 
Office of the President non-compliant with certain Federal 
rules and regulations and laws, does it not?
    Mr. Lindsay. Not to my knowledge.
    Mr. LaTourette. Well, isn't it required by the Federal 
Records Act that these documents be loaded into a retrievable--
electronically automatic retrievable system?
    Mr. Lindsay. It was--our analysis at the time is that the 
fact that we maintained the records, as a matter of fact, on 
the desktops where they were on the server, and the fact that 
we maintained the information on backup tapes meant that we 
were preserving the information in compliance with the Federal 
Records Act.
    Mr. LaTourette. OK. But the fact of the matter is that, 
although, if I understood Mr. Barry when he was here before, 
although on the hard drives--for instance, take this Lewinsky 
e-mail that began some of this nonsense--that there was a 
couple responses, you know, with whoever her friend was, 
Raines, or whoever the friend was, that you could see one side 
of a conversation----
    Mr. Lindsay. Yes.
    Mr. LaTourette [continuing]. But you couldn't see Lewinsky 
writing into the White House, if I understood that right. So 
you couldn't reconstruct this information just by looking at 
the hard drive, because the stuff that wasn't being captured 
wasn't on the hard drives, because he would have--that's where 
he would have been looking, is it not?
    Mr. Lindsay. Well, what that information meant was that it 
was ARMS managed, so the information wasn't on the ARMS system. 
That does not mean that those e-mails were not on people's 
computer systems.
    Mr. LaTourette. OK. Well, let me--I want to shift gears, 
because 10 minutes goes awfully quickly on this thing----
    Mr. Lindsay. Yes, sir.
    Mr. LaTourette [continuing]. And I want to talk about the 
Office of the Vice President.
    Mr. Lindsay. Yes, sir.
    Mr. LaTourette. We've been talking about this particular 
problem and the fact that incoming e-mails weren't captured on 
this Mail2 server. Are you aware today in your position that 
the Office of the Vice President continues to have a similar 
problem?
    Mr. Lindsay. I am aware of the fact that there are 
problems, but this is something that I've just most recently 
been apprised of.
    Mr. LaTourette. But, specifically, let me just read you 
what I think is going on, and you can tell me whether you know 
about it or not.
    Mr. Lindsay. Yes, sir.
    Mr. LaTourette. And that is that the Office of the Vice 
President set up their own system when they, I assume, took 
office, or whatever, or maybe the Vice President invented his 
own system, based upon--I don't know.
    Mr. Lindsay. I don't know.
    Mr. LaTourette. But, anyway, that there was no capturing of 
e-mails into the Office of the Vice President under the system 
that they--in an ARMS system under the program that the Office 
of the Vice President established. Do you know that to be so?
    Mr. Lindsay. I have been told that there are some e-mails 
from the Vice President's office which have not been captured 
by ARMS.
    Mr. LaTourette. And, specifically, in 1997, they went onto 
this Lotus Notes program that we have been talking about all 
day, but still the program--the e-mail accounts that existed 
before 1997, principally the Vice President's account and 27 
other accounts, the ARMS system is still not capturing e-mails 
from outside the White House into the Office of the Vice 
President. Do you know that to be so?
    Mr. Lindsay. I do not know that to be so. It may be true, 
but I just don't know. I don't have any knowledge.
    Mr. LaTourette. Is that something that your office would 
have responsibility and Mrs. Callahan would have responsibility 
and then looking into overseeing and correcting, as you did 
with the Mail2 server problem?
    Mr. Lindsay. Absolutely. I felt a little bit handicapped 
because of this ongoing investigation. I have been very, very 
careful about my communications with our technical staff to 
make sure that there was no even appearance of impropriety in 
terms of me making any inappropriate communications with them. 
So, frankly, I have not been the one looking into this matter 
and have not questioned our technical staff on the details of 
this matter.
    Mrs. Callahan. Mr. LaTourette, if I may please?
    Mr. LaTourette. Sure.
    Mrs. Callahan. Just to clarify, sir, since you weren't here 
earlier, I left the Executive Office of the President back in 
October 1998, so I am no longer there or have any ability to 
offer anything in that regard.
    Mr. LaTourette. I thank you. And, if I could just ask one 
more question--and then I promise I'll be quiet--I just--this 
problem with the Office of the Vice President looks exactly 
like the problem with the Mail2 server, and I would hope that 
the OA, the EOP, or whoever is going to take care of this--I 
happen to have a different conclusion, and I think that the 
Federal Records Act and Armstrong v. the EOP require the 
maintenance of these systems.
    Mr. Lindsay. Understood, sir.
    Mr. LaTourette. And I would hope that you'd fix it so that, 
you know, if these things are smoking pistols, well, let the 
evidence be out, and if they're not, then there's nothing 
there, and we want that to be out. But to have this cloud 
hanging over this thing on this body of 100,000, a million e-
mails at a time when this Congress is very interested in what 
is going on in the Executive Office of the President I think 
doesn't do the American people a service and I think it is a 
slap in the face of the Congress, so I hope you do your best.
    Mr. Lindsay. Absolutely, sir. Thank you.
    Mr. Burton. Thank you, Mr. LaTourette.
    Mr. Haas said during his testimony, when we asked him--in 
fact, I asked this question: does any e-mail actually reside on 
the PCs of the White House users, or does it all actually 
reside on the servers,'' and he said 98 percent is on the 
servers.
    Mr. Lindsay. Yes, sir.
    Mr. Burton. Well, I think the point that you were trying to 
make is that all of this was on the hard drives of the----
    Mr. Lindsay. No, sir. That's not correct.
    Mr. Burton. It was on the servers. That's where it was.
    Mr. Lindsay. Right. But when I go to my office right now 
and look at e-mail--and I have the very first e-mail that I 
received when I came here and started working for the White 
House, for Office of Administration--I can go on my computer. 
Though I've had several computers change place, it all resides 
on the server. The server is different than the ARMS records 
management system, as it has been explained to me.
    Mr. Burton. I understand. But it was--I thought I 
understood you to say that this was on the personal computers 
of the individuals.
    Mr. Lindsay. No. That's not what I was saying.
    Mr. Burton. You didn't say that? Fine.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    I understand that I think both of you have talked about--
and I don't want to attribute this quote to both of you, but I 
think one of you used the quote, trying to find out the scope 
and breadth of the problem.
    It must bother you tremendously that, not only have you all 
discovered the scope--not discovered the scope and breadth of 
the problem, but you all haven't fixed it. Don't you find that 
particularly frustrating, Mr. Lindsay?
    Mr. Lindsay. Absolutely.
    Mr. Barr. You're in charge of this office, aren't you?
    Mr. Lindsay. Absolutely. I mean, I wasn't at that 
particular time, but at one point I was.
    Mr. Barr. We find that frustrating. You have tremendous 
credentials, and you spent a great deal of time telling us 
about them. You're in charge of this office. Here we are 2 
years later, and the problem hasn't been solved. What are you 
doing? Why can't you get a handle on this?
    And I really don't think it is just a matter of money.
    Mr. Lindsay. No, it isn't a matter of money.
    Mr. Barr. And it is a matter of law, also, is it not? I 
mean, you all have a legal obligation to get to the bottom of 
this, don't you?
    Mr. Lindsay. I don't know about that. I have a personal 
obligation or feel very strongly, and I agree with you that I 
would have preferred that this were resolved sooner. I would 
like it to be resolved as quickly as possible. But if--to put 
it into context, if we had had systems failures as a result of 
Y2K and we hadn't done our work on that because we were doing a 
reconstruction, then it would have been a much more serious 
problem.
    Mr. Barr. There you go again. You blame it on Y2K, you 
blamed it on too many burdens being placed on you all from all 
these congressional hearings and committees. You blamed it on 
major infrastructure problems. I mean, I really think you do 
yourself a disservice by coming up here and, you know, blaming 
this.
    You all had--there is a serious problem here that has been 
known to your office for over 2 years, a serious problem that 
at least some of us on this committee believes is a legal 
problem, as well, very possibly a criminal problem, and nothing 
has been done on it.
    Mr. Lindsay. Well, let me--I beg to differ. One of the 
things that happened--I think it is very, very important to 
note that in October 1998 I received a proposal for $600,000 
from Northrop Grumman to assess the nature of this problem and 
how we were to work to resolve it. I am very happy to report 
that today the work that work would have completed has been 
completed by Government career staff who work in the Office of 
Administration and have done that work so that we can go to bid 
and contract.
    The first step in resolving the problem was to fix the 
glitch in the first instance. Without that, at least as I was 
informed by my technical staff, you could not do 
reconstruction.
    Then, the next step in the process was to identify what----
    Mr. Barr. The information is there. The e-mails are there 
somewhere, aren't they?
    Mr. Lindsay. I really would not be able to go into great 
detail as to the technical elements of how it works. I can 
report to you----
    Mr. Barr. But that's your job.
    Mr. Lindsay [continuing]. What trusted technical staff has 
reported to me.
    Mr. Barr. This is your office.
    Mr. Lindsay. That is correct.
    Mr. Barr. I mean, aren't they--I mean, the others 
testified. I mean, you can retrieve these things. They are 
there. You're saying it is a matter of money to get them. But 
there was one instance that I think Mr. Haas testified to that 
a whole group of documents were presented to you. I mean, where 
are those documents?
    Mr. Lindsay. They were presented to counsel's office. But 
let me reinforce----
    Mr. Barr. No, no. No. Don't just--please, don't just--you 
talk very fast.
    Mr. Lindsay. Sure.
    Mr. Barr. Slow down just a second, please.
    Mr. Lindsay. Certainly.
    Mr. Barr. The testimony earlier was that they were 
presented to you, not to the counsel's office, to you.
    Mr. Lindsay. They were presented to me, and then I 
transmitted them to the counsel's office.
    Mr. Barr. Where are they?
    Mr. Lindsay. I couldn't tell you.
    Mr. Barr. Well, now, see, this is another problem. These 
documents are presented to you. You know very well--you are 
trained in the law and certainly you know what is going on in 
the world around you, certainly at the time in 1998, also.
    Mr. Lindsay. Yes, sir.
    Mr. Barr. These are very sensitive documents. They are very 
relevant to the Office of Independent Counsel investigation, 
perhaps, perhaps very relevant to an impeachment proceeding, 
perhaps very relevant to Chairman Burton and our work on this 
committee.
    Mr. Lindsay. Yes, sir.
    Mr. Barr. They come in to you. You don't know whether--did 
you look at them?
    Mr. Lindsay. No, I did not look at them. I conveyed them--
--
    Mr. Barr. Did you give them to Mr. Ruff?
    Mr. Lindsay. I don't remember--I remember taking it over to 
the West Wing to the counsel's office. I can't remember if I 
gave it specifically to him, but they were certainly 
transmitted.
    Mr. Barr. You know who Mr. Ruff is?
    Mr. Lindsay. Absolutely, sir.
    Mr. Barr. OK. And you don't recall whether you gave them to 
Mr. Ruff?
    Mr. Lindsay. I remember taking them to the counsel's 
office, myself.
    Mr. Barr. Do you ever make notes?
    Mr. Lindsay. What's that?
    Mr. Barr. If you remember taking them over to the White 
House counsel's office, yourself, I don't believe that you 
don't know who you gave them to.
    Mr. Lindsay. I can't help that. All I can testify, sir----
    Mr. Barr. You just walked over and----
    Mr. Lindsay [continuing]. Is to those matters for which I 
have personal knowledge.
    Mr. Barr. Sensitive documents.
    Mr. Lindsay. Yes.
    Mr. Barr. Very important documents.
    Mr. Lindsay. And I believe that transmitting----
    Mr. Barr. You took them over there and you don't remember 
who you gave them to?
    Mr. Lindsay [continuing]. Transmitting those sensitive 
documents to the counsel's office of people whom I have the--a 
very significant degree of respect and admiration for is 
certainly an appropriate step.
    Mr. Barr. And I'm sure it is very mutual. But the fact of 
the matter is, I don't think that somebody trained, as you have 
told us you are and as you undoubtedly are, in the law in how 
to deal with sensitive documents would just take them over 
there and say, ``Hey, I trust everybody in this office, so here 
they are, guys,'' and just walk away. I think you know exactly 
who you gave them to. All I'm asking is who did you give those 
documents to?
    Mr. Lindsay. I can't testify to facts which are not in my 
recollection, sir.
    Mr. Barr. You cannot testify to facts that are not within 
your recollection. I think that's a new one.
    Did you have any other discussions about any of this with 
Mr. Ruff, the White House counsel?
    Mr. Lindsay. I don't have--I had conversations with the 
counsel on various topics at various times. This topic I'm 
certain was one of them. I don't have any specific recollection 
of other conversations with the counsel's office about other 
details of this particular matter, particularly after the 
transmittal of those particular documents, other than----
    Mr. Barr. What did you do, just put it out of your mind? 
You've told us that this is something very important.
    Mr. Lindsay. Absolutely. But there are two issues, sir.
    Mr. Barr. Absolutely what? You put it out of your mind or 
that it is really very important?
    Mr. Lindsay. It is important, but it is important for two 
reasons. The first reason is that your committee was due 
information, and I recognize that and respect that, but the 
determination as----
    Mr. Barr. Probably the Office of Independent Counsel was, 
at well.
    Mr. Lindsay. And the Office of Independent Counsel, and 
when the----
    Mr. Barr. And the Judiciary Committees, as well.
    Mr. Lindsay. Absolutely, sir. Absolutely.
    Mr. Barr. But none of them got these documents.
    Mr. Lindsay. I would not know, sir.
    Mr. Barr. You would not know. Did you give them to them?
    Mr. Lindsay. No, I did not.
    Mr. Barr. Right. There is a memo here dated June 9, 1998, 
that has been the subject of some discussion today, for John 
Podesta from Virginia Apuzzo.
    Mr. Lindsay. I think it was the 19th, sir.
    Mr. Barr. Pardon?
    Mr. Lindsay. I think it was the 19th.
    Mr. Barr. Yes, June 19, 1998, exhibit WH-3 and 4.
    Mr. Lindsay. Yes, sir.
    Mr. Barr. Did you get a copy of that?
    Mr. Lindsay. I reviewed it before it was transmitted to Ms. 
Apuzzo.
    Mr. Barr. All right. But it doesn't show on here that it 
went through you? You just reviewed it?
    Mr. Lindsay. No, it does not.
    Mr. Barr. OK. Did you get a copy of it after the fact?
    Mr. Lindsay. I don't have a recollection of getting a copy 
of it after the fact. No. I think I--my testimony earlier was 
that, before this--before actually conducting a search, I had 
forgotten about that memo. I didn't have a specific 
recollection of it at all until we actually looked through the 
files in the Office of Management and Administration to find 
it.
    Mr. Barr. You found one of those specific things you didn't 
have a recollection of?
    Mr. Lindsay. That is correct, sir.
    Mr. Barr. That is possible.
    Mr. Lindsay. Absolutely.
    Mr. Barr. OK. This document--put up page 2, please--it ends 
with the sentence, ``I will keep you informed of our 
progress.'' Is that the end of the document? The rest was 
blank. It doesn't even have a page number or anything. It 
doesn't show CC's or anything.
    Mr. Lindsay. I think the document speaks for itself.
    Mr. Barr. No. I'm asking: is that the end of the document, 
as you remember it? Was there anything else on there that----
    Mr. Lindsay. It is the end of the document as I remember 
it.
    Mr. Barr. OK. So it would not be standard procedure for a 
White House memo to have pagination, just to make sure that, 
you know, all pages are with the document or that certain pages 
belong to them?
    Mr. Lindsay. I wouldn't be able to--sometimes I've seen it 
and sometimes I haven't.
    Mr. Barr. Really?
    Mr. Lindsay. Yes, sir.
    Mr. Barr. Now, there's another document here that we talked 
about earlier today, White House 3, and one of your colleagues, 
Mr. Huang, I think it was, had no idea what it was. Do you have 
any idea what this is? These are talking points dated March 7, 
2000.
    Mr. Lindsay. No, it didn't strike a chord with me, sir.
    Mr. Barr. Yes. Just looking at it, do you have any earthly 
idea? I mean, have you ever seen a talking points document 
before?
    Mr. Lindsay. Have I ever seen a talking points document 
before? Yes, sir.
    Mr. Barr. OK. But this one rings no bell, whatsoever? You 
have no idea who drafted this, what it was drafted for, or who 
might have read it?
    Mr. Lindsay. No, I don't, sir.
    Mr. Barr. What conversations did you have with Mr. Podesta 
about these matters?
    Mr. Lindsay. I let him know about the information that was 
contained in the memorandum, and that was the--he asked one 
question as to whether or not----
    Mr. Barr. That's the memorandum of June 19?
    Mr. Lindsay. That's it, and that was the sum and substance 
of all communications that I had with him about this particular 
matter.
    Mr. Burton. The gentleman's time has expired, but I'm 
taking my final time. If the gentleman needs some of that, I'll 
be happy to yield it to him.
    Mr. Barr. I'd appreciate that.
    Mr. Burton. I just have a couple of questions here.
    Mr. Barr. Yes, sir.
    Mr. Burton. Mr. Hawkins testified that he raised the issue 
of threats with you, Mr. Lindsay. Did he?
    Mr. Lindsay. No, he did not.
    Mr. Burton. He said he did.
    Mr. Lindsay. He certainly did not.
    Mr. Burton. So that's another lie by those folks.
    Did Mr. Hawkins----
    Mr. Waxman. Whoa, whoa----
    Mr. Burton. Now, wait a minute. Mr. Hawkins----
    Mr. Waxman. Contradictions.
    Mr. Burton. Mr. Hawkins said he did it, and if it's not 
true, it's a lie.
    Mr. Lindsay. That's not my recollection of his testimony, 
but that may--if that's what the record shows.
    Mr. Burton. OK. The question is: did Mr. Hawkins raise the 
issue----
    Mr. Lindsay. No, he did not.
    Mr. Burton [continuing]. Of threats with you?
    Mr. Lindsay. No, he did not.
    Mr. Burton. OK. He did not. Did Mr. Hawkins ever discuss 
threats against his employees with you?
    Mr. Lindsay. No, he did not.
    Mr. Burton. He did not.
    Mrs. Callahan, did anyone ever raise the matter of threats 
with you?
    Mrs. Callahan. No, sir.
    Mr. Burton. No one did with you. Did anyone ever discuss 
with you or raise the issue of the efforts to solve the problem 
not moving fast enough?
    Mrs. Callahan. No, sir. Again, I was only involved for a 
short period of time, so I don't know what happened after I 
left the project.
    Mr. Burton. Mr. Lindsay, did anyone ever discuss with you 
or raise the issue of the efforts to solve the problem not 
moving fast enough?
    Mr. Lindsay. Excuse me, sir?
    Mr. Burton. I said did anyone ever discuss with you or 
raise the issue of the efforts to solve the problem not moving 
fast enough?
    Mr. Lindsay. I certainly discussed it, and I certainly 
raised that issue with individuals.
    Mr. Burton. Did anyone raise it with you?
    Mr. Lindsay. I don't have a recollection of people raising 
that to me. I have a recollection of me raising it and wanting 
to have things done faster.
    Mr. Burton. Who raised it with you? You don't recall 
anybody raising it with you about the process not moving--about 
maybe them being frustrated with it?
    Mr. Lindsay. No.
    Mr. Burton. But nobody, to your recollection, raised the 
issue of the whole process not moving fast enough and you being 
frustrated about not moving fast enough?
    Mr. Lindsay. Not that I recollect. I was frustrated enough, 
sir.
    Mr. Burton. The documents that you took to the counsel's 
office that Mr. Barr referred to talked about Ms. Lewinsky. 
Now, the search was not a complete search of information asked 
for by the independent counsel, was it? It was just a partial 
search?
    Mr. Lindsay. I wouldn't be able to answer that question, 
sir.
    Mr. Burton. Well, it only referred to two people that Ms. 
Lewinsky may have sent e-mails to.
    Mr. Lindsay. I would have to refresh my recollection as to 
what the independent counsel's request was.
    Mr. Burton. Well, when you found out there was information, 
you know, and you took it to the counsel's office, you had to 
know that that was only partial, didn't you? Did you think that 
was all the e-mails that Ms. Lewinsky sent into the White 
House?
    Mr. Lindsay. I had no idea, sir.
    Mr. Burton. Well, did you ever go back and ask for a 
complete search of Ms. Lewinsky's e-mails?
    Mr. Lindsay. I would not ask for a search of any employee 
or former employee's e-mails, particularly someone who had 
worked for the White House office, without consultation with 
the counsel's office.
    Mr. Burton. But the independent counsel had asked for any 
information relevant to that. We had asked for information on a 
whole host of issues and had subpoenaed them. The independent 
counsel had subpoenaed that information.
    Mr. Lindsay. As I said, sir, I would not have conducted an 
on-my-own search of records of that nature without consultation 
with the counsel's office.
    Mr. Burton. Well, did you or anyone to your knowledge ever 
tell the independent counsel that that was only a partial 
search of the Lewinsky e-mails?
    Mr. Lindsay. I didn't, and I have--I wouldn't have 
knowledge of any communications. I'm not aware of any 
communication between the White House counsel's office and the 
independent counsel, not a single one.
    Mr. Barr. Mr. Chairman, can I take a moment of your time?
    Mr. Burton. Yes. I'll yield to the gentleman.
    Mr. Barr. Now, wait a minute. You knew it was just a 
partial search. I mean, there were outstanding subpoenas from 
both the Office of Independent Counsel and this committee--and 
I don't know if there were at that particular time by the 
Judiciary Committee. You knew that that was--by virtue of the 
information brought to your attention in this memo----
    Mr. Lindsay. Yes, sir.
    Mr. Barr [continuing]. And in your other conversations----
    Mr. Lindsay. Yes, sir.
    Mr. Barr [continuing]. Quite aside from threats and so 
forth. Let's put that aside.
    Mr. Lindsay. Yes, sir.
    Mr. Barr. You knew that there was a serious problem and you 
knew that there was a high likelihood that information that was 
under subpoena by the independent counsel and by at least one 
committee of the Congress was very likely incomplete.
    Mr. Lindsay. I did not know that, sir.
    Mr. Barr. Yes you--you couldn't have helped but have known 
it because of the nature of this specific problem brought to 
your attention because of these gaps----
    Mr. Lindsay. Sir, my----
    Mr. Barr [continuing]. In this system because of the Mail2 
problems.
    Mr. Lindsay. My staff has been unable to this day to tell 
me the exact number of e-mails that weren't included.
    Mr. Barr. You don't have to know----
    Mr. Lindsay. They have been unable to----
    Mr. Barr [continuing]. The exact number of e-mails 
included. There you go again. See? Talking about, you know, 
something very precise. We're asking a general concern here and 
a general matter related to a very specific problem.
    Mr. Lindsay. Yes, sir.
    Mr. Barr. OK? Now, there was testimony earlier today that 
Mr. Barry was able to go back, after it became apparent to 
him--and he isn't even at near your level. He doesn't have all 
of these degrees and so forth, I don't think, that you told us 
about. He was able to pinpoint just one that came to his 
attention, and he was able to direct the people to go back and 
they uncovered it. They found it because he knew that there was 
something incomplete in a record.
    Mr. Lindsay. The counsel's office----
    Mr. Barr. Or in a series of records.
    Mr. Lindsay. The counsel's office----
    Mr. Barr. Later, Mr. Haas testified and you've testified 
that a whole group of documents were brought to your attention 
that you'd now have us believe you said, ``See no evil, hear no 
evil, speak no evil,'' you just closed your eyes to it, dropped 
it off somewhere over at the White House.
    Mr. Lindsay. No. I didn't drop it off at----
    Mr. Barr. You knew that----
    Mr. Lindsay. Sir, I did not drop it off somewhere. I 
dropped it off within the counsel's office of the President of 
the United States. That's not just ``somewhere.''
    Mr. Barr. And you had--and you would have us believe that 
you have no specific recollection of who?
    Mr. Lindsay. I don't.
    Mr. Barr. Well, I know you've told us that. But you had to 
have known. There is no way that you could not have known that 
these records that were under subpoena--this was not some 
secret investigation--that they were not complete because of 
this specific problem, and you took no steps to uncover that. I 
think you had the duty, as an officer of the court, quite aside 
from the laws that I think apply here, to do that.
    Mr. Lindsay. I believe that I----
    Mr. Barr. I suspect maybe that's why you're frustrated.
    Mr. Lindsay [continuing]. Fulfilled my obligations under my 
oath and as an officer of the court to convey the information 
and the nature of the problem to the counsel's office. The 
review of those documents to review them for responsiveness and 
to review them for privilege and other things that lawyers 
routinely do with the production of documents was the 
responsibility of the counsel's office of the President of the 
United States.
    Mr. Barr. If you were----
    Mr. Lindsay. That responsibility.
    Mr. Barr. If you were so frustrated, as you've told us--and 
I think that's the word you just used with the chairman--
what's--tell us some of the specific steps you took to relieve 
your frustration, because we have a whole sheath of documents 
here expressing continued frustration by Mr. Barry, for 
example--document after document after document saying 
nothing----
    Mr. Lindsay. I can give you specific instances----
    Mr. Barr [continuing]. Is being done.
    Mr. Lindsay. I can give you specific instances of how I 
expressed my frustration. I had a contractor that wanted 
additional resources who believed that the very issue that 
you're talking about was outside of the scope of the contract. 
The very definition of that issue, the way that they were doing 
it, meant delay, sir.
    Mr. Barr. Mr. Barry--again, I go back to this, because 
there are people far less qualified than you--Mr. Barry----
    Mr. Lindsay. Mr. Barry is very qualified.
    Mr. Barr. Mr. Barry discovered that there was--in just one 
series of e-mails that there were gaps. He was able to check 
that out and get an answer to it very quickly. Mr. Haas, it 
took him a little bit more time, because he was requested 
pursuant to a chain of command here, to gather more documents 
than just the one particular missing e-mail that Mr. Barry was 
looking for.
    Mr. Lindsay. But, sir----
    Mr. Barr. Mr. Haas was able to do so. You're sitting here 
telling us today that you, as the head of this entire office--
--
    Mr. Lindsay. At the time I was the general counsel.
    Mr. Barr [continuing]. With tremendous background in this 
haven't been able to do it?
    Mr. Lindsay. What I am saying, sir, is that, as I recollect 
Mr. Barry's testimony, it was that he discovered a gap in those 
particular e-mails. But remember, sir, that information was 
coming from the ARMS system, alone. That was not the only 
source of documentary evidence that was provided to 
investigative committees----
    Mr. Barr. But at least you knew that.
    Mr. Lindsay [continuing]. Or to other organizations.
    Mr. Barr. What I'm saying is I'm just extrapolating. I'm 
saying if he discovered that----
    Mr. Lindsay. Yes, sir.
    Mr. Barr [continuing]. In January 1998, just based on a 
very quick review of a couple of e-mails, he noticed there was 
a gap that didn't make any sense----
    Mr. Lindsay. Yes, sir.
    Mr. Barr [continuing]. He got onto it right away and 
discovered the problem, alerted your office in January 1998----
    Mr. Lindsay. He did not notify my office in January 1998.
    Mr. Barr. Yes, he did notify your office. Now, I don't know 
whether you're calling him a liar or not, but he testified that 
he sent a memo--an incident report----
    Mr. Lindsay. To his supervisor.
    Mr. Barr [continuing]. To the office--to OA. What is OA?
    Mr. Lindsay. The Office of Administration is----
    Mr. Barr. OK. I'm saying that's----
    Mr. Lindsay [continuing]. A Federal agency.
    Mr. Barr [continuing]. Your office. Now, he didn't send it 
to the Office of Administration in Alaska or somewhere, it was 
your office.
    Mr. Lindsay. Using that analogy----
    Mr. Barr. Your office knew about this.
    Mr. Lindsay [continuing]. Him having knowledge is 
notification to the Office of Administration, because he is 
part of the Office of Administration.
    Mr. Barr. No. A piece of paper was sent and there was 
followup done, and you all did nothing. That's our frustration. 
And you haven't done anything today to relieve that.
    Mr. Lindsay. That's not correct, sir.
    Mr. Barr. You're getting inside my mind now? I'm telling 
you you haven't.
    Mr. Lindsay. What I'm saying is we did $600,000 worth of 
work by Government--dedicated Government employees. I will not 
discount the work that those people did during a period where 
they were addressing the Y2K problem and other types of other 
pressing issues. Those people did that work. They actually 
completed it, and they did it at a cost that saved the 
taxpayers----
    Mr. Barr. You did it?
    Mr. Lindsay [continuing]. That saved the taxpayers money.
    Mr. Barr. You did not. This is your responsibility. You 
have not done it.
    Mr. Lindsay. That's correct, sir. I have not completed 
the----
    Mr. Barr. And you are here today----
    Mr. Lindsay [continuing]. Reconstruction. That is correct.
    Mr. Barr. You haven't done anything.
    Mr. Lindsay. That is not correct, sir.
    Mr. Burton. My time has expired.
    Mr. Waxman, do you have a closing question or two?
    Mr. Waxman. Yes, I do, Mr. Chairman.
    I must say, people have different recollections of events, 
and I have a lot of sympathy for the witnesses. They are being 
asked to recollect and tell us about detailed activities. I 
don't know, I guess this is 2 years ago; isn't that right?
    Mr. Lindsay. Yes, sir.
    Mr. Waxman. And I don't know if I could have recollection 
of events 2 years ago, who said what to whom. I could have a 
general idea. And when people have different testimony, it 
doesn't mean that one person is lying and another person is 
not. People just talk themselves into what they remember. It 
doesn't mean it was true. They talk themselves into thinking 
that must be what happened.
    Now, that's a situation where we're talking about events of 
many years ago.
    Mr. Lindsay. Yes, sir.
    Mr. Waxman. We've all been here for many hours, and Mr. 
Burton made the statement that he understood Mr. Hawkins to 
have said that he told you about threats, and you said that 
wasn't the case. Is that your testimony?
    Mr. Lindsay. That is exactly correct, sir.
    Mr. Waxman. Now, the fact of the matter is I have been here 
most of the day. I was certainly here for Mr. Hawkins' 
testimony. And I don't recall that he said that. I believe Mr. 
Burton believes what he said was true.
    Mr. Burton. I'd be glad to give you the transcript.
    Mr. Waxman. Well, I think the transcript will tell us, but 
maybe we can do something even better. We have transcripts. We 
have written transcripts of these proceedings, so everything is 
taken down and people have a chance to change it, but it is all 
taken down. What we're going to have, because of the chairman's 
wisdom, is an Internet broadcast of our proceedings, gavel-to-
gavel. And during the proceedings we've had a tape made of some 
of the testimony. So I would like to, with everybody's 
indulgence--and I have the time to do it--show a tape, and I 
think we could then see what Mr. Hawkins actually said a few 
hours ago.
    I can understand we can have different recollections of 
what he said and be very sincere about those different 
recollections, but the fact of the matter is that even being 
sincere doesn't make it accurate.
    So I wonder if we could show that videotape.
    Well, that obviously isn't the right one. S&P futures were 
going down, but we all know that the stock market went up 
today. [Laughter.]
    We are, obviously, operating in very fast timeframe, but if 
the chairman will indulge me----
    Mr. Burton. That's fine with me.
    Mr. Waxman. I think it is coming right up.
    Mr. Burton. Mr. Hawkins testified to me more than once 
today. We asked him questions back and forth.
    Mr. Barr. Mr. Chairman, if I can inquire, I think Mr. 
Hawkins' testimony----
    Mr. Waxman. Mr. Chairman, it is my time, and it is not up 
to the gentleman to inquire at all----
    Mr. Barr. I suspect you can stop the time.
    Mr. Waxman. It's my time, and----
    Mr. Burton. I will give you whatever time you need after 
Mr. Waxman----
    Mr. Waxman. If we could be quiet, we can hear the tape.
    Silent movies. Do we have sound on this one?
    Mr. Barr. Mr. Waxman is right, I did not hear the word 
``threat.''
    Mr. Waxman. Well, Mr. Chairman, I don't know what to say. 
Maybe we've gotten too high-tech--maybe we can't even get a 
tape recorder to work. You can understand why----
    Mr. Lindsay. I'm sympathetic to your circumstances.
    Mr. Waxman [continuing]. The White House can't get the 
whole e-mail system to work to track all the e-mails.
    I think when we do look at the record I think we're going 
to see that Mr. Hawkins made a different statement than what 
the chairman believed, but I think his belief is sincere. And I 
may be wrong, and we'll see what the record was. If Mr. Hawkins 
were here we could ask him.
    But the point I'm really making is it is hard to remember 
precisely what somebody said in a hearing 6 hours ago, let 
alone 2 years ago. I still have some time, which is my time--
the way this committee was supposed to work is we have a half 
hour--but now we have 10 minutes. We had a half hour and we 
split it up, and now I've got 10 minutes. And I am, obviously, 
trying to stall for some time so we can hear this tape.
    Mr. Lindsay. Yes, sir.
    Mr. Waxman. Because I think it is going to give us an 
accurate portrayal.
    Mr. Burton. You can mess with the tape. We'll come back 
after the vote. OK?
    Mr. Waxman. OK. Then we'll come back.
    [Recess.]
    Mr. Waxman. Mr. Chairman, I think we've handled our high-
tech glitch, and I'd like to have that tape rolled.
    [Tape played.]
    Mr. Waxman. They missed a question.
    Well, as I understand, what the tape would have shown would 
have been a question from Mr. LaTourette, who is a very good 
questioner, and an answer by Mr. Hawkins indicating that he was 
not told by Mr. Lindsay about the threats. But different people 
can have different recollections.
    Mr. Lindsay. Yes, sir.
    Mr. Waxman. That's the point I'm making, as well as the 
other point that's made is that even in this high-tech world 
things can get screwed up, and it's clear that the White House 
expenditure of--how much money was spent on that whole arms 
system?
    Mr. Lindsay. There was $14 million appropriated originally.
    Mr. Waxman. Now, we spend millions and millions of dollars 
to get a system that would retrieve every e-mail so that all 
the e-mails could be available to all the independent counsels 
and all the committees of Congress. The White House made an 
effort, in hiring Northrop Grumman, to get that information on 
that system, and then they found out that there was a glitch in 
the system. There were contractors. There were subcontractors. 
This morning we saw that the subcontractors and the contractors 
were feuding with each other and had different stories to say 
about the events.
    And what bothers all of us is that when the White House 
heard about this we weren't informed in a timely manner, 
presumably because the White House was hoping it would be 
fixed. I was hoping this video would have been fixed in time, 
and then we would have had at least that snippet.
    But the reality is that, even in this high-tech age, things 
don't always work out the way they are supposed to, and human 
beings' being what they are, hear different things at different 
times. In fact, they say different things at different times, 
as their recollection gets affected by other people's 
statements.
    So it is my understanding that, from that tape, we would 
have heard Mr. Hawkins saying one thing. There may be other 
times he said other things as to the threats. But there was one 
statement made that Mrs. Callahan told these contractors not to 
talk, perhaps with a threat of jail, but I think one of them 
said that you had made those comments because Mr. Lindsay had 
asked you to make those comments. You both would deny that or 
do either of you remember saying anything along those lines?
    Mr. Lindsay. I certainly didn't pass or ask that any 
instruction be passed on to instruct anyone to intimidate any 
other person. Absolutely not. And I'm not aware of anyone else 
doing it, certainly.
    Mr. Waxman. And, Mrs. Callahan, he didn't ask you to do it, 
and you say you didn't do it?
    Mrs. Callahan. Mr. Lindsay never asked me to threaten any 
employees and I never personally threatened any employees.
    Mr. Waxman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Burton. The snippet that we just saw was just that, a 
snippet, and my staff will go through the entire discussion to 
make sure that we have it all, but I will read to you what was 
said by Mr. Hawkins on March 12th--well, it wasn't March 12th, 
but when we interviewed him, Mr. Hawkins, here's what he said. 
``Hawkins went to speak to Lindsay and Crabtree and insisted 
that all work be done within the bounds of the contract. When 
Hawkins had this conversation, he did not know what work the 
contract employees were doing, simply that it was outside the 
bounds of the contract. At the meeting, Crabtree told Hawkins, 
`Everything was fine before you stepped in.' When he confronted 
Crabtree about her threatening his employees with jail, she did 
not deny doing so, but rather turned and left the room without 
a word. Lindsay further told Hawkins, `I hope you appreciate my 
position.' To this, Hawkins responded--'' and pardon my 
language. This is his language--``to this, Hawkins responded, 
`I'm pissed. Dale Helms or Jim Wright didn't authorize the 
work. Until Dale Helms authorizes the work, it's not going to 
get done. I've instructed my employees accordingly, and I hope 
you understand my position.' Lindsay replied, `Is that your 
final position?' Hawkins says, `It is.' ''
    So the issue was raised with Crabtree and Lindsay, 
according to Mr. Hawkins, and I think we'll probably find that 
on the tape, as well.
    But let me just end up by saying this: I understand the 
minority, as they always do, pooh-poohing things that we 
discover in uncovering these investigations, and I understand 
the rationale for their position, but let me just say this: the 
e-mails were subpoenaed right along with everything else by the 
independent counsel, by us, this committee, by a whole host of 
people. They were not delivered. They were discovered in 1998. 
In September 1996, this glitch started. That was right during 
the time that possible campaign finance mis-steps were taken or 
illegal activities took place. That was very relevant to the 
campaign finance investigation for which we subpoenaed these 
documents. We did not get them.
    And you folks have a different view. You say things didn't 
happen, when six other people sat there today and took issue 
with you.
    I think this is something that is going to have to be 
looked into further. I don't believe all six of those people 
are lying. I don't believe those five people felt intimidated 
because nothing was said to them. I think something was said to 
them, and I think it needs to be looked into further.
    And the last thing is, we've waited 2 years for these 
documents. Now we're finding out, under questioning from Mr. 
LaTourette, that, even if a contract was signed today, it would 
be 211 days--I believe that's right, isn't it, Mr. LaTourette--
211 or so days before we would get the information that we're 
entitled to, and that would be after this administration leaves 
office.
    It sure sounds like somebody is blocking, and this is very 
serious stuff, because if illegal campaign contributions were 
solicited by people at the White House, if they were involved 
in a cover-up of other investigations that have been going on, 
then somebody needs to be held accountable and taken to task 
and possibly even prosecuted.
    And so for us not to get this information after 2 years is 
just unthinkable, and for you not to even start the process is 
unthinkable.
    So I just say I'm frustrated. I think my colleagues are 
frustrated.
    Mr. Barr, did you have any closing comments?
    Mr. Barr. Yes, if you'll yield----
    Mr. Burton. I'll yield.
    Mr. Barr [continuing]. For just a moment, Mr. Chairman.
    Somebody a little bit earlier--maybe it was you, Mr. 
Lindsay--mentioned the name Ada Posey. Did you mention that, or 
did you, Mrs. Callahan?
    Mr. Lindsay. At one point in my testimony I may have 
mentioned her name.
    Mr. Barr. Yes. Who is she?
    Mr. Lindsay. She is the director of the Office of the 
Administration.
    Mr. Barr. Is she in the--was she an assistant to Hillary 
Clinton?
    Mr. Lindsay. No. Not to my knowledge.
    Mr. Barr. Really? I thought that Ada Posey was. How long 
has she been in the current position?
    Mr. Lindsay. She no longer works for the Executive Office 
of the President.
    Mr. Barr. That's not the question. How long had she served 
there in that office?
    Mr. Lindsay. I believe for 5 or 6 years.
    Mr. Barr. Until what time?
    Mr. Lindsay. Until December 1998.
    Mr. Barr. OK. Now, have either of you had any discussions 
at all at any time with lawyers from Northrop Grumman?
    Mr. Lindsay. Have I, personally?
    Mr. Barr. Yes.
    Mr. Lindsay. Ever?
    Mr. Barr. Yes.
    Mr. Lindsay. When we negotiated the contract for Northrop 
Grumman to come on board, they brought in their counsel at the 
signing ceremony. I remember meeting a counsel from--someone 
from the general counsel's office from Northrop Grumman. It 
must have been in early 1997.
    Mr. Barr. That was the only contact you've had with lawyers 
from Northrop Grumman?
    Mr. Lindsay. I don't have any other specific recollection 
of conversations with lawyers from Northrop Grumman.
    Mr. Barr. Have you had any conversations with them about 
any of these matters----
    Mr. Lindsay. Me?
    Mr. Barr [continuing]. Under discussion today?
    Mr. Lindsay. No. Absolutely not.
    Mr. Barr. At no time?
    Mr. Lindsay. Not that I'm aware of.
    Mr. Barr. Well, you would be aware of them, wouldn't you?
    Mr. Lindsay. I would think so. No, I did not have any 
conversations with anyone from Northrop Grumman.
    Mr. Barr. Mrs. Callahan, have you?
    Mrs. Callahan. No, sir.
    Mr. Barr. OK. How about attorneys from the Department of 
Justice?
    Mr. Lindsay. At any time during my tenure?
    Mr. Barr. Concerning any of these matters.
    Mr. Lindsay. Yes.
    Mr. Barr. When?
    Mr. Lindsay. Shortly after the Mail2 glitch was discovered. 
Please keep in mind, sir, we were involved in several pieces of 
records litigation that were going on at that time, and we 
regularly conferred with our appellate counsel and with 
elements and individuals from the Justice Department on how 
those matters were proceeding. We provided information to them. 
They were our attorneys, and so we had regular communications 
with them on matters dealing with records.
    Mr. Barr. How about these matters, these records?
    Mr. Lindsay. Yes. I had one conversation with an individual 
in the--from the Justice Department about these matters shortly 
thereafter they were discovered.
    Mr. Barr. Which would be in when, because we have a 
difference over when----
    Mr. Lindsay. I think it was in June----
    Mr. Barr [continuing]. It was discovered.
    Mr. Lindsay [continuing]. 1998. I had a conversation with 
someone from the Justice Department because my concern was--
they were experts in the Federal Records Act, and I wanted to 
know and make sure that any--to see if there were any Federal 
records issues that were associated with the particular anomaly 
issue.
    Mr. Barr. So this was just a matter over that? It didn't 
concern the specific files that might have been lost or that 
might need to be located?
    Mr. Lindsay. No. I was the general counsel for the Office 
of Administration. One of my responsibilities was to work with 
them in pending litigation, and if there was information that 
developed that was relevant to that pending litigation, it was 
my responsibility to make sure that I let them know about it, 
which is what I did.
    Mr. Barr. But the Department of Justice and its lawyers did 
not question you, or you didn't have discussions with them 
about the specifics of what we're talking about here today? 
They expressed no interest in what files might be missing, how 
to retrieve them, why they're missing, and so forth?
    Mr. Lindsay. In terms of what files, no. It was a question 
of whether or not records that were not put into the ARMS 
system, was that information--just providing them with the 
information as to what happened so that they could make a 
determination of any other action that needed to be taken. We 
didn't talk about the subject matter. We talked about just the 
facts associated with that matter, and it was a relatively 
short conversation.
    Mr. Barr. And who was that with?
    Mr. Lindsay. I believe it was Jason Baron from the Justice 
Department.
    Mr. Barr. And that's the only conversation about these 
matters, specifically, that you've had with the Department of 
Justice?
    Mr. Lindsay. That's the only one that I have a specific 
recollection of.
    Mr. Barr. Are there any that you don't have a specific 
recollection of?
    Mr. Lindsay. I don't know how I could----
    Mr. Barr. I mean, I don't know how--I mean, everything you 
say you have a caveat, a footnote to it.
    Mr. Lindsay. Is that a question, sir?
    Mr. Barr. No, it's a statement.
    Mr. Lindsay. OK.
    Mr. Barr. Mrs. Callahan----
    Mrs. Callahan. Yes, sir?
    Mr. Barr [continuing]. Have you had any contacts, 
conversations of any sort with the Department of Justice or any 
Department of Justice attorneys concerning any of these matters 
that bring you here today?
    Mrs. Callahan. None of these matters, sir.
    Mr. Barr. OK. They've never approached you and asked you 
any questions about any of this?
    Mrs. Callahan. None of this, sir.
    Mr. Barr. Pardon?
    Mrs. Callahan. None of this on this subject, sir.
    Mr. Barr. OK. And have you had any conversations with or 
discussed any of these matters with this lady, Ada Posey?
    Mrs. Callahan. No, sir.
    Mr. Barr. At no time?
    Mrs. Callahan. No, sir.
    Mr. Barr. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. Burton. Yes, Mr. Waxman?
    Mr. Waxman. I have a few questions. It won't take very 
long.
    Mr. Burton. Well, if you have questions, we'll probably 
have another round. Go ahead.
    Mr. Waxman. I was interested in recollections of people 
about the conversation. Shortly after the problem was 
discovered, Laura Crabtree, now Mrs. Callahan, who was the 
branch chief of the customer service computer support branch in 
the Office of Administration, she had this meeting with Ms. 
Golas, Mr. Spriggs, Ms. Lambuth, Mr. Haas, and Ms. Salim, all 
of whom testified this morning; Mr. Lindsay, who was OA's 
general counsel, spoke with those present by speaker phone and 
instructed them to continue investigating the e-mail problem, 
but to avoid discussing with anyone else because it was a 
sensitive matter.
    Now, that was when Mr. Haas thought that if he told his 
wife, that you said, Mrs. Callahan, ``There would be a jail 
cell with your name on it.''
    Now, when these witnesses who testified this morning were 
questioned by the staff, obviously Ms. Lambuth accused you of 
threatening her with jail, Mr. Haas remembered that, but Ms. 
Salim and Ms. Golas did not recall any threats being made at 
that meeting, and neither Ms. Golas nor Mr. Spriggs recall any 
mention of the word ``jail.'' That was what they said in the 
interview. And then they testified somewhat like that, but a 
little differently, this morning. So people have their 
recollections changed. It's human nature, and I wouldn't 
attribute bad intent on anybody's part. You try to remember the 
events of 2 years ago.
    Now, I have been told by my staff that this tape is now 
ready in its entirety, and I'm going to give that one last 
chance. So, if we could, let's see what we have.
    [Tape played.]
    Mr. Waxman. Now, that only was a snippet, and I don't know 
what was going to follow next, if he had any further answer to 
Mr. Burton, and he may well have said something different in 
the interview. But, again, my essential point is that people 
have different recollections of what happened 2 years ago, and 
we even have different recollections of what happened a few 
hours ago. But I thought that we all should have seen that 
tape, and I regret that it has taken us so long to get it up 
there, but I think that tape, at least as far as it goes, 
speaks for itself.
    I yield back the balance of my time.
    Mr. Burton. Well, I'll just close then by saying that five 
people, as I've said before, said they felt threatened. Two of 
those people said that they had been told they would go to 
jail. One, when she went to her supervisor, and Mr. Hawkins--
and Mr. Supervisor said, ``You've got to tell us what's going 
on,'' and she said, ``Hey, I can't tell you.'' He said, ``Well, 
that borders on insubordination.'' She said, ``I'd rather be 
insubordinate than to go to jail.'' Now, that sentence, alone, 
infers that she felt the same way as the other two. Now, that's 
three out of the five.
    But, in any event, all five of them felt threatened to the 
degree that they had to go to a park across the street to talk 
or to Starbuck's, because they felt like they had to keep this 
stuff quiet.
    So, you know, and then the other fact is that we haven't 
had these e-mails, and it has been well over 2 years. Nothing 
has been done, and they're trying to run out the clock. At 
least that's how it appears to me, and I think to probably most 
people who paid attention.
    I think we're going around in circles right now, so, unless 
there's further comment--real quickly, Mr. Barr. I want to 
adjourn this thing.
    Mr. Barr. Thank you very much, Mr. Chairman.
    Mr. Lindsay, just a quick followup to----
    Mr. Lindsay. Yes, sir.
    Mr. Barr [continuing]. The question and answer about the 
Department of Justice lawyers. Let me be more specific. Did you 
approach them to disclose this problem to them?
    Mr. Lindsay. Yes, I did, sir.
    Mr. Barr. OK. They didn't approach you?
    Mr. Lindsay. No, sir.
    Mr. Barr. OK. And what was the specific purpose of your 
request to them?
    Mr. Lindsay. If I remember correctly, my question was: do 
we have a Federal records issue associated with the fact that 
this information had been, as a result of a glitch, not 
included in the ARMS records management system? I believe that 
was the specific question.
    Mr. Barr. Your concern with the Federal Records Act is 
what?
    Mr. Lindsay. He would--the folks at the Justice Department 
were experts in it and I had a concern. I wanted to make sure 
that I conferred----
    Mr. Barr. I mean, what was your concern? I agree, you 
should have been concerned.
    Mr. Lindsay. Yes.
    Mr. Barr. That's a real problem with all of this. But what 
is your--what was your concern with the Federal Records Act?
    Mr. Lindsay. Sir, I believe--in my normal course of 
business I considered it due diligence on my part to make that 
inquiry. I also wanted to make sure that they were aware of 
this so that it could not--it wasn't relevant or wasn't 
something that they needed to have or needed information about 
in relation to other pending litigation.
    Mr. Barr. Doesn't the Federal Records Act require these 
documents to be retained and retrieved?
    Mr. Lindsay. They were retained.
    Mr. Barr. Isn't that a concern?
    Mr. Lindsay. The question was: did they have to be retained 
in ARMS, as opposed to other means of retaining those 
documents, and my recollection of the response that I got was 
that no, this was a technical, non-human-intervention problem 
that is not a wilful act in any way, shape, or form; therefore, 
you are not running afoul of the Federal Records Act and you 
are maintaining the information in another form, which can be 
searched at a later date and maintained to preserve these 
records.
    Mr. Barr. So the records are retrievable? They are there?
    Mr. Lindsay. To the best of my knowledge, yes.
    Mr. Barr. OK. You all just haven't gotten them?
    Mr. Lindsay. They have to be reconstructed before they can 
be retrieved.
    Mr. Barr. Yes.
    Mr. Lindsay. That's the thing we're going to work on trying 
to get collapsed to as short a time period as humanly possible.
    Mr. Barr. Right. Were these lawyers that you talked to at 
the Department of Justice, were they the same lawyers 
representing the White House in civil litigation?
    Mr. Lindsay. In civil--what civil litigation?
    Mr. Barr. Involving the White House.
    Mr. Lindsay. They represented the Office of Administration 
in a records case, the Carlin case. That's the matter which I'm 
familiar with what they did.
    Mr. Barr. What case is that, the Carlin case?
    Mr. Lindsay. That case dealt with--there were plaintiffs 
that were essentially claiming that there should be Federal 
records systems, electronic records management systems by all 
Federal agencies, including, if my memory serves me, including 
Congress. The contention was is that any memorandum that you 
would generate should be retained in an electronic records 
management system similar to the one that we maintain with 
ARMS. That was one of the contentions in the argument.
    Obviously, doing that, just from anyone's casual 
observation, would be a very expensive and complicated 
proposition, and the issues in those matters dealt with what 
was the scope of that, whether or not the general records 20 
issued by the National Archives required that there be that 
kind of records management system.
    Mr. Barr. The White House has known for quite some time 
that this problem exists.
    Mr. Lindsay. Which problem?
    Mr. Barr. The problem that brings us all here today. And 
you've testified that it can be resolved, it's simply a 
question of money.
    Mr. Lindsay. No, I did not say it was a question of money. 
It wasn't a question of money at all. It was more a question of 
people than it was of money.
    Mr. Barr. Well, you'd have to pay those people, correct?
    Mr. Lindsay. Not just a matter of paying the people. 
Contractors that are brought in must be managed by people who 
can make sure that the Government's interests are covered, in 
terms of making sure that they report responsibly, that they 
perform their responsibilities. Government workers must be 
involved in providing supervision for those activities.
    Mr. Barr. Why hasn't it been done, then? I mean, you're 
confusing the issue, I think, here. I mean, is it that you all 
don't have enough people, you all don't have enough money, you 
all don't have enough qualified people? What is it?
    Mr. Lindsay. What we have to remember is----
    Mr. Barr. And you tell us you've been frustrated for 2 
years over this.
    Mr. Lindsay. Sir, in November 1998 my technical staff came 
to me and said, ``You will not be able to meet your Y2K 
objectives with your systems.'' Plain and simple. That was a 
very serious proposition.
    What that meant is not only would this e-mail issue or 
other things happen that would be a problem, but it also meant 
that we could possibly have systems failures, and our duty to 
provide that kind of administrative support to the Executive 
Office of the President would not be fulfilled.
    So what we did is we compiled and looked at the list, and 
of all the mission-critical systems, those systems that we had 
to maintain to make sure that we continued to provide the 
support for the Presidency that we're required to do under 
statute----
    Mr. Barr. Will you define--you keep using this term 
``mission critical system'' and ``mission critical project.''
    Mr. Lindsay. Yes, sir.
    Mr. Barr. Wasn't this mission critical?
    Mr. Lindsay. No, it was not, sir.
    Mr. Barr. Oh, you don't consider this mission critical?
    Mr. Lindsay. It was not considered mission critical. There 
was a very----
    Mr. Barr. To the Office of Independent Counsel and this 
committee? Would the Impeachment Committee have considered this 
mission critical?
    Mr. Lindsay. I don't know, sir.
    Mr. Barr. I mean, it seems fairly important to me.
    Mr. Lindsay. Saying it is not mission critical does not 
mean that it is not important. All of the projects that we 
have----
    Mr. Barr. It means it doesn't get done.
    Mr. Lindsay. No. It means that it doesn't get done first.
    Mr. Barr. Well, it hasn't even been done last.
    Mr. Lindsay. It has been done--the $600,000 worth of work 
that the contractor was going to charge us----
    Mr. Barr. So it is a question of money.
    Mr. Lindsay [continuing]. Has been worked on.
    Mr. Barr. Has the White House requested the funds necessary 
to do this?
    Mr. Lindsay. It was not a question of money. We have 
requested funds to do it. The question----
    Mr. Barr. Well, if you don't need more money, then why 
hasn't it been done?
    Mr. Lindsay. Sir, I made the statement that it wasn't a 
question of money, step one.
    Step No. 2 is that we needed the staff to be able to do it.
    At the conclusion of Y2K, we had Government staff that had 
been working on Y2K work on the resolution of this issue. That 
is step two.
    To resolve step one, I have made the request to the 
Treasury, Postal Appropriations Committee that they provide or 
allow us to spend funds from another account in that area so 
that we could pay for the contract to perform the work. But 
prior to making that request we had to know how much money to 
ask for. We had to know--and we've worked out a relationship 
with that committee where they have always asked us, prior to 
an appropriation, ``What is the total project cost? What are 
the taxpayers going to have to pay to actually complete this 
issue?'' They don't want to just begin a project and not know 
where it is going to end. And I think that is a very 
appropriate question that Mr. Kolbe's staff would have for us, 
and we wanted to make sure that we were prepared for that.
    Mr. Barr. Now Mr. Kolbe's----
    Mr. Burton. Let me----
    Mr. Barr. I yield, Mr. Chairman.
    Mr. Burton. Who did not consider the mission critical? 
Somebody had to tell you this is not a top priority. Who was 
that?
    Mr. Lindsay. There was a very elaborate process.
    Mr. Burton. No, no. Who?
    Mr. Lindsay. I could not tell you who.
    Mr. Burton. You don't know who told you this was not a top 
priority? When the independent counsel, this committee, the 
Impeachment Committee, the Judiciary Committee of the U.S. 
House was conducting--you can't remember who didn't--who told 
you----
    Mr. Lindsay. Sir, I really do believe we're getting two 
issues confused. The first issue is the responsiveness of 
documents. That is an issue that you very legitimately and I 
very much respect that you have a concern about having 
documents produced that should be produced to those appropriate 
bodies that should be produced. That is a determination that 
the counsel's office would have communicated and would be 
involved in making a determination.
    There is a problem No. 2.
    Mr. Burton. Wait a minute.
    Mr. Lindsay. The second problem is the resolution of the--
--
    Mr. Burton. How did you know----
    Mr. Lindsay [continuing]. Glitch and the reconstruction.
    Mr. Burton. How did you know that getting these e-mails to 
the relevant individuals when you knew there was a glitch, how 
did you know that was not mission critical? How did you know 
that? Somebody had to tell you that.
    Mr. Lindsay. How did I know it wasn't mission critical?
    Mr. Burton. Yes. I mean, how did you know this wasn't a top 
priority?
    Mr. Lindsay. Because we had a team of people, a Y2K team 
with a Y2K administrator, who followed Federal guidelines on 
assessing what mission-critical systems were.
    Mr. Burton. OK. Who was the head of that group?
    Mr. Lindsay. Terry Misich was our Y2K coordinator.
    Mr. Burton. OK. That was the Y2K coordinator. So they 
said--the Y2K coordinator said that this was not a top 
priority, but that the Y2K was more of a priority?
    Mr. Lindsay. I don't have any recollection of anyone on the 
Y2K team making specific reference to this particular project. 
The analysis----
    Mr. Burton. OK. Then who decided that this was not a 
mission-critical issue, because we had the independent counsel, 
Mr. Starr, we had this committee and other committees--I think 
Senator Thompson's committee--and we also had the Judiciary 
Committee all subpoenaing documents, and this was a top 
priority for the independent counsel and for the Congress of 
the United States. So who in the White House decided this was 
not a top priority, a mission-critical priority?
    Mr. Lindsay. The determination of mission-critical systems 
was a technical determination, as----
    Mr. Burton. Who made it?
    Mr. Lindsay. It was a collective decision.
    Mr. Burton. Well, who made it? Who was the head? Who made 
the decision?
    Mr. Lindsay. Ultimately, the sign-off on the mission-
critical systems as to how we went about doing it was probably 
done by the director of the Office of Administration or by the 
assistant to the President for management and administration.
    Mr. Burton. And who are they?
    Mr. Lindsay. One or the other.
    Mr. Burton. And who are they?
    Mr. Lindsay. Ada Posey and Virginia Apuzzo.
    Mr. Burton. OK. So those two----
    Mr. Lindsay. In terms of the approval of that list. Do not 
take from the approval of that list that there was a specific--
--
    Mr. Burton. Well, somebody had to----
    Mr. Lindsay [continuing]. Analysis----
    Mr. Burton. Somebody had to say, ``Hey, this is not 
something that we want to do right now. This is more important 
over here.'' And I just want to know who it was.
    Mr. Lindsay. Well, just to put it in context, sir, there 
were thousands of projects which existed in the Office of 
Administration, technical projects.
    Mr. Burton. I understand. I understand. But who set the 
priorities?
    Mr. Lindsay. A combination of people.
    Mr. Burton. You don't get your orders from a combination of 
people. You get them from somebody. Who put this down the list? 
Who set the priorities?
    Mr. Lindsay. Well, I beg to differ. One of the things that 
we worked on in working with our Appropriations Committee is 
that when we set priorities we set those priorities 
collectively. They required that we make those determinations--
--
    Mr. Burton. You know, we don't have a troika. We don't have 
three people running the country. We have one, a President of 
the United States. He is the chief--he's the Commander-In-
Chief. He's the boss. Somebody--we have a chain of command. 
When you get your orders, you're getting them from somebody. 
And so this was a mission-critical issue as far as the Congress 
and the independent counsel was concerned, and I want to know 
who set the priorities.
    Mr. Lindsay. I can't answer the question more fully than I 
already have, sir.
    Mr. Burton. And I don't think you've answered it at all.
    We've got documents that show that you were working on a 
Christmas card list and preparing new fax cover sheets. Were 
those mission critical?
    Mr. Lindsay. Y2K mission critical----
    Mr. Burton. No, no. We have got documents that we'll be 
glad to show you that show you were working on Christmas card 
lists and preparing new fax cover sheets. Were those more 
critical than getting these documents to the Congress?
    Mr. Lindsay. Those projects were completed--may have been 
completed, in addition to many, many other critical systems. 
The critical systems that are defined in the mission-critical 
list were things like the e-mail system, the maintenance of our 
network system. Those are the kind of mission-critical systems 
that we----
    Mr. Barr. Mr. Chairman, if I can reclaim my time, could we 
get--do you have a list that shows where this particular matter 
fits on the list of priorities, then?
    Mr. Lindsay. I have a list of the mission-critical systems, 
which this project was not included on. I do have that.
    Mr. Barr. OK. And who wrote that?
    Mr. Lindsay. It was prepared by the team of people who 
prepared the Y2K and prepared our Y2K----
    Mr. Barr. Is there, like, a team leader?
    Mr. Lindsay [continuing]. Contractor. In addition to--I 
don't have a--I don't know who specifically were referred to it 
or did it, other than the Y2K coordinator, who was the person 
who I dealt with. There were other people, including contractor 
people. There were Government people.
    Mr. Barr. Certainly contractor people----
    Mr. Lindsay. And they would prepare----
    Mr. Barr [continuing]. Didn't determine that this matter 
was not important. I would hope that the White House wouldn't--
--
    Mr. Lindsay. I could not--I cannot answer the question 
more----
    Mr. Barr [continuing]. Give that out to contractors.
    Mr. Lindsay [continuing]. Fully than I have already 
answered, sir.
    Mr. Barr. How about that specific question?
    Mr. Lindsay. Which specific question?
    Mr. Barr. Did contract people determine that this matter 
was not important enough to followup on?
    Mr. Lindsay. No, sir.
    Mr. Barr. OK. So you can at least answer that.
    Mr. Chairman, I have never heard anything like this. Maybe 
you have, but I haven't.
    Mr. Burton. All I can say is I'm tired and we're adjourned.
    [Whereupon, at 7:43 p.m., the committee was adjourned.]


 MISSING WHITE HOUSE E-MAILS: MISMANAGEMENT OF SUBPOENAED RECORDS--DAY 
                                  TWO

                              ----------                              


                        THURSDAY, MARCH 30, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 11:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Shays, Horn, Mica, Souder, 
Scarborough, LaTourette, Barr, Miller, Hutchinson, Walden, 
Waxman, Lantos, Norton, Cummings, Kucinich, and Davis.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; 
Pablo E. Carrillo and M. Scott Billingsley, counsels; Jason 
Foster and Kimberly A. Reed, investigative counsel; Kristi 
Remington, senior counsel; Robert Briggs, deputy chief clerk; 
Robin Butler, office manager; Michael Canty, staff assistant; 
Leneal Scott, computer systems manager; Lisa Smith Arafune, 
chief clerk; Maria Tamburri, assistant to chief counsel; 
Corinne Zaccagnini, systems administrator; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Kenneth Ballen, minority chief investigative counsel; Kristin 
Amerling, minority deputy chief counsel; Jon Bouker and Paul 
Weinberger, minority counsels; Ellen Rayner, minority chief 
clerk; Earley Green, minority assistant clerk; Andrew Su, 
minority research assistant; and Chris Traci, minority staff 
assistant.
    Mr. Burton. The committee will come to order.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record and 
without objection so ordered.
    I also ask unanimous consent that all articles, exhibits, 
extraneous or tabular material referred to be included in the 
record and without objection so ordered.
    And since this is a continuation of last week's hearing we 
will follow the same rule, starting with a half hour of 
questions on each side and then going to the 5-minute rule.
    As I said, we are going to continue the hearing we began 
last Thursday into the White House e-mail problem. Today, we 
will hear from White House Counsel Beth Nolan. And, welcome, we 
appreciate your patience. Because last week we anticipated 
having you. Then we found out additional information about the 
e-mails. We thought it would be better to wait until this week 
because of the additional information we were looking into. So 
we appreciate your bearing with us.
    We will also hear from Assistant Attorney General Robert 
Raben. Is that pronounced correctly?
    Mr. Raben. Raben.
    Mr. Burton. Mr. Raben.
    I would like to briefly review what we learned last week.
    First, we heard from a panel of Northrop Grumman employees. 
They operate the White House e-mail system. Two of them 
discovered the problem. Two and a half years worth of incoming 
e-mails weren't searched to comply with subpoenas from a number 
of independent counsels, our committee and others.
    They were called in to a meeting with two White House 
officials. Their testimony about that meeting was pretty vivid.
    They all remembered that they were ordered to keep the e-
mail problem secret.
    They all remembered being ordered not to tell their bosses 
about it.
    Several remembered being ordered not to tell their spouses 
about it.
    One remembered being told there would be a jail cell with 
his name on it if he told anyone. Three people remembered the 
jail cell comment.
    One woman felt threatened enough that she risked being 
fired from her job rather than tell her boss about it. She told 
her boss, 11I would rather be insubordinate than go to jail.''
    We then heard from the two White House officials who 
conducted the meeting--Laura Crabtree, now Laura Callahan, who 
was in the room; Mark Lindsay was on a speaker telephone. Miss 
Callahan testified that she never threatened anyone. She said 
she never told anyone they would go to jail.
    Mark Lindsay couldn't remember the phone call or the 
meeting at all. He couldn't remember a followup conversation he 
held with a Northrop Grumman supervisor who was angry about the 
meeting. However, he was absolutely sure that he didn't 
threaten or intimidate anyone.
    I don't understand how you can be so sure of what you said 
in a conversation that you can't remember, but that is his 
testimony.
    So we have two very different accounts of the same meeting. 
How do we reconcile that? The only thing we can do is look into 
who has the motivation to tell the truth and who has the 
motivation not to.
    It is clear that the Northrop Grumman employees were in an 
uncomfortable situation. Northrop Grumman has a contract with 
the White House. They could lose that contract. The contractors 
have to work with White House officials every day. If anything, 
they had an incentive to soft pedal what happened, not to rock 
the boat. They didn't do that.
    On the other hand, Mr. Lindsay and Mrs. Callahan are 
accused of doing something that is really wrong. They are 
accused trying to intimidate people who work for them. They are 
accused of telling people to hide things from their 
supervisors. The morning of our hearing, the Justice Department 
announced that they were going to open a criminal 
investigation. Mr. Lindsay and Mrs. Callahan are potential 
targets of that investigation. They had every reason, if they 
wanted to, to give misleading testimony or to engage in 
selective memory loss, which seems to be an epidemic at the 
White House.
    Given the fact that the Northrop Grumman contractors have 
no incentive to make allegations against the people they work 
for and every incentive not to make those allegations, I 
believe greater weight has to be given to their testimony. I 
have to come to the conclusion that their version of events is 
much closer to the truth.
    That is where we left matters last week.
    Today, we focus on another facet of this problem. In many, 
many respects, it is an even more important facet. That is, 
when did the White House counsel's office find out about this 
mess and what did they do about it?
    Here is why that is important. Northrop Grumman isn't 
responsible for complying with subpoenas to the White House. 
Laura Callahan and Mark Lindsay are not responsible for 
complying with subpoenas. The White House counsel is 
responsible for complying with the subpoenas. When the 
counsel's office finds out about a problem like this, they have 
an obligation. They either have to go get the information that 
wasn't searched and turn it over. Or, if they can't, they have 
an obligation to tell us and others who have subpoenaed 
information like the independent counsel that there is a 
problem.
    The White House did not do either.
    As I mentioned last week, the White House has a track 
record on subpoena compliance that is not very good:
    We fought with the White House for 4 months in 1997 for 
documents in the illegal fundraising investigation. We had to 
threaten to hold the White House counsel, Mr. Ruff, in contempt 
to get the documents. White House lawyers ignored their 
responsibility to the Congress and to the American people.
    Then in October 1997, months after they told us that we had 
all of the records, the White House found hundreds of 
videotapes of the President and the Vice President at 
fundraisers. He claimed that it was an honest mistake.
    In the White House data base investigation, they withheld a 
staffer's handwritten notes from the committee for more than a 
year. Those notes indicated that the President had expressed an 
interest in the White House data base being compatible with a 
DNC data base.
    These are just a few examples of the problems that we have 
had to deal with. The track record is pretty clear, complying 
with subpoenas is something this White House does as a matter 
of last resort.
    The illegal fundraising investigation is just one area 
where we have been affected by this problem.
    We have been conducting an investigation into the Waco 
standoff. We subpoenaed documents from the White House. We were 
never told that potentially hundreds of thousands of incoming 
e-mails were not searched for information on Waco.
    We conducted an investigation into the President's decision 
to grant clemency to 16 Puerto Rican terrorists. We issued two 
subpoenas to the White House for documents. I want to read you 
a paragraph from the response that we received from the White 
House, ``we have been in the process of searching archived e-
mails for materials responsive to the committee's subpoena. 
Enclosed please find the responsive documents.''
    That was last October. The White House counsel's office had 
known about the e-mail problem for more than a year when we got 
that memo, and they didn't tell us.
    Why wasn't this committee ever informed that 2\1/2\ years 
of incoming e-mails were never searched? Was the Justice 
Department informed? Were the various independent counsels 
informed? Those are questions that we want to address at 
today's hearing.
    We know that high-level White House officials were informed 
about the problem almost immediately.
    On June 19, 1998, the deputy chief of staff, John Podesta, 
and the White House counsel, Charles Ruff, got a memo. It 
explained the problem in detail.
    The same day, June 19th, Mark Lindsay apparently met with 
Mr. Ruff and Cheryl Mills, the President's top two lawyers, to 
explain the problem.
    Just 1 day before that, one of the Northrop Grumman 
contractors prepared an estimate, 246,000 of the more than 1.3 
million e-mails that were on the server had not been archived. 
That is nearly one in five.
    I have had a chance to review Ms. Nolan's testimony. She 
states that Mr. Ruff was notified of the problem but that he 
never understood the full extent of the problem.
    The President's counsel never understood the full extent of 
the problem? I seriously doubt that explanation. This issue 
isn't very complicated. There is a huge body of information 
that, to this date, has never been reviewed. If documents are 
withheld once, we can try to understand. If it occurs twice, 
you have justifiable doubts. But when it happens over and over 
again, and not just here but with the independent counsels and 
Senator Thompson, you start to get a little skeptical.
    In addition, the selective memory loss that almost every 
witness has when they come before this committee from the White 
House also causes doubts.
    Mr. Ruff had no intention of turning documents over to us 
in 1997 until we forced him to by starting to move a contempt 
citation.
    Mr. Ruff and his staff told us that they had no idea that 
there were hundreds of videotapes of the President at 
fundraisers--even though his staff had drafted memos on the 
subject. They didn't know about it, but they had already 
drafted memos on the subject.
    Now we are being told although that Mr. Ruff knew about the 
e-mail problem he did not fully understand it. With all those 
subpoenas coming in for all this information, all this evidence 
to the White House counsel and he didn't understand it? It 
would be easier to believe that if the White House had a better 
track record.
    Ms. Nolan didn't become White House counsel until August 
1999. In her statement, she says that she wasn't informed until 
January. She lays out the timeline of when she informed various 
agencies conducting investigations. I want to tell you it 
bothers me about this sequence of events.
    On March 7th, my staff interviewed the Northrop- Grumman 
contractors.
    On March 8th, I wrote to Ms. Nolan to ask her why we had 
never been informed of this problem. I also wrote to Attorney 
General Reno to ask her why the Justice Department had not 
looked into it.
    On March 10th, 2 days later, the Justice Department called 
the White House to ask them what was going on with the e-mails.
    On March 15th, the White House counsel's office provided an 
explanation to the independent counsel's office.
    On March 20th, the White House gave the Justice Department 
a written explanation.
    The White House first discovered this problem in June 1998. 
The Justice Department has known about it for some time. They 
have been representing the White House in the Filegate lawsuit. 
It was on the front page of the Washington Times in February. 
Yet nobody seems to do anything around this town until our 
committee starts interviewing people and writing letters.
    That is just wrong. I shouldn't have to embarrass people to 
get them to do their jobs.
    This is almost the same thing that happened with the 
Justice Department's interviews of the President and the Vice 
President. We had to force the Justice Department to turn those 
interviews over to us. If we had not done that, nobody would 
have known that they never asked the President or the Vice 
President one single question about their foreign money 
contacts.
    Two years ago, FBI Director Louis Freeh and prosecutor 
Charles LaBella tried to get the Attorney General to appoint an 
independent counsel for the illegal fundraising investigation. 
They both wrote long memos to Janet Reno. Those memos 
practically predict this e-mail mess that we now have.
    Director Freeh and Mr. LaBella both understood that the 
Attorney General had too many conflicts to investigate her boss 
and other top aides and people at the White House. They both 
understood that the Justice Department would not be aggressive 
in pursuing evidence from the White House. And that is exactly 
what has come to pass.
    One of the most amazing things to me is that the Justice 
Department is on both sides--both sides of this e-mail issue. 
The Civil Division is representing the White House in the 
Filegate lawsuit. They are working with the White House to 
delay production of the e-mails. The Campaign Finance Task 
Force, which has always been a paper tiger, is now 
investigating whether obstruction of justice has occurred.
    It is pretty likely that the Justice Department will have 
to investigate its own conduct in covering up these e-mails.
    Today, I sent a criminal referral to the Justice Department 
about possible perjury committed by Daniel Barry, a White House 
staffer who testified before the committee last week. In July 
1999, Mr. Barry filed an affidavit, sworn affidavit in the 
Filegate civil suit. In that affidavit, he stated that the 
White House e-mails were archived in the ARMS system. He did 
not say anything about the Mail2 problem, even though he had 
known about it for over a year. That is perjury.
    The worst part of it is that Mr. Barry's affidavit was 
prepared by lawyers from the Justice Department and the White 
House. They were representing him at the time. They may have 
known that the affidavit was false and allowed Mr. Barry to 
sign it and submit it to the court. That conduct should be 
investigated as well so we can find out whether there was a 
criminal conspiracy to provide false testimony to a Federal 
court and cover up this problem.
    You know, on a personal note, it makes me sick to think how 
Mr. Barry was used by the White House and the Justice 
Department. I don't think he is a bad person, but now he is in 
a lot of trouble. I wonder if anyone even cares in this White 
House or the Justice Department.
    The problem is that the Justice Department cannot be 
expected to investigate these charges. They would be 
investigating potential criminal conduct by their own lawyers. 
It is just one more example of why the Attorney General needs 
to appoint a special counsel who is truly independent.
    It is an intolerable situation. The Attorney General should 
have listened to Mr. Freeh and Mr. LaBella 2 years ago. She 
should have appointed an independent counsel. If she had, maybe 
the President would have been asked at least a few questions 
about the finance scandal, the campaign finance scandal, about 
James Riady, John Huang or Charlie Trie. Maybe the Vice 
President would have been at least asked a few questions about 
the Hsi Lai Temple.
    Well, the independent counsel law has now expired, and the 
only alternative is for the Attorney General to appoint a 
special counsel. However, the least she can do is appoint this 
special counsel to get to the bottom of the e-mail mess. I have 
called on her to do so.
    I ask unanimous consent to place my correspondence with the 
Attorney General about this matter into the record at the 
conclusion of my statement.
    The Justice Department can't be on both sides of this 
issue. It is fairly clear that the Department is not going to 
be aggressive in pursuing these e-mails from the White House. 
The only answer is to appoint a special counsel to do the job. 
In the next few days, I am going to introduce a resolution on 
the House floor calling for a special counsel. I invite all of 
my colleagues to be cosponsors.
    Mr. Raben is here from the Justice Department. We are going 
to be asking Mr. Raben some questions about when the Justice 
Department first learned about the missing e-mails. We are 
going to ask what has been done about it. We are going to ask 
for an explanation of how the Justice Department can possibly 
be on both sides of this conflict.
    Mr. Raben, I hope you will be candid with us and give us as 
much information as possible. I want to thank you and Ms. Nolan 
both for being here.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.059
    
    [GRAPHIC] [TIFF OMITTED] T9621.060
    
    [GRAPHIC] [TIFF OMITTED] T9621.061
    
    [GRAPHIC] [TIFF OMITTED] T9621.062
    
    [GRAPHIC] [TIFF OMITTED] T9621.063
    
    [GRAPHIC] [TIFF OMITTED] T9621.064
    
    [GRAPHIC] [TIFF OMITTED] T9621.065
    
    [GRAPHIC] [TIFF OMITTED] T9621.066
    
    [GRAPHIC] [TIFF OMITTED] T9621.067
    
    [GRAPHIC] [TIFF OMITTED] T9621.068
    
    [GRAPHIC] [TIFF OMITTED] T9621.069
    
    [GRAPHIC] [TIFF OMITTED] T9621.070
    
    [GRAPHIC] [TIFF OMITTED] T9621.071
    
    [GRAPHIC] [TIFF OMITTED] T9621.072
    
    [GRAPHIC] [TIFF OMITTED] T9621.073
    
    [GRAPHIC] [TIFF OMITTED] T9621.074
    
    [GRAPHIC] [TIFF OMITTED] T9621.075
    
    [GRAPHIC] [TIFF OMITTED] T9621.076
    
    [GRAPHIC] [TIFF OMITTED] T9621.077
    
    [GRAPHIC] [TIFF OMITTED] T9621.078
    
    [GRAPHIC] [TIFF OMITTED] T9621.079
    
    [GRAPHIC] [TIFF OMITTED] T9621.080
    
    [GRAPHIC] [TIFF OMITTED] T9621.081
    
    [GRAPHIC] [TIFF OMITTED] T9621.082
    
    [GRAPHIC] [TIFF OMITTED] T9621.083
    
    [GRAPHIC] [TIFF OMITTED] T9621.084
    
    [GRAPHIC] [TIFF OMITTED] T9621.085
    
    [GRAPHIC] [TIFF OMITTED] T9621.086
    
    [GRAPHIC] [TIFF OMITTED] T9621.087
    
    [GRAPHIC] [TIFF OMITTED] T9621.088
    
    Mr. Burton. I now recognize Mr. Waxman for his opening 
statement.
    Mr. Waxman. Mr. Chairman, I want to welcome Beth Nolan and 
Robert Raben to today's hearing, and I am looking forward to 
hearing their testimony.
    Last week's hearing was instructive. We learned that no one 
in the White House had any role in developing the message 
retrieval system. We also learned that no one in the White 
House asked that any e-mail messages be excluded from the 
system. And that before June 1998, no senior officials in the 
White House even knew that some e-mail messages were being 
excluded from the retrieval system.
    By June 1998, however, senior White House officials were 
informed that a computer glitch existed. It is important for 
Ms. Nolan to provide information on how senior officials 
reacted to this information. Did anyone at the White House try 
to keep any information from investigators or was there simply 
a misunderstanding between computer technicians and White House 
lawyers? Deliberate concealment would seem to be a case of 
obstruction of justice. Honest confusion, on the other hand, 
would be regrettable but understandable. Until we know the 
facts, we should be careful about making unsubstantiated 
allegations.
    There is, unfortunately, already a need to clarify several 
important points. During last week's hearing, a significant 
amount of time was focused on the question of whether Northrop 
Grumman employees were threatened with jail. Mrs. Callahan 
denied ever making the threat.
    But let's put that denial aside for the moment. Let's just 
look at the testimony of the five employees.
    Mr. Haas, who seemed credible to me, clearly believed he 
had been threatened with jail by Mrs. Callahan. He told us 
that, in a meeting with Mrs. Callahan and his four coworkers, 
he flippantly asked what would happen if he discussed the 
computer glitch with others. He remembers Mrs. Callahan warning 
him that, ``there would be a jail cell with his name on it.''
    Betty Lambuth agreed with Mr. Haas's recollection and added 
that in a second meeting she had with Mark Lindsay and Paulette 
Cichon a second threat by Mr. Lindsay was made.
    Sandra Golas initially testified that, while she remembered 
the word jail being used in the meeting, she couldn't remember 
who said it. But she later said she did feel threatened and 
thought jail was a real possibility.
    Yiman Salim and John Spriggs, both of whom were in the 
meeting and both of whom seemed credible, have no memory of 
jail ever being discussed. Miss Salim testified that she never 
felt threatened, and both said they believe Mrs. Callahan acted 
reasonably under the circumstances. As I said, I am putting 
aside Mrs. Callahan's denial regarding the threat.
    In reviewing last week's testimony of just the five 
Northrop Grumman employees, I am not comfortable in reaching 
any conclusion on whether a threat was made. There is a very 
real conflict between credible witnesses--Mr. Haas, Ms. Salim, 
Mr. Spriggs--that I think it makes it irresponsible to issue 
final judgments about what happened.
    Miss Lambuth also testified that in a second meeting with 
Mark Lindsay and Paulette Cichon Mr. Lindsay told her that if 
she discussed the e-mail problem with anyone, she would lose 
her job and be arrested. But I have a signed statement from Ms. 
Cichon who was in that meeting, and Ms. Cichon says that never 
happened.
    In fact, Ms. Cichon says that, ``at no time during this 
meeting did I perceive Mark threaten Betty or myself. At no 
time was a threat of jail mentioned or any other threat. If any 
threat were made, I would have certainly remembered it, and I 
would have taken the appropriate action in response.''
    I should point out that Ms. Cichon has spent almost all of 
her career in the private sector and no longer works in the 
White House.
    Well, also at last week's hearing Miss Lambuth testified 
that the missing e-mails contained information relating to the 
FBI files, Monica Lewinsky and the campaign finance 
investigation. How did she know that? Well, she said she was 
told this by Bob Haas. But Mr. Haas, who was at the table, was 
asked whether he said that, and he said he didn't. And I want 
to show a tape about what they said.
    [Videotape played.]
    Mr. Waxman. Well, I am not finished, Mr. Chairman. I do 
want to complete my statement.
    I wanted to show that videotape because we had a clear 
contradiction in testimony. In fact, we had a clear 
contradiction in testimony with Miss Lambuth on three separate 
issues where she testified one way and others testified that 
she was wrong.
    She said that she knew the content of these e-mails, and 
she said she knew them because of Mr. Haas. Mr. Haas said that 
he never told her.
    She said that Mr. Hawkins had one version of her employment 
status. Mr. Hawkins denied that.
    And we also have this contradiction now today with Miss 
Cichon making a statement about how she was wrong about saying 
there were second threats.
    The point I am making is we have a conflict in testimony. 
And I was struck by the fact the chairman has asked for a 
criminal indictment against Mr. Barry for his statements which 
didn't go as far as one would have wanted him to go in 
describing the 1994 reconstruction status of the ARMS system.
    But I looked at his affidavit, and I think if you look at 
it in context, it seems to me to say that there ought to be a 
referral of criminal charges for that affidavit is not a level 
way to treat witnesses who may have said things that may have 
been false. Statements are often false. Whether they are 
intentionally false is another issue.
    And I would be shocked if the chairman would say that Miss 
Lambuth ought to have a criminal prosecution against her false 
statements made to us. If we are going to accuse people of 
crimes, do it for everybody who says something false, not just 
those who don't say things that fit in with the theory that we 
want to advance.
    Yesterday, there was a front-page news story that claimed 
that the White House withheld the Monica Lewinsky e-mails that 
were discovered in 1998. I believe that story is likely wrong. 
When Mr. Haas discovered the missing e-mails in 1998, they were 
compared to the e-mails that had already been given to the 
independent counsel. It is my understanding that the comparison 
indicated that what was discovered had previously been provided 
to Mr. Starr. Well, good investigators find the facts first and 
reach conclusions later. That should be our standard, and it 
should be our objective today.
    Mr. Chairman, I want to ask unanimous consent to put the 
statement by Paulette Cichon in the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.089
    
    [GRAPHIC] [TIFF OMITTED] T9621.090
    
    [GRAPHIC] [TIFF OMITTED] T9621.091
    
    [GRAPHIC] [TIFF OMITTED] T9621.092
    
    Mr. Burton. Without objection, so ordered.
    Does that conclude your opening remarks?
    Mr. Waxman. That concludes my opening comments.
    Mr. Burton. We will now welcome our panel to the witness 
table: Beth Nolan and Robert Raben. I got that right.
    Please stand and raise your right hands, please.
    [Witnesses sworn.]
    Mr. Burton. Be seated. Thank you.
    Ms. Nolan, you're now recognized, if you so desire, to make 
an opening statement.

STATEMENTS OF BETH NOLAN, COUNSEL TO THE PRESIDENT; AND ROBERT 
   RABEN, ASSISTANT ATTORNEY GENERAL FOR LEGISLATIVE AFFAIRS

    Ms. Nolan. Thank you, Mr. Chairman.
    Mr. Chairman, Congressman Waxman, members of the committee, 
my name is Beth Nolan. I am counsel to the President of the 
United States. I have held this position since September 1999. 
I appear today to address the e-mail system used by the 
Executive Office of the President.
    As you know, last Thursday, I submitted a written statement 
in anticipation of my scheduled appearance for that day. I ask 
that it be made part of the record.
    As I explained in that statement, my staff and I have 
devoted a large part of the past several weeks trying to 
understand these issues, in gathering information to help us 
understand the matter and how to address it. We have been 
learning additional information about these matters almost 
every day.
    Although the new information assists us in better 
understanding the problem, it can alter previous assumptions, 
determinations and conclusions. Therefore, although we have 
learned more about this matter over the past several weeks, we 
are still reviewing issues, exploring certain remedies, and 
probing some outstanding questions.
    For these reasons, I want to emphasize that my testimony 
today is based on my current understanding of the information 
that we have gathered in the course of our initial review. As 
our review progresses to completion, we will likely uncover 
information that alters or amends these preliminary 
conclusions. Indeed, in 1 week I have learned additional 
information since I submitted my statement, and I want to 
update that statement as follows.
    First, the Office of Administration has informed me that it 
has contracted with a private entity to provide the technical 
expertise and resources necessary to restore the back-up tapes 
to an easily searchable form. The contractor's preliminary 
estimate--and I want to emphasize preliminary because these 
estimates are subject to amendment as the process proceeds and 
the contractor learns new information--the preliminary estimate 
suggests that the requisite equipment and other resources for 
the project will be in place, tested, and ready to go in 
approximately 70 days. We anticipate conducting the restoration 
in batches so that we can have a rolling production. The 
contractor estimates that this part will be completed in about 
170 days from the beginning of the project. In other words, if 
what--if these initial estimates hold up, we could have the 
back-up tapes searched within 6 months.
    Finally, the contract also calls for independent validation 
and verification, which means that a completely different 
private contractor will come in and certify that this project 
is proceeding in a timely and cost-effective manner.
    Second, I would like to address media reports yesterday of 
a so-called zip disk and the suggestion that the disk contains 
previously undisclosed e-mail messages. Those reports were 
confusing and misleading.
    As Northrop Grumman employee Robert Haas told the committee 
last week, in June 1998, he conducted a search of e-mail 
accounts for Lewinsky-related materials. Mr. Haas gave the 
results of that search to his superiors who ultimately turned 
them over to the White House counsel's office which determined 
that these e-mails were duplicative of ones that had already 
been produced. At the same time, Mr. Haas saved the results of 
his search on a file of the F drive of his computer. The zip 
disk, which, as I understand it, is a computer disk and able to 
hold more information than a regular diskette, referenced in 
yesterday's press is simply a copy of the file maintained on 
Mr. Haas's computer. The data on the disk was neither newly 
discovered nor previously undisclosed.
    Third, last week I stated that I instructed Security 
Officer Charles Easley to conduct a review of the allegations 
of threats. In light of the Department of Justice's 
announcement that the Campaign Finance Task Force will be 
conducting a criminal investigation of this matter, I have 
instructed Security Officer Easley to postpone any review of 
this matter until further notice so that we can ensure that we 
do not interfere with that investigation.
    Fourth, I stated last week that there were approximately 
550 back-up tapes from the Office of the Vice President. 
Security Officer Easley has indexed the OVP back-up tapes from 
IS&T, and I am informed now that the total number of OVP tapes 
is approximately 625.
    Fifth, I stated last week that 28 other accounts within the 
Office of the Vice President have not been managed by ARMS, the 
Automated Records Management System. We now believe that there 
were only 24 such accounts, all but three of which were created 
before 1997.
    Since last week, IS&T has ensured that all 24 accounts, 
including the Vice President's, are now being ARMS managed.
    Finally, IS&T has not yet been able to correct the problem 
that incoming e-mail to the OVP is not being captured by ARMS. 
So I want to make clear that the accounts are all being ARMS 
managed for e-mail being created in the Office of the Vice 
President, but incoming e-mail is not being ARMS managed. They 
are working to make that happen as quickly as possible. In the 
meantime, the counsel to the Vice President has instructed OVP 
staff to retain incoming e-mails other than purely personal e-
mail on their servers, their individual servers.
    I now want to emphasize the following points.I21The 
computer glitches that occurred with the Mail2 and letter D 
problems are the result of unintentional human error associated 
with an extraordinary electronic records archiving system. No 
one attempted to hide responsive information from this 
committee or from any other investigative body. The EOP has 
produced or identified to this committee all responsive 
information that it located, including over 7,700 pages of e-
mail records in the campaign finance investigation alone.
    Until recently, the counsel's office was not aware of the 
scope and nature of these errors. In June 1998, the counsel's 
office thought the error was isolated to one search and had 
subsequently been fixed. That is, the counsel's office knew 
about a possible problem but not the problems that we now are 
talking about and understand. The counsel's office had no 
reason to believe that this error had any effect on its 
searches. Had it thought otherwise, it would have addressed the 
problem.
    The back-up tapes of e-mail records are secure. As I 
mentioned earlier, we have already begun the process that will 
enable us to search these records, and we will do so as quickly 
as possible.
    Mr. Chairman thank you for the opportunity to address this 
committee.
    Mr. Burton. Thank you, Ms. Nolan.
    [The prepared statement of Ms. Nolan follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.093
    
    [GRAPHIC] [TIFF OMITTED] T9621.094
    
    [GRAPHIC] [TIFF OMITTED] T9621.095
    
    [GRAPHIC] [TIFF OMITTED] T9621.096
    
    [GRAPHIC] [TIFF OMITTED] T9621.097
    
    [GRAPHIC] [TIFF OMITTED] T9621.098
    
    [GRAPHIC] [TIFF OMITTED] T9621.099
    
    [GRAPHIC] [TIFF OMITTED] T9621.100
    
    [GRAPHIC] [TIFF OMITTED] T9621.101
    
    [GRAPHIC] [TIFF OMITTED] T9621.102
    
    [GRAPHIC] [TIFF OMITTED] T9621.103
    
    Mr. Burton. Mr. Raben.
    Mr. Raben. I don't have an opening statement, sir.
    Mr. Burton. No opening statement. We will get right to the 
questions.
    First of all, let me make a real quick statement.
    I still find it very difficult to understand or believe 
that after the Northrop Grumman employees brought to the 
attention of their supervisors and the people at the White 
House that there was this glitch that there wasn't a very 
thorough search of the incoming e-mails. You indicated that 
they thought they had covered it. But the fact is there were 
subpoenas from a number of independent counsels, our committee, 
and everyone at the White House knew about the campaign finance 
investigation, the Lewinsky matter and the other issues; and it 
seems to me that there would have been every effort made to 
make absolutely sure that a thorough--very thorough search was 
done. And if it was brought to the attention of people at the 
White House by the Northrop Grumman people that this glitch did 
occur, then it seems to me that the extent of the search into 
the missing e-mails would have been much more thorough than it 
was.
    Now, let me just ask you a few questions.
    First of all, 2 days ago, when he was asked about my call 
for a special counsel to investigate the e-mail matter, White 
House spokesman Joe Lockhart said,

    I think the Justice Department will have to make that 
decision. I will only remind people that, you know, Dan Burton 
asking for an outside counsel or a special counsel is like the 
sun coming up in the morning. It happens, you know, once a week 
or once a month. And you all will have to remember all of the 
pressing issues that he called for outside counsels on and what 
came with of them.

    Mr. Lockhart seems to be indicating that the President does 
not think that this is a very serious matter. Is that the 
President's position?
    Ms. Nolan. Mr. Chairman, the President has asked me to make 
sure that we can get these searched as quickly as possible. And 
that is what we are doing. He takes that very seriously.
    Mr. Burton. Let me ask you a question. Since Mr. Lockhart 
made that statement, do you know how many times that I have 
called for an independent counsel? He said it is kind of like 
the sun coming up every morning. Do you have any idea?
    Ms. Nolan. Mr. Chairman, I did not make that statement. I 
do not have any idea.
    Mr. Burton. Just so Mr. Lockhart and the American people 
have the facts, I have only called for an independent counsel 
twice, not every morning when the sun comes up. And one has not 
been appointed for campaign financing and the e-mail problem. 
And I am in pretty good company because the Director of the FBI 
and Chuck LaBella also thought there should be independent 
counsels for the campaign finance investigation.
    I would like to call up exhibit--well I would like to say 
one more thing. He also has said that we issued 700 subpoenas 
to the White House, and that is only off by 670. We have issued 
30 subpoenas to the White House, not 700.
    Would you put up exhibit No. 56? Is that on the form there? 
This is an affidavit. Do you have a copy of that, Ms. Nolan?
    Ms. Nolan. What is it, sir?
    Mr. Burton. It is an affidavit that was submitted in court 
in July 1999 by Daniel Barry, a White House employee.
    Ms. Nolan. I do have a copy.
    Mr. Burton. Did lawyers from the White House counsel's 
office assist in the preparation of that affidavit?
    Ms. Nolan. Mr. Chairman, I know that lawyers from the White 
House counsel's office would have been working with the lawyers 
of the Department of Justice on this matter. I don't know if 
they assisted in the preparation of this particular affidavit.
    Mr. Burton. Well, we have been informed that they did. And 
if could you check on that, I would appreciate it.
    Ms. Nolan. Certainly.
    Mr. Burton. You don't have any idea which lawyers from the 
White House were involved then.
    Ms. Nolan. Mr. Chairman, I know that a couple of lawyers 
have worked on this matter before. As I said, I don't know the 
specifics of this affidavit.
    Mr. Burton. Could you give me the names of the ones that 
you think----
    Ms. Nolan. Yes. I believe Sally Paxton worked on this 
matter at some point and Michelle Peterson.
    Mr. Burton. Michelle Peterson was one that we had 
information that had been involved.
    Mr. Raben, did lawyers from the Justice Department assist 
in the preparation of that affidavit?
    Mr. Raben. I don't know, sir.
    Mr. Burton. You don't know. Could you find out for us?
    Mr. Raben. Absolutely.
    Mr. Burton. We were told that Justice Department Civil 
Division lawyers were involved, and we have been informed that 
James Gilligan was the main DOJ lawyer, and we would like for 
to you double-check that.
    Mr. Raben. I will find out, sir.
    Mr. Burton. Ms. Nolan, at the time that this affidavit was 
prepared in July 1999, the counsel's office knew about the e-
mail problem, didn't they?
    Ms. Nolan. As I just testified, no. I do not believe that. 
At least when you talk about the e-mail problem--if you mean 
the problem that we all know about and are talking about today, 
no.
    Mr. Burton. Well, they knew that the people from Northrop 
Grumman had informed Ms. Lindsay and Ms. Crabtree and that had 
been kicked up to Mr. Podesta. Did you not know that?
    Ms. Nolan. It is my understanding, Mr. Burton--and, of 
course, I wasn't there, so this is my understanding--that 
Charles Ruff, then counsel to the President, knew or had been 
informed that there had been some kind of problem with an e-
mail search, that a subsequent search was conducted in order to 
see if the e-mails had been missed, that that production was 
provided to the counsel's office which compared it against e-
mails it had already produced and determined that there had 
not, in fact, been any missing e-mails.
    Mr. Burton. Well, but the point is, they did know there was 
an e-mail problem.
    Ms. Nolan. They knew that there had been a glitch which 
apparently had been fixed. They did not know that there was any 
ongoing or larger e-mail problem, as far as I understand, sir.
    Mr. Burton. Mr. Raben, at this time, in July 1999, the 
Justice Department Civil Division lawyers knew there was an e-
mail problem, didn't they?
    Mr. Raben. I don't know, sir. I don't know precisely when 
the Department or Civil Division attorneys learned about it.
    Mr. Burton. Were you briefed about any of the questions 
that we might be asking or any of the information we might be 
seeking before you came up here? Because the first few 
questions we have asked you don't have any idea what we are 
talking--or don't have any answers.
    Mr. Raben. I read your--I read the statement that you 
delivered last week where you indicated what you would be 
asking me, and I read a news account, and I saw what you would 
be asking me.
    Mr. Burton. This was one of the questions that--I mean, it 
was pretty apparent that we would be asking you if the Justice 
Department knew about the e-mail problem in July 1999. And you 
say you don't know?
    Mr. Raben. July 1999?
    Mr. Burton. Yes.
    Mr. Raben. Yes, I said I didn't know. You asked about July 
1998. But I don't have the facts, and I know that that is the 
subject of an inquiry right now at the Department of Justice, 
about exactly what we knew when.
    Mr. Burton. I am disappointed that, you know, that the 
Justice Department, since this is a very serious matter, didn't 
work with you and prepare you more for the testimony that 
you're giving today. It is inconceivable that you would come up 
here when you're asking these questions that are extremely 
important and not have any of the answers.
    Ms. Nolan, paragraph 4 of the affidavit states, and you 
have that in front of you, since July 14, 1994, e-mail within 
the EOP system administered by the Office of Administration has 
been archived into the EOP Automated Records Management System, 
the ARMS system. This statement is not true, is it? It is 
false.
    Ms. Nolan. Mr. Chairman, could you explain to me why you 
think it is false?
    Mr. Burton. Well, I think the question pretty much speaks 
for itself. I'll read it to you again. Since July 14th, 1994, 
e-mail within the EOP system administered by the Office of 
Administration has been archived in the EOP Automated Records 
Management System. Now, it hasn't been, has it?
    Ms. Nolan. Mr. Chairman----
    Mr. Burton. Has it been archived in that system?
    Ms. Nolan [continuing]. E-mail was archived. It turned out 
that some e-mail was not captured, but e-mail was archived, 
yes.
    Mr. Chairman, may I say something about this affidavit, 
please, if we are going to talk about it?
    Mr. Burton. Sure.
    Ms. Nolan. It is my understanding that this affidavit was 
filed to explain what would be done, what the time and cost 
would be involved for searching records regarding this case, 
which was with respect to the FBI files matter. The important 
or relevant information was how the system was set up, how long 
it would take and, as I understand it, they were particularly 
thinking about the reconstructed e-mail because the activity 
that had occurred with respect to the FBI files was in 1993 and 
1994. So, I just want to make that clear what this was about. 
This was not an affidavit saying--from Tony Barry saying we 
have produced all the e-mail or all e-mail is captured. It was 
describing the system for a potential e-mail search.
    Mr. Burton. You know, you can give that explanation. But 
that is not what the affidavit says, is it? I mean, you've got 
the affidavit in front of you. You know what it says. It 
doesn't say that.
    Mr. Barr. Mr. Chairman, could I indulge you just a moment? 
I want to make absolutely certain. Because, as the witness was 
offering this explanation for----
    Mr. Burton. I yield to the gentleman.
    Mr. Barr [continuing]. The false statements in the 
affidavit, citing a legal theory that is unfamiliar to me as an 
attorney and a former U.S. Attorney, that the context in which 
an affidavit is providing--is provided can override that it 
might be perjurious--I want to make sure we are talking about 
the same affidavit.
    We are talking, I believe, about the affidavit signed by 
Dave A. Barry on July 9, 1999, in which just above the date and 
his signature the statement appears, ``I declare under penalty 
of perjury that the foregoing is true and correct.'' Is the 
witness talking about another affidavit that has some sort of 
limiting language in it?
    Mr. Burton. No, she's talking about the same affidavit. 
That is the same affidavit, isn't it?
    Ms. Nolan. I asked if I could give you some context. I 
never said I was providing a legal theory. I asked if I could 
give you some context to explain the affidavit. That is what I 
just did.
    Mr. Burton. Yes, ma'am. We will get back to you--I'll get 
back to you with further questions.
    I'll yield to Mr. Shays.
    Mr. Shays. Good morning. I would like to make reference to 
your closing.
    You said, Ms. Nolan, in closing, I want to emphasize the 
following points: ``the computer glitch is the result of 
unintentional human error associated with an extraordinary 
electronic records archiving system.''
    Even if we agreed with that, you then said, ``No one 
attempted to hide responsive information from this committee or 
any other investigative body.''
    What gives you the capability to make that claim?
    Ms. Nolan. I have tried to make clear that I am saying, 
based on what I have learned and the people that my office has 
talked to, I have found no indication that the counsel's office 
was aware that there was an ongoing problem or that anyone 
sought to provide such--to hide any such information. And, in 
fact, I believe that several of the contractors said that last 
week as well.
    Mr. Shays. Bottom line is, before you were there these 
events took place, and then you make an assumption and tell the 
committee that no one attempted to hide responsive information 
as far as you know.
    Ms. Nolan. It is not an assumption. It is based on the 
information I have gathered. And, as I said, I am only able to 
report what I have gathered and what I have learned up to date.
    Mr. Shays. Would you put exhibits 3 and 4 up, please?
    I just want to ask what the second-to-last paragraph means, 
where it says, ``For all of the categories of e-mail, including 
ongoing Internet e-mail and e-mail between the EOP users, the 
system appears to have functioned as intended. Thus, e-mails in 
these categories''--and then the parenthesis--``other than 
those that were specifically identified by EOP centers as 
nonrecords.''
    What does that mean?
    Ms. Nolan. What part of it, sir? I am sorry.
    Mr. Shays. Just the parentheses. What are nonrecords?
    Ms. Nolan. When an EOP user sends an e-mail, he or she may 
indicate that it is a nonrecord e-mail. It is not a 
Presidential record or a Federal record. If I were to send an 
e-mail to my mother saying I'll see you next week, that is not 
a Presidential record. I can indicate it is a nonrecord.
    Mr. Shays. If you bring the letter down, just read up in 
the top, it is from Ginnie, I guess, Virginia Apuzzo wrote this 
memo. It was to John Podesta who was then deputy chief of 
staff. And it was informing--it was informing him of this 
problem. And would you just tell me who the signature--that is 
Ginnie. Who is Chuck? Is that Charles Ruff?
    Ms. Nolan. I believe so, sir.
    Mr. Shays. What was the response? Do I make the 
assumption--what was the response to the White House counsel's 
office once it was informed of the problem?
    Ms. Nolan. My understanding is that Mr. Ruff discussed the 
matter with Mr. Lindsay, that he understood that it was a 
problem with a particular e-mail search, that OA through IS&T 
ran a search which it turned out was a duplicate search of the 
server, produced those documents, turned out that if there had 
been a problem it was fixed. In any event, there were no 
documents that hadn't already been found and produced.
    Mr. Shays. Now we are talking about the Mail2 configuration 
issue. That is a 2 year and 3 month gap. I call it just a 
bottomless pit in which e-mails got relatively lost or couldn't 
identify. And then letter D configuration I shall use. What is 
GRS information technology operations and management records? 
What are you implying there? Was there a third problem?
    Ms. Nolan. What am I implying where, sir?
    Mr. Shays. We have a Mail2. We have a problem with letter 
D. Do we have another problem in addition?
    Ms. Nolan. Are you referring to the memo or----
    Mr. Shays. I am referring to this document right here that 
accompanied your presentation.
    Ms. Nolan. That is something that a briefing that the 
Office of Administration----
    Mr. Shays. Were there three problems or two?
    Ms. Nolan. I don't believe--that was a reference to how e-
mail records are going to be stored generally throughout 
government and archives.
    Mr. Shays. The Mail2 configuration is 2 years and 3 months, 
and the letter D configuration problem was 7 months. Do I make 
an assumption that we are talking about over 246,000 e-mails?
    Ms. Nolan. I don't know how many e-mails there are. We know 
what they are incoming e-mails from the--from outside the 
complex into the EOP.
    Mr. Shays. Is it at least 246,000?
    Ms. Nolan. I don't know, sir.
    Mr. Shays. Would you look at page 6 in your testimony? You 
provided us this document here.
    Ms. Nolan. I am sorry, what is that?
    Mr. Shays. Exhibit 62. OK. It was provided by Northrop 
Grumman, and the number--this is Northrop Grumman's document, 
and it is 246,000 e-mails.
    Let me just go on. I want to know if you or anyone else 
discussed this issue with Mr. Ruff and what did he say?
    [Exhibit 62 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.355
    
    [GRAPHIC] [TIFF OMITTED] T9621.356
    
    [GRAPHIC] [TIFF OMITTED] T9621.357
    
    [GRAPHIC] [TIFF OMITTED] T9621.358
    
    [GRAPHIC] [TIFF OMITTED] T9621.359
    
    [GRAPHIC] [TIFF OMITTED] T9621.360
    
    [GRAPHIC] [TIFF OMITTED] T9621.361
    
    [GRAPHIC] [TIFF OMITTED] T9621.362
    
    [GRAPHIC] [TIFF OMITTED] T9621.363
    
    [GRAPHIC] [TIFF OMITTED] T9621.364
    
    [GRAPHIC] [TIFF OMITTED] T9621.365
    
    [GRAPHIC] [TIFF OMITTED] T9621.366
    
    [GRAPHIC] [TIFF OMITTED] T9621.367
    
    [GRAPHIC] [TIFF OMITTED] T9621.368
    
    [GRAPHIC] [TIFF OMITTED] T9621.369
    
    [GRAPHIC] [TIFF OMITTED] T9621.370
    
    [GRAPHIC] [TIFF OMITTED] T9621.371
    
    [GRAPHIC] [TIFF OMITTED] T9621.372
    
    [GRAPHIC] [TIFF OMITTED] T9621.373
    
    [GRAPHIC] [TIFF OMITTED] T9621.374
    
    [GRAPHIC] [TIFF OMITTED] T9621.375
    
    [GRAPHIC] [TIFF OMITTED] T9621.376
    
    [GRAPHIC] [TIFF OMITTED] T9621.377
    
    [GRAPHIC] [TIFF OMITTED] T9621.378
    
    [GRAPHIC] [TIFF OMITTED] T9621.379
    
    [GRAPHIC] [TIFF OMITTED] T9621.380
    
    [GRAPHIC] [TIFF OMITTED] T9621.381
    
    [GRAPHIC] [TIFF OMITTED] T9621.382
    
    [GRAPHIC] [TIFF OMITTED] T9621.383
    
    [GRAPHIC] [TIFF OMITTED] T9621.384
    
    [GRAPHIC] [TIFF OMITTED] T9621.385
    
    [GRAPHIC] [TIFF OMITTED] T9621.386
    
    [GRAPHIC] [TIFF OMITTED] T9621.387
    
    [GRAPHIC] [TIFF OMITTED] T9621.388
    
    [GRAPHIC] [TIFF OMITTED] T9621.389
    
    [GRAPHIC] [TIFF OMITTED] T9621.390
    
    [GRAPHIC] [TIFF OMITTED] T9621.395
    
    [GRAPHIC] [TIFF OMITTED] T9621.391
    
    [GRAPHIC] [TIFF OMITTED] T9621.392
    
    [GRAPHIC] [TIFF OMITTED] T9621.393
    
    [GRAPHIC] [TIFF OMITTED] T9621.394
    
    [GRAPHIC] [TIFF OMITTED] T9621.396
    
    [GRAPHIC] [TIFF OMITTED] T9621.397
    
    [GRAPHIC] [TIFF OMITTED] T9621.398
    
    [GRAPHIC] [TIFF OMITTED] T9621.399
    
    [GRAPHIC] [TIFF OMITTED] T9621.400
    
    [GRAPHIC] [TIFF OMITTED] T9621.401
    
    [GRAPHIC] [TIFF OMITTED] T9621.402
    
    [GRAPHIC] [TIFF OMITTED] T9621.403
    
    [GRAPHIC] [TIFF OMITTED] T9621.404
    
    [GRAPHIC] [TIFF OMITTED] T9621.405
    
    [GRAPHIC] [TIFF OMITTED] T9621.406
    
    [GRAPHIC] [TIFF OMITTED] T9621.407
    
    [GRAPHIC] [TIFF OMITTED] T9621.408
    
    [GRAPHIC] [TIFF OMITTED] T9621.409
    
    [GRAPHIC] [TIFF OMITTED] T9621.410
    
    [GRAPHIC] [TIFF OMITTED] T9621.411
    
    [GRAPHIC] [TIFF OMITTED] T9621.412
    
    [GRAPHIC] [TIFF OMITTED] T9621.413
    
    [GRAPHIC] [TIFF OMITTED] T9621.414
    
    [GRAPHIC] [TIFF OMITTED] T9621.415
    
    [GRAPHIC] [TIFF OMITTED] T9621.416
    
    [GRAPHIC] [TIFF OMITTED] T9621.417
    
    [GRAPHIC] [TIFF OMITTED] T9621.418
    
    [GRAPHIC] [TIFF OMITTED] T9621.419
    
    [GRAPHIC] [TIFF OMITTED] T9621.420
    
    [GRAPHIC] [TIFF OMITTED] T9621.421
    
    [GRAPHIC] [TIFF OMITTED] T9621.422
    
    [GRAPHIC] [TIFF OMITTED] T9621.423
    
    [GRAPHIC] [TIFF OMITTED] T9621.424
    
    [GRAPHIC] [TIFF OMITTED] T9621.425
    
    [GRAPHIC] [TIFF OMITTED] T9621.426
    
    [GRAPHIC] [TIFF OMITTED] T9621.427
    
    [GRAPHIC] [TIFF OMITTED] T9621.428
    
    [GRAPHIC] [TIFF OMITTED] T9621.429
    
    Ms. Nolan. I did discuss it with Mr. Ruff. I also believe 
other attorneys in my office discussed it with him.
    Mr. Shays. And when did you do that?
    Ms. Nolan. Pardon?
    Mr. Shays. When?
    Ms. Nolan. Attorneys in my office discussed it with Mr. 
Ruff, I would guess, about a month ago. I discussed it with him 
last week or the week before.
    Mr. Shays. Since learning of the e-mail problem in the 
summer of 1998, has the White House informed the Justice 
Department of the problem?
    Ms. Nolan. As far as I am aware, the White House--the White 
House counsel's office informed the Justice Department when we 
provided information to the Justice Department Campaign Finance 
Task Force.
    Mr. Shays. And when was that?
    Ms. Nolan. In March of this year.
    Mr. Shays. Has the White House informed any of the 
independent counsels of the problem.
    Ms. Nolan. We've had discussions with several independent 
counsel offices, yes, sir.
    Mr. Shays. And who are they?
    Ms. Nolan. Mr. Ray and Mr. Lancaster.
    Mr. Shays. And when did you have discussions with them?
    Ms. Nolan. February or March of this year.
    Mr. Shays. You can't be more precise than that?
    Ms. Nolan. I spoke with Mr. Ray's deputy the first week 
that I was aware of this problem. I think lawyers in my office 
spoke with Mr. Lancaster's office a couple of weeks later. I 
don't--I don't have the exact date.
    We provided a written explanation to Mr. Ray's office on 
March 15th.
    Mr. Shays. The e-mail problem was discovered in the summer 
of 1998 at the height of the independent counsel's 
investigation of the President. The problem was kept from the 
independent counsel during his investigation. Similarly, it was 
kept from the Congress during the impeachment debate.
    Did anyone in the White House think that the e-mail problem 
could have real relevance to either the independent counsel's 
investigation or the impeachment investigation?
    Ms. Nolan. I want to make clear that as far as I know no 
one kept the information from anyone in the counsel's office. 
The independent counsel's office did not understand that there 
was a problem that needed to be reported. The one possible 
problem the counsel's office understood, they got a second 
search from the Office of Administration, which showed that 
everything had been produced, and therefore, Mr. Ruff did not 
believe there was anything he needed to notify any 
investigative body of.
    Mr. Shays. In your statement, you draw conclusions that 
everything is all right, and it seems to me that you give 
yourself the benefit of the doubt in every instance. So when 
you say, when the counsel to the President, Charles Ruff, was 
told by OA in 1998 that there were e-mails that may not have 
been captured in a previous search because of technical 
glitches, he understood that OA would be collecting these e-
mails so that any responsive e-mail that had not been produced 
could be produced.
    And then you say, thus, as Mr. Ruff understood the 
technical problem at the time, he did not think that the error 
had any effect on previous searches or that it might affect 
future searches of e-mail records. As a result, Mr. Ruff had no 
reason to believe there was any need to notify investigative 
bodies of this error.
    What would have given him the reason to believe that?
    Ms. Nolan. I am reporting what Mr. Ruff has told me, and I 
think that he did not understand, I believe, what was 
communicated to him or what he understood. Whether it was a 
disconnect between the technical people, who understood a much 
more complex problem, and the lawyers, I cannot tell you 
exactly why.
    What I can tell you is, what he understood was that there 
was a small--there may have been a problem, that it was fixed, 
there was no ongoing problem, there had been no documents not 
produced.
    Mr. Burton. Let me interrupt. We'll get back to you.
    I want to give the balance of my time to Mr. LaTourette, 
and we'll get back to you, Mr. Shays, in a little bit.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Good morning, Ms. Nolan, I have a series of questions that 
I'll attempt to ask without getting on Mr. Waxman's highlight 
reel today.
    We had the opportunity to have the hearing last week, and a 
number on our first panel told us about the e-mail difficulty, 
and also, although there were some conflicts between witnesses 
and their recollections, they did pretty universally indicate 
that they had been told to keep this in house, quiet, not 
spread it around, the problem that there was a mail through the 
server, and eventually then the D-mail server.
    Did the Office of Administration ever consult, to your 
knowledge, with the White House counsel's office about these 
instructions, this wasn't something to be discussed with 
others?
    Ms. Nolan. I have never heard anything that would suggest 
that was the case.
    Mr. LaTourette. Second, something of the contractors from 
N-G last week talked about the threats of going to jail, losing 
their jobs, losing their security clearances, all things that 
were of obvious concern to them.
    From your position at the White House as the White House 
counsel, would White House personnel have any basis for making 
those statements if, in fact, they were made?
    Ms. Nolan. Would White House counsel have----
    Mr. LaTourette. No, would White House personnel. In other 
words, we are talking about Ms. Callahan in particular.
    The allegation was, she said there's a jail cell with your 
name waiting on it. Is there any basis in law for that type of 
threat if--and I understand that she denied it--but is there 
any basis that you're aware of to send someone to jail for, for 
instance, talking to their wife about this problem? Is it a 
breach of some sort of national security?
    Ms. Nolan. I am not aware of any.
    Mr. LaTourette. And I'm wondering now, as I understand the 
explanation that you've received from Mr. Ruff, I guess he had 
a meeting with Mr. Lindsay, and you're saying that Mr. Lindsay 
did not adequately explain it to Mr. Ruff, or explain it to Mr. 
Ruff in a way that he understood that this was a two-part 
process--one, that the stuff wasn't being captured and once you 
fix that problem you had to restore the stuff that hadn't been 
captured for over 2 years.
    Is that what Mr. Ruff is telling you and, hence, us?
    Ms. Nolan. What Mr. Ruff told me was that he understood 
there was a problem, but it was a problem with one search, a 
search. He did not understand that there was a more systemic 
problem.
    Mr. LaTourette. Last week Mr. Lindsay was here. He pretty 
clearly understands it. He knows that it was a two-part thing, 
one, that e-mails coming into the White House weren't captured. 
He worked real hard, and I think spent $600,000 to fix that 
problem. He also knew and continues to know that there is this 
whole body of e-mails, 100,000, 200---it doesn't matter how 
many there are--that haven't been loaded onto the ARMs system.
    Are you saying Mr. Ruff of the White House counsel's office 
had no comprehension that there's a series of e-mails out there 
somewhere that haven't been reconstructed to this day?
    Ms. Nolan. I know it now.
    Mr. LaTourette. But what about Mr. Ruff, during the time we 
were asking him for documents? He's saying he just doesn't 
know?
    Ms. Nolan. That's right.
    Mr. LaTourette. My historical recollection is that Mr. 
Ruff, I think was a prosecutor during Watergate, and I think he 
knew a lot about tape records and 18\1/2\-minute gaps, but 
maybe hasn't sort of fast-forwarded to the computer age. And 
that brings me to the Vice President of the United States.
    Your statement also talks about the fact that the Office of 
the Vice President wasn't typed into the ARMS system. Is that 
right?
    Ms. Nolan. That's right. The Office of the Vice President 
was not fully tied into the ARMS system.
    Mr. LaTourette. I'm hard to provoke. I'm one of the more 
mild-mannered guys on my side of the aisle, but there was an 
article the other day in the Washington Times about the Vice 
President was interviewed about this, and his quote was that, 
at first it says--the AP report, it says he almost dared the 
Republicans to continue their investigations. ``I hope they 
spend a lot of time and energy on this,'' Mr. Gore said to the 
AP, with a confident grin as he leaned back in his armchair. 
That's, I think, a bad way for the guy that wants to be the 
President of the United States to sort of further the cause of 
campaign finance reform and get information before the public.
    But you mentioned in your statement that you gave us last 
week, when you didn't come, you thought there were 28 users; 
now you know that there are only 24 in all, but three were 
created before 1997.
    Who were the three created before 1997 that aren't being 
captured by the ARMS system today?
    Ms. Nolan. They are being captured now. As of this week 
they are being captured.
    Mr. LaTourette. Including incoming e-mail?
    Ms. Nolan. No, the incoming e-mails are not being captured 
for the OVP.
    Mr. LaTourette. Who are three?
    Ms. Nolan. I don't know the three accounts. I'm sorry.
    Mr. LaTourette. So you were able to identify that there are 
three people that were created before 1997, but you don't----
    Ms. Nolan. There were--I think it is 21 created before 1997 
and 3 after 1997.
    Mr. LaTourette. OK. And still today--you know when you're 
talking about the testament, maybe we can get this thing fixed 
in 6 months, does that include the Office of the Vice 
President, or does that just include the MAIL2 and D servers?
    Ms. Nolan. I think it includes the Office of the Vice 
President, but I'll have to check to make sure.
    Mr. LaTourette. And is it your understanding from the 
information that you have collected that the problem with the 
Vice President's server just came to somebody's attention last 
week?
    Ms. Nolan. I think it was the week before last week. I 
think my statement said last week.
    Mr. LaTourette. But a couple of weeks ago?
    Ms. Nolan. A couple of weeks ago, yes.
    Mr. LaTourette. So it's the White House counsel's testimony 
through you. And I know you're new at it, so we're talking 
about a whole range of White House counsels, but the 
institutional knowledge within the White House counsel's office 
is that the Vice President's Office was not then tied up to the 
ARMS system, since it was instituted at the Armstrong case, I 
guess is how that came about, the ARMS system. Is that right?
    Ms. Nolan. The ARMS system was developed after the 
Armstrong case. Of course, the Armstrong case dealt only with 
Federal records. These are Presidential records we are talking 
about now, but they were meant to be made part of the ARMS 
system, right.
    Mr. LaTourette. But nobody noticed--and I understand in 
your testimony that Senator Thompson apparently got a couple of 
e-mails from the Vice President's Office----
    Ms. Nolan. He got some. I don't know how many.
    Mr. LaTourette. But nobody said, hey, you know what, the 
guy that invented the Internet and his staff don't seem to be 
doing a lot of e-mailing; so when we get these records 
production requests from, be it our committee or Senator 
Thompson's committee, there aren't any e-mails from the Vice 
President of the United States? Nobody picked up on that?
    Ms. Nolan. You know, I don't know how many there were. I 
don't know how many were produced. So I don't know the answer 
to that, whether somebody would have noticed the numbers. And I 
do want to make clear here that it seems certainly from the 
testimony I'm aware of from last week that the technical 
people, the Northrop Grumman people, knew who was and was not 
on the ARMS system, but the lawyers doing the searches did not.
    Mr. LaTourette. Maybe the explanation for why nobody 
noticed the fact that there weren't any e-mails from the Vice 
President during this time period, in that same interview with 
the AP, he was asked how much he used his e-mail during the 
1996 reelection campaign, and he said, ``Didn't.'' He was 
pressed to go on, and he said just, ``Didn't.'' So maybe we're 
looking for stuff that isn't there, because again the Vice 
President of the United States indicated that he didn't send 
any e-mails in 1996. So when we reconstruct his office, we are 
not going to find them anyway.
    Just as the yellow light goes on, the White House counsel's 
position is that, as far as you're concerned, or Mr. Ruff was 
concerned, there was no delay in reconstructing these tapes 
because you didn't think there was any need to because you 
thought the problem was fixed, the White House counsel thought 
the problem was fixed, and if not fixed, everything that came 
up in this manual search by Mr. Haas was duplicative of stuff 
you had sent us before.
    So no big deal was the position at that time; it wasn't a 
problem?
    Ms. Nolan. Yeah. I don't think ``no big deal'' is the right 
characterization. I don't think that the counsel's office 
understood there was any problem, not that it minimized it.
    Mr. LaTourette. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Burton. My time has expired.
    Mr. Waxman.
    Mr. Waxman. Thank you. Just to followup on a point Mr. 
LaTourette asked you about, and that was how many e-mails were 
produced from the White House regarding Senator Gore's--Vice 
President Gore--excuse me, how many e-mails were produced from 
the White House to Senator Thompson's investigation about Vice 
President Gore. I think you should be able to get that 
information, and I wonder if you can ask somebody to get that 
information to us perhaps before the end of today's hearing?
    Ms. Nolan. I will certainly try to do that.
    May I say something about that, too?
    Mr. Waxman. Yes.
    Ms. Nolan. Which is that there are a number of ways that 
OVP e-mail can be produced or could have been produced by 
searches of individual servers, because they had been forwarded 
to an ARMS-managed account, because someone had retained a hard 
copy. So I just wanted to make that clear in response to Mr. 
LaTourette's question about the Vice President e-mail--Office 
of Vice President e-mail.
    Mr. Waxman. Well, I appreciate what you are saying, but it 
is something within your control, and I think you can certainly 
produce it for us.
    Ms. Nolan. Certainly. We will try to get the number for you 
so that we know what it is.
    Mr. Waxman. Now, I appreciate both of you being here, and I 
think that you can help to clear up one of the central 
questions that has been raised today, which is, what did the 
White House know about these e-mails and what did they do about 
them? The panel from Northrop, computer experts who testified 
last week, told us that the technical problems that prevented 
e-mails from being properly stored were the result of 
accidental mistakes made by government contractors, and I'd 
like to ask you about this.
    Ms. Nolan, were the problems with the White House e-mail 
system the result of technical computer glitches or were they 
intentional problems?
    Ms. Nolan. It is my understanding that everyone agrees they 
were technical glitches.
    Mr. Waxman. Do you have any knowledge that the problems 
were the result of a deliberate effort to hide e-mail from 
Congress or from other investigative bodies?
    Ms. Nolan. I have no such knowledge.
    Mr. Waxman. I know that this committee has made numerous 
requests to the White House for documents relating to the 
campaign finance investigation. The White House has produced 
over 90,000 pages of documents concerning campaign finance 
inquiries from this committee alone.
    What resources has the White House devoted to responding to 
requests from this committee?
    Ms. Nolan. The White House, to respond to requests from 
this committee, has used a number of lawyers, the resources of 
lawyers, the resources of paralegals, the IS&T resources in 
doing the ARMS searches. The Office of Records and Management 
does searches for us. We really call in a number of components 
of the Executive Office of the President. Of course, we send a 
directive to people within the complex to search their own 
files.
    So I don't have a number, but it's an extensive amount of 
resources in order to produce documents, videotapes, 
audiotapes, provide witnesses.
    Mr. Waxman. Well, let me point out to you that I was 
curious about how much money might have been spent on this 
whole inquiry. You've given us 90,000 pages of documents, just 
to this committee, and there are other committees and other 
investigators. So in 1998 I asked the General Accounting Office 
to examine the cost to Federal agencies of congressional 
campaign finance inquiries. GAO asked executive agencies to 
provide information on campaign finance inquiries received from 
October 1, 1996, to March 31, 1998, and according to the 
responses to this GAO survey, White House employees had spent 
over 55,000 hours responding to congressional campaign finance 
inquiries at a personnel cost of over $2 million. That's the 
equivalent of 25 White House employees doing nothing for a year 
except responding to campaign finance inquiries, and I'd like 
to enter this GAO report that I have had prepared into the 
record, and a related minority staff report on the cost of 
congressional campaign finance investigations as well.
    Mr. Chairman, I ask unanimous consent to place this in the 
record.
    Mr. Barr [presiding]. And what is that?
    Mr. Waxman. This is a minority staff report as well as the 
General Accounting Office report on the amount of money spent 
in responding to these investigatory inquiries.
    Mr. Barr. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.104
    
    [GRAPHIC] [TIFF OMITTED] T9621.105
    
    [GRAPHIC] [TIFF OMITTED] T9621.106
    
    [GRAPHIC] [TIFF OMITTED] T9621.107
    
    [GRAPHIC] [TIFF OMITTED] T9621.108
    
    [GRAPHIC] [TIFF OMITTED] T9621.109
    
    [GRAPHIC] [TIFF OMITTED] T9621.110
    
    [GRAPHIC] [TIFF OMITTED] T9621.111
    
    [GRAPHIC] [TIFF OMITTED] T9621.112
    
    [GRAPHIC] [TIFF OMITTED] T9621.113
    
    [GRAPHIC] [TIFF OMITTED] T9621.114
    
    [GRAPHIC] [TIFF OMITTED] T9621.115
    
    [GRAPHIC] [TIFF OMITTED] T9621.116
    
    [GRAPHIC] [TIFF OMITTED] T9621.117
    
    [GRAPHIC] [TIFF OMITTED] T9621.118
    
    [GRAPHIC] [TIFF OMITTED] T9621.119
    
    [GRAPHIC] [TIFF OMITTED] T9621.120
    
    [GRAPHIC] [TIFF OMITTED] T9621.121
    
    [GRAPHIC] [TIFF OMITTED] T9621.122
    
    [GRAPHIC] [TIFF OMITTED] T9621.123
    
    [GRAPHIC] [TIFF OMITTED] T9621.124
    
    [GRAPHIC] [TIFF OMITTED] T9621.125
    
    [GRAPHIC] [TIFF OMITTED] T9621.126
    
    [GRAPHIC] [TIFF OMITTED] T9621.127
    
    [GRAPHIC] [TIFF OMITTED] T9621.128
    
    Mr. Waxman. Did the Executive Office of the President 
produce e-mail records to this committee during that campaign 
finance investigation?
    Ms. Nolan. Yes, sir, they did.
    Mr. Waxman. How many total pages of e-mails did the 
Executive Office of the President produce to this committee in 
response to the campaign finance inquiries?
    Ms. Nolan. My understanding is that it was 7,700 e-mails, 
pages of e-mails.
    Mr. Waxman. Did the White House ever intentionally withhold 
any e-mails?
    Ms. Nolan. I am not aware that the White House ever 
intentionally withheld any responsive e-mails.
    Mr. Waxman. I understand that in responding to the request 
for documents, the White House typically searches this ARMS 
computer archive for responsive material. Is that the only kind 
of search that's done?
    Ms. Nolan. No. The directive that goes out to EOP employees 
asks them to search their own records, whether in paper form, 
computer form or any other form. So individuals should be 
searching their own servers on their PCs.
    Mr. Waxman. So even if a document is not on the ARMS 
system, it still could be found by searching an individual 
computer account; is that right?
    Ms. Nolan. Yes, and that is apparently what happened. When 
the second search was done in June 1998 and the White House 
compared the documents from the server, it turned out that 
people who had searched their own records had already produced 
those documents.
    Mr. Waxman. Is it possible that some of the e-mails that 
have supposedly gone missing because of the technical problems 
with the ARMS retrieval system were nonetheless produced to 
this committee and others requesting documents from the White 
House?
    Ms. Nolan. Yes, yes.
    Mr. Waxman. In fact, Ms. Nolan, if I understand you 
correctly, all this talk about missing e-mails is a little 
misleading because it overlooks the fact that while certain e-
mails may not have been properly archived in the ARMS backup 
system, they're not necessarily missing; is that right?
    Ms. Nolan. They're not necessarily missing. They may have 
already been produced. They may be on the backup tapes.
    Mr. Waxman. I'd like to now turn to the chain of events 
that followed the discovery of a problem with the MAIL2 server 
in 1998.
    Mr. Lindsay testified that after he was told about the 
MAIL2 problem, he notified the White House counsel's office, 
your office. I know that you weren't there at that time, but 
based on what you have learned, can you tell me what the White 
House counsel's office was told about the MAIL2 problem?
    Ms. Nolan. What I understand is that a problem was 
described to Charles Ruff, then counsel to the President; that 
his understanding of the problem was that there had been a 
problem with a search, a possible problem with a search. He 
informs me that he did not understand the--that a larger 
problem, such as the MAIL2 problem, or its nature or its scope, 
existed; and it appears that either that was not fully 
communicated or there was some disconnect. I don't know 
precisely what was said.
    Mr. Waxman. At last week's hearing, Mr. Lindsay told us 
about a test search that was then conducted to figure out the 
extent of the MAIL2 problem.
    Can you tell us why that search was requested?
    Ms. Nolan. I believe, sir, that that refers to the second 
search that was done for the documents that might have been 
missing from the particular search that Mr. Ruff understood was 
problematic.
    Mr. Waxman. And what were the results of that search?
    Ms. Nolan. The result of that search was that all the e-
mails found in the second search had already been provided to 
the counsel's office and produced.
    Mr. Waxman. In other words, it's your testimony that the 
documents that were turned up in that test were turned over or 
were they not turned over?
    Ms. Nolan. It is my testimony, from my understanding, that 
they were produced, sir; they were turned over. They already 
had been.
    Mr. Waxman. Now, just to have a further understanding, 
these are e-mails that related to Monica Lewinsky; is that 
correct?
    Ms. Nolan. That is right. That is my understanding.
    Mr. Waxman. So if I understand you correctly then, the e-
mail documents that were found in the test search were 
duplicative of the e-mails that had been previously turned 
over; so when they did the test search, they found the e-mails 
about Monica Lewinsky, and they found that these e-mails had 
already been turned over?
    Ms. Nolan. That's correct, sir.
    Mr. Waxman. So, in your view, did it appear that there was 
not a problem?
    Ms. Nolan. My understanding is that's exactly what--how Mr. 
Ruff understood it, that either there had been a problem and it 
was fixed, or there had not been a problem; but there had not 
in fact been--there were no new documents found that indicated 
that the production had not been fully done.
    Mr. Waxman. Yesterday's Washington Times ran an article 
that stated that the White House possesses a, ``previously 
undisclosed computer disk containing e-mails by Monica Lewinsky 
that were sought under subpoena by a Federal grand jury and 
three congressional committees,'' but never turned over. The 
article stated that this disk, known as a zip disk, was given 
to Northrop Grumman's counsel, who passed it on to the 
Executive Office of the President.
    Are you aware of a zip disk that was recently provided to 
the Executive Office of the President by Northrop Grumman's 
counsel?
    Ms. Nolan. Yes. This is the--as I understand it, this is 
the record of Mr. Haas' F drive, and he apparently was the one 
who did this search, this second search that we were referring 
to. Mr. Haas kept that, the record of that search on his F 
drive, and that is--that's the same search. No previously 
undisclosed, no nonproduced e-mails at all.
    Mr. Waxman. So these are the same. This zip disk contains 
the same e-mails that resulted from that search in June 1998 
that the White House had previously turned over to the various 
investigators; is that correct?
    Ms. Nolan. The reference to these previously undisclosed e-
mails is wrong. They are, as far as I know, they are the same 
ones that were--had already been produced.
    Mr. Waxman. Before this zip disk was handed over to the 
Executive Office of the President, did you know that it even 
existed?
    Ms. Nolan. No, sir.
    Mr. Waxman. And what do you know about the origin of this 
disk, just to have that on the record?
    Ms. Nolan. My understanding is that a couple of weeks ago, 
I am not sure of the exact date, that Mr. Haas made a copy of 
what was on his F drive; and he then provided it to Northrop 
Grumman counsel, and Northrop Grumman counsel provided it to 
us.
    Mr. Waxman. I'm smiling because it looked like we had 
different versions of some of the questions, but I think you've 
made the point. And the essential point, as I understand it, is 
that what was on this zip disk was nothing more than the e-
mails you had already turned over and therefore the statement 
in the Washington Times that the disk, zip disk, had e-mails 
that had not been turned over is not an accurate statement?
    Ms. Nolan. I am not aware of any cache of previously 
undisclosed e-mails on any disk.
    Mr. Waxman. At last Thursday's hearing we heard differing 
testimony about the content of the e-mails that were not 
captured by the ARMS as a result of this MAIL2 glitch. As you 
saw in that video clip I showed during my opening statement, 
Betty Lambuth, who was former manager of Northrop Grumman Lotus 
notes team, stated that the e-mails concerned a number of 
different investigations. She said she learned this from Robert 
Haas, who was a member of Ms. Lambuth's Lotus notes team. On 
the other hand, Mr. Haas testified he did not know the content 
of these e-mails except for two relating to Monica Lewinsky.
    Ms. Nolan, based on your understanding of the e-mail 
problem, who do you believe is right, if you have an opinion on 
this, between Ms. Lambuth and Mr. Haas?
    Ms. Nolan. Mr. Haas' testimony is consistent with what I 
understand about what the previous search was, which is that it 
was for e-mails related to the Monica Lewinsky investigation.
    Mr. Waxman. Ms. Nolan, why wasn't Congress notified in 1998 
when the White House e-mail problems were discovered?
    Ms. Nolan. Mr. Waxman, the e-mail problem that Mr. Ruff 
understood might have occurred, he did not understand to have 
any effect on document productions; and I think that anyone who 
knows Charles Ruff knows that if he thought that there were a 
large number of documents that he had said had been produced 
had not been produced, he would have done something about it.
    Mr. Waxman. Why didn't you, when you were already in the 
White House counsel's office in January of this year and you 
were briefed on this issue, why didn't you notify Congress 
yourself?
    Ms. Nolan. When I was briefed on the issue, it was part of 
a larger prebriefing for a post-transition Presidential records 
meeting. I had no understanding at that time that there were 
ongoing problems or effects on searches. As soon as I learned 
of the allegations that there were, you know, we started to 
look at it.
    Mr. Waxman. I want to yield some of my time to Mr. 
Cummings.
    Mr. Cummings. Thank you very much.
    Ms. Nolan, and Mr. Raben--thank you for being here. 
Government service is not always easy, and I just want to ask 
you just a few questions and just kind of pick up where Mr. 
Waxman left off.
    In November 1998, a decision was made to fix the MAIL2 
problem prospectively so that all incoming external e-mails 
would be properly sent to ARMS. When this fix was made in 
November 1998, what happened to all of those unrecorded e-mail 
records that were on the server at the time?
    Ms. Nolan. It's my understanding that a backup tape was 
made of the server on the day that they restored the ARMS 
system on a going-forward basis, and those backup tapes are 
with--in our security office now.
    Mr. Cummings. Now, a second problem was discovered in April 
1999 that prevented incoming e-mails to users of the first name 
beginning with the letter D from being properly archived. This 
problem was apparently caused by programming errors made by 
contractors in October 1998.
    When this second glitch was fixed in May 1999, what 
happened to all of those unrecorded e-mail records that were on 
the server at that time?
    Ms. Nolan. Again, a backup tape was made, snapshot of the 
system on the day that the ARMS system was fixed on a going-
forward basis, and those tapes are also with our security 
office.
    Mr. Cummings. So to the best of your knowledge today, has 
the Office of Administration taken steps to protect those 
tapes?
    Ms. Nolan. Yes, sir.
    Mr. Cummings. How so?
    Ms. Nolan. The Office of Administration has placed the 
backup tapes with Charles Easley, who is the Executive Office 
of the President's security officer, and he has--has those 
tapes, I believe, in a safe in his office.
    Mr. Cummings. Now, Ms. Nolan, can you tell me about what 
the White House is doing to reconstruct the nonarchived e-
mails?
    Ms. Nolan. The Office of Administration has been working to 
get a contractor which--and it signed a contract yesterday with 
an outside contractor to restore the backup tapes, and we 
particularly--I particularly asked that we make sure when we 
were doing this that--that we go in two paths so that we get 
the backup tapes searchable as quickly as possible and we get 
the backup tapes restored to ARMS, but that we not delay being 
able to search the backup tapes by getting them on ARMS first.
    So we're working on two paths to try to get the backup 
tapes searchable as quickly as possible.
    Mr. Cummings. Now, where are the backup tapes that are 
going to be needed to reconstruct the nonarchived e-mails?
    Ms. Nolan. Those are also with Security Officer Easley.
    Mr. Cummings. Now when these backup tapes are put in an 
easily searchable format, does EOP intend to perform keyword 
searches of these records to comply with this committee's 
subpoenas?
    Ms. Nolan. Yes. Yes, sir.
    Mr. Cummings. Can you explain the problem that prevented e-
mail in the Office of the Vice President from being archived?
    Ms. Nolan. I don't know yet exactly how it happened that e-
mail from the Vice President's Office was not fully put on 
ARMS. What I do know is that the Vice President's Office was on 
a different e-mail system from the White House Office and other 
components of the Executive Office of the President apparently 
at the time that ARMS was started in 1994, and that those 
accounts were not set up to be managed by ARMS at that time.
    Mr. Cummings. Now, you stated that the Executive Office of 
the President had produced 7,700 pages of e-mails, is that 
correct, to this committee?
    Ms. Nolan. To this committee in the campaign finance 
investigation alone.
    Mr. Cummings. Did those records include e-mails from the 
Office of the Vice President?
    Ms. Nolan. Yes, I believe they did.
    Mr. Cummings. Does the fact that the Vice President's e-
mails have not been archived represent a deliberate effort to 
hide those documents from Congress and other investigative 
bodies?
    Ms. Nolan. I have seen no indication that anyone was trying 
to hide these documents from congressional investigative bodies 
or any other investigative bodies.
    Mr. Cummings. Now, when you made your statement early on, 
just the early part of your presentation here, you made it 
clear that you are discovering information as you go along; is 
that right?
    Ms. Nolan. Yes, sir.
    Mr. Cummings. Do you have any anticipation as to many 
changes taking place with regard to statements you have already 
made to us or things you think you may find out?
    Ms. Nolan. I don't know.
    I want to be clear. I don't know what I may find out later, 
but I think that what's important to know now is, we--we have 
the backup tapes. We have--are secured with our security 
officer. We have an outside contractor on board to try to get 
these restored and searchable as quickly as possible. Until we 
do that, I can't say any more.
    Mr. Cummings. Thank you, and I want to thank the gentleman 
for yielding.
    I yield back.
    Mr. Waxman. Thank you very much, Mr. Cummings.
    Mr. Raben, I want to ask you about the criticism the 
Attorney General has been receiving from Chairman Burton. When 
he originally called this hearing on March 8th, he wrote a 
letter to the Attorney General, and was pretty harsh in his 
criticism because he criticized the Attorney General for not 
investigating this e-mail problem. And, in fact, he was pretty 
strong about it. He said the appearance created by this failure 
to investigate seems to indicate that there's no interest, no 
intention of pursuing a vigorous investigation of the White 
House. And so the Attorney General was being criticized for not 
investigating.
    Now the Justice Department, headed by the Attorney General, 
has announced an investigation, and the criticism by our 
chairman is that instead of applauding this investigation, he 
wrote an even stronger letter to the Attorney General on March 
27 in which he said that, ``Because you and your staff are in 
charge, the proposed investigation is fatally flawed.''
    So the chairman is saying on the one hand, you didn't 
investigate; when you do, it's flawed, and he wants an 
independent counsel to take over. But it doesn't end there, 
because yesterday, March 29th, the chairman, in a letter to 
Judge Royce Lamberth, wrote, ``Recent efforts by the Attorney 
General to control this investigation appear to be nothing more 
than a ploy to retain control over matters that will ultimately 
focus on how the Justice Department helped the White House in 
its efforts to refrain from producing documents to Congress and 
various independent counsels.''
    So to summarize what I understand has happened, on March 
8th, the Justice Department is criticized for not investigating 
the e-mails; on March 27th, the chairman decides that the 
Justice Department investigation that he requested is fatally 
flawed; and now on March 29th, we learn that the Justice 
Department's investigation is not only flawed, it's part of 
some huge attempt at cover-up.
    So, Mr. Raben, it seems to me that the Attorney General is 
damned if she does and damned if she doesn't; whatever action 
she takes, the chairman finds grounds for criticism.
    Ms. Nolan, let me just see if I can summarize where I 
understand some people are taking this investigation.
    Some people have a theory. They acknowledge that this 
problem with the ARMS retrieval system was flawed, and they 
recognize that the mistake was not because the White House 
caused it to be flawed, but when the White House found out that 
it was flawed and not capturing all the various e-mails, they 
tried to cover it up and threatened people who might make it 
public, particularly personnel who knew about the failure of 
the ARMS system to retrieve the e-mails.
    Now, of course, if this theory is true, this amounts to 
obstruction of justice.
    As I understand it, the White House counsel, Charles Ruff, 
when he heard about this problem, asked that a test be done to 
see what was happening with these e-mails that were not on the 
centralized ARMS system, and used Monica Lewinsky as an example 
topic--obviously a pertinent one at the time--for the 
investigation; and when this test was done, he found out that 
the e-mails that were not on the ARMS system apparently were 
picked up because they were retrieved from the individual 
computers. And when they were retrieved from the individual 
computers and he found that they were duplicative of those that 
were already turned over to the investigators, it seems like he 
concluded there was no real-world problem; that while the 
centralized system wasn't getting the e-mails, the search of 
the individual computers seemed to be picking up these e-mails.
    So we're talking about Mr. Ruff. I mean, he's the only one; 
if there's this cover-up, if there's this conspiracy, if 
there's a threat to witnesses that might make this public, he 
would be the one in charge of this whole thing. But he went out 
and tried to make sure that they were getting all the e-mails 
to the appropriate investigative agencies, and he did this test 
to be sure that that was the truth, or at least, as he 
understood it, that they weren't leaving anything out.
    We had testimony last week from Mr. Spriggs and others that 
it was their understanding the White House wasn't trying to 
cover-up the problem. They were trying to correct the problem. 
There seems to be some concern that Northrop Grumman might say, 
well, they're going to need more money to correct the problem, 
but the White House wanted the problem corrected.
    Is this a summary of what you understand to be the facts in 
this case?
    Ms. Nolan. Let me clarify one thing where I--my 
understanding differs from what you just summarized, which is 
that--my understanding is that Mr. Ruff understood the problem 
to be related to this particular search. So he wasn't doing a 
test to see if the system worked generally, but rather was 
doing a second search for the particular search that there may 
have been a problem for. And when the files came back, which 
showed that, in fact, everything had been captured, it's my 
understanding that Mr. Ruff believed there had been no problem, 
there was no ongoing problem.
    Mr. Waxman. Well, let me just say that I've worked with 
many people in the course of the time I've been in public 
office, and beforehand, and I am very careful to say--to vouch 
for anybody, but I've worked with Mr. Ruff, and I know him to 
be a man of integrity and principle; and in my mind, there's 
never been any question about his honesty and integrity, and I 
cannot believe this theory that would hold him responsible for 
some kind of cover-up and threatening people and all the 
other--other facts that would have to fit in, be shoe-horned 
into this theory that would amount to a scandal.
    And if this is all there is, if this is what this whole 
scandal is all about, I must say I am not very impressed that 
we have found a new scandal to wave our arms about and to carry 
on as if there's been something intentionally done to frustrate 
justice.
    I thank both of you very much for your testimony and yield 
back the balance of my time.
    Mr. Burton. Thank you, Mr. Waxman. I understand Mr. Raben 
needs a brief break, and Ms. Nolan, I think we will allow both 
of you to have 10 minutes, if that's all right with you for a 
break; and then we'll get back to the questioning.
    So we stand in recess for 10 minutes.
    [Recess.]
    Mr. Burton. The committee will reconvene.
    I apologize for the length of our tour to the floor, but, 
unfortunately, there were a number of votes.
    I will recognize the gentleman from Florida, Mr. Mica, for 
5 minutes.
    Mr. Mica. I thank the chairman, and I do have a question 
for Ms. Nolan.
    First of all, you have talked about the suddenly 
reappearing Haas disk, zip disk I guess it's referred to, tapes 
in your testimony to us, your statement to us. And that 
contains--was it 500 records or e-mails?
    Ms. Nolan. Sir, I don't know how many it contains.
    Mr. Mica. You also sort of indicated for the other side 
that those had matched what was given to the--had been possibly 
given to the independent counsel or to investigators. Was that 
correct or were you told that?
    Ms. Nolan. I was told that what--what Mr. Haas did was a 
second search in June or July, I am not sure, summer of 1998, 
that that search produced--he did a second search of the 
server--and that search produced e-mails which were provided to 
the counsel's office, which checked and found they were 
duplicative of e-mails already provided.
    Mr. Mica. But you're not aware--you've not seen those 500 
records?
    Ms. Nolan. I have not yet, sir.
    Mr. Mica. So you don't know whether they match? You don't 
know whether, in fact, that that information was the same that 
has been provided to the investigative body that required it?
    Ms. Nolan. I know that Mr. Haas has described what--what he 
saved as the search that we looked at.
    Mr. Mica. You also indicated that now there are an 
additional number of back-up tapes, is that correct? Is it 620 
some back-up tapes.
    Ms. Nolan. I think, sir, I'm not sure of the exact number. 
There are about 3,400 for the EOP all together. There are about 
625 for the Vice President's Office.
    Mr. Mica. As opposed to a lower number that had previously 
been disclosed?
    Ms. Nolan. Last week I had been told that there were about 
550 Vice President's back-up tapes.
    Mr. Mica. Now, it's 625. So there's two bodies of 
information, one is the White House and one is the Vice 
President?
    Ms. Nolan. One is the Executive Office of the President, 
but some of those--some of the Vice President's ones were with 
the EOP ones.
    Mr. Mica. We had heard from various witnesses or sources 
that there was information on the impeachment, campaign 
finance, foreign campaign contributions, Filegate. I heard also 
selling of trade mission seats and other things that were under 
investigation by various panels or special counsels. You're not 
aware then what's on any of these tapes? There may, in fact, be 
a large number of files or records that have not been turned 
over; is that correct?
    Ms. Nolan. I don't know what's on the tapes. What I do know 
is that we know that it's incoming e-mail during those certain 
periods for the EOP and the e-mail for the OVP that we're going 
to have to reconstruct and then we'll search for the e-mails.
    Mr. Mica. And, really, all you know about Mr. Ruff has said 
of his involvement--you said he knew that there was a technical 
problem, right?
    Ms. Nolan. That's my understanding, yes.
    Mr. Mica. You never got into the point that Mr. Ruff might 
have been told by Mr. Lindsay that not only was there a 
technical problem but there was the problem that we had 
described to us that people were talking in the hallways about 
what was on the tapes and that needed to be hushed up?
    Ms. Nolan. No. I asked Mr. Ruff if he had heard anything 
like that. He had not.
    Mr. Mica. You asked him specifically that question?
    Ms. Nolan. Yes, I did.
    Mr. Mica. And he told you he was only aware of the 
technical problem?
    Ms. Nolan. That's right.
    Mr. Mica. What is DOJ doing as far as investigation? Have 
they requested any files or information? Does--will DOJ have 
access before anyone else in their investigation of the 
materials that you have?
    Ms. Nolan. We have received a letter from the Campaign 
Finance Task Force, as we did from other investigative bodies, 
asking us to explain the problem. We have not made any 
arrangements with any investigative body about access or 
priority of access.
    Mr. Mica. Has DOJ met with anyone, with you or others, 
regarding this investigation?
    Ms. Nolan. No, sir.
    Mr. Mica. They haven't to date?
    Ms. Nolan. No, that's correct.
    Mr. Mica. DOJ, who's in charge of your investigation?
    Mr. Raben. Who's in charge of the investigation? The 
Campaign Finance Task Force initiated the investigation.
    Mr. Mica. And even though this may go beyond that, they're 
still charged with that?
    Mr. Raben. They initiated the inquiry.
    Mr. Mica. Do you know what steps they have taken? Have they 
requested access to any of the material that's in the 
possession of the White House at this time?
    Mr. Raben. I don't have personal knowledge of all the steps 
that they have taken, sir.
    Mr. Burton. Does the gentleman have any more real quick 
questions? I know he has to catch a plane.
    Mr. Mica. Well, what--just--could you provide just, 
finally, some background about the head of security that's now 
in charge of the tapes, Ms. Nolan?
    Ms. Nolan. Charles Easley is the EOP security officer. I 
know that he's a long-time government officer who has 
responsibility for reviewing background investigations and 
making determinations, security determinations within the 
complex.
    Mr. Mica. Finally, has your office notified the 
congressional committees or the independent counsel or any of 
the other bodies who had requested information under subpoena 
that there may be existing files or information that has now 
been uncovered? Has that been done?
    Ms. Nolan. We've had a communication with a number of 
independent counsels and congressional committees. I am still 
trying to make sure that we gather information about every 
request that came in during that period.
    Mr. Mica. Would you provide the committee just for the 
record a copy of those communications so we that can see who 
has been noticed that you have now uncovered some of this 
material that may have been subpoenaed some 3, 4 years ago?
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.129
    
    [GRAPHIC] [TIFF OMITTED] T9621.130
    
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Burton. Thank you and have a safe trip home.
    Before I yield to Mr. Barr let me just real quickly ask one 
question.
    Ms. Sheryl Hall has indicated that she was told by Mr. 
Haas, and Mr. Haas denied this at our hearing, but she was told 
that he had information on his zip disk that there were trips 
on these trade missions that were offered for campaign 
contributions and also that there was information on these zip 
disks dealing with the Vice President's soliciting campaign 
funds. Now, Mr. Haas said before the committee that he had no 
zip disk, that there was nothing at his home, and now we find 
that he does--did have a zip disk, and so I wonder if you have 
taken--I mean, you indicated that there was some information 
that you had knowledge of on the zip disks. Do you have 
knowledge of everything that was on the zip disk?
    Ms. Nolan. Sir, Mr. Haas, as I understand it, made a copy 
of his F drive, of his server drive on the computer----
    Mr. Burton. Right, right.
    Ms. Nolan [continuing]. Within the past couple of weeks.
    Mr. Burton. Right.
    Ms. Nolan. That that information he has said was what he 
did when he did the search for Lewinsky e-mails, and he has 
said there is no other information.
    Mr. Burton. But do you have knowledge of what was on it?
    Ms. Nolan. I don't.
    Mr. Burton. What has happened to that zip disk?
    Ms. Nolan. The zip disk, sir, was given to Mr. Easley. My 
understanding is that when they opened the zip disk or tried to 
read some of the zip disk material they couldn't read all of 
it. They went back to Mr. Haas's F drive, made another zip 
disk. Mr. Easley has that. They're going to try to open it and 
find the files.
    Mr. Burton. I think we'll issue a subpoena for both the 
original zip disk and the one that was remade off of his hard 
drive. I think it's extremely important that we have that.
    One other question. You said that the e-mail system had 
something in it that would block out e-mails from a mother or a 
father or something like that. Did you say that?
    Ms. Nolan. What I said, sir, is that when a user sends an 
e-mail, you can--I can indicate if I'm sending an e-mail that 
it's nonrecord, that it's not a record, not a Presidential 
record.
    Mr. Burton. Can a person from the outside?
    Ms. Nolan. A person from the outside cannot do that.
    Mr. Burton. But a person from the inside can.
    Ms. Nolan. A person from the inside can.
    Mr. Burton. Could somebody from the inside, if they had 
gotten an e-mail from a friend like John Huang or Charlie Trie 
or Mark Middleton or Maria Hsia, could they have blocked that 
out?
    Ms. Nolan. Well, they can't block out. It still gets sent 
to ARMS. My understanding is that there is some kind of regular 
review to see that things indicated as nonrecords are in fact 
nonrecords.
    Mr. Burton. What does that mean?
    Ms. Nolan. Well, this is what I understand, sir. That 
everything--the way that ARMS works is that when an EOP user 
who has an ARMS-managed e-mail account sends an e-mail, it is 
always blind-copied, BCC'd, to ARMS, to records management.
    Mr. Burton. We're talking about an e-mail from the outside 
coming in.
    Ms. Nolan. An e-mail from the outside. The e-mails from the 
outside. Because they can't be BCC'd to ARMS when they're 
written, they're scanned as the server is scanned about every--
I think it's several times a minute.
    Mr. Burton. I know. But the point is, you said they can 
block----
    Ms. Nolan. You can't block out any incoming e-mails.
    Mr. Burton. So it would automatically go to the ARMS?
    Ms. Nolan. They would go to ARMS, and you don't block out 
ones you write. You simply indicate that they're nonrecords.
    Mr. Burton. I'm only interested in the ones coming in.
    Ms. Nolan. The ones coming in, no.
    Mr. Burton. All of those would be on the ARMS system----
    Ms. Nolan. If they were captured.
    Mr. Burton. Why would they not be captured?
    Ms. Nolan. Well, during the MAIL2 and letter D problem, 
that is exactly the problem. That incoming e-mail to the 
complex for certain accounts that were coded as MAIL2 all caps, 
instead of MAIL2 upper and lower case, or those whose, the 
recipient, the user, first letter of their account began with D 
were not properly scanned by ARMS so they were not put in ARMS. 
That's what we'll be searching for on the back-up tapes.
    Mr. Burton. I am not sure I understand. Is there some way--
any way that an incoming e-mail could be blocked by the 
receiver of the e-mail so that it would not be recorded on any 
other system, any other system?
    Ms. Nolan. Not that I'm aware of, sir.
    Mr. Burton. You can't make a categorical statement? You're 
just saying not that you're aware of?
    Ms. Nolan. I am not aware of any way.
    Mr. Burton. I guess when you were talking earlier you said 
that there was some way that if somebody got an e-mail from a 
relative or something----
    Ms. Nolan. No. I'm sorry, sir, if I was at all confusing 
about this. What I was saying was if I write an e-mail----
    Mr. Burton. Outgoing.
    Ms. Nolan. Outgoing, I can indicate that it's a nonrecord.
    Mr. Burton. I see. But if it's an incoming?
    Ms. Nolan. I can't do anything with it.
    Mr. Burton. It's definitely going to be recorded?
    Ms. Nolan. Unless of course you have the scanning problems 
that occurred in the MAIL2 and letter D problem.
    Mr. Burton. Well, if you find any additional information on 
that, I'd like to have that.
    Ms. Nolan. Certainly.
    Mr. Burton. Mr. Barr.
    Mr. Barr. Yes. Thank you.
    Ms. Nolan, the ARMS system, that is not just some program 
that somebody decided they wanted to have. It's a very 
important program, is it not?
    Ms. Nolan. Sir, it is an important program.
    Mr. Barr. And it provides capability, does it not, for the 
White House to comply with various Federal laws that require 
the retention and retrievability of e-mails, does it not?
    Ms. Nolan. ARMS was set up in order for the Executive 
Office of the President to comply with the Federal Records Act. 
It also is an effective tool for complying with the 
Presidential Records Act, but the Presidential Records Act 
doesn't require that e-mail be saved in any particular form, as 
far as I know.
    Mr. Barr. But it does require them to be saved and be in a 
form that is retrievable, is that not correct, pursuant, for 
example, to the Armstrong decision in 1993?
    Ms. Nolan. Well, of course, the Armstrong decision 
explicitly--the court explicitly said that it was not applying 
that decision to Presidential records, only to Federal records.
    Mr. Barr. Are Presidential records not Federal records?
    Ms. Nolan. The law provides for two kinds of records, 
Federal records, which are most agency records, and 
Presidential records, which are those who assist and advise the 
President, the White House Office. Vice Presidential records 
are treated like Presidential records. Some of the other units 
in the EOP, like the Office of Management and Budget, are 
mostly Federal records, not Presidential records.
    Mr. Barr. But records such as those that are the subject of 
this hearing and the hearing last week and future hearings are 
subject to retention and retrievability, are they not?
    Ms. Nolan. Sir, I want to be clear on the--the Armstrong 
decision compelled certain records management and 
retrievability for Federal records. It did not address 
Presidential records. So I am not aware that there's a decision 
that says that Presidential records----
    Mr. Barr. Is your position then that Presidential records--
and maybe you ought to define those for us--are not subject to 
the Armstrong decision?
    Ms. Nolan. That's correct.
    Mr. Barr. Is your position also that the Privacy Act does 
not apply to those records?
    Ms. Nolan. Yes, sir. It is a long-standing interpretation 
of the Privacy Act from the Justice Department, starting with 
its initiation, that it does not apply to the White House 
Office and essentially to Presidential records.
    Mr. Barr. In other words, you take strong exception to 
Judge Lamberth's decision yesterday.
    Ms. Nolan. I disagree with Judge Lamberth's decision 
yesterday, yes, sir.
    Mr. Barr. Because you believe that e-mails such as those 
which we're considering here which are subject to subpoenas, 
for example, by the Office of Independent Counsel, this 
committee and the impeachment committee or the Judiciary 
Committee do not apply to e-mails generated by or from the 
White House?
    Ms. Nolan. No, sir. I'm sorry. Could you repeat that 
question? I'm not sure I understood it.
    Mr. Barr. What we're talking about here are a large number 
of e-mails, generated by or directed to employees of the 
Executive Office of the President and other offices within or 
connected with the White House, is that correct?
    Ms. Nolan. Yes, the problems, with the exception of the 
OVP, apply to the incoming, not the e-mail generated by the EOP 
user. I want to make sure that I'm clear about that.
    Mr. Barr. So your position, then, is that the subpoenas--
for example, those issued by the Office of Independent Counsel, 
subpoenas for these documents by this committee or by the 
impeachment committee, that you do not even have to comply with 
those because they relate to outgoing e-mails?
    Ms. Nolan. Absolutely not, sir. I hope I didn't say 
anything close to--I believe I did not say that.
    Mr. Barr. That's why I wanted to clarify. Because it struck 
me far reaching even for this administration.
    Ms. Nolan. I understood your question to be whether the 
Presidential Records Act or the Armstrong case require White 
House Office records to be retrievable in an electronic form. I 
am not aware that there is any such legal obligation. Armstrong 
did not apply to Presidential records, and the Presidential 
records----
    Mr. Barr. They did not say they weren't covered, though.
    Ms. Nolan. No. The court actually considered that question, 
yes, sir.
    Mr. Barr. Your position is that the Armstrong decision 
expressly provided that e-mails going to the White House or 
going out of the White House are not subject to retrieval in an 
electronic format.
    Ms. Nolan. No, I'm saying that the Armstrong case 
specifically excluded discussion of Presidential records, which 
includes White House Office records. It addressed Federal 
records. And that was a specific part of the case, the 
plaintiffs--my understanding is that the plaintiffs actually 
wanted the court to address both. And it did not.
    Mr. Barr. So what you're saying there's a loophole here----
    Ms. Nolan. No loophole, sir.
    Mr. Barr [continuing]. Through which you want to drive a 
Mack truck. But those same e-mails are properly subject, are 
they not, to subpoena by the independent counsel and by 
committees of Congress. Is that correct?
    Ms. Nolan. We've supplied thousands and thousands of e-
mails pursuant to subpoena requests.
    Mr. Barr. Yes, they are subject to subpoena, but if they 
happen to be in an electronic format, and you all just happen 
to lose them or not know where they are, that you're under no 
obligation to search the records for them because they're not 
covered by the various statutes of the Armstrong decision.
    Ms. Nolan. I didn't say anything like that, Mr. Barr.
    Mr. Barr. Does the White House recognize an obligation to 
have e-mails sent from or to employees in the Executive Office 
of the President stored in such a way so that they can be 
retrieved and be responsive to subpoenas issued by the Office 
of Independent Counsel or a congressional committee?
    Ms. Nolan. Mr. Barr, the White House included White House 
Office and Presidential records e-mails in the ARMS system, 
which is an automated retrieval system, even though it was 
under no legal obligation at the time to do so. It has used the 
ARMS system to try to--to respond to subpoena requests. I don't 
think there's any suggestion----
    If I haven't been clear about this, let me be clear. There 
is no contention here that we were under no obligation to 
search and produce. What happened was that the search did not 
produce certain e-mails because they weren't in the ARMS system 
or may not have produced certain e-mails because they were not 
properly captured in the ARMS system. The lawyers who were 
doing the productions were not aware that the ARMS system did 
not contain those e-mails.
    Mr. Barr. On what basis do you make the statement that they 
weren't aware of it? Because it's my impression that they were 
through several means.
    Mr. Burton. Let me--Mr. Shays, do you intend to yield to 
Mr. Barr?
    Mr. Shays. I'll be glad to yield.
    Mr. Barr. There were various articles written in the public 
domain back in 1998 that this problem did exist. Judicial Watch 
furnished letters to Judge Lamberth indicating on the record 
that this problem did exist. We had testimony just a week ago 
that there was a--in July 1998 that Mr. Haas did a search of 
several users' files for e-mails regarding Ms. Lewinsky. And 
that there were a fairly significant quantity that were 
retrieved and they were delivered to the White House counsel's 
office.
    He could not--or at least testified that he could not 
remember to whom they were delivered or precisely when, and he 
professed to have no knowledge or record of when they were 
delivered.
    So, it mystifies me, to some extent, one, to hear you say 
that nobody in the White House counsel's office was aware that 
there was this problem or that these e-mails were not 
retrievable. There was testimony that they were retrievable.
    Ms. Nolan. Sir----
    Mr. Barr. Specifically with regard to--and I'm sure you're 
aware of the testimony last week by Mr. Lindsay, the other Mr. 
Lindsay, that he did in fact deliver this large set of e-mails 
that he had retrieved at the direction of Miss Lambuth to the 
White House counsel's office--where are those e-mails?
    Ms. Nolan. He--the e-mails were produced to the counsel's 
office. The counsel's office checked them against e-mails it 
had already been provided and produced and discovered that they 
were duplicative. So there were no new e-mails. That is my 
understanding of----
    Mr. Barr. But where are they?
    Ms. Nolan. The F drive--Mr. Haas's F drive, which has the 
results of that search, is in the EOP; and a zip disk of that 
has been made; and that's where Mr. Easley----
    Mr. Barr. But where are the e-mails? They were hard 
documents delivered. Where are they?
    Ms. Nolan. The hard documents? Mr. Barr, I will find out.
    Mr. Barr. Well, is there any record of them having been 
delivered to the White House counsel's office in approximately 
July 1998?
    Ms. Nolan. A lawyer in the counsel's office remembers 
checking e-mails against another--a set that we had produced 
and determining that they were duplicative.
    Mr. Barr. Who is that lawyer from the White House counsel's 
office?
    Ms. Nolan. Michelle Peterson, sir.
    Mr. Barr. Might I suggest we subpoena Ms. Peterson? Maybe 
she remembers.
    Mr. Burton. I think that's a good idea.
    Would the gentleman yield for just a moment?
    Mr. Barr. Certainly.
    Mr. Burton. Now, Ms. Peterson according to your testimony, 
you said that they were duplicates of what had already been 
given to various individuals, i.e., the independent counsel and 
then Mr. Hyde's investigation and so forth. Why didn't you just 
go ahead and send those over there instead of checking to see 
if they were duplicates? Because you know there's some question 
among some people about whether or not everybody has been 
getting the straight scoop on what was going on over there and 
what was in these e-mails. For somebody at the White House who 
works for the President to say that they're duplicates still 
doesn't erase all doubt. I mean, why didn't they just go ahead 
and send the hard copies over to the independent counsel and to 
the investigative committees that wanted them?
    Ms. Nolan. Mr. Burton, my understanding is that the 
counsel's office was informed that there was or might have been 
a problem in conducting a search, that the second search was 
done. And I want to be clear that the search, as I understand 
it, was of the server, which is what Mr. Haas testified he did. 
That second search showed that there had not been a problem 
because those documents had already been found, apparently, 
when people----
    Mr. Burton. I know, but that's not the question I'm asking.
    Ms. Nolan [continuing]. When people conducted their own 
searches of their own servers. And so there was no----
    Mr. Burton. I understand.
    Ms. Nolan [continuing]. No question.
    Mr. Burton. But the question is you had hard copies of the 
e-mail. They were sent to the President's chief counsel's 
office, Mr. Ruff's office. Ms. Peterson went through those, and 
she said they were duplicates. But, you see, those of us who 
are investigating don't want somebody at the White House to say 
they're duplicates. We want the hard copy so we can look at 
them and see if they're duplicates. Why weren't those forwarded 
on so that determination could be made by the relevant 
committees that had subpoenaed the documents?
    Ms. Nolan. Sir, I'm not sure how to explain it any better 
than I have. If somebody came to me and said, here are some 
documents; did we produce these? And somebody looks at them and 
says, yes, we produced them. I wouldn't say let's produce 
those, too. That was the question that was being asked. Have we 
produced them?
    Mr. Burton. I think the problem here is they were from a 
different source. They went through Mr. Lindsay's office to the 
chief counsel's office. And they made the determination they 
were duplicates. I think we ought to see those--see all of 
those documents. So we'll send a relevant subpoena up for those 
as well as the zip disk as well.
    Mr. Shays. It's my time. Now I yield to Mr. Shays.
    Are you finished, Mr. Barr?
    Mr. Barr. No, I could use some more time if it's available.
    Mr. Burton. Excuse me. Mr. LaTourette, are you prepared to 
go forward?
    Mr. LaTourette. I'll yield to Mr. Barr. I would be happy to 
yield to Mr. Barr.
    Mr. Burton. Mr. Barr.
    Mr. Barr. Thank you.
    The search that that you were talking about, Ms. Nolan, I 
think you described it as the second search earlier?
    Ms. Nolan. The search that Mr. Haas did?
    Mr. Barr. Is that the search that you're talking about when 
you say the second search?
    Ms. Nolan. I'm sorry. You would have to point me to exactly 
where I said the second search. I assume that's what I was 
talking about.
    Mr. Barr. I think it was pursuant to some of your answers 
to questions by Mr. Waxman you used the term second search.
    Ms. Nolan. You know, unless I see exactly where I said it I 
can't assure you, but my best guess, Mr. Barr, is that, yes, I 
was referring to the search that Mr. Haas did of the server 
after the Mail2 problem had been identified.
    Mr. Barr. What was the scope of that search?
    Ms. Nolan. I don't know exactly, sir.
    Mr. Barr. OK. When was it conducted?
    Ms. Nolan. Some time in the summer of 1998. I'm not sure.
    Mr. Barr. Is the one that you say was conducted by Mr. 
Haas?
    Ms. Nolan. That's correct, sir.
    Mr. Barr. OK. Mr. Raben, last week the Department of 
Justice indicated I think that it was launching a criminal 
investigation of this matter. What was it in particular that 
gave rise to that decision at that particular time last week?
    Mr. Raben. I don't know all of the facts that prompted the 
Campaign Finance Task Force----
    Mr. Barr. How about some of them? Share some of them with 
us.
    Mr. Raben. I know there's a filing that was submitted in 
the civil case that reflects some of the concerns that the 
Campaign Finance Task Force perceived that prompted them to 
initiate their inquiry.
    Mr. Barr. Are you talking about Mr. James Gilligan?
    Mr. Raben. No, sir. There's a----
    Mr. Barr. Who is James Gilligan? Could you tell us how he 
fits into the equation?
    Mr. Raben. I believe that he's an attorney in the Civil 
Division, but I don't know.
    Mr. Barr. OK. But he is involved, is he not, with these 
probes?
    Mr. Raben. I'm not sure what you mean by probes. Do you 
mean the criminal inquiry that's been initiated?
    Mr. Barr. Not only that one but the various investigations 
that have been ongoing, both civil and by the independent 
counsel.
    Mr. Raben. I'm not sure exactly what he does. I can find 
out and get back to you. But I believe he's a Civil Division 
attorney that's been involved in the civil action.
    Mr. Barr. And he was aware at least as far back as December 
1998 about this problem, is that correct?
    Mr. Raben. I have no idea what he was aware of, sir.
    Mr. Barr. Do we a copy of--I have a letter here from 
Judicial Watch dated December 8, 1998, referencing articles 
from an edition of Insight Magazine. And if we could ask--if I 
could ask unanimous consent to have that made a part of the 
record, please, Mr. Chairman.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.131
    
    [GRAPHIC] [TIFF OMITTED] T9621.132
    
    [GRAPHIC] [TIFF OMITTED] T9621.133
    
    [GRAPHIC] [TIFF OMITTED] T9621.134
    
    [GRAPHIC] [TIFF OMITTED] T9621.135
    
    Mr. Barr. That letter is dated December 8, 1998 to Mr. 
Gilligan at the Civil Division of the Department of Justice. 
Now, does Mr. Gilligan work with Michelle Peterson?
    Mr. Raben. Mr. Gilligan, I believe, is the Department of 
Justice attorney. I believe--I don't think I know Ms. Peterson, 
but I think I learned today that she works at the White House.
    Mr. Barr. It's a fact that Mr. Gilligan works with Michelle 
Peterson and Sally Paxton. They are both at the White House 
counsel's office, are they not?
    Ms. Nolan. Sally Paxton is not, sir. She was at the White 
House counsel's office. Michelle Peterson is, yes.
    Mr. Barr. When did Ms. Paxton leave?
    Ms. Nolan. It was before I got there, sir. I'm not exactly 
sure.
    Mr. Barr. How about approximately?
    Ms. Nolan. I don't know. I could get the answer to you, but 
I don't know.
    Mr. Barr. You went there most recently----
    Ms. Nolan. In September of this year. September of--last 
year, rather--September 1999.
    Mr. Barr. But she had been there in 1998?
    Ms. Nolan. I couldn't testify to that. I just don't know. I 
will try to find out.
    Mr. Barr. Maybe Mr. Lindsay is helping us out here. Is he? 
Is Mr. Lindsay helping us out here?
    Ms. Nolan. Not that I can figure out.
    Mr. Barr. Mr. Bruce Lindsay is here. Would you like to 
testify Mr. Lindsay?
    Mr. Lindsay. I'm not sure when she left. We can find out 
for you.
    Mr. Barr. OK. You do have a copy of the December 8th, 1998, 
letter there, I believe.
    Ms. Nolan. Oh, that's what I have. Yes, sir. I haven't read 
it yet.
    Mr. Barr. It's a fairly short letter from Judicial Watch, 
and I don't know if you have the attachments, but there were 
some attachments there. The point is that, at least in December 
1998, Mr. James Gilligan was on notice that there was this 
problem with the e-mails. Do you need to go to another member?
    Mr. Burton. Yes, the gentleman's time has expired. We'll 
come back. I think we're starting our second round.
    Let me just go back to the document that--I'll take my 5 
minutes now--that Mr. Barry signed. Mr. Raben.
    Mr. Raben. Raben.
    Mr. Burton. Raben. I'll get it right.
    Mr. Raben. It's close to the building.
    Mr. Burton. Do you agree that paragraph 4 of the affidavit 
is false?
    Mr. Raben. I haven't seen the affidavit.
    Mr. Burton. Well, stop the clock.
    Mr. Raben. I mean----
    Mr. Burton. Give Mr. Raben the document--56. Would somebody 
give him a copy of the document? It's on the table in front of 
you, I guess. They tell me it is.
    Mr. Raben. Oh, I'm sorry. Yes there is a 56 here.
    Mr. Burton. Would you look at paragraph 4 of the affidavit? 
Would you agree----
    Mr. Raben. Since July 14th, that one?
    Mr. Burton. Yes. Would you agree that that's false?
    Mr. Raben. I just want to be clear. So this is the 
declaration that we're talking about, paragraph 4? Since July 
14th, 1994, e-mail within the EOP, that paragraph?
    Mr. Burton. That's it.
    Mr. Raben. I have no knowledge. I have no ability to 
determine whether it's true or false.
    Mr. Burton. You know, I think I've asked you four or five 
questions, Mr. Raben, and every one of those questions you said 
you have no knowledge or you can't--what are you doing here?
    Mr. Raben. Well, you subpoenaed me, sir.
    Mr. Burton. Well, I subpoenaed--well, I'll tell you what 
I'll do the next time. I'll just have to subpoena the whole 
doggone Justice Department. Because somebody has the answer up 
there. You're the man that was supposed to be the one that 
could answer the questions. You have no knowledge. Did you talk 
to anybody at the Justice Department about the questioning that 
was going to go on this week?
    Mr. Raben. Yes, I did.
    Mr. Burton. Did you go over any of the documents or any of 
the information that we discussed last week or any of the 
testimony of last week?
    Mr. Raben. I looked through some of the public documents 
that I know to have been disseminated in this case, some of the 
transcripts.
    Mr. Burton. Last week, we talked to Mr. Barry, and it was a 
significant part of the discussion. Do you recall us talking to 
Mr. Barry? Did you review any of those documents that we talked 
to Mr. Barry about?
    Mr. Raben. I did not.
    Mr. Burton. You did not. Did you review any of the 
testimony from last week?
    Mr. Raben. I read some of it, yes.
    Mr. Burton. You read some of it.
    Mr. Raben. Yes.
    Mr. Burton. So you came to testify and you hadn't reviewed 
the documents or the information.
    Ms. Nolan, did Mr. Barry express any hesitation about 
signing that affidavit, do you know?
    Ms. Nolan. I don't know sir. I wasn't there, and I don't 
know.
    Mr. Burton. We've been informed that Barry was told not to 
worry about it by Justice Department lawyers, but you have no 
knowledge of that.
    Ms. Nolan. I have no knowledge of that.
    Mr. Burton. Neither does Mr. Raben.
    Mr. Raben, do you know if Barry expressed any hesitation to 
Justice Department lawyers that the affidavit that they help 
him prepare was accurate, was not accurate?
    Mr. Raben. No.
    Mr. Burton. You have no knowledge.
    Mr. Raben. No knowledge.
    Mr. Burton. Who at the Justice Department would have 
knowledge?
    Mr. Raben. Knowledge of what? Of Mr.----
    Mr. Burton. Of this affidavit and whether or not they told 
Mr. Barry that there was no problem with him signing it.
    Mr. Raben. I don't know. I will try to find out for you, 
sir. I presume that we're talking about people within the Civil 
Division.
    Mr. Burton. Do you know who helped him prepare the 
affidavit?
    Mr. Raben. Do not.
    Mr. Burton. You don't know that either.
    Mr. Raben. I do not.
    Mr. Burton. So you don't know if Mr. Barry was told not to 
worry about any problems in the affidavit. You don't know that 
either.
    Mr. Raben. No. I have failed to say and should make it 
clear, I presume, but you will not be surprised to hear that I 
don't know that many of the facts that you're talking about are 
now going to be encompassed or are encompassed within an 
initiated criminal inquiry.
    Mr. Burton. Within your investigation that you will control 
at the Justice Department, correct.
    Mr. Raben. There will be a Justice Department criminal 
investigation of----
    Mr. Burton. And usually when we asked for information, when 
the Justice Department involves itself in a criminal 
investigation, they say that's pending before the Justice 
Department, and a congressional committee has no jurisdiction 
until it has been resolved. That's the kind of answer we've 
been getting time after time. It's before the grand jury, it's 
6-C material, and we can't get anything out of the Justice 
Department.
    Let me just say I want to know--I'm asking you to find out 
who helped draft that affidavit. I want to know exactly who at 
the Justice Department helped prepare that affidavit.
    And, Ms. Nolan, I would like to know at the White House who 
exactly help participate in drafting that affidavit. Because 
I'm going to subpoena those people and have them come before 
the committee and ask them whether or not they gave him that 
kind of information, that there was no risk in him signing 
that.
    Mr. Barr. Would the chairman yield for a moment?
    Mr. Burton. I would like to find out, if you have somebody 
that's an assistant here, if you can get that information by 
the end of the hearing. We're going to be here until 5:30 or 6 
probably. So would you instruct your counterparts from the 
Justice Department and the White House to give us the names of 
the people who worked on those affidavits? We want to talk to 
them. OK. Would you do that?
    Ms. Nolan. Yes, sir.
    Mr. Burton. Thank you.
    Mr. Barr. If the chairman would yield for a moment.
    Mr. Burton. My time has expired. Who's next on the list 
here?
    Mr. Barr, you're next, because Mr. Waxman is not yet here.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, following on your question with regard to the 
timing of the latest so-called criminal probe, the record that 
you've established, Mr. Chairman, clearly establishes that the 
White House knew there was a problem with these e-mails, their 
retention and retrieval as early as January, late January, 
early February 1998. Even if they maintained that somehow they 
did not know then, clearly by the summer of 1998 they knew 
there was a serious problem.
    We also know that the Justice Department had conversations 
with Mark Lindsay in 1998. We also know now that the Justice 
Department knew directly from the civil proceedings that 
Judicial Watch is handling--we'll give them the benefit of the 
doubt--as late as December 1998 that there was a serious 
problem here. Yet the Department of Justice, for reasons 
professed to be unknown by the Department of Justice witnesses 
today, cannot tell us any reasoning as to why the timing of 
their so-called criminal probe didn't occur until last week.
    In the absence of some explanation as to why they sat on 
this for month after month after month after month, Mr. 
Chairman, I'm left, unfortunately, with the same conclusion 
that you have, that the timing of the so-called criminal probe 
announced last week is simply to thwart the discovery in the 
civil case or cases as well as this committee's legitimate 
probe.
    And I agree with you, Mr. Chairman, that is something that 
we ought to look into. Because if, in fact, the system whereby 
legitimate investigations are used legitimately to limit 
outside investigations while a legitimate criminal probe is 
going on in order to protect that information normally within 
the breast of a grand jury is being abused simply to deny 
materials to a plaintiff or--and/or to deny materials to a 
congressional investigation, Mr. Chairman, that goes beyond 
simply incompetence to obstruction of justice and obstruction 
of Congress. And that doesn't even get to the obstruction that 
we went into last week with regard to witnesses testifying 
under oath that they were intimidated into not disclosing 
evidence that they had about this particular problem. So I 
consider the hearing last week and this followup hearing, Mr. 
Chairman, very, very serious.
    And again, the position, Ms. Nolan, that you've taken that 
Mr. Ruff either didn't know there was a real problem here or 
thought it had just gone away or been resolved just does not 
make any sense. White House lawyers knew there was a problem. 
The Office of Administration knew there was a problem. The 
Department of Justice knew there was a problem. It just strains 
credibility for you to say that, in your view, Mr. Ruff thought 
this problem had been resolved. It clearly had not been 
resolved, and that's what's particularly bothersome to us.
    And yet you seem to be saying that the problem, as you all 
saw it, had no effect on the subpoenas until you read about it 
I think you said in the Washington Times in February of this 
year. Are you having us believe that nobody within the White 
House communicates with people in the Office of Administration 
or nobody in the White House counsel's office communicates with 
people at the Department of Justice? Because each one of the 
offices knew there was a problem.
    Ms. Nolan. Mr. Barr, I can't affect what you believe. I can 
tell you----
    Mr. Barr. Yes, you can.
    Ms. Nolan. I can tell you that it is my testimony, it has 
been my testimony through several hours here, that Mr. Ruff has 
informed me that he was aware that there might have been or was 
a problem with a search, that it turned out there was not a 
problem with that search because the retrieved e-mails were 
duplicative, that he was not aware that there was an ongoing 
problem. I can't speak to what the Department of Justice knew 
or----
    Mr. Barr. At what point did Mr. Ruff, in your opinion or 
your view, realize that there was still a problem?
    Mr. Burton. The gentleman's time has expired. We'll let her 
answer.
    Ms. Nolan. We've talked to him in the past month, yes, sir.
    Mr. Barr. He realized there's a problem.
    Ms. Nolan. He realizes now that the Mail2 and letter D 
problems, computer problems, could have affected searches that 
were conducted.
    Ms. Nolan. Yes, sir.
    Mr. Burton. Mr. Barr, we'll get back to you. Mr. Waxman 
would like to have his 5 minutes now.
    Mr. Waxman. Thank you, Mr. Chairman.
    I want to clarify for the record there's been some question 
about Mr. Haas's testimony. And this is from the record from 
last week.
    Robert Haas, with regard to the zip disk,

    Mr. Burton. OK, did you ever save any search responses or 
records on another electronic media such as a zip drive? 
Question.
    Mr. Haas. Just the stuff I saved for the people with the 
subpoena right now last week. I've never saved it on a zip 
drive for anybody.
    Mr. Burton. Never saved it on a zip drive or any kind of 
electronic device that you might have had at home or something?
    Mr. Haas. No, sir. I don't have a zip drive. I have a zip 
drive at home that is currently broke, but I don't have any--I 
just recently got a zip drive at work to record these documents 
last week, but I don't----
    Mr. Burton. The one at home though doesn't have any 
information on it?
    Mr. Haas. No, sir.

    So the central point was what he was asked about he said 
that he had--the stuff he saved for the people with the 
subpoena right now last week.
    Now, I want to also make a point for the record about Tony 
Barry or Daniel Tony Barry. The chairman made a perjury 
allegation regarding his affidavit which was submitted in July 
1999. Now, this affidavit was part of a civil suit brought by 
plaintiffs represented by Larry Klayman of Judicial Watch. Mr. 
Barry is a career civil servant with expertise in technical 
computer matters. I understand that the affidavit was filed in 
response to complaints by Larry Klayman regarding the efforts 
of the Office of Administration to reconstruct e-mails that 
existed before the establishment of the Automated Records 
Management System, or the ARMS, in 1994. This reconstruction 
effort is separate from reconstruction related to the Mail2 e-
mail problem that this committee has recently been examining.
    Mr. Barry's affidavit that describes the 1994 
reconstruction status should be taken in the proper context. It 
addressed questions such as the status of the restoration and 
reconstruction process for pre-July 14th, 1994 e-mail, the time 
and cost associated with conducting the e-mail search proposed 
by the plaintiffs in the civil lawsuit and the steps involved 
with such a search.
    Now it's true that the affidavit did not disclose the Mail2 
computer glitch that occurred several years later. But, given 
the context of the affidavit, it's hard to see how that 
omission would be perjury.
    It appears that the main point of the affidavit was to 
describe the status of the pre-ARMS e-mail reconstruction and 
how searches requested by the plaintiff would be conducted. In 
hindsight it would have been a good idea to include information 
in the affidavit regarding the status of the Mail2 problem. 
However, the omission of that information is a far cry from 
perjury.
    Then I understand an issue has come up with the Armstrong 
case and what was the requirement placed on the White House. 
And in that case--and I was able to read this from the case--
whereas Federal records are subject to strict document 
management regime, supervised by the Archivist, the 
Presidential Records Act accords the President virtually 
complete control over his records during his term of office. 
That's from the Armstrong case. Neither the Archivist nor an 
agency head can initiate any action through the Attorney 
General to effect recovery or ensure preservation of 
Presidential records. So, it would appear that, even though the 
case didn't apply to the Presidential records, the White House 
was still trying to create a system where they would treat the 
Presidential records the same as they would any other Federal 
records.
    And then just on this point about the Justice Department 
launching an investigation in order to keep a real 
investigation from taking place, I think we all ought to 
remember that there's still an independent counsel, Mr. Ray; 
and he's investigating whether he got all the information to 
which he was entitled.
    So even if you accept this theory that Justice is not doing 
the job--and I don't accept that theory that's a huge leap--but 
if you accept that theory, the fact of the matter is there is 
an independent investigator out there looking to see whether 
the e-mails were properly turned over and whether there's 
information that the independent counsel didn't receive 
pursuant to its investigation.
    I see my time has expired, Mr. Chairman. I'll come back 
later with another round.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Ms. Nolan, I have low expectations; and if I do, I don't 
get frustrated. I still don't know who hired Craig Livingstone. 
And I'm dealing with a White House that would send a President 
a memo from Phil Caplan entitled, DNC Finances. And he said, 
``Of this amount, $2 million will be used for campaign, $1.5 
million for campaign winddown and compliance/audit, and $1 
million for potential fines.'' So we had a White House that 
knew they were going to break the law. I certainly knew a 
campaign that would have to pay fines to do it.
    So my expectations are pretty low. But I would like to try 
to get some basic information. One of them is, I want to 
identify this document. You make reference to it. We sent a 
letter on March 21st to James Wilson, the chief counsel.
    Ms. Nolan. Can you tell me what document you're referring 
to, Mr. Shays?
    Mr. Shays. It's NG-1.
    Why don't we put it up on the board? Just that first page 
is good enough.
    Tell me what this document is. This was sent to us by the 
associate counsel to the President, Dimitri Nionakis.
    Ms. Nolan. Nionakis.
    Mr. Shays. Nionakis, thank you. So Mr. Nionakis sent this 
to us. You made reference to it in your testimony. Tell me what 
this document is.
    Ms. Nolan. I'm sorry, sir. I don't remember making 
reference to it myself other than in response to a question, 
but I can.
    Mr. Shays. Turn to the bottom of page 6.
    Ms. Nolan. Page 6 of my testimony.
    Mr. Shays. Your testimony. I would like you to read it, 
read all of 2.
    Ms. Nolan. Oh, yes, sir. I do remember this now.
    Mr. Shays. Would you read it, please?
    Ms. Nolan. ``Absent a search of back-up tapes, we cannot 
currently estimate how many e-mails were affected. Late Friday, 
March 17, N-G counsel provided OA with a document that appears 
to reflect that on June 18, 1998, an N-G employee reviewed the 
affected ARMS managed account on the server and counted the 
number of affected e-mails on the server at that time. I have 
been informed that OA and IS&T personnel were previously 
unaware that that document existed or that anyone had estimated 
the number of unrecorded e-mails. Although we cannot attest to 
the accuracy of this document, we provided it to you 
yesterday.''
    Mr. Shays. Now, do you have any reason to doubt the 
accuracy?
    Ms. Nolan. No, sir.
    Mr. Shays. OK. It says, ``I have been informed that OA and 
IS&T personnel were previously unaware that that document 
existed or that anyone had estimated the number of unrecorded 
records.'' That same language, ``I have been informed that OA 
and IS&T personnel were previously unaware that that document 
existed or that anyone had estimated the number of unrecorded 
e-mails,'' we have two different ``I's'' with the same 
sentence--that's 6. Now, let's just deal with----
    [Exhibit 61 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.204
    
    [GRAPHIC] [TIFF OMITTED] T9621.205
    
    Ms. Nolan. I'm sorry, 61 is?
    Mr. Shays. It's just the same sentence. It's just from 
Nionakis. He said the same thing. That was in his letter of 
transmittal. It's interesting you both use the same sentence 
but ``I'' is you and ``I'' is him. So I want to know who you 
spoke with, who informed you.
    Ms. Nolan. Mr. Nionakis, sir.
    Mr. Shays. So Mr. Nionakis informed you that OA and IS&T 
personnel were previously unaware that that document existed or 
that anyone had estimated the number of unrecorded e-mails. 
That's----
    Ms. Nolan. Previously unaware that anyone had.
    Mr. Shays. Who told you?
    Ms. Nolan. Mr. Nionakis, sir.
    Mr. Shays. So Mr. Nionakis says, I have been informed that 
OA and IS&T personnel were previously unaware that this 
document existed or that anyone had estimated the number of 
unrecorded e-mails. Would he tell me that you told him that?
    Ms. Nolan. No, sir, I don't believe he would.
    Mr. Shays. What do you think he would say?
    Ms. Nolan. I believe that he spoke with the general counsel 
of the Office of Administration.
    Mr. Shays. Now, this document has a lot of names in it. Why 
don't you just tell me what it means, that first page?
    Ms. Nolan. Let me make clear this is a document that a 
Northrop Grumman employee provided. It's not something we 
produced.
    Mr. Shays. You have no interest in this document?
    Ms. Nolan. I did not say that, sir. I just said I want to 
make clear, if I'm going to answer questions, that it's not 
something that I produced or that I'm going to be telling you 
what I know from the document.
    Mr. Shays. Fair enough. I think that's fair to point out.
    My interest is just knowing if you have enough interest to 
know about this document. Because really what the White House 
has consistently done is it has simply chosen not to know 
information. Then they don't have to share information. So I'm 
interested that----
    Mr. Chairman, my time has run out. I wonder if my colleague 
would yield me his 5 minutes.
    Mr. LaTourette. I would be happy to yield it Mr. Shays.
    Mr. Burton. Mr. LaTourette will yield.
    Mr. Shays. Let's just take Dorian Weaver. It has 441, the 
number of 441.
    Ms. Nolan. I'm sorry, sir, where are you on it?
    Mr. Shays. Third name down. What does that mean?
    Ms. Nolan. What does 441 mean?
    Mr. Shays. Yes.
    Ms. Nolan. I believe that the 441 refers to the e-mails 
that were not captured by ARMS.
    Mr. Shays. So now if I turn to page 304 of that document--
--
    Ms. Nolan. Pardon, sir?
    Mr. Shays. If I turn to page 304 of that document, I see on 
the document Phillip Caplan, the same one I believe who wrote 
that memo. I call it the ugh memo because alongside of it is 
the President's handwritten ugh when he learned that they would 
have to pay set aside $1 million for potential fines. So--but 
turn to this document here. Do you see the name Phillip Caplan 
at the bottom?
    Ms. Nolan. Yes, sir.
    Mr. Shays. What's the number you see there?
    Ms. Nolan. I see 944 and 5559.
    Mr. Shays. And may I make an assumption that that's 
potentially 944 e-mails that he sent the White House that we 
haven't yet seen?
    Ms. Nolan. Again, you know, I'm not the creator of this 
document. I am not the best person to answer these questions.
    Mr. Shays. No, you are the best person to answer this 
question.
    Ms. Nolan. The assumption is wrong. Because sir, it--my 
understanding is that the 944 reflects e-mails that came in to 
him, not e-mails that he created.
    Mr. Shays. E-mails that came in.
    Ms. Nolan. From outside the complex.
    Mr. Shays. So we got some e-mails. We just didn't get these 
e-mails.
    Ms. Nolan. We don't know if we got these e-mails or not.
    Mr. Shays. You probably don't care to ever find out.
    Ms. Nolan. Sir, we have hired a contractor to restore the 
back-up tapes and make them searchable so we can do that. I 
certainly do care that we find----
    Mr. Shays. Why should I feel moved by what you said when we 
had Insight Magazine that a year ago talked about this and then 
we had Washington Times that had a story--but this time, unlike 
Insight, they have a name, Sheryl Hall. She broke the story, 
and then you people tell us the problem. You didn't come first. 
We had to read about it in the newspaper, didn't we?
    Ms. Nolan. Sir, that's when I learned of the problem.
    Mr. Shays. But isn't it true----
    Ms. Nolan. No, I don't understand what you're saying is 
true.
    Mr. Shays. Isn't it true that this was a problem that 
existed for a long period of time? The White House knew for a 
fairly extensive period of time. We have testimony I believe 
from last week that two personnel from the White House were 
told of this document--you don't have the document. OK.
    The question I have is that the first time we learned about 
it was through a newspaper story. And it's your story that the 
first time you learned about it was through the newspaper?
    Ms. Nolan. It is my testimony that the first time I learned 
of it was with respect to the litigation. I don't know if it 
was in the newspaper.
    Mr. Shays. When was the first time that John Podesta 
learned of it?
    Ms. Nolan. As I testified earlier, John Podesta----
    Mr. Shays. June 19th, 1998. That's when he learned of it.
    Ms. Nolan. He learned of some problem, sir. I don't know--I 
can tell you this: In the past month, my understanding of the 
problem has grown quite a bit.
    Mr. Shays. What is the date on the front page of this 
document?
    Ms. Nolan. This document was provided to us less than 2 
weeks ago, sir. Less than 2 weeks ago.
    Mr. Shays. What is the date of it? At the top of it?
    Ms. Nolan. I don't see a date. Oh, 6/18/98.
    Mr. Shays. Right. Now, I had made reference to you of 
246,000 e-mails. And you said, well, you didn't know how many. 
Why wouldn't you have counted these up?
    Ms. Nolan. Sir, this reflects the count that was done by 
Northrop Grumman employee on a particular day. There are 3,400 
back-up tapes. There may well be e-mails on those that aren't 
reflected here.
    Mr. Shays. I understand. But I'm just curious why you 
wouldn't have wanted to know how many we were talking about. 
Are we talking about 50? Are we talking about a few thousand? 
Why don't you have any curiosity to find out these--I would 
have wanted to know, if I were you. I would have wanted to know 
how big the potential universe is.
    Ms. Nolan. Mr. Shays, I want to know, too. That's why we 
have a contractor, to look at those 3,400 or more back-up tapes 
and find out. That's the way we'll know.
    Mr. Shays. This document includes 247, give or take, 46,000 
potential e-mails. Correct?
    Ms. Nolan. I don't know that, sir.
    Mr. Shays. Because you didn't count them. Their numbers are 
right here. You haven't asked anyone to just add them up.
    Ms. Nolan. I have not added them up, sir.
    Mr. Shays. You did not ask anyone else to.
    Ms. Nolan. I did not ask anyone.
    Mr. Shays. How come?
    Ms. Nolan. Sir, I thought--you know, what I wanted to do is 
see that we get those back-up tapes restored and searched, and 
that's what I'm doing. If you want to count e-mails on a 
particular day, you can do that. But that is not going to 
answer the question.
    Mr. Shays. Bruce Lindsay----
    Mr. Burton. Excuse me. I have the next round, and I'll 
yield to my colleague.
    Mr. Shays. I mean, just going through them, my curiosity--
--
    Ms. Nolan. Can I answer two questions?
    Mr. Burton. If the gentlemen would yield, I understand that 
the witnesses need to take a quick break, and if that be the 
case----
    Mr. Shays. Let's do that.
    Mr. Burton [continuing]. We'll allow them, if we could, 5 
to 10 minutes for that. And whatever questions you have of the 
Chair we'll answer when you come back.
    Ms. Nolan. Thank you very much, Mr. Chairman.
    [Recess.]
    Mr. Burton. The committee will reconvene.
    Mr. Shays, you have my time.
    Ms. Nolan. Mr. Chairman, can I make the----
    Mr. Burton. Yes, hold it just a second. Yes, ma'am.
    Ms. Nolan. You had asked or the committee had asked two 
questions. I said I would try to get back to you today.
    Mr. Burton. You have the answers.
    Ms. Nolan. Sandy Paxton left the White House on January 4, 
1999.
    Mr. Burton. OK.
    Ms. Nolan. And Michelle Peterson was the counsel's office 
lawyer working on the case at the time that the Barry affidavit 
was done.
    Mr. Burton. So she----
    Ms. Nolan. She worked on the case. I don't know yet whether 
she worked on the affidavit. But she was--she was the counsel's 
office lawyer who was responsible for that case.
    Mr. Burton. Well, the thing is----
    Ms. Nolan. So if it was somebody in the counsel's office it 
would have been Michelle Peterson.
    Mr. Burton. The reason I would like to have a definitive 
answer from both of you today is because we're going to have 
more hearings, but I want to minimize those. If we bring more 
people in, we say, it wasn't me, it was somebody else. We have 
to go through this again and again. I mean, we're going to be 
consistent and follow through to get as many of these answers 
as possible. So, Mr. Raben, have you found out anything?
    Mr. Raben. No, I sent a gentleman to check, and we're 
waiting on an answer, sir.
    Mr. Burton. You'll inform us as soon as you're ready.
    Mr. Shays.
    Mr. Shays. Thank you.
    Ms. Nolan, you may have misspoke, and I don't want to try 
to trap you into misspeaking. You said the first time you 
learned about the problem was reading it in the newspaper on 
March--on February 15th. Is that your testimony?
    Ms. Nolan. No, sir. You said that, sir. I don't believe I 
said that. I said that the first time I learned about the scope 
of the problem was following the filing in the case. I was 
briefed in February. I'm not sure----
    Mr. Shays. Weren't you briefed in January?
    Ms. Nolan. I was briefed in January, as I testified this 
morning, about a post-presidency transition.
    Mr. Shays. You were briefed that there was a problem with 
the Mail2 issue.
    Ms. Nolan. I was briefed on the Mail2 and letter D problem 
but not, sir----
    Mr. Shays. So we found out after the story. You found out 
before the story.
    Ms. Nolan. I did not find out the scope or nature of the 
problem, no, sir.
    Mr. Shays. So you said there were--the scope is 526 total 
users affected. That's a pretty large scope.
    Ms. Nolan. Earlier, sir, you thought that the scope was how 
many e-mails----
    Mr. Shays. No, but that's the users. So your noninquisitive 
mind is really demonstrated here.
    Did you find----
    Ms. Nolan. That's the first person who has accused me of 
that, sir.
    Mr. Shays. Well, I'm accusing you of it.
    Ms. Nolan. I hear it. I hear the accusation, sir.
    Mr. Shays. And the accusation is very clear. You were given 
a document ultimately that had thousands, hundreds of thousands 
of names. Let's just go through some of these names. I would 
think you would have wanted to go through it. Phillip Caplan, 
who wrote the ugh memo, he had 944; Bruce Lindsay, 17; Betty 
Curry, 811. Boy, I would love to see some of these e-mails.
    Ms. Nolan. I am informed, sir, that these e-mails----
    Mr. Shays. I'm not finished. Erskine Bowles, 161; Ira 
Magaziner, 3,693; Bill Clinton, 2.
    Now, see, the reason I'm speaking this way is it is only, 
you know, that one memo from Mr. Caplan I'm sure people didn't 
want us to get when they acknowledged that they knew they were 
going to break the law and be fined a million dollars 
potentially. So you know, even one out of 246,000 might be very 
interesting for us to see, might be pertinent to all these 
investigations.
    What did you want to say?
    Ms. Nolan. Mr. Shays, I wanted to say, first of all, memos 
by Mr. Caplan would have been captured because it's only e-mail 
coming into the system that was affected by the Mail2 and 
letter D problem.
    Mr. Shays. Is it your testimony that he never sent e-mails 
from outside the White House to the White House? He sent e-
mails back and forth from outside and inside? I mean, clearly 
you're not saying that to us.
    Ms. Nolan. It's not my testimony. I have no idea what his 
practice was.
    Mr. Shays. So do you want to withdraw the statement you 
just made implying----
    Ms. Nolan. I wouldn't like to withdraw it, sir, but I'm 
certainly happy to be more specific. E-mail written by Mr. 
Caplan in the EOP would have been captured by an ARMS search, 
as I understand the ARMS system.
    The second thing I would like to say----
    Mr. Shays. If he sent them outside, they wouldn't be 
captured.
    Ms. Nolan. No sir, they would. It's only e-mail that came 
into the complex. That's exactly what I mean about how 
difficult it is to understand this problem.
    Mr. Shays. If he sent them from outside to in.
    Ms. Nolan. If he sent them from outside to in during the 
relevant periods, they would not have been captured by ARMS. 
Unless--but they may have been left on the server, they may 
have been captured because they were forwarded or because they 
were replied to with history.
    The other thing I wanted to say about these numbers is that 
I understand that the numbers refer to how many incoming e-
mails there were on somebody's server, not necessarily how many 
incoming e-mails had not been captured by ARMS.
    Mr. Shays. So your point is that the number is going to be 
less, and I agree with that. I mean, you may find that this 
number of 246 will be reduced because you have an e-mails found 
in individual PCs. You may find it's reduced because you have 
e-mails found attached to sent e-mails with history. You find 
it reduced because e-mails found in printed files. You may find 
it reduced because e-mails retrieved from back-up tapes. All of 
that may be true, but given the extraordinary number of e-mails 
they're probably going to be thousands and thousands and 
thousands that aren't.
    Mr. Burton. Mr. Shays, we'll get back to you. We are now 
going to the long-suffering Mr. LaTourette.
    Ms. Nolan. May I make something clear, sir?
    Mr. Burton. Sure.
    Ms. Nolan. The left column, as I understand it, is total e-
mail; and the column under the name on the record we're looking 
at, as I understand it, is unrecorded e-mail.
    Mr. Burton. Before we go to Mr. LaTourette, I just want to 
clarify one point that you made. You said that a contract had 
been signed and that it was going to take approximately 6 
months and that they were going to be going through these e-
mails in batches, starting with the most current and going 
backward, is that correct?
    Ms. Nolan. The timing of what e-mails will go through or 
what back-up tapes has not been determined yet, sir. It is 
correct that a contract was signed this week and that----
    Mr. Burton. Who will make that determination?
    Ms. Nolan. We will--the counsel's office will work with the 
various investigative bodies and the Office of Administration 
who's administering the contract.
    The first thing they have to do is get the back-up tapes on 
a system, as I understand it, and figure out what dates they 
reflect and that kind of thing. We just don't have that 
information yet.
    Mr. Burton. We'll need to talk to you about that later.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Ms. Nolan, I was out of the room after the votes. Did you 
find the information that Mr. Waxman's question--that is, how 
many e-mails from the Office of the Vice President have been 
turned over?
    Ms. Nolan. I haven't gotten that answer yet, Mr. 
LaTourette.
    Mr. LaTourette. When you do do that, could I add a couple 
of additional requests, that is, that in--that sort of you can 
tell us how many were from the Vice President himself, Mr. 
Gore. And, two, if you could supply to the committee in writing 
the names of the three e-mail users who have accounts created 
after 1997 but who are not being captured by the ARMS system 
from the Office of the Vice President--if you could supply that 
to the committee, I would appreciate it.
    Here as I have been listening that the problem that I 
continue to have and I think some of my colleagues continue to 
have is that--over this assertion that when Mr. Haas does this 
manual search that everything that he finds is duplicative. 
Here's why I have trouble with it.
    Mr. LaTourette. The reason that this problem became--people 
became aware of it at all was Mr. Barry finds two--one side of 
a conversation that Monica Lewinsky is having with someone in 
the White House. And so not within the White House complex is 
this missing e-mail, that is, the one that's come in, that's 
how this problem came about. So for someone then to go on to 
the server and say that you dredged up, with the name of 
Lewinsky or Betty Curry or whatever, you dredged up this entire 
body of information, that can't be right because the problem is 
the stuff that was coming in isn't there any more.
    And the reason is, just to go one step further, when we 
were talking to Mr. Haas, he said that when the White House got 
a document request they would ask for people--for instance, if 
there was something relative to your computer, could you please 
check your hard drive and see what's located there. But if you 
deleted it before the end of the business day, when the server 
kicks in to run the back-up tape, it's gone. I mean, it's 
nowhere unless it's been captured by ARMS, and these things 
weren't captured by ARMS. So they are just gone.
    And that's the difficulty that I think that we're having 
when you say that it is duplicative. And I just want to turn 
your attention to----
    Ms. Nolan. Mr. LaTourette, may I just mention that it is 
gone, unless, as I said, it was forwarded or replied to with 
history and that kind of thing.
    Mr. LaTourette. Again, I'm sort of computer stupid, but I 
know that at the end of every day when I shut down my Microsoft 
exchange or whatever it is, it deletes everything in my deleted 
section, they're gone, and then the server in my office backs 
things up at five o'clock every night. So anything that I've 
deleted from my computer during the course of the day isn't 
backed up anywhere, it's gone, you're right, unless I've 
maintained it or forwarded it or done something else.
    But to suggest that that happened to all of them I think is 
not--doesn't comport with what the reality of the user system 
is.
    If you could look at an exhibit that we've marked WH-3----
    Ms. Nolan. Let me find it.
    Mr. LaTourette. Sure.
    Ms. Nolan. I have it.
    Mr. LaTourette. Do you know who the author of that document 
is, WH-3?
    Ms. Nolan. They were drafted by Dimitri Nionakis, an 
associate counsel.
    Mr. LaTourette. All right. And, specifically, if I could 
turn your attention to the beginning and something on page two 
called the Affect on Searches to Respond to Subpoena Requests. 
About the, oh, the second question under that: ``but if you 
didn't search these e-mail, you haven't really complied with 
all the subpoena requests.''
    The answer is: ``that isn't really accurate. When we search 
for responsive materials, in addition to the ARMS search, all 
individual users are told to search their own computer records. 
So a search should have covered everything on the server at 
that time, including any undeleted incoming e-mails.'' Which is 
what we've been talking about, any undeleted incoming e-mails.
    The next question is: ``what if they were deleted before 
the search of the server?''
    And then the answer is: ``then it would be the same as 
someone tossing out a piece of paper that they didn't need 
anymore.''
    ``did you search the server to see if they were still 
there?''
    And then this question is the one I want to--the answer is: 
``as we've told congressional committees and independent 
counsel, the server could only be searched manually, and we 
don't have the time or the funds to perform manual searches for 
every subpoena request.''
    And this document was prepared for what, the White House 
counsel's office?
    Ms. Nolan. It was prepared as talking points, I believe, 
for press discussions. It only stayed in draft. We didn't use 
it. So we never finished it.
    Mr. LaTourette. But the fact of the matter is, in response 
to subpoenas or requests, be it from a court or a congressional 
committee, as I understood it, a memo would go out and say, 
hey, we've gotten a subpoena, please search your hard drives. 
And people would look at their hard drives. But if they weren't 
there, we wouldn't find them. But there was no obligation then, 
nor was anything done to search the servers because of the time 
and expense.
    Ms. Nolan. Yeah. It seem like that there was some confusion 
about that.
    I'd like to try to clarify it if I can. I am not sure my 
computer expertise is any different from the one you said you 
have.
    When an EOP user turns on his or her computer, there are e-
mail accounts, there are word processing accounts. The e-mail 
accounts--my e-mail, when I open my computer and turn it on and 
go to my e-mail, all that e-mail actually resides on the 
server. It doesn't reside in my hard disk on my PC. But if I'm 
told to search my e-mail, I go to my e-mail account and search 
that e-mail. It physically resides on the server, but to me and 
to any average, normal person, I think, it looks like that is 
the e-mail on my computer.
    So there's a technical difference between what's on your PC 
and what's on your server but not a real-life difference to 
people who are doing the searches of their own computers.
    Mr. LaTourette. If I could just ask one more question, Mr. 
Chairman.
    This is the point. I think you're exactly right, and you do 
appear to have as much knowledge as I do about computers, but 
that stuff is on the server. It's not on your computer after 
you've gotten rid of it.
    In other words, if you sent me an e-mail, I open it, I 
write back to you, but then I delete that string, that 
correspondence, it may be on your server and my server--not 
mine if you have sent the e-mail--but it's no longer on my 
computer, and there's no way I can retrieve that from my 
computer.
    Ms. Nolan. If I delete an e-mail, I'm deleting it from the 
server as well as from my computer. There's no difference.
    Mr. LaTourette. Unless--OK, unless--I would say this. 
Unless you left it at the end of the business day, the system 
backs up.
    Ms. Nolan. Then it's on a back-up tape, sir, but it would 
not be on the server anymore.
    Mr. LaTourette. OK. My time's up. I'll come back later.
    Mr. Burton. OK. Mr. Barr.
    Mr. Barr. I'd like to yield time to the gentleman from--
where is it? Somewhere in the Midwest, Ohio?
    Mr. LaTourette. It's Ohio, Mr. Barr. It is right on top of 
Georgia almost. And I thank the gentleman for yielding.
    I want to talk a little bit about something we were talking 
to Mr. Mark Lindsay about when we was here last week, and that 
is, he talked about a prioritization list. In other words, 
although what was the matter with the system didn't apparently 
come to Mr. Ruff's attention, according to what he's told you, 
Mr. Mark Lindsay had a very good understanding of, that this 
was a two part problem. One is, and they called it stopping the 
bleeding, that is, to make sure that all incoming e-mail was 
captured by the ARMS system, and that's what cost $600,000, and 
they worked real hard on them, and some people said they called 
it project X after the X files and all that other business.
    But the second part was the reconstruction of all of the 
stuff that hadn't been captured in over 2 years, and Mark 
Lindsay understood that, and he indicated that he had a series 
of meetings with people, and this was sort of like when one of 
those honey-do lists that, OK, we have to do this with our 
computers, we have to reconstruct the e-mails that we didn't do 
to put them into the ARMS system, we have to do that. And I 
think he used the word mission-critical. He said that there was 
a list established that identified mission-critical things that 
needed to be done.
    One thing that he recalled was there was a Cabinet meeting, 
apparently, and the Vice President said, you know what, there's 
going to be a poster child for Y2K non-compliance, and I'm 
going to tell you right now, it's not going to be the White 
House, and so you guys get your act together and make sure 
we're all squared away.
    So Mr. Lindsay spent a lot of time getting Y2K compliant. 
He did a lot of other things, but he told us last week that he 
knew that this was a problem, but he didn't do anything to 
reconstruct this MAIL2 server problem because it wasn't 
mission-critical. Do you have any knowledge of that whatsoever?
    Ms. Nolan. I have knowledge of something around that, Mr. 
LaTourette.
    Mr. LaTourette. Why don't you tell us what you know?
    Ms. Nolan. That--it is my understanding that the Office of 
Administration made a determination that it would first do all 
necessary Y2K compliance and then begin the reconstruction of 
the e-mail. It's my understanding that they thought of it as a 
historical matter, a Presidential records historical matter and 
Federal records, and they were really thinking of Federal 
records, I think, and that the Office of Administration, 
therefore, did not see this as something that had to be done 
immediately.
    Mr. LaTourette. All right. Knowing what we know today as we 
all sit here and the knowledge that you've gained, that 
probably wasn't the smartest decision in the world in terms of 
it was something that needed to be done to adequately respond 
to subpoenas and other requests for documents from the White 
House, didn't it? I mean, we're not unclear on that?
    Ms. Nolan. I think there was a disconnect between those who 
were doing the searching for subpoenas and those who were 
handling the computer issues, yes, sir.
    Mr. LaTourette. I think that's right. And one of the things 
that came up in the hearing that--it's not comical because 
it's--again, there was a lot going on with this administration 
in terms of people wanted documents and were entitled to 
documents relative to investigations, legitimate 
investigations.
    One of the things that--there's a document, I think it's 
labeled exhibit 80, that at the time that people were being 
told that this wasn't mission-critical and we were going to do 
other stuff, Northrop Grumman was directed to get the White 
House Christmas card list in order rather than reconstruct the 
problem with the MAIL2 server. That's right, right?
    Ms. Nolan. I'm sorry, sir. I hadn't seen that document 
before.
    Mr. LaTourette. OK. Well let me--maybe if the fellow who is 
helping you can get out exhibit 80.
    [Exhibit 80 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.472
    
    [GRAPHIC] [TIFF OMITTED] T9621.473
    
    [GRAPHIC] [TIFF OMITTED] T9621.474
    
    [GRAPHIC] [TIFF OMITTED] T9621.475
    
    [GRAPHIC] [TIFF OMITTED] T9621.476
    
    [GRAPHIC] [TIFF OMITTED] T9621.477
    
    [GRAPHIC] [TIFF OMITTED] T9621.478
    
    [GRAPHIC] [TIFF OMITTED] T9621.479
    
    [GRAPHIC] [TIFF OMITTED] T9621.480
    
    [GRAPHIC] [TIFF OMITTED] T9621.481
    
    [GRAPHIC] [TIFF OMITTED] T9621.482
    
    Ms. Nolan. Yes.
    Mr. LaTourette. And if we can go to--it's a multipage 
document, and I think I'd like you to go to page 4, and that 
indicates that the Lotus Notes team continued the development 
of the holiday card application, and they made a couple of 
presentations on August 24th they developed to EOP management. 
And who is the Executive Office of the President's management 
team that the holiday card package would have been presented 
to?
    Ms. Nolan. The management of the Executive Office of the 
President is the Office of Administration. I don't know what 
team.
    Mr. LaTourette. OK. Then on August 26th they made a second 
presentation of how swift these Christmas cards were going to 
be to Ada Posey, who was the director of the Office of 
Administration, is that right, or at least according to exhibit 
80?
    Ms. Nolan. That's what it says there.
    Mr. LaTourette. Did you have any knowledge as to how much 
money the Christmas card package cost the White House to get 
that up to speed but we couldn't reconstruct the missing e-
mails? Do you have any idea what it cost?
    Ms. Nolan. I don't know anything about that.
    Mr. LaTourette. Is that something you could find out for us 
and perhaps get back us to about?
    And at the same time, sadly, the President has been quoted 
in the press saying that, you know, this is going to cost a lot 
of money to do this. And if people knew how much time and 
money--and I just find it to be a little odd that we're being 
told that there wasn't enough money, there wasn't enough time, 
some people didn't even know there was a problem, but 
apparently we did have time to make sure that our Christmas 
cards got out that particular year rather than responding to 
subpoenas from relevant courts of jurisdiction and no less than 
three committees of the U.S. Congress.
    And I thank you, Mr. Chairman.
    Mr. Burton. The next gentleman that we're going to hear 
from is Mr. Horn, but before we go to Mr. Horn I want to 
clarify one thing regarding Mr. LaTourette's questioning. You 
said they thought of it as historical. Who is they?
    Ms. Nolan. The Office of Administration, sir.
    Mr. Burton. The Office of Administration. What was the name 
of the person?
    Ms. Nolan. Sir, I think we were talking about Mr. Lindsay. 
What I meant was that they were thinking of the reconstruction 
issue as one that had to be done for historical purposes.
    Mr. Burton. But not of an immediate nature or anything like 
that?
    Ms. Nolan. I believe, sir, this is where the disconnect or 
miscommunication was, that he--he believed that the counsel's 
office understood the nature of the problem and was handling 
anything with subpoenas. The counsel's office did not. I think 
that's what happened, sir.
    Mr. Burton. Well, Mr. Lindsay and Ms. Crabtree, according 
to the people from Northrop Grumman, were very concerned. The 
people from Northrop Grumman said that they felt like they were 
in jeopardy of their jobs, and some even jail, if they said 
anything even to their spouses, some of them said. So for you 
to say that they only thought of it as historical really kind 
of boggles my mind.
    Ms. Nolan. I'm sorry, sir. I wasn't talking about the 
entire problem. I was talking about doing the reconstruction--
when the reconstruction needed to be done by.
    Mr. Burton. Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman.
    Let me ask you a series of questions that maybe can clarify 
in some of our minds the problem of the server and the e-mail 
and the complexity of it. As I understand it, the White House 
e-mail users delete their own e-mail, don't they, when they are 
tired of it?
    Ms. Nolan. Yes, sir, they can delete their own e-mail.
    Mr. Horn. And that doesn't go through a server, does it?
    Ms. Nolan. It resides on the server until they delete it.
    Mr. Horn. OK. But they have the control of bringing that 
message back and getting rid of it?
    Ms. Nolan. They have control of deleting it. They don't--
once it's deleted, they don't have control of getting it back, 
no, sir.
    Mr. Horn. In fact, they're encouraged because of the 
computer space restraints, isn't that it, the old problem of 
not enough memory?
    Ms. Nolan. Yes, I think that's right, not to retain too 
much e-mail on the server.
    Mr. Horn. So when individual computer users search their 
computers in response to a subpoena they aren't necessarily 
going to find all the responsive e-mails on either the computer 
or the server. Where are they? Let's assume something was 
there, where is it likely to be found? On the server or on that 
computer or both?
    Ms. Nolan. Sir, they're the same thing for purposes of an 
EOP user. The user turns on his or her computer. To get to your 
e-mail all you're really seeing is what's on the server, your 
account on the server. So what you see on your computer--unless 
you actually save it to the hard drive, what you see on your 
computer is what's on the server.
    Mr. Horn. Are there other areas that they can park messages 
besides that server that relates to----
    Ms. Nolan. You could save it to the hard drive, as I 
understand it, sir.
    Mr. Horn. OK. The hard drive that's related to that 
computer directly?
    Ms. Nolan. That computer.
    Mr. Horn. All right. But are there other places in the 
White House where they can put some of these messages? Say they 
didn't want to delete them because they might use them sometime 
and want them and yet they could delete some from the server, 
let's say, is there another server around? Is there another 
system around where they can plant that message? What's your 
experience?
    Ms. Nolan. I don't think so, sir. I'm not sure I understand 
the question, but if I do----
    Mr. Horn. The question is very simple.
    Ms. Nolan. If I do, you could print out the e-mail, you 
could save it in paper file. The ARMS system, when it operates 
as we understood it to operate, would have captured it, and it 
would always stay in the ARMS system, but if the ARMS system 
isn't working, then other than sending it electronically 
somewhere else, just forwarding it or printing it out, I'm not 
aware of any other place to keep it.
    Mr. Horn. Well, a lot of people would do, as you say, a 
printout because they might want to say this is there and it's 
under my nose, in my desk and that kind of thing.
    To your knowledge, when the request for the subpoenas came 
in and we needed some of that and other investigations needed 
some of that by either keyword name or whatever or a date 
period when something happened--and we're talking here really 
back certainly to 1996-1998 and when you go into Waco, it gets 
back to 1993, but it might have been something said between 
1996 and 1998--so how did the counsel's office deal with that? 
Did they say, look, here are some of the keywords and let's 
print them out if they're on your disk? How did it work with 
most people?
    Ms. Nolan. The counsel's office would send a directive to 
the affected entities in the EOP complex directing that people 
search their files, whether in paper form, computer form or any 
other form, and then in addition--so each individual would be 
responsible for looking for those requests, and we would 
generally just indicate what it is that the subpoena has 
requested, what the document request is. And then, in addition, 
a White House lawyer would work with IS&T to develop a keyword 
search to search electronically on the ARMS system.
    Mr. Horn. Now, did that happen for what period, where you 
say ran a tape and then you searched the tape with a keyword 
index?
    Ms. Nolan. As far as I know, there was no searching of 
tapes. The ARMS system is an on-line retrieval system, and so 
that would be searched, and people would look at their 
individual paper files or computer files.
    Mr. Horn. I would think that one of the problems here is 
that the counsel's office or the Office of Administration, 
working with the counsel, because they would know how the 
computer system works, that they would be able to lay out a 
pattern as to how you get that information, and I would think 
they would say to everybody, if you're on the system and you're 
involved with this name or that name, print it out, and they 
didn't do that, did they?
    Ms. Nolan. When there was a document request, people were 
directed to search their--for computer records, if they found 
them, they would print them out and provide them to the 
counsel's office for production.
    Mr. Horn. Does the counsel send them back and say, this 
isn't what is subpoenable? Or what was the counsel's role in 
all this?
    Ms. Nolan. The counsel's office then looks through material 
to determine if it's responsive to the subpoena and either 
produces or notifies the committee if there are privilege 
questions of what records it has. But when people do searches, 
they often come up with things that would have the right 
keyword or the right name but aren't related at all to the 
subpoena request, especially when you get into some of the 
broader ones, and so the counsel's office role is to determine 
if documents are responsive.
    Mr. Horn. It sort of comes to mind that it seems to me the 
counsel is at the point of where they can take evidence and 
just get rid of it because they have got the print, they say, 
oh, well, that isn't what they want, bang, good-bye to it. So 
did they send it back to some of the people with the servers 
and the computers so--and who was to take it off the particular 
drums, if you will, for want of another word? Who would take 
that message off the server when they'd done the printout? And 
what was the pressure to sort of get sudden memory by sort of 
moving in on the disk and getting more space and with it goes a 
lot of messages? How much did that occur? Any occurrence of 
that, that you know of? Did people just get a big laugh out of 
it?
    Ms. Nolan. Mr. Horn, I am not aware of anything that would 
suggest that the counsel's office gets rid of documents. It 
produces thousands and thousands and thousands of them. It is 
true that the EOP like, as far as I'm aware, any organization 
I've ever been a part of routinely encourages people when 
server space gets low to delete unnecessary e-mail, to save e-
mail that they still need, but that's routine. There's nothing 
the least bit nefarious about that, sir. That happens in every 
organization.
    Mr. Horn. Does that happen on a 6-month routing there where 
they say loosen up the thing?
    Ms. Nolan. I have been there I think almost 7 months. I 
don't know if we've gotten such a notice in the time I have 
been there. I could check and see when the last one was.
    Mr. Horn. Do you know from 1996 up did they do that or did 
they increase the amount that they wanted wiped off the 
computer or the server?
    Ms. Nolan. It did happen at some period, but I don't know 
how often, sir. I just don't know.
    Mr. Horn. Can you sort of find out and let us see some of 
those memos that say for the sake of more memory we'd like you 
to get rid of messages you don't need to have there?
    Ms. Nolan. I know we have produced samples of those. I'll 
try to make sure that we have all of them, sir.
    Mr. Burton. The gentleman's time has expired.
    Mr. Shays.
    Mr. Shays. Ms. Nolan, I want to just clarify a little bit 
better why you didn't come and tell this committee when you had 
a briefing in January about the problem. What did you learn 
from the Washington Times story of February 15th? What did you 
learn about then that you didn't know before? It seems to me 
the only thing you really learned was that there was someone 
who had gone public. What did you learn?
    Ms. Nolan. Sir, what I learned when the filing was made in 
the case was that there might--that there was--I then learned 
from OA staff that there was a continuing situation in which 
incoming e-mail was still not on ARMS.
    Mr. Shays. Let's forget the continuing. The bottom line 
was, there was still e-mails that may be pertinent to some 
independent counsel, special counsel, investigative committee. 
You knew that before, so that would be relevant.
    Ms. Nolan. No, sir, I did not.
    Mr. Shays. You did not know what?
    Ms. Nolan. I did not know that there were e-mails that 
would have been pertinent that had not been produced or could 
not be produced.
    Mr. Shays. It is your testimony before this committee that 
this problem of a MAIL2 configuration that, when you were 
briefed, that there were--it was in that briefing you were told 
there were no outstanding e-mails that hadn't been forwarded to 
the committee?
    Ms. Nolan. I was briefed----
    Mr. Shays. It's a stretch.
    Ms. Nolan. I was briefed, sir, about an issue that they 
were going to do reconstruction for the Presidential or the 
Federal Records Act. I did not understand at the time it was a 
very----
    Mr. Shays. What didn't you understand? I don't understand 
why you wouldn't understand. The bottom line was, there was 
this bottomless pit of e-mails that simply weren't being 
recovered.
    Ms. Nolan. I was not told that there was a bottomless pit 
of e-mails that weren't being recovered.
    Mr. Shays. So let's just say some e-mails.
    Ms. Nolan. I was told that there had been a problem. They 
were reconstructing or going to reconstruct----
    Mr. Shays. Reconstruct means that they needed to capture 
these e-mails that were still outstanding. Why wouldn't the 
committee have been told that you were trying to reconstruct--
--
    Ms. Nolan. I did not understand that, sir.
    Mr. Shays [continuing]. So you could find the e-mails? I 
don't get it.
    Ms. Nolan. I understand you don't get it. I don't know how 
to say this a different way or to say it uninterrupted, but 
what I have said, and it is my testimony, that I was given a 
briefing, it was in a meeting for a post-presidency transition 
issue. It was very brief, and it was that there was a problem. 
They were--they did discuss reconstruction. I did not 
understand----
    Mr. Shays. I understand what reconstruction means. What is 
reconstruction? I just want to know what reconstruction means.
    Ms. Nolan. Can I be permitted to finish what I'm saying 
first, sir?
    Mr. Shays. Sure. But then tell me what reconstruction 
means.
    Ms. Nolan. I will finish what I'm saying, and then I will 
answer your question, sir, but I don't find that I can answer 
your question if halfway through it you ask me another 
question. I feel like I'm not able to tell you what I know. You 
obviously choose not to believe me. I can only testify what 
happened and what I know.
    Mr. Shays. Don't lecture me. Just tell your story. What's 
your story?
    Ms. Nolan. Sir, this is my testimony.
    Mr. Shays. What is your testimony?
    Ms. Nolan. My testimony is that I was given a briefing by 
several people from the Office of Administration on January 
19th, I believe is the date. It was regarding a number of post-
presidency transition issues. At that time, they informed me 
about a MAIL2 and letter D anomaly or problem, I believe is 
what they called it. I believe I was told that they were 
reconstructing, and my understanding of reconstructing was that 
they had tapes somewhere that they were going to put on a 
different system.
    I did not understand at that time and I am confident that 
other people in that meeting did not understand at that time 
that there had been or was an ongoing problem with regard to 
ARMS searches for subpoenas. It seems very clear now that those 
were the same problems. It was not clear to me in that very 
brief meeting on January 19th that that was the case.
    Mr. Shays. But reconstruct sounds like they've got a 
problem. It means something to the effect that they don't have 
certain e-mails and they have got to reconstruct them. It's 
your testimony that you did not realize that there were e-mails 
that were not being made available? Is that your testimony?
    Ms. Nolan. Mr. Shays, that's what I've testified, yes, sir.
    Mr. Shays. OK. So now tell me tell me what you learned 
afterwards.
    Ms. Nolan. They were telling me about a Federal records 
issue, about Armstrong compliance, which, as I've testified, is 
not--does not--Armstrong itself does not apply to the White 
House and Presidential records. I did not understand this to be 
a problem affecting White House searches of documents.
    Mr. Shays. And your testimony is that everyone else in the 
committee--in that briefing had the same impression you had?
    Ms. Nolan. No, sir. I think the people who did the briefing 
from the Office of Administration understood----
    Mr. Shays. So is the Office of Administration the White 
House?
    Ms. Nolan. It's part of the Executive Office of the 
President, sir, yes.
    Mr. Shays. I'm being a little facetious. So the White House 
knew, correct?
    Ms. Nolan. Sir, you asked me what I knew. That's what I can 
testify to, and it's not--it is my understanding that I and no 
one else in the counsel's office who were responsible for 
producing documents knew.
    Mr. Burton. The gentleman's time has expired, and I will 
yield my time or part of my time to the gentleman.
    Mr. Shays. Just a minute. You are testifying that people in 
the White House knew, you just didn't know?
    Ms. Nolan. People in the Executive Office of the President, 
sir, knew. I don't know that anyone in the White House office 
knew.
    Mr. Shays. The Executive Office of the President, I make 
that as an assumption that that is part of the White House. 
You're not in the White House building.
    Ms. Nolan. The White House is part of the Executive Office 
of the President.
    Mr. Shays. So are we going to get into a semantics argument 
that the White House didn't know because it was just the 
administrative part of the White House?
    Ms. Nolan. Sir, you asked me who I knew knew. I'm telling 
you--you can characterize that as the White House. I am telling 
you that the White House counsel's office and, as far as I 
know, no one in the White House office knew. People in the 
Office of Administration and the technical people clearly did 
know. That's the disconnect I've testified to.
    Mr. Shays. OK. And I just will make this last question. It 
is your testimony that the people in the Office of 
Administration knew but that no one in the counsel's office 
knew; and, therefore, because you all didn't know, you had no 
obligation--the White House had no obligation to notify the 
various committees that there were documents that they said had 
been given that hadn't been given.
    Ms. Nolan. It's my testimony, sir, that the people 
producing documents did not know that there was a problem, and 
I believe, but I don't know, you had the people from the Office 
of Administration here last week, that they did not understand 
that the counsel's office and the people producing documents 
did not know.
    Mr. Shays. Since I'm on the chairman's time I want to yield 
back, but just let me ask you this. The people who are 
producing documents, define to me who they are.
    Ms. Nolan. The people in the counsel's office, sir.
    Mr. Shays. Why did you say the people producing the 
documents instead of just saying the counsel's office?
    Ms. Nolan. I had said that before, sir. I wasn't sure you 
had accepted that as a description, so I was trying to give 
another.
    Mr. Shays. OK. Thank you very much.
    Mr. Burton. I'll just take a few minutes here.
    You know, I think, with all of the discussion, people lose 
track of where we are. We had a hearing last week. Five people 
from Northrop Grumman said that they felt intimidated when they 
started talking to Ms. Crabtree and Mr. Lindsay about the 
problem with the missing e-mails. Three of them said they 
thought might even be threatened with jail. One of them very 
directly felt that. Another said she'd rather be insubordinate 
than go to jail. So there was a definite fear.
    Mr. Lindsay took this information to Mr. Podesta. They 
wrote a memo. Mr. Podesta explained the situation to Mr. Ruff. 
I believe Mr. Lindsay--there was apparently a meeting, and it 
just seems inconceivable that the chief counsel to the 
President would not know the severity of the problem. It just 
doesn't--it boggles my mind that he wouldn't know.
    Now when Mr. Ruff left, and we're going to have Mr. Ruff 
before the committee, I feel confident, because you can't 
recall--I mean, he evidently hasn't given you all the 
information. But it seems to me that when Mr. Ruff left office 
he would have passed on to his counterpart who was taking over, 
you, Ms. Nolan, some of the problems that the chief counsel's 
office had to deal with, and it seems like he would have given 
you a fairly comprehensive analysis of this problem with the e-
mails.
    And, yet, when we've talked to you today, it feels like--I 
feel like you really didn't know all that much about it. You 
had a cursory knowledge. Is that correct?
    Ms. Nolan. Sir, I had no knowledge until the January 19th 
briefing.
    Mr. Burton. So Mr. Ruff never even talked to you about it?
    Ms. Nolan. Mr. Ruff, as I've testified, I don't believe 
understood there was a problem. I think he would have told me--
had he realized there was such a problem, I am confident Mr. 
Ruff would have told me.
    Mr. Burton. Unless perhaps he thought that the problem 
wasn't going to raise itself. You know, the thing is, Mr. 
Lindsay knew there was a problem; Ms. Crabtree knew there was a 
problem, very serious problem; the people from Northrop Grumman 
knew there was a problem because they felt threatened. Mr. 
Lindsay talked to Mr. Podesta and we believe with Mr. Ruff. I 
cannot believe----
    You know, Mr. Lindsay said he didn't remember the phone 
conversation, and yet 2 days later he participated in writing a 
very comprehensive letter to Mr. Podesta, a memo, going into 
all the details. I just can't believe that there's this big 
disconnect over something as significant as hundred of 
thousands of e-mails, especially in view of the fact that a 
whole host of committees, independent counsel and even the 
Justice Department had subpoenaed all of the documents 
pertaining to a whole host of different investigations. And for 
everybody to say, we didn't know, we didn't think it was that 
severe, and the chief counsel of the President who is supposed 
to be watching out for him and advising him on legal matters 
wouldn't be well aware of this. It doesn't wash. There's 
something there that's not washing, and I guess that's the 
problem that I feel.
    And I see my time has expired.
    Mr. Barr.
    Mr. Barr. Ms. Nolan, let me try and get very specific here, 
if you would, with me, please. On what day did you realize that 
you were going to have to do something to make sure that in 
responding to subpoenas from the Congress information had not 
been withheld?
    Ms. Nolan. I don't know what day it was, Mr. Barr. What I 
know is that at some point last month I realized that document 
productions that the counsel's office had done would have 
included searches of ARMS in which incoming e-mail could not 
have been searched and that we would need to review what 
document productions we did and figure out what we were going 
to do and could do about it.
    Mr. Barr. It was not until last month?
    Ms. Nolan. In February, sir.
    Mr. Barr. OK. After the newspaper articles came out?
    Ms. Nolan. After the filing was made, yes, sir.
    Mr. Barr. After what?
    Ms. Nolan. The filing was made in the case, sir, yes.
    Mr. Barr. In the civil case?
    Ms. Nolan. That's right.
    Mr. Barr. OK. Are you familiar with the various civil cases 
that have been filed against the White House or Executive 
Office, whatever, by Judicial Watch, including my case against 
the administration?
    Ms. Nolan. I'm aware there is a case, sir, your case, and 
I'm aware there are other cases. I don't know that I could list 
all of them.
    Mr. Barr. One of the theories on which my case was filed 
and is still an active case is violation of the Privacy Act. 
Pursuant to discovery requests, a great number of documents, 
files as it were, on me, about me that have been accumulated by 
various folks at the White House were submitted pursuant to 
discovery. That case was one that was filed under the Privacy 
Act. If in fact your position prevails that the Privacy Act 
does not cover files that the White House maintains on various 
individuals, why then would the discovery have gone forward and 
those files furnished pursuant to discovery?
    Ms. Nolan. As I understand it, sir, that is the legal issue 
in the case. The White House and Executive Office of the 
President have an obligation to provide documents in a case so 
that the courts can decide the issue.
    Mr. Barr. Are you all essentially then trying to have it 
both ways? I'm not quite sure. If you all felt secure in your 
legal interpretation, and it's one that I disagree with because 
it flies in the plain language of the Privacy Act which does 
not carve out any exemption for the White House or the 
Executive Office of the President for e-mails or for hard paper 
files, why would you all have actually furnished--pursuant to a 
Privacy Act case, why would you all have furnished discovery 
instead of just relying on the position you've enunciated, that 
the Privacy Act doesn't even apply to us?
    Ms. Nolan. Mr. Barr, that case was filed in a court of law. 
We were requested to make production of documents, and we did 
so. That I think is exactly what we do when we get subpoena 
requests and document productions. We assert and continue to 
assert that we do not believe that the White House is subject 
to the Privacy Act, but we have never asserted that that 
enables us to ignore a lawful subpoena. We do searches, and we 
make a good-faith effort to comply with those subpoenas, and we 
did so in that case.
    Mr. Barr. Now, though, the White House, since the case has 
been reassigned from Judge Lamberth, a judge that takes a 
somewhat different view of the Privacy Act and various other 
laws as they relate to the President, now that that case has 
been assigned to a different judge, the White House has taken a 
very different position and is resisting. Do you see any 
inconsistency there? In other words, it seems to fall--the 
White House response to Privacy Act cases and discovery therein 
seems to fall not so much on principled grounds as it does on 
whether the case is before a judge that will hold y'all's feet 
to the fire.
    Ms. Nolan. Mr. Barr, I don't think that's right. I think 
that--I just don't know the particulars of this case or the 
other litigations. Obviously, other lawyers in the office deal 
with those on a day-to-day basis, but I think that it's very 
important to understand that, as this committee knows, there 
are times when the documents are produced, there are times when 
there are privileges, there are times when we discuss different 
timing for productions. There are various reasons why 
productions are made when they are and, depending on what the 
legal argument is, whether the legal argument is an assertion 
that documents don't have to be produced or the legal argument 
is on the merits itself. So I can't speak to that particular 
case, but I just wanted to make that clear.
    Mr. Barr. You mentioned there are White House attorneys 
that follow these cases, that work them. The attorneys--I think 
we established this earlier. I just want to make absolutely 
certain. The attorneys at the White House counsel's office that 
are handling, for example, the Filegate case--cases are 
Michelle Peterson and, previously, Sally Paxton; is that 
correct?
    Ms. Nolan. That's correct, sir.
    Mr. Burton. The gentleman's time has expired.
    Mr. Shays is next.
    Mr. Raben, have you obtained the names of the lawyers we 
were talking about?
    Mr. Raben. I have current information. I don't have the 
name of the line attorney that probably worked directly with 
Mr. Barry, but the director then and now of the Federal 
programs branch, which he apparently came from, is a gentleman 
named David Anderson. I'll continue to work or I'm waiting for 
if we can determine that.
    Mr. Burton. David Anderson would deal with that area?
    Mr. Raben. Yes.
    Mr. Burton. He was one of the line attorneys, was probably 
working with Mr. Barry, and you will have that name for us?
    Mr. Raben. I will try to get you that name. I don't exactly 
know what the holdup is. We would obviously--I will get you 
that name as soon as I know it. We will have line attorney and 
pending criminal investigation matters to talk about.
    Mr. Burton. If it's possible, we'd like to have that today.
    Mr. Raben. I'll try my best, sir.
    Mr. Shays. I'm going to yield in 1 second to Mr. Barr; and, 
Ms. Nolan, I should always give you an opportunity to answer 
questions. So I think your rebuke of me was a fair one on that 
side.
    I want to ask you a question, though. It is a hypothetical, 
and we both may agree on this, and I'm going to read it slowly.
    If you were a White House counsel on June 19th, 1998, and 
if you were informed of a potential omission in subpoena 
compliance and if you were told at the time the admission might 
involve hundreds of thousands of e-mails, would you feel 
obligated to inform investigative authorities?
    I'd be happy to read it over again if you'd like.
    Ms. Nolan. I would certainly want to know more about the 
problem and make sure that there was a problem, yes, sir. I 
don't know that from that meeting.
    Mr. Shays. No, and I don't either. Nothing's been 
established.
    But if you were a White House counsel on June 19th and if 
you were informed of a potential omission in subpoena 
compliance and if you were told at that time the admission 
might involve hundreds of thousands of e-mails, would you feel 
obligated to inform investigative authorities?
    Ms. Nolan. I would feel obligated to look into the matter, 
sir.
    Mr. Shays. And then what?
    Ms. Nolan. Well, if I were informed that there was a 
potential problem, I looked into the matter and was told, no, 
the problem's fixed and there apparently wasn't a problem, I 
would not feel obligated.
    Mr. Shays. And if you found there was a problem?
    Ms. Nolan. If I found that there was a problem involving 
hundreds of thousands of e-mails----
    Mr. Shays. Right.
    Ms. Nolan [continuing]. Then I would do what we're doing 
now, which is trying to work with the investigative bodies and 
figure out how to get those e-mails restored, sir.
    Mr. Shays. Let me ask you one last point as it relates to 
this, though. If you thought it was a potential problem and you 
looked at it, how many weeks or months do you think it would 
make sense for you to look at it before you stepped forward? In 
other words, should it go on for months if you thought there 
was a problem? Wouldn't you feel obligated to say we think 
there may be a problem and we're looking at it and we don't 
have an answer yet? You wouldn't feel obligated?
    Ms. Nolan. Sir, I would want to know there's a problem and 
know the general scope of it. I don't know how long that would 
take.
    Mr. Shays. If it took 6 months you wouldn't necessarily 
even feel an obligation?
    Ms. Nolan. That--in the absence of sort of knowing what the 
facts are of those 6 months, I don't feel like I can answer 
that.
    Mr. Shays. OK. I would yield my time to Mr. Barr.
    Mr. Barr. Thank you.
    Mr. Chairman, earlier the ranking member had expressed some 
rather large degree of concern over the cost of the various 
investigations. I'd like to ask unanimous consent that the 
following article dated March 24th of this year from the Copley 
News Service regarding the fact that the President's latest 
trip to India and Bangladesh and other exotic locales cost in 
excess of $50 million. His trip last--couple of years ago to 
the African subcontinent cost close to $43 million. His 10-day 
trip to China cost close to $20 million; and a 4-day trip to 
Chile, the bargain of the group, was $10.8 million. Knowing 
that Mr. Waxman pays very close attention to the record in this 
case and is constantly trying to reconstruct it, I'd like that 
placed in the record.
    Mr. Burton. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.136
    
    [GRAPHIC] [TIFF OMITTED] T9621.137
    
    Mr. Barr. I'd also like to ask unanimous consent that 
William Safire's column in the New York Times today, entitled 
``The 100,000 E-mail Gap,'' and the Washington Times article by 
Jerry Seper today, also, entitled, ``Judge Says Clinton 
Violated Privacy Act,'' be placed in the record.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.138
    
    [GRAPHIC] [TIFF OMITTED] T9621.139
    
    [GRAPHIC] [TIFF OMITTED] T9621.140
    
    Mr. Barr. Thank you.
    Mr. Raben, I think we've established that David Anderson is 
an attorney at the Department of Justice handling these 
matters; is that correct?
    Ms. Nolan. I understand him to be the director of the 
Federal programs branch.
    Mr. Barr. Does James Gilligan, who I believe is a trial 
attorney over in the Civil Division, work with him, for him or 
is he a superior of his?
    Mr. Raben. I believe that he is a subordinate of his. I'll 
check that and let you know.
    Mr. Barr. OK. And whose responsibility is it--it's my 
understanding that James Gilligan coordinates and communicates 
on a fairly regular basis involving these cases to the--to Ms. 
Peterson; is that correct?
    Mr. Raben. To Ms. Peterson?
    Mr. Barr. Ms. Peterson, Michelle Peterson at the White 
House counsel's office.
    Mr. Raben. That I have no idea.
    Mr. Barr. Maybe I should direct that to Ms. Nolan. Do they 
communicate with each other?
    Ms. Nolan. That's my understanding, sir, yes.
    Mr. Burton. The gentleman's time has expired.
    I want to get back to the questions that we were talking 
about regarding Mr. Barry.
    Mr. Raben, you said that you don't know anything about 
anything that a line attorney may have said to him relevant to 
saying you don't have to worry about signing this--so you don't 
know that.
    Ms. Nolan, how did the White House counsel's office let 
this affidavit be filed if there was any question about it 
being false? This is the affidavit we talked about regarding 
Mr. Barry. Do you have any knowledge about that?
    Ms. Nolan. I don't, sir, except to say that, based on my 
other testimony, I don't believe the White House counsel's 
office would have thought that it was false; and, as I said 
earlier, I don't believe it is false.
    Mr. Burton. Well, that's your opinion, and I honor that. 
We'll talk to Mr. Ruff and others about that later.
    I prepared a criminal referral regarding this affidavit 
asking the Justice Department to investigate Mr. Barry for 
perjury. Do you agree, Mr. Raben, that any charges against Mr. 
Barry should also include an investigation of the role of the 
Justice Department and White House lawyers in drafting the 
affidavit?
    Mr. Raben. Do I agree that any investigation of Mr. Barry 
should include----
    Mr. Burton. Since they helped prepare the document.
    Mr. Raben. I can't agree or disagree with that assertion. I 
hope this is helpful. I understand that--I know that a criminal 
investigation has begun, and I don't know that any fact which 
has or will be asserted is off the table in that investigation.
    Mr. Burton. Well, if the Justice Department did help him 
prepare the document and did knowingly help him perjure himself 
by signing an affidavit that was incorrect, which we believe it 
is, how can they investigate themselves? I mean, the Justice 
Department has taken this under advisement and they're 
conducting a criminal investigation. Part of that will involve, 
I presume, Mr. Barry since he was one of the principals.
    Mr. Raben. Answering the broader of the very important 
question that you're raising now and I have heard you raise in 
your opening statement and in press accounts, how can the 
Justice Department investigate itself, I think you raise a very 
good question about how we deal with overlapping inquiries or 
civil matters and what is now a criminal matter. And I 
understand that it is not uncommon, in fact, it is somewhat 
frequent, where a representation of a client agency, which is 
done under statutory authority requirement, not simply 
authority, is proceeding and information comes forward which 
necessitates the initiation of a criminal inquiry. When that 
criminal inquiry is initiated, the common procedure, I have 
learned, is to seek a stay of those aspects of the civil 
representation that may be implicated by the criminal 
investigation, and that is what has gone on here.
    Mr. Burton. So they're asking for a stay in the civil case 
while they conduct their criminal investigation?
    Mr. Raben. I think that would be an overstatement. My 
understanding of the pleading which was filed is staying some 
aspects of the civil litigation. I don't believe that all 
aspects of the civil litigation have been requested to be 
stayed.
    Mr. Burton. When did the Campaign Finance Task Force learn 
about the White House e-mail problem?
    Mr. Raben. I don't know. I know that that will be--I 
presume that will be one of the subject matters of the inquiry 
itself which has been initiated, but I simply don't know. I do 
know I saw----
    Mr. Burton. So you wouldn't know also how the Campaign 
Finance Task Force found out about the problem either?
    Mr. Raben. I don't know.
    Mr. Burton. Well, if you could get answers to these 
questions, it would be helpful.
    Mr. Raben. You have submitted--I know that you have sent to 
the Department a series of letters, one of which enumerates 
these and other similar questions, and we will answer those 
questions.
    Mr. Burton. I hope it's expeditiously.
    Mr. Raben. I hope so, too, sir.
    Mr. Burton. Would you know if the task force ever attempted 
to interview any of the Northrop Grumman contractors about the 
problem?
    Mr. Raben. I wouldn't know.
    Mr. Burton. We have learned that task force attempted to 
contact Betty Lamberth 2 weeks ago, but we don't know about any 
of others.
    I guess the next question is superfluous, because we need 
to know why the task force waited until now to contact the 
Northrop Grumman contractors. So I guess we'll have to find out 
who the attorneys were that were involved in this and ask them.
    In a recent court filing, Justice Department lawyers said 
that they knew about the problem for over a year. If that's 
true, why did the Campaign Finance Task Force do nothing for 
over a year? I mean, if they have known about it for a year, I 
wonder why they haven't done anything. They didn't do anything 
until I sent a letter to the Attorney General. Do you have any 
answer to that?
    Mr. Raben. I know that you posed that question in the 
letter, and we will respond to it.
    Mr. Burton. Mr. Horn.
    Mr. Horn. I was curious in the last dialog between us as to 
were there other places in the White House where messages could 
go off one's e-mail or one's server; and, to your knowledge, do 
you know of any other part of the White House where there might 
be messages parked from that period, 1993 through 1996 through 
1998?
    Ms. Nolan. I know of no messages parked, sir. I do know 
that back-up tapes were made of the server at various times and 
that those back-up tapes are going to be reconstructed and 
searched.
    Mr. Horn. OK. So, in other words, they had back-up tapes I 
take it when the subpoena went down there, and you're saying 
now that the system is up and running, that there will be back-
up tapes?
    Ms. Nolan. No, sir. There have been back-up tapes made. 
Those back-up tapes are of the server. They're a picture of the 
server at a particular time. They're not searchable. They are 
being reconstructed so that they can be searched and so that 
they can be placed on ARMS.
    Mr. Horn. Now, what do you have to do to reconstruct them 
in order to get a search?
    Ms. Nolan. Sir, I could not tell you that. The Office of 
Administration has retained an outside contractor who will do 
that work. I don't understand the details of how it has to be 
done.
    Mr. Horn. Well, I think the FBI is one that can do the work 
if anything was done on the mainframe, and then the question 
would be--is, can you tell if there are erasures or not? 
Practically every company, university in the country takes a 
back-up tape every day, just in case you have got a surge, an 
earthquake, a power failure or whatever it is; and so I'm just 
curious why it took so long to get to this. What motivated 
them? Was it the President's library and they wanted to check 
things to be on deposit or what was the motive of this?
    Ms. Nolan. Sir, Mark Lindsay from the Office of 
Administration at the time and the Assistant to the President 
for Management and Administration was here last week, and I 
understand he testified that the Office of Administration made 
a determination to make sure they were Y2K compliant. Y2K 
compliance went through February 29th, and then they were to 
begin the reconstruction.
    Mr. Horn. And that's when you really became aware of it?
    Ms. Nolan. I became aware of it somewhat earlier in 
February, except for the briefing I was given in January in 
which I did not fully become aware of it but where I was told 
about a MAIL2 and letter D problem.
    Mr. Horn. Now, with reference to prior questions you had on 
this, it seems to me an outgoing counsel of the President would 
have a list on a memorandum of either finished, partially 
finished or unfinished business. Now, did Mr. Ruff ever pass 
that on to you and tell you about the subpoenas that--and the 
impact they would have?
    Ms. Nolan. It's my understanding, sir, that Mr. Ruff did 
not understand there was a problem with any subpoenas. He did 
not tell me that there was a problem, which is consistent with 
my understanding that he didn't understand there was a problem.
    Mr. Horn. Well, usually, a new person in a job would start 
going down the line with your associate or your deputy or your 
assistant counsels and say, you know, what do you do and etc. 
Did you do that when you entered on that job?
    Ms. Nolan. I did that, Mr. Horn.
    Mr. Horn. And did you learn anything about the tapes in 
that experience?
    Ms. Nolan. It's my understanding that no one in the 
counsel's office knew that there was a problem with subpoena 
compliance.
    Mr. Horn. What you're telling us is if we ever have to ask 
to redo what goes on at the White House under subpoena, that 
the counsel's office is not the one to go to. It seems to me, I 
guess, the Office of Administration, which is a statutory 
office within the Executive Office of the President, and 
they're the ones that know where you can find something on a 
computer, and I take it the counsel can't find it.
    Ms. Nolan. Sir, we found what was on the ARMS system, I 
believe. There were things that were not on the ARMS system, 
and we were not aware of that.
    Mr. Horn. Well, let me read you this quote yesterday at the 
press conference. The President stated that the White House 
had, ``turned over everything that had been found,'' and that 
subpoenaed e-mails were not surrendered because they were 
located, ``in a different system.'' To what system was the 
President referring?
    Ms. Nolan. I think the President meant that those e-mails 
were not on the ARMS system, not that they were in a different 
system.
    Mr. Horn. Now, has that system been searched or is it a new 
system and not an old one or what?
    Ms. Nolan. The ARMS system is the automated, retrieval 
system, that's the system in which certain e-mails were not 
captured or recorded. Those are--we have the back-up tapes 
which are not--were not designed, as I understand it, for 
record retrieval, but we're going to have a contractor come in 
and enable us to retrieve those records on the back-up tapes.
    Mr. Horn. Now, is the President hooked up to that e-mail 
system so he--you've got what, how many accounts, 500 or so 
accounts?
    Ms. Nolan. I don't know the number of accounts in the White 
House office. It would probably be about that, but I'm not 
sure.
    Mr. Horn. Well, I would think the President would have a 
very secure e-mail with some of his people in terms of, let's 
say, national security. Is there such a tape operation, server 
operation that's separate from what you have described?
    Ms. Nolan. Except for a couple of occasions with staff to 
learn particular computer things, I don't think the President 
uses e-mail, sir.
    Mr. Horn. Well, that's probably a smart idea, and I don't 
use them either, but the fact is that there's probably another 
system around there for security reasons, and the question 
would be, were anything under these subpoenas that could be 
classified in a security operation and has that system been 
looked at?
    Ms. Nolan. I don't know the answer, sir, to, in particular, 
requests whether that system would have been looked at with 
respect to classified documents. Is that what you mean, sir?
    Mr. Horn. Yes. I would like to know how many systems are 
there.
    Mr. Burton. The gentleman's time has expired.
    Ms. Nolan. The NSC does do a search, sir, I'm told, of its 
system.
    Mr. Horn. Then there are any others besides NSC? That makes 
sense to me. And what you've got here basically is to----
    Ms. Nolan. I'm told, sir, there is no other classified 
system, that that's----
    Mr. Horn. No other classified system or no other system?
    Ms. Nolan. The other systems--the only automated record 
systems are the NSC and the EOP-wide one called ARMS.
    Mr. Horn. OK. So everything that you or your staff in the 
counsel's office know you're telling us now in response to 
these questions, is that true?
    Ms. Nolan. I'm sorry, sir?
    Mr. Horn. Well, do any of your staff know something beyond 
this because you weren't here?
    Ms. Nolan. We've--I've talked to many people on my staff, 
and I've had my staff talk to many people who were here who are 
no longer in the counsel's office. We have not found anybody 
who knew--had this information, which I am saying I don't 
believe the counsel's office had.
    Mr. Burton. Mr. Barr. The gentleman's time has expired.
    Mr. Barr. Was the President ever informed about the problem 
with e-mail system?
    Ms. Nolan. Mr. Barr, yes, the President was informed, I 
believe, within the past month, yes.
    Mr. Barr. That was the first time that the President was 
informed about this problem?
    Ms. Nolan. As far as I know, yes, sir.
    Mr. Barr. Would anybody have any different knowledge?
    Ms. Nolan. I don't think so.
    Mr. Barr. Was the Vice President ever informed about the 
problem with the e-mail system----
    Ms. Nolan. I think also within the past month, sir.
    Mr. Barr [continuing]. After the news stories broke.
    What was the response of the President when he was informed 
about this problem?
    Ms. Nolan. Umm, sir, the President wanted to make sure that 
we had produced everything we could produce and that we were 
looking into what to do.
    Mr. Barr. What was the response of the Vice President?
    Ms. Nolan. I don't know, sir.
    Mr. Barr. Who briefed the Vice President on this?
    Ms. Nolan. Somebody on his staff, sir, but I'm not sure if 
it was his counsel or not.
    Mr. Barr. Was Mrs. Clinton ever informed about the problem 
with the e-mail system?
    Ms. Nolan. I don't know, sir. I did not inform her. I'm not 
aware that anyone did other than there have been news accounts 
about it.
    Mr. Barr. Would that have been Ms. Posey? Would she have 
informed her about that?
    Ms. Nolan. All of this would have occurred only in the past 
month. Any--I'm not aware that anyone in 1998 informed the 
President, the Vice President or the First lady.
    Mr. Barr. On January 28th of this year, a letter was sent 
to committee counsel, our committee counsel, Mr. Wilson--
actually to Mr. Hollis, but our counsel, regarding the Waco 
matter. And that letter says, quote, the scope of our recent 
search for Waco-related materials encompassed all items or 
documents in any way relevant to the events occurring at the 
Branch Davidian compound in Mount Carmel outside of Waco, 
Texas, in February to April, 1993.
    Ms. Nolan. Do I have a copy of that, sir?
    Mr. Barr. You're asking me if I have a copy of it?
    Ms. Nolan. The committee provided me with copies of 
documents. I don't know if----
    Mr. Barr. Mr. Lindsay seems to have a pretty full library. 
I can make a copy here but do you have one? Exhibit 60.
    [Exhibit 60 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.353
    
    [GRAPHIC] [TIFF OMITTED] T9621.354
    
    Ms. Nolan. Exhibit 60. Thank you.
    Mr. Burton. Exhibit 60.
    Mr. Barr. It shows a carbon copy to you.
    Mr. Burton. Would you see if you can get another copy for 
Ms. Nolan?
    Mr. Barr. I'm having a copy made right now. We should have 
another copy up here, I would think.
    Ms. Nolan. Mr. Raben has it, sir.
    Mr. Burton. You found it. OK.
    Mr. Barr. The question is, how can that assertion be true 
when y'all's testimony is that you don't know whether any 
relevant e-mails came into the White House during the August 
1996, November 1998, timeframe?
    Ms. Nolan. At that time, Mr. Barr, I did not know and I do 
not believe anyone in my office knew that there was a problem 
with retrieval of certain e-mails in ARMS searches.
    Mr. Barr. So that may or may not be a complete, full and 
accurate statement----
    Ms. Nolan. Which statement is it that you're referring to 
specifically, now that I have the document, sir?
    Mr. Barr. The one that I read.
    Ms. Nolan. I'm sorry. I didn't have the document at the 
time so I would just like some help finding it.
    Mr. Barr. I was going to. I was in the middle of a 
sentence. And it appears on page 2, the third paragraph, the 
scope of our recent search for Waco-related materials 
encompassed all items or documents in any way relevant to the 
events occurring at the Branch Davidian compound in Mount 
Carmel outside of Waco, TX in February to April, 1993.
    Ms. Nolan. Yes, sir. That was the scope of our search at 
that time, yes, sir.
    Mr. Barr. OK. And the question is, how can you all make 
that statement--that assertion? It seems to me that it's not 
true because you don't know whether or not during this 
timeframe here, August 1996 to November 1998, whether any 
relevant e-mails came into the White House.
    Ms. Nolan. Sir, the statement is what the scope of our 
search was. I don't believe we've ever been able to say that we 
have found every possibly relevant document. We make a good-
faith effort to search.
    Mr. Barr. That's what it says: All items or documents in 
any way relevant to the events occurring at the Branch Davidian 
compound.
    Ms. Nolan. The scope of our search encompassed all items or 
documents. That's what we searched for.
    Mr. Barr. It's a circular argument.
    Ms. Nolan. We can never be sure, Mr. Barr, that we found 
everything. We make a good-faith effort and a very vigorous 
effort to find things. But we can't be sure that we've ever--I 
don't think anyone can ever say that I'm absolutely sure I 
found everything. And that letter doesn't say that.
    Mr. Barr. Do you all do this with courts also?
    Ms. Nolan. Sir?
    Mr. Barr. Do you all do this with courts, add a footnote to 
everything that you all say?
    Ms. Nolan. There is no footnote, sir.
    Mr. Barr. There is. You just told me that, despite the 
plain language of this, that you have sent us all items or 
documents in any way relevant to the events occurring.
    Ms. Nolan. Sir, that is the not the plain language. I don't 
see the words ``sent you'' in there. What I want to make clear, 
because I don't want this to be about a little, you know, sort 
of word game. That's not what it's meant to be. We identified 
what the scope of our search was. More importantly for these 
purposes, we were not aware that in the scope of that search 
there might be e-mails that would not have been retrieved from 
that search.
    Mr. Barr. Despite the fact that we have established that 
going back to at least 1998 y'all knew there was a problem with 
retrievable e-mails?
    Ms. Nolan. We knew there had been or might have been--at 
least Mr. Ruff informs me that he knew there had been or might 
have been a problem, that a second search was done, that the 
documents that were found in that were duplicative and he did 
not believe----
    Mr. Barr. It was only a partial search.
    Ms. Nolan. Sir, I'm telling you what Mr. Ruff knew and 
understood in 1998.
    Mr. Barr. We'll get Mr. Ruff in here to tell us what he 
knew or should have known. What I'm saying, though, is the 
argument that y'all are using--and it does get back to the 
parsing of words and what the technical sentence structure is, 
something that is so endemic to this administration, what 
you're saying is a circular argument. You're saying whatever we 
give you is what we give you, and we may or may not know that 
there's something that we're not giving you.
    Ms. Nolan. That's right, sir. That's how any document 
production is done.
    Mr. Burton. The gentleman's time has expired, but we'll get 
back to him in just a little bit.
    Would you like to take a break for about 5 minutes? That 
would be fine. We'll try to wrap this up as quickly as we 
possibly can.
    Stand in recess for 5 minutes.
    [Recess.]
    Mr. Burton. We will try to reconvene here and wrap this up 
in the next half hour, if it is at all possible. I appreciate 
your patience today with all the questioning, but I think it 
really is important that we get as many answers as possible 
today.
    Let me start off and try to get some of the questions I 
need.
    First of all, I ask unanimous consent that a set of 
documents which may be used as exhibits in today's hearing and 
which have been shared with the minority be entered into the 
record and, without objection, so ordered. We've already 
cleared that with the minority.
    [Note.--The referenced material is provided at the end of 
this hearing.]
    Mr. Burton. When the White House belatedly produced videos 
to the Justice Department in 1997, Mr. Raben, the Attorney 
General stated that she was mad and that she was very disturbed 
that the tapes had not been produced in a current fashion and 
that it had taken so long after the production of the tapes to 
let them know, the Justice Department. Was the Attorney General 
mad or angry when she found out about the missing e-mails and 
had never been--that had never been produced to the Justice 
Department? Was she angry about that or do you know?
    Mr. Raben. I couldn't characterize her thoughts on it.
    Mr. Burton. When the Attorney General found out there were 
embarrassing Waco flare tapes, she had U.S. Marshals seize them 
from the FBI. Did she ever consider sending Marshals to seize 
the back-up tapes from the White House?
    Mr. Raben. I don't know what she's considered in her mind, 
sir. I know that she is interested in being as responsive to 
you as possible.
    Mr. Burton. Is there any concern in the Campaign Finance 
Task Force that the Justice Department lacks the ability to 
enforce any of its document requests to White House or other 
agencies? Does it lack, in your opinion, the political will to 
enforce those document requests?
    Mr. Raben. If they're concerned within the Campaign Finance 
Task Force?
    Mr. Burton. Yes.
    Mr. Raben. I don't know what concern the Campaign Finance 
Task Force might have. I know that they've initiated a criminal 
investigation.
    Mr. Burton. In the Filegate lawsuit, Justice Department 
lawyers characterized the claim that there were missing White 
House e-mails as offensive. The Justice Department lawyers also 
stated that it is unduly burdensome to perform broad-based 
searches of archived and backed-up e-mails, especially e-mails 
stored in non-word-searchable format. Given that that's the 
position of the Justice Department in that case, how can the 
Democrats now turn around and investigate the White House?
    Mr. Raben. The characterization as offensive is something I 
would never do. I think that was a mistake.
    The second part was the undue burden to a particular e-mail 
retrieval search. I have no--I don't have the technical 
expertise to offer my opinion as to whether it's unduly 
burdensome. I think----
    Mr. Burton. You disagree----
    Mr. Raben. Excuse me. I'm sorry.
    Mr. Burton. You disagree with the term that was used by the 
Justice Department, that the missing e-mails were offensive?
    Mr. Raben. I never write in that fashion.
    Mr. Burton. Do the lawyers on the Campaign Finance Task 
Force believe that it's offensive to suggest that the White 
House or any other entity under investigation would withhold 
documents or have you talked to any of them about that?
    Mr. Raben. I'm sorry. I missed the question. I'm sorry.
    Mr. Burton. Do the lawyers on the Campaign Finance Task 
Force believe that it's offensive to suggest that the White 
House or any other entity under investigation would withhold 
documents?
    Mr. Raben. I really can't characterize what they believe. I 
think that the people that I have met are hard-working, 
dedicated, mostly career people who go about their business.
    Mr. Burton. Well, they were talking about it being 
offensive that the White House would withhold documents. So you 
don't have any feeling--you really haven't talked to anybody on 
the task force about any of this?
    Mr. Raben. I haven't heard them--the few individuals I have 
interacted with I haven't heard them editorialize or offer 
rhetoric like that.
    Mr. Burton. Ms. Nolan, you wrote a letter to us and in it 
on page--the last page of it.
    Ms. Nolan. What number is that, sir?
    Mr. Burton. I don't know that there's a number on this, is 
there? It's the March 17th letter you sent to me.
    Mr. Burton. Thank you, sir.
    Ms. Nolan. I just had one question about this. On the last 
paragraph of that letter you say, ``the process may be 
performed in batches, i.e., several back-up tapes at a time. If 
reconstruction were possible, we would likely begin the process 
with the November 20th, 1998, and June 1st, 1999, back-up 
tapes, approximately 15 tapes total. This process would entail 
extracting the unrecorded e-mails from the back-up tapes and 
putting them on a server. This estimate . . .''
    And then you go into the timeframe and everything. It says, 
``this estimate does not, however, include the possible 
restoration of OVP back-up tapes as well as the time and funds 
needed to perform other steps in the process such as awarding a 
competitive contract, searching ARMS printing search results, 
manually reviewing them and producing responsive materials.''
    One of the concerns that we have is that some of the batch 
that we're concerned about start back when this problem 
occurred in September 1996. And if you start with the batches 
at the front end, i.e., the ones most recent, then if you run 
into a logjam, the chances are or problem--the chances are this 
might not be solved or we may not get the documents until well 
after the November election, which might be fortuitous for 
those who may be involved. And so what we wanted to know is 
assuming--and you said the contract has been signed.
    Ms. Nolan. Yes, sir.
    Mr. Burton. Assuming a contract has been signed, we would 
like to know if these e-mails that could be relevant to our 
investigation, the campaign finance investigation, which would 
be the ones going at the beginning of the problem in September 
1996, would be the first batch to be looked at.
    Ms. Nolan. Mr. Chairman, before I answer that, you said 
something which reminded me I wanted to say that there had been 
a question earlier, and the contract does include restoration 
of the OVP back-up tapes. So thank you for reminding me of 
that.
    Mr. Burton. OK.
    Ms. Nolan. Second, we, as you know, have several 
investigative bodies we will be dealing with. The reason we 
talked about the November 1998, and June 1999, back-up tapes 
first is because they took a picture of the server with 
everything on the server right before they restored--started 
restoring on a going-forward basis incoming e-mail to ARMS. So 
that seemed like it might be the quickest way to get a 
comprehensive picture of what the server looked like. It would 
be anything that remained on the server, whether it was from 
1995 or 1996 on that day.
    Then the contractor--as I understand it, the contractor is 
going to have to go through and figure out exactly what we have 
back-up tapes of, what dates they are, which ones have e-mails 
on it. We haven't made any determination about what order to do 
that in. I hear what you're saying, sir. We're just going to 
have to work out in terms of timing how we can get this done.
    Mr. Burton. We're checking with some computer people as 
well, and it may very well be that these computer tapes could 
be handled in a much quicker fashion than 6 months, and so----
    Ms. Nolan. If that's the case, I would be delighted, sir. 
We really have, you know--we originally heard 18 months or 3 
years. I said I wanted us to find a way to get it done quicker. 
The OA has made part of the contract that the contractor is to 
provide innovative ideas for how to do it; and if we can move 
up the date, that would be great.
    Mr. Burton. We'll be talking to you about that.
    Mr. Barr.
    Mr. Barr. Ms. Nolan, just to close the loop on my prior 
questioning regarding this letter of January 28th, that is 
approximately I think 10 days after you were briefed on this 
matter. I believe you testified that it was about--was it 
January 18th?
    Ms. Nolan. I think it was the 19th. It might have been the 
18th, sir. I'm not sure.
    Mr. Barr. So you were aware of the e-mail problem at the 
time this letter was written.
    Ms. Nolan. Mr. Barr, as I testified, I was briefed about 
some problem. I did not understand that it had an effect on e-
mail searches. So when the letter said--first of all, though, I 
want to be sure that it's clear that what the letter said the 
scope of our search is, what we looked for.
    Mr. Barr. I mean, it's--you just keep going around in 
circles on that. It's very self-serving.
    Ms. Nolan. I did not know there was a problem, no, sir.
    Mr. Barr. That is not what the letter says. But I 
understand this administration. I still don't buy into this 
argument that you all didn't know the scope of the problem. It 
was something that was deemed very important and very serious 
to the Northrop Grumman experts. And they briefed, did they 
not, Mr. Ruff on this?
    Ms. Nolan. I don't believe any of the counsel's office 
people ever talked to the Northrop Grumman people, no, sir.
    Mr. Barr. Mr. Ruff did not request a discussion with them?
    Ms. Nolan. As I understand it, he received information from 
Mr. Lindsay, Mark Lindsay, then general counsel of the Office 
of Administration.
    Mr. Barr. When did he receive that?
    Ms. Nolan. Well, you know, some time in June 1998, sir.
    Mr. Barr. What did he receive?
    Ms. Nolan. Well, that--as I've testified, what I know is 
that Mr. Ruff heard that there was a problem or might have been 
a problem with an e-mail search. That OA then conducted a 
second search. That second search showed that there, in fact, 
were no missing e-mails. He did not understand that there was 
any ongoing problem.
    Mr. Barr. What did he receive from Mr. Lindsay?
    Ms. Nolan. I believe he received a copy from Virginia 
Apuzzo of the June 19, 1998, memorandum; and I believe he spoke 
with Mr. Lindsay.
    Mr. Barr. That memorandum wasn't from Mr. Lindsay.
    Ms. Nolan. That was from Mr. Lindsay's superior, Virginia 
Apuzzo.
    Mr. Barr. I think Mr. Ruff received a large number of e-
mails from Mr. Lindsay. Mr. Lindsay testified last week he took 
over to the White House counsel's office.
    Ms. Nolan. Those were the e-mails that were the second 
search which I am told turned out to be duplicative.
    Mr. Barr. Is that what you meant when you said that Mr. 
Ruff received some materials from Mr. Lindsay? Those documents?
    Ms. Nolan. Those are the only documents I'm aware of.
    Mr. Barr. So he received those from Mr. Lindsay.
    Ms. Nolan. I don't know that Mr. Lindsay physically handed 
them to Mr. Ruff.
    Mr. Barr. You testified that he received something from Mr. 
Lindsay. What did he receive from Mr. Lindsay? That's what I'm 
trying to get at.
    Ms. Nolan. Mr. Barr, what I know is that he received from 
OA----
    Mr. Barr. Just a few minutes ago----
    Ms. Nolan. If I misspoke, I'm sorry. What I know----
    Mr. Barr. I don't know--I don't know that you misspoke.
    Ms. Nolan. I don't know either, sir. I'm just trying to 
tell you what I know.
    Mr. Barr. You told me what you know. You told me just a few 
moments ago that Mr. Lindsay received something from--or Mr. 
Ruff received it--from Mr. Lindsay. I'm asking what it was.
    Ms. Nolan. Maybe someone could read that back to me, sir. I 
don't know that I said that. What I said, I think, was that Mr. 
Ruff received a briefing from Mr. Lindsay.
    Mr. Barr. Briefing from Mr. Lindsay.
    Ms. Nolan. Yes, sir.
    Mr. Barr. OK. So your testimony now is not that he received 
any documents from Mr. Lindsay.
    Ms. Nolan. OA provided documents. I believe that Mr. 
Lindsay provided them to the counsel's office. I don't know 
what I----
    Mr. Barr. You don't know who got them either.
    Ms. Nolan. That's correct, sir.
    Mr. Barr. Nobody over there knows who got them.
    Ms. Nolan. I don't know, sir.
    Mr. Barr. We've established that.
    Well, Mr. Lindsay doesn't remember who he gave them to.
    Why do you take the position, contrary to the testimony 
last week, that those documents that were sent over there, that 
box of 1,000 or however many e-mails, was a complete search? It 
was never a complete search.
    Ms. Nolan. I have never said that sir.
    Mr. Barr. How do you know that there weren't other 
documents that were relevant to these subpoenas, such as the 
Waco subpoena, such as the subpoenas from the independent 
counsel, such as the subpoena from this committee?
    Ms. Nolan. I have never said I don't know. I have said that 
what I understood from Mr. Ruff, what he understood at a time 
when I was not there, sir, what I understand from Mr. Ruff is 
that he understood there was or might have been a problem. He 
understood that a search had been done. I have never said it 
was a complete search or what he understood about the nature of 
the search. I don't know, sir.
    Mr. Barr. Mr. Chairman, am I missing something here? Didn't 
this witness just testify to that?
    Mr. Barr. Maybe we should ask Mr. Waxman. He records this 
stuff.
    Mr. Burton. Mr. Barr, your time has expired. I'll be happy 
to yield to you more time in just a second.
    I would like to ask Mr. Raben if he's heard back from the 
Justice Department about the attorney that worked on Mr. 
Barry's sworn affidavit.
    Mr. Raben. I have heard back. My understanding as of 5:13 
is that the pool of attorneys that would have--could have 
interacted with the gentleman's affidavit, as appears on the 
public filings, Ann Weissman; James Gilligan; Elizabeth 
Shapiro; Alison, I believe it's pronounced Giles, G-I-L-E-S. 
There is another attorney on the filing Julia Covey, but their 
understanding as of 5:13 is that she is not among the pool of 
attorneys who would have interacted. But as I get more 
information----
    Mr. Burton. So let me have those names again, their full 
names.
    Mr. Raben. I will give it to you, but these are the 
attorneys who appear on the public filings in the civil case. 
David Anderson, as I said before, is the director of the 
Federal programs branch. The other names that appear on the 
filing, in addition to David Ogden and Wilma Lewis, are Ann 
Weissman, James Gilligan, Elizabeth Shapiro and Alison Giles. 
And except for Mr. Anderson I understand all of those to be 
line attorneys in the Civil Division.
    Mr. Burton. So what you're saying is one of those probably 
is the one that worked with him on his sworn affidavit.
    Mr. Raben. Our understanding, as of right now, is that at 
least one--it's possible that more would have interacted.
    Mr. Burton. OK. Well, the reason I ask is because we'll be 
issuing subpoenas for them; and I want to make sure that we 
don't unduly burden the others who may not have been involved.
    Mr. Raben. I understand that. And I expect--I suspected 
that you would send subpoenas to those people, and I expect 
that we'll try to have conversations with you about our line 
attorney policy and our pending criminal case policy.
    Mr. Burton. Would both witnesses--both of you agree to 
answer written questions put to you by the committee so that we 
could include them in the record? And, if so, we'll hold the 
record open for those answers. Is there any problem with that 
with either one of you?
    Ms. Nolan. No, sir. No problem.
    Mr. Burton. Mr. Barr, do you have any more questions? The 
counsel--we want to give the counsel some time. He has a few 
questions that he would like to summarize with. If you have 
more questions, go ahead.
    Mr. Barr. One of the areas that we went into last week with 
the other Mr. Lindsay was something that he used--he kept using 
a term, and finally we asked him what was this term, ``mission-
critical project?'' Have you ever heard of that term?
    Ms. Nolan. Not until today, sir, I don't think I've heard 
it.
    Mr. Barr. You didn't hear it last week? We spend quite some 
time with him going over it.
    Ms. Nolan. I did not. I saw some but not all of Mr. 
Lindsay's testimony.
    Mr. Barr. I yield back, Mr. Chairman, for counsel.
    Mr. Burton. We'll now yield to the counsel for some 
questions.
    Mr. Wilson. Ms. Nolan, good afternoon. Mr. Raben, good 
afternoon.
    Ms. Nolan. Good afternoon.
    Mr. Wilson. Just to clarify things for the record, you've 
told us today that you had conversations with former White 
House counsel, Charles Ruff, correct?
    Ms. Nolan. Yes, sir.
    Mr. Wilson. How many conversations have you had with Mr. 
Ruff since the newspaper articles first made you aware that 
there was a problem with the e-mail situation?
    Ms. Nolan. I think two or three. I'm not sure. Two or 
three.
    Mr. Wilson. OK. Now just so we can be precise here, if you 
would please tell us everything he told you about his various 
exposures to this problem. What did he tell you?
    Ms. Nolan. He told me that he was informed that there was 
or may have been a problem with an e-mail search, that he spoke 
with Mark Lindsay about it, that he--that OA had conducted a 
second search and that, as far as he knew, that search had 
shown that there were no missing e-mails and that he, 
therefore, thought there was no problem.
    Mr. Wilson. OK. Fair enough. With--the time that he spoke 
with Mr. Lindsay, did he tell you whether other people were 
involved and--tell us, was this a meeting that he had with Mr. 
Lindsay or a telephone conversation?
    Ms. Nolan. I know--I know he said that he met with Mr. 
Lindsay, but I'm not sure.
    Mr. Wilson. You know where he met with Mr. Lindsay.
    Ms. Nolan. I don't.
    Mr. Wilson. Do you know if anybody else was in the meeting?
    Ms. Nolan. I don't.
    Mr. Wilson. Have you reviewed any records in the last week? 
We received records indicating that on June 19th Mr. Lindsay 
had a meeting with Mr. Ruff and an individual named Mills. I 
assume that's Cheryl Mills. Have you reviewed records about 
meetings?
    Ms. Nolan. I have seen that calendar entry, yes.
    Mr. Wilson. What does that calendar entry mean?
    Ms. Nolan. It means that at that time he had a meeting set 
up with Mr. Lindsay and Ms. Mills. I don't know if he had it--
if all three people were present. I just don't know.
    Mr. Wilson. It's fair to say you've not asked him whether 
he actually did have the meeting with those individuals.
    Ms. Nolan. He remembered that he had met with Mr. Lindsay. 
I think he remembered that he had discussed it with Ms. Mills. 
I did not ask if she was in the meeting at the time. I'm not 
sure that she was.
    Mr. Wilson. So since you've received the documents, you've 
not asked him the question did you meet with Mr. Lindsay and 
Ms. Mills on this issue?
    Ms. Nolan. He had already told me that he had discussed it 
with Ms. Mills.
    Mr. Wilson. Did he discuss it with Ms. Mills at a different 
time than he discussed it with Mr. Lindsay?
    Ms. Nolan. I don't know the answer to that.
    Mr. Wilson. So is that fair then to say that you have not 
asked him whether he met with Mr. Lindsay and Ms. Mills at the 
same time?
    Ms. Nolan. At the same time? I don't believe I've asked him 
that, no, sir.
    Mr. Wilson. Fair enough. I guess the threshold issue here 
is, you've told us what Mr. Ruff said. Do you believe Mr. 
Ruff's story?
    Ms. Nolan. I do.
    Mr. Wilson. OK. I mean, the problem--it's been stated a 
number of times and I have a few very specific questions about 
the test search that was done, but the problem obviously for us 
is that there were a number of employees who knew there was a 
serious problem.
    Within days of their elevating the problem to their 
superiors, a memo was produced from an assistant to the 
President to the deputy chief of staff to the President, who's 
well regarded and is the current chief of staff to the 
President. At an almost contemporaneous time, a briefing was 
held where Mr. Lindsay explained the problem to Mr. Ruff. And 
the problem that we're confronted with right now is almost 
everyone seems to have understood the parameters of the problem 
except Mr. Ruff. And so did Mr. Ruff give you any indication of 
how it was that he did not become aware of the basic parameters 
of this problem?
    Ms. Nolan. I just want to say that I'm not at all sure that 
everyone--it's clear to me from the testimony and from memos 
that people began to understand the parameters of the problem. 
It is not at all clear to me that everyone understood them at 
all. And, believe me, when I started asking questions in 
February of this year the--it wasn't clear to me that everyone 
understood the parameters of the problem.
    Mr. Wilson. Well, clearly, not every computer glitch 
results in a memo to the deputy chief of staff and a 
contemporaneous meeting with the counsel of the President. And 
there was--as we learned last week, there are some differing 
recollections, but there was great certainty as to what the 
problem was.
    Let me just read you a couple of statements that Mr. Barry 
made in e-mails, and they were admittedly after the fact, but 
Mr. Barry says in one e-mail, I feel that the records must be 
recreated and any searches need to be reperformed if the 
requesters feel it's necessary. This is a daunting proposition, 
but I do not see any other alternative.
    In another e-mail, Ms. Gallant, who was the Associate 
Director of the IS&T Division, says, I also agree with Tony 
about the new searches that will have to be done. We need 
direction from OA counsel on that front.
    And I'll leave this because I have some very specific 
questions, but it seems very clear to us that there was a 
concern that there was a universe of documents that had not 
been searched for responsiveness to subpoenas. Which takes me 
to, I guess, the real question. Mr. Ruff, you've told us, was 
concerned that there was a search, and the search indicated 
that there were no e-mails that had not been produced to any 
requesting body, is that correct?
    Ms. Nolan. I'm sorry. Could you repeat? I just want to make 
sure that your characterization of what I've said is accurate.
    Mr. Wilson. I guess this was my characterization. But there 
was a search conducted by computer programmers Northrop Grumman 
computer contract employees, and the search involved terms that 
had Monica Lewinsky in them, is that correct?
    Ms. Nolan. It was a search related to the Monica Lewinsky 
investigation. I don't know what the terms were. I haven't seen 
the search.
    Mr. Wilson. That was my next question: What was the search?
    Ms. Nolan. I don't know. Mr. Haas was here last week. He's 
the one who did the search. As I testified earlier, I have not 
seen what's on his F drive, what he saved of the search.
    Mr. Wilson. Have you made any inquiries as to what the 
search was?
    Ms. Nolan. I have made inquiries. I have not yet determined 
exactly what it was, other than related to the Monica Lewinsky 
matter.
    Mr. Wilson. At this point, you just don't know what the 
search was, is that's a fair----
    Ms. Nolan. I don't know what terms he used or what exactly 
he was searching for, no, I do not.
    Mr. Wilson. Do you know, as you sit here today, whether 
this was a comprehensive search for all of the material about 
Ms. Lewinsky that would have been requested by the independent 
counsel?
    Ms. Nolan. I don't know what the search was.
    Mr. Wilson. OK. I guess it takes us to the real concern. If 
you don't know what the search was, did you ask Mr. Ruff what 
the search was?
    Ms. Nolan. Mr. Ruff did not have any details for me. I 
don't think--I don't know if he doesn't remember or if his 
recollection is that OA took care of doing a search for these 
e-mails. I don't know the details of it.
    Mr. Wilson. And who requested the search?
    Ms. Nolan. You know, I don't--that is one thing I don't 
know. I believe counsel's office did, but I don't know if OA 
said they would do it. I just don't know the answer.
    Mr. Wilson. This is a matter of great importance for us for 
the next few questions I'll ask. But have you asked anybody in 
the counsel's office about this search?
    Ms. Nolan. Yes.
    Mr. Wilson. And what do they tell you? Did they request a 
search?
    Ms. Nolan. I don't recall whether the counsel's--I don't 
recall hearing that anyone in the counsel's office requested 
the search. I don't know if Mr. Ruff requested it. I just don't 
know.
    Mr. Wilson. The reason I mention this at this point and 
believe that it's of great importance is because the search 
that was actually conducted appears to be a very, very minor or 
preliminary type of search. It appears to have involved a 
request for documents that pertain to one individual and we 
were told four other individuals. But it doesn't appear to be a 
particularly all-encompassing search. Is this your 
understanding of this particular Lewinsky search?
    Ms. Nolan. That's my general understanding. As I said, I 
haven't seen the search, but it's my understanding that Mr. 
Ruff had been told there had been a problem or understood that 
there was a problem with a particular search and that another 
search was being done to see if there was a problem with that 
particular search. So I don't know that anybody said anything 
about an all-encompassing search.
    Mr. Wilson. We were told by the employees when they did the 
search they came up with three reams of documents. I originally 
asked if that's about this many documents, and I was told it 
was about this many documents. That's what we were told last 
week.
    Now the question is, if this was a very preliminary search 
and it showed a fairly significant universe of documents, maybe 
duplicative, maybe not, but a fairly large universe of 
documents, did anybody--have you discussed with Mr. Ruff 
whether he said maybe we better go back and do a comprehensive 
search because there is a problem?
    Ms. Nolan. No. As I've said, it's my understanding that 
what was provided to the counsel's office--and I don't know if 
what was provided was this amount or this amount. I don't know. 
But what was provided to the counsel's office was checked 
against what the counsel's office already had been provided.
    Mr. Wilson. But let me----
    Mr. Barr. Would counsel yield for just a moment?
    I'm sorry, but with regard to the sort of--the line of 
reasoning in the position that y'all are taking with regard to 
this subpoena from this committee with regard to your 
conclusion that however many documents there were here--and I 
think we've established that there were quite a few subject to 
the search that Mr. Haas conducted or was directed to conduct 
and did conduct--that someone made a determination that they 
were duplicates of others that had already been provided 
pursuant to the subpoenas to the Congress. Was a similar 
conclusion reached and conveyed to the courts in any pending 
civil litigation that documents--none of these documents were 
going to be furnished to the court because they were determined 
to be duplicative by the counsel's office?
    Ms. Nolan. Mr. Barr, it's my understanding that the 
counsel's office determined that they had already produced 
whatever those documents were.
    Mr. Barr. So they made this determination that these 
documents were duplicative and, therefore, for all purposes, 
whether it was the independent counsel, a congressional 
committee or civil action--and, therefore, none of them were 
going to be produced because they already had been?
    Ms. Nolan. It is, again, my understanding that Mr. Ruff 
understood there was a problem with a particular search; and it 
was that search that they were looking to see if there were 
duplicative documents.
    Mr. Barr. I'm not sure we're going to get anywhere on that. 
But just with regard to the determination that you say was made 
that, with regard to these documents that counsel is asking you 
about now, that they were not furnished to anybody because they 
were deemed to be duplicative, that applies to not only the 
request from this committee, the subpoena, but to anybody else 
that had asked for those, including the courts or the 
independent counsel?
    Ms. Nolan. I apologize, sir, maybe having been here for 
this long I'm having trouble following, but I don't know the 
question. There was a search done with respect to one subpoena 
in one investigation. That was, as I understand it, what Mr. 
Ruff understood there might have been a problem about. He 
didn't understand that there was a problem about any other 
search or any other investigation. So I'm just not sure how to 
answer your question.
    Mr. Barr. Weren't these documents subject to a number of 
different requests, including but not necessarily limited to 
the independent counsel, this committee, the impeachment 
committee and possibly other civil actions?
    Ms. Nolan. Documents that would have been responsive?
    Mr. Barr. That relate, for example, to Ms. Lewinsky, 
possibly Waco.
    All I'm saying is, you're saying that Mr. Ruff made the 
determination that, for purposes of one subpoena, these 
documents that Mr. Haas uncovered were duplicative and, 
therefore, they were not submitted pursuant to that one 
subpoena.
    Ms. Nolan. That's the only problem he understood might have 
existed.
    Mr. Barr. Were those documents then submitted to any other 
outside requestor, such as the independent counsel, the party 
to the civil action or the impeachment committee?
    Ms. Nolan. I am sorry. I don't understand.
    Mr. Barr. Maybe, counsel, you can ask with a little more 
clarity.
    Mr. Wilson. Let me just pick up on something you just said 
here.
    Mr. Burton. If the gentleman will yield. What they're 
asking is, the duplicates, were they provided to anybody other 
than----
    Ms. Nolan. No, I think that the----
    Mr. Burton. Once it was decided they were duplicates, you 
didn't provide them to anybody.
    Ms. Nolan. Not that I'm aware of, no. They were duplicates 
with respect to a particular subpoena request by a particular 
investigator--I believe the independent counsel. If those e-
mails were requested by another investigative body, the 
counsel's office did give them already. But I don't know if 
they were, sir. The duplicate search, however, as I understand, 
it was related just to this one request.
    Mr. Wilson. Let me pick up on that, if I may, because 
everything you've said flies in the face of everything we've 
been told. You just indicated that there was--what was taken to 
Mr. Ruff was pursuant to a search request falling from a 
subpoena. What we have been told--and disavow me of this error 
if I'm wrong--what we were told is that individuals identified 
a problem and did a test using a very prominent and in-the-news 
name at the time to determine whether there were documents in 
this vast universe of information that would be--that would 
show that there was, in fact, a big problem.
    And so, consequently, what we've been told is that there 
was not a specific subpoena request trying to track down all 
the information pertaining to Monica Lewinsky. We've been told 
that there were requests made, that there was a test made to 
see what was in this universe of documents on the server at the 
time. And they used the name Monica Lewinsky and they used some 
other names. But what you're telling us now is quite different. 
I wanted to followup on the point I'm just making.
    Ms. Nolan. Can I make clear that I'm telling you what I 
understand Mr. Ruff understood at the time? I cannot tell you 
what search was actually done, as I've said, or what terms were 
used or how it was decided to do it. I don't know the answers 
to that. So I don't think what I'm telling you is different. 
I'm just telling you what Mr. Ruff understood at the time.
    Mr. Wilson. Right. I appreciate that. That's why I asked my 
initial question, and that's very helpful. But the search--and 
I guess this goes to, you know, what happened in the meeting 
with Mr. Ruff, trying to keep sight of the forest and get the 
trees out of the way here. The search was a very, very 
insignificant type of search. It wasn't the search, from what 
we've been told, that White House counsel's office constructed 
to determine what would be responsive to the Lewinsky subpoena. 
It was just a simple search asking for information about 
Lewinsky and some individuals. And to my way of thinking any 
responsible lawyer would have looked at that search, seen there 
was a lot of documents, even say we ought to do a really 
thorough search, but that's not your understanding of this.
    Ms. Nolan. It's not my understanding that there--I don't 
know what Mr. Ruff knew about the search or the kind of search 
it was. It's not my understanding that he knew it was, as you 
characterize it, a simple search or that it even was a simple 
search. I don't know, and I'm not able to testify about that.
    Mr. Wilson. This is important to us because all day you've 
been--represented that the Lewinsky documents were duplicative 
and that went to the issue there's not really a big problem 
here because these are duplicative documents.
    Ms. Nolan. I have been representing what Mr. Ruff and the 
counsel's office understood at the time, and I continue to 
represent that. But I just want to make clear that that's all 
I'm able to testify about. I wasn't there. I don't have any 
independent understanding.
    The Northrop Grumman employees who you had here last week, 
who you were able to talk to, have been represented by Northrop 
Grumman counsel. I've not talked to them. So my information is 
as I've presented it. And I just want to be clear about what I 
am testifying.
    Mr. Wilson. OK. I understand. I just--to recapitulate, and 
I'll move away from this in a moment, but the point I guess I'm 
making is, our understanding--the search that was conducted was 
conducted to show that there was a systemic problem, a 
significant issue had arisen. A search was conducted that 
showed, yes, there was that problem. And your testimony--and I 
know you're telling us what Mr. Ruff has told you, but your 
testimony is that Mr. Ruff did not perceive in the meetings 
that he had that there was a systemic problem. And our 
understanding is that everything that was done showed that 
there was a problem with the system and yet it seems that 
everybody but Mr. Ruff knew that there was a problem with the 
system. And yet there is a disconnect here.
    Ms. Nolan. There is a disconnect. I think I testified to 
that. I think there's no question about that. That the people 
who knew the technology knew things that the counsel's office 
who are producing documents did not know. There's absolutely no 
question there was a disconnect.
    I do want to say again, though, that I don't agree with the 
characterization that everyone else knew. I don't have any 
information that suggests that's the case. Some people knew. 
The technical people knew. The e-mails that have been referred 
to throughout this day don't seem to have been sent beyond the 
technical people.
    And it is also true that certain people in OA, other than 
the technical people who were sending the e-mails, did know 
that there was a problem and have known that there was a 
problem. That was--that disconnect occurred. There's no 
question about that.
    And the other thing I just wanted to mention is I don't 
know Mr. Ruff had meetings. You referred to meetings. I'm aware 
that he discussed this with Mr. Lindsay. I don't know, you 
know, if it was in a face-to-face meeting, if there was more 
than one discussion. I don't know that.
    Mr. Wilson. I can understand that. But one of the problems 
we've had is you've had conversations with Mr. Ruff and you 
come here and you're not even sure if there were meetings on 
this subject, which obviously means we have to go into the next 
phase.
    Let me leave that now, because there are two different 
opinions on this matter at this point.
    Earlier, a number of members had asked you questions about 
when you first realized that something was wrong and that 
something needed to be done, and we sort of danced around the 
fact there was a newspaper article and there was a filing in a 
civil lawsuit.
    Ms. Nolan. I didn't mean to dance. I did not dance. If I 
was dancing with someone, I was unaware of it.
    Mr. Wilson. If you could try and pin it down with 
specificity, when did you first know that you would have to go 
back and reconstruct the e-mails?
    Ms. Nolan. I can't pin that down with specificity. I did 
not know there was a problem that would require us to 
reconstruct until sometime last month for purposes of our 
productions. I did know in January that OA was going to 
reconstruct some things for Federal records. I just--and that 
they were going to proceed with that. Sometime last month I 
realized that it was a problem that would have affected our 
ability to retrieve certain e-mails that were requested.
    Mr. Wilson. When you learned of the problem, when it first 
became apparent to you that there was this significant problem, 
did you meet with the contract employees who--let me ask this. 
Have you ever met with the contract employees who were 
originally aware that there was a significant problem?
    Ms. Nolan. As I've said, almost right away, those contract 
employees were represented by Northrop Grumman counsel. We 
tried to talk to their counsel several times. We weren't able 
to talk with them.
    Mr. Wilson. Well, I have a recollection of that because I 
was very involved. The newspaper article occurred, and there 
was a number of weeks before Northrop Grumman counsel was 
retained. Did you make an effort in the interim to----
    Ms. Nolan. We certainly talked to people in OA. I don't 
know who people in OA talked to. But they--of course, the 
contract employees--and I think there was testimony about this 
last week. There are apparently quite strict rules about who in 
the complex talk to contract employees and through whom, as I 
think you know.
    Mr. Wilson. It's correct to say then that, right after the 
newspaper article from the Washington Times that basically 
identified this problem came out, you did not in the first week 
make an effort to talk to the contract employees. Is that a 
fair characterization?
    Ms. Nolan. I don't know. I just don't know.
    Mr. Wilson. Well, I guess if you could please tell us when 
you first did make--provide for the written record afterwards.
    Ms. Nolan. What are you asking me to tell you? I'm sorry?
    Mr. Wilson. When you first made an effort to reach out to 
the contract employees to understand.
    Ms. Nolan. I will see if I can get that information.
    Mr. Wilson. Just a couple last questions. One last subject.
    This is due diligence here, because it's a different type 
of document that we've had I guess misunderstandings with or 
problems with. So I'll ask you about telephone records so that 
we can get a definitive answer about telephone records.
    It's been reported in the press--and, obviously, that 
doesn't make it right--but it's been reported in the press that 
there are White House telephone records dating back to 1993. 
Are you aware of the existence of any telephone records related 
to any telephone calls going either into or out of the White 
House?
    Ms. Nolan. I'm not.
    Mr. Wilson. OK. Is this a subject that you've ever had any 
discussions about?
    Ms. Nolan. Certainly asked with reference to when this e-
mail issue came up. I was also made aware that there had at 
some point been a claim about the telephone records. I asked 
one of the attorneys in my office who had handled the case, 
again, Michelle Peterson. She informed me that at the time she 
had spoken with Sheryl Hall about the matter, who told her that 
there was no truth to that allegation. We determined that there 
were no such records. That's what I thought about it.
    Mr. Wilson. Who first made you aware of the allegations 
that there were telephone records?
    Ms. Nolan. I don't know. It came up at some point after I 
was aware of this e-mail issue. I just don't know who it was.
    Mr. Wilson. Are you aware of whether any of your 
predecessors in the White House counsel's office have attempted 
to definitively determine whether there are telephone records--
and I'm being as broad as humanly possible here--any type of 
record in any form whatsoever relating to any type of telephone 
call, either coming out of or going into the White House?
    Ms. Nolan. I'm not aware. I can tell you that when I was an 
associate counsel, at some point between 1993 and 1995, whoever 
was counsel then, I believe it was Judge Mikva, asked me 
whether we had the capability to retrieve certain telephone 
records. I made an inquiry to the Office of Administration and 
was told we did not and conveyed that to Mr. Mikva. That's the 
only thing I know about it.
    Mr. Wilson. Well, I'll leave this line of questioning.
    But if you could provide for us a definitive answer. I know 
you've told us right now that you're not aware of any records. 
But if you can check this and provide a definitive answer after 
the hearing as to whether there are any records in any format 
whatsoever of telephone calls going into the White House or 
coming out of the White House, if you could provide that for 
the record it we would be greatly appreciative. Will you do 
that?
    Ms. Nolan. I certainly will look and see. We will get back 
to you on that. I will provide them if I can, yes. So I will 
look and give you an answer to your question.
    Mr. Wilson. Thank you very much.
    Mr. Burton. Thank you, counsel. Counselor.
    Mr. Schiliro. Ms. Nolan, in the interest of time, I will 
not ask you a series of questions. The only question I have for 
you is, do you have some information that you are willing to 
share or ready to share with the committee today but nobody 
asked you the right question? And so if there's a question that 
you're ready to answer, but we just haven't figured out how to 
ask it----
    Ms. Nolan. I don't think so. I think I've----
    Mr. Schiliro. Nothing else you want to say?
    Ms. Nolan. No, sir.
    Mr. Schiliro. Thank you, Mr. Chairman.
    Mr. Burton. Let me conclude by asking one last question.
    You keep using the term ``subpoena request.'' My counsel 
has noticed this time and again. And if you look at the 
documents we served on you, they're just called subpoenas. Why 
do you call them ``subpoena requests?''
    Ms. Nolan. I don't know. It's just how I refer to them.
    Mr. Burton. I just wondered if maybe there was a different 
legal definition that the White House applied to our subpoenas 
because they're supposed to produce documents or appearances. 
You don't have any----
    Ms. Nolan. No. No. I--subpoena sometimes does have a number 
of different elements of it. And it may be sometimes that 
somebody talks about a subpoena request as an element of a 
subpoena. But I am not sure that I use those terms consciously.
    Mr. Burton. All right. I want to thank you for your 
patience and your ability to sit there that long and answer all 
the committee's questions. You have been helpful. And we will 
continue to pursue this matter.
    We stand adjourned.
    [Whereupon, at 5:45 p.m., the committee was adjourned.]


  WHITE HOUSE E-MAILS: MISMANAGEMENT OF SUBPOENAED RECORDS--DAY THREE

                              ----------                              


                         WEDNESDAY, MAY 3, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Shays, 
Ros-Lehtinen, McHugh, Horn, Mica, Souder, LaTourette, Barr, 
Hutchinson, Terry, Biggert, Ose, Vitter, Waxman, Owens, Towns, 
Kanjorski, Mink, Sanders, Norton, Cummings, Kucinich, 
Blagojevich, Davis of Illinois, Tierney, Turner, Ford, and 
Schakowsky.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; M. 
Scott Billingsley and James J. Schumann, counsels; Pablo 
Carrillo, Jason Foster, and Kimberly A. Reed, investigative 
counsels; Robert Briggs, deputy chief clerk; Michael Canty, 
legislative aide; Leneal Scott, computer systems manager; Lisa 
Smith Arafune, chief clerk; Maria Tamburri, assistant to chief 
counsel; Corinne Zaccagnini, systems administrator; Phil 
Schiliro, minority staff director; Phil Barnett, minority chief 
counsel; Kenneth Ballen, minority chief investigative counsel; 
Kristin Amerling, minority deputy chief counsel; Paul 
Weinberger and Michael Yang, minority counsels; Ellen Rayner, 
minority chief clerk; and Jean Gosa and Earley Green, minority 
assistant clerks.
    Mr. Burton. Good morning. Good morning. A quorum being 
present, the Committee on Government Reform will come to order. 
I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record. Without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    I ask unanimous consent that the binder of exhibits that 
have been prepared for the hearing and shared with minority 
staff prior to the hearing be entered into the record, and 
without objection, so ordered.
    I also ask unanimous consent that questioning in this 
matter proceed under clause 2(g)(2) of House rule 11 and 
committee rule 14 in which the chairman and ranking minority 
member allocate time to members of the committee as they deem 
appropriate for extended questioning not to exceed 60 minutes 
equally divided between majority and minority. Without 
objection, so ordered.
    I also ask unanimous consent that questioning in the manner 
under consideration proceed under clause 2(g)(2) of House rule 
11 and committee rule 14 in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning not to exceed 60 minutes 
divided equally between the majority and minority. Without 
objection, so ordered.
    This week we will hold our 3rd and 4th days of hearings 
with the White House's failure to deal with the e-mail problem 
and their failure to comply with subpoenas. Today we will focus 
on what was happening in the Office of Administration. Tomorrow 
we will focus on what was happening at the White House 
counsel's office.
    We just had a 2-week recess, but we're pushing ahead with 
this investigation. We're conducting interviews. We're 
reviewing documents. We're learning more as we go along.
    We've been working on this investigation for a little over 
2 months now, and it's very interesting to watch how the White 
House behaves in these situations. The White House is behaving 
exactly the way they do when they know they've done something 
wrong and they've been caught with their hand in the cookie 
jar. They are dusting off all of their old tricks that they 
used in 1997 and 1998 during the illegal campaign fundraising 
investigation. They turn over embarrassing documents late on 
Friday evening. They selectively leak problem documents over 
the weekend. It just happened again last weekend. They claim 
bogus privileges over the documents as a stalling tactic. 
People refuse to be interviewed prior to hearings.
    You may not admire their tactics, but you have to admire 
their consistency.
    When we held our first hearing with the Northrop Grumman 
contractors, I tried to put this e-mail problem into context. I 
went through a whole litany of the White House stalling tactics 
that we had endured, refusing to turn over documents until we 
got fed up and scheduled a contempt vote, the failure to turn 
over the White House videotapes, withholding documents in the 
White House data base investigation, claiming false privileges 
to delay document production.
    Instead of going through the whole laundry list again 
today, I think what I'll do is let them speak for themselves in 
their own words. A new book has just come out, Truth at Any 
Cost. It was written by a Washington Post reporter and a Time 
Magazine reporter. They found out a lot about the way the White 
House operated. Herald Ickes, who is the deputy chief of staff, 
is quoted as calling the White House approach a ``foot-
dragging, screw you attitude'' approach. He apparently said it 
with a great deal of admiration. I cleaned up that quote just a 
little bit for the hearing room. But I think you get the 
picture.
    So they drag their feet, they try to run out the clock, and 
then they blame the investigators for being partisan and taking 
so long.
    There was another book about the White House written by 
Elizabeth Drew. She quoted another White House lawyer, Don 
Goldberg. Here's what he had to say, ``it's an obvious 
strategy. On the Hill, if you don't have much to go on, you 
decry the partisanship, and the print reporters will write in 
the first or second paragraph, and the TV stories will begin, 
`In a hearing mired in partisanship,' and then they get to the 
subject of the hearing and you've won. That's Damage Control 
101.''
    He goes on to say, ``in a hearing, if you're playing 
defense, the goal is not to get your message out, the goal is 
to keep the other side from getting their message out. Then 
you've won.''
    Well, that may be damage control 101, but it's not public 
service 101.
    What I don't understand is why it is that the White House 
spends so much time figuring out how to spin things when the 
facts aren't on their side and so little time trying to do 
things right in the first place. I'm going to spend more time 
talking about this tomorrow.
    We have four White House lawyers on the schedule to 
testify: former White House Counsel Charles Ruff, former Deputy 
Counsel Cheryl Mills, Mark Lindsay from the Office of 
Administration, and Associate Counsel Dimitri Nionakis. But 
today we're going to focus on the Office of Administration.
    We've reviewed a lot of documents at this point. We've 
interviewed some people. We haven't been able to interview 
others. We're starting to piece together the threads of what 
was happening. Hopefully by the end of this hearing, we'll have 
a clearer picture.
    Here are a few of the key points that are starting to 
emerge. Point No. 1: The Northrop Grumman employees were 
threatened. This is becoming more and more clear. On March 23, 
five Northrop Grumman employees testified here. They said they 
were called to a meeting right after they discovered that 
thousands, maybe hundreds of thousands, of e-mails hadn't been 
searched for subpoena compliance. They said they were ordered 
to keep it a secret. They said they were ordered not even to 
tell their supervisors or spouses. Some said they were 
threatened. One said he was told there was a jail cell with his 
name on it.
    The White House officials Laura Callahan or former Laura 
Crabtree, and Mark Lindsay denied all of that.
    On Monday we interviewed a higher-level Northrop Grumman 
supervisor this past Monday, Joseph Lucente. He was three rungs 
up the ladder from the Northrop Grumman employees at the White 
House. In September 1998, he met with three of the contractors 
who were at the meeting with Mrs. Callahan and Mr. Lindsay. 
They had a long discussion about what happened. This was about 
3 months later. So we asked Mr. Lucente, did your employees 
feel threatened? Last Monday he said yes. Were they prevented 
from talking to their superiors? Last Monday he said yes. Were 
they concerned that documents weren't being searched to comply 
with subpoenas? Last Monday he said yes. So once again, we have 
contemporaneous testimony that what was--what they said was 
true.
    Point No. 2: We're getting more and more evidence that 
people wanted to get this problem fixed, and they couldn't get 
anyone to approve fixing it. Northrop Grumman was trying to get 
it fixed. Tony Barry was trying to get it fixed. Other people 
wanted to get it fixed, but they couldn't get anyone higher up 
in the food chain to approve it.
    We have a whole series of e-mails from Tony Barry. He was 
frustrated. I'm going to read a couple of the messages. August 
13, 1998, ``as far as I can tell, there is no movement under 
way to fix the problem and recover the lost records from the 
backup tapes.'' Does that sound familiar? ``I am not at all 
clear what my role should be. I feel that the records must be 
recreated and any searches need to be reperformed if the 
requestors feel it is necessary. This seems like a daunting 
proposition, but I do not see any other alternative.''
    September 10, 1998, ``I am growing increasingly concerned 
about the seeming lack of movement on the Mail2 problem. Do you 
know where the hold up is. We have known about this problem for 
4 months now and not a single record has been passed to ARMS. 
Even worse, the root problem has not been fixed.''
    September 25, 1998, ``It has been about 2 weeks since I 
sent my last `concerned memo' regarding the Mail2 problem and I 
am still not seeing any movement on fixing the problem. I need 
to know, for my own sanity, exactly what my role in this 
project should be.''
    It seems clear that Mr. Barry knew that the Presidential 
Records Act wasn't being followed, and he was trying to get 
someone to pay attention to it. He was also the guy who was 
responsible for conducting e-mail searches when subpoenas came 
in, and he knew they weren't being done correctly, and he was 
probably worried about that in the compliance with the 
subpoenas.
    Point No. 3: There was a hearing coming up before the 
Appropriations Committee in March 1998, and they were not sure 
how to handle it. Mark Lindsay, the director of the Office of 
Administration, testified at that hearing in 1999. The White 
House e-mail problem never came up, but the documents seem to 
indicate that there was a long debate over whether to ask 
Congress for money to fix the problem. If they asked for the 
money and they got it, then they could get the problem fixed. 
But it was a double-edged sword. If they revealed the problem 
by asking for the money, then Congress would know that document 
requests and subpoenas had not been complied with.
    We have a copy of annual e-mail from Karl Heissner, who is 
here today. I hope you'll put exhibit No. 81 up on the screen. 
And here's what it says, ``while I'll be glad to write up 
something related to the `Information Requests' channeled to us 
via White House Counsel in response to various requests from 
Congress and litigants against the Government, we may not want 
to call undue attention to the issue by bringing the issue to 
the attention of Congress because,'' and then the sentence kind 
of ends. There's no period. And it looks like there may be some 
words erased there, but it says, We may not want to bring the 
issue to the attention of Congress because, and then it kind of 
drifts off, and then the sentence ends.
    And the next paragraph states, ``Last year's hours consumed 
by SID staff amounts to only over a little over 500, This 
year's hours consumed so far amounts to only 65, and The level 
of requests appears to be declining.''
    And then he concludes by saying, ``Let sleeping dogs lie. . 
.'' I think translated that means let's keep a lid on this, and 
don't let Congress and the independent counsels know about it. 
I don't like the sound of it. When you hear that kind of talk 
from a political appointee, it's disappointing, but I come to 
expect it. When I hear it from a career employee, something is 
wrong, so we would like to know what Mr. Heissner was talking 
about here.
    And then there was a lot of back and forth on the talking 
points Mark Lindsay would use if this came up in a hearing. It 
seems that some versions were more candid than others.
    [Exhibit 81 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.141
    
    [GRAPHIC] [TIFF OMITTED] T9621.142
    
    [GRAPHIC] [TIFF OMITTED] T9621.143
    
    [GRAPHIC] [TIFF OMITTED] T9621.144
    
    [GRAPHIC] [TIFF OMITTED] T9621.145
    
    [GRAPHIC] [TIFF OMITTED] T9621.146
    
    [GRAPHIC] [TIFF OMITTED] T9621.147
    
    [GRAPHIC] [TIFF OMITTED] T9621.148
    
    [GRAPHIC] [TIFF OMITTED] T9621.149
    
    Mr. Burton. We have another e-mail from Mr. Heissner. He's 
offering some edits to the talking points. I'd like to have 
exhibit 92 put up on the screen. I hope we can see that. My 
gosh, it's small. Wonder why we can't get that stuff blown up.
    At first he basically states, here's the current--listen to 
this--at first he basically states, here's the current version 
of the talking points, and then he lists them. Then he states 
the more nearly accurate version. The more nearly accurate 
version. Who is putting together inaccurate talking points? And 
if this is the more nearly accurate version, where is the 
really accurate version?
    [Exhibit 92 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.150
    
    [GRAPHIC] [TIFF OMITTED] T9621.151
    
    [GRAPHIC] [TIFF OMITTED] T9621.152
    
    Mr. Burton. The bigger, more important question is why 
didn't the White House just come clean and tell Congress about 
the problem as well as the independent counsels? Now, Karl 
Heissner was not the decisionmaker in all this. I don't know 
him. We haven't been able to interview him. I'm just going to 
assume that he's a great human being and a dedicated public 
servant, but there are some serious issues here that need to be 
addressed. There was a lot going on, and we need to understand 
it.
    Point No. 4: The White House counsel's office got a second 
briefing on the e-mail problem. During the last hearings we 
held, we learned that Mr. Ruff got a briefing on the e-mail 
problem from Mark Lindsay on June 19, 1998. We talked to Mr. 
Ruff. We've had testimony from Beth Nolan. We've been told 
there was a disconnect. Mr. Ruff and the counsel's office did 
not understand how serious the problem was. Get that. Subpoenas 
have been issued by our committee, by other committees and the 
independent counsels, but they didn't understand how serious 
all these missing e-mails were.
    Last week we interviewed Michael Lyle. He's now the 
director of the Office of Administration. He moved up to Mark 
Lindsay's job when Mark Lindsay got a promotion. Mr. Lyle told 
us that there was a second briefing for the counsel's office, 
but that was news to us. He stated that in the spring of 1999, 
he was informed of the second e-mail problem, the letter D 
problem. He told Mark Lindsay about it. Mark Lindsay told him 
that he had briefed the counsel's office. Who did he talk to at 
the counsel's office? We don't know yet. Mr. Lindsay will be 
back tomorrow, and we'll ask him, but the point is there was a 
second briefing in less than a year, and still no action was 
taken to correct the problem, to inform Congress or the Justice 
Department or the independent counsels.
    So there's a second briefing, you know, and they still 
didn't tell anybody about it. Was there a second disconnect? 
Did the counsel's office understand the second time around and 
just decide not to do anything about it? Those are questions I 
hope we can resolve tomorrow.
    Let me end up by concluding in my opening statement that 
for almost 2 years the White House knew that the subpoenas 
weren't being complied with, and nothing was done about it 
until it appeared on the front page of the Washington Times and 
my committee started interviewing people. Somebody should be 
accountable for that.
    You know, Richard Nixon was run out of office for 18\1/2\ 
minutes of tapes. We had a President run out of office because 
of the missing tapes, 18\1/2\ minutes. Here we have hundreds of 
thousands of e-mails, and the White House has stonewalled the 
Justice Department, the Congress, several independent counsels, 
all of whom were interested in what might be in those e-mails, 
and not only did the White House know about them, but they 
covered it up over the past 2 years. And there was not just one 
meeting about this, there were two meetings at different times.
    The American people ought to be outraged. If Richard Nixon 
was run out of office for 18 minutes of tapes, what does that 
mean about the media and the reporting of all this when we're 
talking about hundreds of thousands of e-mails? And the White 
House is now saying, well, it may take 6 or 8 months for them 
to get a contractor to get all this whipped into shape. We 
believe in a matter of weeks we can hire a contractor to pick 
out specific words and names and get these e-mails, the ones 
that are relevant to various investigations, to the various 
independent counsels, the Justice Department and our committee 
in a short period of time.
    But the White House has said they've hired contractors and 
it's going to take 6 to 8 months. Do you know when the election 
is? It's in November. So they are going to try to once again 
run out the clock.
    Mr. Heissner and Mr. Lyle, I want to thank you for being 
here. I'm sure you'd rather be someplace else; however, I hope 
you will be direct and straightforward and try to help us 
understand what's going on.
    We'll also hear from Assistant Attorney General Robert 
Raben on our second panel. We have a number of questions for 
Mr. Raben about the Justice Department's role in these matters 
and subpoenas we've issued for Justice Department documents. I 
hope we can make some headway with Mr. Raben today.
    I now yield to Mr. Waxman.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.153
    
    [GRAPHIC] [TIFF OMITTED] T9621.154
    
    [GRAPHIC] [TIFF OMITTED] T9621.155
    
    [GRAPHIC] [TIFF OMITTED] T9621.156
    
    [GRAPHIC] [TIFF OMITTED] T9621.157
    
    [GRAPHIC] [TIFF OMITTED] T9621.158
    
    Mr. Waxman. Mr. Chairman, in the spirit of trying to 
expedite these hearings, I won't make an opening statement, 
certainly nowhere near the opening statement the length of that 
which you just delivered, but I do want to point out before we 
begin that your opening statement was filled with inaccuracies, 
omissions, that I think distort the facts of the issue before 
us today. And I was taken aback by your close because not only 
are you rewriting the events with regard to the White House e-
mails, you have rewritten history with regard to why Richard 
Nixon was impeached by the House and forced to resign. It was 
not because of 18 minutes of missing tape.
    I know that there are many people who are disappointed you 
can't run this President out of the White House, because the 
Constitution requires you have a reason to do it more than the 
fact that you dislike him enormously.
    I look forward to the testimony of our witnesses today. I 
want us to get the facts, and then we'll see what conclusions 
we can draw from the facts. What we've heard were a lot of 
conclusions, and I know you're trying to see if the facts will 
fit your conclusions, but let's evaluate it on the testimony 
we're to receive. I look forward to hearing from our witnesses. 
I yield back my time.
    Mr. Burton. We'll now welcome our first panel to the 
witness table, Carl Heissner and Michael Lyle. Would you please 
stand and raise your right hands, please.
    [Witnesses sworn.]
    Mr. Burton. Do either one of you have an opening statement? 
Mr. Heissner, you want to start?

     STATEMENT OF KARL HEISSNER, BRANCH CHIEF FOR SYSTEMS 
INTEGRATION AND DEVELOPMENT, EXECUTIVE OFFICE OF THE PRESIDENT, 
                    OFFICE OF ADMINISTRATION

    Mr. Heissner. I have an opening statement which I delivered 
to the committee yesterday which is included in your record. I 
don't think it's necessary for me to read it unless you wish me 
to.
    Mr. Burton. You want to let your prepared statement speak 
for itself?
    Mr. Heissner. Correct, sir.
    [The prepared statement of Mr. Heissner follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.159
    
    [GRAPHIC] [TIFF OMITTED] T9621.160
    
    Mr. Burton. Mr. Lyle.

 STATEMENT OF MICHAEL LYLE, DIRECTOR, EXECUTIVE OFFICE OF THE 
              PRESIDENT, OFFICE OF ADMINISTRATION

    Mr. Lyle. Thank you, Mr. Chairman. I do not have a written 
opening statement that I submitted, but I do want to emphasize 
to you that I have cooperated with your committee, as has my 
staff. I participated in an almost 4-hour interview with five 
of our attorneys before I came here to this committee to 
testify here again, and I'm prepared to answer any questions 
that you may have in an effort to cooperate in this matter.
    I know that my staff members--at least 10, maybe 12 members 
of my staff have also been requested for interviews, and I know 
they are working with your attorneys to do that. So I want to 
emphasize to you that we are working and endeavoring to 
cooperate with you as best we can.
    Mr. Burton. Does that conclude your opening statement?
    Mr. Lyle. Yes, sir.
    Mr. Burton. Thank you.
    Mr. Heissner, I appreciate that you aren't a political 
appointee. This isn't easy, and I want to thank you for being 
here. We were hoping you would be available for an interview 
before this hearing, but evidently he was not available for a 
interview; is that correct?
    Mr. Barr. Mr. Chairman, could I ask you to identify the 
third party at the table, who he is, if he's representing 
somebody?
    Mr. Burton. Are you the legal counsel for Mr. Heissner?
    Mr. Zwerling. My name is John Zwerling, and I'm legal 
counsel for Mr. Heissner.
    Mr. Burton. Mr. Heissner evidently was not available for 
questioning by the counsel for the committee.
    Let's get right to the questions. Sometime in November 
1998, you were given the responsibilities of managing phase 2 
of the Mail2 project; is that correct?
    Mr. Heissner. That's correct, sir. A number of us that were 
involved or had responsibilities related to the particular 
issue met, and it was agreed that the responsibility for the 
recovery, for developing the software to perform the recovery 
of un-records-managed records would be the responsibility of 
the Systems Integration and Development Branch, which I was 
heading at the time.
    Mr. Burton. That was in November 1998?
    Mr. Heissner. That's correct, sir.
    Mr. Burton. What was phase 2 of the Mail2 project?
    Mr. Heissner. When you take a look at the record, there are 
a number of phases, 1s, 2s, and 3s. I believe in that instance 
the phase 2 was understood to be the development of an 
application of software, of a system that would take the backup 
tapes that had been taken over previous months and years, would 
take those backup tapes and bring them back onto a computer and 
then extract from the data that was restored the e-mail 
messages which had not been records managed.
    Mr. Burton. Was it not also to make sure that future 
incoming e-mails were archived?
    Mr. Heissner. That particular project would not address 
ensuring that future records would be archived. That was a 
separate process.
    Mr. Burton. The White House took steps to meet its legal 
obligations to produce documents only after this committee 
began to investigate. Why did Congress have to hold hearings to 
get the White House to give us that information, to do the 
right thing?
    Mr. Heissner. I have no knowledge of the rationale behind 
that, sir.
    Mr. Burton. You were the chief technician. Did you ever 
feel frustrated that the White House didn't do anything in 1998 
or 1999 to comply with our subpoenas and give us the 
information?
    Mr. Heissner. I have--it's difficult for me to imagine that 
we didn't comply with subpoenas. At the time the recovery of 
the records was a responsibility of mine, and at the time my 
concerns were that we develop an application that would recover 
the data. The concern subsequently became to make sure that the 
backup tapes which had been taken were not being recycled or 
reused so that the data eventually could be recovered.
    Mr. Burton. Eventually?
    Mr. Heissner. Yes, sir.
    Mr. Burton. Did you feel that a lot of effort was being 
made to solve the problem in 1999?
    Mr. Heissner. By 1999, the problem of those 400, 500 
accounts which had not been encoded properly, and therefore the 
incoming e-mail that was coming from outside the complex had 
not been records-managed, had been corrected. At the time the 
contractor staff, the Northrup Grumman staff, was involved in 
developing some software that would make sure that the system 
functioned properly, and there would be no more non-records-
managed e-mails.
    Mr. Burton. Can you tell me why it took congressional 
hearings to force the White House to make an effort to solve 
the e-mail problem?
    Mr. Heissner. No, sir, I can't.
    Mr. Burton. Put up exhibit 81 on the screen, please.
    Before we get that, Mr. Lyle, can you tell me why it took 
congressional hearings to force the White House to make an 
effort to solve the e-mail problem?
    Mr. Lyle. I don't believe it took congressional hearings to 
have the White House solve any e-mail problems, sir.
    Mr. Burton. Why wasn't Congress notified about the e-mail 
problem? Why didn't we get any of the information we 
subpoenaed? And why didn't the independent counsel, and why 
didn't the Justice Department?
    Mr. Lyle. I'm not aware of the communications that occurred 
between the White House counsel's office and this committee 
relative to----
    Mr. Burton. You didn't know anything about the subpoenas we 
sent for all kinds of information involving a number of 
investigations?
    Mr. Lyle. Sir, I joined the Executive Office of the 
President in November 1998, so I have no personal knowledge.
    Mr. Burton. Did you have any communication at all with the 
counsel's office?
    Mr. Lyle. During what timeframe, sir?
    Mr. Burton. Since you were hired.
    Mr. Lyle. Certainly I had communications with White House 
counsel, yes, sir.
    Mr. Burton. You knew there was an e-mail problem. Did they 
ever--you talked to them about the e-mail problem, didn't you?
    Mr. Lyle. My most vivid recollection of learning about the 
e-Mail2 problem that you're referring to was in around April 
1999 in connection, as you mentioned in your opening statement, 
with the letter D issue. That's in the context of that 
particular discussion.
    Mr. Burton. Did you talk to the counsel's office at all 
about the e-mail problem, anybody in the counsel's office?
    Mr. Lyle. I have had communications.
    Mr. Burton. If you talked to people in the counsel's 
office, did they say anything about subpoenaed documents from 
any of the independent counsels or our committee or Justice?
    Mr. Lyle. There was a briefing I participated in in January 
of this year, January 2000, where I discussed that issue, sir.
    Mr. Burton. When did you come to work for them?
    Mr. Lyle. I joined in November 1998.
    Mr. Burton. When did you assume the position that you have?
    Mr. Lyle. I assumed that position on January 30 of this 
year.
    Mr. Burton. But you were involved in the e-mail problem 
when?
    Mr. Lyle. The e-Mail2 problem?
    Mr. Burton. Yes.
    Mr. Lyle. I learned about it, as I said, in about April 
1999 in connection with, as I recall, the letter D problem.
    Mr. Burton. That's a year ago. And you communicated with 
the counsel's office?
    Mr. Lyle. No, sir.
    Mr. Burton. You did not communicate with counsel's office?
    Mr. Lyle. I did not.
    Mr. Burton. They knew about the e-mail problem. Did they 
not talk to you about it at all?
    Mr. Lyle. I conveyed--as you said in your opening 
statement, I conveyed the information concerning the letter D 
issue to my superior Mark Lindsay, who spoke to counsel's 
office.
    Mr. Burton. Put up exhibit 81 on the screen.
    This document was produced to the committee by the White 
House after our first two hearings on the subject and 3 weeks 
past the due date of our subpoenas. As usual the White House 
sent it to us late on a Friday night. It appears to be an e-
mail from you, Mr. Heissner, but the document lists no 
recipient. It's dated February 5, 1998, and there two lines 
labeled ``Issue.'' One reads, ``Mail2 Reconstruction.'' The 
other reads, ``Information Requests.'' Who was the original 
recipient of this e-mail?
    Mr. Heissner. Sir, I think exhibit 82 shows to whom this e-
mail was sent. The copy that you're looking at in exhibit 81 
was a result
of pressing the send key before I had entered the subject and 
recipient. That happened at 9:06 on February 5th. On exhibit 82 
is the message that actually was sent to Mrs. Cleal at 9:08, 
and it has the recipient, and it has a subject line.
    [Exhibit 82 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.161
    
    [GRAPHIC] [TIFF OMITTED] T9621.162
    
    [GRAPHIC] [TIFF OMITTED] T9621.163
    
    [GRAPHIC] [TIFF OMITTED] T9621.164
    
    [GRAPHIC] [TIFF OMITTED] T9621.165
    
    [GRAPHIC] [TIFF OMITTED] T9621.166
    
    [GRAPHIC] [TIFF OMITTED] T9621.167
    
    [GRAPHIC] [TIFF OMITTED] T9621.168
    
    [GRAPHIC] [TIFF OMITTED] T9621.169
    
    [GRAPHIC] [TIFF OMITTED] T9621.170
    
    Mr. Burton. Was that the original recipient; Ms. Cleal?
    Mr. Heissner. That's correct. In the e-mail system, we 
have--it's possible--it's a flaw in the system. It's possible 
to send an e-mail which has no recipient.
    Mr. Burton. Why is the recipient not listed on that 
document?
    Mr. Heissner. Because it was a mistake. I pressed the send 
key before I entered the recipient's name.
    Mr. Burton. It was a mistake?
    Mr. Heissner. Yes, sir.
    Mr. Burton. Did you send a blind carbon copy of this e-mail 
to anyone?
    Mr. Heissner. Not to my knowledge, sir, no.
    Mr. Burton. Not to your knowledge?
    Mr. Heissner. I can't tell by looking at this, sir, but I'm 
sure I didn't send a blind copy to anyone.
    Mr. Burton. You're sure you didn't send a blind copy to 
anyone?
    Mr. Heissner. I can't be totally sure without looking at 
the original.
    Mr. Burton. It's pretty important, because you may have 
sent one to the counsel's office or something. We just want to 
know. Did you send a copy to anybody besides her?
    Mr. Heissner. To the best of my knowledge, no, sir.
    Mr. Burton. Do you know how many times we've heard ``I 
can't recall'' and ``to the best of my knowledge'' from 
witnesses from the White House? We ought to get a number of 
that. It must be in the hundreds.
    Did anyone else get a copy of this e-mail?
    Mr. Heissner. Would that be from me, sir, or from anybody 
else?
    Mr. Burton. From you, or if you know of anybody else who 
got a copy of e-mail?
    Mr. Heissner. It could have been forwarded by the 
recipient, that's possible, and I would not know if that 
happened, sir.
    Mr. Burton. Did you discuss this e-mail with anyone else?
    Mr. Heissner. At that time that it was sent, sir?
    Mr. Burton. Yes.
    Mr. Heissner. Frankly, I don't recall.
    Mr. Burton. You don't recall?
    Mr. Heissner. No.
    Mr. Burton. The first paragraph of the document reads, 
``While I'll be glad to write up something related to the 
`Information Requests' channeled to us via White House Counsel 
in response to various requests from Congress and litigants 
against the Government, we may not want to call''--you say, 
``We may not want to call undue attention to the issue by 
bringing the issue to the attention of Congress because,'' and 
then it kind of drifts off. The sentence is incomplete.
    Mr. Heissner. That particular paragraph, sir, is addressing 
the issue of information requests during 1997, 1998, 1999. We 
had received many requests for information where it related to 
the White House data base. In 1997, we expended on the order of 
3,000 or more hours of staff time to retrieve information and 
make it available in response to subpoenas. During that year I 
had spent well over 1,000 hours, at least I recorded over 1,000 
hours and probably more in responding to these requests, as you 
may recall. So what I'm addressing in the issue information 
requests is the question was should we bring to the attention 
of Congress we're spending an enormous amount of time 
responding to subpoenas and other requests for information 
related to WhoDB, and my response was, well, we don't really 
need to bring this issue up again because--and the way this 
was--the original reads, and it doesn't show here, they are 
bullets, little bullets in front of each of those three 
sentences, which starts with last year's, this year's and the 
level. So the memorandum or the text here had the intention of 
saying let's not raise this. We don't need to have things 
stirred up and have more requests coming in----
    Mr. Burton. Sir, that isn't going to wash, because we had 
already sent subpoenas to the White House, to the counsel's 
office on a whole host of issues, and the law requires that you 
respond to subpoenas, and for you to say, ``We may not want to 
call undue attention to the issue by bringing the issue to the 
attention of Congress because,'' and then it drifts off, we had 
already issued subpoenas. Why is that sentence not complete?
    Mr. Heissner. Sir, the sentence is complete because it has 
a because clause and three bullets, which don't show here, a 
period, and then the infamous quote here, ``Let sleeping dogs 
lie.''
    Mr. Burton. Tell me, where are the bullet points? We don't 
see them on here.
    Mr. Heissner. They don't show on this particular document.
    Mr. Burton. Why don't they show? If the sentence ends with 
``because,'' and there are no bullet points, and there's two 
vacant lines there, why aren't the bullet points in there?
    Mr. Heissner. The retrieval mechanism of records-managed 
records does not retrieve all the graphics that are present in 
the original.
    Mr. Burton. There's no period at the end of the sentence. 
There's no other mark that would indicate that there's three 
bullet points.
    Mr. Heissner. It doesn't show in the retrieved records. The 
original does show. There's a bullet. They are either lower 
case or in some cases----
    Mr. Burton. Why didn't we get that?
    Mr. Heissner. It is part of the mechanism of retrieving.
    Mr. Burton. Why didn't we get that? You don't know.
    Mr. Heissner. I don't know.
    Mr. Burton. Who asked you to write up something related to 
information requests?
    Mr. Heissner. As I recall, I received a telephone call 
during that week to address these two issues, Mail2 
reconstruction and information requests.
    Mr. Burton. From whom?
    Mr. Heissner. Best I remember, it was the person who I was 
reporting at the time, Dotty Cleal, who is the Associate 
Director for Information Systems.
    Mr. Burton. Why did you want to avoid--I think you've 
answered this. Why did you want to avoid bringing the issue to 
the attention of Congress? Because it involved more work?
    Mr. Heissner. My perception was these requests for 
information that we received--and we certainly executed 
faithfully--the requests were detracting from our regular work, 
and if we had fewer of those, we could get the work done that 
we were there to do. It wasn't an attempt to say, don't provide 
the information, it was just let's--these requests have 
declined. We have not--we did not spend--we have not needed to 
spend more time to respond to them, and I think we're fine 
here. We don't need to ask for money to pay for this.
    Mr. Burton. Let's take a minute and go over what we know. 
People at the White House administration were concerned that 
this e-mail problem was got getting solved. Employees felt 
threatened and intimidated. They were told they couldn't even 
speak to their bosses, and one was threatened, he thought, with 
jail; two were, as a matter of fact. One was so scared she said 
she'd rather be insubordinate than go to jail. Another said 
that there was a jail cell with his name on it. Northrop 
Grumman wrote several memoranda saying they couldn't proceed 
without direction from the White House. The President's deputy 
chief of staff was told about the problem. The counsel to the 
President, Chuck Ruff, was told about the problem. Later Mr. 
Lindsay, who is now an assistant to the President, went back to 
the White House counsel's office and told them about another 
problem where documents were not being retrieved. And the White 
House's problem was not a secret, that people were threatened 
and felt scared to talk about it.
    So I want to know the answer to the one really important 
question. Why not tell Congress about the problem, No. 1; and 
then what do you mean by let sleeping dogs lie?
    Mr. Heissner. What I meant by that was that since we--since 
the number of inquiries, number of subpoenas related to 
information residing in the White House data base had 
diminished, we don't need to go to Congress to ask for funding 
to pay for the cost of performing these information requests.
    Mr. Burton. Excuse me. The White House data base wasn't the 
only thing that was under subpoena. There's a whole host of 
subpoenas that were out on a whole bunch of issues, the 
espionage issue, the campaign finance issue, Waco, a whole 
bunch of things. Did you know anything about those? It wasn't 
just WhoDB?
    Mr. Heissner. I was aware of many of those.
    Mr. Burton. You were aware?
    Mr. Heissner. I was aware of many of the requests because 
the requests would be sent to IS&T staff through e-mail, and we 
would respond to them, but the primary time consumer of 
requests had to do with the White House office data base.
    Mr. Burton. In any event, you said, let sleeping dogs lie. 
You knew about all these subpoenas. You knew this information 
was legally requested and should have been given to the 
Congress of the United States. And you sent a memo around 
saying, hey, let's let sleeping dogs lie, and the subpoenas 
were not complied with. And this is 2 years ago, and I don't 
know what we're going to hold you responsible for that, but the 
fact of the matter is you knew those subpoenas were in order. 
You knew that information should go forward, and you said, in a 
memo, let sleeping dogs lie.
    I'm now going to yield to Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, I think you asked a very relevant question. 
During the time that I served as a U.S. Attorney, if we had 
sent a subpoena to a witness or a custodian of records, and 
they replied back either directly or in this case indirectly, 
let sleeping dogs lie, that would be considered evidence of 
obstruction of justice. Does that concern you, Mr. Heissner?
    Mr. Heissner. It certainly does. There was no intention or 
attempt to obstruct justice in any form.
    Mr. Barr. I'm sure that neither you nor other people--or I 
would presume you didn't have a thought process and the words 
``I am going to obstruct justice'' went through your mind. I 
would certainly hope not. However, as the chairman has 
indicated, you were aware as you were of these probes, you were 
aware of a problem, you were aware that this problem entailed 
information that was being sought by various entities in this 
case, an independent counsel, more than two, or at least two 
committees of the Congress, and your directive is to let 
sleeping dogs lie, which in common parlance means disregard 
this, ignore it, don't worry about it, that can be evidence of 
obstruction of justice.
    Mr. Heissner. The intention of this sentence was to not 
request--not to raise the issue of information requests and the 
effect it had on the staff of IS&T as an issue of asking for 
additional funding. The effect of the request having to do with 
the White House office with the WhoDB data base had been 
significant upon our staff, and that was uppermost in my mind. 
As other requests would arrive, all of us, including myself, 
would look at those requests, would consider if the information 
requested was in our records. If it was, we would provide that 
information through channels. That was the normal process, and 
in most cases those requests involved information about 
individuals, which, in the environment in which we found 
ourselves and the kinds of things we did, we would not have any 
information about individuals.
    Mr. Barr. Your service in the government spans several 
different administrations, including the administration of 
George Bush and his counsel, Mr. C. Boyden Gray. It seems like 
not just a decade ago, but ages ago that we had an 
administration whose thought process placed uppermost in their 
minds scrupulous adherence to the law and to err on the side 
always of providing more information rather than less, more 
information rather than what might be strictly technically 
required by looking at the four corners of a subpoena or some 
other documentation.
    Can you pinpoint when we moved from that notion of public 
service in compliance with the public interest to something 
else being foremost in the minds of those to whom subpoenas are 
directed or who have custody over government records subject to 
subpoena?
    Mr. Heissner. No, sir, I have no idea when that change 
happened. It is not in an area that I deal with.
    Mr. Barr. It is because you told us what was uppermost in 
your mind. What I'm saying is there used to be a day, and 
hopefully that day will come again, when a public official at 
the White House always keeps foremost in their mind not the 
cost of something as an excuse for not complying or not 
furnishing information, but what can I do to make sure that the 
public interest is respected to the degree so that we are going 
to go the extra mile not to cover up, not to not furnish 
information, but to furnish information. I don't know when that 
change took place, but it has taken place. It is relevant for 
purposes of your appearance here today because you've used 
those words, what was uppermost in your mind or foremost in 
your mind, and to see something written, to let sleeping dogs 
lie, is very, very disturbing both from a public policy 
standpoint as well as from the standpoint--and I don't know 
what Robert Ray is looking at--but from the standpoint of 
possible obstruction of justice.
    If I were you, and I don't know whether your counsel has 
any concern about this, but it raises very troubling questions 
in our mind about obstruction of justice, and I suspect that's 
why the independent counsel may be looking at this as well. I 
think the chairman, despite the constant efforts to downplay 
and denigrate the work of this committee by the folks on the 
other side, has asked a very legitimate question, and simply 
saying, well, something related to the cost--we heard this from 
Mr. Lindsay, he tried to say this was an issue of cost or 
whatnot rather than scrupulous effort to comply I think is a 
very legitimate question and one that ought to concern you.
    Mr. Heissner. It certainly is, sir, but as I'm looking at 
this memorandum, maybe I need to explain that there are two 
issues that are being addressed. The issue, if you take a look 
in the paragraph which is, ``Note:'' ``Issue: Mail2 
Reconstruction (document attached),'' and then below the dotted 
line it will say, ``Issue: Mail2 Reconstruction,'' and it 
provides a background and definition of the problem for Mrs. 
Cleal.
    The paragraphs which you are questioning are related to a 
request for information from Mrs. Cleal about the effects that 
various information requests are having on the IS&T staff and 
whether it should be brought up as an issue that might perhaps 
warrant additional funding for the organization, and my 
response was, well, the level of effort required to accommodate 
this request and the requests are declining, and at this point 
we don't need to ask for additional funding, so let's not even 
mention that we need funding for this because we don't need it 
right now, not for the purpose of answering information 
requests.
    So there are two topics on this. Maybe that's the 
confusion, sir.
    Mr. Barr. It would be nice if it were just a matter of 
confusion. We'll have to see. I think it illustrates and may be 
evidence of a mindset that disturbs the chairman very greatly 
and legitimately, which we're going to inquire further, and as 
I say, I suspect the independent counsel is as well.
    Mr. Lyle, if I could go back to ask some fairly specific 
background questions. When was it that you first learned about 
the Mail2 problem?
    Mr. Lyle. My most vivid recollection is in April 1999, 
thereabouts, in connection with the letter D problem, the 
second anomaly that we've been discussing.
    Mr. Barr. This was approximately 6 months after you began 
your work in the Office of Administration?
    Mr. Lyle. Yes, sir.
    Mr. Barr. Where were you just prior to your work in the 
Office of Administration?
    Mr. Lyle. I was in private practice in Chicago.
    Mr. Barr. What research have you done to satisfy yourself, 
as I'm sure as a public servant you would, when this issue 
first came to the attention of the Office of Administration?
    Mr. Lyle. Which issue, sir?
    Mr. Barr. The issue of the Mail2 problem.
    Mr. Lyle. The discussions that I had in connection with the 
letter D matter were with Mr. Lindsay and other members of my 
staff, and in the course of those discussions, as I said, I 
learned about the e-Mail2 is my most vivid recollection of 
that. And he had explained that in dealing with the Mail2 
issue, that he had communicated that issue to--I'm sorry, the 
e-Mail2--did I say the e-Mail2--the e-Mail2 problem, he 
communicated that to White House counsel's office, and that he 
had handled that matter, and I was satisfied that Mr. Lindsay, 
who was my predecessor in my position, who was my superior, and 
who I have known for a long time, had taken steps to convey the 
information for the White House counsel to handle.
    Mr. Barr. When did he indicate to you that had taken place?
    Mr. Lyle. In that April 1999 meeting.
    Mr. Barr. When did he communicate to you that he first 
became aware of the Mail2 problem?
    Mr. Lyle. As I recall it, it was in June 1998 timeframe 
that he became aware of it, as I recall what he said.
    Mr. Barr. And you are aware, at least as you sit here 
today, that the Office of Administration became aware of the 
problem in very early 1998 initially?
    Mr. Lyle. I know that there were some reports about the 
problem. I don't know--January 1998, I don't know exactly when 
that was.
    Mr. Barr. You're aware of the fact certainly through 
following these proceedings, as I'm sure you have, and in 
preparation therefore that January 1998 was the time in which 
there were actual communications?
    Mr. Lyle. All I can tell you from my personal knowledge, 
sir, is that in the meeting that I had in April 1999 when I was 
learning more about the e-Mail2 issue, that I was told that--my 
understanding is that Mr. Lindsay was aware in the June 1998 
timeframe about what happened in January 1998. I know others 
have discussed that, but as I sit here, I cannot tell you what 
that was.
    Mr. Barr. When you discussed with Mr. Lindsay the 
communication of this information with the White House counsel, 
what manner was that communicated to White House counsel, and 
to whom were the records themselves delivered?
    Mr. Lyle. In my meeting with Mr. Lindsay, he conveyed to me 
that he had met with White House counsel. At that time it would 
have been Mr. Ruff. As far as documentation, I believe that 
there was some memo that he had submitted to his superior, Mr. 
Lindsay had submitted to his superior, concerning the e-Mail2 
issue.
    Mr. Barr. How about the group of missing and reconstructed 
e-mails delivered to the White House counsel's office? When did 
Mr. Lindsay indicate that took place, and to whom were those 
delivered?
    Mr. Lyle. I don't believe we discussed that in the meeting.
    Mr. Barr. Did you discuss that at a later date?
    Mr. Lyle. I have.
    Mr. Barr. Would that not have been relevant?
    Mr. Lyle. Again, I was learning more about it from a 
background point of view because we were addressing the letter 
D issue in that timeframe. I don't recall that having been 
raised at all, so I can't say any details about what happened. 
I'm not sure which documents actually, sir, you're referring 
to.
    Mr. Barr. After the problem was initially discovered by 
Northrop Grumman employees, and this was the subject of to some 
extent the discussion here in the March 23 hearing, there was a 
very large group of documents that were pulled up, e-mails, 
after a search, initial search, was conducted of certain names 
in order to verify presumably the extent of the problem. Those 
were delivered to the White House and have mysteriously 
disappeared. I'm wondering if you ever had any discussion with 
Mr. Lindsay about those documents, those e-mails.
    Mr. Lyle. No, sir, I did not. I am aware since, based on 
what you're talking about, that Mr. Lindsay did, as I 
understand it, deliver documents to the White House counsel's 
office, and I think you talked to him about it in your hearing 
with him that you're referring to in March of this year.
    Mr. Burton. My time has expired, Mr. Barr.
    Mr. Waxman.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Waxman. Mr. Heissner, Mr. Lyle, I appreciate your being 
here to answer questions.
    Mr. Heissner, you indicated in your written statement that 
you're not a political appointee, are you?
    Mr. Heissner. That's correct, sir.
    Mr. Waxman. Tell us what you've been doing and how long 
you've been there.
    Mr. Heissner. I've been working for the Federal Government 
for almost 25 years. I started with OMB, worked during the Ford 
administration, Carter administration, and subsequently right 
on through the Clinton administration. The majority of my time 
was in support of OMB's budget preparation system. When OMB 
went to go to contractors for support, then I served as the 
data base administrator for the Office of Administration data 
center, EOP data center. These have all been technical 
positions, which is where my interests and my expertise lie.
    Mr. Waxman. I'm just shocked at the questioning you've had 
so far from the chairman of the committee and Mr. Barr because 
I think they've impugned your integrity. I don't think they 
have any basis for it, any justification for it, and it seems 
to me their complaint is you're not giving them the answers 
they would like you to give because they want to go after this 
administration. They want to paint a certain picture, and 
you're not giving them testimony to fit. Now, that's no reason 
to act as if you are lying to this committee. Are you lying to 
this committee?
    Mr. Heissner. No, sir. Absolutely not.
    Mr. Waxman. You know you're under oath.
    Mr. Heissner. Yes, sir.
    Mr. Waxman. Let's try to sort through what the real facts 
are on this issue. It's sort of Orwellian that the chairman has 
this exhibit up of your e-mail, and everything is highlighted 
except one line, and that is the issue. The issue is 
information requests, because that e-mail didn't have to do 
with missing e-mails from the Mail2 system. It had to do with 
information requests from the Congress; is that correct?
    Mr. Heissner. That's correct, sir.
    Mr. Waxman. That had to do with preparing Mr. Lindsay, who 
you work for, to go before the House Appropriations Committee 
or the Senate Appropriations Committee to talk about the 
budget. As I understand, what you're telling us is that you 
suggested rather than complain about all the requests that 
you've been getting for information from the Congress, and I 
must say particularly from this committee, you didn't want to 
suggest that perhaps those information requests had been 
reduced, because if you suggested the information requests 
might be fewer than they had been in the past, it might trigger 
the Congress to start sending more information requests. Is 
that what you meant by let sleeping dogs lie?
    Mr. Heissner. That's exactly correct, sir.
    Mr. Waxman. People may not realize it, but this committee 
has caused you, as a technical person, having worked for many 
administrations, to spend--I don't know--6 months is the 
estimate I got--of your time simply answering requests from 
this committee on the White House data base. Is that accurate?
    Mr. Heissner. That's accurate, sir.
    Mr. Waxman. The White House data base has nothing to do 
with e-mails.
    Mr. Heissner. That's correct, sir.
    Mr. Waxman. The White House data base investigation was an 
investigation that Congressman McIntosh conducted, and he 
wanted to find out whether something was really rotten with the 
White House data base because Christmas cards were going out 
using that data base, and he made all sorts of accusations. I 
think he even accused people of breaking the law. And then 
after spending a year or 2 years on that investigation, causing 
you to spend thousands of hours, many months of your time, all 
paid for by the taxpayers, there was nothing to show for that 
investigation, so requests were sent for more information and 
more information and more information, and the Congress just 
kept on fishing around to see if they could find some scandal. 
They found none. And you were alluding to in that, as I 
understand that particular document, that when your superior 
goes to the Appropriations Committee, don't raise the issue 
that we got a lot of requests before and fewer now; let 
sleeping dogs lie, maybe they won't have their attention drawn 
to the fact that they ought to be asking for more information. 
Is that what we're talking about?
    Mr. Heissner. That's correct, sir.
    Mr. Waxman. That's a different issue than what they are 
talking about on this committee, which is the Mail2 retrieval 
system, which is the archiving of e-mails at the White House; 
is that correct?
    Mr. Heissner. That's correct, sir.
    Mr. Waxman. Now, in your--let me just ask you some bottom-
line questions. Let us just get this right on the record. There 
seems to be an allegation that the White House was trying to 
cover up damaging e-mails. At our first hearing the chairman 
said that the White House basically had two choices. They could 
face up to the problem, tell the Justice Department and 
Congress what happened, get it fixed, or they could throw a 
blanket over the whole problem, ignore it and hope nobody would 
find out. And the chairman says it looks like they chose to 
cover it up.
    Mr. Heissner, did anyone ever ask you to conceal the 
existence of the computer glitch that caused the missing e-mail 
problem?
    Mr. Heissner. No, sir.
    Mr. Waxman. Mr. Lyle, did anyone ask you to do that?
    Mr. Lyle. No, sir.
    Mr. Waxman. Did anyone ask you, Mr. Heissner, to conceal 
the e-mail problem from Congress?
    Mr. Heissner. No, sir.
    Mr. Waxman. Mr. Lyle.
    Mr. Lyle. No, sir.
    Mr. Waxman. It's pretty ironic to ask you to conceal the 
problem from the Congress, because in December 1998, which was 
2 months before your e-mail which they look at now as the 
smoking gun of the White House cover-up, it was reported in 
Insight Magazine that the Congress of the United States, in 
fact this committee, had information that some e-mails were 
missing. So we already knew some e-mails had been missing from 
the White House data base system. You probably know nothing 
about that particular publication, but it's interesting that in 
the public--a public document, a newspaper, they were talking 
about how this committee already knew that they weren't getting 
all the White House e-mails because of some glitch in the 
system. You are telling us you weren't trying to conceal this 
problem from the Congress.
    Mr. Heissner. That's correct.
    Mr. Waxman. Did anyone ever ask you not to report the e-
mail problems to the Congress?
    Mr. Heissner. No, sir.
    Mr. Waxman. Mr. Lyle.
    Mr. Lyle. No, sir.
    Mr. Waxman. Now, Mr. Heissner, let's go back to that e-mail 
which is the topic of this whole hearing today. There's been 
some confusion about this document, and so let's try to clear 
up the confusion. You said the document--let's be sure we're 
working off the same document. There's a version with Bates 
stamp E 3865, dash, 3866, and the document indicates that you 
sent this e-mail to Dorothy Cleal. Who is Ms. Cleal?
    Mr. Heissner. Mrs. Cleal was the Associate Director of the 
Information Systems and Technology Division. She was the person 
to whom I was reporting directly.
    Mr. Waxman. Next to the subject heading of the e-mail, it 
says, ``Issue Papers for Appropriations Hearing.'' What does 
that refer to?
    Mr. Heissner. That refers to a request for information that 
was going to be passed on to Mr. Lindsay for appropriation 
hearings.
    Mr. Waxman. I understand you were asked to prepare briefing 
materials on two issues. What were those two issues?
    Mr. Heissner. That's correct. The two issues were Mail2 
reconstruction, and the second one was called information 
requests.
    Mr. Waxman. The e-mail contains a discussion of both of 
these issues. Continuing with the text of the e-mail, it goes 
on to say, ``Issue: Mail2 Reconstruction (document attached).'' 
Below that it says, ``Issue: Information requests.''
    Are these two issues related to one another at all?
    Mr. Heissner. No, sir, they are separate.
    Mr. Burton. They are completely separate issues.
    After the section dealing with information requests, 
there's a divider and then a section labeled, ``Mail2 
Reconstruction.'' Below that heading there's a fairly detailed 
description of the history of the Mail2 problem and efforts to 
investigate it and fix it.
    Let me ask you, did you want to prevent Congress from 
finding out about the Mail2 problem?
    Mr. Heissner. No, sir.
    Mr. Waxman. When you wrote, ``Let sleeping dogs lie,'' were 
you referring to the Mail2 problem?
    Mr. Heissner. No, sir.
    Mr. Waxman. I think we know what Mail2 reconstruction 
refers to, but what does information requests mean?
    Mr. Heissner. Information requests refers to the issue that 
was going to be perhaps discussed, or at least would be 
considered for discussion, the issue having to do with the 
level of effort that was required to respond to requests for 
information from different sources, and in particular the level 
of effort that had been required to respond to information 
requests related to the WhoDB data base.
    Mr. Waxman. Did you want to hide information from Congress?
    Mr. Heissner. No, sir.
    Mr. Waxman. Looking at the text that follows, what did you 
mean when you wrote, ``Let sleeping dogs lie''?
    Mr. Heissner. What I meant by that was I don't think we 
need to draw undue attention to the issue of requested 
information related to the WhoDB data base since the requests 
are declining. We provided all that information as requested of 
us, we spent a considerable level of effort responding to these 
requests, we ran many queries. They were done very, very 
carefully to ensure that the information that was requested was 
made available, and it had a negative effect on the operations 
because it took away considerable time from a very small staff.
    Mr. Waxman. Let me just underscore what that means when you 
say it took away time from a small staff. It took away 
resources that the taxpayers paid to have people work for the 
government in all sorts of capacities to just answer a flood of 
requests of information from the Congress, and this committee 
is probably guiltier than any other. This committee just kept 
on sending requests for more and more documents, more and more 
requests, and more and more people had to work on it. We have 
spent taxpayers' dollars just to fund this committee, I don't 
know how many millions, and then I don't know how many millions 
had to be spent just to answer the requests from this 
committee. And when the committee gets documents and 
information that doesn't fit into the accusations of scandal, 
witnesses like you are treated with the back of their hand. 
They act as if you were trying to cover up for Bill and Hillary 
Clinton's misdeeds, and you are not a political appointee. You 
are a career civil servant working in a technical area.
    I just find it astonishing, I guess is the best word to 
use, but I find it even more troublesome than astonishing. I 
find it unprofessional.
    Now, let me ask Mr. Lyle some questions so we can get some 
of this on the record. I'm going to ask you about the Mail2 
problem. When did you--you first arrived at the Office of 
Administration when?
    Mr. Lyle. In November 1998.
    Mr. Waxman. So you were not at the Office of Administration 
in the time period that the Mail2 problem was found and then 
fixed prospectively; is that right?
    Mr. Lyle. That's correct.
    Mr. Waxman. Let me just take a minute so that people who 
are watching this hearing or the press, because they are not 
thinking about this issue, to go through a timeline. An ARMS 
system, which is a retrieval system for e-mails, was set up at 
taxpayers' expense at the White House and at all the executive 
office buildings so that a historical record of all the e-mails 
could be captured; is that right?
    Mr. Lyle. There was an automated records management system 
known as ARMS. It was established within the Executive Office 
of the President. I can't tell you what other government 
agencies have done.
    Mr. Waxman. That system, as of June 1998, was discovered to 
not be operating in complete compliance with the goals and what 
the contractor, which was Northrop Grumman, I think--what they 
envisioned. So they discovered in June 1998 that some e-mails, 
and I think mainly e-mails that were being sent from the 
outside in, were not on this ARMS system. You weren't there in 
June 1998?
    Mr. Lyle. That's correct, sir.
    Mr. Waxman. By November 1998, they fixed the system, and 
they fixed it for the future so that every time anybody sent an 
e-mail either into the White House Executive Office or 
internally or from the office out, that was all going to be in 
the retrieval system. They found there was a problem, and they 
corrected it. That was in November 1998.
    In December 1998, in the Insight Magazine--I think it's a 
publication of the Washington Times--they reported that this 
committee, the Congress, knew there was a problem of some of 
the retroactive e-mails not getting picked up. Did you know 
about that?
    Mr. Lyle. I know of the report. Before I came to 
Washington, I had never heard of Insight Magazine, but since 
I've been here, I am now familiar with it. I don't know when I 
learned of the article.
    Mr. Waxman. When were you first informed about the Mail2 
problem?
    Mr. Lyle. The Mail2 problem was in April 1999, thereabouts, 
as I've said. It's my most vivid recollection of learning about 
it in the context of the letter D anomaly.
    Mr. Waxman. Did you have any reason to think there was an 
ongoing or potential problem with document production to meet 
the requests from all the investigators because of the Mail2 
issue?
    Mr. Lyle. No, sir.
    Mr. Waxman. When did you learn that the Mail2 issue may 
have affected the production of documents by the White House in 
response to congressional and independent counsel subpoenas? 
You did learn that. That was April?
    Mr. Lyle. That was in that April meeting that I described 
earlier for Congressman Barr.
    Mr. Waxman. If there was not a perceived problem regarding 
document production, why was the Office of Administration 
concerned about the Mail2 reconstruction?
    Mr. Lyle. In April 1999, the Mail2 reconstruction issue had 
been dealt with, but you still have archival issues that need 
to be addressed. Federal Records Act, Presidential Records Act, 
the Armstrong litigation, all of those precedents control 
records that need to be stored for historical purposes, so the 
focus as far as it related to the e-Mail2 issue during my 
tenure has been on the Federal records compliance issues, the 
Presidential Records Act and the things I've talked about so 
that you have a historical record that can be transferred to 
the National Archives Records Administration and also to the 
Presidential library.
    Mr. Waxman. When the Office of Administration did see the 
Mail2 problem as something that needed to be fixed for these 
archival reasons related to Presidential records, why did the 
office not begin the Mail2 reconstruction project in 1999?
    Mr. Lyle. At the time in 1999--and when you're talking 
about in the April 1999 timeframe, in 1999 we were in the midst 
of one of the most difficult information systems and technology 
challenges facing the Executive Office of the President. It was 
the Y2K crisis. It not only confronted the White House, it 
confronted the rest of the country and, in fact, the rest of 
the world. It was an extraordinary undertaking. There were many 
systems that needed to be Y2K-compliant to ensure that when the 
year 2000 came, that the Presidency would have computer systems 
that worked.
    Mr. Waxman. If I could just interrupt you for a second. 
This Congress has done pretty much nothing on any important 
issue. We have a lot of recesses. We have short-week timeframes 
to do basically nothing because we're deadlocked, but I want to 
inform everybody that yesterday the House of Representatives 
voted unanimously to praise everybody who worked on correcting 
the Y2K problem because when the calendar clicked over into 
this new millennium, all the fears we had about Y2K did not 
come about, and we praised all the people that worked on it. So 
I assume you were included in that.
    Mr. Lyle. I appreciate that, and I know that my staff will 
appreciate it, too. There was a small number of people in the 
Information Systems and Technology Division, only 40, 45 
people. They worked very, very hard with our contractors to 
achieve a success that was--I would describe as nearly an 
impossible task and was only as a result of their hard work and 
the support that we received that we were ultimately able to 
succeed.
    Mr. Waxman. So you were trying to decide how much money to 
spend on making sure you complied with Y2K or how much you 
could divert to deal with the Mail2 problem?
    Mr. Lyle. Our No. 1 purpose was ensuring Y2K compliance, 
and as I said, this was a huge undertaking. It was drawing 
every American personnel resource we had available in the IT, 
information technology, area. All of our staff was working 
very, very hard on that project in one form or another, and it 
was, as I said, a huge task that we very proudly achieved.
    Mr. Waxman. When did your office start to focus on the 
Mail2 project?
    Mr. Lyle. After the Y2K issue was behind us, we started 
looking at it in a February--January, February, March 
timeframe.
    Mr. Waxman. Of this year?
    Mr. Lyle. Of this year, of 2000, remembering that February 
29th was also a Y2K issue in terms of the leap year component. 
So it's in this timeframe that we had a comfort level that we 
could proceed with some of the projects that we weren't able to 
get to while we were focused on this largest--I would say the 
largest computer renovation in the history of the White House, 
and I would dare say other places as well.
    Mr. Waxman. We have briefing papers which demonstrate that 
Beth Nolan, who is White House counsel, was told about the 
project at a January 2000 briefing about current records 
management issues, and this was before the press stories about 
the Mail2 began appearing in mid February. So is it accurate to 
say that the Office of Administration started addressing the 
Mail2 reconstruction issue before those stories first appeared?
    Mr. Lyle. That's correct, sir.
    Mr. Waxman. Did you attend the briefing for Ms. Nolan?
    Mr. Lyle. Yes, I did.
    Mr. Waxman. And what was the purpose of that briefing?
    Mr. Lyle. There was a meeting that was coming with the 
National Archives and Records Administration [NARA], in 
preparation for the Presidential transition, and we had gone to 
White House counsel to explain to them the information that we 
knew relative to the anomalies, and where we were with respect 
to those. From a records management point of view, it was for 
purposes and in preparation of a meeting with NARA, and we 
discussed a variety of issues with respect to the e-Mail2 and 
the letter D anomalies in the records management context.
    Mr. Waxman. After the briefing, what steps did the Office 
of Administration take to make sure that Mail2 e-mails were 
reconstructed?
    Mr. Lyle. Following that briefing, a number of things took 
place. First we looked into costs associated with doing an e-
Mail2 reconstruction. We needed to do a marketplace survey and 
develop cost assessments so that we could determine what 
contractors would be available to do the project, how it would 
be done. I instructed my information technology staff to 
prepare a plan that could be considered by contractors in the 
bidding process so that we could get moving on. We needed cost 
estimates for the project so that we could seek appropriate 
funding from our appropriators in connection with that effort, 
and all of those steps needed to be taken.
    I received ultimately a cost assessment proposal from my 
IT, information technology, staff, I believe, around March 14th 
of this year, and it's from that that we began deliberate steps 
in that area.
    Mr. Waxman. We are going to hear tomorrow from the White 
House counsels themselves, and they are going to tell us about 
their role in all of this. But as I recall from Beth Nolan's 
testimony several weeks ago, the system was found to have this 
problem, that it wasn't getting all the outside e-mails on the 
central system. They found out about it and they fixed it 
prospectively. And then a question came up: well, what about 
the retroactive e-mails that might have fallen through the 
cracks? And there were some tests done on the individual 
computers of some of the people involved with Monica Lewinsky, 
and they found that some of those e-mails that weren't on the 
centralized system were, in fact, on the computer systems of 
Miss Currie and others, and those had all been turned over to 
the investigators.
    So she testified that as far as the White House counsel's 
office knew, everybody was getting the information they 
requested on e-mails as well as everything else. And now we are 
finding out that might not have been the case, but they 
believed that to be the case. Do you have any information on 
those issues?
    Mr. Lyle. I'm sorry, sir, I do not.
    Mr. Waxman. That wasn't your area?
    Mr. Lyle. Right.
    Mr. Waxman. We will hear from them tomorrow because that 
sort of addresses the other part of this conspiracy that is 
being painted before us by this committee's series of hearings 
on this single issue. And one of my ongoing concerns about 
congressional investigations regarding the campaign finance 
issue, this issue and many others, is that they cost millions 
of dollars to the taxpayer without producing substantial 
benefits.
    For example, I asked the GAO to do a survey in 1998 that 
underscored the burden that congressional campaign finance 
investigation, just that investigation, placed on the Federal 
agencies, and that has nothing to do with this particular 
issue. But 21 Federal agencies reported that in the 18-month 
period between October 1, 1996 and March 31, 1998, they 
received 1,156 campaign finance inquiries from Congress, and 
GAO calculated the cost of responding to these inquiries cost 
the taxpayers $8,767,753. That money could have been used for a 
lot of important purposes.
    You note in your testimony you were involved with 
responding to requests related to the investigation of the 
White House data base known as the WhoDB; is that what it is 
called, WhoDB?
    Mr. Lyle. That's correct, sir.
    Mr. Waxman. That investigation conducted by this committee 
spent over 2 years examining whether anyone stole the 
President's holiday card list, and whether disclosing who 
attended White House social events constitutes theft of 
government property. Can you imagine? We spent all that time 
trying to figure out if there was theft of government property, 
and the investigation involved depositions of over 35 
witnesses, the production of over 43,000 pages of documents.
    One witness from the Office of Administration estimated 
that he spent about 1,500 hours, the equivalent of over 37 work 
weeks, between June 1996 and September 1997, responding to 
WhoDB information requests. WhoDB is a different issue than 
Mail2, and on that issue they spent all of this time and money 
to find that there was nothing there.
    Mr. Heissner, can you estimate how much time you spent 
responding to requests on the WhoDB investigation? I asked you 
before and maybe you could tell us if you have done any 
estimate on it.
    Mr. Heissner. Yes, sir. We tracked the number of hours 
reported to have been spent on WhoDB, and to the best of my 
recollection for the year of--fiscal year 1997, the IS&T staff 
reported over 3,000 hours during that year, and of those 3,000 
hours, somewhat over 1,000 were attributable to the work that I 
did.
    Mr. Waxman. I think it is important to have congressional 
oversight, but I think it is clear this committee frequently 
goes too far.
    Mr. Lyle, Mr. Burton suggested that the White House was 
trying to run out the clock by delaying production of the Mail2 
reconstructed e-mails until after the election. Is that 
accurate?
    Mr. Lyle. No, sir.
    Mr. Waxman. Why not?
    Mr. Lyle. We are working very hard to reconstruct these e-
mails as quickly as we can. We have a contractor on board. We 
have an independent validation and verification contractor that 
we will be having on board within days and proceeding as 
quickly as we can to reconstruct the e-mails.
    Mr. Waxman. I just want to close the time I have here by 
making the comment, I am as strongly against obstruction of 
justice as any Member of the Congress. I don't look back at the 
time of President Nixon and President Bush as the golden age of 
this country. I don't think President Nixon was forced out of 
office because simply 18 minutes of a tape was missing. He was 
forced out of office because he misused the Office of the 
Presidency to go after American citizens, to obstruct justice 
in a very genuine way, and the Congress found that--at least 
the House found that he was guilty of obstruction of justice 
and brought impeachment charges against him.
    And I can recall personally having been in the Congress 
over the years of President Bush how many times we requested 
information when we were told that executive privilege would 
preclude them from giving us important information. I thought 
that was often used inappropriately, but we certainly didn't go 
out and do the kinds of things that are being done now by the 
Republican-led Congress.
    If there is credible information that anyone obstructed 
justice or intentionally concealed information, then I want to 
do everything and I will do everything that I can to ensure 
prosecutions are brought. I don't care if it is a Republican, I 
don't care if it is a Democrat. If anybody is obstructing 
justice, they ought to be prosecuted, but I am equally opposed 
to frivolous charges of obstruction of justice or 
unsubstantiated allegations that unfairly damage the 
reputations of people of integrity and good character. I resent 
it. I think it is unprofessional. I think it is unAmerican when 
people misuse their positions of power, whether it is President 
Nixon or Members of Congress, to make unsubstantiated 
allegations, smear people, accuse them of obstruction of 
justice, accuse them of criminal wrongdoing, frivolously 
sending letters to the Justice Department asking for 
prosecutions and then attacking the Justice Department if they 
don't bring prosecutions, even though there was no evidence of 
wrongdoing to substantiate any kind of criminal actions.
    I think people have power but they need to restrain their 
use of that power and act in a sense of fairness and decency. 
If there is a criminal act, let's prosecute. If something has 
been done inappropriately, let's criticize it, but I don't 
think that these unsubstantiated allegations and smears ought 
to be tolerated.
    I yield back the balance of my time.
    Mr. Burton. I will take my time, but I am going to yield it 
to Mr. Hutchinson in just a moment. Let me just say that Mr. 
Waxman once again has covered the waterfront. The campaign 
finance scandal is of great interest to people all across the 
country. Communist China gave money to the President's 
campaign. Money has been returned from the DNC; Taiwan gave 
money; Egypt gave money; South America gave money. We know 
about the Shiite temple. I mean, you know, he can say that this 
is just a waste of time, but the fact of the matter is people 
know that there was scandal involved there.
    Mr. Waxman said you know this e-mail problem, you know, 
they can get this done in 6 months. They have known about it 
for 2 years. They knew about it in 1998, and they kept it under 
wraps from the Congress. Why didn't they fix it back in 1998 
instead of waiting now and saying it is going to take 6, 8 
months, so it carries out past the election?
    Mr. Waxman also flat out misrepresented what the Insight 
magazine article said. He said the article claimed Congress 
knew about the problem. It does not say that, and I will read 
what the article says. It says, so why hasn't the White House 
complained and informed various panels in star of the 
discovery. Insiders say there is a lively debate going on 
involving a fair amount of legal hair splitting. We did not 
know about it and you ought to read the article clearly.
    Mr. Waxman. May I ask unanimous consent that the full text 
of the article be in the record?
    Mr. Burton. No. Mr. Waxman belittled the WhoDB 
investigation. He didn't tell everyone that FBI Director Freeh 
said that he thought an independent counsel should look at this 
matter. This observation was made in a memo that the Justice 
Department will not make public. That is the FBI Director. I 
yield to Mr. Hutchinson.
    Mr. Hutchinson. I thank the chairman. Trying to take my 
mind and sort of analyze where we are and what the relevant 
issues are before this committee, first of all, I think it is 
clear that there were subpoenas issued by this committee and 
others for information, and those subpoenas were not properly 
honored in the sense that records were not retrieved for 
compliance with the subpoena.
    Second, another point is that critical information has not 
been revealed to Congress because of a computer problem there 
was not a total review of documents that were under subpoena.
    Third, whether the missing e-mails contained pertinent 
information to investigations being conducted by this Congress 
and other investigative bodies.
    And of course, the final question is if there was failure 
to comply, was it intentional, and that is--we don't have the 
answers to all of these questions, but we do know that these 
are important questions to ask. They are important issues for 
this Congress to deal with because I believe that when 
subpoenas are issued, they need to be complied with, and if 
they cannot be complied with, certainly the subpoenaing 
authority needs to be aware of the problem and the reasons for 
it.
    Now, I was listening to the testimony of Mr. Lyle, and it 
is putting this back together. Of course, the e-mail problem 
became known in May or June 1998, and it became known to the 
administration during that timeframe. Congress was not advised 
of the problem that we could not retrieve and review all of the 
subpoenaed materials for compliance. Mr. Lyle, you indicated 
that you learned of the problem in April 1989; is that correct?
    Mr. Lyle. Of the e-Mail2 problem, sir?
    Mr. Hutchinson. Yes.
    Mr. Lyle. Correct, in that timeframe.
    Mr. Hutchinson. And that you had meetings with Beth Nolan 
during that timeframe as well?
    Mr. Lyle. No, sir, I'm sorry, I had a meeting with Ms. 
Nolan in January of this year.
    Mr. Hutchinson. January of this year?
    Mr. Lyle. Yes, sir.
    Mr. Hutchinson. Well, you indicated in response to 
questions of Mr. Waxman that you were wanting cost estimates as 
to what it would take to do the records retrieval.
    Mr. Lyle. The records reconstruction of the e-Mail2 and the 
letter D backup tapes, yes, that was in this year.
    Mr. Hutchinson. This is in order to reconstruct the records 
and to review them for compliance with the subpoena?
    Mr. Lyle. Well, it's for reconstruction of the records. One 
of the things that you will be able to do is do an automated 
records management search, but it will also allow for those 
documents and those records to be transmitted to the archives 
and to the Presidential library.
    Mr. Hutchinson. As well as reviewing the ARMS system to 
retrieve any records that would be pertinent to a subpoena?
    Mr. Lyle. Yes, that's what I said.
    Mr. Hutchinson. Well, we're saying the same thing.
    Mr. Lyle. Yeah. I just wanted to add that there are other 
components.
    Mr. Hutchinson. Other purposes. One is for your archival 
purposes, and the other one is for compliance with the 
subpoena. That's what I'm interested in.
    Mr. Lyle. Right. You can put--you can search the automated 
records management system to comply with subpoenas or 
information requests or whatever you, yes.
    Mr. Hutchinson. We understand each other.
    Mr. Lyle. OK. I just want to be clear, sir.
    Mr. Hutchinson. And so that was a purpose of it and that 
was important, but the question is, whenever it is known in May 
or June, the problem, no one was advised of it in terms of 
Congress; and second, you never went to the appropriators in 
1999 to ask for money to assist in hiring a contractor to 
retrieve these documents and to get the system corrected; is 
that correct, Mr. Lyle?
    Mr. Lyle. As far as what was conveyed to this committee in 
May or June 1998, I can shed no light on that for you. With 
respect to the appropriators in 1999, during our fiscal year 
2000 appropriations hearing, the e-Mail2 project was one of 
those projects that I discussed earlier, that we had to set 
aside for Y2K as our focus and our No. 1 priority.
    Mr. Hutchinson. Let me ask you a question. In 1999, did you 
go before the appropriators and ask for money to correct this 
system and to retrieve the records and hire a contractor for 
that purpose?
    Mr. Lyle. Our purpose was the Y2K crisis.
    Mr. Hutchinson. I'm asking you a simple question.
    Mr. Lyle. Yeah, I'm sorry.
    Mr. Hutchinson. You can answer it yes or no.
    Mr. Lyle. No, the answer is, we did not ask for funds to do 
the e-Mail2 reconstruction in the fiscal year 2000 budget 
submission during the year 1999, calendar year 1999, in that 
our, as I said, our singular purpose was Y2K compliance. In 
other words, you had to prioritize. If you have a computer 
system that doesn't work, period, your systems will not 
operate. You can't serve--you can't function.
    Mr. Hutchinson. Your priority was Y2K compliance.
    Mr. Lyle. Yes, sir.
    Mr. Hutchinson. And so you did not put it as a priority, 
advising the appropriators that you also have a problem in the 
retrieval system, and that would allow you to comply with 
subpoenas of Congress.
    Mr. Lyle. Well, subpoenas of Congress, in 19--in the 
timeframe that I was operating under, I'm not aware and I don't 
know--and I believe my staff is not aware of any subpoena 
compliance issues. We have no knowledge of whether or not--what 
communications took place between White House counsel's office 
and this committee in respect to your subpoenas or any other 
information requests.
    Mr. Burton. My time has expired. We'll come back to you in 
just a minute. You can pursue that further. Mr. Ford.
    Mr. Ford. Mr. Chairman, thank you. I don't really have many 
questions. I really just have a comment. I'm frustrated like 
all of us, I would imagine all of us in the Congress that we're 
continuing to sort of pester these people from the White House 
and Department of Justice. I appreciate you being here this 
morning and appreciate your responding to some of the 
questions, as ridiculous as some may be.
    I would hope, Mr. Chairman, that the same zeal that we're 
applying to today's hearing we could apply to some of the more 
constructive things that people would rather have us doing. I 
think if we just sort of take a second to step back and listen 
to some of the questions we are actually posing with almost a 
serious tone in our voice it's somewhat embarrassing. I 
understand tomorrow we're going to invite folks who no longer 
work at the White House who did work at the White House back up 
to talk about these issues.
    I share your belief, Mr. Chairman, that people do care 
about campaign finance reform, they do care about allegations 
of campaign finance abuse, but they also would probably be 
interested in us doing something about it as opposed to 
continuing to investigate, investigate and investigate.
    I think it's important to note that all of the witnesses I 
think have answered questions as sufficiently as they can, and 
regardless of how we seek to frame them, I don't believe 
they're going to provide different answers because they're 
trying to answer truthfully.
    So I would hope that we would cooperate with them as well, 
particularly when we ask questions that require more than a yes 
or a no, that we at least allow the witnesses to elaborate.
    Last, Mr. Chairman, I would hope that after we complete 
this, and I thought that we would probably be finished 
investigating after some point, I thought the President said it 
very well the other night when he said we only have 7 months 
left to investigate him and hopefully we'll get all the 
questions. I shouldn't say ``we.'' You guys will get all the 
questions answered that you want.
    Quite frankly, I'm satisfied with the answers that I have 
heard by the panelists, and I would hope that you would express 
to your colleagues back at the White House and the Department 
of Justice, who are working tirelessly on a whole range of 
issues, that some of us in the Congress actually believe you're 
doing some decent work, and we look forward to working with you 
on a whole range of other issues to try to improve the lives of 
most Americans, or even all Americans, even those represented 
by my Democratic colleagues and Republican colleagues.
    I want to apologize on behalf of this committee for the 
White House and for the Justice Department and others, and 
don't get me wrong, I think there are legitimate times when I 
think you should come here and answer our questions, but I 
think at some point in time it's safe to say we have gone 
completely overboard. I think that we have become obsessed and 
intoxicated with the notion of investigating. When we can't 
think of much to do, we invite a few Justice Department 
officials and White House officials to come and answer 
questions about fantasies and concoctions and fabrications that 
some of us in this committee may have.
    So on behalf of the committee, I apologize for some of the 
questions you're receiving, and I appreciate your coming before 
the committee today, and with that I yield time to my friend 
from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Ford. I'm going to try 
something here of an explanatory nature and see how I make out. 
If you can explain it to me, though not particularly computer 
proficient, maybe then everybody can understand it.
    Go back over some of the timeframes Mr. Hutchinson was 
referencing. Apparently, it was November 1998 when the system 
was fixed, at least prospectively.
    Mr. Lyle. Yes, sir.
    Mr. Tierney. In 1996 was when the problem actually 
occurred, so you have got a 2-year period from 1996 to 1998.
    Mr. Lyle. It's my understanding it was 1996 to 1998 with 
respect to the e-Mail2 issue.
    Mr. Tierney. In June 1998, the White House counsel 
discovered that there had been a problem.
    Mr. Lyle. I'm sorry, in June 1998?
    Mr. Tierney. 1998.
    Mr. Lyle. Mr. Lindsay notified White House counsel relative 
to the e-Mail2 problem.
    Mr. Tierney. But also notified them that, in fact, they 
were working on the problem, and then in November of that year 
they would have determined that it was fixed, or at least White 
House counsel would have been told it was resolved.
    Mr. Lyle. That's the information that's been provided to 
me.
    Mr. Tierney. And it's not uncommon, I would guess, for 
lawyers in the White House counsel's office to talk past the 
technical people in terms of who understood what aspect of the 
situation.
    Mr. Lyle. I have a lot of technical people who work for me, 
and I'm not the most technical of them, and yes, that happens 
even to me.
    Mr. Tierney. So that around April of the year when the 
White House counsel was supposed to be responding to subpoenas, 
it's very likely, or seems very clear that they thought the 
matter had been resolved, and that all of the materials that 
had been requested had, in fact, been submitted.
    Mr. Lyle. Based on the information that I know of, I can't 
shed any more light on in terms of what was communicated to 
White House counsel's office by Mr. Lindsay or not.
    Mr. Tierney. And then after that, once the issue is 
resolved and the technical people told them that, in fact, 
there may have been some old e-mails incoming that might not 
have been actually determined; you went on that effort in the 
case to trying to ascertain those e-mails and discover them 
since that time; is that right?
    Mr. Lyle. We're trying to reconstruct them as we speak.
    Mr. Tierney. I think that's pretty clear. Thank you.
    Mr. Burton. Does the gentleman yield back the balance of 
his time?
    Mr. Ford. I do, Mr. Chairman.
    Mr. Burton. The gentleman yields back the balance of his 
time. The one thing that needs to be made clear is that the 
timeframe that we are very concerned about regarding the 
campaign finance investigation was from September 1996 to 1998 
when this whole problem arose. It's very relevant to that 
investigation, that particular investigation, and that's why 
it's so important.
    Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman. And I certainly 
want to agree with my colleague from Tennessee, and Mr. Lyle, I 
do not want to cut you off. I just think that we were reaching 
an agreement.
    Mr. Lyle. We were, and again, I'm doing that, I'm sorry, I 
didn't mean to interrupt you. I know we were trying to get to 
where we understood each other, and I appreciate that.
    Mr. Hutchinson. And because of the 5-minute rule, I try to 
move fairly quickly, but I certainly want to be fair in the 
questions to you. I think what you were testifying to is that 
what you were concentrating on the Y2K problem, and it was not 
your responsibility to comply with subpoenas and----
    Mr. Lyle. Well--I'm sorry, go ahead and finish your 
question.
    Mr. Hutchinson. Well, I mean, if I'm incorrect in that, but 
I was trying to give you a way out here. The point I was making 
is that again, this was in May or June 1998 when it was first 
learned about by the White House, Congress was not advised of 
it, and no requests were made for money to help retrieve the 
records that were under subpoena. That was almost 2 years ago. 
We still have not retrieved the records, and it was during that 
time that there were some very important investigations going 
on in which this Congress was being pressured to wrap it up, 
and the White House said how long are you going to do the 
investigations when, in fact, they knew that there were records 
that were being stored at the White House that had never been 
reviewed and turned over to this Congress, and we were never 
told of the problem. And so I think that those are legitimate 
frustrations. Now do you want to respond to what I just said, 
Mr. Lyle?
    Mr. Lyle. I can't tell you in terms of--with respect to 
subpoenas, we have a process in place that is used to respond 
to subpoenas. The Office of Administration, like any other 
Executive Office of the President agency, is responsible to 
provide information to the White House counsel's office so that 
they are able to respond to subpoenas that they receive or 
information requests that they receive. So we do participate in 
that type of process. So the Office of Administration in that 
capacity, and as an information provider, does participate.
    Mr. Hutchinson. And the administration did its job by 
telling the White House counsel's office that there was a 
problem.
    Mr. Lyle. Yes. Mr. Lindsay advised me that he had done so.
    Mr. Hutchinson. And so it was the White House counsel's 
responsibility at that point to advise the appropriate 
congressional subpoenas, or anyone else who had something under 
subpoena as to the problem.
    Mr. Lyle. The White House counsel's office is the point of 
contact for the discussions and communications with this 
committee and the other inquiring bodies.
    Mr. Hutchinson. Thank you.
    Mr. Heissner, did you ever see any subpoenas? Did that come 
within your responsibility to actually know the information 
that was under subpoena?
    Mr. Heissner. To the best of my recollection, the process 
would involve receiving an e-mail document that would be sent 
to the Office of Administration and its staff that would 
require responding to subpoenas. I may have seen some physical 
subpoenas, yes.
    Mr. Hutchinson. And sometimes you would know where the 
subpoena came from and sometimes you would not?
    Mr. Heissner. That's correct.
    Mr. Hutchinson. And many times it would just be a request, 
we need these records, they're under subpoena but you might not 
even know who the subpoena came from; is that correct?
    Mr. Heissner. That's correct sir.
    Mr. Hutchinson. And who would customarily send you that e-
mail?
    Mr. Heissner. The current process involves the receipt of a 
broadcast of an e-mail to all staff by White House counsel, and 
then there would be a separate e-mail, a copy of it sent, 
separate e-mail be sent out by IS&T management, someone in the 
front office would send it to all staff, and that person would 
then collect the responses to the request for information. This 
is the current process. In the past I collected information, 
but it would be followed back through channels.
    Mr. Hutchinson. Was that the process that existed back in 
1998 and 1999?
    Mr. Heissner. That was a similar process. It would be 
followed to us through White House counsel. We would respond 
and then send the information back to the White House counsel, 
and I might add, those requests were taken very seriously. We 
took all diligence in making sure that the request was 
understood, to analyze what the information was that was 
sought, and then to develop the software to give us the 
answers.
    Mr. Hutchinson. It was very serious from your standpoint in 
the Office of Administration, you don't know what happened once 
you gave the information to the White House counsel?
    Mr. Heissner. That's correct, sir.
    Mr. Hutchinson. And you did your job, or Mark Lindsay or 
someone else in your Department gave the information to the 
White House counsel that there was a glitch in the computer 
system, they're not able to review it, and you knew that was 
important information that the White House counsel should know 
about.
    Mr. Heissner. That's correct.
    Mr. Hutchinson. Now, I want to go to exhibit 81. It's been 
referred to previously, and I just need to get a better grasp 
of this. This is a document that you created, correct, Mr. 
Heissner?
    Mr. Heissner. That's correct, sir.
    Mr. Hutchinson. And the first sentence says while I'll be 
glad to write up something to the information request channeled 
to us via White House counsel in response to various requests 
from Congress, etc. Who is this being--who are you responding 
to?
    Mr. Heissner. I was responding to Ms. Cleal, who was my 
supervisor at the time who had made the request by telephone.
    Mr. Hutchinson. And the request by telephone was work up 
how many hours you're devoting to this, this might be some 
information we might want to give to Congress?
    Mr. Heissner. The request was to address the issue of 
information requests and the impact it would have--that it had 
on us at the time and to provide some information that might be 
suitable for submission to Mr. Lindsay in his presentations to 
Congress.
    Mr. Burton. I'm sorry, Mr. Hutchinson, your time is 
expired. We'll come back to you. Who seeks time on your side?
    Mr. Davis, do you seek time?
    Mr. Davis of Illinois. Yes.
    Mr. Burton. Mr. Kanjorski, do you need time?
    Mr. Kanjorski.
    Mr. Kanjorski. There's an article that appeared in the 
Washington Times today about certain involvements of e-mail of 
Mr. Blumenthal. Who is familiar with that?
    Mr. Lyle. I am familiar with that article, sir.
    Mr. Kanjorski. Did you read that article?
    Mr. Lyle. Yes, I did.
    Mr. Kanjorski. Could you tell us what basically happened 
there and what's the answer to that story if there is an 
answer.
    Mr. Lyle. The information that I have right now on that is 
that there was an e-mail that was sent to Mr. Blumenthal from 
the U.S. Embassy in England, and the e-mail ended up in what my 
technical people tell me is a loop, and what that means is that 
the e-mail was sent over and over and over again, and as a 
result of that loop that occurred, a great volume of that same 
e-mail ended up being repeated over and over and over again, 
and it grew into a large mass, I guess is the best way to 
describe it, of data.
    As a result, Mr. Blumenthal's computer failed. It could not 
take that massive amount of information. So he called over, and 
our IS&T people worked with him to correct his system.
    And the issue then arose, we have this e-mail that had been 
sent over and over and over again, what do we need to do about 
it, and the information that I was provided was is that the e-
mail substance was in that mass, identical, duplicates of this 
e-mail were created. The director of the Office of 
Administration made a determination in consultation with 
counsel's office--Office of General Counsel and the Office of 
Administration that the e-mail should be preserved, and it has 
been preserved, and the duplicates, the same e-mail over and 
over again, that mass of information has been deleted so that 
it doesn't jam the system and cause system failures.
    That's what we have--that's the information I have 
currently on that, sir.
    Mr. Kanjorski. That came from the American Embassy in 
England?
    Mr. Lyle. Yes. The U.S. Embassy in England is the source of 
that looped e-mail that sent those duplicate e-mails over and 
over and over again.
    Mr. Kanjorski. You don't think that perhaps it was an 
attempt by the United Kingdom of a terrorist attack on the 
White House computer system?
    Mr. Lyle. I don't believe that the United Kingdom launched 
a terrorist attack on the United States in the form of this e-
mail.
    Mr. Kanjorski. Don't you think we ought to have a 
congressional investigation on that?
    Mr. Lyle. No, sir, I do not. It's one of those things that 
happens.
    Mr. Kanjorski. I was suspicious because the other night I 
watched a program of the President in the Executive Office 
building riding a bicycle, and there was present another 
individual on a bicycle, and I think it may have been the prime 
minister of England, and I was wondering whether there's a 
seizure going on at that time.
    Mr. Lyle. And I have no knowledge on the bicycle episode, 
sir, but I can say that I hope that the floor was cleaned after 
he was done.
    Mr. Kanjorski. Mr. Chairman, I have no further questions.
    Mr. Burton. There is damage to the hood of my car however. 
Who's next?
    Mr. Shays.
    Mr. Shays. Good morning, gentlemen. My challenge is when 
you don't have an honest President, you wonder if those who 
work for a dishonest President are telling the truth. So I 
start out with that basic question. I still want to know who 
hired Craig Livingstone, the young man in the White House who 
had possession of over 800 sensitive FBI files, almost entirely 
on Republicans, and I want to know who he allowed to see those 
files.
    Now the interesting thing is Insight Magazine suspected 
that the First Lady hired him, but I wouldn't make that 
determination based on what Insight Magazine said. So I'm not 
even at the level of trusting, but verifying. I have a lot of 
suspicions.
    And I have little trust that this White House is telling us 
the truth, and I realize that you are, for the most part, 
career people who work for the White House, but I know other 
career people who work for the White House, they worked for the 
travel office and they were fired, and then the FBI and the IRS 
were forced to look at them and I don't know why. Then you had 
this e-mail mess at the White House, which only heightens my 
suspicion. So have a little patience with me, and I hope Mr. 
Waxman will as well.
    I know 120 people have basically taken the fifth or fled 
the country. 79 people have taken the fifth amendment. They 
don't want to answer questions. So there hasn't been much 
cooperation.
    Now, what I do know is that 2 years ago, in May 1998, it 
was discovered that we had a missing e-mails problem, and I do 
know in 1998 on the 18th, we had a test, and I do know almost 2 
years ago on June 19th, the White House counsel, Mr. Ruff was 
told of the problem by Mr. Lindsay. Now, from June 19 to 
November 20th, the problem wasn't solved. So we still had a 
continuation of the problem, and I do know this, that no one 
from the White House told this committee.
    Now we have Mr. Ruff telling us in 19 that we had all 
relevant information, and that we had a complete document of e-
mails. So he was on file before this committee telling us we 
had the documents, and then he knew on June 19th, and I realize 
that's not both of you, but I just want you to have a sense of 
the challenge we have.
    Now there was the Insight Magazine in November 1998, but 
Insight has made accusations, pretty incredible accusations 
about the President that none of us would want to believe. Then 
we knew in the 20th of this year from the Washington Times, it 
got to be a little credible, then Northrop Grumman, on March 
23rd came and testified, and then, in my judgment, the White 
House came clean.
    Now what happened during that time? We have 246,000 e-mails 
that we don't know about, that weren't transmitted. Now some of 
them may not be relevant, but there are 246,000, and they're 
interesting people. They're Betty Currie, they're Ira 
Magaziner, they're Phil Kaplan. Now why would I be interested 
in what Phil Kaplan has to say? He's the gentleman whose 
office--he's the special assistant to President and deputy 
staff secretary, Office of the Staff Secretary. His job is the 
conduit into which all messages to the President come, and this 
is one e-mail that we happen to discover because it didn't 
disappear in these 246,000 e-mails that we can't find, that you 
can't find, and this is a memo informing the President that 
because of a failure to comply with the law they're going to be 
fined $1 million potentially in fines, campaign fines. This was 
from Harold Dickeys, but it's under Phil Kaplan. Now, Phil 
Kaplan has 944 potential e-mails.
    I want to know how many other potential e-mails like this 
we haven't found, and then you have memos from Mr. Lindsay, 17. 
You have Ira Magaziner, 3,693. You have Bill Clinton, too. You 
have Betty Currie as well. So the problem is we need to know 
the truth, and what I'm hearing is that you all told the White 
House counsel everything you know. The question I have is were 
you surprised that the White House counsel, given what you 
knew, didn't notify us of the problem? I'll ask you, Mr. 
Heissner.
    Mr. Heissner. I guess I would not be privy to the 
communications between White House counsel and this committee.
    Mr. Shays. Is it your testimony that we knew about this 
problem?
    Mr. Heissner. I have no knowledge----
    Mr. Shays. I want you to be real careful with this one OK. 
I want you to be careful with my question. The question is, did 
you have any understanding that maybe this information had not 
been made public and forwarded to the committee? Was this 
something that the public knew about or did you know about?
    Mr. Heissner. If the question is did I have any knowledge 
of the communications between the White House counsel and to 
this committee of information that we provided.
    Mr. Shays. And the answer is no, correct?
    Mr. Heissner. The answer is I have no knowledge of the 
information that was forwarded or----
    Mr. Shays. Let me ask my final question then, sir. You're 
aware that this was called project X, and you're aware that you 
didn't like that term. It is your knowledge, isn't it, that you 
knew that the public didn't know about this?
    Mr. Heissner. I can't say that, sir. I don't know that for 
certain.
    Mr. Shays. So you never suspected--you thought--you never 
suspected that this was information just kept within the White 
House and it wasn't made public, you're going to be on record 
as saying--giving your response about the project X, you want 
to be on record as suggesting that you don't know whether or 
not the public and the press were aware of this issue?
    Mr. Heissner. I would have to speculate, sir.
    Mr. Shays. And what is your speculation?
    Mr. Heissner. My speculation with respect to what you term 
project X, it's difficult, sir. It's difficult to say whether 
that information was made public or not.
    Mr. Shays. Did you think it was made public?
    Mr. Heissner. It's possible that it was made public, yes.
    Mr. Shays. Did you think it was made public?
    Mr. Heissner. I don't know, sir.
    Mr. Shays. You don't know what you thought?
    Mr. Heissner. Well, if it were my speculation I would 
suspect that it would become public perhaps through--indirectly 
through communications between individuals and the press. I 
really don't know.
    Mr. Shays. Don't you think that a reasonable person like 
you would have come to the conclusion that if there were 
246,000 potential e-mails that hadn't been forwarded to the 
committee, and there was no public discussion of it, that the 
public probably didn't know about it?
    Mr. Heissner. It was my responsibility to pass information 
through channels. After it left that sphere, I did not followup 
on what actually was made public or not. It was not something 
that I was----
    Mr. Shays. I'm sorry, I'll be done with this question then. 
Did you object to this being referred to as project X?
    Mr. Heissner. Yes, I did, because it gave a sinister 
connotation to what I considered was a mechanical, technical 
failure, and it deserved to be named properly as an ARMS----
    Mr. Shays. You understand why I would be cynical when I saw 
that memo.
    Mr. Burton. Sorry, the gentleman's time has expired. Mr. 
Davis, I think we have time for you and then we'll head for the 
vote.
    Mr. Davis of Illinois. Thank you, Mr. Chairman. I'll be 
quick. Mr. Heissner, would you say that your basic 
responsibilities are technical in nature or analytical or 
policy analysis?
    Mr. Heissner. That's correct. I think I view our 
responsibilities as being technicians that provide the 
information systems technology to deliver that technology to 
policymakers and administrators.
    Mr. Davis of Illinois. So the analysis of public opinion, 
public awareness, of public scrutiny, public involvement, 
that's not a part of what you're expected to do?
    Mr. Heissner. That's correct, sir.
    Mr. Davis of Illinois. Mr. Lyle, let me just ask, are you 
satisfied that you have complied with the basic 
responsibilities of your office relative to compliance, given 
the technical problems that have existed, or the technical 
difficulties of generating the information?
    Mr. Lyle. Yes, sir.
    Mr. Davis of Illinois. Do you feel that you have been 
involved in any way in any stonewalling, delaying, 
circumventing, denying, unwillingness to come forth with 
information that you could provide?
    Mr. Lyle. No, sir. In fact, just the opposite. I believe I 
have been cooperative, as well as my staff.
    Mr. Davis of Illinois. Thank you very much. I have no other 
questions, Mr. Chairman.
    Mr. Burton. We have a series of votes on the floor. We will 
stand in recess. I'll ask you gentlemen to stick around. We're 
sorry we have to hold you for a little while. We have a few 
more questions. We stand in recess until fall of the gavel.
    [Recess.]
    Mr. Burton. While we're waiting for Mr. Barr, we'll go 
ahead and yield to counsel who had some questions regarding the 
appropriations process and the appearance of the White House 
before that committee.
    Mr. Wilson. Mr. Heissner, good afternoon. Mr. Lyle, good 
afternoon.
    I just wanted to try and establish one thing, Mr. Heissner. 
From our perspective, you were in charge or one of the people 
in charge of fixing the e-mail problem. It was a problem 
discovered in June 1998. The e-mail we were talking about 
earlier you wrote in February 1999. That's over half a year 
after the problem was discovered. From our perspective, you 
were supposed to be one of the problem solvers. Now, if you 
didn't have the people or the money to fix the problem, from 
our perspective it seems you had to know that there wasn't 
going to be any progress, that the problem wasn't going to get 
solved. One of the questions we really want to have answered 
is, what did you do to fix the problem?
    Mr. Heissner. I became involved in the resolution of the 
problem very late in 1998. The environment in which it worked, 
there was a great deal of ambiguity about roles and 
responsibilities. The recovery of Mail2 server had not been 
given to me until then, and then there was a meeting with Mr. 
Barry and somebody else that we mutually agreed that this is a 
responsibility that would fall within the systems integration 
development branch. So this was maybe December 1998. At that 
point Mr. Barry was taking the responsibility for reviewing the 
processes that were going on to make sure what he called the 
bleeding stopped.
    Mr. Wilson. I don't have a lot of time. What I'm looking 
for are the affirmative steps you actually took to solve the 
problem. Did you ask for money? Did you ask for more people? 
Did you complain to your management that things weren't going 
forward? What affirmatively did you do to make this problem go 
away?
    Mr. Heissner. I reported to our management the need for 
remediation. I was aware of that. In fact, the documentation 
you have shows that I provided the new director of OA, of IS&T 
with details as to the situation involved. I made some 
recommendations about remediation.
    The process had to go through proper channels, would go 
through a COTR, Contracting Office's Representative, to 
Northrop Grumman whose staff was performing the day-to-day 
operations and were also looking at a way of correcting the 
current problem.
    Mr. Wilson. We've seen the documentation. I'm very 
sympathetic to the career people that were involved in the 
process because it appears they were very frustrated. Mr. Barry 
appeared to be frustrated. You appeared to be frustrated from 
looking at the documents. But what we're trying to find is, is 
there a tangible expression of somebody moving forward before 
February 2000? And that's what we're trying to find here.
    We know all the explanations, but we haven't seen a request 
for money. We haven't seen a request for people. We're hoping 
you can help us out of that dilemma. Did you ever ask for 
money?
    Mr. Heissner. It was implicit that we would need funding to 
perform that work because there was no funding under the 
current contract with Northrop Grumman to perform that work.
    Mr. Wilson. Let me stop you there for a minute. Mr. Lyle 
came in for an interview last week, and he told us money was 
not an issue. Money was not needed. That was not the problem. 
You are sitting here today telling us it was implicit that 
money was needed to move forward, which makes perfect sense to 
us. It seems that if you had a problem to fix and you didn't 
have the money and the people, you had to get it. And so our 
issue here is you just told us that you needed to get money. Is 
that correct?
    Mr. Heissner. The issue was that we needed to receive 
funding to proceed with the Mail2 server remediation task.
    Mr. Wilson. The simple question I guess is, if you needed 
to receive money to proceed, did you ever ask for it?
    Mr. Heissner. It was implicit in the request--in the 
statement of work we received from Northrop Grumman, which 
indicated that the cost to develop a system to correct the--to 
restore--to retrieve and restore the data would be on the order 
of $600,000 and that went through proper channels to my 
management at which point I was awaiting authorization to 
proceed.
    Mr. Wilson. But I understand it was implicit, and what 
Northrop Grumman has given to you--in fact, we've seen letters 
saying they weren't going to proceed or do anything unless they 
got formal authorization. We understand what Northrop Grumman 
did. What I'm looking for is somebody on the other side, on the 
White House side saying you are to move forward and at the same 
time asking for money to enable them to move forward. Because 
if they weren't going to be funded, it's clear to us from the 
documents received that they were not going to move forward. So 
I have not seen--did you have a document where you signed 
something that said I would like congressional funding to move 
forward?
    Mr. Heissner. Not to my recollection is there a document 
that requests the funding, but there are documents that 
indicate that IS&T was waiting for obtaining approval to 
proceed associated with funding being made available to us.
    Mr. Wilson. Who was supposed to be--who were you waiting 
for?
    Mr. Heissner. The issue went through proper channels. It 
would go to the director of IS&T and from there would go to the 
director of OA and perhaps general counsel to be addressed.
    Mr. Wilson. Those are the channels. You were waiting for 
directions from your superior?
    Mr. Heissner. That's correct. I was waiting for direction 
to proceed along with the funding that's required to do that.
    Mr. Burton. Let me interrupt. You knew about the subpoenas, 
though, because you said earlier in your testimony that you 
were aware of subpoenas and you had seen some of the subpoenas. 
So you knew about the subpoenas and you knew nothing was being 
done and you didn't make a request for money to get the problem 
solved so that the subpoenas could be satisfied from the 
independent counsels and the Congress?
    Mr. Heissner. I have a document here. It has a Bates Stamp 
Number E 3877. It would be your No. 92, exhibit No. 92, if I 
might draw your attention to that; and it might help 
understand, perhaps, or explain.
    As you see, this is a document which describes the current 
state of the Mail2 reconstruction; and at the very bottom it 
says, ``Current status: Awaiting funding and management 
decision to proceed.'' And that's where I stood. I was waiting 
for that to happen. I might have had informal conversations. I 
don't recall having any formal documentation that would show 
that I would keep on asking how soon they may receive this.
    Mr. Wilson. To make sure we're fair to you, it's fair you 
were waiting for directions from your superiors on how to 
proceed; is that correct?
    Mr. Heissner. That's correct, sir.
    Mr. Wilson. Did you ever get directions from your superiors 
to move forward?
    Mr. Heissner. No, sir.
    Mr. Wilson. At any time before the year 2000 did any 
manager of yours ever come and say you must do something to get 
this fixed?
    Mr. Heissner. No, sir.
    Mr. Wilson. Now, Mark Lindsay, who testified before us, is 
going to come before us tomorrow again. He told us under oath a 
few weeks ago, quote, my first instruction and my first belief 
was to do whatever was necessary to fix the computer problem. 
Now, did Mark Lindsay ever come to you and say this is what 
we're going to do to fix the computer problem?
    Mr. Heissner. No.
    Mr. Wilson. You're the person that is managing this 
problem. Did he ever come you to and ask for work product to--a 
comprehensive plan as to how you were going to move forward?
    Mr. Heissner. This was one of many tasks that we were 
involved in, and it was kept open until direction to proceed 
and funding would be made available. That's the status and how 
we operated then.
    Mr. Wilson. The question was, did he ever ask you to do 
anything?
    Mr. Heissner. No.
    Mr. Wilson. He told us a couple of weeks ago, my No. 1 
objective was to make sure this problem was resolved; and again 
you have just told us he didn't actually ask you to do 
anything. How does your inaction square with what Mr. Lindsay 
told us?
    Mr. Heissner. Well, Mr. Lindsay and I would not be speaking 
on a regular basis on business like this. Communications would 
go through channels. It would go through Mr. Lindsay, to the 
director of IS&T, and from there would be followed down to me. 
So this is not--would not be a topic of discussion that we 
would be engaged in nor is it something that--I would not see 
Mr. Lindsay all that often. It would be usually just in the 
hallway. It would not be conversation dealing with these 
issues.
    Mr. Wilson. I can understand that. But from our 
perspective, we're trying to decide if this was a priority for 
Mr. Lindsay as he told us. It seems fair for us to assume that 
at some point over the course of nearly 2 years he would seek 
out the person who is in charge of the problem and he would say 
to that person, you must do this. And you've just told us that 
you did not receive directions from your superiors to actually 
move forward with that project; is that correct?
    Mr. Heissner. That's correct, sir.
    Mr. Burton. We'll come back to the counsel in a minute. He 
has about 20 minutes left on his time.
    Mr. Barr.
    Mr. Barr. Mr. Heissner, going back, please, to exhibit 81, 
which was the subject of some earlier discussions, the February 
5, 1999 e-mail. Turning your attention--as we had discussed 
earlier, one paragraph above the let sleeping dogs lie comment 
is the break in the text. The text says, we may not want to 
call undue attention to the issue by bringing the issue to the 
attention of the Congress because--and then it just stops and 
then picks up a subsequent paragraph later on. Why is there 
material missing there?
    Mr. Heissner. The assumption that there is some material 
missing is not correct. The original presentation of this 
paragraph, as I'm looking at this, it looks like it's just one 
sentence. It starts with ``while'' and ends with a period after 
declining. So there's a clause while.
    Mr. Barr. And ends where?
    Mr. Heissner. At the bottom of the--just above the let 
sleeping dogs lie.
    Mr. Barr. No, I don't think that's a reasonable assumption. 
The last three lines begin last year's with a capital L. That's 
a new sentence.
    Mr. Heissner. No, sir, that's not the way I communicate. In 
the original, there is a bullet there, and it's my practice to 
capitalize the first word following a bullet. The bullet does 
not show this. You can see because, and then it has the first 
line. There's a comma----
    Mr. Barr. When you say a bullet, you mean what's found at 
the bottom of the page?
    Mr. Heissner. Yes. The bullet that's at the top would be--
would have been a graphic. That was inserted when I typed in 
the text, and it would be a circle that's fully filled. It's a 
graphic which does not reproduce, apparently, in the records 
that are restored. The bottom part came from a document where I 
actually entered the bullets by using lower case Os and there 
they show.
    As I see--issue information requests, to me that's one 
sentence. I could have said, one, two, three; and if I had said 
that, it would have saved us all a lot of speculating and 
questions. The intention was because one, two, and three; and 
you can see the punctuation there. It's a comma at the end of 
the first sentence, a comma----
    Mr. Barr. The bottom half of the page below the double dash 
line, who typed that?
    Mr. Heissner. I did that, sir.
    Mr. Barr. You are a very precise typist.
    Mr. Heissner. Thank you.
    Mr. Barr. You use proper grammar. You start sentences with 
a capital letter. You end them with a period. You have a 
paragraph break where there ought to be a paragraph break. So 
what you're telling me basically is to believe that you used 
two entirely different writing styles. The writing style at the 
top where you have the word ``because'' unlike every place else 
you don't have a colon there before you list bullet items, and 
unlike every place else in the document where you begin each 
bullet item with a capital letter and end each one with a final 
punctuation, a period for example, you don't do that here. And 
you're saying that's simply because some of the graphics didn't 
get picked up?
    Mr. Heissner. That's correct. In the first case, I used 
what's called an unordered list which had three clauses. This 
is one sentence with several clauses. The second part there is 
a list of items, and I use a colon. And then you see the items 
that are listed are full sentences. They stand by themselves.
    The first information requests part is essentially one 
sentence, and it's just like saying because one, two, three or 
A, B, or C or item, item, item, period.
    Mr. Barr. I hear what you're saying, and I suppose that's 
one explanation. So what you're saying is you have this break 
in the first paragraph not because there's any information 
that's not there but because there was something different 
about this first paragraph that had graphics that weren't 
picked up as they were in the bottom?
    Mr. Heissner. That's correct, sir. In the first paragraph, 
the method of entry was different from the method of entry in 
the second paragraph. When you use--when I use the Lotus notes 
e-mail software and I provide lists of items, I can go and 
highlight those three sentences and specify I would like to 
have a bulleted list. And the software inserts graphics that 
cannot be normally--that were not retained in the records 
management software.
    Mr. Burton. Let me interrupt. The gentleman's time has 
expired. I'm going to yield him my time, but I just want to ask 
Mr. Heissner a question that's consistent with what you're 
asking. Have you conducted a manual search of your e-mails in 
response to the committee's subpoena? And did you find a copy 
of your ``let sleeping dogs lie'' e-mail? And if you did this 
manual search, did you find the bullet points and why don't we 
have them?
    Mr. Heissner. I performed a search. I printed off the 
documents, and I submitted those documents through proper 
channels as the process calls for.
    Mr. Burton. Through proper channels?
    Mr. Heissner. It would be through Christa Moyle in OA, and 
IS&T collects the documents.
    Mr. Burton. So the bullet points were on there then?
    Mr. Heissner. That's correct.
    Mr. Burton. You submitted them through the White House, 
through proper channels?
    Mr. Heissner. Submitted them through problem channels.
    Mr. Burton. So why don't we have them?
    Mr. Heissner. I have no knowledge.
    Mr. Burton. So the proper channels--someplace along the way 
there was a block as far as those bullet points are concerned 
because we don't have them.
    Mr. Heissner. All I can think is that the--there were two 
copies of the same document, and this copy came out of records 
management of the ARMS system. It was this copy that was 
submitted rather than the paper copy I provided. The paper copy 
I provided, sir, looks exactly like this, except it has those 
graphics.
    Mr. Burton. I understand, but the point is you ran those 
through proper channels so they would come to the committee and 
we never got them and you don't have an explanation why. I'm 
not saying it's your fault, but somebody along the chain of 
command evidently felt like they shouldn't be given to the 
Congress for some
reason. We'll try to find that out tomorrow.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Lyle, turn if you would, please, to exhibit 6.
    [Exhibit 6 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.171
    
    [GRAPHIC] [TIFF OMITTED] T9621.172
    
    [GRAPHIC] [TIFF OMITTED] T9621.173
    
    [GRAPHIC] [TIFF OMITTED] T9621.174
    
    [GRAPHIC] [TIFF OMITTED] T9621.175
    
    [GRAPHIC] [TIFF OMITTED] T9621.176
    
    [GRAPHIC] [TIFF OMITTED] T9621.177
    
    Mr. Lyle. I'm sorry, Mr. Barr?
    Mr. Barr. Turn if you would, please, to exhibit 6. It's my 
understanding that exhibit 6 is a set of briefing papers that 
you circulated at a meeting in January of this year with Beth 
Nolan, counsel of the President; is that correct?
    Mr. Lyle. I believe this was circulated--if you look at the 
top, it was provided by--on January 13th by Kate Anderson to 
Beth Nolan.
    Mr. Barr. This was a paper that was circulated at that 
meeting?
    Mr. Lyle. Yes. It was used at this meeting, yes, sir.
    Mr. Barr. Did Ms. Nolan at that time ask how these 
problems, that is, the Mail2 and letter D problems, affected 
subpoena compliance or compliance with subpoenas?
    Mr. Lyle. In the course of the discussions of these 
anomalies, Ms. Nolan asked something along the lines--I'm 
paraphrasing when I say this--but something along the lines how 
would this affect a prior search relative to a subpoena? 
Something in that--as I recall it--in that area.
    Mr. Barr. What was your response to her inquiry?
    Mr. Lyle. I said that the issue was--relative to the 
subpoena, the question that she was asking had been dealt with 
prior by Mr. Lindsay and Mr. Ruff and that I didn't know the 
extent of what those discussions were because I wasn't there or 
privy to them.
    Mr. Barr. Was that the end of that discussion?
    Mr. Lyle. No. Relative to the question about subpoena or 
about the briefing?
    Mr. Barr. Subpoenas.
    Mr. Lyle. I believe that we offered to check with Mr. 
Lindsay. I believe that was something that Kate Anderson had 
said to check with him on did he in fact have that discussion 
with Mr. Ruff.
    Mr. Barr. What followup did you undertake?
    Mr. Lyle. After the meeting, Kate Anderson and I went to 
meet with Mr. Lindsay.
    Mr. Barr. Who did?
    Mr. Lyle. Kate Anderson and myself, Catherine Anderson, 
went and met with Mr. Lindsay and confirmed that he, in fact, 
handled that with Mr. Ruff prior.
    Mr. Barr. What you mean by that is Mr. Lindsay, I presume--
I don't want to put words in your mouth--assured you that the 
matter had been handled?
    Mr. Lyle. Yes, that he had had discussions with Mr. Ruff 
relative to the anomaly.
    Mr. Barr. Do you know anything further about those 
discussions between Mr. Lindsay and Mr. Ruff?
    Mr. Lyle. No, sir, I do not.
    Mr. Barr. Did he relate any details of it to you?
    Mr. Lyle. No.
    Mr. Barr. You left satisfied that it had been taken care 
of?
    Mr. Lyle. Yes.
    Mr. Barr. One of the problems I see here, Mr. Chairman--and 
these two lines of questioning are related--you can have a 
subpoena, Mr. Chairman, and as counsel knows, certainly, come 
in asking comprehensively for all documents and records and 
exhibits and so forth; and what we're seeing here is if you 
pull different--the same information out in different formats, 
you get somewhat different information. Now, it can be 
explained in a way so that maybe it has the same stuff, but, of 
course, as the chairman knows and as the counsel knows, there 
can be very important subtle differences simply by the way 
information is formatted, the way it is punctuated, the way it 
is broken, the way it is highlighted and so forth.
    This also goes to, I think, your concern expressed earlier, 
Mr. Chairman, that if a subpoena comes in and only partial 
information is returned, that can create a problem.
    Whether or not that's obstruction certainly is something 
that the authorities would want to look into. Even Mr. Waxman 
indicated that certainly if there has been obstruction, he 
would want to look into it.
    These are the sort of nagging questions that I think are 
very relative to this committee, to you, Mr. Chairman, probably 
to the independent counsel as well and certainly would have 
been relevant to us in our impeachment inquiry asking for full, 
accurate, complete information. If we were getting, as now is 
obvious, at best only one version of information and there are 
other versions still out there, that raises some very, very 
substantial questions in my mind as a former prosecutor and as 
a member of this and the Judiciary Committee which I think are 
shared by the chairman and the counsel.
    Mr. Burton. The gentleman yields back the balance of his 
time?
    Mr. Barr. Yes, Mr. Chairman.
    Mr. Burton. Mr. Waxman does not have any questions. Counsel 
has 20 minutes on his time, and Mr. Shays said he would like 
the counsel to continue questioning for a while. Counsel.
    Mr. Wilson. I'm going to go into a new, slightly different 
area of questioning; and let me tell you what it is before we 
go there so you understand.
    We discussed your memorandum earlier, the sleeping dog or 
the e-mail, the sleeping dogs lie e-mail; and you explained 
this pertained to information requests. Well, there are other 
documents we have, and I'm going to ask both Mr. Lyle and Mr. 
Heissner about them, where it seems that there were indications 
about this problem--the problem being the e-mail problem--and 
the information was taken out of documents--and from our 
perspective--and I want you to help me work through this--it 
seems that when information is taken out of a document, whether 
it's a briefing material or some type of memorandum for a 
superior, then that makes it difficult to move forward with a 
solution to the problem.
    Now, Mr. Lyle, if you would please take a look at exhibit 
84 in the book in front of you. It's an e-mail from yourself to 
Joseph Kouba. My understanding, Mr. Kouba is a budget person at 
the Office of Administration.
    Now, in this e-mail you say--it's very short, very 
succinct--Joe, please correct the budget materials re OA by 
removing the bullet point relating to Mail2 reconstruction. You 
came in for an interview last week, and you explained to us why 
you sent this e-mail,
and your explanation was you wanted the bullet point removed 
because it was incorrect. I don't want to spend a lot of time 
on this, but I want to ask you, instead of removing the bullet 
point, why didn't you correct the bullet point? Why didn't you 
make the information accurate?
    [Exhibit 84 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.178
    
    Mr. Lyle. Let me explain to you, give you a context so that 
you understand what this was.
    This is a series of e-mails that occurred in connection 
with an internal presentation that the Budget Financial 
Management Division was preparing for the assistant to the 
President for Management and Administration. On a periodic 
basis Financial Management Division professionals would brief 
the assistant to the President for Management and 
Administration with respect to the Executive Office of the 
President accounts, each appropriation that exists within them, 
the burn rate in terms of the funds that are available, what 
the expenditures are.
    With respect to the Office of Administration's 
appropriation, an e-mail was sent around by Mr. Kouba, who is 
one of our budget folks in the Financial Management Division, 
very hard-working individual, and he had included in there a 
discussion, a possible bullet point for the assistant to the 
President that said--it was relative to the Armstrong 
Resolution Account. That Armstrong Resolution Account is the 
funding source that is used with respect to the Automated 
Records Management System.
    Mr. Wilson. Let me just get to my question. I don't have an 
awful lot of time.
    The question is that somebody wanted to communicate 
something about the e-mail problem. Mr. Kouba did, and Mr. 
Kouba is not here. We'll talk to him at a later date. He wanted 
to communicate something. You thought what he was communicating 
was wrong, but nevertheless he wanted to communicate something 
about the e-mail problem. And your response--rather than 
saying, why don't you correct your bullet point because it's 
wrong, your response was, why don't you delete the bullet 
point. So it seems like you had opted to delete instead of 
disclose the information.
    I want to move on to another document.
    Mr. Lyle. The reason I instructed that is because it was 
flat-out wrong. And there was no--in other words, I didn't want 
to leave anything in--a briefing to the assistant of the 
President for Management and Administration that came out of my 
office or folks from my office that had incorrect information. 
The best way to eliminate any confusion about it is to say it's 
wrong--and correct it. Simple as that. That's why I did it. 
That's how you correct this information. That's how I corrected 
it. Made perfect sense to do so because it was wrong.
    Mr. Wilson. I understand. I understand your concern, but 
our concern is that there's a document here that talked about 
the e-mail problem. You had an opportunity to communicate 
something, and you chose to do what you did. I understand why 
you did what you did.
    Mr. Lyle. Mr. Wilson, that information was an internal 
document between my office--my agency at the time. I was the 
general counsel. But my agency and the assistant to the 
President, Virginia Apuzzo--and it was in the context of a 
briefing for that budget preparation. She was aware of the e-
Mail2 anomaly, as you know. So what we were correcting was 
incorrect information because it stated a conclusion that was 
flat-out incorrect.
    Mr. Wilson. Is it fair to say the ultimate document had no 
reference to the Mail2 problem in it at all? The ultimate 
document that was prepared had no reference to the Mail2 
problem at all?
    Mr. Lyle. Correctly so. That it should not have any--there 
should be no indication in the Armstrong Resolution Account 
relative to e-Mail2, which, by the way, is a conclusion that 
our appropriators have acknowledged and agree with in a 
correspondence that we just received to them in connection with 
our request to use funds to do an e-Mail2 reconstruction out of 
the Armstrong Resolution Account.
    Mr. Burton. Let me interrupt, because I'm not sure I 
understand this. When the White House went to the appropriators 
to ask for funding, they did not ask for any money to correct 
the e-mail problem; is that correct?
    Mr. Lyle. No, sir. On March 20, we requested----
    Mr. Burton. March 20 of when?
    Mr. Lyle. March 20, 2000.
    Mr. Burton. I'm talking prior to that.
    Mr. Lyle. Prior to March 20, 2000, I'm not aware of any.
    Mr. Burton. We're talking about the problem occurring back 
in September 1996, and it was discovered in 1998. Did anybody 
ask for any money to correct the e-mail problem or to go 
through and reconstruct everything and bring it up to date? Not 
starting there and going forward but going back to 1996 and 
getting all the information that was relevant to all these 
investigations, getting to the Congress, did anybody ask for 
money for that?
    Mr. Lyle. There were two components to the e-mail, two 
anomalies. There was the first component which you have been 
talking about which was the----
    Mr. Burton. I just need a yes or no answer. In 1998 or 
thereabouts, did they ask for the money to reconstruct all the 
e-mails instead of starting there and going forward? Did they 
ask for the money to go back and correct several hundred 
thousand e-mails that were missing?
    Mr. Lyle. The portion of the problem that was corrected in 
November 1998, did not require additional funds. That was 
stopped. In other words, the Armstrong failure to capture----
    Mr. Burton. So they did not ask for any money to go back 
and to get those e-mails that had been missed since September 
1996?
    Mr. Lyle. You're talking about the reconstruction from the 
back-up tapes?
    Mr. Burton. Yes.
    Mr. Lyle. The first request that I'm aware of was by Mr. 
Lindsay in March 20, 2000, where he asked----
    Mr. Burton. That answers my question. They did not ask for 
money to reconstruct that prior to the year 2000?
    Mr. Lyle. That's correct.
    Mr. Burton. Thank you.
    Mr. Wilson. Mr. Heissner, I wanted to ask you about a 
different document. Again, I just don't want to come out of the 
blue on this issue. I'll explain to you what my thinking is, 
and hopefully you can help us--you can educate us here. Let me 
explain the issue first, and then you'll have an opportunity to 
review it.
    From our perspective, there seems to be a simple 
proposition. Either the White House had the money and the 
personnel to fix the problem and it simply decided to ignore 
the problem or the White House didn't have the money or didn't 
have the personnel and it chose not to take steps necessary to 
get help.
    Now, a couple of weeks ago one of your former colleagues 
Paulette Cichon was asked, if the Office of Administration 
didn't have the money and it didn't have the personnel, how can 
it fix the e-mail problem; and her answer was very, very 
constructive. She said, we couldn't do it. Now, that's easy for 
us to understand. If they didn't have the money and they didn't 
have the people, they couldn't fix the problem. It seems to 
us--and I'll get to this document in a moment--if you needed 
help to solve the problem and if you didn't ask for help to 
solve the problem, the only possible explanations are that you 
didn't want to solve the problem.
    Now, if you would please take a look at exhibit No. 94 in 
the book in front of you. Now, here we have what appears to be 
a forwarded e-mail from you to another Office of Administration 
employee named Christa Moyle. It's dated February 24, 1999. So 
it's fairly close to the beginning of 1999, again about 6 
months after the problem was first identified.
    The subject line of the e-mail is draft hearing preparation 
paper. When you read this e-mail, it appears to us that someone 
was trying to inform Congress of the e-mail problem. Now, in 
this e-mail you have two versions of a bullet point about the 
Mail2 problem. One is labeled current version; and the other is 
labeled, quote, more nearly accurate version. So the initial 
question here is, did you draft the more nearly accurate 
version, the Mail2 bullet point in this document?
    [Exhibit 94 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.179
    
    Mr. Heissner. Yes, sir, I did.
    Mr. Wilson. That was something you prepared?
    Mr. Heissner. Correct.
    Mr. Wilson. I'd like to go over to exhibit 134, if I can, 
please. It's a multiple page document. It appears to be a draft 
hearing preparation paper. It says draft at the top.
    The date is February 24, 1999. So, again, early 1994, but 
it's dated the same day that you drafted the more nearly 
accurate version message in the e-mail we looked at a moment 
ago.
    What I'd really like you to do, if you would, please, is 
look at the very bottom of page 4 and the top of page 5. Now, 
there's a bullet point in this draft document. It's a hearing 
preparation paper, and it's got an underlined heading. It says, 
Mail2 reconstruction; and the interesting point from our 
perspective is that it's crossed out. There's a wavy line that 
goes through the entire bullet point. Now, apparently, it was 
crossed out by Catherine Anderson, who is a lawyer in the 
Office of Administration.
    Now, I guess the first thing I want to ask you is, is this 
the language that you drafted in the e-mail where you wrote 
``More Nearly Accurate Version?''
    [Exhibit 134 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.180
    
    [GRAPHIC] [TIFF OMITTED] T9621.181
    
    [GRAPHIC] [TIFF OMITTED] T9621.182
    
    [GRAPHIC] [TIFF OMITTED] T9621.183
    
    [GRAPHIC] [TIFF OMITTED] T9621.184
    
    Mr. Heissner. It seems to be the contents or paraphrased, 
perhaps slightly modified version of the information I provided 
in the more nearly accurate version of the February 24 e-mail.
    Mr. Wilson. We appreciate the fact that you provided 
accurate information in a paper that was for draft hearing 
purposes. What we see is something that's crossed out. Do you 
know whether this section was removed because someone did not 
want Congress to know about the e-mail problem?
    Mr. Heissner. I don't know anything about this. This is the 
first time I've seen this document, sir.
    Mr. Wilson. It's fair to characterize you wrote something 
that you thought was accurate, it was put in a briefing paper 
document--and I'm not saying you have to have contemporaneous 
knowledge of this, but you're looking at something now that's 
removed, and you have no further knowledge about it than that; 
is that correct?
    Mr. Heissner. That's correct, sir.
    Mr. Burton. Who is this draft memo to?
    Mr. Zwerling. Can you identify it by a number?
    Mr. Burton. The one we were just talking about.
    Mr. Zwerling. The one he's never seen or the one he made?
    Mr. Burton. The one that has the crossed-out part.
    Mr. Heissner. Exhibit 134, I don't know. It is not clear 
from this document to whom it is written.
    Mr. Wilson. Our understanding, it was a memorandum prepared 
in anticipation of congressional hearings. Do you have any 
reason to know that that's not correct?
    Mr. Heissner. That seems a very reasonable assumption, sir.
    Mr. Burton. But to whom would it be addressed? Who would 
this go to? It wouldn't just go in a dead letter file. Who 
would it go to?
    Mr. Heissner. I don't know. Again, this is the first time 
I've seen this. Normally, I'm not privy to documentation----
    Mr. Burton. But you prepared this document, you said.
    Mr. Heissner. I prepared one paragraph, sir. Just that one 
item at the very end. It includes text I prepared in an e-mail.
    Mr. Wilson. Mr. Lyle, do you know whether this was a 
document prepared in advance of hearing?
    Mr. Lyle. Yes, it was. It's a draft document.
    Mr. Wilson. Do you know whether the final version of this 
document ended up with no reference whatsoever to the Mail2 
reconstruction problem?
    Mr. Lyle. To answer your question, Chairman Burton, this 
would be used to prepare the director of the Office of 
Administration to testify for the Appropriations Committee, 
which at the time was Mr. Lindsay who was fully aware of this 
e-Mail2 anomaly that is included in this draft. And to answer 
your question, the final version did not contain reference to 
the e-Mail2 reconstruction.
    Mr. Burton. The crossed-out paragraph there was not in the 
final version. Who prepared the final version?
    Mr. Lyle. The final version was prepared jointly by me and 
my staff in preparation for inclusion in a book.
    Mr. Burton. Why was that paragraph left out?
    Mr. Lyle. The reason the paragraph was left out is because 
the information that's being included was in preparation for 
the fiscal year 2000 appropriations hearing which occurred in 
1999; and the issues in this paper, if you look through it, 
discuss either ongoing projects or the future requests for 
funding that we would be seeking from the appropriators, the 
Office of Administration.
    Mr. Burton. Why was that paragraph on the e-mails left out?
    Mr. Lyle. Because the request for appropriations was not 
going to be requesting funds for the e-Mail2 reconstruction.
    Mr. Burton. Why?
    Mr. Lyle. Because a decision was made that the project had 
to be deferred in view of the Y2K crisis.
    Mr. Burton. But Congress had submitted subpoenas for these 
documents as well as the independent counsels and Justice 
Department and everybody else. So you're saying action was 
deferred intentionally because of the Y2K problem?
    Mr. Lyle. No, sir, absolutely not. As I said earlier, the 
people in the Office of Administration, myself and my staff, 
were unaware of any issues in terms of the subpoena compliance 
one way or another. Those communications had taken place 
earlier. We were working without any indication one way or 
another that there was any issue relative to the subpoena 
compliance.
    Mr. Burton. Mr. Heissner who put that in there, he was 
aware of some subpoenas. He said that earlier in his testimony. 
He put that paragraph in. Didn't you ask him why he put that 
paragraph in?
    Mr. Lyle. I wasn't aware that Mr. Heissner put the 
paragraph in, but I can tell you that in terms of what I 
believe Mr. Heissner said earlier that he wasn't aware of what 
goes on in terms of the subpoena compliance, as I said before, 
issues relative to subpoena compliance are handled in the White 
House counsel's office. We provide information on those.
    Mr. Wilson. Mr. Lyle, when we interviewed you last week, we 
asked you why no one informed appropriators, congressional 
appropriators before March 2000. This was your answer, and we 
wrote it down verbatim. This is the quote. When you go to 
appropriators, they ask a lot of questions. Let me read that 
again, because that is the verbatim quote. When you go to 
appropriators, they ask a lot of questions. Now, we didn't 
followup. I admit we were amiss.
    First of all, what's wrong with appropriators asking a lot 
of questions?
    Mr. Lyle. I don't know what context you are referring to.
    Mr. Wilson. We're talking about a question put before you 
to as to why before March 2000, nobody asked appropriators for 
money.
    Mr. Lyle. Can you show me the question and then my answer?
    Mr. Wilson. We can go back to you. We'll can put that to 
you in the form of a letter and go back at that point. But I 
will ask this question. Why not--this is a question. We 
legitimately want you to help us.
    Mr. Lyle. And I am endeavoring to help you.
    Mr. Wilson. Why did you not look upon congressional 
testimony as an opportunity to tell Congress about this issue 
and inform them of the problems you faced, the money and 
personnel that you needed, and simply to tell Congress what the 
state of play was on this matter?
    We've got documents where bullet points are getting 
removed. They are not going up the chain of command to people 
higher. From our perspective, and this is what we're trying to 
work through, it appears that you had an opportunity--and I 
know Mr. Barry wanted somebody to move forward, and Mr. 
Heissner appears to have done the right thing, and he's drafted 
the bullet point that got crossed out. It looks like a lot of 
the people were trying to do the right thing in the Office of 
Administration. Good career people were trying to do the right 
thing. And our simple question is, why did you not think this 
is an opportunity; I can go and get help?
    Mr. Lyle. I'm sorry, I don't understand your question.
    Mr. Wilson. All right. Let me try it again.
    You're going to go before Congress. You're going to go 
before congressional appropriators. You had a problem. You had 
people who wanted to fix the problem. You had Mark Lindsay that 
said it was a priority of his, a first priority to fix this 
problem. You had people that knew that unless you had money and 
unless you had people to work on this problem, you weren't 
going to move forward. So why didn't you think this is a good 
opportunity as a public servant, as a lawyer, an officer of the 
court, I can go to Congress. I can tell them about this 
problem. I can make myself right with the law. I can get help, 
and then we'll be able to fix the problem.
    Mr. Lyle. You have to look at the context at the time in 
terms of what was happening in the Executive Office of the 
President. There were a lot of things that you said in your 
preparatory statements----
    Mr. Wilson. You could have given Congress the context.
    Mr. Lyle. Do you want me to answer that question or the 
question you asked before? Which question?
    Mr. Wilson. Please continue. Please answer the first 
question, and then I'll ask the second question.
    Mr. Lyle. The context that the Office of Administration was 
in at the time was the Y2K crisis that I discussed with you at 
length during our interview. That project was the No. 1 
priority. It wasn't just the No. 1 priority within the 
Executive Office of the President. It was the No. 1 priority 
governmentwide in terms of information technology, nationwide 
and worldwide.
    I don't think there's any dispute about that the Executive 
Office of the President's computer system was in antiquated 
condition and it needed to be taken from that state into a 
modernized, Y2K-compliant system. That was the No. 1 priority 
that our appropriators--and I believe this committee--Mr. Horn, 
I believe, was also keenly interested in our progress on how we 
were doing.
    As you will recall, the goal was for governmentwide 
compliance----
    Mr. Burton. Why didn't you at least put it in there and at 
least bring it up before the appropriators? Why not at least 
tell the appropriators we've got this problem? Y2K is a 
priority, but this is a problem because Congress has subpoenaed 
documents, the independent counsel has, the Justice Department 
has, and we can't get this without additional personnel and 
money. Why didn't you just at least bring it up instead of 
crossing it out?
    Mr. Lyle. I understand, Mr. Burton. Again, the Office of 
Administration people and myself were operating without any 
knowledge of any concerns or issues relative to any subpoenas 
that this committee or any other----
    Mr. Burton. You knew about the e-mail problem.
    Mr. Lyle. We knew that we had the back-up tapes, that they 
were secure.
    Mr. Burton. Why didn't you at least ask for the money and 
the personnel to solve that problem even though you had the Y2K 
problem?
    Mr. Lyle. Again, as I explained to Mr. Kolbe, our 
appropriators--and as I said earlier, the Y2K issue was the top 
priority----
    Mr. Burton. I understand that. But you could have also put 
this in there. There wasn't one or the other. Why was it taken 
out?
    Mr. Lyle. The project e-Mail2 reconstruction project had to 
be deferred, like a variety of other non-Y2K projects, because 
we had limited resources available to solve the No. 1 crisis 
facing----
    Mr. Burton. Doesn't Congress have a role to play in the 
decisionmaking process of what priorities are? You were 
supposed to go before Congress and tell them what the problems 
were. Y2K was a problem. The e-mail was a problem, but you 
didn't even mention that. Why?
    Mr. Lyle. The Congress is certainly on a variety of issues 
a place where we go, and we have a very good relationship that 
we forged with our appropriators. The request was submitted on 
March 20, 2000.
    Mr. Burton. Why didn't you ask? Why didn't you have that in 
there?
    Mr. Lyle. Because of the Y2K problem.
    Mr. Wilson. Mr. Heissner, if I may go back to you for just 
a moment. If you go to exhibit 94 again, it's the exhibit we 
were looking at a moment ago, the e-mail from yourself to 
Christa Moyle. Down the bottom of the page, the very bottom, it 
says, current status. And it says, and I quote, awaiting 
funding and management decision to proceed. Is it fair to say--
is it correct to say that the management decision and the 
funding decision was finally made in February and March 2000? 
You didn't have any decision in 1998 or 1999? Is that fair?
    Mr. Heissner. That's correct, sir.
    Mr. Burton. Your time has expired. We'll try to get back to 
those questions. Mr. Waxman's time now.
    Mr. Waxman. Mr. Chairman, we'll take our half-hour of 
counsel time on this side. I want to yield to Mr. Schiliro.
    Mr. Schiliro. If I were watching this on TV, Mr. Lyle and 
Mr. Heissner, I'd be confused because there seem to be 
conversations about the same problem but two separate 
applications. We have one e-mail problem where, in the ARMS 
Lotus interface, a number of e-mails were not captured by this 
system. As I understood Mr. Lindsay's testimony in a previous 
hearing, it was a priority for him to fix that prospectively. 
That was not your responsibility, was it, Mr. Heissner, to do 
the actual repair of the interface problem?
    Mr. Heissner. That's correct, sir.
    Mr. Schiliro. That was a responsibility of the Northrop 
Grumman employees. So counsel was asking you questions before 
about whether Mr. Lindsay talked with you about that because 
that was a priority of Mr. Lindsay's to fix it, but it would 
not have made any sense for Mr. Lindsay to talk with you about 
fixing that problem prospectively because that was not your 
responsibility.
    Mr. Heissner. That's correct.
    Mr. Schiliro. When we look at the missing e-mails, we're 
really looking at two different issues. Mr. Lyle referred to 
this. There's a subpoena issue where e-mails were not produced 
in response to subpoenas, and then there's the issue you focus 
on which is the archival responsibility. And is that why you 
wrote what you referred to before as Exhibit 92 and counsel 
referred to as Exhibit 94?
    Mr. Heissner. I believe the intent of the nearly more 
accurate version was describe the status of the Mail2 
reconstruction, the reconstruction of mail non-records managed 
e-mail that was still residing on tapes but had not been 
recovered and put into narrative.
    Mr. Schiliro. But your focus was not on that issue in 
response to subpoenas. Your focus was because there was an 
archival responsibility to reconstruct these tapes at some 
point?
    Mr. Heissner. That's correct.
    Mr. Schiliro. So when the chairman had and others had been 
asking you questions about subpoenas, that wasn't in your mind 
at all at that point. You just had a responsibility to make 
sure the archives were correct for the future?
    Mr. Heissner. That's correct. The responsibilities had to 
do with the technical issues in, No. 1, assuring that all the 
tapes were maintained; No. 2, getting a system designed that 
would enable the recovery of these records; and, No. 3, to 
perform the recovery eventually.
    Mr. Schiliro. It would not have even have been within your 
responsibility to be concerned with subpoenas when it came to 
this issue?
    Mr. Heissner. My responsibility with respect to subpoenas 
was to respond to them as I received them.
    Mr. Schiliro. So again in the context of reconstructing the 
missing e-mails, it was not presented to you in the context of 
responding to previous subpoenas?
    Mr. Heissner. That's absolutely correct, sir.
    Mr. Schiliro. When you wrote that e-mail and then it got 
picked up in a briefing memo--but your responsibility in 
writing the e-mail was not to inform Congress; is that correct? 
You weren't told you're writing this because you have to inform 
Congress of the problem.
    Mr. Heissner. No. The intention was to clearly state the 
problem as it existed.
    The document that you're seeing, exhibit 94, is part of 
exhibit 92 and just shows the context in which this response 
took place. It seems that Ms. Moyle asked me to explain what 
Tony was talking about, and so this is the explanation I 
believe. On the E 3878, which is the second page of exhibit 92, 
Mr. Barry described the situation and gave the information, and 
I was asked to explain that.
    Mr. Schiliro. Again, I don't want to be redundant, but the 
context of this was not for you to inform Congress or for 
anyone there to inform Congress of a specific problem. It was 
for you to try to estimate how much it would cost to do this 
reconstruction for archival purposes?
    Mr. Heissner. That's correct.
    Mr. Schiliro. Mr. Lyle, is that your understanding as well?
    There are really two buckets of issues here, subpoenas and 
archival issues, and that when you came on board, your 
understanding--and in fact it's the understanding I think that 
Mr. Lindsay had--is that missing e-mails had no relevance to 
subpoena problems because the White House counsel's office--
Beth Nolan had testified to this at the last hearing--had run a 
test in June 1998. Pursuant to that test, they concluded the 
missing material had already been provided to the independent 
counsel, and so as far as they were concerned there wasn't 
missing information.
    Your operative thinking then became not one of a subpoena 
problem in terms of compliance. You believed the problem was 
fixed prospectively, and so in 1999, when you looked at the 
appropriations process, the question you faced was the need to 
provide--do we need to ask Congress for money to fix the 
archival problem, not anything in relation to subpoenas and 
information we may not have produced.
    Mr. Lyle. That's right. We were asking for funds in our 
budget submission for all kinds of--as I said, the Y2K issues.
    That other aspect in terms of the e-Mail2 project was one 
that had to be deferred and it was only relative to, OK, we've 
got the back-up tapes. They are available. We've got them in 
our data center. They are secure for the anomaly.
    The question then is, for purposes of our archiving for 
Federal records, for Presidential records, all of those 
purposes, that was the focus of the project. There were no 
issues in terms of subpoena compliance whatsoever that we were 
operating under, and it was in that vein that we viewed the 
project at that time, which is why it was deferred with a 
variety of the other non-Y2K projects and we focused all of our 
energy and efforts on the Y2K problem.
    We had the back-up tapes secure in the data center, as I 
said, for the e-Mail2 anomaly and for the letter D anomaly; and 
now once Y2K had passed we were in a position to go to Congress 
and provide them with information about the cost associated 
with the reconstruction effort, possible contractors to do it, 
and how we were planning on proceeding which took our 
significant involvement from our information technology experts 
within the Office of Administration who had previously been 
dedicated to the Y2K problem. Now they were free to focus on 
the reconstruction project, which is exactly what we have been 
doing and are currently doing.
    Mr. Schiliro. That would explain why that paragraph was 
crossed out of a briefing memo that you were asked about 
before?
    Mr. Lyle. Exactly. Funding was not being requested at that 
time for the e-Mail2 reconstruction effort. We've asked for it 
in March of this year.
    Mr. Schiliro. Without any of that explanation that you just 
provided or Mr. Heissner provided, if someone were just looking 
at the paper evidence we have, one could speculate, well, maybe 
something was happening here and people did not want Congress 
to know because there's material crossed out. But neither of 
you were aware of any sentiment of doing that?
    Mr. Heissner, you were never in a position where you felt 
you had an affirmative duty to inform Congress and someone came 
to you and said you could not do that and you had to keep this 
quiet?
    Mr. Heissner. That's absolutely correct, sir.
    Mr. Schiliro. You never heard any discussions in the White 
House, anybody in the halls talking about any effort to keep 
this quiet or keep it away from Congress?
    Mr. Lyle. No.
    Mr. Waxman. I'm pleased we got that clarification, because 
the chairman seemed very frustrated with the knowledge that we 
now have that some of those e-mails that had not been captured 
might not have been turned over to investigators, this 
committee and the independent counsel and other investigators. 
So he wanted to know why you didn't ask for this capturing of 
those past e-mails as a priority for funding. But your 
explanation is you didn't even know anything about past e-mails 
not having been--not made available to all the investigators.
    Mr. Lyle. That's right. Those matters simply were not 
handled in the Office of Administration.
    Mr. Waxman. Now, Mr. Lyle, I want to ask you some questions 
about these several versions of talking points, some of which 
are dated February 24, 1999, which were produced to our 
committee. These documents are numbered E 4382-4406. Could you 
explain to us the purpose of these talking points, who were 
they for and why were they prepared?
    Mr. Lyle. Yes, sir. These are various drafts which you have 
marked in the book exhibit 132 it looks like through 134. These 
are draft documents that were prepared by the Office of the 
General Counsel and the Office of Administration in preparation 
for the director of the Office of Administration's testimony 
before our appropriators. It is various iterations, as you can 
see. It's for inclusion in materials that the director will 
review in preparation for his testimony.
    In this particular case, the director of the Office of 
Administration at this time was Mark Lindsay; and these drafts 
were simply put together by me and my staff to prepare him for 
that testimony. These are internal documents. They are not 
documents that are intended to be conveyed in their form to 
Congress. They are to impart information to the director as 
best we could anticipate in terms of what he would need to 
testify. So these are internal documents, and what you see are 
the various considerations that went through until a final 
version was submitted for Mr. Lindsay.
    [Exhibits 132 and 133 follow:]
    [GRAPHIC] [TIFF OMITTED] T9621.185
    
    [GRAPHIC] [TIFF OMITTED] T9621.186
    
    [GRAPHIC] [TIFF OMITTED] T9621.187
    
    [GRAPHIC] [TIFF OMITTED] T9621.188
    
    [GRAPHIC] [TIFF OMITTED] T9621.189
    
    [GRAPHIC] [TIFF OMITTED] T9621.190
    
    [GRAPHIC] [TIFF OMITTED] T9621.191
    
    [GRAPHIC] [TIFF OMITTED] T9621.192
    
    [GRAPHIC] [TIFF OMITTED] T9621.193
    
    [GRAPHIC] [TIFF OMITTED] T9621.194
    
    Mr. Waxman. These are talking points not for the Congress, 
not to be put into the public record at a hearing by the 
Congress but simply to inform Mr. Lindsay of the different 
issues when he goes before the appropriations committee and 
asks them to continue to fund for the next fiscal year the 
activities of the Office of Administration?
    Mr. Lyle. That's quite right. The focus, as you can see in 
reading these, is the appropriations before him at the time, 
the fiscal year 2000.
    Mr. Waxman. There are several different drafts of the 
talking points. Were you involved in drafting the talking 
points?
    Mr. Lyle. I have no memory of reviewing these at the time--
around this time that they were being drafted in the March--I'm 
sorry, in the February 1999, timeframe, but I have seen them 
since then in connection with producing documents here for this 
committee.
    Mr. Waxman. Do you have any personal knowledge of how the 
talking points were prepared?
    Mr. Lyle. No, I do not. I should say I know they were 
prepared by my staff, that they gathered information from a 
group of--a variety of materials that were provided by the 
Information Systems and Technology branch within the Office of 
Administration and that the information--the concepts and the 
bullet points that were provided focused, as you can see, on 
the capital improvement--capital investment program or plan and 
then also on the Y2K implementation which was the main thrust 
of where we were at that particular time.
    Mr. Waxman. Have you had any subsequent conversations with 
Office of Administration or OA personnel about the drafting of 
these talking points?
    Mr. Lyle. Subsequent to?
    Mr. Waxman. The time they were given to Mr. Lindsay.
    Mr. Lyle. The final draft would be the one that would be 
given to Mr. Lindsay. I was shown these in connection with a 
document production that was being done for this committee, and 
I had conversations with my staff in the context of those at 
that time.
    Mr. Waxman. One draft numbered E 4392 through E 4396 is 
labeled Kate's comments. Who is Kate?
    Mr. Lyle. That would be Catherine Anderson. We call her 
Kate.
    Mr. Waxman. Who is she?
    Mr. Lyle. She is an attorney in the Office of General 
Counsel in the Office of Administration.
    Mr. Waxman. This is a draft of the talking points that Ms. 
Anderson reviewed with her notations; is that correct?
    Mr. Lyle. Yes.
    Mr. Waxman. There's a bullet point referring to the Mail2 
reconstruction project in this draft that has been scribbled 
out by hand, and that same bullet point does not appear to be 
in what seems to be the final version of the document. Do you 
know why Ms. Anderson scribbled out the bullet point?
    Mr. Lyle. Based on my discussions with her, these--that 
particular issue was removed because the thrust of these--of 
this information and the thrust of the--the purpose for which 
it was being prepared was an appropriations hearing for fiscal 
year 2000, and the projects and the issues and the discussions 
in here were the capital improvement--I'm sorry, the capital 
investment plan for fiscal year 2000 and also the Y2K 
implementation issue which was an ongoing--it was--we needed to 
move into the year 2000. There was discussion of those current 
issues relative to the budget submission.
    The e-Mail2 reconstruction project was not relevant because 
it was not--the funds were not being sought for the e-Mail2 
reconstruction project in this appropriation, the subject of 
this material.
    Also, bear in mind, as I said earlier, this is being 
prepared for Mr. Lindsay, who is the director of the Office of 
Administration at the time; and he, as you all know, knew a 
great deal about the Mail2 reconstruction project.
    Mr. Waxman. Then let's pin it down even further. Did Ms. 
Anderson remove the Mail2 bullet as an attempt to prevent the 
Congress from finding out about the Mail2 problem?
    Mr. Lyle. Absolutely not.
    Mr. Waxman. In fact, returning to the point you made 
earlier, did you or Ms. Anderson view the Mail2 issue as a 
problem affecting the White House's ability to comply with 
document requests of subpoenas?
    Mr. Lyle. No, sir.
    Mr. Waxman. To your knowledge, the decision about whether 
or not to include the Mail2 bullet had nothing whatsoever to do 
with the issue of notifying Congress of problems of subpoena 
compliance?
    Mr. Lyle. No, it had nothing to do with that.
    Mr. Waxman. To sum up, Ms. Anderson did not think Mail2 
reconstruction was an issue for this particular appropriations 
hearing; and she further thought that, if the issue did come 
up, Mr. Lindsay was well equipped to respond as he had been the 
one who handled the Mail2 problem originally; is that right, 
Mr. Lyle?
    Mr. Lyle. That's right. Ms. Anderson is a very capable, 
hard-working lawyer, and that is exactly the reason that she 
was proceeding.
    Mr. Waxman. When you come in and ask for money, you could 
ask for everything you might possibly want funded, but you 
ultimately have to make some decisions on priorities. And this 
was not a priority at that time, to get funds to go back and 
examine the back-up tapes, as you saw it, for archival purposes 
and for no other reason.
    Mr. Lyle. That's right.
    Mr. Waxman. It's really not fair for people to come in and 
say you should have known the subpoenas were not being complied 
with because you had no knowledge of it.
    Mr. Lyle. That's exactly correct. We had no knowledge of 
the issues of subpoena, so we were making prioritizations based 
on the needs at the time, and the paramount concern was the Y2K 
issue. The other information technology types of projects that 
were non-Y2K needed to be deferred.
    Mr. Waxman. Could you imagine what this committee would do 
if your computers failed the Y2K because you were trying to get 
the archives ready for the future historians?
    Mr. Lyle. If our computer system had failed, I think this 
committee and I dare say a variety of other committees would 
have been very displeased with our--including my boss and my 
boss's boss all the way up in the White House, there would have 
been great displeasure; and, thankfully, we didn't have to face 
that.
    Mr. Waxman. I'm pleased that you've clarified this issue. 
Because it seemed like, with some of the other questions, were 
trying to confuse it; and so it's clear now what we're talking 
about, different issues. When they are all mixed together, you 
can try to paint a picture to fit in with preconceived notions, 
but if you look at the facts as they were, I now understand 
your position.
    Mr. Schiliro.
    Mr. Schiliro. Mr. Heissner, this is my last question. I 
just want to make sure we're completely clear on this point. 
Your only involvement in the e-mail reconstruction is as it 
pertains to the archival responsibilities?
    Mr. Heissner. Yes, sir, that's correct.
    Mr. Schiliro. It's not because you were asked to inform 
Congress and it's not because you were asked to comply with 
subpoenas and there was some information that wasn't provided?
    Mr. Heissner. That's correct, sir.
    Mr. Schiliro. Thank you, Mr. Heissner.
    Mr. Waxman. I'm going to--even though we have more time 
allotted to us in this period of questioning, I'm going to 
yield it back. I think Mr. Shays is probably waiting for his 
turn; and if there are other witnesses, we'll get our 
opportunity to go through it further. But I very much 
appreciate the testimony both of you have given. It has been a 
useful clarification.
    Mr. Barr [presiding]. The ranking member yields back the 
balance of his time. The chair recognizes the gentleman from 
Connecticut for 5 minutes.
    Mr. Shays. Thank you.
    Mr. Lyle, Mr. Heissner, concealing subpoenaed or requested 
information is a crime. And the bottom line is, in my judgment, 
the White House obstructed justice, and we're just trying to 
see who did it. So that's the challenge.
    I want to make sure that I understand your point, Mr. 
Heissner, that you clearly stated the problem as it existed. 
What does that mean? In response to Mr. Waxman, you clearly 
stated the problem as it existed. What was the problem as it 
existed and who did you state it to?
    Mr. Heissner. In the sense of which the question was asked, 
I believe it refers to the Mail2 server failure.
    Mr. Shays. Let's start with that. How did you clearly state 
the problem?
    Mr. Heissner. How do I clearly state the problem?
    Mr. Shays. Yes. You told somebody.
    Mr. Heissner. There was documentation of which I described 
the problem.
    Mr. Shays. And that there were--in the Mail2 problem, there 
were 246,000 potential e-mails that were not discovered in the 
site. That's exhibit 1. That's what we learned from Northrop, 
and that's what you learned from Northrop on June 18.
    [Exhibit 1 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.195
    
    Mr. Heissner. No, I have never seen this before. I'm sorry. 
But what is the question, sir?
    Mr. Shays. You've never seen the document from Northrop 
that talked about the different--all the different people that 
potentially had e-mails that might be relevant to the 
impeachment hearings, relevant to this committee, relevant to 
Mr. Starr? You----
    Mr. Zwerling. We may have a problem, Congressman, because 
document----
    Mr. Shays. Exhibit 162. It's exhibit 1 on mine. I'm sorry--
exhibit 63. I'm going to need another 5 minutes when we're done 
here if we're spending all the time looking here.
    Why is this such a mystery to you?
    [Exhibit 63 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.196
    
    [GRAPHIC] [TIFF OMITTED] T9621.197
    
    [GRAPHIC] [TIFF OMITTED] T9621.198
    
    [GRAPHIC] [TIFF OMITTED] T9621.199
    
    [GRAPHIC] [TIFF OMITTED] T9621.200
    
    [GRAPHIC] [TIFF OMITTED] T9621.201
    
    [GRAPHIC] [TIFF OMITTED] T9621.202
    
    [GRAPHIC] [TIFF OMITTED] T9621.203
    
    Mr. Zwerling. We were not provided any documents prior to 
the hearing even though we were requested----
    Mr. Shays. These are White House documents.
    Mr. Zwerling. But this witness has not seen these documents 
in preparation for the hearing is what I'm telling you. That's 
why he needs to read it now.
    Mr. Barr. The answers to the question now would come from 
the witness. We would appreciate it, please. That's in keeping 
with standard procedure.
    Mr. Heissner. As I'm looking at this document, it looks 
like it's a record of processing of updates.
    Mr. Shays. Isn't this a document that describes the 
potential e-mails that were not captured, potential 
communications that weren't captured?
    Mr. Heissner. From the document--as I see it now, I don't 
see anything that indicates that these were individuals whose 
e-mail wasn't captured. I see----
    Mr. Shays. This was done on June 18th. Wasn't this part of 
the test?
    Mr. Heissner. I was not familiar with the test, and I 
didn't participate in this. My involvement began in late 1998, 
sir.
    Mr. Shays. After this was done. And why is that? Why did 
your involvement happen then?
    Mr. Heissner. Well----
    Mr. Shays. In other words, how can you tell me that you 
forwarded on the extent of the problem, you clearly stated--
clearly state the problem as it existed? It sounds to me like 
you didn't know how the problem had existed. I mean, is that 
your testimony?
    Mr. Heissner. I had been asked to provide a summary of the 
events to the then director, to get her updated. I went and 
inquired from some of my colleagues----
    Mr. Shays. Can you put the mic a little closer to you?
    Mr. Heissner. I then inquired from Northrop Grumman staff 
and other technical people to obtain a description of the 
problem as it was understood at the time and then provided that 
information in a memorandum to Mrs. Cleal.
    Mr. Shays. And is it your testimony that you weren't aware 
that there were hundreds of thousands of potential e-mails that 
had not been captured?
    Mr. Heissner. My understanding was that there were somewhat 
over 400 accounts whose information relating to the server--the 
mail server that would contain that mail had not been encoded 
properly. It was an upper lower case problem. That's what I 
understood. How many e-mails there were I was not aware of and 
I didn't know. I had no knowledge of that.
    Mr. Shays. You had no knowledge. So really what you're 
telling us is all the information you provided was almost 
irrelevant because Northrop had known and the White House had 
known, others in the White House had known since June 18th that 
there were thousands of e-mails that hadn't been captured.
    Mr. Heissner. There are two numbers we are looking at. 
There's a number of accounts affected and a number of messages. 
The number of messages was not known. The number was accounts 
was an estimate given to me by Northrop Grumman staff.
    Mr. Shays. OK. Now, under Carole Lieber at the top of the 
first page, the handwritten note talks about the number 
rejected by ARMS.
    Mr. Barr. If I might interrupt, the gentleman's time has 
expired. We'll go to the other side and then come back to the 
gentleman from Connecticut.
    Mr. Shays. Fine.
    Mr. Barr. The gentleman is recognized for 5 minutes.
    Mr. Kanjorski. Let me straighten out again. Your job was to 
find out what was wrong and to try and correct it for archival 
purposes, is that correct?
    Mr. Heissner. That's correct. My job was to find out what 
was not working and to find out what could be done to make the 
corrections.
    Mr. Kanjorski. And so for purposes of subpoenas, whether 
they be by special counsel or any committee of Congress, that 
was of no significance to you; and, therefore, the numbers of 
e-mails lost was of no significance to you. It was to find and 
identify what the problem was and how it could be 
reconstructed?
    Mr. Heissner. That's correct, sir. The focus was on making 
sure that the back-up tapes were being maintained, they were 
not being recycled and that the data could be reconstructed.
    Mr. Kanjorski. Probably the general public watching this 
hearing are not as familiar with as complicated a computer 
system as exists at the White House. But do you have over the 
years an experience that it's a perfect system that works all 
the time or is it not unusual that a computer system crashes?
    Mr. Heissner. Well, I guess that's a truism that to fail is 
human but to really foul things up takes a computer, sir.
    Mr. Kanjorski. All right. I would like the record to 
reflect, Mr. Chairman, that in my congressional office here in 
the House in the last 7 weeks my computer system has crashed 
about seven times; and I would be hard pressed to identify what 
materials have been lost because we're reconstructing what was 
on that. That is not unusual, is it? The computer contractors 
for the House of Representatives tells me that happens all the 
time. Maybe my friends on the other side can tell me their 
computers are absolutely perfect and have never crashed and 
therefore they have never lost any material, but then I would 
tend to think there probably was a conspiracy in the House at 
least to have this happen.
    This was just an occurrence of the weakness of our reliance 
on a computer to receive and assemble material, hold material, 
etc., is that correct?
    Mr. Heissner. That's correct sir.
    Mr. Kanjorski. And your job was not to assemble information 
or evidence for anyone. It was merely for archival purposes to 
get this problem straightened out as best you can and to do 
that in a prioritized basis, 2000 issue being the most 
important, is that correct?
    Mr. Heissner. That's correct, sir.
    Mr. Kanjorski. Thank you, Mr. Chairman.
    Mr. Barr. Mr. Heissner, Mr. Lyle, you're both aware of the 
fact, I presume, that the White House computer system is not 
just any computer system. Is that correct?
    Mr. Heissner. Correct.
    Mr. Barr. There are special laws that pertain to the White 
House computer system as the computer system that is officially 
designed to and required by law to maintain communications, 
data, records and so forth of the executive branch; therefore, 
very special laws apply to the retention of that information 
and to ensure its integrity that might not apply to other 
computer systems such as the gentleman alluded to. Is that 
correct?
    Mr. Heissner. That's correct sir.
    Mr. Barr. That's your understanding, too, I presume, Mr. 
Lyle?
    Mr. Lyle. There are rules, Federal Records Act, 
Presidential Records Act, Armstrong, those types of rules apply 
to data on--at least on the Executive Office of the President 
systems.
    Mr. Barr. If somebody tried to imply that what we're 
looking at here is irrelevant simply because some other 
computer systems somewhere, sometime break down or don't 
maintain records properly and therefore that's an excuse for 
what we've seen happen here. That would certainly not be an 
accurate or legal interpretation or implication, would it?
    Mr. Lyle. Are you referring to Mr.--Congressman Kanjorski's 
statements?
    Mr. Barr. Certainly not.
    Mr. Lyle. I don't know that--what other--whatever happens 
to other systems. I focus on the Executive Office of the 
President.
    Mr. Barr. You understand that there are very special laws 
and regulations that apply to that and make it very different 
from other systems.
    Mr. Lyle. The rule----
    Mr. Barr. There are legal obligations that relate to the 
White House computer system, records retention system, that 
don't apply to any other systems, isn't that correct?
    Mr. Lyle. I know that we, the Executive Office of the 
President, are subject to the Federal Records Act, the 
Presidential Records Act and related cases, including the 
Armstrong case. What goes on for other agencies or other 
branches of government I'm not in a position to comment on, 
sir.
    Mr. Barr. Nor is it relevant, is it?
    Mr. Lyle. I have no idea, because I have no idea what the 
rules are.
    Mr. Barr. Which would mean it would not be relevant for 
these proceedings here today.
    Mr. Lyle. I have no way to say one way or another. I have 
no basis to state.
    Mr. Barr. Well, I suspect you do, because you just cited to 
me special laws that relate to the White House records system.
    Mr. Lyle. I understand that they apply to our systems. The 
applicability of those rules and what other cases are 
applicable to other systems I have no idea.
    Mr. Barr. Which makes them irrelevant for our process here 
today. All I'm saying is they really have no relevance. If 
somebody tries to say that inquiring--inquiries by the Congress 
into lapses into the records management system and retention 
system at the White House are inconsequential because these 
sorts of things might happen to other systems really is not 
relevant because of the special laws that apply and the 
requirements apply to the--I'm not asking a question. I'm 
making a statement. So you don't have to worry about it for 
purposes of our inquiry here today. I think you understand 
that, and I think Mr. Heissner understands that, too.
    Mr. Kanjorski. Would the gentleman yield?
    Mr. Barr. I'll be happy to yield.
    Mr. Kanjorski. If I may, I happened to have the occasion to 
be in the White House the third day after the inauguration of 
President Clinton, and I recall something that was astounding 
to me, and that is that every computer that I saw in every 
office of the White House was gutted under court order. It had 
a sticker on it, and all the insides and all the materials were 
taken. And had back-up systems or computers existed in the 
White House the third day that this administration took 
office--I would ask the question, how could you possibly 
reconstruct what happened archivally for those 3 or 4 days or 2 
weeks before an entirely new system was implemented in the 
White House?
    Mr. Heissner. I think we are dealing with two kinds of 
systems. The desk top computers that individuals use use two 
kinds of storage, use storage that resides on that machine's 
hard drive, and they also use network storage. The e-mail 
systems are more centralized systems. And so anyone that can--
that has an account can access e-mail.
    And I think at that time it was not--it wasn't Lotus Notes. 
It was another system. All In One I believe it was called. 
Anybody that could connect with All In One from any terminal 
had an account, could send e-mail. However, any records that 
they would have created during those first 3 days were then 
removed because the hard drives were removed from their system, 
could not be reconstructed, no.
    Mr. Kanjorski. So, in fact, to the laws that Mr. Barr 
refers to about this tremendous obligation that the executive 
branch has to keep records, we know for a fact--and I think you 
are aware of the fact--that the computer materials were 
extracted from the White House at the end of the Bush 
administration and didn't exist for several weeks. Then all 
those archival records are basically lost, is that correct?
    Mr. Heissner. That's very likely true, sir.
    Mr. Barr. If you all feel comfortable operating on that 
basis, you all feel free to. I think you'll find real problems 
if you rely on that sort of legal reasoning.
    The gentleman from Connecticut is recognized for 5 minutes.
    Mr. Shays. Mr. Heissner, I made some assumptions that, 
given this was your area, you would have been aware of this 
document. And I really apologize, but that itself is news to me 
and news to the committee. This is a document--this is exhibit 
62 which you have in front of you. This is the document that 
was supplied by Northrop and prepared by Bob Haas. Do you know 
Bob Haas?
    Mr. Heissner. Yes, I do, sir.
    Mr. Shays. It's your testimony you have never seen this 
document before.
    Mr. Heissner. That's correct, sir.
    Mr. Shays. OK. Wouldn't it have made sense for you to see 
this document?
    Let me just clarify one point, because I think it's 
important for you to know that--look under the first person, 
Carole Lieber. And it says in writing 5. These are rejected e-
mails. It gives the number--each one of those numbers and the 
numbers of rejected e-mails--209, 441, 647. I mean, I accept 
the fact under oath you haven't seen this document. I think 
it's astounding. We added them all up. There are over 246,000.
    Mr. Heissner. I've sent--I've never seen the document 
before. This happened before I became involved in this process.
    Mr. Shays. But the point is, you then wanted to recapture 
and provide some meaningful information to somebody, and it's 
almost like you were set up. Like you were providing 
information to someone else and you weren't being provided all 
the information, which I think is curious. And again with my 
suspicious mind, given all that's transpired in the past, I 
think it was purposeful, but we'll probably never be able to 
prove it. 246,000 e-mails that weren't captured just under the 
Mail2 problem, not to mention the letter D problem and the Vice 
President problem. The Vice President used a different system, 
so we don't have his.
    So you go with 246,000, and then you say those are the all 
incoming e-mails not in ARMS, and then we subtract the e-mails 
found in individual PCs, then we subtract the e-mails found 
attached to sent e-mails with history, then we subtract the e-
mails found in printed files, then we subtract the e-mails 
retrieved from back-up tapes. And then what you do is you take 
the--you subtract--all these undisclosed e-mails, these 
246,000, you then subtract the not relevant and then you get 
the subpoenaed, not produced. And right now we have potentially 
a lot of subpoenaed, not produced.
    Now, Mr. Lyle, because you've wanted us to believe that 
somehow the fact that you have the Y2K problem that they are 
mutually exclusive and that this problem can't be dealt with, 
that you can't hire someone else to deal with it, that you 
can't ask Congress to provide more information, that you can't 
say to Congress, you know, we have a Y2K problem but, by the 
way, we can't find 246,000 e-mails and let Congress know about 
it.
    And what really amazes me is that, even if you made a 
decision on your own and others, maybe not you, not to abide by 
the law to hand over all subpoenaed or requested information--
let me make this point, and I'll let you respond--you and 
others chose not to, at least publicly, explain that there were 
240,000 e-mails that we hadn't yet found. And I suspect and in 
my suspicious mind that it might have something to do with 
impeachment.
    And, by the way, I voted against impeaching the President. 
But I suspect it might have been because of that and because 
you simply didn't want the story to come out. What else am I to 
expect? Because nothing prevents the White House from 
explaining to all the relevant jurisdictions that we had this 
problem.
    Mr. Lyle. Mr. Shays, as I've said previously, I'm aware of 
no effort by anyone not to be responsive to your request for 
information. I certainly was not, and I'm aware of no one who 
was. The information exchange between this committee and the 
White House counsel's office is something I simply do not know. 
I have no knowledge of whatsoever. I cannot--I cannot tell you.
    Mr. Shays. So you didn't know there were any e-mails 
missing?
    Mr. Lyle. I did not know one way or another what 
information you had sought.
    Mr. Shays. That's not the issue. The issue is--let's just 
go through the way your mind thinks. You didn't know there were 
any e-mails missing from the ARMS.
    Mr. Lyle. I'm not saying----
    Mr. Shays. No, no. Just tell me yes or no. Did you know?
    Mr. Lyle. I am not saying that I was not aware that e-mails 
were not captured on the Automated Records Management System. I 
want to be clear on that. I am not saying that. What I am 
saying is that the information about those anomalies was not 
information that I was charged with or anyone on my staff was 
charged with providing to the committee. Those matters were 
just the--all the Office of Administration was was a conduit of 
information to the appropriate people.
    Mr. Shays. Should I be surprised that implicitly you're 
telling me you didn't know we were subpoenaing information--we, 
the Judiciary Committee, the Government Reform Committee, Mr. 
Starr's investigation? You weren't aware that any--there 
weren't subpoenas out there to look at e-mails?
    Mr. Lyle. Remember, I joined the Office of the President in 
November 1998.
    Mr. Shays. November 1998.
    Mr. Lyle. I have never seen any of the subpoenas that----
    Mr. Shays. Where did you live before you--you are--weren't 
aware--were you aware there was an impeachment?
    Mr. Lyle. I'm not saying I wasn't aware that there was an 
impeachment. I'm saying that I wasn't aware of the subpoenas or 
the information in terms of what was being sought and what was 
being provided. It simply was not a function that was within 
the Office of the Administration.
    Mr. Shays. I understand you're saying it's not your line of 
responsibility. I just want to understand you. I want to 
understand the mentality of the people who worked in the White 
House. I want to understand why we didn't learn about this 
problem until 2 years after, basically. And it's just helpful 
to know because, ultimately, somebody knows. It's like--it's--
really, it's the same kind of problem I had when I just want to 
know who hired Craig Livingstone. Craig Livingstone didn't know 
who hired him, and nobody else knew. He just happened to work 
at the White House. I think almost any American knew there were 
hearings on the President and knew that information was being 
subpoenaed.
    Mr. Lyle. I didn't say that I didn't know there were 
hearings, and I didn't say I didn't know information was being 
sought. And that was being provided. What I'm saying is I don't 
know what that was. I don't know--I never saw the subpoenas.
    Mr. Shays. Were you ever--I'm sorry.
    Mr. Lyle. I had no idea as far as the communications 
between this committee and the White House counsel's office. I 
wasn't in the White House counsel's office, never have been. I 
was in the Office of Administration, which is a different--it's 
actually housed in a completely different building.
    Mr. Shays. Were you aware of the problem? You were aware 
that there was a problem that there were these missing e-mails.
    Mr. Lyle. As I said earlier, I learned of the Mail2 
anomaly.
    Mr. Shays. What did it matter that there were missing e-
mails? What did your mind say? So there are missing e-mails. 
You thought, well, big deal, there's missing e-mails. Nobody 
wanted any of them? What was in your mind?
    Mr. Lyle. In April 1999, when I learned about the e-Mail2 
anomalies, I was learning about it in connection with the 
letter D anomaly which I've discussed. And in the context of 
those discussions, we--a number of things had to happen. Look, 
OK, what do we do about the anomaly? What do we do? The e-Mail2 
was a guide. We need to do a couple of things. We needed to do 
a couple of things. We need to make sure we've got the data on 
the back-up tapes, which we did assure ourselves of. So that 
information was put, and it was secured, it is tucked away now 
under lock and key on the back-up tapes. It's all there. So the 
Federal Records Act, the Presidential Records Act, all those--
the laws that Mr. Barr was asking me about, you've got the 
back-up tapes so that you can have them for archival purposes.
    The other thing that needed to be done is, OK, we need to 
advise White House counsel's office.
    Mr. Shays. Let me just say----
    Mr. Lyle. What we needed to do was advise White House 
counsel's office of the issue. Mr. Lindsay had previously 
handled the e-Mail2 anomaly. He had communications with the 
White House counsel's office. So those two components were the 
things that were going on. So we had elevated it----
    Mr. Burton [presiding]. Mr. Shays, let me interrupt 
briefly. I yield to Mr. Kanjorski. Then I'll give you my time.
    Mr. Shays. I'm happy. I'm going to very patient, but I will 
take a little more time.
    Mr. Lyle. I'm happy to answer your questions.
    Mr. Burton. Mr. Kanjorski, you have questions?
    Mr. Kanjorski. If I may, on this document maybe I could ask 
counsel for the committee to explain, is the number of e-mails 
missing on the extreme left hand column of the page? Is that 
the number or is it the number under the name?
    Mr. Burton. It's the number under the name. The counsel 
would be happy to explain if you choose.
    Mr. Kanjorski. What's the number on the left hand corner?
    Mr. Burton. Let me put the counsel----
    Mr. Wilson. Our understanding--the test was conducted by 
Mr. Haas, and he determined two things. First of all, all the 
individuals who were then employed who were served by the Mail2 
server--so these are all the individuals whose accounts were 
affected by this computer problem, by the e-mail problem. So he 
printed out a master list of all of the individuals who were 
affected by the problem.
    And then he determined two types of information. One, the 
number of e-mails that were then on their system. So on that 
particular day, June 18, 1998, for example, Carole Lieber, 
there were 158 e-mails on her system that, you know, many could 
have been erased the previous month or week, but on that 
particular day there were 158. Of those 158, 5 e-mails had not 
been captured by the ARMS system.
    So the first column represents the total number of e-mails 
that were on the person's system at that particular time. The 
second column indicates the number of e-mails that were not 
captured by the ARMS system. The total number of that second 
column is slightly over 246,000.
    Mr. Kanjorski. If you would go through the entire document 
and total it up, the second column, 246,000.
    Mr. Wilson. Yes, sir.
    Mr. Kanjorski. OK. Now that you're looking at that document 
down there, it strikes me I've just gone through this in a 
cursory manner, but I see some of the most important people in 
the White House--the chief of staff and the President's 
assistants--they get very few e-mails, and very few were lost. 
Do you notice that? If you go to Erskine Bowles, page 00309. Is 
that correct? Yes. He--that day only--he had 1,108 e-mails and 
161 were lost, about 10 percent or 15 percent.
    Mr. Kanjorski. Counsel has just explained to me that all of 
these are retrievable, is that correct? Erskine Bowles, 161 
were lost. He had 1,108 on his computer that day.
    Mr. Heissner. Yes, the purpose of the reconstruction design 
of the system design is to design a system that allows the 
retrieval of these managed records subject to the ability to 
read the tapes on which the back-ups were created and the 
presence of those tapes.
    Mr. Kanjorski. And you have the tapes.
    Mr. Heissner. We maintained--when the problem was 
discovered, the directions were given to Northrop Grumman to 
retain all the tapes. This is sort of the three blind men and 
the elephant kind of a problem, because as you ask different 
people you get different answers. It appears, but nobody can 
tell for certain, there was a short time period somewhere 
between 1996 and 1998 where these back-up tapes were, after 
being recycled, which means after the tape had been created and 
had been maintained for maybe 4 weeks or 6 weeks or whatever 
the retention period was, that same type was used again.
    That practice was stopped as soon as Northrop Grumman 
became aware there was a serious problem. So I cannot say for 
certainty that everything that ever went on a Mail2 server that 
was an e-mail message can be recovered. But to the extent that 
the tapes exist and they can be read and we believe we stopped 
the bleeding, which--we corrected the problem. We also made 
every effort to make sure that the tapes--the back-up tapes 
were created, were kept. To that extent, these records that 
appear here should be recoverable.
    Mr. Kanjorski. And at some point we're going to be able to 
have them and you're working on reconstructing them now, is 
that correct.
    Mr. Heissner. That's correct. And the objective is to 
recover them.
    Mr. Kanjorski. So these hours we're spending here, we're 
eventually going to be able to read these things.
    Mr. Heissner. That's correct, sir.
    Mr. Kanjorski. Maybe I think we have too much time. We 
don't have anything to do in the Congress. We're going to 
rehash this because we can't wait or we're trying to find out 
why they aren't here. I'm not sure I understand the thrust of 
the issue at this point where we're beating you three gentlemen 
to death over something that is going to be reproduced. It 
wasn't your responsibility. You weren't involved in subpoenas. 
You're technical people. You're doing the best you can to 
reconstruct.
    Mr. Burton. The gentleman's time has expired.
    Perhaps I can shed just a little bit of light on it.
    Subpoenas were issued by the Congress, a number of 
committees and the independent counsels asking for all 
documents that may be relevant to these various investigations. 
These e-mails were part of the subpoenaed material. From 
September 1996 through 1998 we don't have them, and we think 
that they may be very relevant to what we were looking into, 
and that's why this whole issue is so important.
    Mr. Kanjorski. I agree with the President, Mr. Chairman. We 
ought to find out what happened to those 10 pounds he lost.
    Mr. Burton. Let me just ask one question, then I will yield 
to Mr. Shays, and that is go back to exhibit 134, and that's 
Mr. Lyle, that's the document where the Mail2 reconstruction 
was crossed off, and that was not put on the final draft. It 
was prepared for the Appropriations Committee, and you said it 
was because of the Y2K problem that you had so much--you had to 
focus so much attention on that, and the e-mail problem was not 
that significant importance at that time, so you didn't pursue 
it. I would just like to ask you this question: At the same 
time the White House was installing Palm Pilots for the White 
House staff, they were creating new fax cover sheets for the 
White House staff, and they were working on the White House 
Christmas card list. Now, that was going on, and you thought 
that was important enough to pursue it. But the e-mails that 
were important, relevant to all of these subpoenas and these 
investigations, wasn't as important as the Y2K. Can you explain 
the difference there in the priorities?
    Mr. Lyle. The--my understanding is that the system that you 
talk about, the Christmas card system----
    Mr. Burton. Well, and the other two, yeah.
    Mr. Lyle. The other two are the day-to-day operations that 
our staff was doing. Those were ongoing. I mean, you still had 
to service customers, you still had to provide service. You had 
to fix their systems.
    Mr. Burton. The Palm Pilots and all that.
    Mr. Lyle. Those are customer service types of things. Those 
are always ongoing. You have to do that. So those were projects 
that were ongoing.
    Mr. Burton. And the fax cover sheets for the White House 
staff?
    Mr. Lyle. Well, again, those are ongoing customer service 
initiatives. We have to have a day-to-day operation capability 
that allows people to do their jobs, which would include----
    Mr. Burton. Why wouldn't subpoena compliance be ongoing? I 
mean, it seems to me that would be pretty important, subpoena 
compliance. Why wouldn't that be ongoing? I mean, if the fax 
cover sheets and the Palm Pilots were important, why weren't 
the subpoenas an ongoing----
    Mr. Lyle. Subpoenas, responses to subpoenas are always 
done, and we do respond to subpoenas. We've gotten subpoenas 
from this committee. We've gotten subpoenas from the Office of 
Independent Counsel since I've been there. We respond to those 
accordingly in the same process that I've described in my prior 
testimony.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Mr. Lyle, I'm a little confused, and I apologize 
if it's my fault. I realize, Mr. Heissner, you are a career 
employee of many years and serve with distinction, so this is a 
real unusual circumstance for you to be before the committee, 
but I think you understand the challenge. I mean, the challenge 
is that information was subpoenaed by Starr's investigation, by 
this committee, by the Judiciary Committee, and for 2 years, 
from basically September 1996 to November 1998, the problem 
existed, but people in the White House, and we just need to 
know who, knew the extent of the problem, knew on June 18th. 
But you didn't know the extent of the problem because for one 
thing you were never supplied the document that described how 
there were 246,000. And that's telling, because, you know, this 
is an area that you should have been.
    And then it strikes me you were asked in the fall later in 
that year of 1998 to describe the problem to others, and you 
were not given all the relevant information. Am I off track a 
little bit? I mean, were you given all the relevant 
information----
    Mr. Heissner. The----
    Mr. Shays [continuing]. To know the extent of the problem?
    Mr. Heissner. The collection of the information involved 
the discussions with other technical staff to get an overview 
of the problem and to get an order of magnitude of the problem, 
and it is very likely that I was not given full details to the 
infinite degree.
    Mr. Shays. Your testimony says that you weren't given this 
document that was provided by Bob Haas of Northrop to someone; 
you were not given--and it was provided on June 18th, 1998--you 
were not given that document, and this document shows 246,000 
e-mails that weren't captured just under the Mail2 problem. And 
you did not have that document.
    Mr. Heissner. No I did not have that document.
    Mr. Shays. You did not have that document, when you then 
tried to clearly state the problem as it existed in the fall of 
1998, you did not have this document to refer to.
    Mr. Heissner. That's correct, sir.
    Mr. Shays. I don't know whose clock this is now, whose time 
that is. Is that my time now?
    Mr. Burton. You and Mr. Barr are both next.
    Mr. Barr, do you want to go next?
    Mr. Shays, you have 5 minutes. That was my time.
    Mr. Shays. Thank you for your time, Mr. Chairman.
    Mr. Lyle, what I'm trying to wrestle with in your 
explanation is you just proceeded to say that you have provided 
subpoenaed information to various committees at request. Is 
part of your responsibility to provide subpoenaed information?
    Mr. Lyle. It's part of everybody's responsibility to 
provide information responsive to subpoenas.
    Mr. Shays. Let me just say the problem is, with everybody, 
when everybody is responsible, nobody is. So I need a little 
more accuracy. When is it your responsibility?
    Mr. Lyle. When a request for information is received, and 
information internally needs to be provided to the White House 
counsel's office, a notification is sent throughout the 
Executive Office of the President complex for individuals to 
search their files----
    Mr. Shays. OK.
    Mr. Lyle [continuing]. And their files and materials, and 
then, in a fashion just like what Mr. Heissner described, 
submit that up the chain to make it to the White House 
counsel's office for them to review.
    Mr. Shays. So your information was only to provide the 
information you personally had or in your capacity as the 
director of the Executive Office of the President's Office of 
Administration, you would have a more expanded task to make 
sure others complied with subpoenas.
    Mr. Lyle. When it comes into the Executive Office of the 
President into the Office of Administration, it goes in through 
the General Counsel's Office, who sees to it that everyone 
responds back. It's all gathered up, and certification is sent 
up to the counsel's office wherein they----
    Mr. Shays. But what I'm trying to clarify is when you get 
requests, it's not just for your own specific e-mail, but it 
can be other e-mails that are in your system.
    Mr. Lyle. It's whatever is under my control.
    Mr. Shays. Right. Under your control. Which could include a 
number of the people on this list, correct?
    Mr. Lyle. I don't know.
    Mr. Shays. I mean, just some of them, let's just say Ira 
Magaziner, if there was a request for Ira Magaziner 
information, they might make that request to you to provide 
information that would be in your system.
    Mr. Lyle. What information is sought in the notification 
that we receive in the first instance is what we endeavor--what 
each person is required to endeavor to respond to.
    Mr. Shays. Mr. Lyle, could you look at this exhibit 62 and 
just tell me if you have ever seen it?
    Mr. Lyle. I have looked at it, and I don't believe I've 
seen this before.
    Mr. Shays. You don't believe it, or you haven't seen it?
    Mr. Lyle. I don't believe I've seen it.
    Mr. Shays. So it's a pretty strong statement that you 
haven't seen it to the best of your knowledge.
    Mr. Lyle. That's right, to the best of my knowledge I 
haven't seen it this was in June 1998.
    Mr. Shays. This includes 246,000 e-mails that slipped 
through, and they were different personnel. Ira Magaziner, 
Betty Currie, Bill Clinton, the list--Bruce Lindsey. Now, would 
you have heard some of these names come through you as 
requested subpoenaed information?
    Mr. Lyle. I don't recall what I've responded to in terms of 
subpoenas.
    Mr. Shays. But lots of names of people, certainly more than 
just a handful.
    Mr. Lyle. The subpoenas that I responded to could include 
both names and, you know, types of topics.
    Mr. Shays. But lots of names, correct?
    Mr. Lyle. I don't know.
    Mr. Shays. Lots of e-mails.
    Mr. Lyle. I'm sorry?
    Mr. Shays. You were requested to turn over e-mails, right, 
that were in your system?
    Mr. Lyle. Well, there again, there's a couple of ways that 
you proceed. Again, there's the automated records management 
search portion of the request which is coordinated by the 
counsel's office, and then, yes, you search your files, your e-
mails, you search your hard copies, you search what's in your 
office.
    Mr. Shays. But you had the central file system, correct? I 
mean, you have the names of a lot of people in your system.
    Mr. Lyle. In our Automated Records Management System, yes. 
In the ARMS, there's a good number of people in the ARMS 
system.
    Mr. Shays. I'm just trying to get beyond the point of your 
own little individual computer. You were in charge of the 
system.
    Mr. Lyle. No, I think I understand what you're trying to 
get. Each person searches their space or their office or their 
documents that are in their--and then a request is submitted 
for an automated records management search to be done. That 
request is generated out of the counsel's office.
    Mr. Shays. To you.
    Mr. Lyle. No, not to me. It goes right into the IT people, 
information technology people, in the Automated Records 
Management System.
    Mr. Shays. But it's fair for me to assume that you were 
aware, because the White House kept, frankly, criticizing so 
many committees in Congress that we were requesting too much 
information on lots of different names. So, I mean, you weren't 
in the Dark Ages on that. I mean, you must have heard 
complaints about all the e-mails that we wanted and all the 
records we wanted about so many different people.
    Mr. Lyle. That's something that Mr. Heissner touched on 
earlier in this hearing.
    Mr. Shays. So you were aware of it.
    Mr. Lyle. Yes.
    Mr. Shays. So what I'm trying to establish is what you were 
aware of and what you weren't. So you knew that Congress was 
looking at a lot of different people that worked in the White 
House and wanted a lot of different records, and that's one of 
your points, too, it was a costly effort to comply with that.
    Mr. Lyle. Yes, it was costly.
    Mr. Shays. Besides having to fix the problem. But you 
weren't in the Dark Ages about that. I feel better about 
knowing that. But what I don't feel good about is that you 
would then make an assumption that I think is--blows my mind 
that some of these e-mails would not have been subpoenaed e-
mails.
    Mr. Lyle. Some of which e-mails?
    Mr. Shays. Some of these lost e-mails.
    Mr. Lyle. I don't know what's on the backup tapes. I don't 
know what was sought in the subpoenas. I have no basis to know.
    Mr. Shays. You have a little basis. You have a basis that 
to correct the problem is going to cost about $600,000, that 
that was a big job and involved a lot of people. And what I'm 
hearing you say is that notwithstanding, you made an assumption 
that this didn't involve any subpoenaed records.
    Mr. Lyle. No, I did not make an assumption. Two points. 
First, the reconstruction is not going to cost $600,000, it's 
going to cost $8 to $10 million. The----
    Mr. Shays. OK. I'm just going on the memos that you 
provided.
    Mr. Lyle. That was an earlier statement of work that you're 
referring to, and that was just a cost for an assessment on how 
to fix it.
    Mr. Shays. OK. So the problem is even bigger and involved a 
lot more people.
    Mr. Lyle. It's going to take a long time and cost a lot of 
money. We are working as quickly as we can.
    Mr. Shays. I understand. Trust me on that.
    Mr. Lyle. That's the other portion. With respect to the 
subpoena issue that you keep asking about, when I was briefed 
in April 1999 about the Letter D problem, we were discussing in 
that meeting, OK, what has to happen and the subpoena problem.
    Mr. Shays. You didn't know about the Mail2 problem then?
    Mr. Lyle. As I said, my most--my best recollection is that 
I learned what I know most about the e-Mail2 project in the 
April 1999 meeting. And it was because it was--it served as a 
historical framework as far as how to deal with this letter D 
issue. And during the course of those conversations, Mr. 
Lindsey, who I worked for and who was my predecessor, had 
explained the process in terms of, listen, we need to notify 
the counsel's office, which is exactly what took place.
    Mr. Shays. Why would we need to notify the counsel's 
office?
    Mr. Lyle. Because you had this anomaly.
    Mr. Shays. Why would the counsel's office have to be 
notified at all?
    Mr. Lyle. Because Counsel's Office was responsible for 
responding to subpoenas.
    Mr. Shays. So you did know there was a subpoena problem.
    Mr. Lyle. I did not know--the e-Mail2 subpoena problem, as 
I understood it based on my conversations, had been resolved 
prior by Mr. Lindsey and Mr. Ruff. The letter D e-mail problem 
was a new issue that had just come up. It just occurred. It was 
discovered in April 1999. The same notification had to take 
place, and Mr. Lindsey worked to make sure that that happened. 
On Office of Administration's side what we needed to do is be 
sure that we had all the data on the backup tapes for the 
compliance with the other Federal Records Act.
    Mr. Shays. Can I make a request, Mr. Chairman? This is the 
last line of questioning. I would like more time afterwards.
    Mr. Burton. We'll come back then. Let me just followup and 
ask one quick question. When did the White House go to--before 
the Appropriations Committee for the year 2000 budget?
    Mr. Lyle. When did we go?
    Mr. Burton. Yeah. What month was that?
    Mr. Lyle. I don't remember. It was in early 1999.
    Mr. Burton. It was in April, May, June?
    Mr. Lyle. I believe it was in the February/March timeframe, 
somewhere in there. I would have to look.
    Mr. Burton. But you knew about the second e-mail problem, 
and you said that you were----
    Mr. Lyle. I learned about that in April 1999.
    Mr. Burton. Kicking it up to Mr. Lindsey because you knew 
that there was a subpoena, and that had to be given to him, he 
had to be aware of that.
    Mr. Lyle. I didn't know about a particular subpoena.
    Mr. Burton. You knew there were subpoenas pertaining--you 
knew about the previous subpoena on the previous e-mail 
problem.
    Mr. Lyle. Certainly.
    Mr. Burton. You didn't connect the two?
    Mr. Lyle. I'm sorry?
    Mr. Burton. You didn't connect the two, that the subpoena 
was relevant to the second missing e-mails as well?
    Mr. Lyle. I didn't say that. I said in the context of 
discussing in the April 1999 meeting, we were discussing the 
letter D issue, we needed to make sure that information about 
that anomaly was conveyed to counsel's office because----
    Mr. Burton. I understand. But during this entire timeframe, 
you were crossing out or they were crossing out information 
that was going to be conveyed in the final document to the 
Appropriations Committee about the need for funds for the 
missing e-mails, and I just can't understand how you could miss 
all this when you were kicking things up to Mr. Lindsey, who 
was kicking them up to--to the chief counsel's office at the 
White House.
    Mr. Lyle. As I said, Mr. Burton, I have no recollection of 
having seen these drafts in the February timeframe. I told you 
that earlier. I learned of them more recently when we were 
producing documents for this committee.
    Mr. Burton. Mr. Barr, do you have any further questions?
    Mr. Barr. Just a few here if I could engage counsel just to 
colloquy or ask him a few questions.
    Going back, counsel, to exhibit 61, which is the list of 
various names and numbers of e-mails, the handwritten numbers, 
the larger numbers on the very left of those pages, again, 
there's a number for each name, and that would represent the 
total number of e-mails in that individual's computer on that 
particular--and the day of June 18th.
    Mr. Wilson. Correct.
    Mr. Barr. The number immediately under the user's name 
would be the number that was not captured as of that day.
    Mr. Wilson. That's also correct.
    Mr. Barr. Thinking back, if counsel would, on counsel's 
legal training and understanding of the law, if you have, for 
example, as at the top of page NGL 00309 that the gentleman 
from Pennsylvania referred to earlier, Mr. Erskine Bowles, 
where you have the number of 1,108, which is 1,108 e-mails in 
Mr. Bowles' system that day, and 161, which would be the number 
that was not captured, if, in fact, counsel had been advising 
that individual on that day to comply with the subpoena that 
required all of those e-mails, would he give Mr. Bowles an A 
because he was able to capture 90 percent?
    Mr. Wilson. No, he would not.
    Mr. Barr. In other words a subpoena, presuming it is 
lawful, whether it is from an independent counsel, the 
Government Reform and Oversight Committee, the Government 
Reform Committee of this Congress, or the House Judiciary 
Committee requesting certain documents including e-mails, it 
does not presuppose nor does it excuse that simply because a 
certain number of documents are not captured that day, that 
they did not have to be produced or they are not covered by the 
subpoena, correct?
    Mr. Wilson. That's correct. And just to fill this on that, 
it was the understanding of the committee through 
representations made by lawyers for the White House that we had 
received all information that was germane to our subpoenas. We 
had not at any time been told that there was a universe of 
documents that had never been searched for responsiveness to 
our subpoenas. We were laboring under a misapprehension at that 
time.
    Mr. Barr. We now know that we have not been furnished full, 
accurate and complete information pursuant to those lawful 
subpoenas. Is that correct?
    Mr. Wilson. That is correct. We also know from not only 
this document, but subsequent to the discovery of this 
document, or at least the furnishing to the committee of this 
document, there have been other problems presented to us, one 
in particular that implicates the entire Office of the Vice 
President, where information--and the extent is still not 
entirely clear--but information of the Office of the Vice 
President has not been searched for responsiveness to committee 
subpoenas.
    Mr. Barr. Is it also counsel's understanding based on his 
knowledge of Federal law and the law that pertains to 
enforcement of subpoenas that the cost of compliance with a 
subpoena is not a defense for failure to comply with that 
subpoena in whole or in part. Is that correct?
    Mr. Wilson. No, it is correct, yes. The cost should not be 
a factor.
    Mr. Barr. I would urge the witnesses to review their 
understanding in light of some of the statements made earlier 
by some other members of the committee in light of what counsel 
has just said that when a subpoena is issued, whether it is by 
an independent counsel, a committee of the Congress or some 
other legal proceeding or judicial officer, that full 
compliance is presumed, required and will be enforced either by 
an order of a court or a finding of contempt or a case of 
obstruction of justice for subsequent knowledge that a subpoena 
has not been honored.
    The fact that there may be certain Federal laws that relate 
to retention of certain records for archival purposes, that 
does not dispose of the issue. If, in fact, a subpoena has not 
been complied with, if, in fact, as we now know, that the White 
House counsel, the Office of Administration, and indeed 
probably the Department of Justice knew that these subpoenas 
were not being complied with, then subsequent action certainly 
is relevant inquiry for this committee, notwithstanding the 
fact that there may be technical compliance with the 
Presidential Records Act or the Federal Records Act, for 
example, because these records are maintained in some way, in 
some place, in some form for archival purposes, and that is the 
heart of at least part of the reason why this committee is very 
concerned about this.
    The subpoenas have not been complied with. Apparently no 
efforts have been undertaken to secure compliance with those 
subpoenas, and the best that we are being told by this 
administration, by this Department of Justice is that in 6 to 8 
months maybe something will happen. That will not--and in my 
experience as a former U.S. attorney, and I presume, counsel, 
in your experience as well as an attorney, that certainly would 
not get one off the hook in a legal proceeding, nor should it.
    I commend you, Mr. Chairman, for holding these hearings, 
and I know there will be further, because some very important 
principles regarding the rule of law and the prerogatives, the 
lawful prerogatives of this committee, of the House impeachment 
and judiciary committees, the independent counsel and legal 
parties entitled to their day in court such as in the Alexander 
case have a great deal at stake here in ensuring compliance 
with lawful subpoenas. We have not seen that in this case, and 
that's very disturbing.
    Mr. Burton. Thank you, Mr. Barr.
    Mr. Shays, did you have more questions?
    Mr. Shays. Yes. Thank you.
    Mr. Lyle, when Beth Nolan, the counsel of the President, 
testified on March 23rd, in her statement she said when the 
counsel to the President Charles Ruff was told by OA--that's 
your organization, before your time, in 1998, but OA is Office 
of Administration.
    Mr. Lyle. OA, as I understand it, is Office of 
Administration.
    Mr. Shays. When then counsel of the President Charles Ruff 
was told by OA in 1998 that there were e-mails that may not 
have been captured in a previous search because of a technical 
glitch--by the way, I buy that as a technical glitch. I don't 
debate that--he understood that OA would be collecting those e-
mails so that any responsive e-mails that had not been produced 
could be produced. Now, responsive e-mails means requests for 
information or subpoenaed information.
    Now, what Ms. Nolan is telling us is that Charles Ruff, the 
previous counsel, was told that all these e-mails would be 
provided, and you're hired later, and you're not providing that 
information. You've not providing the so-called responsive 
information. You are not providing the information, and e-mails 
that were subpoenaed. So it's kind of like you both are like 
ships passing in the night here. I mean, Mr. Ruff is saying you 
guys are going to provide it, and you're saying you made a 
decision that you saw this as an archive problem, not a 
subpoena problem, and therefore you decided that you would 
focus on other issues.
    Mr. Lyle. I cannot shed any light for you, Mr. Shays, on 
the communications that took place between Mr. Ruff and Mr. 
Lindsey.
    Mr. Shays. I understand that, but what I am just sharing 
with you is the fact that Mr. Ruff was told, according to Ms. 
Nolan, and she was under oath, that these e-mails had been 
captured, and that they were--would be collected, and that all 
responsive e-mails--in other words, all the subpoenaed e-mails 
that hadn't been produced would be produced. So excuse me for, 
you know, just being a little cynical. His argument is I was 
told it was going to happen, you're hired, and you don't even 
know that there's any subpoena problem. And that's relevant 
information, and I accept it under the basis you've said it. 
But what am I supposed to think up here as a Member of Congress 
when I know these were subpoenaed information, and it wasn't 
provided, and Congress wasn't told, and Starr wasn't told, and 
the courts weren't told?
    So, I guess we'll just keep trying to figure out who hired 
Craig Livingstone, and we'll try to figure out who knew what 
when. And I just wish someone would help us out.
    I yield back.
    Mr. Horn. Mr. Chairman, if I might on this question?
    Mr. Burton. Yes. The gentleman from California.
    Mr. Horn. Gentlemen, I'm sorry I had to come in late, but 
it triggered me on the question of who hired Mr. Livingstone 
because I asked that question, and Mr. Clinger, then the full 
chairman, sent it to the Attorney General and made it very 
clear that one of our witnesses which was counsel to the 
President had committed perjury. And so I wonder if any of you 
have any information on that.
    I don't think that this committee has ever received a reply 
from the Department of Justice, and there's no question, the 
question I asked was, was it Vice President Gore, was it the 
First Lady, etc. And I think they knew, and they lied. So I 
would like to see an answer to Mr. Clinger's letter to Mr. 
Burton at the time.
    Mr. Zwerling. I am advising my client to take the fifth 
amendment on that, Your Honor.
    Mr. Burton. Does the gentlemen have any more questions?
    Mr. Horn. That's it, because I'm tired of lies.
    Mr. Burton. Well, I want to thank you both for being so 
patient. And we'll now go to the next panel. Thank you very 
much for being with us.
    Mr. Raben, we're glad that you're with us. We're sorry that 
you had to wait so long. While you're standing, would you take 
the oath?
    [Witness sworn.]
    Mr. Burton. Be seated.
    Do you have an opening statement, Mr. Raben?
    Mr. Raben. Yes, sir I do. I'll get to it right now.
    Mr. Burton. All right. Take your time.
    Proceed, Mr. Raben.

   STATEMENT OF ROBERT RABEN, ASSISTANT ATTORNEY GENERAL FOR 
                      LEGISLATIVE AFFAIRS

    Mr. Raben. Thank you, sir. Mr. Chairman and members of the 
committee, I am here today in response to your request by 
letter of April 26th. As the committee understands, many of the 
questions posed in the chairman's letter of April 26th relate 
to matters and activities in which I have had no personal 
involvement, but I have prepared as best I can in the days 
since the chairman's letter to answer the committee's questions 
consistent with the Department's and the public's fundamental 
interest in effective law enforcement.
    More than a month ago, the Department's Criminal Division, 
acting through the Campaign Finance Task Force, began an 
investigation into whether the Executive Office of the 
President complied with subpoenas issued by the task force and 
this committee. In conjunction with that inquiry, Criminal 
Division attorneys conferred with representatives from the 
Office of Independent Counsel because the Office of Independent 
Counsel had commenced its own investigation into nearly 
identical allegations surrounding the White House e-mail 
retrieval issues.
    Thereafter on March 22nd, the Office of Independent Counsel 
explicitly authorized the Department of Justice to continue its 
investigation pursuant to the Ethics in Government Act, which 
provides in pertinent part that whenever a matter is in the 
prosecutorial jurisdiction of an independent counsel, the 
Department of Justice shall suspend its investigation regarding 
such matter unless the independent counsel agrees in writing 
that such an investigation may be continued by the Department.
    Since last month when the independent counsel authorized 
the Department to continue its investigation of the e-mail 
retrieval issues, the independent counsel and the Campaign 
Finance Task Force have been working in coordination conducting 
many joint interviews and reviewing numerous documents and 
other evidence. This criminal investigation is active and 
ongoing.
    Several of the questions in the chairman's letter of April 
26 relate explicitly to matters currently under review in this 
criminal investigation. As I have explained in my letters on 
this and other committee requests, disclosure of matters 
involving an open investigation can compromise the efforts of 
prosecutors and FBI agents to enforce Federal law. Experienced 
prosecutors tell me that it would undermine law enforcement if 
defendants or prospective defendants learn the government's 
factual or legal theories or what information the government 
had gathered and from what sources. Even neutral witnesses can 
have their recollections influenced or confused by public 
disclosures of statements or speculation from other witnesses.
    The disclosure of raw or preliminary investigative 
information that has yet to be fully investigated or 
substantiated can also damage unfairly the reputations of 
innocent individuals and mislead the public about the 
underlying facts.
    Finally, congressional inquiries into ongoing 
investigations create the added danger of undermining the 
credibility of law enforcement by injecting or appearing to 
inject political considerations into the criminal justice 
process.
    Therefore, at this time, the Department cannot comment 
about any particular actions that have been undertaken or may 
be undertaken during the course of the ongoing investigation 
into the e-mail retrieval issues. Nor can I comment on who at 
the White House or Justice Department may have known what and 
when about the e-mail retrieval issues as that is part of the 
ongoing criminal investigation. All I can do is convey the 
assurance of the Campaign Finance Task Force that the 
prosecutors working in coordination with the Office of 
Independent Counsel will follow the facts and the law wherever 
they may lead.
    You have also asked why the Department has not agreed to 
make the Civil Division attorneys working on the Alexander case 
available to the committee for interviews. My letter of April 
12 identified several reasons why the Department declined the 
committee's request. As I stated in that letter, the 
committee's proposed inquiry relates directly to the ongoing 
criminal investigation now under way by the Campaign Finance 
Task Force and the Office of Independent Counsel. In the 
Alexander case, the Department asked Judge Lamberth to defer 
consideration of the e-mail retrieval issues precisely because 
multiple investigations of the same conduct and multiple 
interviews of the same witnesses would interfere with and 
undermine the ongoing criminal investigation.
    Just last week Judge Lamberth agreed to continue deferring 
consideration of the e-mail retrieval issue. The court's 
judgment that this investigation should proceed before a public 
airing of these allegations also is applicable, in our view, to 
the committee's request to interview the Civil Division 
attorneys assigned to the Alexander case. In the Department's 
view, committee interviews of these attorneys would interfere 
with and may undermine the ongoing criminal investigation.
    In addition, the committee's proposed inquiry of the 
lawyers in the Civil Division runs counter to the Department's 
view that line attorneys and agents should not be required to 
answer questions from Congress about the conduct of litigation 
or the pending criminal investigation. We try our hardest to 
ensure that the Department's line attorneys and agents can 
exercise the independent judgment essential to effective law 
enforcement and litigation. That independent judgment is 
seriously threatened when Congress seeks to question Department 
attorneys or agents about the actions they took and the 
litigation decisions they made in an ongoing case.
    There have been bipartisan objections to congressional 
inquiries of Department line attorneys, even when those 
attorneys have been sought to explain matters that have 
concluded. Former Attorneys General Barr and Civiletti have 
argued against subpoenas to line assistant U.S. attorneys as 
has former Acting Attorney General Stuart Gerson. The American 
Bar Association has also argued against it. The bipartisan 
National Association of Former U.S. Attorneys sent a letter to 
Assistant Attorney General Robinson last month making the point 
that the effect on morale and the prosecutorial process would 
be devastating if career prosecutors were called before 
Congress to explain and defend their decisions.
    Similarly, Mr. Chairman, we are not in a position at this 
time to answer your questions or provide documents about the 
recent interviews of the President or Vice President conducted 
in furtherance of the ongoing campaign finance investigations. 
As I mentioned in my letter of December 30, 1999, the 
prosecutors and agents assigned to the Campaign Finance Task 
Force continue to pursue actively any and all criminal 
violations of the campaign finance laws. The questions asked of 
the President and Vice President, like those addressed to other 
recent witnesses, pertain to ongoing campaign finance criminal 
investigations. To date these investigations in which the 
President and Vice President have been interviewed a total of 7 
times have produced 24 prosecutions with 16 convictions and 6 
cases awaiting trial. Producing witness summaries and documents 
about recent interviews would risk compromising the ongoing 
investigations and undermine the confidentiality that is 
essential to effective law enforcement.
    Mr. Chairman, I appreciate the committee's oversight 
interest in this matter, and I understand the committee's 
frustration with the Department's pending matter policy, but I 
also know the committee respects deeply the responsibilities of 
the Attorney General to enforce the law, and I know the 
committee has tried to avoid any action that would jeopardize 
the effectiveness of this or any other criminal investigation. 
I continue to hope that we can work together to accommodate the 
committee's legitimate oversight needs while protecting the 
integrity of our law enforcement efforts. I will continue to 
try to do everything I can to make that possible. If I could 
have that introduced into the record.
    Mr. Burton. Without objection.
    [The prepared statement of Mr. Raben follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.206
    
    [GRAPHIC] [TIFF OMITTED] T9621.207
    
    [GRAPHIC] [TIFF OMITTED] T9621.208
    
    [GRAPHIC] [TIFF OMITTED] T9621.209
    
    [GRAPHIC] [TIFF OMITTED] T9621.210
    
    [GRAPHIC] [TIFF OMITTED] T9621.211
    
    Mr. Raben. There are two small but important mistakes in 
the written testimony, but not in the oral that I know that I 
just said. In the first paragraph, on page 1 of the written, it 
says, ``In the few days since the Chairman's letter was sent,'' 
but it has been 7 days, and I appreciate your forewarning of 
the questions.
    Also on page 4, the written testimony says that the 
investigation has produced 22 prosecutions. I'm told this 
morning it's been 24. I appreciate that.
    Mr. Burton. Well, we were going to--did you want to--you 
want to make some opening? You want to have some opening 
questions on your side? We're going to go to our counsel.
    Mr. Waxman. Go ahead.
    Mr. Burton. We'll go with our counsel. Let me just say as I 
yield to our counsel, you talked about the record of the 
Attorney General and the Justice Department. Charlie Trie, who 
fled the country and was in China for some time, got virtually 
a slap on the wrist, no jail time and a very small financial 
penalty. John Huang likewise got some community service time, a 
slap on the wrist and a very small financial penalty, and 
that's the administration of justice that we have seen.
    When you cite all of these convictions and all of these 
people being brought to justice, it rings hollow, at least with 
this chairman, because people who are very, very instrumental 
in bringing millions of dollars into the DNC and the 
President's reelection committee were never really brought to 
justice. They just got a little slap on the wrist, and we think 
that's--we think that's an aberration of what justice is all 
about. We don't think that's what the administration of justice 
should be.
    Go ahead, Mr. Wilson.
    Mr. Wilson. Mr. Raben, good afternoon. I'll try and be as 
brief as possible on these questions, and indeed your opening 
statement and the letter that was furnished to this committee 
early this morning answered some of the questions that we were 
going to ask. So thank you for providing the answers albeit at 
a late date.
    We are aware that the Campaign Finance Task Force and the 
Office of Independent Counsel are conducting a joint 
investigation, and indeed in your opening statement you said 
that the OIC and Justice Department have even conducted joint 
interviews of individuals. Do you know whether there's ever 
been a joint investigation like this between the Department of 
Justice and any Office of Independent Counsel?
    Mr. Raben. It's a good question. I don't know. I'll find 
out for you.
    Mr. Wilson. The reason I asked, it's one of the questions 
we posed to you in our letter last week. We're interested in 
knowing whether it is appropriate to conduct such an 
investigation. Is it indeed appropriate for the Department of 
Justice and the Office of Independent Counsel to engage in a 
collaborative effort?
    Mr. Raben. Thank you. It's the view of the Department of 
Justice that we have the legal authority, and it is 
appropriate. I can't and wouldn't speak for the independent 
counsel, but the independent counsel explicitly authorized the 
Department of Justice to pursue the investigation, and the 
authority under which that authorization was exercised was 28 
USC 597(a).
    Mr. Wilson. I read your statement with interest, and I know 
28 USC, section 597, and it allows any Office of Independent 
Counsel to authorize the Department of Justice to investigate a 
matter, but that's a different issue than we're facing today. 
It is certainly true that the Office of Independent Counsel 
could authorize the Department of Justice to investigate the 
same matters that it itself is investigating. The statute 
provides that, but is it appropriate, is it indeed legal for 
the Department of Justice and the Office of Independent Counsel 
to engage in a collaborative effort?
    Mr. Raben. I think it's a fair and interesting question. I 
can only speak for one of the parties engaged, which is the 
Department of Justice thinks it is appropriate to coordinate 
and has coordinated with the OIC on this matter. I don't know 
if joint--I'm not quibbling with you. I don't know the joint 
investigation is a term of art. I don't--I'd be very hesitant 
to overcharacterize or undercharacterize, for that matter; that 
is, I don't want to say anything inaccurate. To the extent--let 
me tell you the extent of my knowledge is that we were--the 
Campaign Finance Task Force is coordinating in a way that they 
think is appropriate with the independent counsel. Again, I 
can't speak for the independent counsel.
    I do know that Judge Lamberth has been hearing from the 
Campaign Finance Task Force. I don't know, I assume he has been 
hearing from the independent counsel, but again, I don't know 
about that prong, but Judge Lamberth himself has been hearing 
from the Campaign Finance Task Force about the pace and 
substance of their investigation.
    Mr. Wilson. I'll put a request to you now that you provide 
an answer to the committee as to whether it is indeed provided 
for in the statute that there can be a collaborative effort. I 
don't want to get theoretical here. It's my understanding that 
the Office of Independent Counsel and members of the Department 
of Justice are sitting in the same room interviewing people at 
the same time, and one concern is that undercuts the very 
nature of independence that is in the title of independent 
counsel statute.
    So that's something perhaps we can't resolve today, but if 
you could provide for us the legal analysis that allows that to 
happen. If you could tell us what the safeguards are that would 
insulate the task force and this--and the independent counsel 
investigation from political influence or supervision at the 
Department of Justice. What special safeguards have you built 
into this particular collaborative effort?
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.212
    
    [GRAPHIC] [TIFF OMITTED] T9621.213
    
    Mr. Raben. I can't speak to every one of them because I 
don't--the demands of my job are such that I can't participate 
in every conversation or every meeting on all the important 
things going on at the Department of Justice all the time. That 
being said, I know that the Department and the individuals who 
are charged with doing the different components of what I--what 
we all know to be a multifaceted issue here are careful to 
respect the lanes, and it is not uncommon for the Department to 
find itself in a position where in the normal course of 
representation of an agency, or in this case Executive Office--
--
    Mr. Wilson. I respect that. What I'm asking is, is there 
anything special that's been done in this particular case to 
set up a firewall? Do you know of anything different in this 
case than any other case?
    Mr. Raben. I need more information to answer you properly 
because I haven't participated in other cases, so I don't know 
if this one is different, and no one has said in this case we 
have to do it unlike any other case. I can tell you what I 
witnessed, which is a division, and it's a division and a 
reminder that there are different lanes, and that the divisions 
need to respect those lanes, and that division, as I say, has 
been monitored by Judge Lamberth.
    Mr. Wilson. I will ask if you would, please, in the not-
too-distant future, if you could provide for us the analysis of 
what has been done, if anything. Perhaps it's the same 
situation that's been set up for the task force. Maybe there's 
nothing different, and if there is nothing different, that's 
the answer, and that's acceptable in terms of the answer.
    On March 27, which is now, I guess, 5 weeks ago, the 
chairman of the committee made a request to the Department of 
Justice to appoint a special counsel to investigate the e-mail 
matter. As of this date, there has been no response to the 
request, and now that you're here, perhaps you can provide us 
an official response if there is one.
    Mr. Raben. Yes. The official response is that we continue 
to work on it, that it's a serious request, and that it's being 
taken seriously. At the risk of not being seen as a team player 
at the esteemed Department of Justice where I'm very happy to 
be employed, I would have hoped that we could have provided an 
answer even to ourselves earlier than now. I know that we said 
in a letter to you of April 12 that we'd get you an answer 
promptly, and I continue to hope that it's promptly, and that's 
the best I can do.
    Mr. Wilson. From the perspective of the committee, we have 
asked this question because an awful lot has happened in the 
last 5 weeks.
    Mr. Raben. I'm reminded by folks, and clearly this is not 
on all fours, but I'm reminded that under the then existing 
independent counsel statute, the Department had 90 days to 
determine, but I would fully hope that we would get you an 
answer long before 90 days.
    Mr. Wilson. Let me--I'll work into this slowly. Do you know 
when the Justice----
    Mr. Burton. Excuse me. Let me just interrupt here. I don't 
know what kind of timeframe would be allowable, but we would 
certainly hope it would be quicker than 90 days. In fact, it 
doesn't seem like it's that difficult a decision to make. We're 
talking about the Justice Department being on both sides of an 
issue. You have one division of the Justice Department on one 
side and another on the other side. How can the Justice 
Department work against itself? That's the issue, and I don't 
think that issue should take 90 days or 30 days. We need to 
have an answer back, and the Attorney General and her top aides 
over there ought to be able to sit down and resolve this in a 
matter of a few hours.
    Mr. Raben. It's not the Department of Justice working 
against itself. I know that that characterization has been said 
before, but there are, as I understand it, a group of career 
employees in the Civil Division about whom allegations have 
been made. Allegations became sufficient such that the Campaign 
Finance Task Force thought it appropriate to open a criminal 
investigation. Once that occurs, the ordinary course of 
business is to stay or defer that aspect of a civil litigation, 
in this case the Alexander case, which might be implicated or 
interfere with the criminal investigation, which we think takes 
primacy. We think that's the most important thing.
    I appreciate the characterization that's been made that 
it's the Department of Justice working against itself, but I 
have learned that, in fact, it is not uncommon for----
    Mr. Burton. I want to make sure I understand. What you're 
saying is the civil case is, in essence, being put on hold 
while the criminal case proceeds?
    Mr. Raben. No, I don't mean to say that, and if I did, I 
apologize. Those aspects of the civil case, the Alexander 
litigation, which are implicated by the criminal investigation 
are deferred, but they are only deferred through the approval 
of Judge Lamberth. We can't do that on our own, but the 
Campaign Finance Task Force folks go to the judge and engage 
him on the progress of the criminal investigation, and the 
judge makes a decision of what pace, what aspects of the civil 
litigation should be deferred or not.
    Mr. Burton. But the request has been made that he defer 
action on the civil case until the criminal case has been 
resolved. That's what they requested of the judge, right?
    Mr. Raben. I'm with you 92 percent of that, I think. I have 
to go look at the filing again.
    Mr. Burton. In essence, what the Department of Justice is 
asking for is a deference of the civil case while they run out 
the clock on the criminal case.
    Mr. Raben. They are asking for a deferral of those aspects 
of the civil case. There are aspects of the Alexander case 
which precede. There are aspects which we asked to defer, and 
the judge has taken it----
    Mr. Burton. Taken it under advisement.
    Mr. Raben. Taken it under advisement, thank you.
    Mr. Wilson. There are two real-world problems that have 
come up, and maybe they are not of great significance at the 
end of the day, but help me work through these. One, it has 
come to our attention that when the Mail2 problem was 
discovered, individuals at the White House contacted a 
Department of Justice attorney named Jason Baron, and we have 
no idea what that contact entailed, but the White House reached 
out to a Department of Justice lawyer named Jason Baron. 
Yesterday, late in the afternoon, we were provided documents by 
the White House that had been kept from us subject to claims of 
privilege, and on one of the documents there was the name Jason 
Baron and his telephone number.
    Now, we have not had an opportunity to ask people what 
happened, and we'll do that in the future, but we have been 
asking to talk to Department of Justice attorneys, and you have 
very respectfully declined our requests and said, we cannot do 
that. I am wondering whether you know if the Department of 
Justice has or has not authorized Mr. Baron to talk to anybody 
in the White House?
    Mr. Raben. I don't know that.
    Mr. Wilson. We would very much like you to find that out if 
you could.
    Mr. Raben. Whether the Department has authorized Mr. Baron 
to talk to anyone in the White House?
    Mr. Wilson. Yes. It's my understanding that Mr. Baron, who 
may not be employed by the Department of Justice now, but falls 
under the same constraints that you apply to us under your 
request for line attorneys to testify--we are prevented from 
having line attorneys to talk to in this particular case, and 
yet we were very surprised by a contemporaneous notation of Mr. 
Baron's name with his telephone number on top written by 
somebody who is employed by the White House.
    We do not know whether there's been a contact or not, but 
this is one of the real-world problems that we face. We ask for 
a special counsel because we're concerned by the types of 
appearances and problems that occur when the Department of 
Justice is investigating, first of all, its own lawyers, and 
second of all, people in the White House counsel's office. 
That's one thing. I will return to that slightly in a moment.
    Second thing is documents were withheld from us temporarily 
by the Department of Justice under claims of privilege. Do you 
know whether the White House consulted with the Office of Legal 
Counsel regarding claims of privilege?
    Mr. Raben. I don't have any information about that.
    Mr. Wilson. That's another question we would very much like 
you to answer because in the past when the White House has 
decided to embark upon considering claims of executive 
privilege, as has indeed happened in this particular case, the 
White House has gone to the Office of Legal Counsel.
    Now, this committee obviously would have a particular 
concern with the White House going to the Department of 
Justice, which is already on both sides of the same case, and 
getting a reading as to whether the Department of Justice 
concurs with a claim of privilege, and this is another conflict 
that we've seen just in the last week potentially.
    So again, if you could provide an answer to that specific 
question.
    Mr. Raben. There's two prongs to that. I'll find out, and 
then I have to find out what the restrictions are in revealing 
what I find out. Help me out. What's the conflict in--I don't 
know that they did, and I'll try to find out, but what's the 
conflict in the White House asking about the legal aspects of 
asserting a privilege which is the White House's to assert, 
which I understand they didn't assert?
    Mr. Wilson. I don't want to be mysterious. Congress wants 
documents. Just as we would have liked to have had full 
searches of all this universe of e-mails back 2 years ago and 
not have had to wait all this time, Congress has asked for 
information, and the White House decided to take an approach 
that would have denied the committee access to certain 
documents. And one of the questions we would ask is whether the 
Department of Justice was at all complicitous in preventing 
documents from coming to Congress. That's part of, again----
    Mr. Raben. They didn't assert privilege, right? A person 
mentioned they were thinking about it?
    Mr. Wilson. There was a delay. Documents were not produced 
to us immediately. So we'd like to know whether the Department 
of Justice was providing legal services. Did the Department of 
Justice provide legal service to the White House in a case that 
is already on two sides of the issue?
    Mr. Burton. Let me ask a question for clarification. The 
gentleman's name that was in the margins of this document that 
was delivered to us and his phone number, is he a member of the 
Department of Justice?
    Mr. Wilson. Mr. Baron was the Department of Justice 
attorney. He apparently has been teaching at a university in 
Canada and is on his way back to the United States. He's going 
to be taking up a position apparently in the U.S. Government. 
We do not know his current----
    Mr. Burton. Is he on sabbatical from the Department of 
Justice or on leave?
    Mr. Wilson. We don't know.
    Mr. Raben. I'll find out his status, sir. I'm glad his 
name--I'm not glad his name came up, but since his name has 
come up, I answered--I was told yesterday--you had asked me the 
last time I was here the Civil Division attorneys that worked 
on the case, and I ultimately was able to provide toward the 
end of that hearing a list of four or five people. Apparently 
Mr. Baron is one of the attorneys who worked on the case. He 
was not--his name does not appear on the pleadings apparently.
    Mr. Burton. But he's one of the attorneys that worked on 
the civil case?
    Mr. Raben. Yes.
    Mr. Burton. Those documents that we received, were those 
regarding the civil case?
    Mr. Wilson. The documents we've received appear to be 
documents that relate to members in the White House trying to 
find out what's happening in this matter right now. So it 
appears to be the White House gathering information, and so we 
might say they are doing their homework right now, and the 
simple way of putting it is has the Department of Justice 
helped the White House do their homework to prepare for these 
hearings? And we will be hearing from former White House and 
current White House employees tomorrow. The simple question is 
has the Department of Justice, notwithstanding this potential 
conflict, helped the White House prepare for the hearings that 
we're putting on right now?
    Mr. Raben. I have no knowledge of that. I have not--I have 
stayed away from that, but I'll find out.
    Mr. Wilson. If you could followup on that. That would be 
very helpful.
    Mr. Raben. Yes.
    Mr. Wilson. Just to stay on the line attorney policy for 
just a moment, I worked at the Department of Justice. I'm 
extremely sympathetic to the Department of Justice's line 
attorney policy. As I've pointed out to you and associates who 
are behind you, the committee has a conceptual problem with the 
way the Department has handled the line attorney policy. We are 
well aware that line attorneys have been made available to 
Chairman Dingell's subcommittee, in the Rocky Flats dispute. 
They've testified to us in Waco investigations we've conducted. 
Senator Specter recently had line attorneys testify before him 
in the Senate.
    There appears to be a unifying factor in all of this, and 
that is when the line attorneys have been able to tell a story 
that's helpful to the Department of Justice, they have been 
provided for questioning. Now, what I'd like, if you could help 
us with this, if you could distinguish the situations where 
line attorneys have testified before Chairman Dingell, before 
ourselves in the Waco investigation, before Senator Specter, 
just in the last few weeks from our request to have access to 
line attorneys that we would like to talk to.
    Mr. Raben. I can convey to you the distinctions that are 
conveyed to me. The distinctions are either fact witness, 
subpoena, or mistake. Those are the three basic exceptions--not 
exceptions, but those are the three basic defenses or 
justifications, if you will, that I have been able to discern 
distinguishing one matter from another.
    I hear your neutral principle that we serve it up when it 
tells a good story or not. I'd be eager to talk with you more 
about that. And I don't mean this flippantly, but I think we 
would serve up a lot more if that were the neutral principle. 
That would be my sense. I am more comfortable--as one of the 
spokespersons for the Department and my name goes on a letter, 
I'm more comfortable articulating the policy along the lines of 
the following: We try mightily, and we do almost everything we 
can to prevent line attorneys from testifying in public or 
responding, especially during an ongoing matter, to questions 
from Congress about how they are handling a case, both the 
strategy and the substance of the case. Sometimes those efforts 
are successful from our point of view, and sometimes they are 
not.
    Mr. Wilson. I appreciate that, and what you say makes sense 
to us, but in this case we're not looking for strategy in a 
case. We're not looking for the substantive material that's 
being discussed in the case. The conduct of the attorneys 
themselves is under investigation both by the Department of 
Justice and the independent counsel and by this committee.
    Let me just try and at least clarify one thing that's been 
now outstanding for a year and a half, and that is it was 
represented to us by the very colleague that's sitting behind 
you 18 months ago that the principle that the Department of 
Justice was standing on is that if line attorneys had talked to 
the press, that was a deciding factor in making them available 
to testify before Congress. That was not one of the three 
factors you just cited a moment ago, and I would like to know 
and the committee would like to know finally whether that is 
indeed a principle that you hold out as having any relevance 
whatsoever to your decision.
    Mr. Raben. Oh, you asked an easier question than I thought 
you were going to ask. Does it have any relevance? I think that 
every--I think that we treat every accommodation and every 
committee as sui generis. The use of stare decisis in these 
cases has confused me from the moment I got to the Department. 
In that sense, it's relevant. I have disagreements with my 
superiors and people with whom I work and myself on any number 
of matters, small and large, and I think I need to continue to 
learn more about this one, but I would go so far to say it 
would be a relevant factor, but I wouldn't consider it 
dispositive.
    Mr. Wilson. Let me turn to another subject very quickly, if 
we may. At the last hearing at which you testified, we had 
asked for your assistance in providing the names of Civil 
Division lawyers who had worked on the e-mail matter in the 
Alexander case, and you have provided those names, and we are 
grateful for that. Can you tell us the lawyers who actually 
participated in preparing the affidavit submitted by Daniel 
Barry in the Alexander case?
    Mr. Raben. Not yet. I can't yet. That is a key fact. I 
presume it's a key fact. It's a fact in the ongoing criminal 
investigation. Who said what to whom and when and whether or 
not there was anything inappropriate in consultation or action 
vis-a-vis that affidavit is a fact that is being vetted by the 
criminal investigation.
    Mr. Burton. You know who it is?
    Mr. Raben. No, I don't. Because I knew I could not speak 
about it, there was no reason for me to inquire.
    Mr. Burton. How long ago has it been since we asked for 
that? About a month. Unless it's covered by grand jury or 6(e) 
or an ongoing investigation, we would like to know who that was 
or who they were. Can you speed that up for us? It's been a 
month.
    Mr. Raben. I can ask the criminal investigation to speed 
their investigation up. Absolutely.
    Mr. Burton. It can't be that hard to find out who 
participated in helping with that document.
    Mr. Raben. You're right, but I wouldn't be able to reveal 
that information even if I knew it until the criminal 
investigation is complete.
    Mr. Wilson. This morning we received a letter from the 
Attorney General that was helpful in explaining in very general 
terms a decision that has been made. The committee has 
subpoenaed recent interviews of the President and the Vice 
President, and this morning we learned in a letter from 
Attorney General Reno to the chairman that the Department of 
Justice would not provide those--the interview summaries of 
those two interviews, and I'd like to--we understand the 
rationale of the letter. We understand your basis. However, the 
first question is, is it true to say that everything in those 
interviews pertains to ongoing cases?
    Mr. Raben. I don't know. I don't know. I presume that is--
--
    Mr. Wilson. I don't think that's answered in the letter, 
and I don't think it's answered in your statement, so it won't 
help to look back. If you could answer that question as well. 
What you are representing to us is that we cannot have these 
interview summaries. Now, we have been for the last 3 years 
very respectful of all requests from the Department of Justice 
to not interfere with ongoing investigations. In the Johnny 
Chung hearing we kept names off of the table. In the Trie 
hearings, in the Huang hearings we did not ask certain 
questions because we were requested not to, and we have been 
respectful of the 6(e) policy, and we have been respectful of 
ongoing investigations.
    So simply put, the question is if there is material that 
does not pertain to ongoing investigations, then we should at 
least have an expectation to receive that information.
    Mr. Raben. Right. I can confirm that the interviews were 
conducted in furtherance of an ongoing investigation. You know 
that, but you're asking a more nuanced question, if there are 
2, 3, 4, 5, 8, 9, 10 questions that are clearly relevant to a 
closed investigation?
    Mr. Wilson. Closed or not open. I'll give you a specific 
example because it helps explain what I'm saying. The committee 
has been publicly very critical and the chairman has made many 
statements about the failure of the task force to ask the Vice 
President about the Hsi Lai temple, Buddhist fundraiser. Many, 
many times the chairman has said not one single question was 
asked of the Vice President. It is our understanding that 
questions were asked of the Vice President at his recent 
interview about the Buddhist temple fundraiser.
    Now, we have been told that the Vice President is not under 
investigation. There has already been a prosecution of Maria 
Hsia. It's difficult for us to understand what is ongoing about 
this investigation unless you were to try and say that it was 
the contempt prosecution of the nuns or something else, but 
there appears to be nothing ongoing. Indeed it would be 
manifestly unfair to question somebody after the prosecution of 
Maria Hsia if this issue was still ongoing. So what we don't 
understand is what is off the table, what is ongoing about the 
Buddhist temple fundraiser?
    Mr. Raben. Right. You've been told in a variety of fora 
orally and in letters that the Campaign Finance Task Force is 
pursuing ongoing investigations, and that's a dynamic concept. 
Things close, and they learn new information, as would be the 
case, I assume, in many prosecutions. That may reopen 
something.
    Mr. Wilson. Fair enough.
    Mr. Raben. I recognize that the independent counsel statute 
is done, but you can learn information from a witness that 
leads you to a new line of inquiry, and I think--the Campaign 
Finance Task Force, I avoid asking too many questions of them. 
I don't want to politicize what they are doing either. That's a 
risk that I have to throw into the mix, but they remind me that 
they have interviewed the President and Vice President several 
times, and they have asked, they say, a lot of questions.
    Mr. Wilson. Recognizing that investigations are dynamic, 
they close, they open, and that's a rationale for a prosecutor 
questioning somebody else, I'll ask you the specific question, 
has the investigation of the Vice President been reopened in 
the Hsi Lai temple matter?
    Mr. Raben. I don't know.
    Mr. Wilson. Is it because you're not able to tell us, or 
you don't know?
    Mr. Raben. The latter, I don't know.
    Mr. Barr. Excuse me, if I could, counselor.
    Something is coming to my mind called deliberate ignorance. 
What I don't understand here is you're saying, gee, I don't 
want to ask questions because I don't want to interject 
politics into it. How would your asking a question, an 
employee, an official of the Clinton Department of Justice, 
inquiring into the status of an investigation of another 
attorney in the Clinton Department of Justice politicize 
something?
    Mr. Raben. A political appointee confirmed by the Senate?
    Mr. Barr. You just said a few moments ago that you don't 
ask too many questions because you don't want to interject 
politics into it.
    Mr. Raben. You want to be very careful about ongoing 
criminal investigations.
    Mr. Barr. How could you possibly interject politics into 
one Department of Justice official inquiring of another Justice 
Department official?
    Mr. Raben. A political appointee asking questions of a 
career--of a line attorney, you don't think that has an 
inherent----
    Mr. Barr. I think there's a lot of politics with this 
administration, but this is the first time that I've heard that 
used as a defense to finding out information and transmitting 
information to Congress by somebody within the administration. 
I think it's thoroughly politicized.
    Mr. Raben. Your characterization of a defense is 
interesting. I didn't assert it as a defense to anything. I 
said it's one of the considerations I have. I have to prepare 
myself and do prepare myself and try to prepare myself for your 
very valid questions.
    Mr. Barr. He just asked a very valid question, and you 
said, I don't know.
    Mr. Raben. Right. I don't know.
    Mr. Barr. Apparently you haven't--I think that was a very 
relevant question, and certainly the answer to it is not going 
to compromise any investigation, just asking is the 
investigation still open.
    Mr. Raben. I don't know. I can ask. If we can communicate 
that to you, we will.
    Mr. Barr. It requires you to ask a question, and you seem 
to be even hesitant to ask questions of your people at the 
Department of Justice. That's what I don't understand.
    Mr. Raben. You've asked me to ask a question. I will ask 
that question.
    Mr. Burton. The chief counsel's time has expired. We have 
two or three votes on the floor. We will stand in recess at the 
fall of the gavel, at which time Mr. Waxman will have some 
time.
    [Recess.]
    Mr. Burton. Mr. Raben, we apologize once again for the 
timeframe. We had four votes on the House floor. We will now 
yield to Mr. Waxman for his time.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Raben, the chairman has criticized the Justice 
Department for not allowing our committee to talk to line 
attorneys working in the Civil Division about the Alexander 
case. That is the case brought by Judicial Watch concerning FBI 
files that were provided to the White House. The Department has 
responded quite reasonably, I believe, that it has a clear and 
consistent policy of not providing the line attorneys to 
Congress to answer questions about Department litigation, 
particularly when the litigation is still ongoing.
    Now, the committee could subpoena those same line attorneys 
and force them to come up here and testify. The issue, however, 
is not whether we have the power to do that, but whether that 
would be a wise, prudent exercise of our subpoena power.
    It may be helpful for us to consider an affidavit filed by 
Robert J. Conrad, Jr., the head of the Department's Campaign 
Finance Task Force in the Alexander case, and I'd ask unanimous 
consent that this affidavit be part of the record.
    Mr. Burton. Without objection.
    Mr. Waxman. In that affidavit, signed on March 23 of this 
year, Mr. Conrad notified the court that the task force had 
launched a criminal investigation into the missing e-mails, and 
that he asked a court to postpone any inquiry into the e-mails 
until the task force had concluded its investigation. Mr. 
Conrad stated emphatically that allowing civil attorneys to 
investigate the e-mail problem, ``would interfere with and 
potentially compromise the task force's own investigation of 
the pending allegations.''
    Now, the chairman has suggested that this was simply a ploy 
to prevent the court from looking into the e-mail problem. He's 
free to make whatever allegations he wants, but let me point 
out that the Office of Independent Counsel Robert Ray supported 
Mr. Conrad's request. Mr. Conrad says just that in paragraph 10 
of his affidavit. Once more, the judge in Alexander, Royce 
Lamberth, who is not known to be particularly partial to the 
White House, agreed with Mr. Conrad's request, so apparently 
the Department's task force, the Office of Independent Counsel, 
and Judge Royce Lamberth all agree on one thing, that the 
Department's Civil Division line attorneys should refrain from 
investigating the e-mail matter further until a criminal 
investigation is complete.
    By the way, all three of these people, Mr. Conrad, 
Independent Counsel Ray and Judge Lamberth, are all in on this 
conspiracy to protect the White House. This is perhaps one of 
the most remarkable conspiracies in the history of the 
Republic.
    Now, the chairman can subpoena these line attorneys and 
insist that they discuss their e-mail investigations before 
this committee, but if he does so, he is going against a 
determination made by the Department's task force, the 
independent counsel and Judge Lamberth that public testimony by 
those same Civil Division attorneys about their e-mail 
investigation would compromise the criminal investigation. 
Given those circumstances, I think it would be inappropriate 
and imprudent to demand that those line attorneys appear before 
our committee to discuss their activities in the Alexander 
case. I wanted to put that view on the record and have that out 
there.
    Chairman Burton recently subpoenaed the Department of 
Justice for interview summaries. These are known as FBI 302s of 
dozens of interviews concerning the DOJ's campaign finance 
investigation. My understanding is the Department has given our 
committee access to these FBI interview notes when the 
Department considered its investigation to be closed. Is that 
correct?
    Mr. Raben. Yes.
    Mr. Waxman. All of the interview summaries requested by 
Chairman Burton involved investigation of Democrats. However, I 
understand that the Justice Department's campaign finance 
investigation has examined allegations relating to both 
Democratic and Republican fundraising practices; is that 
correct?
    Mr. Raben. I don't have independent knowledge of that. I 
have read accounts of those. I presume that to be true.
    Mr. Waxman. Some investigations into Republican practices 
are also closed investigations. If the committee requested 
copies of the FBI interviews relating to these closed 
investigations, is there any reason why the Department could 
not provide copies of the interview notes?
    Mr. Raben. Our policy for the provision of 302s has been 
that the 302 should be a summary of a closed case, and it 
should be a request of the committee, and then we would redact 
for the normal 6(e) and privacy redactions. If there are any 
others, I'll let you know, but that's the basic policy.
    Mr. Waxman. There have been serious allegations relating to 
the fundraising practices of former national committee head 
Haley Barbour. In fact, some of the most serious allegations 
involving foreign campaign money in the 1996 election concern 
Haley Barbour and the National Policy Forum. According to these 
allegations, Mr. Barbour solicited over $1 million in foreign 
money from a Hong Kong businessman named Ambrous Young for an 
entity called the National Policy Forum, which was an arm of 
the Republican National Committee. These funds were then used 
in 1994 congressional races around the country. According to 
press accounts and other sources, individuals reportedly with 
knowledge relevant to the Haley Barbour allegations include 
Haley Barbour and Ambrous Tung Young, Benton Becker, Richard 
Richards, Mark Braden, Steven Richards, David Norcross, Michael 
Baroody, Fred Volcansek, Donald Fierce, Scott Reed, Daniel 
Denning, Henry Barbour, Jo-Anne Coe, Kevin Kellum, John Bolton, 
Jay Benning, Steven S. Walker, Jr., Ed Rogers and Kirk Blalock. 
Mr. Raben, will you provide the committee with summaries of any 
FBI and DOJ interviews with these individuals as well as any 
other FBI and DOJ interviews with witnesses with knowledge 
related to allegations that Republicans raised illegal 
contributions?
    Mr. Raben. We respond to these requests in a nonpartisan 
way. At the request of the committee, we will provide 302s of 
closed investigations redacted, as I said, for 6(e) and 
privacy, yes, sir.
    Mr. Waxman. Another area that I have repeatedly asked----
    Mr. Raben. I should probably clarify that so as not to 
mislead you. It needs to be at the request of the committee.
    Mr. Waxman. If the committee has requested the 302 
interviews from you of the closed cases for Democratic campaign 
questions, then I see no reason why this committee shouldn't 
also request of you the 302s of the interviews relating to 
closed investigations of the Republican National Committee, Mr. 
Haley Barbour, and those that I mentioned.
    Mr. Chairman, I would like to ask you to join me in 
requesting the DOJ provide the committee with these interview 
summaries.
    Mr. Burton. I just was made aware of the request by the 
ranking minority member, and I haven't had a chance to check 
with the parliamentarian about the justification of whether or 
not we should go ahead with this, and I will be happy to do 
that.
    Mr. Waxman. Well, Mr. Chairman, it's not a question for the 
parliamentarian. It's a question for this committee. This 
committee has routinely asked for the 302s when there was an 
investigation of Democratic potential finance abuses, and when 
the Justice Department closed the cases, you asked that we get 
those 302s because we wanted to evaluate how they've acted. 
There have been investigations of Republicans, and these cases 
have been closed, and we ought to get the 302s from those cases 
as well. There's no difference, and there's no rationale that 
would say that this committee would want to get the 302s for 
what the campaign finance investigation did for some of these 
Democratic accusations. When there are accusations against 
Republicans, we ought to get those documents as well.
    Mr. Raben, another area I repeatedly asked the committee to 
investigate are allegations made by Texas businessman Peter 
Cloeren regarding the 1996 campaign and Republican candidate 
Brian Babin. According to these allegations, Majority Whip Tom 
DeLay and Mr. Babin knowingly participated in a scheme to 
funnel illegal conduit contributions to Mr. Babin's campaign 
through vehicles that include an entity known as Triad 
Management.
    The DeLay-Babin allegations are also some of the most 
serious allegations that have been made relating to conduit 
contributions in the 1996 campaign. In this case there is 
specific and credible evidence that a senior Republican Member 
of Congress and a Republican congressional candidate knowingly 
participated in a scheme to funnel illegal conduit 
contributions. According to media accounts and information 
gathered by my staff's investigation of these allegations, 
individuals who purportedly have knowledge relevant to the 
DeLay-Babin allegations include Peter Cloeren, Brian Babin, 
Representative DeLay, Robert Mills, Paul Peveto, Mike Lucia, 
Gail Averyt, Robert and Dawn Cone, Floyd and Anne Coates, Karen 
Malenick and Walter Whetsell.
    Mr. Raben, will you provide the committee the interview 
summaries for any interview DOJ and FBI conducted of these and 
other individuals regarding the DeLay-Babin allegations?
    Mr. Raben. As I said, sir, our policy is at the request of 
the committee, we will provide 302s for closed investigations 
redacted for privacy in 6(e).
    Mr. Waxman. Every time I've raised this issue for our 
committee to investigate it, the chairman has said this issue 
has been investigated by the Department of Justice, and they 
closed the case. So I would like to ask the chairman if he 
would join me in requesting that DOG provide the committee with 
these summaries of any interviews with these individuals 
regarding the DeLay-Babin allegations.
    Mr. Raben. We've been called many things, sir, but not DOG.
    Mr. Waxman. After a while even a J becomes a G with my 
speech impediment. I'm hopeful.
    Obviously discussions are going on that we can get these 
documents. There's no reason not to. We ought to get the 
documents from you for our committee to know what kind of job 
Justice Department has been doing investigating allegations of 
campaign finance abuses. And I would hope, Mr. Chairman, that 
we can have an agreement on this. If not----
    Mr. Burton. Give me a second.
    I've talked to the staff about this. We have, according to 
the staff, a large number of 302s outstanding, and if we agree 
to this, the 302s relating to Peter Cloeren and Haley Barbour, 
we want the Justice Department to understand that we want all 
of the 302 outstanding document requests that we're talking 
about given to us along with these, and if that's agreed to, 
how many--we should get--we've actually asked for those 
sometime back, but we should be getting those if not 
simultaneously, before we get these, and if we get that 
agreement from the Justice Department, I have no problem in 
joining with you.
    Mr. Waxman. I think the Justice Department ought to give us 
all--our committee on both sides--the 302s of any cases that 
are closed. That has been their policy. If you have requests 
out, you ought to get your requests satisfied, and we ought to 
get our requests satisfied, and we ought to have it for our 
committee's documents so we can evaluate the job the Justice 
Department has done in this regard. There is a distinction 
between closed and open cases.
    Mr. Burton. I understand. The open cases--the one thing 
that concerns me about the 302s is we believe, Mr. Waxman, that 
there's some politicization of the Justice Department, as you 
know. You may not agree with that, we do, and as a result, we 
believe that some of the cases may be kept open so we cannot 
get the 302s. Now, that's one of the major concerns that we 
have.
    I don't think we have any big objection to you getting 
these 302s, but what we want to do is get the 302s that we've 
requested, and if we can get that, since we've requested it 
some time ago, then I think we can work this out.
    Mr. Waxman, we're talking not only about 302s, but other 
subpoenaed documents we requested from the Justice Department 
that the Justice Department has not given us. I mean, there's a 
whole host of things, 302s, documents that we've requested, the 
La Bella and Freeh memos which we have never received, and we 
don't understand why in the world there should be a----
    Mr. Waxman. If you'll excuse me, Mr. Raben. This committee 
has asked for 302s from the Justice Department on cases that 
have been closed. The Justice Department has furnished 302s on 
some of those cases. The majority on the committee is asking 
for additional 302s for closed cases. We're asking for 
additional--we're asking for 302s on the cases that I 
mentioned.
    Now, the committee majority may be asking for other 
documents as well that you may or may not be able to give them 
for one reason or another. That you have to deal with the 
committee majority on. But for the 302s on cases that are 
closed, the Republicans ought to get what they've requested and 
we ought to get what we've requested. And, Mr. Chairman, I 
would like you to join with me in making that demand of the 
Justice Department at this hearing.
    Mr. Burton. The problem that we have--and I have no 
objection, like I said, to getting these 302s. But when the 302 
is requested--for instance, on former Congressman Solomon, that 
302 was brought over to us in 1 day. Other 302s that we 
requested have been languishing for months and months and we 
have not received them. And so what we want to do is make sure 
that the documents and the 302s that we requested we get 
immediately. And we'll go along with the 302s that you request. 
They can get them to you as quickly as they want to. But we 
want the documents we've subpoenaed and the documents we 
requested in the form of 302s as well.
    Mr. Waxman. Let me join with you in making a joint request 
of the Justice Department that you give us all the 302s that 
we're asking for to which we're entitled and that they all come 
in together. And that if the chairman is concerned that we'll 
get ours and they won't get theirs, let's make a request that 
you give them all to us as quickly as possible.
    Mr. Burton. Why don't we do this? If you gentleman would 
yield--if the gentleman would yield, there is no motion on the 
floor. If the gentleman would yield, why don't we issue a 
subpoena for the document--for the 302s that you have requested 
and in that subpoena we will request or we will issue a 
subpoena that includes the documents that we have requested and 
the 302s that we have requested. That way, everything will be 
in one subpoena. That way, you'll get what you want, and we'll 
get what we want. Do you have any objection to that?
    Mr. Waxman. Mr. Chairman, I think we have the makings of an 
agreement. I just want to clarify that what we want in the 
subpoena are the names that I read with regard to the Haley 
Barbour allegations and the Cloeren allegations, all of those, 
and you have the list we've given you, of those cases. And so 
all of those names ought to be subpoenaed for 302s that the 
Justice Department, FBI would have. If you want to add to that 
subpoena other documents, I have no problem with that.
    Mr. Burton. Well, what we want to do is make sure that all 
documents that we have previously subpoenaed, all 302s that 
we've requested and subpoenaed in addition to what you've 
requested here today, all be given to us in a timely fashion 
and that we don't want--and this has to be spelled out so 
Justice understands it, we don't want the 302s for Republicans 
given to the Democrat minority before we get the documents that 
we've requested subpoenaed in the past. Simultaneously, that's 
fine. But we don't want this favoritism shown one way or the 
other.
    Mr. Waxman. Mr. Chairman, that's agreeable with us.
    Mr. Burton. How about in the subpoena it be specified that 
all the documents be given jointly to both the majority and 
minority staff simultaneously?
    Mr. Waxman. That's reasonable.
    Mr. Raben. Sir, I----
    Mr. Burton. If you would just hold for just a second here. 
Is there--I actually don't even need a motion, but if you care 
to make a motion.
    Mr. Waxman. Well, Mr. Chairman, but based on the 
agreement----
    Mr. Burton. They said a motion is not necessary.
    Mr. Waxman. Based on our discussion here we have given and 
we will submit on the record a list to you.
    Mr. Burton. We have a list.
    Mr. Waxman. You have the list.
    Mr. Burton. The list is a matter of record. We will submit 
the list for the record today so that there's no doubt today 
but what it consists of. So it will be a part of the record. It 
will be in there today.
    Mr. Waxman. Mr. Chairman, I want to thank you very much for 
this agreement. And we will go along with your request.
    Mr. Burton. The subpoena in detail will be issued and we 
will consult with both the majority and minority counsels to 
make sure that correspondence going along with the subpoena is 
detailed thoroughly so there's no misunderstanding about that.
    Mr. Barr. I would like unanimous consent that the record 
reflect that I object to this procedure.
    Mr. Burton. The record shall reflect that.
    Is there further discussion? Mr. Waxman you still have 
time.
    Mr. Waxman. I still have time, and I'll yield to my members 
who want to ask Mr. Raben some questions. Otherwise, I think 
members who have come----
    Mr. Raben. May I, sir, say what I have been trying to say? 
I would be eager to work with you as we have tried to work in 
the past to be responsive to all of the requests. If I heard 
part of your agreement to be that nothing would be produced 
until everything that was producible was produced, if I heard 
that to be the case, then I would need clarification on that. 
That would be inconsistent with what I think is a relatively 
healthy protocol that we have been able to work out with the 
majority which prioritizes among the list of documents and 302s 
they want.
    Now, we have not, for a variety of production reasons, been 
able to meet the priorities jot and tittle, but the priorities 
have been useful, I understood, for both the committee and for 
us. And I would hope that we would--among the cohort of 
materials that you're going to identify in this subpoena that 
we would hold open the opportunity to talk with you about that.
    Mr. Waxman. Let me say on our part we'll talk to the 
chairman about that and decide how we're going to proceed.
    Mr. Burton. OK. The thing that Justice needs to know, 
though, is that we are adamant about documents that have been 
previously subpoenaed and requested that we have not received. 
And if we're going to--as we've agreed to, we're going to ask 
for these 302s in a subpoena for the Democrat minority. We want 
to make sure that the Justice Department gives us the documents 
that we are entitled to--legally entitled to that we have not 
yet received in accordance with the subpoena. You will convey 
that to them.
    Do you have any more comments?
    Mr. Waxman. I have some time if anybody wants me to yield. 
If not, I yield back the time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Ose. Mr. Chairman, down here amongst the----
    Mr. Burton. Mr. Ose.
    Mr. Ose [continuing]. Kiddie table. Thank you. Did I 
understand the comments from this gentleman to be that we would 
not receive anything until we received everything?
    Mr. Burton. It was my understanding--and, of course, this 
is something that was sprung on us very late in the day here. 
It was my understanding that there might be a rolling 
production of these things, but the minority and majority 
together would make sure that they were given in a timely 
fashion and in a fair and equitable way.
    Mr. Ose. Are we going to have a date certain, a date 
certain by which these things will be produced?
    Mr. Burton. We will put a date certain on the subpoena. I 
think that's something that should be done. But it has to be in 
a fairly reasonable period because we're talking about a 
substantial number of 302s.
    Is there further discussion? Any questions or any comments 
from any members?
    I apologize for hauling everybody in here, but we thought 
we were going to have a procedural vote, and we didn't want it 
to be biased.
    Is there further discussion to come before the committee 
today? Mr. Raben, did I get that right?
    Mr. Raben. No, Raben.
    Mr. Burton. I have a heck of a time with that. We would 
like to meet with you or somebody from the Justice Department--
you have further questions, Mr. Barr?
    Mr. Barr. I do Mr. Chairman.
    Mr. Burton. Mr. Barr, you're recognized for 5 minutes.
    Mr. Barr. Mr. Raben, with regard to your statement--I think 
it was contained in your April 24th letter--that, ``no limits 
were imposed on the subject matter of the Campaign Financing 
Task Force's interviews of the President and Vice President.'' 
Where did that information come from?
    Mr. Raben. Where did the information that no limits were 
imposed come from?
    Mr. Barr. Yes. What's your basis for making that statement?
    Mr. Raben. That letter was written in part with help from 
the Campaign Finance Task Force, and the basis for that 
statement is that it's the truth. That--I'm sorry. Let me start 
again. Let me start again.
    We've had a subsequent correspondence after that letter. 
When we got a letter from the chairman on April 28th pointing 
out confusion about that statement, I agreed with the chairman 
that the statement is inconsistent with the factual evidence 
that we provided with that letter. That is letter--an exchange 
of letters between I believe it's the Campaign Finance Task 
Force and counsel to the President and Vice President in which 
there appears to be an agreement on the subject matter for that 
set of interviews.
    When I looked at that in response to the chairman's 
response to my letter, I agreed with him that that is a record 
that seems to limit the questioning. I think the proper 
statement--and had I to do it over again, I would have said 
that there was--we have no information, we have no evidence of 
an imposed limitation, that is, from outside the Campaign 
Finance Task Force.
    I have the Attorney General saying on the record in a 
letter to the chairman March 21st that she has--``I have 
repeatedly urged the task force to follow the evidence wherever 
it leads.'' That's the closest sense of a statement from her 
that I have with respect to her involvement. But what I should 
have written and what is accurate is that we have no--I have no 
evidence of an imposed limitation on the task force.
    Mr. Barr. There were limitations on their questioning of 
the President and Vice President.
    Mr. Raben. The farthest I go on that is they seem to have 
engaged in an agreement--a voluntary agreement with counsel 
about the subject matter of that set of interviews, and we have 
records of that which we provided. And if there are more, I've 
asked people to redouble and see did we miss something given my 
too small view of what records means in that case. And I am 
told--I've never prosecuted, I know you have, but I have never 
prosecuted--that it is not uncommon for prosecutors to consult 
with counsel for witnesses or defense about the range of 
questioning that might come. But, as I say, I have no sense 
that there was an imposed limitation from elsewhere in the 
department or elsewhere.
    Mr. Barr. For example, there were no--at no point has the 
President been asked a single question about James Riady, John 
Huang or Charlie Trie.
    Mr. Raben. I don't know that I know that.
    Mr. Barr. That wasn't a question. It's a statement. The 
President was not asked. Was this just----
    Mr. Raben. The President wasn't asked in certain interviews 
that you've seen the 302s from.
    Mr. Barr. That is true, too.
    Mr. Raben. But the President and the Vice President have 
been interviewed a total of seven times, and I don't know what 
the subject matter was of the last sequence.
    Mr. Barr. Charles La Bella has also said that it was the 
Attorney General's decision that the interviews would be--I 
think the word was ``focused,'' which means limited.
    Mr. Raben. Yeah. I don't know what he was referring to. He 
may--I read that as well. He may have been referring to the 
voluntary agreements that were entered into by the Campaign 
Finance Task Force and counsel for the President in those 
interviews. I don't know. I know that the President--that the 
Attorney General has written to you, to the committee, ``I have 
repeatedly urged the task force to follow the evidence wherever 
it leads.''
    Mr. Barr. It may not be uncommon for prosecutors and 
attorneys for defendants to--or for deponents to have an 
agreement beforehand about certain areas, although it would be 
uncommon for prosecutors to simply not go into fruitful areas 
of inquiry. That certainly is not the case.
    It is also very common that if there is an agreement 
between a prosecutor and the attorneys for a witness to limit 
the area, the prosecutor is going to get something in return 
for it. I mean, good prosecutors don't just go in and say, oh, 
please limit the areas that I can question you on. They want to 
get something in return, and they then reduce that to writing.
    Were either of those things done in this case when the 
decisions were made, as they apparently were, to limit or 
focus--whatever word you want to use--or agree to go into only 
certain areas? One, what did the prosecutors get in return for 
it, that concession on their part? Because that is a concession 
on the part of a prosecutor not to go into certain areas of 
questioning. Was it reduced to writing?
    Mr. Raben. Two parts. You have prosecuted. I have not. I 
can't speak to the strategy which sounds----
    Mr. Barr. I'm just asking two factual questions.
    Mr. Raben. OK. I may have misunderstood your question. But 
your premise was that give and take, that it's a bargain----
    Mr. Barr. You don't have to respond to the premise. That's 
my premise. What I would appreciate you responding to is the 
two questions.
    Mr. Raben. OK. I only remember one. I have one question. 
You have to tell me what the other is. The question that I know 
is, that I hear you asking, is there documentation or evidence 
of such an agreement. The only thing which I am aware is what 
we provided, the exchange of letters that seems to define the 
categories for that interview.
    Mr. Barr. Those letters we have. There are no other 
letters.
    Mr. Raben. Yes. Last night--last night, after rereading the 
chairman's letter of April 28th--and, as I said, I agreed with 
him, and I have asked staff and relevant Campaign Finance Task 
Force people to look again and see if we underinterpreted the 
request the first time around.
    Mr. Barr. Will you be able--we have another hearing--
another day of hearing on this subject matter tomorrow.
    Mr. Burton. We do.
    Mr. Barr. Could the chairman direct that we receive a 
final, definitive, absolute answer to that question tomorrow at 
least?
    Mr. Raben. Am I directed?
    Mr. Burton. I can make that request. Is there a ball bat in 
the House? Maybe I can make sure I get it.
    Mr. Raben. Is there a what in the House?
    Mr. Burton. The request that he's talking about.
    Mr. Raben. I just didn't hear what you said, I'm sorry.
    I'll direct it ASAP. I think it's very important.
    Mr. Burton. We would like to have it by tomorrow.
    Mr. Raben. I hear you.
    Mr. Barr. There really shouldn't be any problem because, 
presumably, there isn't anything because they have already been 
tasked with----
    Mr. Raben. I hear you. We'll look.
    Mr. Barr. The other part to my question, premised on the 
same basis, is what did the government prosecutors get in 
return for conceding not to go into certain areas of inquiry 
with these two witnesses?
    Mr. Raben. I have no knowledge of that. I have no idea that 
anything of the sort occurred. I have no knowledge.
    Mr. Barr. Wouldn't it make sense? Wouldn't it be common 
sense that if a prosecutor is going to go into an interview 
with a witness and not go into fruitful areas of inquiry, that 
they at least are getting something in return unless all three 
of the parties, the prosecutor, the government, the witness's 
lawyers and the witness are colluding, which may be what 
happened here, that the three of them got together and said we 
are--we don't want these areas gone into. The Department of 
Justice says, yes, sir, absolutely, we will not go into these 
areas, because you're the President or your attorneys don't 
want us to. That's certainly possible, is it not?
    Mr. Raben. I hear you, sir. To me, it's a speciality. It's 
not about common sense. I don't prosecute.
    Mr. Burton. Does the gentleman have further questions?
    Mr. Barr. I have no idea what he just said. There's no 
common sense in----
    Mr. Raben. You asked me, sir, was it common sense that 
there would be a bargain like that. I don't think that's a 
question of common sense. I think that's a question of 
professionalism and strategy about prosecution, and I don't do 
that.
    Mr. Barr. Professionalism, one would hope, is common 
sensical. Used to be.
    Mr. Burton. Gentleman's time has expired.
    Are there further questions by any member of the committee?
    If not, this has been a very interesting day. I hope 
tomorrow is as interesting but not as contentious. We stand 
adjourned. Thank you very much.
    [Whereupon, at 5:10 p.m., the committee was adjourned.]


   WHITE HOUSE E-MAILS: MISMANAGEMENT OF SUBPOENAED RECORDS--DAY FOUR

                              ----------                              


                         THURSDAY, MAY 4, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Morella, Shays, Ros-
Lehtinen, Barr, Hutchinson, Terry, Chenoweth-Hage, Waxman, 
Lantos, Kanjorski, Norton, Cummings, Kucinich, and Ford.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; 
Pablo Carrillo and M. Scott Billingsley, counsels; Jason Foster 
and Kimberly A. Reed, investigative counsels; Kristi Remington, 
senior counsel; Robert Briggs, deputy chief clerk; Michael 
Canty, legislative adie; Leneal Scott, computer systems 
manager; Lisa Smith Arafune, chief clerk; Maria Tamburri, 
assistant to chief counsel; Corinne Zaccagnini, systems 
administrator; Phil Schiliro, minority staff director; Phil 
Barnett, minority chief counsel; Kenneth Ballen, minority chief 
investigative counsel; Kristin Amerling, minority deputy chief 
counsel; Paul Weinberger, minority counsel; Ellen Rayner, 
minority chief Clerk; Jean Gosa and Earley Green, minority 
assistant clerks; and Andrew Su, minority research assistant.
    Mr. Burton. The committee will come to order.
    A quorum being present, the Committee on Government Reform 
will now sit in session.
    I ask unanimous consent that all Members' and witnesses' 
written opening statements be included in the record; and, 
without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    I also ask unanimous consent that questioning in this 
matter proceed under clause 2(j)(2) of House rule 11 and 
committee rule 14 in which the chairman and ranking minority 
member allocate time to members of the committee as they deem 
appropriate for extended questioning, not to exceed 60 minutes 
equally divided between the majority and minority. Without 
objection, so ordered.
    I also ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House rule 
11 and committee rule 14 in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning, not to exceed 60 minutes 
divided equally between the majority and minority. Without 
objection, so ordered.
    Today marks day 4 of our hearings into the White House e-
mail matter. Yesterday, we focused on what was happening in the 
Office of Administration. I made four general points about what 
we learned. I think they bear repeating.
    First, more evidence is emerging that the Northrop Grumman 
employees who discovered the problem were threatened by White 
House staff and ordered to keep their problem secret.
    Second, it's clear that technical people in the Office of 
Administration were trying to get the problem fixed. But months 
and months were going by, and they couldn't get anyone at a 
higher level to approve it.
    Third, there was an appropriations committee hearing in 
March 1999. There was discussion going back and forth within 
the Office of Administration about whether to tell the 
Appropriations Committee about the e-mail problem, but the 
committee was never informed.
    Fourth, we have been informed that there was a second 
briefing of the White House counsel's office about the e-mail 
problem. The first briefing happened in June 1998. The second 
briefing happened in the spring of 1999. But this committee was 
never informed that our subpoenas had not been complied with 
until we read about it in the newspaper in February 2000 and 
started our own investigation.
    I think it's worth restating why we're here today and why 
we're conducting this investigation.
    There was a very serious illegal fundraising scandal 
involving the Clinton administration. Several million dollars 
from foreign sources were funneled into the DNC. The head of 
China's military intelligence agency gave Johnny Chung $300,000 
to give to the President's campaign. Charlie Trie, a friend of 
the President's, brought hundreds of thousands of dollars from 
a Buddhist sect in Taiwan to the Presidents' legal defense 
fund. More than a 120 people have either taken the fifth 
amendment or fled the country to avoid questioning.
    This was a serious problem. This committee started an 
investigation. We issued several subpoenas to the White House 
for documents. We struggled for a long time to get those 
documents, and I'll talk about that more in a minute. 
Eventually, we got a certification from the White House that we 
had been given all the documents to which we were entitled.
    Now in June 1998 the White House discovered that it had a 
serious e-mail problem. Two and a half years of incoming e-
mails weren't put into the ARMS system. That means 2\1/2\ years 
of incoming e-mails weren't searched to see if they had to be 
produced to the Congress or the Justice Department or the 
independent counsels that subpoenaed documents.
    This was not a trivial number of documents. It was 246,000 
plus e-mails. Now, if you receive a lawful subpoena and you're 
in possession of relevant documents that haven't been turned 
over, you have a legal obligation to tell the investigating 
agency and you have an obligation to produce the documents. If 
you don't do it, it's called obstruction of justice.
    We were not informed in 1998. Neither was the Justice 
Department and neither were the independent counsels.
    We weren't informed in 1999. Neither was the Justice 
Department or the independent counsels.
    We weren't informed until March 2000. That's 1 year and 9 
months after the White House counsel's office was briefed. And 
I want everyone to understand how we were informed, because we 
didn't just get a call out of the blue. Here's how it happened:
    On February 14th, the e-mail problem was reported on the 
front page of the Washington Times.
    On March 7th, my staff interviewed the Northrop Grumman 
contractors.
    On March 8th, I wrote to the White House counsel and the 
Attorney General. And it wasn't until I interviewed those 
contractors and wrote those letters that anything happened.
    On March 10th, the Justice Department called the White 
House to ask for an explanation.
    On March 15th, the White House counsel's office provided an 
explanation to the independent counsel.
    On March 20th, the White House gave the Justice Department 
a written explanation.
    So, to summarize, in coming e-mails from 2\1/2\ years were 
kept under wraps. The White House knew about it for almost 2 
years, but they didn't inform the Justice Department until we 
started looking into it. And the justice Department didn't 
start an investigation until they realized that we were looking 
into it. And lawyers within the Justice Department's Civil 
Division had known about this for a long time.
    That's a shameful record. Time and time again, we've seen a 
very cozy relationship between this Justice Department and this 
White House. That's why the Attorney General should have 
appointed an independent counsel for the fundraising 
investigation 2 or 3 years ago. That's why she should appoint a 
special counsel for the e-mail investigation today.
    Today we're going to focus on the White House counsel's 
office. The reason is simple. The technicians in the Office of 
Administration are not responsible for complying with 
subpoenas. The White House counsel is.
    So the question is this: What did the counsel's office know 
and when did they know it?
    The counsel at the time was Charles Ruff. We know that on 
June 18, 1998, the day after the problem was discovered, he got 
a detailed memo. He was briefed on the entire situation. 
According to his calendar, the deputy counsel, Cheryl Mills, 
was with him.
    So far, we're being told that there was a big disconnect. 
The people at the counsel's office just didn't get it. It was 
too technical for them.
    Yesterday, we were told that there was a second briefing. 
Mr. Lyle told us that in the spring of 1999 the so-called 
letter D problem was discovered. He told his boss, Mr. Lindsay. 
Mr. Lindsay told Mr. Lyle that he briefed the counsel's office. 
Mr. Lindsay is here today, and we're going to ask him who he 
talked to and what he told them.
    So was there a second disconnect? Did the counsel's office 
still not get it or did they understand it and just decided not 
to do anything about it? Mr. Ruff and Ms. Mills are here today, 
and we'll ask them.
    Mr. Ruff and Ms. Mills have been here before. They both 
testified in the fall of 1997, and I'm sorry to say that we 
haven't had much in the way of cooperation from them over the 
years.
    We almost had to hold Mr. Ruff in contempt to get him to 
turn over any documents to us in 1997. We discovered that 
hundreds of videotapes of the President at fundraisers had been 
withheld from us, and we were told that the counsel's office 
didn't realize that they were there. But Ms. Mills had written 
memos on the subject to the White House staff.
    Ms. Mills withheld important documents from the White House 
data base investigation in her office. Ms. Mills refused to 
cooperate with this investigation. We called her three times to 
ask for an interview, and she didn't return our phone calls. We 
sent her a letter, and she said she was too busy to give us an 
interview. I told her that we would subpoena her, and she said 
that she was busy. We were able to subpoena her, but since she 
has refused to cooperate we have not been able to speak to her 
before today. Her lack of cooperation really makes me ask what 
she's trying to hide.
    And now we have 246,000 e-mails that were never searched.
    If something like this happens once, you might believe it's 
a mistake. If it happens twice, you get a lot more skeptical. 
If it happens over and over again, it doesn't leave much doubt 
about what's going on.
    I think Harold Ickes summed it up best. He was quoted in a 
new book. He said, the White House has a foot-dragging, screw 
you attitude. And I'm being generous with that terminology. 
That's the PG version of what he said.
    So we're going to listen to what Mr. Ruff and Ms. Mills 
have to say today, but, given the past track record, they've 
got an uphill road to climb to convince us that everything was 
on the up and up.
    On our second panel we have invited White House Counsel 
Beth Nolan and Associate Counsel Dimitri Nionakis to testify.
    Last fall, Mr. Nionakis was handling document production 
for our Waco and FALN subpoenas. He sent us several letters 
assuring us that all documents were being searched. He told us 
specifically that archived e-mails were being searched. He 
never said anything about 2\1/2\ years of incoming e-mails that 
were not being searched.
    Did Mr. Nionakis understand the e-mail problem? We'll ask 
him that question today.
    Getting him here wasn't easy. He really resisted coming. 
Yesterday, he disappeared when we tried to serve him with a 
subpoena. For the first time ever, I think, we had to ask the 
U.S. Marshal's Office to serve a subpoena to the White House. 
Instead of tracking down fugitives yesterday afternoon, the 
Marshals had to spend the afternoon tracking down a White House 
lawyer.
    Last night, my staff asked Beth Nolan if she had instructed 
Mr. Nionakis not to accept service of the subpoena; and she 
said, ``I will not answer that question.'' They asked her if he 
had gone to work yesterday or if he was avoiding the Marshals. 
She said, ``I will not answer that question.''
    I think the American people have a right to know what 
happened. What happened yesterday was not what I call a bright 
new beginning in our relationship with the White House. Instead 
it was more of the same.
    However, we've reached an agreement. Mr. Nionakis is going 
to testify alongside the chief counsel for the President, Ms. 
Nolan, today.
    I want to get on with the questioning, so I'll stop here. I 
think we have a full day ahead of us. I would like to get 
things moving, and I now yield to Mr. Waxman.
    Mr. Waxman. Mr. Chairman, I am looking forward to the 
testimony we're going to receive today so I have no formal 
statement. But I do want to point out for the record what your 
statement that was just delivered is filled with inaccuracies 
and omissions and creates, unfortunately, a distorted picture 
of the events.
    The second thing I want to point out is that we've all 
heard about frivolous lawsuits, and no one would want to defend 
a frivolous lawsuit, but this committee seems to be in the 
habit of making frivolous accusations and even referrals to the 
Justice Department against people who have chosen to serve the 
public and accuse them of criminal action, perjury, obstruction 
of justice, whatever.
    One of our witnesses, Cheryl Mills, is no longer working 
for the government. She worked at the White House with great 
distinction. She's now in the private sector. And this 
committee referred to the Justice Department an accusation 
against her at one time that because they didn't like her 
statements, that she had committed perjury. Well, she was 
exonerated from that charge. It besmirched her reputation when 
those kinds of accusations were made. I think an apology is due 
her, and I would hope the committee would find it in its sense 
of decency to apologize to her as well.
    She is here today even though she asked, because she's in 
the private sector, that her schedule be accommodated, but this 
committee was not willing to accommodate her schedule. I think 
that's unfortunate.
    Mr. Ruff is no longer with the government either. He served 
with great distinction as the White House counsel. He has an 
unsurpassed reputation for integrity and honesty and legal 
ability. He is here at the request of the committee to answer 
questions.
    And the issue before us is one of whether there was any 
intentional withholding of information about e-mails that 
because of technical snafus didn't get picked up in a 
centralized system, whether some of those e-mails were withheld 
from the appropriate committees of Congress and other 
investigators, whether they were actually withheld, and if they 
were withheld, whether it was an intentional act.
    These are questions worth pursuing. We pursued it over and 
over and over again. This is the fourth or fifth hearing we've 
had on this subject. I don't think that we've established to 
this point evidence of any wrongdoing or any kind of 
conspiracy, even though the majority has tried to paint that 
picture.
    I just point out this is probably one of the few committees 
that has in its room a clock that is never right. I don't know 
what that tells us. But the clock that's running evidently in 
this room appears to not be an hour behind or to have failed to 
change for daylight savings time or whatever. It just is 
incorrect. And it is fitting in this room, where so many of the 
statements are often incorrect, that we're sitting in this 
hearing today.
    I look forward to the testimony. I appreciate these 
witnesses being here. Mr. Lindsay, who's also testifying, 
already testified before us for many, many hours. I don't know 
what else there is to ask him. But I'm sure there will be 
questions, and he was very forthright in his responses last 
time. I expect him and the other witnesses to be so today. I 
look forward to their testimony.
    Mr. Burton. Would you please rise so you can be sworn.
    [Witnesses sworn.]
    Mr. Burton. Do any of you have opening statements you would 
like to make?

                   STATEMENT OF CHARLES RUFF

    Mr. Ruff. Mr. Chairman, thank you. I do not have a formal 
opening statement, but I do wish briefly, if I may, to respond 
to one theme that you have sounded not only today but in prior 
hearings.
    Because, independent of the e-mail issue that we will be 
talking about today, I fear that the record reflects a simply 
incorrect version of historical events. You and I have over the 
course of my tenure at the White House had I think not 
necessarily a fully friendly but always an open and candid 
relationship in which you have been very direct with me and I 
have been very direct with you. I intend to do the same today, 
as I'm sure you will.
    The notion that somehow the White House was less than 
forthcoming or cooperative with this committee is I think a 
mischaracterization of the White House and the White House 
counsel's office. I no longer have any official role nor need 
to defend the institution of the White House counsel's office, 
but to the extent that it suggested that either somehow the 
threat of contempt, which was very pointed and very real to me, 
was necessary to extract missing documents from the White House 
or that we were somehow laggard in our efforts to produce 
documents for this committee over the years is simply 
incorrect.
    As the Chair knows, our battles in the spring of 1997 over 
certain claims of possible privilege involved a full disclosure 
to the committee of what those documents were, a relatively 
small handful of them ultimately turned over in the face I 
admit of your contempt threat. But as you know from having seen 
those documents, there was absolutely nothing of any substance 
in them, and they were entirely legitimate in our efforts to 
bring them under what we understood them to be, equally 
legitimate claims of important constitutional privilege. Any 
suggestion that somehow the White House counsel's office during 
my tenure and Ms. Mills' tenure was anything other than 
forthcoming to the full extent of our knowledge, Mr. Chairman, 
I submit with all respect, is simply, flat-out wrong.
    Mr. Burton. Ms. Mills.

                   STATEMENT OF CHERYL MILLS

    Ms. Mills. Thank you. Mr. Chairman, Representative Waxman, 
members of the Committee on Government Reform, my name is 
Cheryl Mills. For almost 7 years I served in the White House 
counsel's office under President's Clinton. During my tenure, I 
served first as an associate counsel and later as deputy 
counsel.
    When I arrived, I was 27 years old. I was 34 when I left 
last October. I came into government because I believed that 
the opportunity to serve this country was a valuable one. I 
believed that giving of my time, my energy and even my soul to 
try to make a difference was important. I believed that the 
gift of one's labor, the gift of one's love for this country 
was one of the purer things that I, like other young people, 
had to give.
    When I left, it had become hard for me to believe anymore. 
I left increasingly cynical about Congress' commitment to 
improving the lives of Americans. I left deeply troubled by the 
culture of partisanship in Washington that with each passing 
day was threatening the very essence of what is good and what 
is right and what is joyful about public service. When I left, 
it was no longer obvious to me that serving in government with 
a Congress that was committed to oversight by investigation was 
worth the high toll that it exacted.
    And the greatness of that injustice is not in its harm to 
me. I am only one person. Rather, it is in the damage that it 
does to all the ideals of the young people who decide never to 
serve, the young people who decide that no one should have to 
love their country enough to have their integrity and their 
service and their commitment to doing the best they can 
impugned by some who sits in this body, the young people who 
decide that their desire to serve their country and a President 
is not outweighed by the risk to their reputation, their 
livelihood and their family, the young people who decide that 
too many who toil in this body have forgotten that their 
exalted positions are but loaned to them by the young on the 
understanding that they will seek what is best for our country 
and not what is least.
    I left because I knew that time and distance would allow me 
to see again the many Members who serve honorably in Congress 
every day, Members who choose to work hard for their 
constituents on issues that will enrich their lives and men and 
women who get up each day not thinking about how they can bring 
someone down but how they can lift us all up.
    Mr. Chairman, I left because I was tired of playing a role 
in dramas like today, when so many issues that mattered to me 
were not addressed. You have held 4 days of hearings and spent 
countless more dollars on depositions and document productions 
but yet you have not chosen to use your oversight authority to 
hold 1 day's worth of hearings about a man who was shot dead by 
an undercover New York police officer while he was getting into 
a cab after refusing to buy drugs from that officer; not 1 
day's worth of hearings about any of the 67 cases and counting 
that have been overturned because officers in the Los Angeles 
Police Department planted guns and drugs to frame people, shot 
an unarmed man, and quite possibly murdered another with no 
criminal record, by shooting him 10 times; not 1 day's hearing 
about why African American youths charged with drug offenses 
are 48 times more likely than white youths to be sentenced to 
prison.
    Not to mention all the other ways there which you could 
spend your time making the lives of the individuals you serve 
better, as opposed to tearing down the staff of a President 
with whose vision and policies you disagree. You could choose 
from a myriad of issue, from health care to prescription drug 
benefits to family medical leave, education reform, Social 
Security, judicial reform. Nothing you discover here today will 
feed one person, give shelter to someone who is homeless, 
educate one child, provide health care for one family or 
justice to one African American or Hispanic juvenile. You could 
do so much to transform our country, but you are instead 
choosing to use your great authority and resources only to 
address e-mails.
    The energy your staff will spend pouring over hearing 
transcripts to create a perjury referral for you to send to the 
Justice Department could be spent pouring over the latest 
statistics in the Justice Department's report on unequal 
treatment African American and Hispanic youths receive before 
the law. And the resources that the Justice Department will 
expend reviewing your allegations causing those public servants 
and their families considerable pain could instead be spent 
investigating why America's justice system unfortunately is 
still not yet blind.
    I know I say all this at some personal peril as my words 
today undoubtedly will make me an even greater target of your 
ire. But when I received your letter last week about attending 
this hearing, despite having advised you of my long scheduled 
commitments, a letter in which you simply dismissed my 
engagements, stating that you could not indulge my schedule, I 
got tired and angry all over again.
    And if I had not had a chance to attend a dinner that night 
in honor of the Robert F. Kennedy Memorial Foundation I 
probably would still be angry. Because I would not have had the 
chance to have my faith renewed by the example of what other 
men with your power have chosen to do throughout history to 
enhance the lives of others. I would not have been reminded of 
Robert Kennedy's work on behalf of issues like race and justice 
and poverty and how they embody the true spirit of his greatest 
words. ``It is from numberless diverse acts of courage and 
belief that history is shaped. Each time a man stands up for an 
ideal or acts to improve the lot of others or strikes out 
against injustice, he sends forth a tiny ripple of hope, and 
crossing each other from a million different centers of energy 
and daring those ripples build a current which can sweep down 
the mightiest walls of oppression and resistance.''
    Had I not gone to that dinner that night I would not have 
been reminded that the smallness of any person can never 
overshadow the greatness of those whose acts are bigger than 
life. I would not have been reminded that today, too, will pass 
and that we who love our government are strong enough and not 
too weary. We can outlast a culture of investigation and 
intimidation and idleness on behalf of issues that could truly 
improve the lives of Americans.
    Mr. Chairman, I believe in your humanity and in that of 
your staff, that you, each, have good and bad days, make good 
and bad judgments, render good and bad decisions. Won't you 
believe in the humanity of others with whom you disagree? Won't 
you believe that, as with your mistakes, they too can make 
mistakes that are not conspiratorial? That they too can make a 
bad judgment without that judgment being pernicious? That they 
too can do their best each day and expect more than a biased 
shake or a perjury referral from this committee? That they too 
can be human, without this body using its awesome power to 
exploit their humanity for political gain? Can Tony Barry, a 
man who served his government since 1992, expect that?
    I give my last quotation to Robert Kennedy, because to me 
it is particularly fitting today. He said, ``the Constitution 
protects wisdom and ignorance, compassion and selfishness 
alike.'' But that dissent which consists simply of sporadic and 
dramatic acts sustained by neither continuing labor or 
research, that dissent which seeks to demolish while lacking 
both the desire and the direction for rebuilding, that dissent 
which, contemptuously or out of laziness, casts aside the 
practical weapons and instruments of change and progress, that 
kind of dissent is merely self indulgence. It is satisfying, 
perhaps, only to those who make it.
    I decided that smallness in government can't win and that 
it will not be the weapon to defeat my ideals, that it is not 
powerful enough to alter my belief in the good that so many 
Members who serve in this body do. I decided that, in the final 
analysis, I am not too tired to stand up for all of those who 
believe, even through the drama, that public service is worth 
it. Thank you.
    Mr. Burton. Thank you, Ms. Mills.
    Mr. Lindsay.
    Mr. Lindsay. I believe that my prior statement from the 
last hearing will suffice. I don't have any opening statement.
    Mr. Burton. We'll go directly to the questions. Let me 
start by making a little comment.
    First of all, I thought that was a very eloquent speech 
that you made, Ms. Mills. It was very good, as you can see by 
the reaction from members of the audience and the committee.
    The fact of the matter is, though, that we have been 
investigating or conducting a number of investigations for 
about 4 or 5 years now. Millions of dollars in illegal campaign 
contributions have come in from abroad; 120 people plus have 
fled the country or taken the fifth amendment. We have tried to 
get the White House to work with us to get to the bottom of all 
this. We have been blocked again and again and again. And I'll 
comment on what Mr. Ruff said in just a moment.
    And so the purpose of the hearing is not to try to 
intimidate or bludgeon or hurt anybody but to get the facts out 
for the American people. Lincoln said, ``let the people know 
the facts and the country will be saved.'' And, you know, I 
think that the facts will speak for themselves.
    The White House counsel's office knew some time ago, not 
once but twice, about the e-mail problem. They knew that 
subpoenas had been issued by a number of independent counsels, 
this committee, other committees and the Justice Department for 
documents. And those documents could have been and may be in 
some of those e-mails. There's 240-some thousand of them. And 
yet the White House chose not to tell the appropriations 
committee about them, not to ask for resources for that or 
employees to help go through that mountain of e-mails to comply 
with the subpoenas which they're going to have to do anyhow, 
but they chose to either ignore it or to hide it. That's what 
we want to find out. We're not here to try to intimidate 
anybody but to find out where the responsibility lies and why 
those subpoenas were not complied with as is required by law.
    Now, Mr. Ruff, I have here before me the whole litany of 
correspondence which I will be very happy to give to you so you 
can review what happened. But back when you came to my office 
years ago in 1997, we asked for documents you said that the 
President was not going to claim executive privilege. Then 
later you said you were considering privilege, and we said that 
the executive was not entitled to that privilege. We contacted 
you about that. We sent you subpoenas, you did not comply, and 
then we started to move for contempt, and then you did comply.
    I have a letter here, Mr. Ruff, that's from you that says 
that you have, to the best of your knowledge, given us 
everything. Four months later, we got another 10 or 12 boxes of 
documents, many of those on a Friday night and a lot of it was 
released on Saturday morning to the papers; and they blamed us 
for leaking that to the media when my office had not even 
opened those boxes until Monday.
    So, you know, it's a little disingenuous for you to say 
that you were cooperative with us from day 1 when you and I 
both know, Mr. Ruff, that that's not accurate.
    Now let's get to the questions.
    Mr. Ford. Mr. Chairman, would you yield for one moment, 
sir, before you get to your questions?
    Mr. Burton. I think Mr. Waxman was going to have 30 
minutes. I would prefer that you ask Mr. Waxman for the time 
because we have a full litany of questions.
    Mr. Ford. It's just a unanimous consent request, if you 
don't mind, sir.
    Mr. Burton. Stop the clock.
    Mr. Ford. Just in light of what has been said this morning, 
I was wondering if I could, with a unanimous consent request, 
enter into the record what Senator Hagel said yesterday 
according to yesterday's the Hill newspaper where he criticized 
his fellow Republicans for allowing their deep-seated 
suspicions of Clinton to derail their own political agenda. And 
I think it reads, GOP's Distrust of Clinton Drives Congress's 
Agenda. Just in light of what has been said this morning, if 
the committee does not object.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.615
    
    [GRAPHIC] [TIFF OMITTED] T9621.616
    
    Mr. Burton. Mr. Lindsay, it was in June 1998 when you 
learned about the Mail2 problem, wasn't it?
    Mr. Lindsay. Yes, sir.
    Mr. Burton. After you learned about the problem, you took 
steps to determine the nature of the problem and then assisted 
in the appropriation of exhibit 1--do we have Exhibit 1 to put 
on the screen? exhibit 1. If not, you have it before you, which 
is a memo from Virginia Apuzzo to John Podesta explaining the 
problem--didn't you?
    Mr. Lindsay. That's what I testified to last week.
    Mr. Burton. On June 19, 1998, you met with Charles Ruff, 
the chief counsel, to inform him of the problem, didn't you?
    Mr. Lindsay. That's what I testified to at the last 
session.
    Mr. Burton. Was Cheryl Mills present at that meeting?
    Mr. Lindsay. I have no recollection of ever discussing this 
matter at all with Ms. Mills.
    Mr. Burton. Was Cheryl Mills present at the meeting?
    Mr. Lindsay. Not to my recollection.
    Mr. Burton. You don't recall whether or not she was at the 
meeting.
    Mr. Lindsay. No, I do not, sir.
    Mr. Burton. Well, exhibit 48, Mr. Ruff's calendar, 
indicates that she was present. Now she's one of the highest-
ranking people in the White House counsel's office, and you 
don't remember whether she was there.
    [Exhibit 48 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.311
    
    [GRAPHIC] [TIFF OMITTED] T9621.312
    
    [GRAPHIC] [TIFF OMITTED] T9621.313
    
    Mr. Lindsay. If your question, sir--if that reference 
refreshes my recollection as to whether or not Miss Mills was 
there, my answer to that question would be, no, it does not.
    Mr. Burton. You don't remember. And you don't remember the 
phone call that you made also and talked with Ms. Crabtree, 
then Ms. Crabtree, about with the people from the Northrop 
Grumman corporation present either. You don't remember that 
either.
    Mr. Lindsay. No, I don't. As I testified before, sir, there 
are many, many different conversations that I had with lots of 
people.
    Mr. Burton. I understand you just don't remember. Did you 
state anything to the effect that the technical problem was 
limited only to Monica Lewinsky's e-mails?
    Mr. Lindsay. I don't have a specific recollection of that 
other than what is contained in the memorandum, and I think 
that that document speaks for itself.
    Mr. Burton. Did anyone at the meeting indicate that they 
didn't understand what you were talking about?
    Mr. Lindsay. I don't have any recollection of the reaction 
of what people said to what I said. All I was focused on was 
conveying the information. I believe that the information 
contained in the document contains at least the sum and 
substance and speaks for itself for what I was trying to 
convey.
    Mr. Burton. Mr. Ruff, your meeting with Mr. Lindsay on June 
19, 1998, was that the first time that you were made aware or 
exposed to the Mail2 problem?
    Mr. Ruff. I can't recall, Mr. Chairman, whether I received 
the Apuzzo memo contemporaneously or shortly before the 
meeting, but it's my best recollection that the meeting was the 
first occasion on which I heard of it.
    Mr. Burton. Do you recall what Mr. Lindsay told you about 
the problem?
    Mr. Ruff. Only in very general terms, Mr. Chairman.
    Mr. Burton. You do recall that Mr. Lindsay told you there 
was a failure with the ARMS system that disabled ARMS from 
capturing incoming e-mail.
    Mr. Ruff. I have that general recollection, yes, sir.
    Mr. Burton. Based on the information that Mr. Lindsay gave 
you, were you concerned that the problem might have affected 
the White House's ability to comply with outstanding subpoenas?
    Mr. Ruff. I was, yes.
    Mr. Burton. You were aware of that.
    Ms. Mills, were you at that meeting?
    Ms. Mills. I don't believe I was.
    Mr. Burton. You don't believe you were.
    Ms. Mills. No, because my first recollection of learning of 
this matter was from Mr. Ruff.
    Mr. Burton. So you say you don't recall attending or you 
didn't attend that meeting.
    Mr. Hill. I don't believe I did attend the meeting.
    Mr. Burton. Categorically, can you say you did not?
    Ms. Mills. That's my best recollection.
    Mr. Burton. So what you're saying, your best recollection 
is you really don't remember whether you attended the meeting 
or not.
    Ms. Mills. My best recollection is that I did not attend 
the meeting.
    Mr. Burton. But you're not sure.
    Ms. Mills. Well, Mr. Chairman, I'm under oath, and I'm 
familiar with the practices in this room, so I'm trying to be 
as honest and truthful as I can, and so I want to make sure 
that I am giving you accurate information. I don't believe I 
attended the meeting. That's my best recollection, because I 
recall learning of this matter from Mr. Ruff.
    Mr. Burton. Did you get a copy of the Podesta memo?
    Ms. Mills. I did not.
    Mr. Burton. What did Mr. Ruff tell you about the problem 
before the meeting?
    Ms. Mills. I don't recall having a discussion with Mr. Ruff 
about the problem before the meeting.
    Mr. Burton. What is your recollection of Mr. Lindsay's 
briefing about the e-mail problem?
    Ms. Mills. I don't know what Mr. Lindsay's briefing was. I 
spoke with Mr. Ruff after his meeting with Mr. Lindsay.
    Mr. Burton. Mr. Ruff, what did you do to handle the 
problem?
    Mr. Ruff. Mr. Chairman, my recollection is--and I will tell 
you that it is not a detailed recollection--is that, following 
the meeting with Mr. Lindsay, I did discuss the matter with Ms. 
Mills. I believe that the next steps--and I cannot tell the 
committee exactly what those steps were--was to make further 
inquiry into whether or not the problem that Mr. Lindsay 
described did indeed have an adverse affect on our collection 
and production of documents.
    Mr. Burton. Did you tell Ms. Mills that she needed to make 
sure the problem didn't affect both past document productions 
and future searches?
    Mr. Ruff. I do not recall the specifics of my conversation 
with Ms. Mills. I think it's fair to say that my immediate 
focus was on whether we had adequately complied with the 
outstanding independent counsel subpoena relating to the 
Lewinsky matter.
    Mr. Burton. Ms. Mills, what did Mr. Ruff ask you to do to 
solve the problem?
    Ms. Mills. Mr. Chairman, Mr. Ruff indicated that there had 
been a problem with certain e-mails that might not have been 
captured, that OA was gathering them, that they were going to 
forward them to our office. We were going to then need to make 
a determination whether or not those e-mails had or had not 
been produced and if they had not been produced that we needed 
to produce them immediately.
    Mr. Burton. Did you work with any other members of the 
White House counsel's office in determining the scope of the 
problem?
    Ms. Mills. The e-mails--the material came from OA over to 
our office; and I forwarded them to Shelly Peterson, an 
associate counsel in our office, who reviewed the materials to 
determine whether or not they were duplicative or whether or 
not in fact there were e-mails that had not been captured.
    Mr. Burton. Shelly Peterson is her name.
    Ms. Mills. Yes.
    Mr. Burton. What steps did you take to determine the nature 
of the problem?
    Ms. Mills. It was my impression that the problem--that 
there was an e-mail problem where certain e-mails had not been 
captured and that the e-mails were being gathered that had not 
been captured and we were then going to have to make a 
determination as to whether or not those e-mails had, in fact, 
not been captured.
    Mr. Burton. Did you develop a test search to diagnose the 
problem?
    Ms. Mills. I did not.
    Mr. Burton. What was the search that you developed?
    Ms. Mills. Mr. Chairman, I didn't develop a search. It was 
my understanding that the Office of Administration was going to 
be forwarding over e-mails that may have been missed and that 
those e-mails needed to be searched and reviewed with respect 
to prior document productions to make a determination as to 
whether or not they had or had not been produced.
    Mr. Burton. I think we were told by the Office of 
Administration that the White House counsel's office had 
developed a search.
    Ms. Mills. If that is the case, I wasn't a part of that 
development.
    Mr. Burton. Who would have been?
    Ms. Mills. I don't know the answer to your question.
    Mr. Burton. Mr. Ruff, who would have been the one that was 
in charge of----
    Mr. Ruff. I do not know who conversed with the Office of 
Administration on this subject, Mr. Chairman.
    Mr. Burton. That's kind of mystifying, if we were told that 
the counsel's office developed a search procedure and was sent 
to the Office of Administration and you say you don't recall 
any of that.
    Mr. Ruff. I do not. I was not----
    Mr. Burton. And Ms. Mills doesn't either.
    Ms. Mills. That's correct.
    Mr. Burton. Well, the Office of Administration said they 
didn't develop searches. Is that correct, Mr. Lindsay?
    Mr. Lindsay. That's correct.
    Mr. Burton. So nobody was developing any search program.
    Mr. Lindsay. I don't think that that's an accurate 
characterization of people's testimony here. I believe my 
recollection--what I testified about last time was that I did 
not recall who the person was who gave the information to me to 
have the search conducted. And, frankly, considering the fact 
that there are other investigations going on, there are other 
matters that were going on and lots of other important business 
that was going on, the actual individual, the identity was not 
something that I would log in my memory as being particularly 
significant. As long as the task was performed, that was the 
important fact.
    Mr. Burton. Who developed the search?
    Mr. Lindsay. I don't know sir.
    Mr. Burton. You don't know. Ms. Mills doesn't know. Mr. 
Ruff doesn't know. Does anybody know?
    Have you talked to anybody that developed the search?
    Mr. Lindsay. I have not inquired on that issue.
    Mr. Burton. Why not?
    Mr. Lindsay. For a variety of reasons. I think that one of 
the reasons why I wouldn't inquire with those individuals as to 
how they were developing those things is because there were 
serious allegations that were made against me and my conduct in 
this matter. I have been very careful in my communications with 
people who could be potential witnesses and come before the 
committee. I am very sensitive to the fact that it is possible 
that people could make an allegation that I was trying to 
conjure testimony or conjure information. What I can do and 
bring before you is information which is within my knowledge 
and what I can testify about. And I'm giving you that state of 
knowledge as I am presenting to you here today.
    Mr. Burton. So, you don't--there was a test search, though, 
done, and you're familiar with that.
    Mr. Lindsay. Yes, sir.
    Mr. Burton. OK. Did you discuss the test search with anyone 
else either in the counsel's office or the Office of 
Administration?
    Mr. Lindsay. When I received the information I passed it on 
to the technical staff so they can conduct the work.
    Please remember that this is not a usual practice, for that 
kind of information to be passed onto me. So I passed it on to 
the people who were working with--and my direct involvement 
with this particular matter that was Laura Crabtree and the 
Northrop Grumman employees. They conducted the work, I don't 
have a recollection as to how long it took, and then that 
information was passed back to the counsel's office.
    Mr. Burton. Who actually carried out the search for the 
Lewinsky related e-mails?
    Mr. Lindsay. I could not tell you who actually looked at 
it. It was my understanding that it was a team of people. I 
passed the information to Laura Crabtree. Ms. Lambuth, I 
believe, was involved with it in some way; and Mr. Haas was 
involved with it in some way. It was my understanding at the 
time, and I believe that this may not be completely accurate, 
that he did that on his own in an office and conducted that 
review.
    Mr. Burton. But you requested the test search.
    Mr. Lindsay. Yes, sir.
    Mr. Burton. How long after the search was requested, how 
long was it before you got the results?
    Mr. Lindsay. I don't recall, sir.
    Mr. Burton. You don't recall that. Do you know who brought 
the results to you?
    Mr. Lindsay. It was either Laura Crabtree or Betty Lambuth, 
one of the two.
    Mr. Burton. Did you then analyze the e-mails that were 
gathered in response to the search and how did you analyze 
them?
    Mr. Lindsay. I did not analyze them. To this day, I have 
not looked at a single one of them.
    Mr. Burton. What was your conclusion about the e-mails that 
had been gathered when they gave the information to you?
    Mr. Lindsay. I made no conclusion, sir.
    Mr. Burton. Did you see the report, after the search was 
made, Ms. Mills?
    Ms. Mills. Could you clarify your question? I'm trying to 
understand what you mean by report.
    Mr. Burton. Well, the research that was done regarding the 
Lewinsky matter, when it was concluded and given to Mr. 
Lindsay, obviously you or somebody at the Office of 
Administration got that. Did you review that?
    Ms. Mills. You use the term ``report.'' What we received 
were e-mails that were the result of the search.
    Mr. Burton. These are the e-mails from the Lewinsky search.
    Ms. Mills. Obviously, I'm not in a position to----
    Mr. Burton. You can take my word for it. That's what they 
are. Did you analyze those after the search was done?
    Ms. Mills. I sent the e-mails to Shelly Peterson in our 
office, who was handling a lot of the investigative matters 
related to the Lewinsky investigation, to review them to 
determine whether or not the e-mails had been produced or were 
duplicative or had not been produced. So----
    Mr. Burton. Did the results of your analysis or reviewing 
this lead you to conclude that the problem Mark Lindsay told 
you about in fact did not affect the White House's compliance 
with subpoenas?
    Ms. Mills. I'm sorry, I don't understand your question. 
Because it suggested that I did an analysis. What I did was 
receive the e-mails and forwarded them to Ms. Peterson to 
review the e-mails to determine whether or not they had been 
produced or not. And if they had not been produced, then we 
needed to produce them; and if they had been produced, they 
would obviously have been duplicative and would have been 
captured.
    Mr. Burton. Once that you saw that there was a problem with 
e-mails that had not been produced, did that concern you or did 
you understand that there was a problem with noncompliance with 
subpoenas that had been sent by the independent counsels and 
the Congress?
    Ms. Mills. Could you explain your question? You said once I 
saw----
    Mr. Burton. Once you saw there was an e-mail problem.
    Ms. Mills. I didn't see that there was an e-mail problem. 
It was my understanding that there were e-mails that had not 
been captured, that those e-mails were then being collected, 
that we then needed to make a determination as to whether or 
not they had been captured or not. If they had not been, then 
we needed to produce them immediately.
    Mr. Burton. Well, Mr. Lindsay, the Office of Administration 
had made the counsel's office aware that there was an e-mail 
problem that they hadn't captured since September 1996. Weren't 
you aware of that?
    Ms. Mills. No. I was not a part of the meeting, to the best 
of my recollection. I learned about the matter from Mr. Ruff 
afterwards.
    Mr. Burton. That's the meeting that Mr. Lindsay had with 
Mr. Ruff where you're not sure you were in attendance and Mr. 
Lindsay is not sure you were there.
    Ms. Mills. I don't believe I was there. That's my best 
recollection.
    Mr. Burton. Your best recollection.
    Ms. Mills. And I don't recall occasion where I had a 
conversation with Mr. Lindsay on this matter.
    Mr. Burton. Didn't Mr. Ruff mention to you after his 
meeting with Mr. Lindsay there was a problem with the e-mails?
    Ms. Mills. Mr. Ruff indicated that there was a problem that 
e-mails may not have been captured, that the Office of 
Administration was collecting those e-mails, and we were going 
to have to make a determination as to whether or not those e-
mails had or had not been captured, and if they had not been we 
needed to produce them immediately.
    Mr. Burton. Can you tell us exactly or to the best of your 
recollection what you told Ms. Mills about the e-mail problem 
and what you instructed her to do?
    Mr. Ruff. As I think as reflected in my interview with the 
committee, Mr. Chairman, I did not have a recollection as to 
whether Ms. Mills was or was not present at the original 
meeting with Mr. Lindsay. And thus, candidly, I do not have a 
recollection of a subsequent conversation. But I take at face 
value Ms. Mills' recollection as being accurate, and I cannot 
either add or subtract from her description.
    Mr. Burton. Mr. Ruff, you were the chief counsel to the 
President. You were the one that was supposed to make sure the 
subpoenas were complied with. You were told by Mr. Lindsay that 
there was a problem with e-mails that had not been captured 
since September 1996, which was right at the beginning or the 
height of the campaign finance scandal. So you knew there was 
going to be some concern about that.
    Mr. Ruff. I have already so stated.
    Mr. Burton. So what did you do? I mean, did you--what did 
you do?
    Mr. Ruff. My best recollection is that, either directly or 
indirectly through my conversation with Ms. Mills, we were 
going to have a search performed by the Office of 
Administration who typically does our electric--or did our 
electronic searches, to determine whether in fact what I had 
been told by Mr. Lindsay about this problem did indeed have an 
adverse effect on our collection and production of documents, 
specifically focused, for obvious reasons, on the most recent 
subpoena issue, that is, the Lewinsky subpoena from the Office 
of Independent Counsel.
    Mr. Burton. So you knew that there was a problem. You knew 
a search had to be done.
    Mr. Ruff. That's correct.
    Mr. Burton. And you don't recall who you asked to conduct 
the search.
    Mr. Ruff. I do not.
    Mr. Burton. And Ms. Mills--you don't recall talking to Ms. 
Mills about this.
    Mr. Ruff. I recall either talking to Ms. Mills afterwards 
or during the meeting. I take at face value, as I've said, her 
recollection that she was not present and that we talked there 
after rather than at the meeting itself.
    Mr. Burton. Well, did you ask Ms. Mills to pursue the 
search and to make sure that the search was done by the 
Department of Administration?
    Mr. Ruff. I don't recall what I specifically said to Ms. 
Mills, but I knew that a search was being conducted. I do not 
know, as I've already said, who framed the boundaries of the 
search or how it was being conducted by OA.
    Mr. Burton. Mr. Ruff, you're one of the brightest lawyers 
in this town. You know the gravity of the situation. You knew 
that there was a problem. You had to instruct somebody to 
conduct the search to make sure there was compliance with the 
subpoenas. You don't remember who you asked to do the search?
    Mr. Ruff. I do not know whether indeed I did ask somebody 
to do the search. My recollection is that a search was being 
conducted--was being conducted by the Office of Administration 
and the appropriate people within that office and that the goal 
of the search was to determine whether or not the e-mail 
problem that Mr. Lindsay described to me had adversely affected 
our collection and production of documents and response to the 
independent counsel's subpoena.
    Mr. Burton. Where does the buck stop? In compliance with 
subpoenas, where does the buck stop?
    Mr. Ruff. Mr. Chairman, as has been the case from the very 
first moment that you and I talked, I take--I took 
responsibility then, I take responsibility now for the work of 
my office and my staff. And in that sense the buck stops with 
me.
    Mr. Burton. So it stops with you. And you're a very bright 
attorney. I cannot for the life of me believe that you saw 
there was an e-mail problem, you knew a search had to be done, 
and you talked to Ms. Mills about it, you had been talked to by 
Mr. Lindsay about it, and you don't know who you asked to 
conduct the search to comply with the subpoenas from 
independent counsels and the Congress and the Justice 
Department.
    Mr. Ruff. Mr. Chairman, I can vouch for this much. I knew 
that a search was being conducted by one of the members--one or 
more members of my staff, and I cannot tell you who was 
responsible for document production and I am certain was 
talking to the Office of Administration. If I knew who that 
was, I would tell you who it was. But I do not recall.
    Mr. Burton. This was a very broad problem. How is it 
confined down to a very narrow search of just the Lewinsky 
case?
    Mr. Ruff. My understanding of the problem was that the 
problem existed. I did not know how broad it was or what effect 
it had. Thus, in my view, a search particularly focused on 
compliance with the independent counsel's subpoena in the 
Lewinsky matter was a device for determining whether indeed the 
problem described to me had had an affect on our compliance 
with subpoenas.
    Mr. Burton. Who did you ask to conduct that limited search?
    Mr. Ruff. As I've said, Mr. Chairman, in response to your 
previous questions, I do not recall having such a conversation. 
I cannot tell you who framed that search request for the Office 
of Administration.
    Mr. Burton. And, Ms. Mills, you don't recall--you don't 
recall ordering the search or having anything to do with it 
other than having Mr.--the counsel, Mr. Ruff, tell you about 
it.
    Ms. Mills. I did not order the search. I did understand 
that e-mails were being collected, that they were going to be 
provided to us, that we needed to review them to make a 
determination as to whether or not they were duplicative or 
whether or not they had not been captured, and if they had not 
been captured then we needed to provide them.
    Mr. Burton. But you say you do recall Mr. Ruff bringing 
this to your attention.
    Ms. Mills. Yes.
    Mr. Burton. And do you recall him asking you to conduct a 
search or to make sure a search was done?
    Ms. Mills. I recall him telling me that OA was conducting a 
search and they would then be providing us with the materials.
    Mr. Burton. But he didn't ask you to be in charge of that.
    Ms. Mills. No.
    Mr. Burton. What did he ask you to do?
    Ms. Mills. He told me that the materials would be coming 
over and then we were going to need to make a determination 
with respect to whether or not the materials reflected that e-
mails had not been captured or that they had been, and so that 
we were going to have to have, obviously, our staff review all 
of the different materials that were collected to make a 
determination to answer that question.
    Mr. Burton. But you didn't ask Mr. Lindsay to conduct a 
search or give him any boundaries. And Mr. Ruff, you don't 
recall doing that either.
    Mr. Ruff. No, Mr. Chairman.
    Ms. Mills. No.
    Mr. Burton. When you talked to Mr. Lindsay, Mr. Ruff, and 
he brought to this to your attention, do you remember what you 
said to him? Did you say, ``oh, my gosh, this is something that 
we have got to do something about.''
    Mr. Ruff. I don't remember what I said to Mr. Lindsay. But 
as I've already stated, Mr. Chairman, I understood that this 
was an issue that we needed to address and in particular in the 
context of the independent counsel's subpoena.
    Mr. Burton. What about the other contacts in addition to 
the independent counsel's subpoenas? You had subpoenas from us, 
you had subpoenas from a number of independent counsels and 
probably from other committees of Congress.
    Mr. Ruff. My immediate focus, given the time and the 
circumstances we were living through at that time, Mr. 
Chairman, was to focus on our immediate compliance with the 
independent counsel's subpoena. If in fact I had concluded that 
indeed there was a broader ranging problem that adversely 
affected our early productions, obviously I would have done 
something about it.
    Mr. Burton. This question I have for Ms. Mills is 
irrelevant I guess, because she says she doesn't recall asking 
them to conduct the search, but I'll ask it anyway. Ms. Mills, 
the names that you asked the technical people at OA to use in 
running the test searchs were related only to the Lewinsky 
case, but you don't recall that at all.
    Ms. Mills. I didn't ask anyone--I didn't conduct or 
undertake the technical search terms or provide the technical 
search terms, that's correct.
    Mr. Burton. Given the nature of the Lewinsky search, how 
could it have told you that there wasn't a broader, larger 
universe of potentially responsive documents?
    Ms. Mills. To whom are you directing your question?
    Mr. Burton. You and Mr. Ruff.
    Ms. Mills. I didn't understand or appreciate that there was 
a broader problem. From my perspective, I thought we were 
collecting the e-mails that had been captured. So what we were 
looking at then was the e-mails that potentially might have 
been missed and that needed to be produced if they had been 
missed.
    Mr. Burton. So you didn't know about a broader universe of 
documents.
    Ms. Mills. Correct. It was not my impression that there was 
a broader universe of documents.
    Mr. Burton. Mr. Lindsay came to see you, Mr. Ruff; and when 
he came to see you he told you that there was a broad problem 
with the e-mails, not just restricted to the Lewinsky matter. I 
mean, he had to tell you that because he knew that the e-mails 
since September 1996 hadn't been captured. And so my question 
is, if you knew there was a broader universe, why----
    Mr. Lindsay. Excuse me, Mr. Chairman. It was not that there 
were--all e-mails. We're only talking about incoming e-mails, 
which is a very much smaller----
    Mr. Burton. It was 248,000 that we know of. In any event--
--
    Mr. Lindsay. We don't necessarily know that, sir.
    Mr. Burton. When he brought to your attention that there 
was a broad array of e-mails that were not captured, you knew 
it went beyond the Lewinsky matter. Why wasn't the whole thing 
looked into instead of limiting just to the Lewinsky matter?
    Mr. Ruff. Mr. Chairman, my view of the problem, as best I 
recall it coming out of my meeting with Mr. Lindsay and 
subsequent events, was indeed there may have been a problem and 
it may indeed have affected our past compliance with subpoenas. 
Once--as I've indicated in my interview with the committee 
counsel--once it turned out that the Lewinsky e-mails had, in 
fact, all been collected, the incoming Lewinsky e-mails had 
been collected, it was my view, whether mistaken or not, that 
indeed the problem Mr. Lindsay had described to me had not 
affected our capacity to collect and produce documents.
    Whether that was my technical ignorance or whether it was a 
misunderstanding of the problem, what I represent to you, as I 
have previously, is that at the point where the word came back 
to me that the Lewinsky e-mails had in fact been collected and 
it turned out they were duplicative of what we had already 
found, I believed that the problem did not, in fact, 
retrospectively affect our compliance.
    Mr. Burton. It just mystifies me. Mr. Lindsay had to give 
you a complete analysis of the problem. That was his charge. He 
had to tell you that there was e-mails that weren't captured in 
a broad array of areas. And you recall it being confined to the 
Lewinsky matter. You recall that.
    Mr. Ruff. No, Mr. Chairman, that's not what I've said. What 
I said was that I came away from my discussion with Mr. Lindsay 
recognizing that there was a problem, that my focus initially 
was on the Lewinsky subpoenas because those were the ones of 
the most immediate and practical concern to my office. That 
when the report came back to me that indeed the Lewinsky 
subpoenas had pro--that our search in connection with the 
Lewinsky subpoenas had produced the same documents that had 
been found in this e-mail search I believed that the problem 
did not in fact adversely affect our past searches.
    Mr. Burton. Well, my time is expiring. I will have to yield 
to Mr. Waxman. But I have to tell you that it just stretches 
credulity to believe that Mr. Lindsay would come to you, tell 
you about the problem, Mrs. Mills doesn't remember whether she 
was in the meeting, he doesn't remember whether she was in the 
meeting, he doesn't remember whether he made a phone call to 
talk to the Northrop Grumman employees who were threatened. 
Nobody remembers anything. You don't remember, she doesn't 
remember who ordered the search or how broad the search was. 
You know, I hope whoever is paying attention to this realizes 
that we have a lot of people in the White House that simply 
don't remember anything.
    Mr. Waxman.
    Mr. Waxman. Mr. Ruff, Ms. Mills, Mr. Lindsay, thank you all 
for being here today.
    This is the 4th day of hearings we've had in this committee 
on this missing White House e-mails, and during these hearings 
our chairman and other Republican Members have made some 
extremely strong allegations. They've alleged that the White 
House threatened individuals if they disclosed the e-mail 
problem, they have alleged that the White House deliberately 
covered up the e-mail problem, and they've alleged that the 
White House obstructed justice by knowingly failing to disclose 
that the White House had potentially responsive e-mails that 
hadn't been searched in response to subpoenas. So I want to ask 
you about these allegations. These are very serious allegations 
that have been made.
    Now let's look at the first one. The first one is that once 
the e-mail glitch was discovered the White House threatened 
outside contractors who discovered the problem with jail if 
they told anybody about them.
    For example, Representative Chenoweth-Hage, who is a member 
of our committee, said in an open hearing, ``Evidence suggests 
that contracted staffers were personally threatened with 
repercussions and even jail should they mention the very 
existence of the server problem to anyone, even their bosses. 
This occurred while these e-mails were under subpoena. This is 
inexcusable. This is criminal. If this is not obstruction of 
justice, I don't know what is. If one were to apply the 
standard of an ongoing criminal conspiracy, the White House 
fits it.''
    Now that's the allegation that was made in one of our 
previous hearings.
    Mr. Ruff, you've had a distinguished career in public 
service. You have been a member of the U.S. Attorney's Office 
for the--you were the U.S. attorney for the District of 
Columbia, president of the District of Columbia Bar, 
corporation counsel for the District of Columbia, White House 
counsel. Your reputation for integrity is, I think, 
untarnished. I want to ask you about this allegation that was 
made. Did you ever threaten anybody with jail or in any way if 
they ever revealed the e-mail problem?
    Mr. Ruff. Of course not, Congressman Waxman. Neither I nor 
anyone on my staff nor candidly anyone that I knew at the White 
House would ever have made such a threat.
    Mr. Waxman. Well, let me ask more specifically for the 
record, you say you didn't do it directly. Did anyone do it 
indirectly at your behest to threaten anybody?
    Mr. Ruff. Absolutely not.
    Mr. Waxman. Did you participate in or have any knowledge of 
any White House effort to threaten anyone?
    Mr. Ruff. Absolutely not.
    Mr. Waxman. Ms. Mills, let me ask you the very same 
questions. Did you directly or indirectly or in concert with 
others in the White House threaten anyone if they revealed the 
missing White House e-mails that are the subject of this 
hearing?
    Ms. Mills. I did not.
    Mr. Waxman. Well, the second allegation that we have to 
explore is whether there was a concerted effort by the White 
House to cover up the e-mail problem. For example, in our first 
hearing on this matter, the chairman said the White House--and 
this is the chairman's statement in a public hearing--basically 
had two choices: They could face up to the problem, tell the 
Justice Department and the Congress what happened and get it 
fixed, or they could throw a blanket over the whole problem, 
ignore it and hope nobody would find out. It looks like they 
chose to cover it up.
    That's the statement of the chairman.
    Mr. Ruff, let's hear from you about this allegation. Did 
you ever cover up or attempt to cover up the e-mail problem 
from congressional or other investigative bodies?
    Mr. Ruff. I did not, Congressman Waxman.
    And let me just say in that regard that whatever the 
tensions that existed in our relationship with this committee 
and indeed with other congressional committees during the 
course of my tenure in the White House, we were on every 
occasion forthcoming when we found something that had not been 
produced or where there was a problem we brought it to the 
attention of the committee, we produced the documents.
    I can tell you that members of my staff spent many an 
unhappy hour with the staff of this committee explaining why 
indeed some failure in our system had delayed the production of 
documents. And rather than even suggest at any time that any 
member of my staff or to my knowledge anyone else in the White 
House would conceal a problem like this, to the contrary, we 
stepped forward, we made our mistakes, if we ever committed 
them, known to the committee, and produced the relevant 
documents, and we did so as quickly as possible.
    Mr. Waxman. Ms. Mills, let me ask you about this issue of 
the cover-up. Were you involved or do you have any knowledge of 
a cover-up by the White House to keep the e-mail issue from the 
legitimate investigators that had subpoenaed the information 
and didn't receive it.
    Ms. Mills. Absolutely not. I would like to echo Mr. Ruff's 
sentiments. He was always very clear about his position with 
respect to documents and materials that came to light later, 
after we believed that we had been successful in capturing 
everything; and the clear direction always was that we needed 
to produce them as soon as possible.
    Mr. Waxman. Mr. Lindsay, did you know about any cover-up or 
were you part of any cover-up about these White House e-mails?
    Mr. Lindsay. Absolutely not sir.
    Mr. Waxman. Then the third allegation that's thrown around 
quite loosely around this place is, the White House knew that 
it had not produced all the responsive e-mails, but decided not 
to tell Congress or the independent counsel.
    Chairman Burton and others have alleged that this is 
obstruction of justice. For example, yesterday Representative 
Shays stated that, the White House obstructed justice and we're 
trying to see who did it. That was his statement at a hearing.
    Mr. Ruff, let me ask you about this allegation. Were you 
aware at any time that the White House possessed responsive e-
mails that it had not produced to investigators in response to 
subpoena.
    Mr. Ruff. Mr. Congressman, the answer to that question is 
in essence the same as the previous one. I took and I know that 
members of my staff took whatever steps we believed were 
necessary to uncover the existence of a problem. If we believed 
one existed, and that includes the e-mails, we would have done 
something to deal with it. Never, not once, did anyone on my 
staff seek to conceal, delay production of or otherwise cover 
up any document production whether it be electronic or paper.
    Mr. Waxman. What about you, Ms. Mills, did you participate 
or did you know of any White House cover-up about these e-
mails?
    Ms. Mills. I was not aware of any cover-up with respect to 
the e-mails and do not believe that that would have occurred.
    Mr. Waxman. Mr. Lindsay, do you have any knowledge of any 
cover-up?
    Mr. Lindsay. I have no knowledge of any cover-up and nor 
would I have participated in any one if there was one that 
existed.
    Mr. Waxman. Mr. Ruff, I want to walk us through a 
chronology of what you know about the e-mail computer glitch 
from your perspective.
    When did you first become aware that there was a potential 
e-mail problem?
    Mr. Ruff. I first became aware it was when Mr. Lindsay met 
with me in June 1998.
    Mr. Waxman. And what was your understanding of the scope of 
the problem?
    Mr. Ruff. My understanding of the problem at that point was 
that there had been a technical problem, that indeed incoming 
e-mails may not have been collected during a period of time 
that extended back beyond the date of our meeting, and that 
indeed it was going to be necessary to determine; particularly 
in the context of the Lewinsky subpoenas, whether in fact we 
had collected all the documents that were in existence.
    Mr. Waxman. And what did you do after you became aware of 
this?
    Mr. Ruff. As I've indicated in responding to the chairman's 
questions, I do not recall what specific conversations I had, 
but I know that efforts were undertaken to shape a tasking for 
the Office of Administration to inquire into whether the 
Lewinsky-related e-mails had in fact been encompassed in and 
collected by our previous search.
    Mr. Waxman. And did your staff report back to you after the 
problem had been explored?
    Mr. Ruff. They did. It was reported back to me that, in 
fact, after searching pursuant to the directions to the Office 
of Administration, the e-mails that had been found were 
duplicative of what had already been produced to the 
independent counsel's office.
    Mr. Waxman. So as far as you knew, these e-mails had gone 
to the investigators?
    Mr. Ruff. That's correct, Mr. Congressman. And further, I 
extrapolated from that, whether accurately or inaccurately, 
that the problem that had been described to me did not indeed 
have an adverse effect on our compliance with earlier 
subpoenas.
    Mr. Waxman. When did you learn that the e-mail problem may 
in fact have affected this document production?
    Mr. Ruff. Candidly, I wasn't aware of that until it 
surfaced in the newspapers earlier this year.
    Mr. Waxman. Were you at the White House counsel's office 
then?
    Mr. Ruff. No, I wasn't.
    Mr. Waxman. The Republicans have alleged that you or your 
office participated in covering up evidence of these missing 
White House e-mails, but in fact you have a track record in 
this area; you referred to it a few minutes ago. On several 
occasions during your tenure at the White House counsel's 
office, you or your office discovered that relevant evidence 
had not been turned over to Congress.
    Mr. Ruff. That's correct.
    Mr. Waxman. Maybe it hadn't been completely turned over to 
Congress. I want to ask you about some of those specific 
incidents.
    In October 1997, your office learned that the White House 
communications agency had videotaped certain White House 
coffees, but it had not provided them to the Congress. What did 
you do after you found this out? Did you try to cover this up 
or did you promptly disclose it to the Congress?
    Mr. Ruff. Congressman Waxman, I think the staff of my 
office who were involved in it will tell you that they worked 
literally 24 hours a day once we discovered the existence of 
this problem, produced those videotapes both to this committee 
and to Senator Thompson's committee; and I think the record is 
absolutely clear, both here and in the Senate, that that 
failure of production was originally a product of a 
technological or logistical snafu, had nothing to do with 
anyone's efforts to cover up those videotapes.
    Mr. Waxman. Well, it's so interesting that this is similar 
to the issue before us today. Because what you're telling us, 
that immediately after you found out there was a problem you 
responded, got the documents produced, sent them to the 
Congress, you disclosed the existence of the videotapes, and 
you did the right thing.
    Mr. Ruff. I like to think so, Mr. Congressman.
    Mr. Waxman. Do you know what the response was from Members 
of Congress?
    Mr. Ruff. Many of us lived through that response, yes.
    Mr. Waxman. Well, Chairman Burton went on CBS, Face the 
Nation, and he said, ``Some of the tapes were cutoff very 
abruptly, and then you go to another tape. We think maybe some 
of those tapes have been cutoff intentionally. They've been 
altered in some way.''
    So he made an allegation of cover-up and tape alteration, 
and that was widely reported.
    Then they were thoroughly investigated. This allegation was 
made. We had an investigation. We found out that you turned 
over these tapes, and we also found out they had never been 
altered in any way. Our committee and the Senate Governmental 
Affairs Committee failed to produce any evidence of tape 
alteration; and, in fact, investigations produced compelling 
evidence that the tapes had not been altered at all. And the 
further investigation revealed that the reason the videotapes 
were not initially produced was due to innocuous mistake. One 
page of the initial search directive faxed from the White House 
counsel to the White House communications agency had been 
misplaced. That page contained instructions that would have 
resulted in a videotape search.
    So you have an example where there was a snafu, you found 
out about the snafu, you produced the documents, and rather 
than get praised for producing the documents you were accused 
of a cover-up. Then we had an accusation that the tapes were 
altered, and it turned out they weren't altered. We never have 
an apology for the accusations that were incorrect, only a new 
one that comes along.
    Let me give you another one that was given. This committee 
investigated the White House data base. It's called WhoDB. And 
this followed the similar pattern. In October 1997, in the 
process of responding to a request relating to the WhoDB 
investigation, your office found several documents that were 
potentially responsive to earlier requests. And within a week 
you turned these documents over to the committee, noting that 
it was your policy to err on the side of production.
    This didn't satisfy our committee. Representative McIntosh, 
who led the WhoDB investigation, alleged that the initial 
failure to turn over the documents was a Federal crime--
obstruction of justice. Mr. McIntosh referred Ms. Mills to the 
Department of Justice, claiming that her actions regarding the 
documents at issue were Federal crimes. The Department of 
Justice looked into the issue, and they determined there was 
just no merit to these accusations.
    I think, Ms. Mills, your statement this morning was a 
superb one. We have to be reminded that we're human beings, 
sometimes we make mistakes. But we ought to recognize that 
making a mistake doesn't mean that you're guilty of a crime. 
And if you're in public service working for an administration 
and a President that someone doesn't like doesn't mean that 
you're a criminal for being part of that administration.
    And we have a track record on this committee. We have a 
track record of wild allegations that are made smearing 
people's reputations. When you are accused of perjury or when 
Mr. Ruff is accused of obstruction of justice or Mr. Lindsay 
accused of threatening people and it turns out none of it's 
true, one, the press doesn't catch up with the facts of the 
original allegations, they're already in the paper. And then 
there are new allegations to take their place, and those new 
allegations get the headlines, not the facts that clear 
everybody up. Now it's not an enviable track record that we 
have on this committee to have unsubstantiated allegations of 
cover-ups, and I fear that's exactly what's happening today.
    Now, Mr. Burton focused in his questioning about whether 
you took this issue seriously enough and whether someone was in 
charge or who was in charge. It sounds like some of these 
things in the specifics you can't recall. I suppose if you had 
it to do over again, you might have kept better track of who 
was doing what. But I suppose you had a lot of other things 
going on during that time as well.
    This isn't the only committee that's bombarding you with 
subpoenas. The President was under investigation, the Senate 
and the House were looking at impeachment charges, and every 
opportunity that Members of the Republican leadership in the 
Congress had, they wanted to hold another investigation.
    In retrospect, Mr. Ruff, do you think you would have been 
better off if you kept better track of who was doing what about 
these White House e-mails?
    Mr. Ruff. I have no doubt in retrospect many events could 
have been shaped differently and perhaps better. But I think--
and I appreciate your comments, Congressman Waxman. I think the 
bottom line for all of us in the White House counsel's office 
is that we did our best. We did our best to act professionally 
and ethically and responsibly. And if in fact we failed to do 
so in our efforts to do it, it was by inadvertence and not by 
intention.
    Mr. Waxman. It's clear to me listening, to the testimony, 
there is a lapse. But it seems to me an embarrassing lapse of 
trying to remember who was doing what precisely is a lot 
different from criminal conduct. And what we have are 
accusations trying to criminalize the failure to remember who 
specifically was working on what in your office.
    If there was no threat to anybody about the information, if 
there was no cover-up about the information, if you did 
everything you could do to get the information to the Congress 
and the investigators and to correct this technical problem, 
which was due not to your actions but to the actions of the 
contractors, Northrop Grumman, who were supposed to develop a 
White House data base system that could pick up all the e-mails 
wherever they may come from and, as far as you knew, were doing 
everything you could do, even if you didn't do everything that 
you wished you might have done, that's a bit embarrassing 
because you're the one in charge. But it's not criminal 
conduct.
    Mr. Ruff. I'm not happy, but willing to suffer the 
embarrassment, which may be justified to the extent that I 
failed adequately to pursue or understand the matter. But, as 
you suggest, Congressman Waxman, and I think I speak here for 
not only myself but all of those who worked with me, never, not 
once, would anybody on my staff intentionally conceal or seek 
to cover up any misconduct.
    Mr. Waxman. I thank you for that answer. You're before a 
committee that never seems to acknowledge their mistakes nor be 
responsible for the embarrassments they have caused to others 
with wild accusations. I have in my time----
    Mr. Ford. If you would yield.
    Mr. Waxman. I yield to Mr. Ford to pursue some questions.
    Mr. Ford. Thank you, Mr. Waxman, to the members of the 
committee. Let me also acknowledge another great patron and 
servant in the Clinton administration, Mr. Bruce Lindsay, who I 
believe is here with us this morning, and his daughter, who is 
a fine student down in my district at Rhodes College and is a 
frequent phone companion as she is proud of what her dad is 
doing and trying to do good work at Rhodes College. I think she 
is now back at home if I'm not mistaken. We miss her in 
Memphis.
    Let me thank also Ms. Mills for having the courage to come 
before this committee with her candor and frankness about how 
her contributions in this administration and to contributions 
she's made to the public service arena over the years. As a 
member of this committee who is young and who is proud to 
serve, I am proud of the contributions you have made and 
relieved to hear that despite the torturous way this committee 
and members of this Congress, and I would say to my colleagues 
on the other side that you ought to be embarrassed after 
listening to this young lady. It almost brought me to tears 
listening to you to describe how and when you came into the 
White House at the tender age of 27, leaving at the age of 34, 
and despite all that you have been through, the unwarranted 
impugning of your character and unjustified attacks on your 
integrity, you remain strong and resilient and I think a better 
public servant after all that you have gone through. It's 
unfortunate you had to go through what you had to go through, 
and I hope my colleagues on the other side of the aisle, when 
they have the opportunity to talk, will apologize to you and 
apologize to the young Americans that they might with their 
action and conduct, as despicable as it might have been, might 
not discourage other young people from wanting to enter into 
public life.
    So with that, Ms. Mills, I would also say in your comments 
you said you felt that this was risking personal peril, be 
assured there are those of us on this committee that won't 
allow Dan Burton or anyone in this committee for that matter to 
harm you any further than they already have.
    I would enter into the record if I could, Chairman Barr, I 
think you're in the chair now, it probably already has, but 
there's been references made to the McIntosh letter urging the 
Justice Department to bring perjury and obstruction of justice 
charges against Ms. Mills. The May 6, 1999 letter from the 
Department of Justice reads: ``The Department has completed its 
review of your referral of criminal allegations involving 
deputy counsel to the President Cheryl Mills. After careful 
consideration and review of the materials submitted with your 
letter of September 17th we have determined that further 
investigation is not warranted and have declined prosecution.'' 
I think it's somewhat poetic that the author of this letter was 
Ms. M. Faith Burton. I would imagine we won't investigate if 
there's any connection to our chairman. I would enter all of 
this into the record if that would be OK.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.617
    
    Mr. Ford. Let me move to pick up where Mr. Waxman left off, 
if you don't mind, to all of our witnesses. One of the concerns 
that I believe and would hope that all of us would have on this 
committee is the unbelievable costs that this is imposing on 
the taxpayer. I know that Mr. Waxman requested a GAO study back 
in 1998 that found in the 18-month period between October 1, 
1996 and March 31, 1998, 21 Federal agencies reported that they 
had received more than 1,100 campaign finance inquiries from 
Congress. GAO calculated that the cost of responding to these 
inquiries cost the taxpayers in excess of $8.7 million. I would 
point out to members of the press and the committee that that 
does not include the $3 million that we spent on this committee 
investigating all of these, some of them wild, allegations.
    We learned yesterday and this morning in a very reliable 
Washington Times, after Mr. Lyle's testimony, that going back--
that the total cost of the e-mail reconstruction could 
ultimately cost somewhere between $8 to $10 million. This is a 
large price tag I believe for reconstructing incoming e-mails 
that we're not even certain will have significant relevance to 
the investigations.
    Mr. Ruff, I'm interested in learning about who will have to 
foot this bill. Will the taxpayers be paying for the MAIL2 
reconstruction?
    Mr. Ruff. Congressman, although I enjoyed my time in the 
White House or at least most of it, I am at the disadvantage 
now of being a private citizen, and I'm not sure that I can 
answer your question officially, but I suspect, yes, indeed, 
the taxpayers will be bearing that burden.
    Mr. Ford. I ask that to sort of followup, Mr. Ruff, and I 
appreciate you even coming today being that you should not be 
put through further harassment, but since you're here, the 
evidence this committee has received shows that the MAIL2 
problem was due to an inadvertent mistake by White House 
contractors.
    Do you believe that the contractor or contractors that 
caused the problem should be responsible for paying the cost of 
reconstruction? And I would ask Mr. Lindsay, if he wouldn't 
mind, to comment on this issue as well.
    Mr. Ruff. Congressman, I candidly am uncomfortable in 
trying to respond to that question because I simply don't know 
what the facts of the case are.
    Mr. Ford. That hasn't stopped us, Mr. Ruff, but I 
appreciate you responding. Mr. Lindsay, if you wouldn't mind 
responding, sir.
    Mr. Lindsay. Yes. That is an option that we are in the 
process of exploring and were in the process of exploring, but 
because of the exigencies which were imposed by the request by 
the committee and by other bodies, it was important for us to 
go ahead and move forward. So the resolution of whether or not 
we can get any kind of recompense back from the contractor is 
something that will have to be determined later because of the 
exigencies imposed by the request by the committee.
    Mr. Ford. Ms. Mills, excuse me, if I could come back to you 
for just 1 second. You described eloquently the cost of this 
experience. Would you mind just elaborating a bit the costs 
that were imposed upon you by virtue of this committee calling 
you before us on so many different occasions, both financial 
and other, briefly, if you wouldn't mind. It's good to see you 
this morning and you look great by the way.
    Ms. Mills. Thank you very much. Well, I have legal fees 
that I am still paying for lots of allegations that have been 
made against me, and they're my fees that I have to pay. Today 
I had a scheduled event with my company that I was supposed to 
be presenting at as well as having a speech this evening that I 
was supposed to be giving in New York City, both of which Mr. 
Burton explained to me were insufficient and he could not 
indulge my schedule. So in addition to that, certainly during 
my tenure in the counsel's office, there were many occasions in 
which the personal toll I felt was relatively high, and I'm 
grateful for having had the opportunity to serve, but I also am 
enjoying quite nicely now being in the private sector for the 
moment.
    Thank you for asking.
    Mr. Ford. Hopefully we can find a way to bring you back 
with the next administration.
    Mr. Lindsay, if I could come back to you for one moment. 
Chairman Burton has made some strong allegations regarding your 
conduct. He said at our March 30 hearing, which I regret that I 
was not present at, that Mr. Lindsay and Ms. Callahan are 
accused of doing something that is really wrong. They're 
accused of trying to intimidate people who work for them. He 
went on to assert or accuse that because you are a potential 
target of a Justice Department investigation of the e-mails 
matter, you had, ``every reason to give misleading testimony or 
to engage in selective memory loss.''
    I want to ask you a little bit about these allegations 
because I think you're being unfairly attacked. During our 
first hearing we heard testimony from six current and former 
Northrop Grumman contractors and subcontractors. They discussed 
a meeting that was held with an OA career, and I take it OA 
means Office of Administration?
    Mr. Lindsay. Correct, sir.
    Mr. Ford. With an OA career civil servant named Ms. Laura 
Crabtree Callahan shortly after the MAIL2 problem was 
discovered in June 1998. Several of them testified that you 
addressed the meeting briefly by speakerphone. Now, you do not 
recall participating in that meeting over the phone or that's 
correct, that's my understanding----
    Mr. Lindsay. That is correct, sir.
    Mr. Ford. In fact, you have been harshly criticized by 
certain members of the committee for not recalling this phone 
call, and I digress for one moment. I would imagine that all of 
my colleagues here in the Congress I would venture to say, I 
don't know how many of us, with the large number of calls that 
we receive a day and the meetings we participate in, how many 
of us could pinpoint the times and all the persons we might 
have spoken to in a day and each and every person who might 
have been present in a meeting. We just got off a recess, as 
many of you know, and some, if not all, of us went home to 
work, and I couldn't tell you which staff was present in 
certain meetings with the Port of Memphis or with IBM officials 
or with labor officials or with school officials. I know 
certain folks are assigned to those different areas, but I can 
sympathize and I would imagine some of the allegations that 
have been made against our chairman by lobbyists here in town, 
and I certainly wouldn't engage in any smear tarnish attacks, 
that all of us at times have this selective memory, to borrow 
his terminology, I think just human. Humans forget when you 
might talk to folks, and for us to pull up your day planner 
that day and show that Ms. Mills' name or whomever's day 
planner we might have pulled up to show that Ms. Mills' name 
was on it at 4:30, I thought was somewhat ridiculous and low-
handed.
    But notwithstanding that, it's still not clear to me why it 
was to your advantage to forget this call because not one 
witness has claimed you made any threats at that meeting. One 
of the contractors, Bob Haas, I believe I'm pronouncing his 
name correctly, Mr. Waxman, said that Ms. Callahan told him 
after you hung up the phone that there would be a, ``jail cell 
with his name on it,'' if he told his wife. Another contractor, 
Sandra Golas, and I hope I'm pronouncing Ms. Golas' name 
correctly, testified that she remembered the word, ``jail'' 
being used in the meeting but could not remember who said it. 
Two other contractors who were present Mr. Salim and Mr. 
Spriggs do not remember the jail threat or any other threats 
being made, but no one suggests that you made any threats at 
that meeting, Mr. Lindsay. If anyone doubts what I'm saying, 
and we doubt each other in this committee often, all they need 
to do is go back and look at the March 23rd transcripts.
    Now one of the contractors, Ms. Betty Lambuth, did accuse 
you of threatening her in a separate conversation, Mr. Lindsay. 
She told us that she had a meeting with you and I believe a 
Paulette----
    Mr. Lindsay. Cichon.
    Mr. Ford [continuing]. Cichon--you knew I was going to have 
trouble there--another OA official which you, Mr. Lindsay, told 
her that if she or any of her team, ``who knew about the e-mail 
problem told anyone else about it we would lose our jobs, be 
arrested and put in jail.'' There's a fundamental problem 
apparently with Ms. Lambuth's testimony.
    It's been flatly contradicted by the other person present 
at that meeting, Ms. Cichon. She signed a written statement on 
March 29th in which she said that ``at no time did I perceive 
Mark, Mr. Lindsay, threatening Betty or myself. At no time was 
a threat of jail mentioned or any other threat. If any threat 
were made I would have certainly remembered it and would have 
taken the appropriate action and response. I did not take part 
in any other meetings or conversations in which Mark or anyone 
else made any threats.''
    That statement was introduced into the record by Mr. Waxman 
at the March 30 hearing and Ms. Cichon has since confirmed her 
statement in person during interviews with committee staff. 
This is not the only time apparently that Ms. Lambuth has been 
directly contradicted by other witnesses. I wish Ms. Lambuth 
was here. During the hearing Ms. Lambuth also claimed that Mr. 
Haas examined the, ``missing e-mails'' and told her that they 
contained information relating to Filegate, concerning the 
Monica Lewinsky scandal, the sale of Clinton Commerce 
Department trade mission seats in exchange for campaign 
contributions, and Vice President Al Gore's involvement in 
campaign fundraising controversies. Bob Haas told the committee 
that Ms. Lambuth's allegations were, or her allegation, excuse 
me, was completely inaccurate. He said he had no knowledge of 
any e-mails relating to Filegate, the sale of Clinton Commerce 
Department trade mission seats in exchange for anything or 
campaign contributions or Vice President Al Gore's involvement 
in campaign fundraising controversies. And he said that he 
never told Ms. Lambuth otherwise.
    But unfortunately the facts don't dissuade my committee 
members, particularly those on the other side. We have no 
credible evidence that you threatened anyone, yet the chairman 
and other members keep repeating that you made jail threats and 
these threats keep getting repeated in the newspapers. 
Unfortunately you're not alone in receiving this unfair 
treatment from this committee. Unfortunately your seatmate can 
speak to the same type of treatments.
    I introduce to the record as I prepare to yield back to my 
chairman, Mr. Waxman, GOP's distrust of Clinton drives 
Congress' agenda. You mentioned so eloquently, Ms. Mills, the 
issue that we should be addressing here in this Congress. You 
even reminded this chairman and perhaps suggested to him and 
members on the other side that U.S. attorneys who sit on that 
side, former U.S. Attorneys, that perhaps we ought to 
investigate the way young African American men are being 
treated in New York and Los Angeles and around this Nation. If 
we could find a way to link it to something that's happening at 
the White House I think we'd probably have better success in 
getting this committee to do that.
    But I would only repeat the comments of a Republican 
Senator, a dedicated war veteran in Senator Chuck Hagel, who is 
no real friend of those of us liberals on this side, as we are 
sometimes labeled, and those of us who are hiding, obstruction 
of justice and those who are perjurers, but Senator Chuck Hagel 
criticized his fellow Republicans for allowing their deep 
seeded suspicions of President Clinton to derail their own 
political agenda. Mistrust is the common thread. It is my hope 
that in the midst of all of this, Chairman Barr, Chairman 
Burton and others on the other side, that we will remember that 
government's about something bigger and better than us, that we 
are dispensable to this whole system, sir.
    We, as Ms. Mills so eloquently said, have good days and bad 
days, but I hope we would not take our bad days out on those 
who disagree with us and who have visions and perspectives and 
biases and prejudices that may be different than ours. Mr. 
Waxman is going to be upset with me for taking all his time, 
Ms. Mills, but I want to say one more time you were absolutely 
wonderful this morning and I only wish that more of my 
colleagues could have been here to hear you, and only hope that 
those of us that are here will take the message back to our 
colleagues who did not get an opportunity to hear your 
outstanding comments this morning.
    Mr. Lindsay, I didn't hear yours. I trust yours were great 
the other day.
    Mr. Burton [presiding]. The gentleman's time has expired. 
I'm going to yield my time to Congressman Shays.
    Mr. Shays. I thank the chairman. I'm sorry, I thought it 
was my time. I apologize.
    Mr. Burton. I'm going to, in the event you need more time, 
Mr. Shays.
    Mr. Shays. I just want to give you, Mr. Ruff and Ms. Mills 
and Mr. Lindsay, a different perspective and it comes from my 
heart as it comes from yours, Ms. Mills. I participated in the 
Hart hearings a few years ago and the Pierce scandal, and I 
didn't know that it was my role then to defend the 
administration. I was a new Member so I went after just trying 
to find the truth, and so you had Republicans and Democrats 
just trying to find the truth, not defending the witnesses, 
just trying to find the truth. I've learned, I guess, that's 
not the way it happens, and when Debra Gordene came to that 
hearing and she declared--took advantage of her fifth amendment 
rights all the Democrats in the committee were outraged that 
she would want to hide something, and I was outraged, and so I 
thought when Members would come before this committee that we 
would see that same outrage on the other side of the aisle, and 
we've now had 79 House and Senate witnesses asserting their 
fifth amendment.
    Now they can do that and it may mean they don't have 
anything to cover up, but in my nonlegal way I begin to think 
there's something behind that.
    And when I read your statement, Ms. Mills, before you even 
delivered it, I became so incensed by the focus on you and not 
about getting at this issue that I've written out a statement, 
and I've written out the statement so I don't say more than I 
need to say.
    So, Ms. Mills, you're not the only one disillusioned by 
this process. I have been pushed from disappointment to anger 
to outrage by the pervasive ethical and moral minimalism of 
this White House. Among the important issues you omitted from 
your list is respect for law and the affirmative obligation of 
sworn officers of the court to disclose material facts to 
properly constituted authorities. As much as you might not like 
it, this committee is such a properly constituted authority. 
While undoubtedly deeply felt, your statement conveyed to me a 
profound lack of respect for this constitutional process, and 
I'll say unlike the profound respect that I thought you showed 
to the Senate. It's not enough for those in the White House you 
defend to say no evidence has been found that anyone 
intentionally sought to hide the e-mail system problems. That's 
far too low a bar to set for yourselves, to convince yourselves 
prematurely the problem was minimal, to hide behind the expense 
and difficulty of the reconstruction project, to delay any 
disclosure of a problem until forced by negative publicity. All 
bespeak an ethical opportunism that allows by omission, if not 
by commission, the obstruction of justice. For evil to prevail, 
it is enough for good people to do nothing. I don't get the 
sense much was done by the good people in the White House to 
confront the potential evil flowing from the e-mail mess.
    Now, I also remember some people at the White House. I 
remember Billy Dale and John Drellinger, John McSweeney, Barney 
Brasseux, Gary Wright, Robert Van Eimeren and Ralph Maughan. I 
remember them. They were in the White House and they got fired, 
and then to defend their being fired the FBI and the IRS had to 
take a good look at them.
    And I was looking at an old article, and this may have been 
said in jest, Mr. Ruff, I know it was said in jest, but it has 
an eerie feeling of strength to it. You were interviewed by Bob 
Woodward when you, as the fourth and final prosecutor to 
Whitewater, acknowledging initially it had gone on too long--
Watergate, excuse me, Watergate. This was an article written 
June 19, 1977, in your admitted youth, and you were asked to 
kind of describe where you fit in in all these committees that 
had done investigation. You thought you would show up better 
than the Warren commissioner and some of the other 
commissioners that had looked, and then I'll read what Mr. 
Woodward says. He says Ruff says there's nothing he has done to 
protect himself from a more hostile view of the work of his 
office. If called to testify some day at such an inquiry; in 
other words, defending your committee's work, Ruff says he 
knows just what he'll do, quote, I'd say, gee, I just don't 
remember what happened back then and they won't be able to 
indict me for perjury and that maybe that's the principal thing 
I've learned in 4 years, I just intend to rely on that failure 
of memory.
    I know you said it in jest, but the words you used to 
respond to questions, I don't recall, I don't remember, I 
understood this is an issue and so on and don't remember if I 
was at a meeting. The meeting, Mr. Lindsay, on June 19th, how 
many people were at that meeting when you spoke to Mr. Ruff?
    Mr. Lindsay. I don't recall, sir.
    Mr. Shays. You don't recall if there's one, two, three, 
four or five?
    Mr. Lindsay. I remember that I talked with Mr. Ruff. I 
don't remember if there was anyone else at that meeting.
    Mr. Shays. Do you remember where you met?
    Mr. Lindsay. I'm fairly certain it was in Mr. Ruff's 
office.
    Mr. Shays. You remember it was Mr. Ruff's office, you don't 
remember if anybody else was in the office.
    My time has expired. I'll come back.
    Mr. Burton. Gentleman's time has expired. Who's on your 
side? Mr. Kanjorski.
    Mr. Kanjorski. Welcome once again to a committee of the 
Congress. I suspect that you will have spent more time at 
committee hearings of the Congress than most of the Members of 
Congress after your respected service is done.
    Ms. Mills, I've had the opportunity to look over your 
statement, and unfortunately I wasn't here when you delivered 
it because I would have imagined it would have been most heart 
rendering to hear your statements. I have had the occasion of 
watching your service for 7 years in the White House, and I 
want to tell you that there are Members of this Congress that 
appreciate what you've dedicated to this country and to this 
President and that you have done it honorably, and the fact 
that this Congress has been so frustrated with a dynamic 
Presidency that they did not expect or did not think was 
warranted in the election of 1992, that a good many years have 
been spent with the sole intent of creating an aura around this 
President that he was not worthy of the job and was not serving 
America. You know I got to thinking about it as we went 
tediously through questions yesterday, and some of my 
colleagues on the other side, particularly the younger Members, 
may not recall prior administrations, but in reality they have 
succeeded in creating a new definition for political life in 
America, and that is accusations, charges, unsubstantiated and 
unproven, eventually will become labeled as scandals, and we so 
often hear the media now say another scandal when in fact it's 
another unsubstantiated charge.
    And the purpose of this hearing some 7, 6 months before a 
new Presidential election is because the majority of this 
Congress have no other issues, and their hope against all odds 
is that the American people will be foolish enough to believe 
that charges alone represent substance and/or scandals in 
themselves when in fact we know better as members of the bar.
    The fact that you were called out of private service to 
come up here and go over your memories and people on this 
committee respond with the idea that, oh, you should have an 
absolute perfect memory, both yourself and Mr. Ruff, of every 
occurrence that happened in the throes of probably the second 
most historical act against the Presidency, the last 
impeachment, is beyond me. I have to think that you were all 
working 18 hours a day, 7 days a week and were totally focused 
and committed to the immediate issue of the trial and that you 
didn't necessarily partake in checking out every factor or 
every bit of information.
    It is only too bad that because sometimes of the lack of 
technical expertise of the American people and the appreciation 
of what the new computer age is all about that this hearing 
would even be here, the suggestion that oh, my heavens, there 
where e-mails that were lost, isn't that a shocking surprise in 
a perfect world, when we know that the instrumentality of the 
computer is not perfect.
    So, you know, as I listen to this testimony developed over 
these 2 days, I'm becoming frustrated with the Congress myself. 
I can't believe that we do not have more important issues as 
the only oversight committee of the House of Representatives. 
We have spent almost our full time for these many years in 
doing nothing but attempting to denigrate the reputation of 
those people that serve in the executive branch of this 
government and the President himself and have added nothing 
from this committee's work that I've seen over the last number 
of years of a positive nature.
    What have we done to solve some of the problems like 
overexpenditures, fraud, misuse and abuse and Medicare? What 
have we done to analyze the social security problems for the 
future of the American people, which is all under the 
jurisdiction of this committee, to oversight, what's happening 
and anticipate what new legislation is necessary to solve real 
problems of real people in their real lives. Instead for pure 
partisan political purposes, there are people on this committee 
and in this town that have now become to believe that 
partisanship is a religion and it has to be practiced to the 
fullest extent and in the purest nature, and they forget that 
those of you that have tremendously talented lives that have 
come to serve in this administration and perhaps lead the way 
for other extraordinary people to serve future Presidencies 
have to stop and think of whether they really want to do that 
to themselves, their lives or their families or their personal 
fortunes.
    I'm so much aware through all of the Whitewater hearings 
how many people spent more than their net worth just to be 
represented by counsel so that they could have said that they 
served a President of the United States.
    Mr. Burton. The gentleman's time has expired. We are going 
to recess to the fall of the gavel. We have two votes on the 
House floor, and then when we come back Mr. Barr will be the 
first questioner.
    [Recess.]
    Mr. Burton. The committee will reconvene. Mr. Barr, you are 
recognized for 5 minutes.
    Mr. Barr. Thank you, Mr. Chairman. I hate to interfere with 
that love fest that was going on earlier, but somehow I don't 
think that will come as a surprise. The fact of the matter is 
that at least two of these witnesses and a third party, I don't 
see the other Mr. Lindsey here, he was here earlier, have in 
fact been found to have engaged in criminal violations of 
Federal law by a Federal judge. That is a matter of record, and 
the other side may not like it and may be irrelevant to them, 
but in an order issued just recently, I think the end of May 
this year, Judge Royce Lambeth found that Mr. Ruff, the other 
Mr. Lindsey and Ms. Mills in March 1998 engaged in discussions 
and advised the President to release the Kathleen Willey 
letters in violation, clear, knowing violation of the Privacy 
Act.
    So for people to wander around in this Alice in Wonderland 
funk and say that nobody has done anything wrong here and how 
dare anybody impugn anybody's reputation, I'm not citing Robert 
Kennedy, I'm not citing Mr. Waxman, I'm not citing Mr. Burton, 
I'm not citing myself, I'm citing Judge Royce Lambeth. So let's 
get real. There are some serious problems here. This is the 
sort of conduct that concerns us.
    Now, with regard to the issue immediately before us, which 
relates to hundreds of thousands of e-mails subject to lawful 
subpoena by at least two committees of this House of 
Representatives, the Judiciary Committee conducting an inquiry 
of impeachment, which again some people may find irrelevant, 
funny, inconsequential. I know you all don't because y'all 
participated in it and have very high regard I presume for the 
process through which we went. It is very serious. The 
information contained in the hundreds of thousands of e-mails 
that have not yet been searched were also subject in large 
part, in large measure to subpoenas issued by the Office of 
Independent Counsel, again an office that y'all may not like, 
y'all may not like the individual who headed that office, Judge 
Kenneth Starr, but the fact of the matter is that there were 
lawful subpoenas that were issued that related to the subject 
matter of these hundreds of thousands of e-mails that y'all 
knew had not been searched and had not been reviewed in order 
to ensure a full, complete and timely compliance with subpoenas 
lawfully issued and which were not subject to any defense for 
noncompliance.
    Mr. Lindsay, you testified when you appeared before this 
committee a number of weeks ago that pursuant to a search of 
some of the computers conducted by Mr. Robert Haas that a 
significant number of e-mails, about 1,000 I think you 
testified to, were in fact retrieved from this universe of e-
mails out there that you all knew were not subject to 
retrieval, had not been reviewed, had not been retrieved, and 
you testified that in July 1998 you took that relatively small 
batch of e-mails, about 1,000 that he had printed out pursuant 
to his search of the computers themselves, the hard disks I 
believe, over to the White House counsel's office. Do you 
recall that testimony?
    Mr. Lindsay. The characterization as to the general 
population of the e-mails, of that e-mail sampling that you're 
referring to was taken from, I did not make any comment as to 
the general population. I do not know now and I did not know 
then----
    Mr. Barr. That's fine. I'm not quibbling over how many. I 
know that anything you say is like pulling teeth to get you all 
to say anything, I realize that, and we'll just sort of take 
judicial notice of that. These are the e-mails here. This is 
about I'd say, what would you say, counsel, about 1,000?
    Mr. Wilson. It's certainly at least that.
    Mr. Barr. And counsel, these are a copy of the e-mails 
retrieved by Robert Haas pursuant to and as he testified in 
mid-1998 to determine the scope of the problem that was being 
faced; is that correct?
    Mr. Wilson. Correct, the White House produced these 2 days 
ago to us.
    Mr. Barr. OK. Is this the material, and I know you can see 
them so obviously I'm not going to ask you to testify as to 
what's in them, but is this approximately the size of the 
materials, the number of pieces of paper you took over, as you 
testified earlier under oath, to the White House counsel's 
office in July 1998?
    Mr. Lindsay. I did not count them when I brought them over.
    Mr. Barr. I know you didn't count them. I'm not asking you 
to count them. I said approximately. That's why I used that 
term. You're not going to be held to a specific number.
    Mr. Lindsay. Some number that approximates that.
    Mr. Barr. OK. And at that point your memory utterly failed 
you, according to your testimony last time, you have no 
recollection at all of who you gave these some--and there is 
approximately 1,000 documents in here, I'm not asking you to 
verify that. Reflecting back and looking at this fairly 
significant amount of documents, does that jog your memory, 
your recollection? Do you recall at this time who you gave 
those documents to in the White House counsel's office in July 
1998?
    Mr. Lindsay. No, I do not, sir.
    Mr. Barr. Did you receive them, Mr. Ruff?
    Mr. Ruff. I don't believe so. I have no recollection of 
receiving them, Mr. Barr.
    Mr. Barr. Did you receive them, Ms. Mills?
    Ms. Mills. I did receive a batch of e-mails that were--that 
represented the search that had been conducted. I did not 
receive them from an individual other than my assistant, but at 
that point what we did was forward them to another associate 
counsel to review them to determine whether or not they were in 
fact duplicative or whether or not they were not and had not 
been captured in a prior search.
    Mr. Barr. Are you satisfied in your mind----
    Mr. Burton. Mr. Shays has time. I think he's going to yield 
to you and I'm going to yield to Mr. Shays.
    Mr. Shays. I am happy to yield to the gentleman.
    Mr. Barr. Are you satisfied in your mind that we are all 
talking about the same documents here?
    Ms. Mills. As I haven't seen those documents, I don't know 
what's in those documents. I'm not in a position to be able to 
answer you correctly or honestly as to those documents.
    Mr. Barr. You're always in a position to answer me honestly 
I would hope.
    Ms. Mills. Not honestly with respect to whether or not 
they're the same documents that I got. I don't know.
    Mr. Barr. And I'm not asking about these specific 
documents. What I'm simply asking is about the documents to 
which we're referring, in other words, a batch of documents, e-
mails, hard copies of e-mails printed out that were transmitted 
personally by Mr. Lindsay to the White House counsel's office, 
as he's testified to in prior appearance before this committee 
in July 1998.
    Ms. Mills. OK. I was not aware that he personally provided 
the materials, but I know that the e-mails came to our office.
    Mr. Barr. OK. And who conducted the review of those e-
mails?
    Ms. Mills. Shelly Peterson, who's an associate counsel in 
our office.
    Mr. Barr. And what conclusions did--is that Mr. or Ms.?
    Ms. Mills. It's a Ms.
    Mr. Barr [continuing]. Did Ms. Peterson arrive at 
concerning those e-mails and whether or not they were subject 
to any of the subpoenas that had been served on the White 
House?
    Ms. Mills. Ms. Peterson, to my understanding, reviewed the 
documents to determine whether or not they were duplicative 
with respect to documents we had produced or whether or not 
there were in fact new documents that were there that had not 
been produced.
    Mr. Barr. And?
    Ms. Mills. She concluded that the materials were 
duplicative of materials that had been previously been 
produced.
    Mr. Barr. In other words, they were identical in every 
regard, every single respect to documents that had already been 
furnished to the folks who had--whatever entity had issued the 
subpoenas?
    Ms. Mills. Without addressing the characterization of your 
question, it was my understanding that these e-mails were 
duplicative and had in fact been produced.
    Mr. Barr. And therefore who made the determination not to 
send those documents to the authorities that had subpoenaed 
them?
    Ms. Mills. Well, the authorities that had subpoenaed them 
had them.
    Mr. Barr. Did you ask them if they had them? You made the 
determination that they did or Ms. Peterson did?
    Ms. Mills. Well, when we do a document production we then 
keep a copy for ourselves of what we sent to the individual 
that's requesting.
    Mr. Barr. Let me make you all aware of a problem that we 
ran into yesterday, which is one reason why we're trying to ask 
very specifically about duplicative records, for example. We 
had print copies of e-mails and I think you all may have them, 
for example exhibit 81, which is an e-mail that had a blank in 
it, and it appeared as if there was some information missing 
from it. Now Mr. Heissner, the author of that particular e-
mail, testified to, and I'm not saying whether it's accurate or 
not, he testified that the e-mail that was presented to us, 
which is exhibit No. 81, was identical with another e-mail that 
might be found if we went back and searched the backup records 
for the ARMS system, although it might appear differently 
because the way he printed it out didn't pick up some of the 
graphics in it. It might have listed things a little bit 
differently, the spacing might have been different, so forth. 
In other words, you can take two documents that have the same 
information on them, but it might be formatted a little bit 
differently.
    As a trained attorney you would recognize certainly the way 
information is formatted might have a bearing on the accuracy 
of the information, how it's interpreted, would you not?
    Ms. Mills. Well, I think that what you're asking is when 
you asked as to or question whether or not they're identical or 
not, I obviously did not conduct the review but it is my 
understanding Ms. Peterson went through the materials and made 
the determination that these were duplicative of materials that 
had been produced.
    Mr. Barr. What would be the legal theory under which you 
would not or the ethical theory or the practical theory under 
which you would not just go ahead and send them in 
overabundance of caution just to make sure that there was no 
problem, that you would have this batch of documents and say, 
well, these are subject to subpoena, it may very well be that 
some of these or maybe all of these in one form or another have 
been transmitted but they are subject to a lawful subpoena and 
then we're just going to go ahead and send them? Wouldn't that 
be the more prudent, more ethical course of conduct?
    Ms. Mills. Well, one thing we are obviously cognizant of is 
how much paper and materials everybody is getting. So to the 
extent that----
    Mr. Barr. Y'all are looking out for the taxpayers.
    Ms. Mills. No. Actually I wasn't going to say that but 
obviously that's something to be thoughtful about as well. So I 
appreciate you making that observation as well. But to the 
extent that there are materials that we've already sent 
individuals, it's probably challenging to send them more to 
think that potentially they're getting something that they 
don't already have, and so in this instance because Ms. 
Peterson was able to determine that these materials were 
duplicative there was no reason to send them another copy of 
materials that they had.
    Mr. Barr. Who reviewed or approved her decision?
    Ms. Mills. Well, we have no reason--I mean I don't know how 
to answer that question. I mean, Ms. Peterson has the skills 
and the ability as a trained attorney.
    Mr. Barr. The answer would be nobody.
    Ms. Mills. Well, she certainly conducted her research and 
went through and did it in a fashion that would be consistent 
with what we understand to be or----
    Mr. Barr. I know Mr. Waxman is getting antsy over there. 
We'll save the questions for additional time.
    Mr. Burton. That is fine. Mr. Waxman, I would like to 
remind you that when you had 30 minutes I let you guys run over 
almost 4 minutes, but we'll give you your 5 minutes now.
    Mr. Waxman. Your generosity overwhelms me. We've had Mr. 
Barr with two 5-minute segments, and the rules of the House 
entitle me to have my 5 minutes and I want to have my 5 minutes 
now. I'd like the clock started over again.
    Mr. Burton. You're getting your 5 minutes, Mr. Waxman.
    Mr. Waxman. Mr. Lindsay, I'd like to revisit some of your 
testimony about your understanding of the MAIL2 problem.
    Mr. Lindsay. Yes, sir.
    Mr. Waxman. I think you were pretty clear when you 
testified about this previously, but there seems to be some 
misunderstanding about it. You said that you were informed 
about the MAIL2 problem in June 1998 and after you were 
informed about it, you promptly informed the White House 
counsel's office. You then assisted in a search for e-mails 
relating to Monica Lewinsky and that you had this to say about 
the search, ``I believed the non-ARMS managed e-mails were 
searched. I now understand though that I did not understand it 
then that the backup tapes containing the e-mails may never 
have been searched.''
    Later you heard back from the White House counsel's office 
that the Lewinsky search had produced only duplicates of e-
mails already turned over, and this led you to think, again 
your words, it probably isn't that big of a problem because 
this information has already been produced, end quote. So you 
concluded that there may not be a legal problem in terms of 
whether or not documents were produced, but I still had a 
problem, and that was I still had a technical staff that 
reported to me that there was a glitch. Even if that test came 
back in a positive way, I may have not had a production problem 
but I had a technical problem because my e-mail system and my 
ARMS system and how they worked together, that was the issue I 
needed to resolve. That was again your statement.
    I think your testimony's pretty clear on this point. You 
were concerned about the problem initially. You notified the 
White House counsel's office, and when they informed you that 
the problem had not affected document productions, your 
concerns were put to rest. The concern that you did have was 
that for reasons relating to the Presidential and Federal 
Records Act you still needed to reconstruct and archive the 
missing e-mails, but this was not a high priority and since you 
knew that you would have time to do that for archival purposes 
later.
    Is that an accurate statement, Mr. Lindsay?
    Mr. Lindsay. Yes, it is, sir. It's important to know also 
that we are in the process of conducting reconstruction for 
years of e-mails from the Reagan administration, the Bush 
administration, from the early Clinton administration. So the 
process of reconstruction is one that--was one that took many 
years and people in the committees and whatever were familiar 
with the fact we were conducting those activities.
    Mr. Waxman. Mr. Lindsay, yesterday the chairman accused the 
White House of trying to delay the reconstruction of the MAIL2 
e-mails until after the election in November. He said that the 
White House was trying to, quote, run out the clock. Is that 
accusation accurate?
    Mr. Lindsay. It is absolutely not correct, sir.
    Mr. Waxman. What has the White House done to ensure that 
the e-mails are reconstructed and produced as soon as and as 
efficiently as possible?
    Mr. Lindsay. When I met specifically and gave direction to 
my staff, my instruction to them was that they were to conduct 
the reconstruction as quickly as possible in accordance with 
the request by this committee and by other bodies to have this 
work done as quickly as possible. I told them to conduct that 
and to essentially give me a schedule for production or 
reviewing these materials and making sure that they were 
reconstructed on a 24-hour, 7-day a week schedule if necessary 
to make sure that it was done as quickly as is humanly 
possible.
    Mr. Waxman. And when do you anticipate making these e-mails 
available to our committee?
    Mr. Lindsay. It is going to be completed on a rolling 
basis, but I believe in the June timeframe will be the first 
time we'll be able to produce some information from the 
reconstruction process.
    Mr. Waxman. So rather than delaying production, you're 
going to turn over documents as you produce them?
    Mr. Lindsay. Absolutely, and as a matter of fact many of 
the contractors that we tried to get to do this work protested 
by the fact that what we were doing was such an ambitious and 
such a speedy schedule that they declined to participate and to 
even bid for the contract.
    Mr. Waxman. Just so we have this very clear, my 
understanding is that the reconstruction project is scheduled 
to be completed by Thanksgiving. That does not mean, however, 
that the reconstructed e-mails will not be produced until 
Thanksgiving. Document production will begin long before then. 
All that it means is that the final stages of the e-mail 
project which involve putting the reconstructed e-mails into 
ARMS for archival purposes will be completed then. The actual 
reconstruction of the e-mails, the placing of those e-mails 
into a searchable data base and the production of e-mails to 
our committee will begin well before that date and well before 
the election.
    Is that an accurate statement?
    Mr. Lindsay. That is true, sir.
    Mr. Waxman. I just think that ought to be clear to 
everybody so we don't keep on hearing these accusations.
    One more point, I understand that decisions about what 
materials will be produced first will be made by the White 
House counsel's office in consultation with our committee and 
other investigative committees; is that correct?
    Mr. Lindsay. I believe so, sir.
    Mr. Waxman. Thank you.
    Mr. Burton. The gentleman's time has expired. We were told 
initially that probably the e-mail problem, in compliance with 
our subpoenas, would be handled by September, and yesterday we 
were informed that it would be the Monday before Thanksgiving, 
which is after the election. The White House counsel's office 
I'm sure will be the one that will be charged with the 
responsibility of giving us e-mails as they are produced, and 
the reason I made the statements I did yesterday was because of 
the track record of the White House counsel's office in 
complying with subpoenas and working with this committee to get 
the facts out to the American people. So I don't believe I 
misspoke yesterday.
    I'll believe we're getting the e-mails in an orderly 
fashion when I start to see them rolling off the presses, 
coming through the counsel's office and given to us. Up to now 
we have not seen that kind of cooperation from the White House 
counsel's office going back to Mr. Ruff, and I will now yield 
to Mr. Barr. Excuse me, Mr. Barr. Did you want the time, Mr. 
Barr?
    Mr. Barr. Thank you, Mr. Chairman. One of the--this is just 
one subpoena that I know you are all familiar with. It's dated 
September 15th or September 1, 1999. It is a subpoena duces 
tecum from this committee addressed to the Executive Office of 
the President, Cheryl D. Mills, and it simply has an attachment 
that subpoena is returnable 2 weeks later, September 15, 1999. 
It has attached to it schedule A, which is two pages of very 
standard language, and that's really what I wanted to ask you 
all about, and then a third page of schedule A which has to do 
with the specific subject matter of the subpoena, in this case, 
the Puerto Rican terrorists.
    If y'all would glance at the first two pages, please, of 
schedule A, which is the definitions and instructions, and if 
y'all could let me know if that has been y'all's view of 
standard language which accompanies subpoenas duces tecum in 
order to identify in very, very broad terms the types of 
information that are covered by the subpoena.
    Mr. Ruff.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.618
    
    [GRAPHIC] [TIFF OMITTED] T9621.619
    
    [GRAPHIC] [TIFF OMITTED] T9621.620
    
    [GRAPHIC] [TIFF OMITTED] T9621.621
    
    [GRAPHIC] [TIFF OMITTED] T9621.622
    
    Mr. Ruff. Let me just note initially that September 15th is 
about a month and a half after my departure from the White 
House, but without having had the opportunity to either read it 
carefully or to compare it with other subpoenas from this 
committee, it appears on its face to be comparable to similar 
documents that the White House received during my tenure.
    Mr. Barr. Thank you. Ms. Mills.
    Ms. Mills. I agree.
    Mr. Barr. The language, and I might ask counsel, Mr. 
Wilson, is the language contained in the first two pages of 
schedule A what is referred to in the legal profession as 
boilerplate language?
    Mr. Wilson. Yes, it is.
    Mr. Barr. OK. In other words, this is standard language 
that would be included in subpoenas duces tecum in order to 
ensure to the greatest extent possible that the recipient of 
the subpoena has to comply and look for all copies, all 
versions of various documents or records? In other words, this 
language is intended to reach as broadly, not as narrowly, as 
possible?
    Mr. Wilson. That's correct.
    Mr. Barr. Would it also be counsel's understanding of the 
law and the practice of the Congress certainly in issuing 
subpoenas duces tecum that when a subpoena duces tecum such as 
this one before us, and I would ask unanimous consent to 
include this in the record----
    Mr. Burton. Without objection.
    Mr. Barr. Are such subpoenas duces tecums and the language 
contained in schedule A, which is standard boilerplate 
language, are they intended to reach all different copies of 
something that might contain the subject matter, the 
substantive subject matter, relate to the substantive subject 
matter of the subpoena itself?
    Mr. Wilson. Yes, the language is intended to reach 
different copies.
    Mr. Barr. And in this case, for example, it's my 
understanding, and if you would confirm this, please, Mr. 
Wilson, that this subpoena issued in September 1999 would have 
covered--was intended to cover what we now know to be e-mails 
that were not furnished to the committee because they were 
among those many thousands that were not captured in the ARMS 
system?
    Mr. Wilson. Yes, it was. If I could explain one thing very 
quickly, though, there have been times when the White House has 
come in and explained to us that there are certain categories 
of documents that they will not produce, for example, newspaper 
clippings, and sometimes we've made agreements. They're 
generally reduced to writing and it's known in advance. So 
that's a very important thing to understand, that sometimes 
there are things committed to paper in advance of the 
production of documents.
    Mr. Burton. The gentleman's time has expired. Mr. 
Kanjorski.
    Mr. Kanjorski. I have no questions.
    Mr. Burton. Mr. Kanjorski passes. Mr. Ford.
    Mr. Ford. I took up all of Mr. Waxman's time. I will be 
happy to yield to him. I don't have any further questions.
    Mr. Burton. The gentleman passes. We'll now go to Mr. 
Shays.
    Mr. Shays. I'm happy to yield to my time to allow the 
gentleman to finish.
    Mr. Barr. Thank you. If I could engage counsel a little bit 
further, given his familiarity with the procedures of this 
committee and his knowledge as counsel generally with regard to 
subpoenas issued by a committee of the Congress to the 
executive branch, would it satisfy the committee--would it 
satisfy you as counsel for the committee that some documents 
but not all documents were searched in order to ensure 
compliance with this lawful subpoena issued by this committee?
    Mr. Wilson. Absolutely not.
    Mr. Barr. And why is that?
    Mr. Wilson. Well, there is the expectation, unless there is 
something communicated to us to the contrary, that all 
available sources of documents are searched, and something I 
might point out, to this day the White House has not 
communicated to us that they have not done that. The e-mail 
problem that we're talking about today, they have yet to 
communicate to us that they have not searched in the backup 
tapes for material responsive to the various subpoenas issued 
by the committee.
    Mr. Barr. Mr. Chairman, just a few moments ago in 
questioning of the witness I showed this very large, and I know 
that in dealing with this administration that one always has to 
qualify and I know these things are all relative, but this very 
large batch of e-mails, and I have just leafed through them 
since we've not had time to go through them in detail, and I 
assume the independent counsel's office will be going through 
them in some detail, but contained in here are e-mail after e-
mail after e-mail concerning or from or to Monica Lewinsky 
clearly which would have been covered by various subpoenas that 
had been issued. We also have the subpoena duces tecum that 
I've introduced into the record here which is one of many 
issued by the committee in this case regarding another very 
important matter before a duly constituted committee of the 
Congress and that is the pardons granted by the President to 
Puerto Rican terrorists.
    And in one case, the case of the Lewinsky materials which 
were subject to subpoena by the independent counsel and the 
Judiciary Committee in its impeachment inquiry, we know that 
there are, at least on simply one particular day that these 
records were searched by Mr. Haas, approximately 1,000 
documents that were never furnished to the impeachment 
committee or apparently to the independent counsel. And as I 
say, I think that from what I read in the newspapers is 
certainly something that is of concern to the independent 
counsel; that is to say, nothing about all of the other days 
that were not searched and all of the other individuals whose 
names were not queried of the computer. This is just, I 
believe, one or two names, actually Raines and Monica Lewinsky.
    And in the case of the Puerto Rican terrorist question, we 
don't know at this point how many documents were not searched, 
and therefore, we're not even at the point where we have 
somebody saying somebody else at the White House did look at 
these and please trust us, they said they were all exactly 
identical.
    So I think there are a lot of very, very important 
unanswered questions here, and as I said yesterday at the 
hearing, I appreciate very much, Mr. Chairman, your going into 
these matters, and hopefully at some point in the not too 
distant future we will have better answers than we've received 
so far.
    Mr. Burton. Thank you, Mr. Barr. Mr. Shays, do you wish to 
have the rest of your time or do you want to yield it back 
right now?
    Mr. Shays. I'd like more time, so I'll start now.
    Mr. Burton. Go ahead.
    Mr. Shays. Thank you.
    Getting back, Mr. Lindsay, you learned about the letter 2 
problem--Mail2 problem in June. And you thought this was a 
serious problem or you didn't think it was a serious problem?
    Mr. Lindsay. When I was first told about the problem, I did 
not know the breadth or scope of the issue. My instruction to 
my staff was to investigate and conduct a review to try and 
identify the breadth and scope of the problem.
    Mr. Shays. You waited to meet with Mr. Ruff until you knew 
that, the depth of the problem.
    Mr. Lindsay. I waited--I conveyed the information to Mr. 
Ruff when I had some information. At the time I talked to Mr. 
Ruff, I did not have a complete picture. And frankly, as we 
move forward, it's a fairly technically complicated issue, we 
discovered new little bits of information as we move forward. 
But, generally, the sum and substance of the information that 
was contained in the memorandum of June 18th or 19th fairly 
accurately states the state of knowledge that we had at that 
time.
    Mr. Shays. And so you were aware that----
    Mr. Burton. I'm going to yield the gentleman my time for 
this round--oh, it's Mr. Barr's time. You want to yield to Mr. 
Shays?
    Mr. Barr. I can hardly not do that. I yield my time to the 
gentleman from Connecticut.
    Mr. Shays. So you knew there was a potential problem with 
certain e-mails that may not have been captured. You just 
didn't know how many.
    Mr. Lindsay. Sir, I want to place that into context. I had 
potential problems with computer systems and with e-mail issues 
frequently. We had an antiquated system that we are working 
very diligently to make improvements on, and I took them all 
seriously.
    Mr. Shays. That you had a serious problem with not being 
able to retrieve e-mails, I'm just asking if you were aware of 
that. And, you know, I'm going to say right out, Mr. Lindsay, I 
don't think in my mind that these were done intentionally. What 
I want to know is, once the problem was discovered, what was 
done about it and who was notified. So I'm not going to get 
into whether you had an old system or new system, a bad system, 
a good system, but you were aware that some e-mails were not 
being captured, isn't that correct? I mean, do we have to play 
games on this?
    Mr. Lindsay. It's not a game, sir. It's very, very 
important to understand that it isn't a simple question of 
whether or not e-mails were being captured one way or the 
other. The information that was reported to me was that 
information of what people believed to be the case at that 
time.
    Mr. Shays. That what?
    Mr. Lindsay. That e-mails weren't being captured.
    Mr. Shays. Good. So we've arrived at the point, that e-
mails weren't being captured, right?
    Mr. Lindsay. Yes, sir.
    Mr. Shays. What's the significance of that?
    Mr. Lindsay. The significance of it, from a technical point 
of view, is that there was an operation of the system that 
probably wasn't working the way that it should.
    Mr. Shays. How about from a legal point of view, given that 
the White House was required to capture e-mails and identify 
ones that fit the request of this committee and Mr. Starr's 
work and the committee on impeachment, the Judiciary Committee.
    Mr. Lindsay. It would be an inappropriate legal conclusion 
to come to on my part or anyone's part that information--
because the information was not captured or may not have been 
captured----
    Mr. Shays. I didn't ask for a conclusion.
    Mr. Lindsay [continuing]. That it wasn't produced.
    Mr. Shays. I didn't ask for a conclusion. What I was asking 
was--is whether there was the potential that information wasn't 
being captured that was important to fulfill a legal 
requirement.
    Mr. Lindsay. I presume that that potential was there. 
Potentially. Hypothetically.
    Mr. Shays. So--and I hope so. Because you're in charge of 
the Office of Administration, and I think that you were 
requested to provide relevant documents to various parties, 
through Mr. Ruff's office and others, correct?
    Mr. Lindsay. That is correct, sir. But there are other ways 
of providing the information. Keep in mind that this 
information very well could be--they're duplicates that are 
kept in three locations.
    Mr. Shays. I do hear you. But a little radar, something 
went off and said we may have a problem here. And it's--we may 
have not identified all our e-mails, we may not have identified 
all our e-mails, we may or may not, correct?
    Mr. Lindsay. I did not come to that conclusion. My issue 
was to convey to the counsel's office the fact that this glitch 
had occurred and that it had the potential, hypothetically, for 
causing an interference in terms of people's understanding of 
what they could get from the ARMS system. That does not mean 
and I did not make a representation about any other source.
    Mr. Shays. You answered the question. There are people that 
needed things from the ARMS system, and you are now aware that 
you've got a problem, and you thought it was enough of a 
problem to talk to Mr. Ruff. Why did you think you needed to 
speak to Mr. Ruff?
    The good thing is you remember meeting with Mr. Ruff. You 
think you met with him in the office. You just don't know who 
was at the meeting.
    But now I want to ask you what you told him. I first want 
to know why you went to see, and I want to know what you told 
him.
    Mr. Lindsay. I was directed by my boss's boss to talk to 
Mr. Ruff. That's why I talked to Mr. Ruff.
    Mr. Shays. And your boss's boss? Who's your boss?
    Mr. Lindsay. Ada Poze.
    Mr. Shays. And your boss's boss?
    Mr. Lindsay. Virginia Apuzzo.
    Mr. Shays. Now why did they want you to tell Mr. Ruff?
    Mr. Lindsay. Because it was a technical issue and they 
wanted the information to be conveyed quickly and to take the 
time to explain all the details of it through them.
    Mr. Shays. And Mr. Ruff's in charge of how to operate the 
computers, he's the technical guy on how to operate the 
computers, that's why you did?
    Mr. Lindsay. No, sir.
    Mr. Shays. You had a technical problem. You needed his help 
to fix it.
    Mr. Lindsay. No, sir.
    Mr. Shays. Obviously not. So why did you tell him?
    Mr. Lindsay. I was directed by the Assistant to the 
President for Management and Administration to do so.
    Mr. Shays. You don't know why he directed you to.
    Mr. Lindsay. It's a her, and I believe it was because this 
issue affected the ARMS system and there was a potential--
because of the potential of the impact that it could have on 
searches.
    Mr. Shays. So we are--it's taken me about 5 minutes to have 
you acknowledge that there was a problem with the potential to 
do searches. Correct? That's what you said now. Finally, we got 
to point that you could have just said right off, but we're 
playing this little game to get to a point.
    I have a red light. I'll just wait.
    Mr. Burton. The gentleman's time has expired, and I 
appreciate the patience of the gentleman from Connecticut.
    Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman.
    I want to extend greetings to Mr. Ruff and Ms. Mills. It's 
been some time since I've had an opportunity to visit with you. 
And I listened to your testimony, Mr. Ruff, and I haven't been 
here all today, and I haven't looked at all the materials, but 
I have not seen anything that would indicate any evidence of 
intentional conduct on your part or Ms. Mills' part that would 
indicate a desire to cover up or failure to comply with 
subpoenas.
    And I just wanted to lay that out. I'm not making those 
allegations. You're an officer of the court, and I think that 
any time we look at your obligation to comply with subpoenas we 
ought to be careful before we jump to conclusions on it.
    But I am concerned from a number of standpoints. I think 
there's some legitimate points of inquiry. Again, as officers 
of the court, subpoenas and the production of documents is a 
very important part of our legal system; and, without any 
question, certain servers were not reviewed for compliance with 
the subpoenas; and so, even to this day, we do not know whether 
all the relevant documents have been produced. Is that a true 
statement, Mr. Ruff?
    Mr. Ruff. I don't have firsthand knowledge, obviously, 
Congressman, but that's my understanding from reading the 
record.
    Mr. Hutchinson. Correct. And you're not there day to day 
now.
    Mr. Ruff. No, I view that as a blessing.
    Mr. Hutchinson. Which is, I'm sure, to your relief. But we 
don't have them today. I think that determining the reasons for 
it and what we need to do to correct it is very relevant to our 
judicial process today and there's certainly some ongoing 
investigation.
    Second, I think it is very relevant to determine what the 
causes were for it and whether there was due diligence in 
complying with it. And I hear--again, it certainly didn't 
indicate anything that would indicate intentional conduct, but 
I did sense a little bit that would give me some concern about 
a matter of diligence and perhaps a more of a cavalier attitude 
toward getting the information. I know there was a lot going on 
in life at that particular point, but that is a concern. You 
know there were investigations going on that wanted this 
information. It was not being retrieved. And this exhibit 1, 
which is the memo from Virginia Apuzzo which you received, is 
that correct?
    Mr. Ruff. That's correct, Congressman.
    Mr. Hutchinson. That in reading it would certainly point up 
to me a problem.
    Mr. Ruff. Indeed.
    Mr. Hutchinson. And then you assigned it to different 
people who ultimately wound up with a technical person to do 
some testing, and we don't know who that is.
    Mr. Ruff. I do not know who conducted the test, no, 
Congressman.
    Mr. Hutchinson. And at any point did you believe that this 
is information that should be provided to the requesting 
authority such as the Congress, the independent counsel or the 
Department of Justice?
    Mr. Ruff. My state of mind is, in essence, as I've 
previously described it, was that I recognized that there might 
indeed be a problem, as has been expressed; that it was 
important to find out whether this problem indeed had affected 
anything we had done or not done previously; that when the 
report came back to me on the test that had been run, I 
concluded--I understood that that suggested that there was no 
such adverse effect on what we had done previously.
    Obviously, my understanding was incorrect in the sense that 
I now recognize that there is a body of material out there 
about which I do not have any details that had not, in fact, 
been searched or had not, in fact, been retrieved. But my view 
at the time was very clear in my memory that indeed when the 
report came back to me on the materials that had been searched 
and the duplicative nature of what had been produced I believed 
that the problem had not affected us. And that may well have an 
erroneous conclusion, but it was my conclusion.
    Mr. Hutchinson. How would you have failed if in your 
defense of the President you had requested certain documents 
from the Congress or from other body and then you had come to 
find out that they were never produced?
    Mr. Ruff. Obviously, I would not have been happy about 
that.
    And I think the point you make is an absolutely solid and 
important one. This committee has every obligation to inquire 
into the circumstances surrounding those events in order to 
determine, first, whether indeed there was any impropriety--and 
I am firmly of the belief that there was none; second, to 
determine whether there's a systemic problem that needs to be 
corrected; and, third, whether the White House is responding 
appropriately to the committee's concerns. I view all of those 
as entirely legitimate inquiries, and we're doing our best to 
try to respond to them.
    And presumably I would have reacted the same way if I asked 
any adversary or any third party for a set of documents. I 
would want to know why they weren't produced. That's an 
entirely appropriate inquiry for you to make.
    Mr. Hutchinson. With your very succinct statement as to the 
legitimate purpose of this inquiry I'm going to yield back the 
time. I know you have all been here a long time. Thank you.
    Mr. Burton. We have a vote on the floor. We'll stand in 
recess at the fall of the gavel.
    [Recess.]
    Mr. Burton. I want to apologize to our witnesses for the 
interruption, but that's the way the legislative process works. 
So we'll now yield to--who's next on there? Mr. Shays? It's my 
time. OK. I will yield to Mr. Shays.
    Mr. Shays. Thank you.
    Mr. Lindsay, I have five slots, and I'm not trying to trick 
you, and I know you're trying to be precise, but it really took 
us a long time to get to this point. That you met with Mr. Ruff 
to tell him about the problems, a technical problem that 
prevented you to capture certain e-mails. And you knew this was 
a potential problem for Mr. Ruff because he needed--there were 
issues--there were certain e-mails you needed to capture and 
there were potentials there.
    Mr. Lindsay. Yes, sir.
    Mr. Shays. So when you went to Mr. Ruff you believe you met 
with him in his office, but you don't know if anyone else was 
there. And that's correct.
    Mr. Lindsay. That's what I testified to this time. That's 
what I testified to on the 23rd also.
    Mr. Shays. And that's correct.
    Mr. Lindsay. That is correct, sir.
    Mr. Shays. And you're telling us that your boss's boss told 
you to disclose this information to Mr. Ruff.
    Mr. Lindsay. That is correct, sir.
    Mr. Shays. And you were saying it was a technical problem, 
but you didn't go to Mr. Ruff because he had any technical 
expertise with resolving the problem. He needed to know what?
    Mr. Lindsay. Excuse me, sir?
    Mr. Shays. He needed to know what? You weren't there to 
have him fix the computers. It was a technical problem in the 
computers that prevented certain e-mails from being captured 
and so you didn't go to him to help you with the technical 
problem.
    Mr. Lindsay. That is correct, sir.
    Mr. Shays. You went to disclose information. What was the 
information you went to disclose?
    Mr. Lindsay. The impact of the technical problem on 
something that Mr. Ruff had an interest in.
    Mr. Shays. OK. And what are those things that he had an 
interest in?
    Mr. Lindsay. ARMS searches.
    Mr. Shays. OK. And, Mr. Ruff, if you would tell me, what 
was the impact of this? I mean, in other words, you're being 
told that certain information isn't being captured, that you 
had thought you had--we had captured all the e-mails, all the 
correspondence, all the relevant information is being forwarded 
on to the relevant parties, and your word is golden in this 
committee and in Congress. So did you not begin to wonder if 
you had to come back? Let me say this. What was your reaction?
    Mr. Ruff. I think my reaction is as I've described it, 
Congressman, which is that my first concern was to determine 
whether whatever problem it was that existed--and you're quite 
correct in not attributing to me any technological knowledge or 
understanding--whatever problem existed, did it or did it not 
have an impact on searches we had already conducted.
    The most immediate point of concern, because it was the 
nearest in time and in June 1998 the most sort of prominent, I 
think, in all our minds in the counsel's office, was whether it 
had affected our search for Lewinsky-related material. 
Thereafter--and as I've indicated I can't trace for you the 
process that got from my concern to the framing of a search 
request that went back to the Office of Administration. But it 
was my belief that such a search was being conducted to 
determine whether indeed we had made the proper search and the 
proper production or whether there was a problem we needed to 
address.
    Mr. Shays. Did you give out certain fairly strong requests 
for--to ascertain the extent of the problem? I mean, did you--
did you recognize that this could be a challenge that needed to 
be dealt with quickly?
    Mr. Ruff. Indeed. And that was the purpose for conducting 
the search that was being conducted, to determine whether--
immediately and as rapidly as possible to determine whether or 
not something had happened that would require us to take 
corrective action.
    Mr. Shays. Did you impress upon Mr. Lindsay that this was 
an important issue?
    Mr. Ruff. I don't think there was any need to impress on 
Mr. Lindsay that. I think both of us understood that the very 
fact that a memo had gone from Ms. Apuzzo to the deputy chief 
of staff and that Mr. Lindsay was meeting with me on it meant 
it was an important problem.
    Mr. Shays. So you agree, Mr. Lindsay, it was an important 
problem?
    Mr. Lindsay. Yes.
    Mr. Shays. OK. And the problem was from your side you had a 
technical problem which meant certain e-mails weren't being 
captured. The problem from Mr. Ruff's side was he had 
information he needed to get to various parties. You made 
reference to one, Judiciary Committee, I'm assuming, or Mr. 
Starr.
    Mr. Ruff. Mr. Starr.
    Mr. Shays. Mr. Starr as it related to a particular 
individual. So this would be, I would think, a memorable 
meeting, true.
    Mr. Ruff. The fact of the meeting is memorable, but witness 
my already stated failure of recollection with regard to the 
specifics of the conversation. I fear not memorable in terms of 
exactly what it is that Mr. Lindsay told me and what I said to 
him.
    Mr. Shays. I would love more time or who is next.
    Mr. Burton. Or who was there.
    Mr. Ruff. Let me just address that momentarily. Because I 
said in my interview with the committee that I thought Ms. 
Mills was there but couldn't vouch for it. It's been suggested 
that because my time planner, my calendar, had Ms. Mills' name 
on it that she must have been there. Let me just make it clear, 
if it's not already, that that is a preplanning calendar and 
not a reflection of what actually happened. So that as I think 
back on it and looking at that calendar, candidly, and I 
initially assumed that she was there, however, I take it 
absolute face value her recollection that she was not, and my 
assumption at the moment as we go forward is that it was Mr. 
Lindsay and I.
    Mr. Burton. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    To Mr. Ruff, Ms. Mills and Mr. Lindsay, thank you for being 
with us today. I can only echo the comments that have been made 
on this side, particularly by my colleague, Mr. Ford, with 
regard to your service to this great country.
    I might take just a note--make a note, Ms. Mills, that as a 
father of a 17-year-old young lady, first-year student at 
Howard university, my daughter was very moved by your 
presentation when you represented the President of the United 
States; and it left a mark on the DNA of every cell of her body 
to be the very best that she could be. I want to thank you for 
all that you are.
    And I also want to thank you for your opening statement, 
which is probably, if you heard us on this side you would hear 
almost your same words, not as eloquent, but your same words. 
Because I've sat now on this committee for 4 years and so many 
of the problems that trouble our young people, so many of the 
problems that trouble this Nation are never addressed here. 
Never addressed. We don't spend 1 second addressing them while 
we spend all this time and money addressing things like we're 
addressing today. But be that as it may, I thank you.
    Mr. Lindsay, let me just ask you a few questions. Even 
after 3 days of hearings it seems there's still some confusion 
about the nature of the e-mail problem we're discussing. I 
would like for you to help me clarify this.
    Mr. Lindsay. Yes, sir.
    Mr. Cummings. Did the problem with the Mail2 server affect 
all e-mails in the White House?
    Mr. Lindsay. No, it did not, sir.
    Mr. Cummings. As I understand the problem, it resulted in 
incoming e-mails to certain White House employees not being 
properly archived. This does not mean that those e-mails were 
not produced, however. There are other ways those affected e-
mails may have been made into ARMS, made into ARMS. For 
example, anytime a person responded to an e-mail with history, 
that entire response containing the original incoming message 
would have been automatically sent into ARMS, is that correct?
    Mr. Lindsay. That is correct, sir.
    Mr. Cummings. Furthermore, if an incoming e-mail was sent 
or cc'd to any nonaffected user in the EOP or if it was 
forwarded by the recipient, then it would also be in ARMS, is 
that correct?
    Mr. Lindsay. That is correct, sir.
    Mr. Cummings. We've established that the problem was 
limited to incoming e-mails to certain White House users, and 
some of those same e-mails could have been archived into ARMS 
anyway.
    Mr. Lindsay. That is exactly correct, sir.
    Mr. Cummings. In addition, many e-mails that did not get 
properly archived may still have been produced, and that's a 
very important point. We've been told by Mr. Ruff and Ms. Nolan 
that any time the White House receives a subpoena or document 
request a search is conducted of ARMS. In addition, however, 
all relevant individuals are asked to search their own computer 
records, so any e-mails that were saved would have been 
produced regardless of whether or not they were archived in 
ARMS, isn't that correct?
    Mr. Lindsay. That is exactly correct, sir.
    Mr. Cummings. Now, there's been a lot of loose talk about 
the hundreds of thousands of missing e-mails. Representative 
Barr made statements to that effect today in this very hearing. 
Do any of you have any idea how many e-mails may have been 
missing from ARMS?
    Mr. Lindsay. I do not, sir.
    Mr. Cummings. Ms. Mills.
    Ms. Mills. I do not.
    Mr. Cummings. Mr. Ruff.
    Mr. Ruff. No, sir.
    Mr. Cummings. Is there any way of knowing how many e-mails 
were not produced?
    Mr. Lindsay. Not to my knowledge, sir. You would have to 
complete the reconstruction process to actually get an 
assessment as to what that number is.
    Mr. Cummings. Do any of you have any knowledge about the 
content of those missing e-mails?
    Mr. Lindsay. No, I do not, sir.
    Ms. Mills. I do not, sir.
    Mr. Ruff. I do not, Mr. Congressman.
    Mr. Cummings. Is there any way of knowing the content of 
the missing e-mails?
    Mr. Lindsay. Short of reconstruction or actual examination 
of those e-mails after reconstruction, no, there is not.
    Mr. Cummings. So any speculation about the number or the 
content of the missing e-mails is just that, speculation; is 
that correct?
    Mr. Lindsay. Yes, sir.
    Mr. Cummings. Now, Mr. Lindsay, I would like to--like you 
to help me out with the document that has been cited several 
times during our hearings. It is exhibit 62. It is a document 
dated--are you familiar? It is a document dated June 18, 1998 
and is apparently the results of a survey conducted by Northrop 
Grumman contractor Bob Haas who looked at the White House e-
mail network to determine how many e-mails were archived in 
ARMS. Are you familiar with this document?
    Mr. Lindsay. Generally familiar, sir.
    Mr. Ford. What exhibit number is that?
    Mr. Cummings. That's exhibit No. 62.
    Now Mr. Haas apparently came up with 246,000 e-mails that 
had not been archived in ARMS. Some people have suggested that 
this means that those 246,000 e-mails were missing or they were 
not produced. That's just plain wrong. Mr. Haas was looking at 
e-mails that were still on the White House's computer network. 
Those e-mails may not have been in ARMS, but they have been 
saved by the recipient. This means that every 1 of those 
246,000 e-mails should have been searched and, if responsive, 
produced when people were told to search their own files in 
response to the document request. Is that correct, Mr. Lindsay?
    Mr. Lindsay. That is exactly my understanding, sir.
    Mr. Cummings. I see we've run out of time. Thank you very 
much.
    Mr. Burton. Thank you Mr. Cummings.
    Mr. Shays, I think you're next.
    Mr. Shays. Thank you.
    Let's talk about that document No. 62 a little bit more.
    Mr. Lindsay. Yes, sir.
    Mr. Shays. This was a document provided by Northrop 
Grumman. And I want to know if you were given this document. 
It's prepared, I believe, by Bob Haas of Northrop Grumman.
    Mr. Lindsay. It is before me now, sir.
    Mr. Shays. Pardon me?
    Mr. Lindsay. It is before me right now.
    Mr. Shays. Had you ever seen the document before?
    Mr. Lindsay. Before these proceedings, no, sir. Before I 
testified on the 23rd, no, sir.
    Mr. Shays. Do you know who this document was given to?
    Mr. Lindsay. No, I do not, sir.
    Mr. Shays. Did you know that that document existed?
    Mr. Lindsay. Prior to my testifying before this group, no, 
sir.
    Mr. Shays. Kind of takes my breath away.
    In this document, Northrop Grumman was your contractor.
    Mr. Lindsay. Had a contract with the Office of 
Administration to provide common computer support and therefore 
provided support for our facilities contract.
    Mr. Shays. What were you?
    Mr. Lindsay. At that time, I was the general counsel. They 
work for the Office of Administration.
    Mr. Shays. So they prepared this document for you don't 
know who.
    Mr. Lindsay. No, I do not, sir.
    Mr. Shays. But you were supposed to assess the problem.
    Now this document was prepared on I believe it is June 
18th. And this document which you have lists various names, 
from Phillip Caplan to Bruce Lindsey to Betty Currie--these are 
e-mails we didn't capture--Erskine Bowles, John Podesta--who 
was then the deputy chief--Ira Magaziner--and Ira Magaziner was 
almost 4,000--well, 3,600 more precisely. Charles Ruff even had 
five in here.
    But this is just a snapshot of 1 day. Now, admittedly, it's 
a snapshot of 1 day. We don't know how far back it would 
capture. It's 246,000 potential e-mails. And then it doesn't 
capture all the e-mails that were lost from June until November 
until the system was fixed.
    So it kind of blows my mind that you who work in the office 
have never seen this document before and these are the people 
that work for you. So it was really kept under wraps by 
somebody. And that's why I begin to suspect--I'm sorry.
    Mr. Lindsay. I don't believe anything was kept under wraps. 
There are many, many documents--I mean, right now, as assistant 
for the President of Management and Administration there are 
over 2,400 people who report to me in one way or the other. All 
those people may have documents.
    Mr. Shays. This is relevant information. You're supposed to 
report the problem, and this is the problem, and you're not 
able to report the problem. How convenient.
    Mr. Lindsay. I can----
    Mr. Shays. Mr. Ruff can say he never saw it. Mr. Ruff, did 
you ever see this document?
    Mr. Ruff. No, I did not.
    Mr. Shays. OK. I'm assuming, Ms. Mills, you never saw it 
either.
    Ms. Mills. No, I do not.
    Mr. Lindsay. I cannot speak, sir, as to why they did not 
present that document to them.
    Mr. Shays. These are reasons why we need to find out. 
Because you're willing to make an assumption that there was no 
cover-up, and I'm willing to make an assumption there was. And 
so we both are making assumptions. And then we're going to try 
to find the truth. But my assumption is no different than your 
assumption. The problem is, this is relevant information that 
you didn't get, you should have gotten, and you, Mr. Ruff, 
should have known it because it says there are 246,000.
    Mr. Lindsay. It's not an assumption on my part, sir, that 
there's no cover-up. I know that I didn't cover anything up. 
I'm testifying about what I know.
    Mr. Shays. That's an assumption that you didn't. But you 
said more than that, you said nobody tried to cover-up.
    Mr. Lindsay. I don't believe anyone did.
    Mr. Shays. That's your belief. You don't know it. The only 
thing you can speak on is about what you say.
    Mr. Lindsay. That's correct.
    Mr. Shays. You can tell me you think, and I can be critical 
of your thinking that way, just as you can be critical of mine 
being suspicious of the fact that we didn't learn about this 
problem until the press told us, just like we didn't know about 
the videotapes until the press told us. Then you gave us the 
videotapes, and now we have this document.
    So, Ms. Mills, I'm sorry we're having this hearing, but 
we're learning things that are important. Somehow there was the 
big disconnect, and this big disconnect meant that relevant 
information may not have been presented to the proper 
authorities.
    And I voted against impeachment, as I told you earlier. 
Wouldn't it be interesting to know if there was things in here 
that would have affected my vote differently. But we didn't 
have the information. Because I still buy your argument 
impeachable offenses weren't proven and the proven offenses 
weren't impeachable, but they may not have been proven because 
information was withheld.
    I want to be clear now, given that you didn't have relevant 
information, what you were really able to tell Mr. Ruff. This 
is relevant information that you didn't tell him because you 
didn't know about it. So you didn't try to cover up. But what 
did you tell him then without this relevant information?
    Mr. Lindsay. As I testified earlier and as I testified on 
March 23rd, the information that I provided Mr. Ruff is roughly 
the information that was provided in the June 18th memorandum 
from Ms. Apuzzo. That is the sum and substance of what I 
understand we conveyed.
    Mr. Shays. Who do you think can help us find out who had 
this in the White House?
    Mr. Lindsay. I don't know, sir.
    Mr. Shays. Well, try to stretch your mind a bit. Who would 
most likely have it? Wouldn't it have been most likely that you 
should have it or who most likely should have had it?
    Mr. Lindsay. I don't know if I should have had it at all, 
sir. My understanding to this day right now is that that 
document is misleading in that it gives one the impression that 
it describes the entire population of e-mails that were or were 
not captured.
    Mr. Shays. No. No, you're wrong about that. See, it is the 
total amount potentially minus the e-mails found in individual 
PCs, minus the e-mails found attached to sent e-mails with 
history, minus the e-mails found in printed filings, minus the 
e-mails retrieved from back-up tapes. Then that leaves a 
certain number that we haven't found. We don't know what that 
number is. And then of that number there may be some not 
relevant. But, in there, there may be subpoenaed information 
not produced. And you and I have this one big challenge. I 
don't fault you or anyone else that the breakdown happened. I 
fault you for not telling the relevant information.
    Which gets me to you, Mr. Ruff. If you take responsibility 
what does that mean, you take responsibility?
    Mr. Ruff. It means that, ultimately, it was my judgment or 
misjudgment and my misunderstanding of the circumstances that 
led me to conclude--and for that I blame no one other than my 
own failure of understanding, that led me to conclude that 
indeed the problem did not have an adverse affect on our prior 
productions. In that sense, I take responsibility for not 
pursuing further the inquiry that I thought had been adequately 
pursued by the search that had been conducted.
    Mr. Shays. You were aware, though, that the problem wasn't 
yet fixed either, correct?
    Mr. Ruff. No. That's part of my understanding at the end of 
the search that had been conducted, was that indeed whatever 
glitch there was, whatever the technological problem was, did 
not affect our prior production and collection of information. 
And in that sense, candidly, I put it aside and went on to 
other pressing matters.
    Mr. Shays. And did you at any time learn that this 
problem--and they referred to it--what did they refer to this 
project as, Mail2 problem, Mr. Lindsay?
    Mr. Lindsay. Who referred to what?
    Mr. Shays. Didn't they call it project X?
    Mr. Lindsay. I never called it project X.
    Mr. Shays. Did you ever hear it referred to as project X?
    Mr. Lindsay. I heard about it here when I heard the 
testimony of some of the Northrop Grumman employees.
    Mr. Shays. Right. OK. So your testimony before the 
committee, Mr. Ruff, is that you take full responsibility and 
based on what you knew you didn't think there was any reason to 
tell the committee. What do you think now?
    Mr. Ruff. Obviously, that if I had understood at the time 
what the scope of the problem was, that indeed the test that 
had been conducted did not give sufficient assurance that the 
problem had not affected earlier searches, I would have done 
something about it.
    Mr. Shays. If you were on this committee and you had found 
this information, wouldn't you be pretty unhappy and concerned 
about what the White House had done?
    Mr. Ruff. Well, I have no doubt about the capacity of the 
committee to be concerned about what the White House has done, 
Congressman. I don't mean to be flip, but I do think, as I said 
to Congressman Hutchinson, that there are legitimate areas of 
inquiry, and one of those legitimate areas is to determine 
through appropriate means whether anything untoward occurred. I 
may disagree with you and others about what the scope of that 
inquiry ought to be and how it ought to be conducted, but I 
don't question the core issue of whether it ought to be of 
concern to you.
    Mr. Shays. But, see, what I want to know is, who had this 
document and why wasn't Mr. Lindsay and others told? And why 
weren't you told?
    Mr. Ruff. On that score I can't help you, Congressman.
    Mr. Shays. So it just makes me suspicious.
    I yield back.
    Mr. Barr [presiding]. Does the gentleman yield back?
    OK. Who seeks recognition? Mr. Waxman.
    Mr. Waxman. For a 10-minute round.
    Mr. Barr. Mr. Waxman is recognized for 10 minutes.
    Mr. Waxman. As we near the end of our 4th day of hearings, 
I want to summarize some of the most important facts that we've 
learned.
    We have learned that no one in the White House had any role 
in developing the message retrieval system; that no one in the 
White House asked that any e-mail messages be excluded from the 
system; and that before June 1998, no senior officials in the 
White House even knew that some e-mail messages were being 
excluded from the retrieval system.
    We have learned that the Northrop Grumman employees 
involved in this issue have conflicting recollections of 
whether any threats were made to them. One employee, Robert 
Hass, believed they had been threatened with jail by Laura 
Callahan, a White House employee. Mr. Haas told us that in a 
meeting with Mrs. Callahan and his four coworkers, he 
flippantly asked what would happen if he discussed the computer 
glitch with others, particularly his wife. He remembers Mrs. 
Callahan warning him that, ``there would be a jail cell with 
his name on it.''
    Sandra Golas initially testified that, while she remembered 
the word ``jail'' being used in the meeting, she couldn't 
remember who said it. But she later said she did feel 
threatened and thought jail was a real possibility.
    Yiman Salim and John Spriggs, both of whom were in that 
meeting and both of whom seemed credible, have no memory of 
jail ever being discussed. Miss Salim testified that she never 
felt threatened, and both said they believed Mrs. Callahan 
acted reasonably given the circumstances.
    Betty Lambuth did agree with Mr. Haas' recollection and 
added that at a second meeting she had with Mr. Lindsay and 
Paulette Cichon another threat by Mr. Lindsay was made.
    But we know now that Ms. Cichon had signed a statement 
saying that the threat never happened. In fact, Ms. Cichon's 
statement says, ``at no time during this meeting did I perceive 
Mark threatening Betty or myself. At no time was a threat of 
jail mentioned or any other threat. If any threat were made, I 
would certainly have remembered it and would have taken the 
appropriate action in response.''
    I want to point out that Miss Cichon was a political 
appointee and has spent almost all of her career in the private 
sector and no longer works at the White House.
    We also learned that none of the Northrop Grumman employees 
and no one in the White House had any knowledge of the content 
of the missing e-mails. They all testified that they didn't 
have any knowledge of it.
    One witness said she thought she knew what was in it 
because she heard from Mr. Hass, but Mr. Haas said he didn't 
inform her what was in it because he didn't know what was in 
it. So the evidence is that none of them really knew what was 
in these e-mails.
    Yesterday, we learned from Mr. Heissner and Mr. Lyle that 
they knew of no efforts to conceal this information from 
Congress or the independent counsel; and we learned that, 
despite yesterday's press reports, there was no inappropriate 
action regarding Sidney Blumenthal's e-mail account.
    Now let's put it all in context.
    At this point, we've heard from Mr. Heissner, who is a 
career civil servant and has served in the administrations of 
Presidents Ford, Carter, Reagan, Bush and Clinton--by the way, 
Mr. Ruff, have you ever met Mr. Heissner?
    Mr. Ruff. Not to my knowledge, Congressman.
    Mr. Waxman. Mr. Lyle, the director of the Office of 
Administration, became involved in this issue in April 1999, 
almost 10 months after the White House counsel's office focused 
on the issue.
    Betty Callahan and--excuse me, I have been calling her 
Betty Callahan, but I understand it's Laura Callahan. It's a 
mistake. It's not a criminal action. It's a mistake. Laura 
Callahan, who was accused of making the initial threat, is a 
registered Republican and a career civil servant. So she's the 
one that supposedly made the threat.
    Paulette Cichon, as I noted before, also was not a 
political appointee and has spent most of her working life in 
the private sector.
    And today we have Mr. Lindsay, Mr. Ruff and Ms. Mills, all 
of whom have impressive backgrounds in records of public 
service.
    So if there is a scandal and a deliberate attempt to 
conceal information, obstruct justice and thwart 
investigations, these are all the people that would be 
involved. They would be the participants in this cover-up. Not 
only have they all credibly denied being involved in any 
wrongdoing, none of them have any knowledge of others making an 
attempt to conceal the e-mails.
    Now, Mr. Ruff and Ms. Mills, when this problem arose did 
you have any knowledge of the content of the incoming missing 
e-mails?
    Ms. Mills. I did not.
    Mr. Ruff. No, Mr. Congressman.
    Mr. Waxman. So if the theory of wrongdoing is correct, you 
would have had to participate in a cover-up without even 
knowing what you were trying to cover up. And Mr. Ruff and Ms. 
Mills would have had to be doing this with the help of Mr. 
Heissner and others, who at least Mr. Ruff said he's never met.
    Ms. Mills, have you ever met Mr. Heissner?
    Ms. Mills. I have met Mr. Heissner.
    Mr. Waxman. You have met Mr. Heissner. OK. So I can't say 
this cover-up involved a man you never met. Mr. Ruff never met 
him. You met him. Did you participate in a cover-up with him?
    Ms. Mills. No.
    Mr. Waxman. And now to cover up the cover-up, all the 
witnesses who have testified in the 4 days of hearings would 
have been lying to us and all of them would have been lying to 
us under oath, if you want to believe all the suspicions that 
some of my colleagues say they have.
    I think a more plausible explanation is that Mr. Ruff and 
others in the White House counsel's office simply did a bad job 
in responding to the system defect that resulted in missing e-
mails. It's embarrassing to have to face that fact. But 
mistakes do happen.
    The one area that I agree with Mr. Barr is that responding 
to subpoenas is a serious obligation. Every effort should be 
made to produce documents. In this case, for whatever the 
reason, I don't think enough attention was given to 
understanding the problem and making sure subpoenas were fully 
complied with.
    I understand that the people in the counsel's office 
thought you had complied with the subpoenas. You acted in good 
faith, believing that the missing e-mails were in fact turned 
over; and it may still turn out to be true that that's the 
case. But because of that belief, I don't think that enough was 
done to quite find out whether everything was being fully 
complied with. I regret it. I'm sure that Mr. Ruff, Ms. Mills 
and others who worked in the counsel's office regret that as 
well. But if that is the explanation, and I think it's a 
logical explanation, this is an unfortunate mistake. It is not 
criminal conduct, and it doesn't amount to a scandal.
    And I must say, when we get all these e-mails, I will be 
astonished if we're going to learn something we didn't know 
about Monica Lewinsky. I would just be astonished that maybe 
any of us who voted against the impeachment would think that we 
should have voted for impeachment because of something on a 
missing e-mail, especially when you realize that the e-mails 
that are missing are missing because they were sent from the 
outside into the Office of the President and all the expanded 
offices that are involved in the office of the executive 
branch.
    I would hope that and expect that we're going to see what 
is in there. But like so many other examples we have in this 
committee, before we get documents, all these suggestions are 
made, allegations are asserted, accusations are laid on the 
table that there's a scandal. And then when we get the 
documents it turns out that the documents and information never 
substantiated the allegations, then we quickly go onto another 
allegation.
    Mr. Kanjorski, I understand you wanted me to yield to you. 
I do have less than a minute, but I will yield to you.
    Mr. Kanjorski. I just want to point out that it's 
unfortunate, highlights the culture of the committee and the 
circumstances of the last 7 years.
    I heard my colleague from Connecticut examining the three 
witnesses, and he readily recognized he makes an assumption 
that there's a cover-up. The problem is, that's a shift of the 
burden of proof. It means if there is no cover-up you have to 
prove a negative. That's extremely difficult, if not 
impossible, as we know, in the law. But that's the new burden 
that this committee would place on the executive branch of 
government.
    I think I would like to associate myself in entirety with 
Mr. Waxman's summarization. I think it's very clear. There was 
a mistake made. It is as much technical as perhaps failure to 
follow through appropriately. But perhaps that's because the 
people that should have followed through appropriately didn't 
understand the technical complications involved. Clearly, this 
is not a scandal. This is a mistake. It's not criminality. It's 
an overburdened White House with investigations that have gone 
on and on and on and continue to go on.
    Mr. Barr. The gentleman's time has expired.
    Mr. Waxman. This is the 4th day of the hearing and who 
knows how many more we'll have. I yield back the balance of my 
time.
    Mr. Barr. The gentlelady is recognized for 5 minutes.
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    Mr. Ruff, I would like to discuss some of the assurances 
that you and your successors have given to this committee about 
the completeness of document production. It's a serious matter. 
And we have heard it in opening statements by one of the 
witnesses how really trivial are the matters that this 
committee engage in. And I would think any officer of the 
court, any lawyer who found that vast numbers of items that 
were sought after under subpoena had been either mistakenly or 
purposefully withheld, most attorneys would be pretty upset.
    So, Mr. Ruff, would you please turn to exhibit No. 140. 
This is a letter--this is your letter to this committee on 
campaign fundraising.
    [Exhibit 140 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.623
    
    [GRAPHIC] [TIFF OMITTED] T9621.624
    
    [GRAPHIC] [TIFF OMITTED] T9621.625
    
    [GRAPHIC] [TIFF OMITTED] T9621.626
    
    [GRAPHIC] [TIFF OMITTED] T9621.627
    
    [GRAPHIC] [TIFF OMITTED] T9621.628
    
    Mr. Ruff. Forgive me. It's taking me a few minutes to get 
there.
    Mrs. Chenoweth-Hage. Oh, yes.
    Mr. Ruff. I have it.
    Mrs. Chenoweth-Hage. This is a letter to the committee 
where you stated, this letter serves to certify that to the 
best of my knowledge the White House has produced all documents 
responsive to the committee's subpoenas.
    And then, on the dog track matter, exhibit No. 141, which 
is four pages beyond the document just referred to, in your 
January 6, 1998, letter you wrote, to the best of our knowledge 
we have provided the committee with all responsive materials 
that we have located as a matter of our EOP-wide search for 
documents relating to the St. Croix Meadows Greyhound Racing 
Park.
    [Exhibit 141 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.629
    
    Mrs. Chenoweth-Hage. Then in exhibit No. 142 on the Charlie 
Trie matter, in a February 20, 1998 letter Lanny Breuer wrote, 
I understand that all e-mails currently searchable regarding 
Mr. Trie have been provided to the committee.
    [Exhibit 142 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.630
    
    Mrs. Chenoweth-Hage. Then in exhibit No. 143 involving 
clemency for the Puerto Rican terrorists, in a December 3, 
1999, letter, Dimitri Nionakis wrote, in addition, due to the 
number of requests for information from investigative bodies, 
the search of archived e-mail messages has taken longer than 
expected. I anticipate that we should complete that search by 
the end of next week.
    [Exhibit 143 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.631
    
    [GRAPHIC] [TIFF OMITTED] T9621.632
    
    Mrs. Chenoweth-Hage. Then on the Waco tragedy, in a January 
28, 2000, letter, Dimitri Nionakis wrote, and I quote from 
exhibit No. 60, the scope of our recent search for Waco-related 
materials encompassed all items or documents in any way 
relevant to the events occurring at the Branch Davidian 
compound in Mt. Carmel outside of Waco, Texas, in February 
through April 1993.
    Mrs. Chenoweth-Hage. Now, these are not trivial matters. I 
think anyone would agree with that.
    Mr. Ruff, given what we know, though, about the e-mail 
problems, these assurances are no longer reliable that I just 
read to you, not a single one of them. Granted some of the 
assurances were given before your office's knowledge of the e-
mail problem, but let's begin by focusing on those examples of 
assurances made before the summer of 1998. Do you believe that 
the White House counsel's office has an obligation to inform 
the committee if it learns information that renders a prior 
certification invalid or inaccurate?
    Mr. Ruff. I do, and it has.
    Mrs. Chenoweth-Hage. Mr. Ruff, do you believe that the 
White House counsel's office should wait for pressure from the 
press and or public hearings to correct inaccurate information 
provided by the committee----
    Mr. Ruff. The White House's----
    Mrs. Chenoweth-Hage [continuing]. Provided to the 
committee.
    Mr. Ruff. The White House counsel's has, to my knowledge 
and my experience, been forthcoming with the committee, whether 
the words be a happy one or unhappy one, about its compliance 
with committee requests.
    Mrs. Chenoweth-Hage. I find that difficult--I find it 
difficult to understand that, in this Nation, the most highly 
technical information retrieval systems that exists in the 
White House, that we can't get information before Thanksgiving 
of this year.
    Mr. Ruff. Congresswoman, to that issue, I am really not 
able to speak; and I'll leave it in Mr. Lindsay's hands. But, 
as I explained earlier, I think he said that there will be a 
rolling production made and before Thanksgiving.
    Mrs. Chenoweth-Hage. And it is now May. I don't think your 
assurances make us feel very sanguine about this issue, nor the 
American people.
    But let's turn to those assurances given----
    Mr. Barr. The gentlelady's time has expired.
    Mrs. Chenoweth-Hage. Thank you, Mr. Chairman.
    Mr. Barr. Who seeks recognition?
    The gentleman from Tennessee is recognized for 5 minutes.
    Mr. Ford. Let me walk back through really quickly just for 
the record.
    My colleague, Mr. Barr, has made, panelists, some very 
strong allegations that seem to be completely unfounded. In 
fact, he held up a folder of e-mails regarding Monica Lewinsky 
and said they had not been produced to the Office of 
Independent Counsel. He was referring to the results conducted 
by Mr. Haas, I believe, in mid-1998. Was that accusation 
accurate?
    I ask any of the panelists who might be able to respond. I 
think Mr. Lindsay might.
    Mr. Lindsay. It's not my understanding. If I understand the 
testimony here today, that that was not correct.
    Mr. Ford. In fact, we've actually heard from numerous 
people testifying that Miss Shelly Peterson in the White House 
counsel's office searched those e-mails and determined that 
every single responsive e-mail had already been produced for 
the independent counsel or to the independent counsel. Is that 
your understanding as well?
    Mr. Lindsay. I refer that to counsel.
    Ms. Mills. That is my understanding.
    Mr. Ford. Now Mr. Barr states it was puzzling that the 
White House counsel's office did not produce the documents to 
the independent counsel a second time, even though they had 
already produced or been turned over. Do any of you know--and 
I'm a lawyer, graduated from a rural school, Mr. Barr, up in 
Michigan called the University of Michigan, I'm not as bright 
as you, but I don't know any legal theory or set of legal 
ethics that suggests that it's necessary to turn over documents 
when you have already produced those exact same documents. Mr. 
Ruff, do you know of any legal theory or legal ethics that 
requires that?
    Mr. Ruff. I do not, Congressman. I think we made the 
judgment that because indeed these documents were duplicative 
of those which had already been turned over that we met our 
obligation under the subpoena.
    Mr. Ford. Miss Mills, I know you're a Stanford lawyer. Do 
you know of any legal theory or set of legal ethics that would 
require you to turn over two times documents?
    Ms. Mills. I am not aware of any.
    Mr. Ford. Mr. Lindsay.
    Mr. Lindsay. No, sir.
    Mr. Ford. My good friend from Connecticut, who I am sorry 
left--I understand left, made some comments about Ms. Mills' 
brilliant opening statement. And I can imagine if you were one 
of those that had worked tirelessly, even if it was not the 
intention to bring truth to some of the horrible things that 
we've done on this committee, that perhaps you would disagree 
or find disagreeable some of the things that she said.
    But I do take somewhat of an issue with those who may 
suggest that there have been those in the White House, Miss 
Mills included, who have not been as forthright and forthcoming 
as she should have been. Perhaps the better way of saying it, 
she's not--they're not saying the things you would like for 
them to say. The badgering of Mr. Lindsay by my colleague, Mr. 
Shays, was embarrassing. I can understand if we disagree with 
what he's saying, but you can't disagree because he's not 
saying what it is you want him to say.
    Also, Chairman Barr, it's come to my attention that one 
of--that someone on your side encouraged other Members on your 
side who might be friendly or might, I should say, be willing 
to accept what the White House officials are saying were 
encouraged not to come, not to attend this morning's hearings 
because it might give off the wrong impression. If someone on 
the other side can dispute that I, unlike you, will believe 
you, unlike we're giving these witnesses the credit this 
morning.
    I would close by saying my good friend, Mr. Barr--and he is 
a friend. We were at the Super Bowl together in Atlanta, and I 
had a chance to see his wife. He was rooting for the wrong 
team, the St. Louis Rams if I remember, but he's still a friend 
nonetheless.
    You know, there are those on your side of the aisle who 
have been accused of doing things that we have learned were not 
true. At one point when you were U.S. attorney in Georgia you 
were accused of going after--unfairly going after African 
American elected officeholders. You said indeed that was not 
the case at your office. There was no racism, no bigotry 
involved. And many accepted that. I've accepted that. And 
others, even politicians in Atlanta that I know and are close 
with, have accepted that.
    Mr. Burton has his own share of allegations levelled at 
him; and there are those that suggest that he's done nothing 
wrong, as he has. And I accept and respect that. I would only 
hope that at some point we can learn to accept and respect what 
the White House is saying.
    Again, we can disagree over policies and perspectives and 
issues and vision, but when do we stop? I mean, we went through 
an impeachment hearing where you lost a would-be Speaker, Mr. 
Livingston. And no disrespect to Mr. Hastert but Congressman 
Livingston--Chairman Livingston would probably have made a 
great Speaker. He respects this process.
    And, again, I would love to see Mr. Gephardt be Speaker, 
but we have to have a non-Democrat. Mr. Livingston would have 
made a great Speaker. We lost him. You lost your other Speaker, 
Speaker Gingrich, because he didn't aggressively go after the 
President. When do we stop?
    I mean, when is that in--we take a look--and I would love--
Mr. Shays was asking Mr. Ruff--Mr. Ruff, if you were a member 
of this committee, do you think it would be appropriate to take 
some of the recommendations offered by Ms. Mills to investigate 
why black men in New York are afraid to take their wallets out 
of their back pockets?
    Mr. Barr. The gentleman's time has expired.
    Mr. Ford. No, no. Would you urge us, Mr. Shays----
    Mr. Barr. The gentleman's time has expired. Would he like 
an additional minute by----
    Mr. Ford. Mr. Ruff, if you were a member of this committee, 
would you investigate that?
    Mr. Ruff. That I think is the people's business, 
Congressman.
    Mr. Ford. If you were a member of this committee, would you 
look into the LAPD and some--I mean, if we're going to----
    Mr. Barr. The gentleman's time has expired. The gentleman's 
time has expired.
    Mr. Ford. If you're going to ask, Mr. Barr, these----
    Mr. Barr. The gentleman's time has expired.
    Mr. Ford [continuing]. Would you be investigating the White 
House, Mr. Ruff, with the aggression of those of us on this 
committee?
    Mr. Ruff. I have a modestly biased view of that, 
Congressman, you'll understand.
    Mr. Ford. You can answer yes or no. I'll accept it.
    Mr. Ruff. The answer is I think that----
    Mr. Barr. The gentleman's time has expired. The gentleman 
knows the rules of decorum. He's choosing deliberately to 
ignore them. Would the gentleman like additional time by 
unanimous consent? Would you stop just long enough to allow me 
to ask you that question?
    Mr. Ford. I would.
    Mr. Barr. OK. Without objection, the gentleman is 
recognized for 1 more minute.
    Mr. Ford. If you were a member of this committee, Ms. 
Mills, would you commence an investigation into why African 
American men are afraid to take their wallets out in New York?
    Ms. Mills. I would.
    Mr. Ford. Mr. Lindsay, if you were a member of this 
committee, would you commence an investigation as to why young 
African American men are afraid to take their wallets out in 
New York?
    Mr. Lindsay. Absolutely, sir.
    Mr. Ford. If you were a member of this committee, would you 
want other Members of this body to investigate why we have not 
passed a prescription drug benefit for seniors at a time when 
the economy is performing like it is and prescription drug 
prices are spiraling out of control like they are? If you were 
a Member of this Congress, would you not be interested in those 
issues, Mr. Lindsay?
    Mr. Lindsay. Yes, sir.
    Mr. Ford. Ms. Mills.
    Ms. Mills. Yes.
    Mr. Ford. Mr. Ruff.
    Mr. Ruff. Yes, sir.
    Mr. Ford. I would imagine they're not alone, Mr. Barr, Mr. 
Chairman. At some point, it has to come to an end.
    It's unfortunate that it had to be framed in a joke the 
other night by the President at dinner with members of the 
press, but he said we only have 7 more months to investigate 
him. I would hope that we would not take him up on his word. 
You all have been great in not taking him up on his word. I 
would hope that this one time that you would remain consistent 
on that front and let us get back to the business of the 
people. Listen to what we're debating. We're debating e-mails.
    Mr. Barr. The gentleman's time has expired. I recognize 
myself for 5 minutes.
    Mr. Ruff, in December 1998, as a matter of fact by letter 
dated December 8, 1998, Judicial Watch which, as you know, is 
representing parties in the Alexander versus the FBI case 
before Judge Lamberth, they sent a letter to Mr. James Gilligan 
of the U.S. Department of Justice Civil Division Federal 
Programs Branch in which they raise the issue in December 1998 
of the missing e-mails. And this was in the context of the 
Alexander case that they ask the Department of Justice and they 
included the December 28th issue of Insight magazine article on 
this that I know you're familiar with. Have you ever seen that 
letter? Did that letter come up in any of your conversations or 
the interface that you conducted on these matters with the 
Department?
    Mr. Ruff. Perhaps I could see a copy of it now, and I would 
be happy to tell you.
    Mr. Barr. You have no independent recollection.
    Mr. Ruff. I do not, no.
    I have no recollection of ever having seen this letter or 
of the attachments that purport to have been with it.
    Mr. Barr. Did you have any discussions either at that time 
or contemporaneously in that time period with anybody at the 
Department of Justice about the request from judicial watch?
    Mr. Ruff. There were--I couldn't tell you whether they were 
contemporaneous or not. I would, on occasion, over the course 
of my tenure in the White House, meet with one or more of my 
staff and one or more of the Justice Department lawyers who 
were helping us respond to various matters in connection with 
this litigation. I have no recollection of any discussion that 
would be contemporaneous or related to this letter.
    Mr. Barr. Mr. Lindsay, last month you testified, and I 
don't remember your exact words, and knowing how very 
particular you are, appropriately so, I'm not going to put any 
words in your mouth, but the testimony last month, or in March 
when you testified here, you, I believe, testified that the 
issue of getting this whole matter of the missing e-mails 
resolved as being very important; is that accurate?
    Mr. Lindsay. I believe at that point I was referring to 
the--resolving the technical problem because that's all I 
really knew about at that time.
    Mr. Barr. But you knew there was a serious problem, or are 
you now maintaining that----
    Mr. Lindsay. No, I am saying there was a problem and----
    Mr. Barr. OK. I'm not interested in--not trying to put 
words in your mouth. If you would please, in that context then, 
refer to exhibit 94. This is an e-mail of February 24, 1999. 
Mr. Heissner, Karl Heissner writes that on the current status 
of the Mail2 reconstruction, which is the serious problem that 
we're talking about here, is that he is, quote, awaiting 
funding and management decision to proceed.
    Mr. Heissner testified, as I know you're probably aware, 
yesterday to this committee that no one in the Office of 
Administration management, including yourself, ever gave him 
any funding or direction to proceed with the reconstruction of 
the unreported e-mails until early this year, the year 2000, 
long after the problem had already been reported, was well-
known and actually had been reported even in the media.
    Why was Mr. Heissner prevented from moving forward and 
never given the authorization to move forward with the 
reconstruction, in other words, to resolve this problem?
    Mr. Lindsay. Sir, the--as I stated in my testimony on March 
23rd, November, when we discovered, when we were able to 
resolve the Mail2 problem in terms of solving the glitch, the 
first priority that I had was addressing the Y2K problem. This 
is the time period where we received the money that we needed 
to address the Y2K problem after a long period where we hadn't 
received enough resources to address the technical concerns of 
the Executive Office of the President and the Presidency of the 
United States.
    Mr. Barr. Were you not aware of any subpoenas, lawful 
subpoenas, failure to comply with which could subject 
individuals to contempt of court, if not obstruction of justice 
charges that were outstanding?
    Mr. Lindsay. As we discussed before, sir, there are two 
different issues. The issue of compliance with the subpoenas 
and whether or not the information that was provided was 
complying with those subpoenas was a determination that was 
made by the counsel's office. The other problem----
    Mr. Barr. They've never made that determination. The only 
determination that we have is Ms. Mills' testimony today that 
somebody else not before this committee with regard to just 
that one stack of e-mails had made a determination, not 
reviewed apparently by anybody, prior to the decision being 
made and finalized, that these materials would not be sent over 
to whoever had requested them by subpoena. But there's never 
been any determination made because the reconstruction has 
never been made with regard to anything other than just that 
one stack of e-mails.
    Mr. Lindsay. As it was already testified earlier today, 
sir, the information as to the impact of this particular glitch 
on searches it was believed, believed by me and believed by 
people in the counsel's office, that it did not have an impact 
on those searches. Therefore, I was left with problem No. 2.
    Mr. Barr. How can you, with a straight face, say that? 
We're talking about hundreds of thousands of e-mails that have 
not been reviewed.
    Mr. Lindsay. Yes, sir.
    Mr. Barr. You're making a statement that you feel 
comfortable that there's nothing in there that's subject to any 
subpoenas, because if you can't make that statement, you can't 
state that all of the subpoenas have been complied with.
    Mr. Lindsay. No. 1, sir, I did not know how many e-mails 
there were at that time. I'm testifying about the state of my 
mind at that particular time. All I knew about what was the 
fact----
    Mr. Barr. Of course, you are. You wouldn't have any way of 
knowing.
    Mr. Lindsay [continuing]. That would seem to show that 
there was no problem with the production of any kind of 
subpoenas. Therefore, sir, I was left with one very important 
other issue, and that was the technical issue of how to resolve 
it. Resolving that technical issue, we needed not only money 
but also----
    Mr. Barr. So when you're talking about resolving it, you're 
not talking about resolving it, you're just talking about 
solving the technical problem from that point forward?
    Mr. Lindsay. No.
    Mr. Barr. That in your mind, your state of mind, as you 
call it, is resolving the issue, is that what you're talking 
about?
    Mr. Lindsay. That's not an accurate characterization of my 
testimony. What I said is when I first came into contact with 
the issue, I was interested in resolving the issue. That meant 
resolving the issue if you, the counsel's office, came back to 
me and said that there was a problem with the e-mails, then I 
would go back and then take whatever----
    Mr. Barr. Who assured you that there was no problem?
    Mr. Lindsay. It's not that I was assured that there was no 
problem. The information that came to me was that the 
information that I provided after the task was duplicative 
information. Therefore, the information----
    Mr. Barr. Information duplicative of what?
    Mr. Lindsay [continuing]. Searches.
    Mr. Barr. Information duplicative of what?
    Mr. Lindsay. That the information had already been provided 
in other information.
    Mr. Barr. How would anybody know that, Mr. Lindsay?
    Mr. Lindsay. I did not--I don't know how they did it. I 
don't know the process in terms of what was going on.
    Mr. Barr. You're obviously a very bright man.
    Mr. Lindsay. Thank you, sir.
    Mr. Barr. And you made sure we understood that last time. 
You told us your degrees and so forth, and I agree with that. 
How can you make the statement that hundreds of thousands--
let's not even use the word hundreds of thousand--a large 
number of e-mails, that nobody has seen----
    Mr. Lindsay. Sir, I worked in an environment where a lot of 
people who----
    Mr. Barr [continuing]. That would be subject to being 
provided pursuant to a subpoena when nobody's looked at them?
    Mr. Lindsay. The determination as to whether or not that 
information met or was required by subpoena or was responsive 
or not was a determination made by the counsel's office.
    Mr. Barr. Who? Who?
    Mr. Lindsay. I don't know who in the counsel's office. I 
was sitting here learning about some of those components.
    Mr. Barr. Who told you that there was nothing in those 
missing e-mails subject to any subpoenas?
    Mr. Lindsay. I don't recall.
    Mr. Barr. Oh, come on. You're stating under oath that 
somebody made that statement to you and you cannot recall, as 
you sit here today, who in the White House counsel's office 
told that to you?
    Mr. Lindsay. I'm not stating under oath that someone said 
that to me. What I'm stating is that the information that I 
provided----
    Mr. Barr. Did they take any notes to that effect?
    Mr. Lindsay [continuing]. Was a duplicate of information 
that was provided, and therefore it did not present an issue--
--
    Mr. Cummings. Mr. Chairman, is there a time limitation?
    Mr. Ford. Can I ask a unanimous consent request that we 
extend the chairman's----
    Mr. Barr. That's OK. We'll come back. Who seeks 
recognition?
    Mr. Cummings. Ms. Norton.
    Mr. Barr. Gentlelady from the District of Columbia is 
recognized for 5 minutes.
    Ms. Norton. I thank the chairman and I thank the gentleman 
from Maryland.
    Mr. Chairman, I regret the troubling presumption of 
wrongdoing that surrounds these hearings. Anyone who has been 
at the bar knows that in a criminal or civil trial, a person's 
reputation for integrity outweighs very heavily on the outcome. 
Therefore, I'd like to say a few words about the integrity of 
these witnesses.
    The allegations and the evidence that has been adduced so 
far fails altogether to override the reputations they have at 
the bar and in the community. I see no evidence that they would 
sacrifice reputations they have built over a period of years to 
avoid their legal or ethical responsibility.
    I know Charles Ruff personally, and I know him by 
reputation at the bar and in the city where he has lived for 
many years. Although one of the most successful lawyers in the 
country at a time when, in the early nineties, when there was a 
great deal of crime in the District, Charles Ruff offered his 
services to the city, not as a lawyer, but to do whatever he 
could for children. The officials of the District of Columbia 
could only scratch their heads as to how they could use such a 
distinguished lawyer for children. Whenever he speaks in this 
city these days, he does not speak about the bar or about 
lawyers, he speaks about children.
    Finally, the city convinced him that he should become the 
corporation counsel of this city where he led the city during a 
particularly troubling period and distinguished himself and 
made a world of difference for having left private practice to 
do so. He was the president of the bar in this city. On any 
list of the leading lawyers in the United States of America, 
Charles Ruff would be near the top of that list.
    Cheryl Mills is one of the bright lights of her generation. 
I mean to see to it that her remarks at this hearing go into 
the congressional record. She owes her meteoric rise not only 
to her extraordinary proven ability, but to her wonderful 
integrity, proved at so young an age that the President of the 
United States was willing to put his entire, his entire fate in 
her hands until she decided to do what few lawyers of any 
generation would do and, that is, to decline to be the counsel, 
the White House counsel to the President.
    I do not know Mr. Mark Lindsay personally, but I do know 
him by reputation because he served ably one of the pillars of 
the House, Mr. Lewis Stokes, who would have had no one on his 
staff except a person of the most stellar reputation.
    It does seem to me that these witnesses are at least 
entitled to have put in the record what others think of them, 
and when I insist that what I think of them goes into the 
record, I want it to be known that I am speaking for thousands 
of others.
    I thank you, Mr. Chairman, and I yield back the remainder 
of my time.
    Mr. Burton [presiding]. The gentlelady yields back the 
balance of her time.
    Mr. Cummings, did you have some comments you wanted to 
make?
    Mr. Cummings. I just want to echo my colleagues' kind words 
again to our witnesses. You know, as I've sat here, Mr. 
Chairman, hearing after hearing, I have been a witness to 
people's characters being torn apart, and you know, when I 
think about government service, our government employees are so 
often, Mr. Chairman, underpaid. So many of them work very, very 
long hours, and they give their blood, their sweat and their 
tears, and they come into a room like this and are often raked 
across the coals. And Ms. Mills is right, you know, the 
question becomes who would go in government service, I mean, 
when they see this.
    And that's why I join in with Mr. Ford and Mr. Waxman, and 
certainly my colleague, Ms. Norton, and take a moment to simply 
say thank you. Thank you for all that you have given. Thank you 
for not only touching us as adults, but someone once said our 
children are the living messages we send to a future we will 
never see, and Mr. Ruff, you will be interested to know, I was 
walking down the hall just a few moments ago and a young man, I 
think he's a lawyer, I overheard him say, you know, Mr. Ruff is 
a guru of the Washington bar. I mean, that's a hell of a 
statement, it really is. I mean this was unsolicited, he was 
just talking to a friend and talking about how much he admired 
you, and you know, I think sometimes we forget that we are all 
human beings.
    I think Ms. Mills said it best, said all of us make our 
mistakes, we do some things good, we do some things not so 
good, but we are all human beings, and in this life and in this 
government life, and the kind of government that we deal with 
today, I think we all face some very tremendous challenges, and 
Mr. Waxman often says that a lot of times the allegations that 
are made about people when they come before this committee, 
they're put out there, they're put out there into the universe, 
and you know, the sad part about it is all the people that hear 
the allegations, they don't necessarily hear what we hear. They 
don't necessarily hear a lot of the allegations literally torn 
to shreds. And I have seen situations where allegations were 
made, and by the time a hearing was over, it's hard to believe 
the allegations were ever made because of the testimony that 
has come forward.
    And for those reasons, I take my moment to simply say thank 
you. Thank you for all that you've done. Thank you for all that 
you're doing, and thank you for standing up.
    Ms. Norton was talking about integrity, and one person has 
defined integrity as having three parts, Mr. Chairman. First of 
all, it's standing up for what is right, discerning between 
what is right and wrong. Second, it is acting on what is right, 
even to your own peril. And third, it is telling others what 
you did so that they can follow your example. And to our 
witnesses today, I thank you for having integrity. No matter 
what others may say, no matter what the referrals may be, thank 
you for standing up for what you believe in, and thank you for 
being examples to us and our children. Thank you.
    Mr. Burton. The gentleman yields back the balance of his 
time. We will now go to the counsel for his questioning in 
accordance with the rule. I will just take about a minute here 
at the beginning of his time to say that I understand the 
accolades that have been given to the witnesses today, but the 
fact remains, for over 2 years the White House has known about 
these e-mails. The White House counsel's office has known about 
these e-mails. They were under subpoena from a number of 
sources to whom all of this information should have been given 
in a timely fashion, or at least they should have been made 
aware of the glitch that was taking place over there, but for 2 
years, we've been held at arm's length and we haven't gotten 
those documents. So all the accolades and all the nice things 
that are being said about the people at the table doesn't 
change the fact.
    The fact is that duly subpoenaed documents were kept from 
the Congress when the White House had knowledge about them for 
over 2 years, and I use the missing tapes in the Nixon case 
that were a part of the reason that he was removed from office, 
and here we have hundreds of thousands of e-mails that may be 
relevant to a whole series of investigations. We haven't 
received them. We haven't even been notified about them, even 
though the White House knew about them, the White House 
counsel's office knew about them, and yet we continue to hear 
these accolades, but these are the facts.
    These are the things that need to be made clear to the 
American people, that if there's an investigation going on by 
an independent counsel by a committee of Congress and a duly 
authorized subpoena has been sent, we are entitled to that 
information, and if the White House knows about it and they 
don't give it to us intentionally, or they keep the information 
from us intentionally about a problem over there, then they're 
obstructing our investigations and that's what this is all 
about.
    Mr. Wilson.
    Mr. Wilson. Good afternoon. I'll be as brief as possible, 
and hopefully we'll soon be out of here, with this panel, 
anyways. I want to try and cover two areas, and I'll tell you 
what they are in advance so that we can hopefully be as brief 
as possible. The first relates to the search that was conducted 
that resulted in the materials that were produced to us the day 
before yesterday, and I'll tell you why I want to cover this 
with a little more specificity.
    Mr. Ruff came in for an interview. He's testifying today. 
He's been very clear that he understood that there was a 
potential problem that might relate to document production. He 
told us in his interview to, and I'll quote, make sure, in 
fact, this system which the problem had not--it is a little bit 
of garbled syntax, but which was probably not tainted--the 
ability to find materials that were responsive to the special 
prosecutor's inquiry, and following from that, a search was 
conducted, and Mr. Ruff said today, indeed, that was the 
purpose of conducting the search.
    So an awful lot was riding on this search. The search, in 
many respects, determines whether somebody should or should not 
have understood that there was a problem. So I want to ask a 
few more questions about that.
    The second thing I would like to cover is a second meeting 
at the White House. When the Mail2 problem was discovered in 
June 1998, Mr. Lindsay has taken pains to point out that he 
testified last month that he did go and meet with Mr. Ruff. 
This is something we do know, and we've discussed the memo that 
was drafted that Mr. Ruff saw and that ultimately that was 
directed to the deputy counsel for the President.
    One thing we learned just in the last week, however, that 
we did not know from your testimony previously and we learned 
this from Mr. Lyle, Michael Lyle, the director of the Office of 
Administration, was that in April 1999, another aspect of this 
e-mail problem was discovered, and Mr. Lyle indicated to us 
that Mr. Lindsay went back to the White House counsel's office 
and told them a second time about an e-mail problem. And I'd 
like to cover--we haven't discussed that at all today. I'd like 
to cover that with you, Mr. Lindsay.
    Let's go back to the search. The question's been asked, 
what were the terms of the search, and just so that we can 
start from a level playing field, I'll ask again, Mr. Ruff, do 
you know what the terms of the search were?
    Mr. Ruff. I do not, Mr. Wilson.
    Mr. Wilson. Ms. Mills, do you know what the terms of the 
search were?
    Ms. Mills. I do not, and in your statement there was a memo 
sent to the deputy counsel to the President, and I'm not aware 
of that memo.
    Mr. Wilson. If I did I misspoke. I meant to say the deputy 
chief of staff at that time, Mr. Podesto. So I apologize. I 
know it would not have been you.
    Ms. Mills. Thank you.
    Mr. Wilson. Fair enough. Now, Mr. Lindsay, I'll ask you the 
same question--well, I will ask you the same question first. Do 
you know what the terms of the search were?
    Mr. Lindsay. You mean the names that were being searched?
    Mr. Wilson. Well, we don't know at all what the terms of 
the search were. So I'm asking you what the terms of the search 
were.
    Mr. Lindsay. I believe that they were the names of certain 
individuals. I don't know anything about the terms.
    Mr. Wilson. Now, where have you gained that belief from? 
How do you know that?
    Mr. Lindsay. The person who conveyed the request for the 
search to me, then I conveyed that information to, I can't 
remember, I think it was Laura Callahan, and then the search 
was conducted.
    Mr. Wilson. Was the search--was what was conducted to you 
in writing?
    Mr. Lindsay. No.
    Mr. Wilson. So is it fair to say you had a verbal 
instruction as to what you should look for in the e-mails that 
you could search from the servers?
    Mr. Lindsay. Yes.
    Mr. Wilson. OK. Mr. Ruff, just turning to you, this search 
was clearly quite important, because it now stands for the 
proposition that there wasn't a problem, and I'm just--one of 
the problems we're struggling with is why does nobody remember 
what the search was supposed to be for, do you know?
    Mr. Ruff. That's a question that I can't answer for you, 
Mr. Wilson. I do not, as I have said, know who conveyed the 
parameters of the search or any other instructions. There may 
be such a person waiting to be identified, but I can't help you 
in that regard.
    Mr. Wilson. Now if I can, for a second, I'll turn to you, 
Ms. Mills, because it's our understanding that Mr. Ruff did 
rely on his staff, and I can understand him not knowing all of 
the details of matters that he delegates to his staff, and this 
is one reason we've asked you to come here today to try and 
help us and explain to us what precisely you were looking for 
to help you decide that there wasn't a problem. If you could, 
please tell us.
    Ms. Mills. Well, your characterization suggests that I was 
looking for something, and I think my testimony has been, and I 
hope has been clear with respect to the fact, it was my 
understanding that OA was undertaking the search, that they 
were going to provide the e-mails that were missing, that we 
were going to review them to make a determination as to whether 
or not they were duplicative or they were e-mails that had not 
been captured and needed to be produced.
    So what I was anticipating was that there would be 
documents that would come, that there would be review conducted 
of them and that review would tell us whether or not those 
materials had or had not been provided to the appropriate 
requesters.
    Mr. Wilson. You're clear on that. The part I don't 
understand, I think the committee has a problem with, is how 
did the Office of Administration come to conduct a search? 
We've been told by Office of Administration employees that they 
never conducted searches of their own volition. They just 
didn't go into people's computers and look for information. We 
were told that they, in all other cases, received written 
instructions and did searches accordingly. Everybody we have 
talked to has told us that they did not originate a search 
term.
    So how did the Office of Administration come to be 
conducting a search?
    Ms. Mills. As I can only testify from my personal 
knowledge, I don't know the answer to that question.
    Mr. Wilson. Do you know who we might turn to to ask that 
question of?
    Ms. Mills. I do not.
    Mr. Wilson. Do you know whether Ms. Peterson, at any point, 
formulated a search term for the Office of Administration?
    Ms. Mills. I do not know whether or not she did, though I 
would be surprised, primarily because I provided the materials 
that came over from the Office of Administration to her for her 
to conduct her review, but I don't know the answer to that 
question.
    Mr. Wilson. The part that I'd like you to help us out with, 
if you can, is that the search was very important, because it 
ultimately was going to determine whether there was a larger 
problem or not, and two of the principal lawyers in the Office 
of White House Counsel, indeed counsel to the President, Mr. 
Ruff and yourself, although you were only deputy counsel, are 
telling us they did not formulate the search, and so one of 
our--I think it is a legitimate point of concern--is to try and 
determine who formulated the search to see whether there was a 
problem or not, and there's not more I can do, I guess. No one 
on this panel does know. But did you ever ask, Ms. Mills, what 
precisely the search term was?
    Ms. Mills. I did not.
    Mr. Wilson. Why did you not ask?
    Ms. Mills. I think there are certain assumptions that 
you're making, and in my testimony I've been trying to be very 
clear that it was my understanding that the search was being 
conducted, that it was going to produce materials that needed 
to be reviewed against prior production to make a determination 
as to whether or not it had been captured before.
    Mr. Wilson. I understand, but we're very circular here. 
You're telling us that the search was going to be conducted.
    Ms. Mills. It was my understanding that the search was 
being conducted, that I was going to be provided with the 
materials we then needed to make a determination with respect 
to whether or not they were or were not produced previously.
    Mr. Wilson. Did you ever express any concern as to what the 
search would be for?
    Ms. Mills. I didn't have the requisite knowledge to express 
that type of concern, if I were to have that type of concern, 
but I certainly believed that to the extent there was an issue 
that it was going to be, the documents were going to be 
searched for, and to the extent that they had not been 
provided, that we were going to provide them.
    Mr. Wilson. I think here is where we part ways a little 
bit. I understand much of what you have said, but you've told 
us you didn't have the requisite knowledge. What we do know is 
that there were many document requests that had been made to 
the White House on many different issues. You were, at the 
time, focusing on an impeachment inquiry. That's something this 
committee has had no interest in, no part of.
    But we did have document requests that went to campaign 
finance matters. There were many requests from other 
independent counsels, the Justice Department had requests, and 
what we know, and this is why I'm really legitimately trying to 
work through this problem with you, what we know is that there 
was a universe of documents that had never been looked at, and 
this is the memo, and somewhat of the substance of Mr. 
Lindsay's discussion with Mr. Ruff, communicated and Mr. Ruff 
understood that, and he's told us he understood that. He 
understood that there was a universe of documents that had not 
been looked at and that that might have ramifications for 
production of documents.
    So there's a large universe of--well, there's a universe of 
information, and there are many document requests out, and so 
the problem we have is we have a folder of information that 
goes to one matter, e-mails from Monica Lewinsky to someone 
else, but there's nothing here that goes to campaign finance or 
any of the other issues that were being searched. So we're 
struggling with what does the search stand for. Can you tell us 
what the search as conducted should prove to us?
    Ms. Mills. I cannot. It was my understanding that the e-
mails were being collected and that they were the e-mails that 
might have been missed, and that if we received those e-mails, 
we should go through them to make a determination as to whether 
or not they had been produced or not. That is what we did.
    Mr. Wilson. OK. Now Mr. Ruff generously said that the buck 
stopped with him, but he did inform us during our interview 
with him that he delegated responsibility to look into this 
problem to his subordinates, and he gave us a number of names 
of people who might have been looking at the matter. Yours was 
one of them. Who do we ask or who do we turn to to find out who 
was really thinking about this problem? It really appears to us 
that there's either extraordinary indifference to the problem 
or nobody was really thinking about the problem. Nobody was 
taking charge of trying to decide whether there was an issue 
here.
    Was anybody in charge of trying to decide whether there was 
a problem?
    Mr. Ruff.
    Mr. Ruff. Obviously, I am hesitant for all the reasons that 
have been both expressed and implicit in today's hearing to 
offer any more individuals the opportunity to spend their day 
in this chamber. All I can do, and truly is all I can do, Mr. 
Wilson, is to tell you, as I told you previously, the names of 
my staff members who regularly participated in the business of 
document collection and response to subpoenas. Beyond that, if 
I had any insight into who specifically spoke with OA or 
otherwise framed the search, I would give that information to 
you.
    Let me say, although I understand your question, that this 
does not, and did not then, and does not now, reflect, in any 
sense, any absence of care about the problem. To the contrary, 
I think the immediate reaction, particularly triggered by the 
fact that there was this outstanding independent counsel 
subpoena on the one issue that was of particular interest to us 
at the moment, suggests the concern we did have and perhaps 
also suggests the response we got, because it did relieve us of 
that concern, led in turn to the conclusion, as I have already 
acknowledged, not based on what we now know to be the facts, 
but the problem really was not there.
    Mr. Wilson. From our perspective though, it does appear 
that there's some absence of care because even as we sit here 
today, no one is able to really tell us anything specific about 
what was done to determine there was an ongoing problem or not. 
We know there was a search. We know some materials were 
searched.
    Mr. Ruff. That, I suggest, Mr. Wilson, is not an absence of 
care; it is an absence of memory, but if I had the memory, I 
would tell you what I knew beyond what I've testified.
    Mr. Wilson. There are no notes that have been produced to 
us. There's no memorandum. We know when the problem was 
discovered, it was of such significance that Mr. Lindsay 
participated in a process that resulted in a memorandum to the 
deputy chief of staff to the President, and within days of the 
discovery of the problem, you, the counsel of the President, 
were briefed about a computer problem. This is something that 
from our perspective, and obviously it is from our perspective, 
but this is something that indicates that this is a problem 
that is out of the ordinary, and you yourself indicated that 
there might be ramifications for production of documents.
    And one of the things that's been very clear to us, it's 
been pointed out, that this was a time of great concern. The 
impeachment process was--had begun. There was a great sense of 
angst about that, but that heightens from a lawyer's 
perspective, certainly from mine, if I knew at a time of great 
difficulty, such as you were in at that point, that there was 
an entire universe of information that had never been looked 
at, that is something that would stand out in my mind. That's 
something I'd want to know. I'd want to know the search terms, 
how people went after identifying whether there was or was not 
a problem. That's the type of thing I'd want to identify, and 
we'll ask other people. But it just appears that nobody can 
come up with any recollection as to what they sent the 
subordinates out, your subordinates out, Ms. Mills, if she sent 
any of her subordinates out, it doesn't appear that anybody can 
say this is what we told a particular person to do, to find out 
whether there was a problem, and that does indicate some lack 
of care, and that's a charitable characterization.
    Mr. Ruff. I disagree with your characterization, but I fear 
there's not much more I can offer you.
    Mr. Wilson. Fair enough. I understand that. Let me turn for 
just a moment, Mr. Lindsay, to April 1999. It's our 
understanding from talking to Mr. Lyle that in April 1999, 
computer technicians identified the second glitch in the 
computer system that indicated documents were not being 
captured by the ARMS system, the user D problem. Were you told 
in April 1999 about the user D problem?
    Mr. Lindsay. Yes, I was.
    Mr. Wilson. And if you could be brief, I'd appreciate that. 
After you were told about the user D problem, what steps did 
you take to bring that to the attention of any of your 
superiors or anybody in the White House? A two-part question.
    Mr. Lindsay. One thing, my role was different. I was no 
longer the general counsel at that particular time.
    Mr. Wilson. That's fine, but what steps did you take if 
any?
    Mr. Lindsay. The primary steps, the drill was essentially 
the same in terms of what we did in terms of addressing any 
kind of technical problem of this nature, the effort to make 
repairs and correct the issue as quickly as possible, and I'm 
happy to report that frankly we were able to complete the 
repairs for that particular issue in a much shorter timeframe 
than we were with the other one. I think that's because, with 
my best recollection, that's because people had experience with 
the other problem, they were able to address it and get it 
resolved quicker. There's greater understanding of the nature 
of those kinds of issues.
    Mr. Wilson. Did you ever go to anybody in the White House 
counsel's office and tell them about the user D problem?
    Mr. Lindsay. Yes, I did.
    Mr. Wilson. Now my recollection is that you did not bring 
that up in your previous testimony; is that correct?
    Mr. Lindsay. I believe I did.
    Mr. Wilson. That you went to the White House in April or 
thereafter of 1999 and briefed someone in the counsel's office?
    Mr. Lindsay. I don't think I said that. I brought up the 
letter D problem issue in my testimony.
    Mr. Wilson. You certainly did, and there's no dispute on 
that, but did you tell us before that you went to the counsel's 
office and told them about the user D problem?
    Mr. Lindsay. I don't remember being asked that specific 
question.
    Mr. Wilson. I don't think you were asked. That's one reason 
we brought you back, and we only learned this recently but it's 
not something you volunteered. Now you went back to the 
counsel's office in April 1999, according to Mr. Lyle. First of 
all, is that correct, was it April 1999?
    Mr. Lindsay. Yes, sir.
    Mr. Wilson. OK. Now that's not quite a year after the Mail2 
problem was first discovered, but it's almost a year after. Who 
did you speak to in the counsel's office?
    Mr. Lindsay. I don't have a specific recollection of who I 
talked to.
    Mr. Wilson. Why did you go to the counsel's office.
    Mr. Lindsay. Because there was the potential of having a 
similar kind of situation with the other e-mail situation and 
that would be my normal course of how I would handle it.
    Mr. Wilson. Was it the potential or was it the same type of 
situation as previously? I don't understand the use of the word 
``potential.''
    Mr. Lindsay. It was actually a different problem. It was 
quite a different problem. It was caused by a different group 
of people.
    Mr. Barr. We understand how it was caused and all that, but 
it had the same net result. It resulted in information not 
being captured in the ARMS system; is that correct?
    Mr. Lindsay. That was my understanding.
    Mr. Barr. OK. So you went back to the White House counsel's 
office to tell them something. Apart from--well, and you just 
told us, so I can't ask too many times, but you don't recall 
who you talked to. Was it just one person?
    Mr. Lindsay. I don't recall, sir.
    Mr. Barr. On this occasion did you draft another memorandum 
as had been done in June 1998?
    Mr. Lindsay. No. I requested a memorandum be prepared for 
me describing what the problem was and for my folks to look at 
it and to try and come up with some kind of resolution.
    Mr. Burton [presiding]. Let me interrupt just a minute. I 
want to make sure this point is very, very clear. You went to 
the White House counsel's office when the first e-mail problem 
arose, but you don't remember who was there other than Mr. 
Ruff, and you don't remember who you talked to if there was 
someone else there, and now you're telling us that there was a 
second time that you went to the White House counsel's office 
after having been aware of the first e-mail problem, now you 
had a second e-mail problem. You must have known the gravity of 
the situation, but the second time you went, you still don't 
know who you talked to, you can't recall; is that correct?
    Mr. Lindsay. That is correct, but it's very important to 
understand that there were all--there were regular problems 
with e-mail, not of the nature that I think would interest this 
particular committee, but interest me and my staff from a 
technical perspective of having people not being able to have 
access to e-mails.
    Mr. Burton. But the point is, by this time there must have 
been awareness even in your office, that there were subpoenas 
outstanding, there was an e-mail problem, you have gone back 
with the second e-mail problem, you have talked to them and you 
still don't remember who you talked to?
    Mr. Lindsay. No, sir, I do not recall.
    Mr. Wilson. Let's pick up the narrative if we can. You went 
to the White House counsel's office, you talked to somebody, 
you don't recall the name of the individual you talked to. What 
was communicated to you, if anything?
    Mr. Lindsay. I don't have any specific recollection of 
anything being communicated back to me other than we were going 
to continue to look into the issue and try to resolve it, which 
is exactly what we did.
    Mr. Wilson. ``We'' as you or ``we'' as the White House 
counsel's office?
    Mr. Lindsay. No, my staff.
    Mr. Wilson. We just talked about the search that was 
conducted. Monica Lewinsky e-mails were found, they were 
compared, they were apparently duplicates. You've come back 
with a second problem nearly a year later. Do the Monica 
Lewinsky e-mails that were searched for the previous year stand 
for any proposition that there was no problem that had to be 
considered by White House counsel's office? Did you discuss 
this search of Lewinsky e-mails from the previous year?
    Mr. Lindsay. I don't have a specific recollection of doing 
that, sir.
    Mr. Wilson. Did you communicate at the time that there was 
a problem that might relate to document production?
    Mr. Lindsay. I may have. I don't have a recollection of 
doing it. I think it was obvious because of the nature of the 
issue that it might have an impact on that kind of an issue. 
The issue still remained that the previous example of a 
different kind of circumstance but still an e-mail issue, there 
was duplicate information that was provided.
    I also knew that there were lots of other means for that 
information to be provided. So if it was an issue, that it very 
well might have been, but only after we were able to do an 
assessment of the scope and the breadth of the issue would we 
be able to make any kind of an assessment.
    Mr. Wilson. I think it's interesting for you to use the 
word obvious in relation to document production issues. It's 
obvious that it might have had some ramifications in document 
production. It's interesting because it seemed like people in 
the White House counsel's office didn't find anything obvious 
in it at all. It sounds like, from everything we've seen, from 
the documents we've reviewed, from the people we have talked 
to, that people didn't understand something that is to us 
relatively simple to understand.
    Mr. Lindsay. That's not my understanding and recollection 
of the testimony I have heard today.
    Mr. Wilson. No. I said what is easy for us to understand, 
and that's a statement I made, and that doesn't go to 
testimony. I mean, the proposition is relatively simple. There 
is a universe of documents that have never been looked at. To 
this day, nobody knows what is in that universe of documents. 
That's not a particularly difficult concept for anyone to 
understand, and I think Mr. Ruff immediately saw that when he 
gave the instructions he gave as soon as he was briefed.
    It's just our problem is we're trying to find what was done 
to really understand, to come to grips with whether there was a 
problem. The computer technicians that we've talked to are all 
very clear there was a problem. They knew it. They understood 
it. You seem to have understood it. Mr. Ruff seemed to have 
understood it. And somewhere there's a disconnect. That's why 
we've asked you the questions, and I appreciate the fact you 
can't remember who you talked to and you can't remember what 
you discussed.
    Let me just ask one other--turn to something else very 
quickly. Mr. Lindsay--before I turn to that, I'll ask, courtesy 
of my memory being improved here, Ms. Mills, did you ever learn 
about the letter D problem?
    Ms. Mills. No, I did not.
    Mr. Wilson. Mr. Ruff, were you ever informed of the letter 
D problem?
    Mr. Ruff. I have no recollection of being informed of that, 
Mr. Wilson.
    Mr. Wilson. Mr. Lindsay, maybe you can help us. The first 
time you went to talk about the Mail2 problem, you sought a 
meeting with Mr. Ruff.
    Mr. Lindsay. I was directed by the assistant to the 
President for Management and Administration to talk to Mr. 
Ruff.
    Mr. Wilson. OK. Now, the second time you went back to talk 
about this type of computer problem, were you directed by 
anybody to go back to the White House counsel's office?
    Mr. Lindsay. No, I was not.
    Mr. Wilson. I mean, when you were first informed of the 
user D problem, did you tell your superiors about this problem?
    Mr. Lindsay. Yes, I did.
    Mr. Wilson. And did you discuss whether you should go back 
and inform White House counsel's office a second time?
    Mr. Lindsay. I told them that I would.
    Mr. Wilson. And what was their response?
    Mr. Lindsay. That that was a good idea.
    Mr. Wilson. But this time, and I understand Mr. Ruff said 
he doesn't recall, maybe you did go to Mr. Ruff, but would 
there be a reason go to anybody other than the counsel to 
discuss this type of problem?
    Mr. Lindsay. There were other people that may have been 
involved and that I may have run into or dealt with on other 
issues that I may have discussed the other issues with. So it's 
possible there's another attorney in the counsel's office I may 
have discussed it with. I just don't recall who it was.
    Mr. Wilson. Now, one thing we've heard from people we've 
talked to is that they--people who worked for the Office of 
Administration had a clear understanding that if they didn't 
have either the money or the personnel to ultimately--and I'll 
be very simplistic here--but fix this problem, then the problem 
wasn't going to get fixed. The question I ask of you is, first, 
did you ever consider asking Congress for additional funds to 
help fix this e-mail problem? I know it's been done in the year 
2000, in March 2000 and starting, but before the year 2000 did 
you ever consider asking Congress for funds to help fix the e-
mail problem?
    Mr. Lindsay. I think that the answer to the question has to 
be placed into context. In November 1998----
    Mr. Wilson. Well, just asking if you ever considered going 
to Congress and asking----
    Mr. Lindsay. If I ever considered it, yes, I did consider 
it.
    Mr. Wilson. Did you ever ask Congress or instruct anybody 
else to ask Congress for funds to fix this problem that we are 
talking about today?
    Mr. Lindsay. Yes, I did.
    Mr. Wilson. You did? When was that?
    Mr. Lindsay. March 2000.
    Mr. Wilson. Well, I should have been a little more broad. 
Away from the year 2000--and let me ask, in 1998, did you ever 
ask Congress or instruct anybody to ask Congress for funds to 
help fix this problem?
    Mr. Lindsay. That's what I'd like to place into context.
    Mr. Wilson. Well, did you or did you not?
    Mr. Lindsay. I did not, and the reason why I did not is 
because we were faced--at the time I was trying to get money to 
address the Y2K problem. That was a recognized national crisis 
issue, and we did----
    Mr. Wilson. We gave you money on that.
    Mr. Lindsay. I just want to place into context I needed 
that money in September. I did not get it until November. 
Though it was very necessary, I didn't get it. That was an 
issue that would keep us--it would make the e-mail issue moot 
because the e-mail system resides on systems that were not 
going to work when the year turned over. So that issue had to 
be resolved first. And at that point my staff came to me and 
said you will not be able to make that timeframe because we do 
not have the resources.
    Mr. Wilson. You have pointed that out before, and we 
appreciate it. Did you consider Congress had any role in the 
prioritization of how funds would be allocated? It seems you 
made a unilateral decision, but did Congress not have any role 
to play in assessing how funds might be spent?
    Mr. Lindsay. As a matter of fact, sir, at my appropriations 
hearing we discussed the budget for the Executive Office of the 
President. Ninety-eight percent of the questions that I 
remember were about Y2K and the fight to get the resources to 
address a problem that I believe that I had a mandate from 
Congress to do everything that was necessary to make sure that 
we met the requirements that we needed to. We were starting 
late because of a lot of other circumstances, and so it was 
very, very clear and obvious to me that Congress wanted us not 
to fail to meet the Y2K deadlines. They wanted us to spend 
those moneys responsibly, and that is what we endeavored to do.
    Mr. Wilson. Fair enough. One last question. Mr. Ruff, did 
you ever speak with Earl Silbert about any Northrop Grumman 
matters at any time?
    Mr. Ruff. Ever?
    Mr. Wilson. Well, actually, yes, ever.
    Mr. Ruff. Because I can't recall ever speaking to Earl 
about this. I suppose somewhere in the course of our private 
practice the issue of some Northrop Grumman matter may have 
surfaced, but I have no recollection of that.
    Mr. Wilson. In September 1998 do you have any recollection 
of having any conversations with Mr. Silbert about any matter 
pertaining to Northrop Grumman?
    Mr. Ruff. I do not. I'd be perfectly happy to have my 
memory refreshed, but I don't have any recollection.
    Mr. Burton. Counsel's time has expired. Counsel.
    Mr. Schiliro. Mr. Lindsay, yesterday we went over this. You 
weren't here. I just want to go over it with you.
    When counsel was just asking you questions about funding in 
1999, the decisionmaking process then wasn't focused on a 
response to subpoenas or subpoena compliance. The issue, as we 
understood it yesterday from the testimony we received, it was 
an archival issue?
    Mr. Lindsay. Exactly, sir.
    Mr. Schiliro. The mindset at the White House at that point 
wasn't that you were violating subpoenas or weren't producing 
information to subpoenas but that you should fix the problem 
because there was an archival responsibility that had to be met 
to satisfy Federal law; is that correct?
    Mr. Lindsay. Exactly, and keep in mind that we had been 
engaged in reconstruction of Reagan era, Bush era and early 
Clinton administration tapes, which I discussed on numerous 
times with our appropriations folks. I had people from the 
committee come down and view the tapes. The issue of 
reconstruction and the issue of the archival issues were all 
folded into one, and those were things that I had no qualms 
about discussing with my appropriators and did.
    Mr. Schiliro. So is there anything else that we need to 
know about the 1999 decisionmaking process in getting funding 
or not getting funding?
    Mr. Lindsay. The only other thing I would add is that it's 
easy now to look back and look at the situation for Y2K and not 
appreciate the severity of the circumstances. But for us, after 
coming from a period of having less funding and an antiquated 
information technology network, we were faced with a prospect 
of not having a system operating that would serve the President 
of the United States. That was something that, frankly, we had 
to do everything in our charge to make sure we didn't do. We 
had that mandate from the Appropriations Committee, and we got 
it we felt from Congress in terms of their support to go about 
doing that, and that what we endeavored to do, and we placed 
that as our first priority. And because all of these other 
issues of the operation of the e-mail system and other systems 
would become moot if our computer systems did not operate 
properly.
    Mr. Schiliro. I assume your thinking would have been 
differently had you thought that this was a subpoena compliance 
problem.
    Mr. Lindsay. That is exactly correct, sir.
    Mr. Schiliro. And notwithstanding the Y2K problems, you 
would have devoted whatever resources had to be devoted in 
order to meet the requirements of subpoenas?
    Mr. Lindsay. Exactly correct, sir.
    Mr. Schiliro. Mr. Ruff, counsel made the point which I 
think is the accurate one, you had no idea of the content of 
the e-mails, you testified to that before, so that the idea 
that somebody was making a conscious effort from keeping these 
e-mails public would be inconsistent with the notion that you 
didn't know what was in the e-mails? There might be exculpatory 
material there, so why would you be trying to keep something 
quiet if you had no idea what the content was.
    Mr. Schiliro. Exactly so.
    A broader statement I suppose is appropriate which is, 
good, bad or indifferent information, we would never have kept 
something quiet.
    Mr. Schiliro. Mr. Ford.
    Mr. Ford. Very quickly, I want to ask counsel if he 
wouldn't mind, in his mind was it more important for--and I 
appreciate our counsel clarifying some of these issues for all 
of us and perhaps even some on your side of the aisle, but 
would you believe--Mr. Chairman, perhaps you can answer as 
well--would you believe it was more important for them to 
satisfy an archival responsibility or to ensure the President 
of the United States and all that the Presidency brings that 
the operating system at the White House and the information 
technology system at the White House did not collapse?
    Again, I appreciate Mr. Lindsay pointing out for us that at 
this point it's easy to say that perhaps we overreacted to a 
potential Y2K problem, but in light of the hearings held in 
this committee by Mr. Horn, by the concerns raised by other 
committee members, Mrs. Morella as well as Members on this side 
of the aisle, do you believe that perhaps--I'm suggesting to 
counsel as well, if he wouldn't mind responding--that they 
acted inappropriately or perhaps wrongly for prioritizing the 
way they did?
    I would argue that even if you had been subpoenaed that I 
would hope that your first priority would have been to ensure 
that the operating systems at the White House did not collapse. 
That would seem to me--but in light of the fact that that was 
not the case, Mr. Chairman, that indeed it was a simple or near 
archival responsibility now that I understand, would your 
counsel say that----
    Mr. Burton. I'll respond by saying that they were not 
mutually exclusive. The funds could have been acquired to look 
into the e-mail problem and hire the personnel necessary to get 
to the bottom of the e-mail problem at the same time they were 
dealing with the Y2K problem, but they never brought to the 
attention of the appropriations subcommittee this problem. In 
fact, it's deliberately crossed out, and that's one of the 
things we've tried to find out, why was that crossed out, why 
was it not put into a memo that was going to go----
    Mr. Ford. Reclaiming my time for one moment, Mr. Chairman, 
but if there was not a subpoena compliance issue problem, why 
would anything that you say be relevant? And, two, if you were 
in their shoes, sir, would your priority not have been to 
ensure that the White House operating system was Y2K compliant? 
Would that not have been your focus?
    Mr. Burton. Well, the counsel has the time. That's fine. If 
you ask me a question and you want me to answer it, let me 
finish the answer. Don't reclaim your time. We are not on the 
House floor. If you want me to answer a question, I'll do it. 
If not, don't ask me any questions.
    Mr. Ford. Mr. Chairman, you're the chairman of the 
committee, sir, but I can reclaim my time if I choose. I'm 
asking you a question. If you choose to answer it, you can, but 
I will reclaim my time. You may be chairman of this committee--
you can treat these witnesses the way you choose, but you can't 
treat members of this committee any way you choose. So I 
absolutely defer to you to answer the question, but I will not 
take orders from you in terms of when I can reclaim my time. 
Again, you can treat Mr. Ruff--you can disrupt Ms. Mills' 
schedule and Mr. Lindsay's schedule, but you will not----
    Mr. Burton. You do not have the time. The counsel has the 
time.
    Mr. Ford. This is our time.
    Mr. Burton. It's the counsel's time.
    Mr. Ford. He's yielded to me.
    Mr. Burton. It's the counsel's time. If he yields to you, 
that's fine, but don't start telling me it's your time.
    Mr. Ford. If you, Mr. Chairman, were working at the White 
House and charged with ensuring the White House operating 
system was Y2K compliant and you had a charge also to update 
this archival system, this responsibility that Mr. Lindsay has 
spoken of and our counsel, what would you have done? And I 
yield to you if my counsel believes it's OK, and I believe that 
he does, Mr. Chairman, and I would ask your counsel as well 
who's whispering in your ear now if he were there what would he 
have done.
    Mr. Burton. The least the White House could have done, the 
least was to tell the relevant committees of Congress that had 
subpoenaed documents and the independent counsels that there 
was a problem. They chose not to tell us anything, none of us, 
even though legitimate subpoenas had been sent. So even if they 
weren't going to solve the problem, the problem should have at 
least been brought to our attention.
    Mr. Ford. Again, if you were in their shoes, what would 
have been your top priority, Mr. Chairman, at a time when the 
Nation was braced to deal with a computer breakdown, a collapse 
of our banking system, our FAA and other important government 
agencies, what would you have done, sir? Would you have done 
anything different at the time in which Mr. Lindsay was faced 
with tackling a problem that I would imagine none of us would 
have probably wanted.
    Mr. Burton. I would have done something different, and I've 
explained that, and I will explain it one more time. They're 
not mutually exclusive. What I would have done is I would have 
asked the Congress, the Appropriations Committee, for the money 
to take care of the e-mail problem. Because all they needed was 
the money and the personnel, and they didn't even ask the 
Congress for it. In fact, it appears as though they didn't want 
the Appropriations Committee to know about it because they 
didn't want the e-mail problem brought to the surface.
    Mr. Ford. It appears to me, and I think any reasonable 
observer could probably agree, that what we have is a problem 
and a fundamental problem is that you guys have answered 
questions sufficiently, those at the White House, but some on 
this committee are looking for different answers, and 
unfortunately you cannot provide the answers they want because 
it's simply not true.
    Now, I can respect the fact, Mr. Chairman, that those on 
your side--and, you know, you suggested it's a mutually--
they're not mutually exclusive. I'm glad you all made the 
decision that you made at the White House in terms of 
prioritizing which responsibilities were more important. I can 
assure you that if you had followed the lead of this chairman 
and this Republican side here on this committee that not only 
would you have been back before this committee answering 
questions as to why you allowed the White House operating 
systems to collapse, that you would have had this Congressman 
and Congressmen all throughout this Chamber, Democrats and 
Republicans, lambasting you, Mr. Lindsay, and your office for 
following the lead of this chairman in trying to fulfill an 
archival responsibility because of this perverse and bizarre 
and seemingly endless appetite we have for Monica Lewinsky and 
all that that entails.
    I am proud to say that this White House prioritized 
correctly. I am pleased and refreshed and somewhat surprised to 
hear that Mr. Chairman has said that maybe if you all had come 
back and made the request we would have provided the resources. 
I hope, Mr. Ruff, that you're probably pleased to hear this as 
well with your passion for children. Perhaps if we figure out a 
way to come before this committee and ask for more moneys for 
school construction perhaps we can persuade this chairman and 
others on that side to go before the Appropriations Committee 
to make that request as well.
    I'm pleased you made the decision that you made. I'm 
pleased that you're here today. It's unfortunate, Ms. Mills and 
others, that your schedules have been disrupted, but it is my 
sincere hope that when all of this is over, and we only have 7 
months left, thank God, that we will offer the three of you and 
so many others in this administration whose reputations have 
been smeared and tarnished an apology from this committee, 
starting with this chairman, this committee, and the others in 
this Congress for all that we have put you through.
    Ms. Mills, I apologize, Mr. Lindsay, I apologize, Mr. Ruff, 
I apologize, not only to you but to your families for all that 
you've had to go through, not because we've asked these 
questions, these are legitimate questions, we have an oversight 
responsibility here, but I apologize for the personal attacks, 
I apologize for the incredulous behavior of some of my 
colleagues and more so again I apologize again for this bizarre 
appetite for more Monica Lewinsky.
    With that I yield back to my counsel whom I hope would 
yield back to the chairman.
    Mr. Schiliro. Mr. Chairman, we have 20 minutes remaining 
and we'll yield it back.
    Mr. Burton. The gentleman yields back the balance of his 
time. Who seeks time on our side? No one seeks time. Mr. Barr.
    Mr. Barr. Mr. Lindsay.
    Mr. Lindsay. Yes, sir.
    Mr. Barr. I think you testified before this committee last 
month here again that your No. 1 objective was to make sure 
that this problem was resolved. And we went into what exactly 
that meant. Leaving aside our different interpretations, 
obviously some substantially different, of what ``resolve'' 
means, yesterday again going back to exhibit 94, and Mr. 
Heissner's testimony, you may recall that Mr. Heissner made 
corrections to a bullet point relating to the MAIL2 
reconstruction. Both Mr. Heissner and Mr. Lyle testified 
yesterday that these changes were made in preparation for your 
testimony before congressional appropriators on March 2, 1999. 
Mr. Lyle also testified that Kate Anderson of your staff 
deleted this corrected bullet point from the final memo they 
used to brief you for the appropriations hearing. Were you 
aware that this deletion had taken place?
    Mr. Lindsay. What exhibit number is that, sir?
    Mr. Barr. 94.
    Mr. Lindsay. 94? That's the Heissner e-mail is what I have 
got it as. Is that the one you're referring to, sir?
    Mr. Barr. The Heissner.
    Mr. Lindsay. OK. Got it.
    Mr. Barr. So you were aware that that deletion had taken 
place?
    Mr. Lindsay. No, I was not, sir.
    Mr. Barr. You were not. OK. Was the deletion of an accurate 
description of the MAIL2 problem from a memo used to assist you 
in informing Congress consistent with trying to do your best to 
resolve the e-mail problem?
    Mr. Lindsay. First----
    Mr. Barr. First inconsistent.
    Mr. Lindsay. First, I think it deserves a little 
explanation. First, the briefing book was a briefing book for 
me to testify before Congress. I didn't need briefing points on 
matters that I already knew. I needed briefing points on those 
matters for which I was unfamiliar or had numerical 
information, data, personnel changes, things like that. That's 
the kind of information that belonged in the briefing book, not 
information about something that I was familiar. Therefore, 
though I didn't know it at the time that Ms. Anderson removed 
that information, I believe it would be appropriate for her to 
do so because she knew that that's something I already knew 
something about and it would be inappropriate to be included in 
my briefing book. And the briefing book was for me, not for the 
members of the committee. If they were to ask me a question 
about that matter at the time or at the hearing they could have 
asked me the question.
    Mr. Barr. Somebody used--if somebody had in mind a common 
sense notion of what a briefing book is and that is to place 
those items that are important for a person testifying before 
Congress, that is not the way you would use a briefing book?
    Mr. Lindsay. No.
    Mr. Barr. The only thing that would be in a briefing book 
in preparation for preparing you to speak to a committee are 
things that you don't know?
    Mr. Lindsay. Things I don't know, essentially or very, very 
detailed information, numerical data, things like that that I 
may receive questions about so I could respond to the questions 
to the committee.
    Mr. Barr. There were bullet items in there on things that 
you did know like Y2K?
    Mr. Lindsay. The Y2K issue is, as you can imagine----
    Mr. Barr. It's there because it was important.
    Mr. Lindsay. It was there because it was a vast issue. It 
involved----
    Mr. Barr. An important issue?
    Mr. Lindsay. That also, sir.
    Mr. Barr. It was an important issue.
    Mr. Lindsay. That also.
    Mr. Barr. The MAIL2 problem wasn't there?
    Mr. Lindsay. Because I already knew about it, sir.
    Mr. Barr. I believe it was also your testimony when you 
testified before Mr. Kolbe's subcommittee you never even 
brought the MAIL2 problem to his attention?
    Mr. Lindsay. No, I didn't. Mr. Kolbe asked me most 
questions about Y2K and my opening statement and most of the 
discussion was about Y2K.
    Mr. Barr. So Mr. Kolbe just didn't ask the right questions?
    Mr. Lindsay. No, I had talked with people on the committee 
about reconstruction issues in the past or at the course of the 
relationship that I had with the committee. The issue of the 
day was getting the resources and they had expressed very 
significant concerns about us providing the appropriate 
justification for receiving the resources that we needed to 
get. I knew that if I was unsuccessful in getting those 
resources, I would fail in my mission to get the resources to 
help.
    Mr. Barr. The best way to get them would be just to not 
bring it up?
    Mr. Lindsay. No. I did bring up the Y2K issue. That's why I 
talked about it.
    Mr. Barr. I'm talking about the MAIL2 issue, not the Y2K. 
The MAIL2 issue was not brought up?
    Mr. Lindsay. No, it was not brought up.
    Mr. Barr. It was specifically deleted?
    Mr. Lindsay. No, it was not specifically deleted from any 
kind of----
    Mr. Barr. It was inadvertently deleted?
    Mr. Lindsay. No, it was not deleted from any topic for 
discussion. It was removed from the briefing book which 
contained information for which I was not familiar. Primarily 
for detailed information which I didn't have a specific 
recollection, I would have to refresh my recollection and I 
could use as a reference.
    Mr. Barr. You're saying you were familiar with the MAIL2 
problem?
    Mr. Lindsay. Very much so.
    Mr. Barr. And you have also testified that it was an 
important issue; its resolution was an important issue?
    Mr. Lindsay. It was an important archival issue, not as 
important as receiving resources for Y2K and answering the 
other questions of the committee. They had----
    Mr. Barr. It was not an important issue to assure 
compliance with lawful subpoenas, it was important only for 
archival issues? Now we're splitting that hair?
    Mr. Lindsay. Of course compliance with lawful subpoenas is 
very important, but that was not the issue that was before me 
then and that wasn't the issue that was in question there. At 
least that wasn't my----
    Mr. Barr. That's right. Your definition of resolving the 
issue meant only to the technical question of resolving the 
issue from that point forward?
    Mr. Lindsay. In this particular instance, the e-mail issue 
was an archival issue and a technical issue of resolving a 
glitch. It didn't relate at that time in my thinking to 
production of documents or subpoenas.
    Mr. Barr. Bottom line is you didn't bring it up, even 
though you're trying to convince us that you thought this was 
an important issue and you wanted something done with it and it 
was a high priority with you. But you didn't even take 
advantage of an excellent opportunity before the chairman of 
the subcommittee that had authority to basically provide funds?
    Mr. Burton. Mr. Shays.
    Mr. Lindsay. I don't agree with the characterization of my 
testimony, sir.
    Mr. Barr. I'm sure you don't.
    Mr. Burton. Mr. Shays.
    Mr. Shays. I was not going to jump in here but this is 
bizarre as can be. You're basically telling us you had a 
presentation to be made before the Appropriations Committee. 
Did you present all the items in the document?
    Mr. Lindsay. All what items in the document?
    Mr. Shays. All the items that were in this document.
    Mr. Lindsay. What document is that, sir?
    Mr. Shays. 134, exhibit 134. I think it's 5 pages, isn't 
it? Take your time.
    Mr. Lindsay. OK. What was your question, sir?
    Mr. Shays. Are you familiar with this document?
    Mr. Lindsay. I have seen it before.
    Mr. Shays. This is the--this was your preparation document 
before the Appropriations Committee?
    Mr. Lindsay. This document I have seen after the hearing 
fairly recently. The information that actually ended up in my 
briefing book I did not do a comparison to see if this is 
exactly the same.
    Mr. Shays. So you're going to tell me and the committee 
that this is a document that was prepared for your briefing and 
you don't really remember seeing it or not but you can speak 
with such certainty about the fact that one thing was taken off 
because you knew about that really well. Did you know about the 
MAIL2 reconstruction better than you knew about all the other 
items in this document? I want you to take the time to look at 
the document. So all the other items you knew less about than 
the MAIL2 document?
    Mr. Lindsay. Some of them, yes, because they're specific 
numbers associated with matters. But let me make this very, 
very clear. The document that was actually included in my 
briefing book was not this document.
    Mr. Shays. I understand. I understand. No, I'm just trying 
to understand something.
    Mr. Lindsay. And I don't know what other deletions may have 
been made from this document, from the document that actually 
ended up in my briefing book.
    Mr. Shays. See, what's difficult for me just being this 
common nonlawyer, what's difficult for me is in the course of 
your day here you knew very little about this problem with the 
MAIL2 and you didn't have documents but you said you knew so 
much about it you didn't need information about it in your 
briefing. You did. You didn't need information about it in your 
briefing, which would imply that you knew more about that than 
any of the other items here and I think that's simply not true. 
I think you know more about some of these items than the MAIL2. 
So it makes me begin to get more interested in what I consider 
are very evasive answers which you would think are not evasive. 
Tell me an item here that you knew better than the MAIL2 
problem.
    Mr. Lindsay. There were several issues associated with why 
we need to get Y2K issues and why we need to get funds for it 
that I was more familiar with which I didn't include in the 
briefing book because those are things that I was very familiar 
with. The issue----
    Mr. Shays. Don't talk so quickly here. You were more 
familiar with what?
    Mr. Lindsay. For example, the impact on people of not 
getting the resources in a timely fashion. That is something 
that was very, very important to me. The fact that the--we were 
facing delays----
    Mr. Shays. I'm not dealing with important now. I am dealing 
with a simple question of what you knew more about or what you 
knew less about. Your only justification for why this was 
crossed off, your only justification was that you knew so much 
about it you didn't need to have it in your briefing book. I 
think that's absurd. And I prepare briefing books for myself 
and what happens in a briefing book, you put all the items you 
intend to speak about. And it tells you where you're going to 
fit in and what you're going to talk about, what you're not 
going to talk about. So you're telling me you knew so much 
about the problem of the MAIL2 problem that you didn't need it 
in your briefing book. But we have struggled to get you to tell 
us even basic things about what you knew about MAIL2. I am 
asking this question. Are you telling me that you didn't know 
about method ITT, that you didn't know about IS&T leadership, 
and therefore you needed that in there. You didn't know about 
mission critical system highlights. You didn't know about all 
these other things and those need to be in there but MAIL2 
problem, no, you knew about that so that didn't need to be in 
there. Is that what you're saying?
    Mr. Lindsay. No, I'm not saying that.
    Mr. Shays. OK. So why don't you give me another story then.
    Mr. Lindsay. The briefing book, obviously I used the 
briefing book differently than you use your briefing book. I 
was using it to address not only those issues that were 
important but those issues where I needed to have cues, either 
verbal cues or information cues, for me to provide testimony 
and to respond to the questions which were most likely to come 
up at the hearing. Y2K issues were issues that I was informed 
by the members of the committee were certainly going to be 
issues that were going to come up at the hearing. Therefore, I 
would go into greater detail in my briefing book for what 
information was included.
    Mr. Shays. So the real answer then is since we didn't know 
about the MAIL2 problem you weren't going to be asked about it, 
no point in having it in your book?
    Mr. Lindsay. No, sir.
    Mr. Shays. Did we know about the problem?
    Mr. Lindsay. I don't know, sir.
    Mr. Shays. Why would we know about the problem? You guys 
didn't tell anybody.
    Mr. Lindsay. There were lots of--I had discussions with 
Northrop Grumman, I got a letter from someone in Kentucky who 
works for Northrop Grumman about the matter. There are lots of 
people----
    Mr. Shays. Let's be clear. Who did you talk about? Who?
    Mr. Lindsay. It's not that I talked about it, it's just the 
record is replete with examples of people within the Office of 
Administration and people on the outside of Office of 
Administration.
    Mr. Shays. Anybody in Congress?
    Mr. Lindsay. Not to my knowledge.
    Mr. Shays. So don't tell us that we would know in Congress. 
That's a little disingenuous.
    Mr. Lindsay. I cannot testify as to what Members of 
Congress knew.
    Mr. Shays. No. The people at Northrop worked for you, they 
didn't work for us. They were your employees. It was your 
system, you knew about the system, we didn't. At least give us 
that. With all the other things you can be, don't be 
disingenuous you thinking that we already knew. Please don't do 
that.
    Mr. Lindsay. Northrop Grumman was not my employee.
    Mr. Shays. Whose employee were they?
    Mr. Lindsay. They were contractors. Independent 
contractors.
    Mr. Shays. Contractors to the White House or to the 
Congress. Who were they contractors to?
    Mr. Lindsay. To the White House.
    Mr. Shays. OK. They are your contractors. They're not your 
paid employees. They are working for you, not Congress. I'm 
just asking at least give us this, don't suggest now that you 
thought we knew about this problem. That's really being 
disingenuous.
    Mr. Burton. The gentleman's time has expired. Unless 
members have further questions of this panel, we will bid them 
ado. I would like to leave them with, and I hope they take a 
look at these memos from Mr. Barry and others, talking about 
how critical it was to get to the bottom of this as quickly as 
possible and nothing happened. But if there is no more 
questions of this panel we will thank you for your patience and 
your testimony. And to answering the questions that you did 
answer. And we'll let you go and we'll come back in about 10 
minutes and get to the next panel.
    Mr. Ruff. Mr. Chairman, I just have one question. I want to 
be sure that I don't take this home accidentally. A member of 
the staff appears to have left a campaign button in our 
briefing book here and I just--whoever it belongs to can pick 
it up. I'll leave it right here for them.
    Mr. Burton. That's right. Thank you very much. It's not 
mine, I don't think. We stand in recess.
    [Recess.]
    Mr. Burton. I've been informed that the button to which Mr. 
Ruff alluded was not left by any Member of Congress but by 
somebody in the audience and that it had some lewd material in 
it and the person who put the button on the desk has been asked 
to leave the room. So that problem is solved. The committee 
will reconvene.
    Thank you, Ms. Nolan, for being here. Mr. Nionakis, thank 
you. Would you please stand and be sworn?
    [Witnesses sworn.]

 STATEMENTS OF BETH NOLAN, CHIEF COUNSEL TO THE PRESIDENT; AND 
      DIMITRI NIONAKIS, ASSOCIATE COUNSEL TO THE PRESIDENT

    Mr. Burton. Be seated. Mr. Nionakis, we wanted to have you 
here today. We're not disappointed that the chief counsel of 
the President, Ms. Nolan, is with us, but you're the person 
that we really wanted to talk to. So do you have an opening 
statement you would like to make?
    Mr. Nionakis. I do not, sir.
    Mr. Burton. OK. Just 1 second.
    I think we'll start off, without objection from Mr. Shays, 
with the counsel doing the questioning in accordance with the 
rules passed by the committee today. So counsel.
    Mr. Wilson. Mr. Nionakis, good afternoon.
    Mr. Nionakis. Good afternoon, Mr. Wilson.
    Mr. Wilson. Ms. Nolan.
    Ms. Nolan. Mr. Wilson, good afternoon.
    Mr. Wilson. Thank you very much for the--I'm glad that we 
could resolve ultimately the differences we had and thank you 
very much for the calls we had last night. There are a few 
things that I wanted to cover and I'll try and give you a sense 
of where I'm going before I get there just so as to try and be 
as direct as possible.
    One of the things we talked to the previous panel about was 
a test that was conducted to ultimately determine whether there 
was a problem that had ramifications for document production. 
Now, one of the things that we have been told is that after the 
problem was discovered in June 1998, the e-mail problem was 
discovered in June 1998, there were contacts with the White 
House counsel's office, and ultimately some type of test was 
conducted to determine something. And we're not quite sure what 
because it's been difficult for us. And I'm not sure, Mr. 
Nionakis or Ms. Nolan, whether you have any knowledge about 
this but this is one of the things that we're trying to 
determine. What we want to find out is whether the White House 
did a thorough job and made a fair assessment of whether there 
were any documents that should or should not have been 
produced. So let's just start with the threshold question. When 
did you first become aware of the--and I'll use the shorthand. 
It's the MAIL2 user problem but I'll just call it the e-mail 
problem. That's what we're going to be talking about for the 
next 45 minutes or hour or so--but when did you first become 
aware of the e-mail problem?
    Mr. Nionakis. It was about February 2000 of this year.
    Mr. Wilson. You had no knowledge at all of the problem 
prior to news accounts, is that fair to say?
    Mr. Nionakis. I believe it was either news accounts or from 
people with whom I work, working on those matters that are 
reported in those news accounts on or about February 2000, yes.
    Mr. Wilson. OK. That may well eliminate some questions. Mr. 
Ruff had indicated that you may or may not have been involved 
in some of the initial searches or some of the initial 
considerations of the e-mail problem. I'll eliminate a lot of 
questions by asking you the very simple, very simple one. Do 
you know what the search terms were that were used in 1998 
after the e-mail problem was discovered when the White House 
was conducting a test?
    Mr. Nionakis. Mr. Wilson, I was not involved in that search 
and I am unaware of what those search terms were.
    Mr. Wilson. I will move completely away from that. We 
received some documents from the White House a couple of days 
ago that were initially designated subject to a privilege. I 
wanted to ask you about one of those documents. If you would, 
there's a book in front of you, an exhibit book. If you could 
turn please to exhibit 144. Hopefully it's been added to your 
book because it was just put in last night.
    Mr. Nionakis. I have it in front of me.
    Mr. Wilson. If you could just take a moment and look at 
that, please. These are handwritten notes. The document is 
marked E 4459, and at the very top of the page it has a name 
Jason Baron and a telephone number, which we have come to learn 
is in Vancouver, Canada. And the name's of interest to us 
because we understand that Mr. Baron used to work at the 
Department of Justice.
    Let me start with a threshold question. Have you seen this 
document before today?
    Mr. Nionakis. The first time I saw it was when I received 
it for production.
    Mr. Wilson. Do you know who created this handwritten 
document?
    Mr. Nionakis. Yes.
    Mr. Wilson. Who did create the document?
    Mr. Nionakis. I believe that handwriting is Jack Young's 
handwriting.
    Mr. Wilson. And Mr. Young I believe is the general counsel 
of the Office of Administration, is that correct?
    Mr. Nionakis. One moment, please. I believe that's correct. 
He's the general counsel of the Office of Administration.
    Mr. Wilson. In the privilege log we received----
    Mr. Nionakis. Excuse me, Mr. Wilson, I want to amplify 
that. I believe he's on medical leave right now. That's why I 
was hesitating as to his status.
    Mr. Wilson. I appreciate that. I'm not quite sure of his 
status myself but we don't need to discuss that. With this 
document a privilege log was produced and the document is 
described as follows: And I quote from the privilege log 
produced by counsel's office, handwritten notations of OA 
general counsel of conversations with Department of Justice 
attorney regarding issues raised by inquiries related to the 
White House e-mail system. Do you know who prepared that 
description.
    Mr. Nionakis. Yes. I did.
    Mr. Wilson. Did you? Is Mr. Baron in fact a Department of 
Justice attorney.
    Mr. Nionakis. As I said at the time that I prepared the 
document, my understanding was that he was a Department of 
Justice attorney. I just want to point out that the document, 
the draft log of documents subject to privilege is indeed a 
draft. It was prepared because we were trying very hard to 
produce that draft to you with the other documents that we 
produced last Friday. And I received these documents the day 
before I sent that privilege, that draft privilege log up to 
you. So that is why for a number of reasons why I call it a 
draft, because it certainly would be subject to any corrections 
if I obtained more accurate information after that.
    Mr. Wilson. I don't have many questions but let me explain 
where I'm going before I go there and it may be of some 
assistance to cut the time back. It's our understanding that 
Mr. Baron was a Department of Justice attorney and was 
contacted at the time that the MAIL2 problem was first 
discovered in 1998, individuals from the White House or Office 
of Administration contacted Mr. Baron. And I'll be perfectly 
honest, we don't know what his position is at the Department of 
Justice or even whether he's still there but it's of some 
concern to us because we have been trying, the committee has 
been trying to speak with Department of Justice attorneys. And 
the Department of Justice has advanced their argument that we 
should not be able to talk to line attorneys and we understand 
that argument and we are talking to them about that. We're 
trying to determine whether anybody from the White House in 
fact contacted Mr. Baron. Do you know whether anybody called 
Mr. Baron?
    Mr. Nionakis. I believe Mr. Young did given that--from what 
I gather from this document I believe he did, but I don't know 
that anybody else did.
    Mr. Wilson. Do these notes represent as far as you can 
understand, I know you did not create them, do these notes 
represent notes taken by Mr. Young when he was talking to Mr. 
Baron?
    Mr. Nionakis. I would not know. I think you would have to 
ask Mr. Young that question.
    Mr. Wilson. Do you know if anybody else has had any 
contacts about Mr. Baron?
    Mr. Nionakis. Not to my knowledge, no.
    Mr. Wilson. I mean obviously I'm aware that you're an 
employee of the executive branch and the Department of Justice 
is also very much a part of the executive branch, but we have a 
concern and I would like you to help me work through this 
concern that whereas the committee has requested a special 
counsel to be appointed in this matter because of a perception 
that the Department of Justice is on both sides of an issue, 
the same issue, this e-mail issue, civil division attorneys 
have been assisting the White House and now there is apparently 
a campaign financing task force investigation of possible 
obstruction of justice, we're trying to determine whether the 
White House has actually been talking to Department of Justice 
attorneys and getting advice or assistance contemporaneously. 
Do you know when these notes were created?
    Mr. Nionakis. I do not.
    Mr. Wilson. Well, we appreciate that we can ask Mr. Young 
some of these questions. If you would, in your book----
    Mr. Burton. Does Mr. Young work with you?
    Mr. Nionakis. Mr. Young works in the Office of 
Administration. He's the general counsel for that office. I 
work in the White House counsel's office.
    Mr. Burton. So you don't have direct contact with him on a 
regular basis?
    Mr. Nionakis. I have contact with him but since he has gone 
on medical leave I have not had direct contact with him.
    Mr. Burton. I see. Did you talk to him about this note?
    Mr. Nionakis. I did not talk to him about this document, 
no.
    Mr. Burton. So you didn't have any knowledge of whether or 
not he talked to Mr. Baron directly?
    Mr. Nionakis. It's my understanding--excuse me. Are you 
asking about Mr. Baron or Mr. Young?
    Mr. Burton. Yes. Did you have any knowledge whether he 
talked to Mr. Baron, Mr. Young?
    Mr. Nionakis. I believe at one point Mr. Young told me that 
he did speak to Mr. Baron.
    Mr. Burton. Do you know the contents of that conversation, 
did he tell you anything about it?
    Mr. Nionakis. I believe that the subject matter was that--
and this is to the best of my recollection--that Mr. Baron had 
provided some assistance regarding I think it was an Armstrong 
issue. And he called him up about that. But again, my 
recollection is very foggy on that and I do not know exactly 
what that conversation was about.
    Mr. Burton. But you don't know of any other content of that 
conversation other than you think he may have talked to him 
about the Armstrong?
    Mr. Nionakis. I do not recall any other content of that 
conversation.
    Mr. Wilson. If you could, in the book in front of you, 
please take a look at exhibit 60.
    Mr. Nionakis. 60?
    Mr. Wilson. Yes. And that's a letter from yourself to a 
member of our staff Andre Hollis, who's a senior counsel on 
this committee. It's a letter about searches conducted by the 
White House for documents related to the Waco tragedy. If you 
take just a moment and at least refresh your recollection. Now, 
I just wanted to----
    Mr. Nionakis. I'm sorry, one moment.
    Mr. Wilson. Sure.
    Mr. Nionakis. OK.
    Mr. Wilson. I really just want to direct your attention to 
one representation made in the letter. Toward the end the 
paragraph that begins before the numbered points, you note that 
the--actually that's not what I'm looking at, the final 
sentence I believe is the EOP believes that this search 
sufficiently covered the scope of the committee's subpoena. 
Now, given that you've just indicated that you only learned 
about the e-mail problem this year, can you tell us whether you 
believe that this--is this statement still accurate or is this 
statement not accurate?
    Mr. Nionakis. First of all, I would like to say that I had 
several conversations with Mr. Hollis about the subpoena. I 
think we reached a reasonable accommodation on this in which we 
did produce, as the letter states, certain documents. I cannot 
say one way or the other whether given my awareness of the 
MAIL2 and letter D errors now that we have indeed provided 
everything. And of course, we would go back and search those 
materials as soon as they are available.
    Mr. Wilson. That's what I'm getting at. If you have the 
opportunity now you would do that search and that would be--
that would enable you to make a representation that you had 
looked in all of the places that might be relevant to this 
document production?
    Mr. Nionakis. We would certainly look there, yes.
    Mr. Wilson. Yeah. That's not to say there's anything there, 
but it's a place to look. And this letter does stand for 
something that we discussed in the previous panel. It's very 
important to note that here this is a situation where you did 
come to an accommodation with us, and we mutually agreed that 
there were certain things that did not need to be produced and 
it was embodied in the letter and we appreciate those 
conversations.
    Mr. Nionakis. As do I, Mr. Wilson. I think you and I have 
had many discussions, we have had many differences but I think 
we've reached many, many agreements on previous occasions about 
documents and productions and so forth.
    Mr. Wilson. Once the White House learned about the MAIL2 
problem, have there been any discussions that you've been privy 
to where individuals have suggested that bodies that have 
sought documents such as ourselves should be officially 
notified that searches that have been conducted in the past may 
not be complete?
    Mr. Nionakis. I believe our office has attempted to notify 
those bodies and certainly respond to any inquiries from those 
bodies.
    Mr. Wilson. I mean, I'm looking more for something formal. 
We obviously know there have been lots of newspaper articles 
and discussion in various venues but one of the things that I 
don't think we have to this day is any type of certification 
that there may be places that you should look for documents. 
And I'm being--you know, I'm dancing around this--that would be 
the e-mails that are under consideration. There does not appear 
to be a sort of an official statement that there may be places 
that you do need to look. Perhaps this is something that could 
be provided to us.
    Ms. Nolan. Mr. Wilson, if I may interrupt for a second 
since I think you're asking for something from our office. What 
is it that you would like us to provide to you?
    Mr. Wilson. Well, just as in the past we received 
certifications that to the best of your knowledge documents 
have been produced, though we have to live in the framework of 
statements made by White House counsel and others about what's 
going on here, it would be helpful to us to have some type of 
official recognition that there are materials or there are at 
least documents that need to be searched for responsiveness. 
That's obviously not a representation that there's anything 
there but at least a representation that there are documents 
that need to be searched for responsiveness and I guess that's 
a request that we're making of you now. And we can discuss that 
later.
    Ms. Nolan. Certainly, Mr. Wilson. I just want you to know 
that one of the things we've been doing is going back to 
collect all previous investigative requests and identify for 
ourselves what requests might have covered the MAIL2 or letter 
D problems and identify those so that we can then know, have 
the entire universe of searches that need to be done and we 
would certainly notify this committee and other investigative 
bodies once we've completed that list.
    Mr. Wilson. This may not be the time or place to have this 
exchange but is there a current plan to prioritize searches 
that the White House counsel's office has developed?
    Ms. Nolan. Our plan is to work in coordination with the 
relevant investigative bodies to come up with a list of 
priorities.
    Mr. Wilson. OK. I only ask that because that process has 
not yet begun.
    Ms. Nolan. My understanding is that some people have made 
some initial identification of what they think would want to be 
done. But we've been quite clear that we cannot set priorities 
until it's done through the counsel's office with the 
investigative bodies.
    Mr. Wilson. That sounds somewhat like an elective process. 
It sounds like your putting the ball in our court to now 
provide----
    Ms. Nolan. No. No. No. We will notify when we're ready to 
make those priorities so that you can participate in those 
discussions. I'm not expecting you to think you need to come 
forward.
    Mr. Burton. Mr. Nionakis, you said, I think, that you 
didn't know about the e-mail problem or were not made aware of 
it until when, February of this year?
    Mr. Nionakis. 2000, yes sir.
    Mr. Burton. How long have you been the White House 
counsel's office?
    Mr. Nionakis. Since early March 1997.
    Mr. Burton. 1997. And you worked closely with Ms. Mills and 
Mr. Ruff?
    Mr. Nionakis. They were my superiors, yes.
    Mr. Burton. You never heard anything about the e-mails or 
knew anything before the problem until February of this year?
    Mr. Nionakis. That's correct, sir.
    Mr. Wilson. Ms. Nolan, I would just like to followup on 
something that we discussed at the last hearing and this is one 
reason it's very helpful for you to have returned. You 
indicated to us that you would investigate the e-mail matter 
and I'm wondering whether you've made any inquiries as to what 
the search terms were that were used back in 1998 when the 
problem was first discovered.
    Ms. Nolan. Mr. Wilson, I do not know what the search terms 
were. I've not been able to identify them. We were able to 
locate the materials and provide them to the independent 
counsel, who now has them and is finishing that investigation, 
conducting that investigation.
    Mr. Wilson. Is it fair to say that you have gone to all of 
the relevant places and asked all of the relevant people and 
they've simply been unable to identify what the search terms 
from 1998 were?
    Ms. Nolan. I have not been able to identify who asked for 
the search to be done or what the search terms were and I've--I 
or my staff have asked I think everyone we could think of.
    Mr. Wilson. Now, if we can just turn for a moment to the 
privilege log that was produced and I know that Mr. Nionakis 
made a representation that it was a draft log, but one of the 
difficulties we confronted and it's been an ongoing concern of 
ours over the past 2 years----
    Ms. Nolan. I'm sorry, Mr. Wilson, do we have the privilege 
log here?
    Mr. Wilson. I can provide you a copy. I'm not sure if it's 
an exhibit. I didn't want it in the book. If you could wait 
just one moment we'll have a copy brought down to you.
    I looked down. Did you get the copy of the privilege log. 
They disappeared. Ms. Nolan, while we're waiting one of the 
questions I was going to ask at the end was whether or not the 
Department of Justice has interviewed either yourself or 
members of your staff. Have interviews been conducted of your 
staff?
    Ms. Nolan. I have met with the Department of Justice 
regarding this matter. They've not interviewed me. And they 
have requested interviews of certain members of the staff. And 
I believe my staff is coordinating with them to make those 
available. I don't know which ones have been accomplished yet.
    Mr. Wilson. So those will take place at some point in the 
not too distant future?
    Ms. Nolan. You would have to ask the Department of Justice 
when they'll take place but the ones that have been requested 
are being set up, yes.
    Mr. Wilson. If we could hopefully now--do you have a copy 
of the privilege log? If you take just a moment and look at 
that.
    Ms. Nolan. Sure.
    Mr. Wilson. I'm not going to ask any detailed questions. I 
just want to ask about the subject of executive privilege 
claim. In my experience claims of executive privilege are quite 
extraordinary. I know that President Ford made one such claim, 
President Carter made one executive privilege claim. President 
Reagan made 3 claims, President Bush made 1 claim, President 
Clinton has made 14 claims. Now, this stands for the 
proposition that it's quite rare to claim executive privilege.
    And I guess what I'm looking at here, having looked at 
these documents that have been submitted to us and I know that 
privilege was not claimed for them, but they were withheld from 
us subject to privilege initially. Many of these documents 
don't appear to come even close, remotely close to qualifying 
for executive privilege status. For example, there was what 
appears to be a handwritten note by the counsel, not even White 
House counsel but the Office of Administration counsel, about a 
document that was discussed at our previous hearing and the 
extent of the document is not great as it has the document 
number and a few other words on it. And it's--I'll characterize 
this but it's obviously vexing to us to see documents like that 
put under a subject of executive privilege claim. From our 
perspective it would be easier just to get those documents with 
a little bit less difficulty. My question, and I'm rambling 
here, but my question is did the White House have any 
consultation with the Department of Justice before it submitted 
the privilege log to us?
    Ms. Nolan. We did not have consultation with the Department 
of Justice before we submitted the privilege log. I should tell 
you that the normal process here which I'm aware of from my 
time in government service starting in 1981 at the Justice 
Department is that agency general counsels normally make 
initial determinations about what they think may be subject to 
privilege. They then engage in discussions and what is the 
constitutional accomodation process with the relevant 
congressional committee.
    And when at the point at which accommodation may not be 
succeeding the Department of Justice is often then brought 
there to determine whether there should be in fact a formal 
assertion of executive privilege. So this was at the very start 
of the process, not a place where we normally would engage the 
Department of Justice unless we had some peculiar issues.
    And I would disagree with your characterization here. What 
these were were attorney work product either in preparation for 
this investigation or after the matter was discovered and the 
lawyers knew that there would be such an investigation. These 
weren't documents about the discovery of the MAIL2 problem at 
the time. They were in fact the documents of the lawyers 
preparing for an investigation, classic attorney/client or 
attorney work product as subsumed in executive privilege for 
the executive branch, the kind of thing that is routinely put 
on a privilege log and then discussed with the committee in 
which the executive's interest in keeping those documents 
confidential is balanced against the committee's legitimate 
needs to receive the information.
    Mr. Wilson. I understand your concerns. I do understand the 
valid concerns of attorney work product or attorney/client 
privilege aspects but executive privilege claims should be made 
sparingly and we would take them with a great deal of 
seriousness and from our perspective it appears that there's a 
cheapening of the executive privilege claim when there's almost 
a blanket referral to all documents as potentially subject to 
executive privilege.
    Now I understand from your answer you can extrapolate all 
documents that go to executive privilege ultimately but it 
appears that some of these didn't come close to a serious claim 
of executive privilege.
    Ms. Nolan. I completely disagree, Mr. Wilson. First of all, 
these were 7 documents out of over 4,000 that I believe we've 
provided to you. So the place where I had concern was where the 
executive might be in the position of revealing not information 
about the committee's quite appropriate area of inquiry, but 
instead information about how the executive was preparing to 
respond to the investigation. That that would get into micro 
management, into the internal deliberations of the executive 
branch, that that is exactly the kind of thing that calls for a 
discussion between the committee and the relevant executive 
agency, in this case the White House and the Office of the 
Counsel to the President. That's exactly what this does. This 
log is an invitation to talk. And that's what we wanted to do.
    Mr. Wilson. We appreciate that. I don't dispute what you 
say there. I just have one very brief subject left and that is 
documents that have been produced to us, some of the witnesses 
we have talked to have indicated that they have received sets 
of documents in advance of interviews or appearances here 
before this committee. And I'm wondering whether you know of 
documents being produced to any potential witnesses, any type 
of potential witness in this e-mail matter.
    Ms. Nolan. You know, I certainly saw documents before I 
came up and testified. I don't know if that's what you mean but 
I certainly saw some of the documents that our office had 
produced or had discovered as part of my investigation. I'm 
not----
    Mr. Wilson. Let me take that a little bit further. Do you 
know of any documents being produced to anybody who was not an 
employee of the White House?
    Ms. Nolan. I don't think so, but you might be able to 
refresh my recollection. That's--you know, I can't think of a 
specific example now.
    Mr. Wilson. If you can't you can't. I understand that.
    Ms. Nolan. It may be that some former employees were 
provided information.
    Mr. Wilson. That's what I'm driving at actually. I'm 
driving at former employees and not necessarily the White House 
but the Office of Administration. Do you know whether any 
former employees of either the White House or the Office of 
Administration were provided with any documents by the White 
House?
    Ms. Nolan. I don't believe I know that that was the case, 
no. I can't think of any such examples. The only reason I'm 
hesitating, Mr. Wilson, is it would not surprise me if a former 
employee was provided with one of his or her own documents, 
something like that. I don't know if that happened but I think 
I would not take particular note of it. So I might have learned 
of it.
    Mr. Wilson. I understand. Nor would we, I believe. But it's 
our understanding that much wider categories of documents you 
know, many of the documents we've been looking at are e-mails 
and it appears to us that documents that may be other people's 
e-mails to other individuals have been provided to potential 
witnesses in anticipation of their either interview or 
testimony before us.
    And my simple question would be, would that be 
inappropriate to provide information that was not germane to 
that particular person, say somebody else's private e-mails. We 
got them because we subpoenaed them but what I'm asking you and 
I'll ask both of you would it be appropriate to provide an e-
mail that party A sent to party B to person C, would that be 
inappropriate for the White House or the Office of 
Administration to do that?
    Ms. Nolan. Mr. Wilson, I think you would have to see the 
specific example. It would depend on whether somebody had 
authorized it, it might depend on whether it was something the 
person had probably previously seen but didn't have a copy of. 
So I don't know that I can answer the question in the abstract.
    Mr. Burton. Counsel, our time has expired. The ranking 
minority member, Mr. Waxman, is recognized for 30 minutes.
    Mr. Waxman. Thank you, Mr. Chairman. I want to start off 
with two points: One, how accommodating this White House has 
been in trying to get documents to this committee that have 
been requested, even documents for which I think there's an 
argument that there is no reason for you to have to turn them 
over. I must say I agree that executive privilege ought to be 
used sparingly but there are times when documents ought not to 
be turned over to Congress appropriately, whether it's 
deliberations with the President and his staff or people within 
the executive branch. I don't think that ought to be made 
public. I don't think that ought to be turned over to the 
Congress. I don't want that to be used as an excuse to refuse 
to turn over documents and it seems to me you have not made 
that excuse. You've been very forthcoming in getting 
information to us.
    And the second point I want to make is we just had a half 
hour of questions from our committee counsel of you that could 
have been asked without having you come down here for a 
hearing. There was nothing that was asked that I don't believe 
couldn't have been discussed and resolved in a conversation on 
the phone. Yet you had to drop everything that you're doing to 
be here to answer these questions. And I just would hope that 
in the future the majority would try to work things out through 
discussions and mutual accommodations than to have your 
schedule disrupted, all of the members--well, there aren't that 
many but those members that are here and the press, and there 
aren't many of them either, have to take all the time to be 
here to go through this whole issue.
    I want to contrast what is happening here with what I 
experienced when I chaired a subcommittee and we had the Bush 
administration in power. I was very involved in environmental 
issues. And in the environmental area the law was often written 
to require the Environmental Protection Agency as the agency in 
charge to write the appropriate regulations. They had to do it 
pursuant to the Administrative Act, the Administrative 
Procedure Act. They had to follow certain protocols, they had 
to have documents on the record. And then their opinions could 
be challenged if they didn't have sufficient base in the record 
for the conclusion they reached. That was the way the law was 
written, that's the way the law was supposed to work.
    Well, there was a group called the Competitiveness Council. 
And that was an organization that was not in the law at all, it 
was something that Vice President Quayle had organized. And 
this Competitiveness Council met with the industries that were 
affected by regulations. And these industries would lobby Vice 
President Quayle and his staff to intervene in these 
deliberations by the Environmental Protection Agency to give 
the industries a break. They shouldn't have to reduce pollution 
so much. They shouldn't have to spend money to meet the 
requirements of the Clean Air Act or other environmental laws. 
I thought this was an extralegal, if not illegal action on the 
part of the administration at that time.
    We requested documents from the executive branch and we 
kept on getting stonewalled by them. So I was surprised to hear 
the counsel talk about the number of times that executive 
privilege was used by the Bush administration. Maybe they 
didn't use executive privilege but they stonewalled us every 
step of the way. They wouldn't even tell us what businesses and 
industries wrote to them requesting that they intervene with 
the regulatory agencies. This is obviously no privilege in any 
way that I could understand it in terms of internal 
deliberations within the White House. But they wouldn't even 
give us that information.
    And yet you're now being asked and have complied with 
information that regards the internal deliberations of the 
White House counsel's office.
    So I think it is quite remarkable to compare any criticism 
of your office where you sometimes draw a line and say there 
are some things that need not and should not be turned over to 
Congress, compared to the Bush administration where they drew 
that line very, very broadly and I think misused their powers.
    Now, you were here, I guess, 3 or 4 weeks ago on this whole 
issue of the data base so--how many hours were you here; do you 
recall?
    Ms. Nolan. I think it was about 6.
    Mr. Waxman. Six hours.
    Ms. Nolan. Well, I had lunch.
    Mr. Waxman. Your day had to be devoted basically to being 
here answering questions. In addition to that, you had to 
review all of the information in preparation for it, and I am 
sure after you left, you had a huge headache which required at 
least a couple of hours to get over before you went back to 
work. There will probably be some time for all of the things 
that you didn't do that day as part of your job as the White 
House counsel, because basically that is what this hearing is 
all about.
    These series of hearings are to criticize people in the 
White House counsel's office for not having paid enough 
attention to one issue that wasn't really that visible at that 
time when they were dealing with so many other issues before 
them.
    I want to start by asking you again this Mail2 
reconstruction process, it is an issue over which there is some 
confusion. The chairman has accused the White House of trying 
to delay the reconstruction of the Mail2 e-mails until after 
the election in November. He stated that the White House was 
trying to, quote, run out the clock.
    Ms. Nolan, do you think that accusation is accurate?
    Ms. Nolan. I do not.
    Mr. Waxman. Why not?
    Ms. Nolan. We have spent--since coming to understand the 
Mail2 and letter D problem, we have spent a huge number of 
hours to try to resolve the problem. We are working very hard 
at getting the problem resolved. I have attended meetings with 
the Office of Administration and contractors. It is very 
unusual for the White House counsel to be talking to 
contractors to the Office of Administration, but I have gone to 
those meetings to make sure that everybody understands what a 
high priority this is, how important it is that we think 
creatively about ways to get it resolved.
    If we could get these e-mails searched tomorrow, I would be 
thrilled about it.
    Mr. Waxman. When do you anticipate that we will be getting 
these e-mails before our committee?
    Ms. Nolan. What I have been told is that we can start to 
expect to do searches next month, and we will do that on a 
rolling basis.
    Mr. Waxman. Mr. Lindsay testified today that decisions 
about what materials will be produced first will be made by the 
White House counsel's office in consultation with our committee 
and other investigative bodies; is that an accurate statement?
    Ms. Nolan. That is absolutely accurate.
    Mr. Waxman. So you are going to produce these e-mails and 
going back over the whole data base and pulling out the e-
mails, and you will give them to our committee and the other 
investigators, and you are even going to take into 
consideration what we consider or what the majority and 
minority consider the highest priority for e-mail information?
    Ms. Nolan. We will identify what tapes should be searched 
first, and we will make that determination in concert with the 
relevant investigative bodies.
    Now, I understand that those bodies may have disputes about 
what they want to have searched first. This is a situation 
where I think we will accommodate whatever agreement can be 
reached by the investigative bodies. I don't have a particular 
interest in which one it is so much as I have an interest in 
making sure that we are able to get those things that people 
identify as the highest priorities searched first.
    Mr. Waxman. I wanted to know if there are any e-mails on 
Monica Lewinsky because I don't think that the Starr report 
went into enough detail for me. I think there is more for us to 
know; and once we know it, we will certainly have enough 
information on Monica Lewinsky.
    That was sarcasm.
    Ms. Nolan, I understand that Mr. Burton sought the 
appearance of one of your staff members, Mr. Nionakis, who is 
here, to explain decisions made by your office regarding the 
production of certain items requested by the committee. I also 
understand that you attempted to reach Mr. Burton and his staff 
to discuss this request. Is that accurate?
    Ms. Nolan. Yes, that is correct, and I want to say, Mr. 
Waxman, that Mr. Wilson and I were able to speak last night 
several times, including once late in the evening. He was able 
to confer with the chairman this morning, and in those 
conversations I said that if there were going to be questions 
about our office's decisions regarding privilege or production 
of documents, that I as the counsel wanted to answer that 
rather than have one of my associate counsels answer those 
questions since those are decisions of the counsel's office and 
decision of the counsel.
    Mr. Wilson and the chairman accommodated that request. We 
had some misunderstanding about whether we were going to be 
able to speak; but once we did, they accommodated that request, 
and that is why I am here.
    Mr. Waxman. I am very pleased to hear that, and I want to 
commend the chairman for reaching that understanding. It is 
only reasonable if someone wants to question the decision I 
made, I don't want them subpoenaing my staff people that gave 
me differing points of view. They ought to question me as to 
how I decided and why I decided. Otherwise people work for you, 
and they give you different opinions, they are going to feel 
intimidated about giving you their best judgment if they think 
that you have to go through all of the deliberative process of 
everyone that works for you having to come before the Congress 
and testify under oath as to what they said and their 
perspective. Is that----
    Ms. Nolan. That is exactly right.
    Mr. Waxman. I appreciate that the chairman was sensitive to 
it, and I am sorry that it took until last night. Maybe if you 
had a further opportunity, you would not have had to come here 
at all, because what we really needed was for you to have a 
chance to talk to each other and clarify these issues.
    Ms. Nolan. I think Mr. Wilson and I agreed, and I hope that 
he conveyed this to the chairman, that I hope these are the 
kinds of conversations that we will be able to continue having 
whenever necessary before we get involved in calling people up 
to testify. I think we will be able to do that and work 
together.
    Mr. Waxman. I am glad you made that point, and I think it 
is very forthcoming on your part, and I am pleased to hear that 
they responded in the conversation last night. May this be the 
beginning of a wonderful relationship. And let's do our jobs in 
a professional manner, but to have you come back 3 weeks after 
you spent 6 hours here to answer questions which could have 
been answered in a telephone conversation strikes me as an 
unfortunate waste of your time and ours. Our time is all being 
paid for by the taxpayers, and they ought to feel that their 
money is not being wasted.
    In a May 3 letter to the chairman, you expressed concern 
about this issue, and I would like to have that letter in the 
record. I think there was a May 3--May 2 and May 3 letter to 
the chairman, and perhaps his letters to you all ought to be 
part of this hearing record.
    Mr. Chairman, if you have no objection, I would like to ask 
unanimous consent.
    Mr. Burton. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.633
    
    [GRAPHIC] [TIFF OMITTED] T9621.634
    
    Mr. Waxman. Your May 3 letter noted that there historically 
has been a view that accommodation is an important part of this 
process of inquiries between branches of government. Your 
understanding is consistent with that of the previous 
administration's. As your letter noted, in 1989, then Assistant 
Attorney General William Barr stated, and I want to quote your 
quote of his quote--Mr. Barr, the Attorney General, said, the 
process of accommodation requires that each branch explain to 
the other why it believe its needs to be legitimate. Without 
such an explanation, it may be difficult or impossible to 
assess the needs of one branch and relate them to those of the 
others. At the same time requiring such an explanation imposes 
no great burden on either branch. If either branch has a reason 
for needing to obtain or withhold information, it should be 
able to express it.
    Ms. Nolan, do you believe that this committee has allowed 
the White House's counsel office with appropriate opportunity 
to express its reason for recent requests from this committee?
    Ms. Nolan. Mr. Waxman, I was trying to do that over the 
past several days. I was frustrated that I did not feel that we 
were engaging in the accommodation process. I think we had a 
very helpful conversation with Mr. Wilson last night, and I 
think we have come to an agreement which I hope we will have a 
beautiful relationship in which we will engage in the 
accommodation process when we have concerns.
    I understand, and I am sure this committee agrees with me, 
that there are going to be great disagreements about some 
matters, and they will be disagreements that sometimes may be 
quite vigorous, but I think as long as we are forthcoming about 
them, identify, as we did in this privilege log, what documents 
we are concerned about and talk about, I hope that we can reach 
a resolution, as we did here.
    Both of the documents on the privilege log and the other 
set of material, the e-mails that have been requested, I did 
provide. When I hadn't been able to reach the chairman or Mr. 
Wilson, I decided to just go ahead and send them on Tuesday. So 
they have been provided to the committee, so we are now simply 
talking about a log that really no longer--it is a draft that 
never became a final because we ended up providing the 
documents.
    Mr. Waxman. There are legitimate differences between the 
branches, and those things need to be worked out and discussed. 
There are differences between the political parties, but we 
ought to try to find out if there are places for 
accommodations. And if there are disagreements, it doesn't mean 
that one side is disloyal to this country and the other side is 
true blue American. We have differences of opinion by people 
who both love this country and support its Constitution and its 
institutions.
    And I haven't heard very often praise from the other side 
of the aisle, praise of what any Democrat has said, but I want 
to praise what a Republican has said, and that is Mr. Barr. And 
I disagreed with him a lot when he was a Republican Attorney 
General during the Bush administration. I disagreed with him on 
a lot of issues, but I think his position, as you quoted him, 
expresses the basis for the two branches trying to understand 
each other. If one branch wants some information, we ought to 
be able to, if it is us, to explain why we feel we need it. And 
if the executive branch feels that there is some reason that 
you shouldn't give it, you ought to be able to explain that, 
and we will work through the process if it comes to a 
confrontation. But I don't see the need for constant partisan 
confrontation. I think we could be spending our time in so much 
more of a productive way.
    I was so impressed by Cheryl Mills' statement to this 
committee this morning. I would recommend the text of it to you 
if you have an opportunity in your spare time to read it, 
because what she said to us in a very heartfelt way is that 
there are problems. And this committee which has jurisdiction 
for oversight and investigations on any problem facing this 
Nation could be looking into some of these real problems, and 
we have spent so much of our time in partisan--partisan kind of 
fights, investigations that are one-sided.
    This committee had a campaign finance investigation. Did we 
look into abuses of campaign finance laws by Democrats and 
Republicans? No, it was an investigation of presumed abuses by 
Democrats, some of which were real, and it was only about 
Democrats. Does anyone believe that campaign laws are only 
abused by Democrats? And yet this committee refused to even 
look at those allegations of concern where Republicans may have 
stepped out of bounds.
    I think we are all moving to better a situation because 
yesterday the chairman agreed with us and made accommodations 
that we are going to get the Justice Department 302s in some of 
those Republican campaign finance issues where they did some 
interviews with people who may well have something to--
something to say that may be relevant on the accusations about 
Republican campaign finance abuses.
    But there are so many other problems we ought to be dealing 
with. I am at the point where I would be welcoming this 
committee to look at Elian Gonzalez, because we have had four 
hearings on this issue, and we have about exhausted it. Maybe 
we will have more. I would like us to look at the high prices 
of prescription drugs that the elderly pay because Medicare 
doesn't pay for it. I would like us to look at environmental 
problems, some of which I think cause the high rate of cancer 
in this country. I would like us to look to see if there is an 
innovative way that we can improve the education system in this 
country so we can educate our children to compete in a new 
global economy. I would like to look at international problems 
to see if we can make this a safer planet and reach out to 
other countries to give incentives for people to try to find 
areas of agreement internationally.
    I think there is a whole plethora of issues that we could 
be talking about, but what we have done in four hearings is we 
took a data base system that the White House contracted to have 
created to capture the e-mails in order to archive them for 
historical purposes, and after that contract was let out for 
these archiving of the e-mails and retrieval of them to be 
archived, it turned out that the contractor ended up making 
some technical mistake, and some e-mails were not being 
captured. When it was discovered, people moved to correct that 
problem, and it was corrected prospectively.
    Now the issue that we are faced with in four hearings so 
far was whether there were lost e-mails retroactively. It 
appears that the White House counsel's office thought that all 
of the e-mails that the investigators who wanted e-mails were 
turned over to them because there are other ways to get the e-
mails off the individual computers as well as the centralized 
system, and that may not have been the case. But to assume that 
it is a conspiracy and obstruction of justice, perjury and all 
of the others things thrown so loosely around this committee, 
everyone else is guilty of a crime if there is some mistake 
made, can't help but lead to an exacerbation of the problems 
between the branches and between the parties, and it has kept 
us from looking at areas where we could be together dealing 
with the real concerns of the American people.
    You have been here for a number of hours, and I see that 
Mr. Shays is ready to ask you more questions, as is appropriate 
under the rules. We may have other questions as well. We will 
ask all of the questions that anybody might want to ask you of 
you, and I hope in the future the spirit in which you undertook 
conversations with the majority on our committee last night 
will lead to ways to get to the basic information we want 
without disturbing everybody's schedule and wasting our time 
and wasting taxpayers' money so we can get to the information, 
get to it in the most efficient possible way and find out if 
there is wrongdoing.
    If there is wrongdoing, I don't care if it is Democratic or 
Republican wrongdoing, if there is a criminal violation, it 
should be prosecuted. If somebody makes an accusation and it 
turns out to be wrong, they should apologize. We should let the 
truth speak for itself and not simply go from one accusation to 
another.
    Obviously I have taken a lot of my time because each side 
is given a half hour. I don't have anything else to ask you. I 
am going to yield back the balance of my time. I hope that at 
some point we can conclude this hearing that has gone on far 
longer than I think is necessary.
    Mr. Burton. Mr. Shays.
    Mr. Shays. I know that is encouragement on your part, the 
gentleman from California not to ask questions, but I haven't 
asked questions of this panel yet.
    Mr. Waxman. That is not the case.
    Mr. Shays. It sounded that way. I guess I misinterpreted 
it.
    Ms. Nolan, I am curious why you are here today. Why did you 
feel that you needed and wanted to be here?
    Ms. Nolan. Mr. Shays, my understanding was that the 
committee wanted to ask questions about the office's decision 
to put items on a privilege log or its interpretations of the 
subpoena. Those are decisions of the counsel's office and of 
the counsel, and my understanding also is that the past 
practice has been when similar questions were put to associate 
counsel by this or other committees, Mr. Ruff had sat and 
answered those questions rather than having the associate 
counsels do that. I asked for the same treatment, and the 
chairman granted it.
    Mr. Shays. Just for the record, you are here because you 
wanted to be here?
    Ms. Nolan. I am here voluntarily.
    Mr. Shays. We did not ask you to be here?
    Ms. Nolan. That is absolutely correct. What you did, do, 
however, was ask someone who I did not think should be asked to 
appear here to answer those questions. I tried to reach an 
accommodation with the committee about getting the right person 
to answer the questions.
    Mr. Shays. I don't want Mr. Waxman or anyone else to 
suggest that we asked you to come again. Frankly, you made it 
clear to us that you started in September last year?
    Ms. Nolan. That's correct.
    Mr. Shays. So all of the questions about what happened in 
June 1998, you were basically telling us that you knew nothing 
about it.
    Ms. Nolan. No, I came to answer those questions about the 
privilege that we discussed.
    Mr. Shays. I understand. I am just explaining to you.
    Mr. Nionakis, you have worked in the White House since 
when?
    Mr. Nionakis. Since March 1997.
    Mr. Shays. You were sworn in, correct?
    Mr. Nionakis. That's correct.
    Mr. Shays. The reason you are sworn is because then you 
have a legal obligation to tell the truth; is that correct?
    Mr. Nionakis. That's correct.
    Mr. Shays. So if we picked up the phone and said, by the 
way, did you happen to get any--for instance, did you see this 
document that talked about the 246,000 e-mails that slipped by 
under the Mail2 problem, you could have said, no, I don't know 
anything about it, it would be a meaningless statement under 
law if we did it by phone; isn't that correct? Or whatever you 
said by phone, it would have no legal standing, would it?
    Mr. Nionakis. I would try and answer honestly and 
accurately.
    Mr. Shays. I respect that, but the point is this is an 
investigation in which we need to swear you in. Unfortunately, 
you are here because we needed to swear you in. When you said 
that you didn't know anything about this problem until February 
of this year, you did it under oath?
    Mr. Nionakis. That's correct.
    Mr. Shays. That is why you are here. We had questions that 
had you answered differently, and we had no way of knowing 
under oath how you would have answered, we would have asked you 
other questions. That is why you are here, and it doesn't take 
a rocket scientist to know that.
    You also wrote a puzzling letter to the committee, and I 
think you know what letter it is. It is the letter of April 28, 
exhibit 139. Maybe there is an answer for it, but it sure 
puzzles me. I will give you time to look at that letter. It is 
from you, I believe, and it is addressed to our counsel, James 
Wilson.
    [Exhibit 139 follows:]
    [GRAPHIC] [TIFF OMITTED] T9621.635
    
    [GRAPHIC] [TIFF OMITTED] T9621.636
    
    Mr. Nionakis. OK.
    Mr. Shays. Would you read out loud paragraph 4 for us.
    Mr. Nionakis. ``The general language of the subpoena calls 
for all documents relating to the `Mail2' programming error. 
The Lewinsky related e-mails, while gathered after the `Mail2' 
error was discovered, are unrelated to that error. They were 
gathered in response to a subpoena request from the Office of 
Independent Counsel Starr, and therefore pertain to a distinct 
matter by a different investigative body.''
    Mr. Shays. What did you mean when you said, ``The Lewinsky 
related e-mails, while gathered after the `Mail2' error was 
discovered, are unrelated to that error?'' What do you mean by 
that?
    Mr. Nionakis. I will defer that question to Ms. Nolan.
    Mr. Shays. I am happy to have you defer it, but this letter 
is from you. We will let Ms. Nolan answer it, but could you 
explain to me what you meant when you wrote the letter? I don't 
want to know what Ms. Nolan meant, I want to know what you 
meant.
    Ms. Nolan. Mr. Chairman, I believe this is exactly the kind 
of question with respect to what our office's position was with 
respect to these documents that we agreed could be answered by 
me.
    Mr. Shays. Could I say I am happy to have you answer it, 
but could I have Mr. Nionakis answer it because he wrote the 
letter and let you qualify it or change it. Is that a problem?
    Ms. Nolan. I believe what we agreed to, and I explained to 
Mr. Wilson----
    Mr. Shays. I will go with the agreement. Let's go with the 
agreement.
    Mr. Nionakis. Mr. Nionakis, did you write this letter?
    Mr. Burton. Excuse me. I think Mr. Wilson has indicated 
that it is not his understanding----
    Mr. Shays. I can live with it. Did you write this letter?
    Mr. Nionakis. I drafted it.
    Mr. Shays. So this is your letter?
    Mr. Nionakis. No, I drafted it, and other people reviewed 
it.
    Mr. Shays. And did you sign it, or did other people sign 
it?
    Mr. Nionakis. I signed it on behalf of the office.
    Mr. Shays. So you wrote it, you let other people look at 
it, and then you signed it, and yet we will have other people 
answer. I am happy to have you answer, Ms. Nolan.
    Ms. Nolan. Thank you, Mr. Shays.
    The e-mails that were produced were simply the contents of 
e-mails that had been sent between Monica Lewinsky and someone 
in the EOP. They reveal nothing about, show nothing about the 
Mail2 problem; and moreover, when I was here last, the chairman 
himself indicated that he intended to issue a subpoena for 
those documents. He had never done so. He never informed me 
that he believed that the preexisting subpoena called for them, 
and the first we had heard of that was a voice mail left by Mr. 
Wilson last week that said, and we consider these e-mails to be 
covered by the subpoena.
    The view that our office took was that they weren't covered 
by the subpoena; in fact, that the chairman wouldn't have 
indicated he intended to subpoena them if he thought that they 
were covered then. So we wrote that we did not believe that 
they were covered by the subpoena. Instead of getting a phone 
call, getting a question, asking for discussion about it, Mr. 
Nionakis got a letter from the chairman saying, I am going to 
subpoena you.
    Mr. Shays. Mr. Nionakis, in the letter that you wrote and 
drafted and signed, you said that these Lewinsky e-mails were 
unrelated to the error. Would you explain to me why they are 
not directly related to the error?
    Ms. Nolan. Mr. Shays, we just explained what our office's 
view was about why they weren't related.
    Mr. Shays. You didn't say whether they related to the 
committee.
    Ms. Nolan. Related to the error. They are e-mails that have 
nothing to do with the error. They are not about the search. 
They are simply e-mails the contents of which reveal nothing by 
themselves.
    Mr. Shays. So these e-mails are in no way related to the 
search that was done afterwards?
    Ms. Nolan. It was our view that they were not called for by 
the subpoena.
    Mr. Shays. You all want to get into legalistic terms. I 
just want to know the truth.
    Ms. Nolan. There is not necessarily a difference, sir.
    Mr. Shays. Maybe there won't be, and maybe in the end I 
will agree with you, but I don't want you to confuse me in the 
process.
    After the White House learned that there was a Mail2 
problem, Mr. Nionakis, when you all learned that--and he was 
here before you, Ms. Nolan--when you all learned that, 
evidently you made a test to see how big a problem it was. Were 
any of these e-mails related to that test?
    Mr. Nionakis. I did not participate in that search.
    Mr. Shays. You know now, though. Were they related?
    Ms. Nolan. Those were the e-mails, Mr. Shays, that were 
uncovered. They don't reveal anything about the Mail2 problem.
    Mr. Shays. Wait a second. Maybe you are right about this, 
but we just had testimony that in order to see how serious this 
problem was, we did a test, and the test was with Ms. Lewinsky, 
and that satisfied us that there wasn't a problem. Are these 
those e-mails? It is a yes or no.
    Ms. Nolan. Those are the e-mails, I believe, that were 
produced and checked.
    Mr. Shays. That's all. That's all. We just wanted to see 
the e-mails related to the test. And they are very related to 
the subject of this hearing about the e-mails. And the 
committee wants to know what you tested and what you found. How 
can you say that they are not related to the test and not 
related to the work of this committee?
    Ms. Nolan. Mr. Shays, the independent counsel is reviewing 
what was produced against that list. I don't think having those 
e-mails enables the committee to make that determination. But 
in any event--and I believe, as I said, that the chairman had 
indicated his determination that they weren't covered by the 
previous subpoena. But, in any event, I determined that the 
committee could ask for them and that rather than have a 
dispute about it, I would just provide them. So on Friday we 
notified the committee that we did not consider them covered, 
and on Tuesday we provided them to the committee.
    Mr. Shays. I know Mr. Waxman thinks you cooperate, but to 
me this is like a ridiculous game. The committee has learned of 
hundreds of thousands of e-mails that have been lost. That is 
what we learned. And we wanted to know, one, how it happened, 
and we are pretty satisfied it was an accident. We also learned 
that it took another 5 months to fix, so the problem got worse 
before it got better. We also learned that nobody in the White 
House notified us, and then we wanted to know who knew what 
when. And everybody has their own little compartmentalized 
story. And then we get a letter that basically says these are 
unrelated to the error in Mail2, and they are totally related.
    Mr. Nionakis, you may have drafted the letter, and maybe 
somebody has to answer for you, but it just blows my mind that 
you would have said that.
    Mr. Burton. The gentleman's time has expired.
    Mr. Waxman.
    Mr. Waxman. I am puzzled because Mr. Shays is asking Mr. 
Nionakis about these letters and these e-mails, and you are 
arguing about whether they are related or not related. Why 
didn't you give them to the committee?
    Ms. Nolan. We provided them to the committee. We gave them 
on Tuesday.
    Mr. Waxman. So we now have the e-mails?
    Ms. Nolan. You now have the e-mails and the ZIP disk.
    Mr. Waxman. So we can read those e-mails?
    Ms. Nolan. Yes.
    Mr. Waxman. And we will probably make them part of the 
record. Maybe they are already part of the record. That I will 
leave up to the chairman.
    Mr. Burton. Would the gentleman yield?
    Mr. Waxman. Certainly.
    Mr. Burton. We have no interest in the Lewinsky matter, 
only the e-mail problem, so there is no reason to make them 
part of the record.
    Mr. Waxman. I would dispute you on that.
    So the question is that you wrote this letter, Mr. 
Nionakis, and said that the general language for the subpoena 
calls for all documents relating to the Mail2 programming 
error. The Lewinsky e-mails, while gathered after the Mail2 
error was discovered, are unrelated to that error. You can 
argue that one forever, but the essential point is that we got 
the e-mails, and we can make our own decision.
    Ms. Nolan. I think that is right, Mr. Waxman, and I think 
there are two different views about whether they were called 
for or not.
    I made a determination to accede to the committee's view 
that they were called for without having a dispute about 
whether a new subpoena was called for and provided them, and 
the committee has them. I am not sure what else to say about 
them.
    Mr. Waxman. I don't know what else to say about them 
either. If you hadn't given them to us, then there is a lot to 
talk about, whether you should have given them, whether you are 
withholding information, whether it is part of a cover-up, 
whether you are confronting Congress irresponsibly, whether we 
have a different point of view than you do on executive; but 
that has nothing to do with anything. Whether you think that we 
are entitled to it or not, you decided to give it to us?
    Ms. Nolan. That's right.
    Mr. Waxman. And we have got them?
    Ms. Nolan. You have got them.
    Mr. Waxman. That is good enough for me. I yield back the 
balance of my time.
    Mr. Shays. Mr. Chairman.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Mr. Ruff's staff thought they revealed that 
there was--you basically said that they revealed nothing, they 
showed nothing about the Mail2 program; and Mr. Ruff was 
telling us that having done this, he revealed there was no 
problem, at least he thought it was taken care of. So he 
thought that these Lewinsky e-mails showed that there really 
wasn't a problem, and you are saying they reveal nothing about 
the problem.
    Ms. Nolan. Sir, I think they will reveal something to the 
Office of the Independent Counsel who has jurisdiction over 
this matter to compare what was produced to them with that 
group of e-mails.
    I think the e-mails by themselves reveal nothing about the 
Mail2 problem, provide no information to the committee. These 
are just Monica Lewinsky e-mails.
    Mr. Shays. But it was the basis, was it not, for the White 
House making a determination that they had tested the Mail2 
problem and found that there was no problem? Isn't that true?
    Ms. Nolan. That is my understanding. But the e-mails 
themselves, which is what was called for, I don't think reveal 
anything about the Mail2 problem.
    Mr. Shays. Thank you.
    Mr. Burton. Well, I think we have come to the end of the 
road.
    Mr. Nionakis. Mr. Chairman, 1 minute, please.
    Mr. Burton. Go ahead.
    Let me just say that Mr. Waxman has complained about the 
failure of the Bush administration to cooperate. I want to get 
that part of the record straight. They claimed executive 
privilege once, and the Clinton administration has claimed it 
14 times in the last 5 years, so that at least is in the 
record.
    I appreciate your statement of cooperation, Ms. Nolan, and 
I would just like to say to Mr. Nionakis, I recall when you 
worked with Mr. Ruff, you were in my office, and we were 
talking, I think, back in 1997 when I assumed the Chair of this 
committee. I believe we were talking about getting documents 
from the White House at that time, and you were part of the 
staff that Mr. Ruff brought with him to my office; is that 
correct?
    Mr. Nionakis. That's correct.
    Mr. Burton. You appeared to be one of the people that Mr. 
Ruff had a great deal of confidence and were one of his 
confidants. I am not saying that you have misled us, but that 
is why I find it difficult to believe that being a member of 
his staff and the subsequent counsel staffs, that you would not 
be aware of the e-mail problem when it came about. And you are 
saying that you didn't know about it until February of this 
year, and that kind of mystifies me because of your close 
association with Mr. Ruff and his--and Ms. Nolan and Ms. Mills.
    Mr. Nionakis. I understand, Mr. Chairman, but to the best 
of my knowledge, the first time I ever heard about this 
problem, the e-mail problem, was February 2000.
    Mr. Burton. Let me just followup on that.
    Mr. Nionakis. Yes, sir.
    Mr. Burton. Can you categorically say--and not to the best 
of your knowledge, because do you know how many times I have 
heard ``to the best of my knowledge'' and ``I can't recall'' 
and ``I am not sure''? I mean, the selective memory loss of 
people before this committee--I'm not saying you--is just 
legion, so I would like you to be more definitive.
    Can you say categorically that you did not know about the 
e-mail problem until February of this year?
    Mr. Nionakis. One moment, please.
    Mr. Chairman, I do not recall ever hearing about the e-mail 
problem prior to February 2000. I cannot categorically say I 
never did. If there is something--if you understand otherwise, 
I would be happy for you to bring it to my attention.
    Mr. Burton. That's all right. I just want to say in the 
finest tradition of the Clinton administration, we are getting 
the same answers that we have gotten from the beginning. Let me 
thank you.
    Mr. Nionakis. Excuse me, may I amplify one other answer? 
You asked about conversations with DOJ attorneys, and I am sure 
that this committee is well aware that obviously our office 
speaks to members of the Campaign Finance Task Force and their 
investigation, and they are a DOJ entity, as well as members of 
the Civil Division who represent us on various litigation 
matters where this issue has come up. So those conversations 
obviously occur, and those people are DOJ lawyers.
    Mr. Burton. I am glad you mentioned that because as we 
close, that makes another strong argument for a special counsel 
to review this whole issue, because you have got the Criminal 
Division of Justice on one side and the Civil Division on the 
other side, and how two divisions of the same Justice 
Department can conduct an investigation like that is beyond me. 
That's why once again I believe we should have a special 
counsel to review that whole matter. I appreciate you being 
here today.
    Ms. Nolan, I appreciate the olive branch that you have 
extended to Mr. Wilson and myself. We will try to work with you 
in a way that is accommodating to you, but we do want to get 
the facts when we need them, and hopefully that will occur.
    If there are no further comments or questions, we stand 
adjourned.
    [Whereupon, at 5:05 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T9621.214

[GRAPHIC] [TIFF OMITTED] T9621.215

[GRAPHIC] [TIFF OMITTED] T9621.216

[GRAPHIC] [TIFF OMITTED] T9621.217

[GRAPHIC] [TIFF OMITTED] T9621.218

[GRAPHIC] [TIFF OMITTED] T9621.219

[GRAPHIC] [TIFF OMITTED] T9621.220

[GRAPHIC] [TIFF OMITTED] T9621.221

[GRAPHIC] [TIFF OMITTED] T9621.222

[GRAPHIC] [TIFF OMITTED] T9621.223

[GRAPHIC] [TIFF OMITTED] T9621.224

[GRAPHIC] [TIFF OMITTED] T9621.225

[GRAPHIC] [TIFF OMITTED] T9621.226

[GRAPHIC] [TIFF OMITTED] T9621.227

[GRAPHIC] [TIFF OMITTED] T9621.228

[GRAPHIC] [TIFF OMITTED] T9621.229

[GRAPHIC] [TIFF OMITTED] T9621.230

[GRAPHIC] [TIFF OMITTED] T9621.231

[GRAPHIC] [TIFF OMITTED] T9621.232

[GRAPHIC] [TIFF OMITTED] T9621.233

[GRAPHIC] [TIFF OMITTED] T9621.234

[GRAPHIC] [TIFF OMITTED] T9621.235

[GRAPHIC] [TIFF OMITTED] T9621.236

[GRAPHIC] [TIFF OMITTED] T9621.237

[GRAPHIC] [TIFF OMITTED] T9621.238

[GRAPHIC] [TIFF OMITTED] T9621.239

[GRAPHIC] [TIFF OMITTED] T9621.240

[GRAPHIC] [TIFF OMITTED] T9621.241

[GRAPHIC] [TIFF OMITTED] T9621.242

[GRAPHIC] [TIFF OMITTED] T9621.243

[GRAPHIC] [TIFF OMITTED] T9621.244

[GRAPHIC] [TIFF OMITTED] T9621.245

[GRAPHIC] [TIFF OMITTED] T9621.246

[GRAPHIC] [TIFF OMITTED] T9621.247

[GRAPHIC] [TIFF OMITTED] T9621.248

[GRAPHIC] [TIFF OMITTED] T9621.249

[GRAPHIC] [TIFF OMITTED] T9621.250

[GRAPHIC] [TIFF OMITTED] T9621.251

[GRAPHIC] [TIFF OMITTED] T9621.252

[GRAPHIC] [TIFF OMITTED] T9621.253

[GRAPHIC] [TIFF OMITTED] T9621.254

[GRAPHIC] [TIFF OMITTED] T9621.255

[GRAPHIC] [TIFF OMITTED] T9621.256

[GRAPHIC] [TIFF OMITTED] T9621.257

[GRAPHIC] [TIFF OMITTED] T9621.258

[GRAPHIC] [TIFF OMITTED] T9621.259

[GRAPHIC] [TIFF OMITTED] T9621.260

[GRAPHIC] [TIFF OMITTED] T9621.261

[GRAPHIC] [TIFF OMITTED] T9621.262

[GRAPHIC] [TIFF OMITTED] T9621.263

[GRAPHIC] [TIFF OMITTED] T9621.264

[GRAPHIC] [TIFF OMITTED] T9621.265

[GRAPHIC] [TIFF OMITTED] T9621.266

[GRAPHIC] [TIFF OMITTED] T9621.267

[GRAPHIC] [TIFF OMITTED] T9621.268

[GRAPHIC] [TIFF OMITTED] T9621.269

[GRAPHIC] [TIFF OMITTED] T9621.270

[GRAPHIC] [TIFF OMITTED] T9621.271

[GRAPHIC] [TIFF OMITTED] T9621.272

[GRAPHIC] [TIFF OMITTED] T9621.273

[GRAPHIC] [TIFF OMITTED] T9621.274

[GRAPHIC] [TIFF OMITTED] T9621.275

[GRAPHIC] [TIFF OMITTED] T9621.276

[GRAPHIC] [TIFF OMITTED] T9621.277

[GRAPHIC] [TIFF OMITTED] T9621.278

[GRAPHIC] [TIFF OMITTED] T9621.279

[GRAPHIC] [TIFF OMITTED] T9621.280

[GRAPHIC] [TIFF OMITTED] T9621.281

[GRAPHIC] [TIFF OMITTED] T9621.282

[GRAPHIC] [TIFF OMITTED] T9621.283

[GRAPHIC] [TIFF OMITTED] T9621.284

[GRAPHIC] [TIFF OMITTED] T9621.285

[GRAPHIC] [TIFF OMITTED] T9621.286

[GRAPHIC] [TIFF OMITTED] T9621.287

[GRAPHIC] [TIFF OMITTED] T9621.288

[GRAPHIC] [TIFF OMITTED] T9621.289

[GRAPHIC] [TIFF OMITTED] T9621.290

[GRAPHIC] [TIFF OMITTED] T9621.291

[GRAPHIC] [TIFF OMITTED] T9621.292

[GRAPHIC] [TIFF OMITTED] T9621.293

[GRAPHIC] [TIFF OMITTED] T9621.294

[GRAPHIC] [TIFF OMITTED] T9621.295

[GRAPHIC] [TIFF OMITTED] T9621.296

[GRAPHIC] [TIFF OMITTED] T9621.297

[GRAPHIC] [TIFF OMITTED] T9621.298

[GRAPHIC] [TIFF OMITTED] T9621.299

[GRAPHIC] [TIFF OMITTED] T9621.300

[GRAPHIC] [TIFF OMITTED] T9621.301

[GRAPHIC] [TIFF OMITTED] T9621.302

[GRAPHIC] [TIFF OMITTED] T9621.303

[GRAPHIC] [TIFF OMITTED] T9621.304

[GRAPHIC] [TIFF OMITTED] T9621.305

[GRAPHIC] [TIFF OMITTED] T9621.306

[GRAPHIC] [TIFF OMITTED] T9621.307

[GRAPHIC] [TIFF OMITTED] T9621.308

[GRAPHIC] [TIFF OMITTED] T9621.309

[GRAPHIC] [TIFF OMITTED] T9621.310

[GRAPHIC] [TIFF OMITTED] T9621.314

[GRAPHIC] [TIFF OMITTED] T9621.315

[GRAPHIC] [TIFF OMITTED] T9621.316

[GRAPHIC] [TIFF OMITTED] T9621.317

[GRAPHIC] [TIFF OMITTED] T9621.318

[GRAPHIC] [TIFF OMITTED] T9621.319

[GRAPHIC] [TIFF OMITTED] T9621.320

[GRAPHIC] [TIFF OMITTED] T9621.321

[GRAPHIC] [TIFF OMITTED] T9621.322

[GRAPHIC] [TIFF OMITTED] T9621.323

[GRAPHIC] [TIFF OMITTED] T9621.324

[GRAPHIC] [TIFF OMITTED] T9621.325

[GRAPHIC] [TIFF OMITTED] T9621.326

[GRAPHIC] [TIFF OMITTED] T9621.327

[GRAPHIC] [TIFF OMITTED] T9621.328

[GRAPHIC] [TIFF OMITTED] T9621.329

[GRAPHIC] [TIFF OMITTED] T9621.330

[GRAPHIC] [TIFF OMITTED] T9621.331

[GRAPHIC] [TIFF OMITTED] T9621.332

[GRAPHIC] [TIFF OMITTED] T9621.333

[GRAPHIC] [TIFF OMITTED] T9621.334

[GRAPHIC] [TIFF OMITTED] T9621.335

[GRAPHIC] [TIFF OMITTED] T9621.336

[GRAPHIC] [TIFF OMITTED] T9621.337

[GRAPHIC] [TIFF OMITTED] T9621.338

[GRAPHIC] [TIFF OMITTED] T9621.339

[GRAPHIC] [TIFF OMITTED] T9621.340

[GRAPHIC] [TIFF OMITTED] T9621.341

[GRAPHIC] [TIFF OMITTED] T9621.342

[GRAPHIC] [TIFF OMITTED] T9621.343

[GRAPHIC] [TIFF OMITTED] T9621.344

[GRAPHIC] [TIFF OMITTED] T9621.345

[GRAPHIC] [TIFF OMITTED] T9621.346

[GRAPHIC] [TIFF OMITTED] T9621.347

[GRAPHIC] [TIFF OMITTED] T9621.348

[GRAPHIC] [TIFF OMITTED] T9621.349

[GRAPHIC] [TIFF OMITTED] T9621.350

[GRAPHIC] [TIFF OMITTED] T9621.351

[GRAPHIC] [TIFF OMITTED] T9621.352

[GRAPHIC] [TIFF OMITTED] T9621.430

[GRAPHIC] [TIFF OMITTED] T9621.431

[GRAPHIC] [TIFF OMITTED] T9621.432

[GRAPHIC] [TIFF OMITTED] T9621.433

[GRAPHIC] [TIFF OMITTED] T9621.434

[GRAPHIC] [TIFF OMITTED] T9621.435

[GRAPHIC] [TIFF OMITTED] T9621.436

[GRAPHIC] [TIFF OMITTED] T9621.437

[GRAPHIC] [TIFF OMITTED] T9621.438

[GRAPHIC] [TIFF OMITTED] T9621.439

[GRAPHIC] [TIFF OMITTED] T9621.440

[GRAPHIC] [TIFF OMITTED] T9621.441

[GRAPHIC] [TIFF OMITTED] T9621.442

[GRAPHIC] [TIFF OMITTED] T9621.443

[GRAPHIC] [TIFF OMITTED] T9621.444

[GRAPHIC] [TIFF OMITTED] T9621.445

[GRAPHIC] [TIFF OMITTED] T9621.446

[GRAPHIC] [TIFF OMITTED] T9621.447

[GRAPHIC] [TIFF OMITTED] T9621.448

[GRAPHIC] [TIFF OMITTED] T9621.449

[GRAPHIC] [TIFF OMITTED] T9621.450

[GRAPHIC] [TIFF OMITTED] T9621.451

[GRAPHIC] [TIFF OMITTED] T9621.452

[GRAPHIC] [TIFF OMITTED] T9621.453

[GRAPHIC] [TIFF OMITTED] T9621.454

[GRAPHIC] [TIFF OMITTED] T9621.455

[GRAPHIC] [TIFF OMITTED] T9621.456

[GRAPHIC] [TIFF OMITTED] T9621.457

[GRAPHIC] [TIFF OMITTED] T9621.458

[GRAPHIC] [TIFF OMITTED] T9621.459

[GRAPHIC] [TIFF OMITTED] T9621.460

[GRAPHIC] [TIFF OMITTED] T9621.461

[GRAPHIC] [TIFF OMITTED] T9621.462

[GRAPHIC] [TIFF OMITTED] T9621.463

[GRAPHIC] [TIFF OMITTED] T9621.464

[GRAPHIC] [TIFF OMITTED] T9621.465

[GRAPHIC] [TIFF OMITTED] T9621.466

[GRAPHIC] [TIFF OMITTED] T9621.467

[GRAPHIC] [TIFF OMITTED] T9621.468

[GRAPHIC] [TIFF OMITTED] T9621.469

[GRAPHIC] [TIFF OMITTED] T9621.470

[GRAPHIC] [TIFF OMITTED] T9621.471

[GRAPHIC] [TIFF OMITTED] T9621.483

[GRAPHIC] [TIFF OMITTED] T9621.484

[GRAPHIC] [TIFF OMITTED] T9621.485

[GRAPHIC] [TIFF OMITTED] T9621.486

[GRAPHIC] [TIFF OMITTED] T9621.487

[GRAPHIC] [TIFF OMITTED] T9621.488

[GRAPHIC] [TIFF OMITTED] T9621.489

[GRAPHIC] [TIFF OMITTED] T9621.490

[GRAPHIC] [TIFF OMITTED] T9621.491

[GRAPHIC] [TIFF OMITTED] T9621.492

[GRAPHIC] [TIFF OMITTED] T9621.493

[GRAPHIC] [TIFF OMITTED] T9621.494

[GRAPHIC] [TIFF OMITTED] T9621.495

[GRAPHIC] [TIFF OMITTED] T9621.496

[GRAPHIC] [TIFF OMITTED] T9621.497

[GRAPHIC] [TIFF OMITTED] T9621.498

[GRAPHIC] [TIFF OMITTED] T9621.499

[GRAPHIC] [TIFF OMITTED] T9621.500

[GRAPHIC] [TIFF OMITTED] T9621.501

[GRAPHIC] [TIFF OMITTED] T9621.502

[GRAPHIC] [TIFF OMITTED] T9621.503

[GRAPHIC] [TIFF OMITTED] T9621.504

[GRAPHIC] [TIFF OMITTED] T9621.505

[GRAPHIC] [TIFF OMITTED] T9621.506

[GRAPHIC] [TIFF OMITTED] T9621.507

[GRAPHIC] [TIFF OMITTED] T9621.508

[GRAPHIC] [TIFF OMITTED] T9621.509

[GRAPHIC] [TIFF OMITTED] T9621.510

[GRAPHIC] [TIFF OMITTED] T9621.511

[GRAPHIC] [TIFF OMITTED] T9621.512

[GRAPHIC] [TIFF OMITTED] T9621.513

[GRAPHIC] [TIFF OMITTED] T9621.514

[GRAPHIC] [TIFF OMITTED] T9621.515

[GRAPHIC] [TIFF OMITTED] T9621.516

[GRAPHIC] [TIFF OMITTED] T9621.517

[GRAPHIC] [TIFF OMITTED] T9621.518

[GRAPHIC] [TIFF OMITTED] T9621.519

[GRAPHIC] [TIFF OMITTED] T9621.520

[GRAPHIC] [TIFF OMITTED] T9621.521

[GRAPHIC] [TIFF OMITTED] T9621.522

[GRAPHIC] [TIFF OMITTED] T9621.523

[GRAPHIC] [TIFF OMITTED] T9621.524

[GRAPHIC] [TIFF OMITTED] T9621.525

[GRAPHIC] [TIFF OMITTED] T9621.526

[GRAPHIC] [TIFF OMITTED] T9621.527

[GRAPHIC] [TIFF OMITTED] T9621.528

[GRAPHIC] [TIFF OMITTED] T9621.529

[GRAPHIC] [TIFF OMITTED] T9621.530

[GRAPHIC] [TIFF OMITTED] T9621.531

[GRAPHIC] [TIFF OMITTED] T9621.532

[GRAPHIC] [TIFF OMITTED] T9621.533

[GRAPHIC] [TIFF OMITTED] T9621.534

[GRAPHIC] [TIFF OMITTED] T9621.535

[GRAPHIC] [TIFF OMITTED] T9621.536

[GRAPHIC] [TIFF OMITTED] T9621.537

[GRAPHIC] [TIFF OMITTED] T9621.538

[GRAPHIC] [TIFF OMITTED] T9621.539

[GRAPHIC] [TIFF OMITTED] T9621.540

[GRAPHIC] [TIFF OMITTED] T9621.541

[GRAPHIC] [TIFF OMITTED] T9621.542

[GRAPHIC] [TIFF OMITTED] T9621.543

[GRAPHIC] [TIFF OMITTED] T9621.544

[GRAPHIC] [TIFF OMITTED] T9621.545

[GRAPHIC] [TIFF OMITTED] T9621.546

[GRAPHIC] [TIFF OMITTED] T9621.547

[GRAPHIC] [TIFF OMITTED] T9621.548

[GRAPHIC] [TIFF OMITTED] T9621.549

[GRAPHIC] [TIFF OMITTED] T9621.550

[GRAPHIC] [TIFF OMITTED] T9621.551

[GRAPHIC] [TIFF OMITTED] T9621.552

[GRAPHIC] [TIFF OMITTED] T9621.553

[GRAPHIC] [TIFF OMITTED] T9621.554

[GRAPHIC] [TIFF OMITTED] T9621.555

[GRAPHIC] [TIFF OMITTED] T9621.556

[GRAPHIC] [TIFF OMITTED] T9621.557

[GRAPHIC] [TIFF OMITTED] T9621.558

[GRAPHIC] [TIFF OMITTED] T9621.559

[GRAPHIC] [TIFF OMITTED] T9621.560

[GRAPHIC] [TIFF OMITTED] T9621.561

[GRAPHIC] [TIFF OMITTED] T9621.562

[GRAPHIC] [TIFF OMITTED] T9621.563

[GRAPHIC] [TIFF OMITTED] T9621.564

[GRAPHIC] [TIFF OMITTED] T9621.565

[GRAPHIC] [TIFF OMITTED] T9621.566

[GRAPHIC] [TIFF OMITTED] T9621.567

[GRAPHIC] [TIFF OMITTED] T9621.568

[GRAPHIC] [TIFF OMITTED] T9621.569

[GRAPHIC] [TIFF OMITTED] T9621.570

[GRAPHIC] [TIFF OMITTED] T9621.571

[GRAPHIC] [TIFF OMITTED] T9621.572

[GRAPHIC] [TIFF OMITTED] T9621.573

[GRAPHIC] [TIFF OMITTED] T9621.574

[GRAPHIC] [TIFF OMITTED] T9621.575

[GRAPHIC] [TIFF OMITTED] T9621.576

[GRAPHIC] [TIFF OMITTED] T9621.577

[GRAPHIC] [TIFF OMITTED] T9621.578

[GRAPHIC] [TIFF OMITTED] T9621.579

[GRAPHIC] [TIFF OMITTED] T9621.580

[GRAPHIC] [TIFF OMITTED] T9621.581

[GRAPHIC] [TIFF OMITTED] T9621.582

[GRAPHIC] [TIFF OMITTED] T9621.583

[GRAPHIC] [TIFF OMITTED] T9621.584

[GRAPHIC] [TIFF OMITTED] T9621.585

[GRAPHIC] [TIFF OMITTED] T9621.586

[GRAPHIC] [TIFF OMITTED] T9621.587

[GRAPHIC] [TIFF OMITTED] T9621.588

[GRAPHIC] [TIFF OMITTED] T9621.589

[GRAPHIC] [TIFF OMITTED] T9621.590

[GRAPHIC] [TIFF OMITTED] T9621.591

[GRAPHIC] [TIFF OMITTED] T9621.592

[GRAPHIC] [TIFF OMITTED] T9621.593

[GRAPHIC] [TIFF OMITTED] T9621.594

[GRAPHIC] [TIFF OMITTED] T9621.595

[GRAPHIC] [TIFF OMITTED] T9621.596

[GRAPHIC] [TIFF OMITTED] T9621.597

[GRAPHIC] [TIFF OMITTED] T9621.598

[GRAPHIC] [TIFF OMITTED] T9621.599

[GRAPHIC] [TIFF OMITTED] T9621.600

[GRAPHIC] [TIFF OMITTED] T9621.601

[GRAPHIC] [TIFF OMITTED] T9621.602

[GRAPHIC] [TIFF OMITTED] T9621.603

[GRAPHIC] [TIFF OMITTED] T9621.604

[GRAPHIC] [TIFF OMITTED] T9621.605

[GRAPHIC] [TIFF OMITTED] T9621.606

[GRAPHIC] [TIFF OMITTED] T9621.607

[GRAPHIC] [TIFF OMITTED] T9621.608

[GRAPHIC] [TIFF OMITTED] T9621.609

[GRAPHIC] [TIFF OMITTED] T9621.610

[GRAPHIC] [TIFF OMITTED] T9621.611

[GRAPHIC] [TIFF OMITTED] T9621.612

[GRAPHIC] [TIFF OMITTED] T9621.613

[GRAPHIC] [TIFF OMITTED] T9621.614

                                   - 
</pre></body></html>
